                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
      UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                    Quarterly Report to Congress
                                                                                January 29, 2014
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                                    C
                                                                                                                               INSPE TOR GEN
                                                                                                                          AL                E
                                                                                                                     CI




                                                                                                                                                      RA
                                                                                                                 E
                                                                                                               SP




                                                                                                                                                          L
Message from the Special Inspector General




                                                                                                                                                          M
                                                                                                               TRO




                                                                                                                                                      RA
                                                                                                                     LE




                                                                                                                UB




                                                                                                                                                 OG
                                                                                                                          DA                          R
                                                                                                                               S S E T R E LI E F P

I am pleased to present the Office of the Special Inspector General for the Troubled Asset Relief Program’s
(“SIGTARP”) quarterly report. The financial crisis involved criminal fraud that predated the crisis but continued
undetected, and criminal fraud born out of the crisis. Financial crisis crimes that relate to the rescue program
TARP are “rescue fraud.” SIGTARP is the lead law enforcement agency investigating rescue fraud and co-chairs
the Rescue Fraud Working Group of the President’s Financial Fraud Enforcement Task Force. Treasury’s status in
recovering TARP funds has no bearing on SIGTARP enforcing the law because a company’s repayment of TARP
must not serve as a shield to criminal liability. SIGTARP continues to open investigations of ongoing suspected
rescue fraud and to detect other rescue fraud by or against TARP institutions that had been hidden.

SIGTARP’s law enforcement efforts to combat rescue fraud have escalated. In 2012-2013, we nearly doubled
the number of defendants that were criminally charged in 2009-2011, and more than doubled those convicted.
SIGTARP investigations have resulted in criminal charges against 174 defendants (112 of which were senior
officers). Already 122 have been convicted with others awaiting trial. Of those convicted, 72 have been sentenced
to prison to date. Prison sentences resulting from a SIGTARP investigation bring justice and deter future crime.

We investigate institutions that applied for TARP with fraud on their books, and fraud by or against institutions
that obtained TARP funds. For example, SIGTARP and its partners uncovered a fraudulent scheme called the
“Hustle” or “High-Speed Swim Lane” by Bank of America before, during, and after it received TARP funds, where
it removed quality controls to funnel new mortgages at high speeds for sale to Fannie Mae and Freddie Mac. After
the U.S. Attorney (SDNY) brought civil charges, a Federal jury found Bank of America liable for fraud. SIGTARP’s
investigation of Bank of the Commonwealth resulted in 10 convictions of bank officers and co-conspirators for
crimes to hide the bank’s near-failing condition from regulators who examined the bank and its TARP application.
Seven were sentenced to prison including the CEO who was sentenced to 23 years, his son (a bank officer) who
was sentenced to 8 years and another bank officer sentenced to 17 years. SIGTARP’s investigation of mortgage
originator American Mortgage Specialists, Inc. (AMS) resulted in 8 year and 15 year prison sentences for 2 AMS
officers for a $28 million fraud against TARP bank BNC, which was unable to repay its $20 million in TARP.

SIGTARP arrests Internet-based rescue fraudsters who prey on homeowners by fraudulently selling guarantees of a
homeowner’s acceptance into HAMP. From a SIGTARP arrest, 4 Florida men were convicted and await sentencing
for their scam called “HOPE” that sold “software” that was nothing more than the free HAMP application.
Following a SIGTARP arrest, 3 defendants were sentenced to prison for tricking homeowners into believing that
they were HAMP-affiliated. Howard Shmuckler is serving 7½ years in prison after SIGTARP investigated that
he made empty money-back guarantees, claiming a 97% success rate in modifying mortgages. SIGTARP has shut
down 125 websites (and over 900 advertisers) bearing the hallmarks of this fraud. Full economic recovery for our
financial system and for TARP requires SIGTARP to maintain continued vigilance in combating rescue fraud. We
stand committed to that fight.

                                               Respectfully yours,




                                               CHRISTY L. ROMERO
                                               Special Inspector General
CONTENTS
Executive Summary	3
  Shutting Down Rescue Fraud Cases Involving TARP Banks	                   6
  Shutting Down Internet-Based Rescue Fraud That Preys on
  Homeowners and Exploits TARP	                                            8
  Shutting Down Internet Advertising of Rescue Fraud	                     12
  Shutting Down Rescue Fraud Targeting Homeowners Through the
  Radio and Direct Mail	                                                  13
  Other Rescue Fraud	                                                     14

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                            15
  SIGTARP Creation and Statutory Authority	                               17
  SIGTARP Oversight Activities 	                                          17
  The SIGTARP Organization	                                               45

Section 2
TARP OVERVIEW	                                                            47
  TARP Funds Update	                                                      49
  TARP Programs Update	                                                   52
  Cost Estimates	                                                         53
  TARP Programs	                                                          56
  Housing Support Programs	                                               63
  Financial Institution Support Programs	                                157
  Automotive Industry Support Programs	                                  224
  Asset Support Programs	                                                235

Section 3
TAXPAYER COMPLAINTS TO HOTLINE HELP SIGTARP FIGHT
FRAUD AND HIGHLIGHT CONTINUING PROBLEMS WITH
TARP HOUSING PROGRAMS	                                                   255
  Introduction	257
  Hotline Tips Help SIGTARP Fight Crime	                                  259
  Grievances Related to TARP Housing Programs Dominate
  Complaints to SIGTARP	                                                  262
  Complaints About Foreclosures Continue	                                 263
  Complaints About Servicers Persist	                                     265
  Biggest Servicers Draw the Most SIGTARP Hotline Complaints	             266
  California and Florida Lead Nation in SIGTARP Hotline Complaints	       267
  Treasury Should Move More Aggressively to Improve Servicer Performance	 267

Section 4
TARP OPERATIONS AND ADMINISTRATION	                                     271
  TARP Administrative and Program Operating Expenditures	               273
  Financial Agents	                                                     274
Section 5
SIGTARP RECOMMENDATIONS	                                                 285
  Update on Recommendations Regarding the Appointing of Directors to the
  Boards of CPP and CDCI Institutions	                                   287

  Endnotes	313

APPENDICES
 A.	 Glossary	344
 B.	 Acronyms and Abbreviations	                                         348
 C.	 Reporting Requirements	                                             351
 D.	Transaction Detail	                                                  355
 E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 510
 F.	 HAMP Modification Statistics	                                       514
 G.	Cross-Reference of Report to the Inspector General Act of 1978	      516
 H.	Public Announcements of Audits	                                      517
 I.	 Key Oversight Reports and Testimony	                                518
 J.	 Correspondence	520
 K.	 Peer Review Results	                                                526
 L.	 Organizational Chart 	                                              527
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   5




From a law enforcement perspective, the financial crisis involved criminal fraud
that predated the crisis but continued undetected, and criminal fraud born out
of the crisis. The financial crisis crimes that relate to the rescue program TARP
are referred to as “rescue fraud.” SIGTARP is the lead law enforcement agency
investigating rescue fraud and serves as the co-chair of the Rescue Fraud Working
Group of the President’s Financial Fraud Enforcement Task Force (“FFETF”).
Congress created SIGTARP specifically to investigate those who criminally abuse
or commit fraud related to Americans’ unprecedented TARP investment in our
financial system. Treasury’s current status in recovering TARP funds has no bearing
on SIGTARP enforcing the law for TARP-related crime. A company’s repayment
of TARP must not serve as a shield to criminal liability. With more than 150
open investigations, SIGTARP continues to open new investigations of ongoing
suspected rescue fraud and to detect other rescue fraud by or against TARP
institutions that had been hidden.
     Rescue fraud can involve nearly every type of financial fraud conceivable,
including bank fraud, mortgage fraud, securities fraud, and money laundering,
as well as crimes that prey upon people or institutions seeking help from TARP’s
rescue programs. In its role as co-chair of the FFETF Rescue Fraud Working
Group, SIGTARP detects, investigates, and shuts down rescue fraud, assists in the
prosecution of those committing rescue fraud, aids in the recovery of the proceeds
of rescue fraud, coordinates rescue fraud investigations throughout the nation as
many of these frauds cross state lines, trains law enforcement agencies nationwide
in rescue fraud investigations, and works to bring awareness to the public to deter
future crime and prevent further victimization.
     In SIGTARP’s first 18 months, we took the lead on two significant rescue
fraud cases that sent a powerful message that taxpayers funded TARP to stabilize
the economy, not to finance crime. SIGTARP led the investigation with the
working group co-chair, the U.S. Department of Justice, and with other group
members including the prosecutor, the U.S. Attorney’s Office for the Eastern
District of Virginia, to bring criminal charges that led to prison sentences for eight
senior officers of Colonial Bank and mortgage lender Taylor, Bean and Whitaker
Mortgage Corporation (“TBW”) for a 10-year, $2.9 billion fraud conspiracy. With
its law enforcement partners, SIGTARP arrested TBW Chairman Lee Farkas after
uncovering that Colonial submitted false records and statements for its TARP
application and after unraveling Colonial’s co-conspiracy with TBW. SIGTARP’s
quick action in detecting the fraud prevented $553 million in TARP funds that
Treasury had already approved from going to Colonial, all of which would have
been lost. In another early rescue fraud case, SIGTARP Special Agents arrested
the president of Park Avenue Bank, Charles Antonucci, and led the investigation
with other working group members including the prosecutor, the U.S. Attorney’s
Office for the Southern District of New York. Antonucci became the first defendant
convicted of attempting to steal from TARP when he made fraudulent claims about
the bank’s capital in connection with the bank’s application for $11 million in
TARP funds.
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               SIGTARP’s law enforcement efforts to combat rescue fraud have escalated
                                           since those early cases. In 2012-2013, resulting from SIGTARP investigations
                                           working with our law enforcement partners, we nearly doubled the number of
                                           defendants that were criminally charged in 2009-2011, and more than doubled
                                           the number of defendants convicted. As of December 31, 2013, SIGTARP’s
                                           investigations have resulted in criminal charges against 174 defendants (112 of
                                           which were senior officers). Already 122 of these have been convicted, with others
                                           awaiting trial, and although not all of these have faced sentencing, 72 have been
                                           sentenced to prison to date. Thirty-seven of these defendants were sentenced to
                                           prison in 2013, compared with 13 defendants sentenced to prison in 2012. The
                                           importance of prison sentences resulting from a SIGTARP investigation is twofold:
                                           they bring justice and the prospect of prison serves as a deterrent to future crime.
                                               In light of the fact that the financial crisis was caused by toxic mortgage assets,
                                           and TARP’s original purpose was to remove these toxic assets from banks’ balance
                                           sheets, it is not surprising that much of the rescue fraud SIGTARP investigates
                                           involves mortgages, mortgage derivatives, or bank loans related to mortgages.
                                           The Colonial/TBW case and Park Avenue Bank case provided SIGTARP early
                                           examples of banks committing rescue fraud by attempting to obtain TARP funds
                                           through fraudulent means. These cases and other bank fraud cases investigated by
                                           SIGTARP primarily focus on mortgages, whether commercial or residential. We
                                           have also found fraud by those defendants who defraud TARP banks, which can
                                           endanger the taxpayer’s investments in those banks.




                                           SHUTTING DOWN RESCUE FRAUD CASES
                                           INVOLVING TARP BANKS
                                           Much of the rescue fraud SIGTARP investigates involves mortgages because one
                                           lesson learned from TARP was how intertwined mortgages are throughout our
                                           financial system. They move through a multipart pipeline with many participants
                                           to turn basic mortgages into an array of complex mortgage-related bonds and
                                           other investment securities. Banks and mortgage lenders originate commercial
                                           and residential loans to borrowers and may sell these loans to investors including
                                           Government-sponsored enterprises (“GSEs”) Fannie Mae and Freddie Mac.
                                           Megabanks and other firms create securities backed by these mortgages and
                                           complex derivatives tied to their performance.
                                               Fraud can seep into the mortgage and mortgage securitization process at each
                                           stage. In some instances, mortgages lacked appropriate quality controls and later
                                           became defective or mortgage-backed assets based on these mortgages became
                                           toxic. This was the state of play for many mortgage-related assets when Treasury
                                           requested TARP authority. SIGTARP’s investigations have detected fraud at
                                           origination when banks make loans to borrowers, fraud during the life of risky
                                           mortgages that subsequently default, and fraud at the sale of defective mortgages
                                           on the secondary market. Several of SIGTARP’s investigations have involved risky
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   7




real estate loans that later defaulted, leaving holes on bank balance sheets that
executives fraudulently hid either prior to the bank applying for TARP or after
the bank received TARP.
SIGTARP investigations of         Much of the rescue fraud SIGTARP investigates
rescue fraud can result in
civil or criminal charges,        involves mortgages because one lesson learned
and in some cases, both.          from TARP was how intertwined mortgages are
The following are examples
                                  throughout our financial system.
of recent SIGTARP
investigations of this type of
rescue fraud.

Bank of America/Countrywide Financial
SIGTARP and its law enforcement partners uncovered fraud by Countrywide
Financial Corporation (with its home mortgage subsidiary) and its buyer, TARP
recipient Bank of America, from 2007 to 2009 to process a high volume of
mortgages at high speed for sale to Fannie Mae and Freddie Mac. This process,
internally called the “Hustle” (for “High-Speed Swim Lane” or “HSSL”), removed
quality control checks that could slow down the origination process. The GSEs
purchased thousands of fraudulent and otherwise defective residential mortgage
loans that later defaulted, causing more than $1 billion in losses and countless
foreclosures. The GSEs do not review loans prior to purchase, instead relying on
seller representations as to underwriting and other quality requirements. Despite
repeated warnings that eliminating quality control checks and fraud prevention,
expanding the authority of loan processors, and compensating based on volume
without regard to quality would yield disastrous results, the senior management
responsible for this program made no changes to the “Hustle.” At no time did Bank
of America, which continued the “Hustle” after buying Countrywide, disclose the
“Hustle” — constituting serious and significant misrepresentations by Bank of
America before and during the time taxpayers invested $45 billion in TARP funds
in the bank. As a result of SIGTARP’s investigation, the U.S. Attorney’s Office for
the Southern District of New York brought civil charges against Bank of America.
On October 23, 2013, after a four-week trial and one day of deliberation, a Federal
jury in Manhattan, New York, found Bank of America and Countrywide Financial
liable for defrauding the United States.

Bank of the Commonwealth
SIGTARP and its law enforcement partners arrested senior officers of the Bank
of the Commonwealth and co-conspirators. SIGTARP’s investigation revealed
a scheme to hide from banking regulators, who examined the bank and its
application for TARP funds, that loans to favored borrowers were past-due and that
the bank was about to fail. SIGTARP also uncovered bank officers who falsified
bank records to make bad loans look good, paying past-due balances using money
designated for other purposes — overdrew bank accounts to the tune of hundreds
of thousands of dollars, issuing new loans purportedly for new projects, and
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           advancing funds on construction loans with little to no completed construction.
                                           The fraud led to the failure of the bank.
                                               Four bank officers and six co-conspirators, including the favored borrowers,
                                           have been convicted of the crimes investigated by SIGTARP and its law
                                           enforcement partners. Three of the bank officers have been sentenced to prison,
                                           including: CEO Edward Woodard, who was sentenced to 23 years in Federal prison
                                           followed by 5 years of supervised release; Senior Vice President and commercial
                                           loan officer Stephen Fields, who was sentenced to 17 years in Federal prison
                                           followed by 5 years of supervised release; and the CEO’s son, Troy Brandon
                                           Woodard, a Vice President of a bank subsidiary, who was sentenced to 8 years in
                                           Federal prison followed by 5 years of supervised release. Additionally, four of the
                                           co-conspirators were sentenced to Federal prison for time periods ranging from 2
                                           years 3 months to 14 years to be followed by supervised release. Three others were
                                           sentenced to probation (all cooperated with the Federal investigation.) All of the
                                           defendants were ordered to pay restitution towards the full cost of the failure of the
                                           bank, $333 million.

                                           American Mortgage Specialists, Inc.
                                           SIGTARP and its law enforcement partners arrested the two principals of mortgage
                                           company American Mortgage Specialists, Inc. (“AMS”). SIGTARP and its law
                                           enforcement partners uncovered that AMS defrauded TARP recipient BNC
                                           National Bank (“BNC”), which funded AMS mortgages. BNC was supposed to be
                                           repaid when AMS sold the loans; however, AMS had a giant, multi-million dollar
                                           hole on its books due to fraud. AMS looked to BNC to fill that hole with more
                                           and more money by lying to BNC about the sale of loans. This scheme left TARP
                                           recipient BNC with $28 million in losses and expenses and unable to repay the
                                           $20 million in TARP it owed or to make its TARP dividend payments for three
                                           years. AMS fraudulently provided false financial information, which threatened the
                                           viability of BNC and put its employees, customers, and taxpayers’ TARP investment
                                           at risk. On June 28, 2013, AMS CEO Scott Powers was sentenced to 8 years in
                                           Federal prison followed by 5 years of supervised release. Vice President David
                                           McMaster was sentenced to more than 15 years in Federal prison, to be followed
                                           by 5 years of supervised release. Both were ordered to pay approximately $28
                                           million in restitution and forfeiture.




                                           SHUTTING DOWN INTERNET-BASED RESCUE
                                           FRAUD THAT PREYS ON HOMEOWNERS AND
                                           EXPLOITS TARP
                                           In 2009, SIGTARP began detecting, stopping, and investigating rescue fraud born
                                           out of the crisis involving residential mortgages and TARP’s signature housing
                                           program designed to stem foreclosures – the Home Affordable Modification
                                           Program (“HAMP”). Although HAMP was meant to help distressed homeowners
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   9




keep their homes by modifying mortgages to be affordable and sustainable,
fraudsters saw it as an opportunity to lure unsuspecting homeowners and line
their own pockets by “selling” services to guarantee a homeowner’s admission
into HAMP, with no intention of following through with their promises. Some
criminals masquerade as the Government or claim a fraudulent affiliation to TARP
to unleash their deceptions. The consequences are devastating. Those homeowners
who can least afford it lose thousands of dollars and opportunities to pursue
legitimate help, and may lose their homes.
    SIGTARP, along with its working group partners, is combating this type of
rescue fraud through a comprehensive response involving investigating, shutting
down companies through civil authorities, prosecuting criminal schemes, shutting
off the scammers’ access to homeowners through the Internet, and raising
awareness of these scams with the public so that homeowners can be armed with
clear information. Millions of homeowners continue to struggle and could be at
risk to fall victim to this type of rescue fraud. Although foreclosures have decreased,
the recovery in housing has been slower than anticipated, with 1 in 5 homeowners
deeply underwater and 1.36 million homeowners in varied stages of foreclosure,
according to RealtyTrac.
    SIGTARP has pro-actively raised public awareness by issuing a consumer fraud
alert with the Consumer Financial Protection Bureau and Treasury containing the
hallmarks of HAMP-related mortgage modification scams including:

•	 falsely promising pre-approval, stating the homeowner will definitely secure
   lower monthly mortgage payments;
•	 offers to help homeowners navigate the mortgage modification process for an
   advance fee;
•	 advertising a high success rate for
   securing mortgage modifications             SIGTARP’s investigations indicate
   (some claiming a success rate of 90%
                                               that some rescue fraudsters use the
   or greater);
•	 offering a money-back guarantee;            Internet as their weapon of choice.
•	 telling the homeowner to stop making
   mortgage payments and cease all
   communication with his or her lender; and
•	 the unofficial use of official program names or logos of Government agencies.

    Additionally, SIGTARP and its partners issued a similar fraud alert to combat
scams specifically targeting members of the Armed Services community, who often
face unique financial challenges and are at particular risk for this type of scam.
    The Internet is generally the first place homeowners look when seeking
assistance with their mortgage payment, and this is where they are most often
targeted in rescue fraud scams. Although con artists have historically swindled their
victims face-to-face, SIGTARP’s investigations indicate that some rescue fraudsters
use the Internet as their weapon of choice. The Internet allows fraudsters to
increase the size and scope of their scams, which they can run anytime and from
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            anywhere, hunting for victims all over the country. These Internet schemes are easy
                                            to contrive and construct, using fraudulent websites that can be subtly changed
                                            and reassembled as quickly as hitting a website’s refresh button.
                                                Our first priority is to shut these rescue fraud scams down as soon as possible
                                            to protect more homeowners from becoming victims. Often the quickest way
                                            to do that is for SIGTARP to work with state Attorneys General and other civil
                                            authorities, sharing with them our information. Once the business is shut down,
                                            we can focus on bringing justice and accountability and trying to recover the
                                            proceeds of this rescue fraud. We have worked with civil authorities resulting in
                                            civil charges against 29 individuals and 39 entities that have resulted in court
                                            orders for these defendants to pay $113,555,982 in penalties and disgorgement.
                                            However, in some cases being shut down by a Government agency is not enough to
                                            stop these scams from restarting under a new name and location. Further, in some
                                            SIGTARP investigations, once the fraudsters became aware that they are under
                                            Federal investigation, they shut down operations, only to open up days later in a
                                            new location with a new name.
                                                Sometimes the only way to stop these fraudsters who prey upon vulnerable
                                            homeowners struggling to recover from the financial crisis is to give them a new
                                            home: jail. SIGTARP and its law enforcement partners have done just that, and
                                            will continue to do so. Of the 174 individuals charged with crimes as a result of
                                            a SIGTARP investigation, 66 of these were charged with rescue fraud involving
                                            mortgage modification schemes. Courts have already convicted 38 of the 66
                                            charged, and the rest are awaiting trial. Twenty-two of the defendants convicted
                                            of mortgage modification scams investigated by SIGTARP have already been
                                            sentenced to prison, while others await sentencing. The following are examples of
                                            SIGTARP investigations of this type of rescue fraud.

                                            Home Owners Protection Economics, Inc. (“HOPE”)
                                            SIGTARP Special Agents arrested four Florida men, Christopher S. Godfrey,
                                            Dennis Fischer, Vernell Burris, Jr., and Brian M. Kelly, who ran a rescue fraud
                                            scam through their business Home Owners Protection Economics, Inc. (“HOPE”)
                                            that advertised on the Internet. HOPE falsely represented to homeowners that,
                                            with HOPE’s assistance, homeowners were virtually guaranteed to receive a
                                            loan modification under HAMP. HOPE criminally defrauded homeowners by
                                            telling them that HOPE had an almost perfect record in obtaining mortgage
                                            modifications, including under HAMP. In devising their scheme, the defendants
                                            wanted to name their organization HOPE, even struggling to find a word beginning
                                            with the letter “e”, with the intention of confusing their victims into thinking that
                                            they were associated with HAMP, which uses the Homeowner’s HOPE Hotline to
                                            communicate with homeowners.
                                                 Using these misrepresentations, HOPE scammed thousands of financially
                                            distressed homeowners to pay up to $900 each in exchange for home loan
                                            modifications, modification services, and “software licenses,” raking in more than
                                            $4 million from distressed homeowners desperately seeking help. As a major
                                            part of this rescue fraud, HOPE “sold” software to victims used to fill out forms
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   11




supposedly required for a HAMP mortgage modification. This software was
nothing more than the HAMP application forms copied from Treasury websites.
In an attempt to further confuse their victims, the defendants modified the phone
number on the forms, changing it from a Treasury number (a number that would
actually help homeowners) to their own phone number. Despite their promises,
the defendants provided the homeowners no advantage in the HAMP application
process, and, in fact, most of the homeowners’ mortgage modification applications
were denied. As soon as the homeowners’ money came in, it was spent, supporting
the lavish lifestyles of the defendants. In one instance, when one defendant ran
out of money while on vacation in the United Arab Emirates, he called back to his
co-conspirators and requested that they continue the fraud in order to continue to
fund his trip, exploiting additional troubled homeowners. All four were convicted,
with Burris and Kelly pleading guilty, and a Federal jury in Boston, Massachusetts,
convicting Godfrey and Fischer on November 14, 2013. All four defendants await
sentencing.

Compliance Audit Solutions, Inc.
SIGTARP and its law enforcement partners arrested Ziad al Saffar, Sara Beth
Rosengrant, and Daniel al Saffar, who ran a rescue fraud scam through their
businesses Compliance Audit Solutions, Inc., and CAS Group, Inc. (collectively
“CAS”). CAS used several websites to confuse homeowners into believing that
CAS was affiliated with HAMP, including: www.obama4homeowners.com and
www.hampnow.org. CAS falsely represented a service to “audit” homeowners’
mortgages to identify “violations” in their loan documents that could then be used
to force banks to negotiate new terms for the loans. CAS charged homeowners
between $995 and $3,500 and tricked homeowners through false advertisements,
representing the company was affiliated with or employed by the U.S. Department
of Housing and Urban Development, and that CAS was participating in a Federal
Government program called “Hope for Homeowners.” However, contrary to its
claims, CAS was not affiliated with HAMP or the Federal Government and did not
have the ability to require banks to modify struggling homeowners’ mortgages.
    Ziad al Saffar, Rosengrant, and Daniel al Saffar were convicted after pleading
guilty. Ziad al Saffar was sentenced to 1 year 9 months in Federal prison
followed by 3 years of supervised release and ordered to pay $270,418 to victims.
Rosengrant was sentenced to 1 year in Federal prison followed by 3 years of
supervised release and ordered to pay $101,069 to victims. Daniel al Saffar was
sentenced to 6 months in Federal prison followed by 3 years of supervised release
and ordered to pay $46,757 to victims.

Home Advocate Trustees
SIGTARP and its law enforcement partners arrested Mark Farhood and Jason Sant,
who operated a rescue fraud through their companies Home Advocate Trustees,
Walk Away Today, First Equity Trustees, Home Security Consultants, Sell Fast
USA, Short Sale Buyer, USA Sell House Fast, and USA Rental Housing. They used
Internet advertising and various websites, including www.walkawaytoday.org and
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            www.sellfastusa.com to deceive homeowners, marketing the businesses nationwide
                                            as purchasers of distressed real estate. They claimed they would buy underwater
                                            homes for $10, and that they would negotiate a deal with the mortgage lender to
                                            allow the homeowner to walk away from the home without owing anything more.
                                            They falsely claimed to have been in business for 17 years, to have experienced
                                            a 90% success rate, and to be the nation’s largest volume buyer of short sale
                                            and over-leveraged real estate. However, the businesses were a fraud, no such
                                            negotiations with lenders ever took place, and the scheme was merely a way for
                                            them to take possession of hundreds of residential properties at virtually no cost
                                            and then reap millions of dollars in profits by renting the homes to unsuspecting
                                            tenants. The unsuspecting homeowners still faced foreclosures.
                                                Additionally, Home Advocate Trustees submitted false HAMP applications in
                                            the name of homeowners, without the homeowners’ knowledge or consent, in order
                                            to stall foreclosures while they collected rent. Farhood and Sant were convicted.
                                            Farhood was sentenced to 11 years in Federal prison followed by 3 years supervised
                                            release, and Sant was sentenced to 6 years in Federal prison followed by 2 years
                                            supervised release. Farhood and Sant were ordered to pay $2.8 million to their
                                            victims.




                                            SHUTTING DOWN INTERNET ADVERTISING OF
                                            RESCUE FRAUD
                                            After learning from victims of rescue fraud schemes that they came in contact with
                                            the company through the Internet, SIGTARP became determined to try to cut off
                                            fraudsters’ access to homeowner victims on a national scale. SIGTARP acted swiftly
                                            and effectively to shut down 125 websites that were advertised on Google, Yahoo!,
                                            and Bing that demonstrated the hallmarks of these scams. SIGTARP coordinated
                                            with Google and Microsoft (which founded Bing and whose technology powers
                                            Yahoo!) to stop and remove advertisements for the websites. In addition, Google
                                            and Microsoft together suspended advertising relationships with more than 900
                                            Internet advertisers and agents connected with the 125 websites. As a result,
                                            SIGTARP’s work has dramatically decreased the scope and scale of these scams.
                                            SIGTARP has deterred fraudsters from starting these schemes in the first place by
                                            cutting off their primary access to vulnerable homeowners.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   13




SHUTTING DOWN RESCUE FRAUD TARGETING
HOMEOWNERS THROUGH THE RADIO AND DIRECT
MAIL
The Shmuckler Group
SIGTARP arrested Howard Shmuckler, who ran a rescue fraud scheme through
his business, The Shmuckler Group, LLC (“TSG”), which advertised to be the
“largest, most successful group of professionals from the Legal, Banking, Mortgage,
Financing, Real Estate, Government, and International Sector coming together to
help homeowners keep their homes in a manageable and affordable means.” He
misrepresented that TSG had a 97% success rate in obtaining loan modifications,
including through HAMP, and made money-back guarantees. Shmuckler
instructed homeowners to terminate contact with their mortgage companies
and to stop making mortgage payments. Shmuckler was quick to tout his legal
credentials and portrayed himself as an attorney licensed in Virginia, although he
was never licensed to practice law in the state. Through an affiliate known as No
VA Key Financials, Shmuckler targeted Hispanic homeowners, including through
advertisements on local Maryland Spanish-language radio stations.
    Despite paying Shmuckler advance fees, homeowners did not know that
he performed little if any services in return. In many cases, while they waited,
anticipating his help, their homes fell into foreclosure. While making these
misrepresentations, Shmuckler and TSG charged homeowners fees ranging
from $2,500 to $25,000, raking in nearly $2.8 million from approximately 865
homeowners whose mortgages were in distress and who came to Shmuckler
looking for relief. As result of SIGTARP’s investigation with its law enforcement
partners, Shmuckler was convicted in both state and Federal court and is now
paying for his crimes; he was sentenced to 7 years 6 months in prison, followed by
3 years of supervised release, and was ordered to pay more than $3.8 million to his
victims.

Nations Housing Modification Center
SIGTARP and its law enforcement partners arrested Glenn Rosofsky, Roger
Jones, and Michael Trap, who ran a rescue fraud scheme through their
businesses, which had names that made them appear associated with the Federal
Government, “Nations Housing Modification Center” (“NHMC”) and “Federal
Housing Modification Department.” They falsely represented that NHMC was
affiliated with HAMP, the Federal Government, and was located on Capitol Hill
in Washington, DC, when its only presence in Washington, DC, was a rented
post office box. To induce customers to purchase loan modification services
from NHMC, they misrepresented that NHMC had “attorneys” and “forensic
accountants” on staff to deal with the loss mitigation partners of banks, and that
NHMC had achieved an “extremely high success rate for homeowners that met
the Nations Home Affordable Modification Program guidelines.” NHMC neither
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            had the Federal Government connection, the staff, or success rate it represented.
                                            Nonetheless, using these misrepresentations, they fraudulently induced
                                            homeowners into paying advance fees of $2,500 to $3,000 each to purchase loan-
                                            modification services from NHMC, grossing at least $900,000 from more than
                                            300 homeowners. Rosofsky, Jones, and Trap were convicted after pleading guilty.
                                            Rosofsky was sentenced to 5 years 3 months in Federal prison followed by 3 years
                                            of supervised release. Jones was sentenced to 2 years 9 months in Federal prison
                                            followed by 3 years supervised release. Trap was sentenced to 2 years 6 months in
                                            Federal prison followed by 3 years of supervised release. Jones, Rosofsky, and Trap
                                            were ordered to pay $460,749 to their victims.




                                            OTHER RESCUE FRAUD
                                            In addition to rescue fraud involving mortgage modification schemes, SIGTARP
                                            has uncovered other forms of rescue fraud involving mortgages that seek to
                                            exploit the financial crisis and TARP. During the depths of the financial crisis and
                                            continuing today, con artists have sought to use this situation to their advantage,
                                            illegally lining their own pockets by manipulating bankruptcy laws and selling
                                            services to homeowners that claim to help, but actually prolong, rather than
                                            prevent, often unavoidable foreclosures. These crimes steal precious dollars from
                                            struggling homeowners, often involve identity theft or bankruptcy fraud, and can
                                            defraud TARP banks and the taxpayers that funded them or other TARP programs.
                                                While our economy is rebounding and Treasury continues to recover TARP
                                            funds, full economic recovery for our financial system and for TARP requires
                                            SIGTARP to maintain continued vigilance in combating rescue fraud. We stand
                                            committed to that fight.
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   17




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 22 published audits and evaluations, and 128 recommendations as of
December 31, 2013, and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of December 31, 2013,
SIGTARP had more than 150 ongoing criminal and civil investigations, many in
partnership with other agencies in order to leverage resources. SIGTARP takes its
law enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 174 individuals, including 112 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 122 defendants
•	 prison sentences for 72 defendants (others are awaiting sentencing)

iC
  riminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
18             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.1                                       •	 civil cases and other actions against 64 individuals (including 50 senior officers)
     CRIMINAL CHARGES FROM                               and 52 entities (in some instances an individual will face both criminal and civil
     SIGTARP INVESTIGATIONS                              charges)
     RESULTING IN PRISON                              •	 orders temporarily suspending or permanently banning 75 individuals from
     SENTENCES
                                                         working in the banking or financial industry, working as a contractor with the
                      2%
         3%            3%                                Federal Government, or working as a licensed attorney
                                                      •	 orders of restitution and forfeiture and civil judgments and other orders
      5%               8%
                                                         entered for $4.71 billion. This includes restitution orders entered for $4.2
                                25%                      billion, forfeiture orders entered for $241.3 million, and civil judgments and
           10%
                                                         other orders entered for $294.6 million. Although the ultimate recovery of
            10%                                          these amounts is not known, SIGTARP has already assisted in the recovery
                             19%                         of $193.8 million. These orders happen only after conviction and sentencing
                  15%
                                                         or civil resolution and many SIGTARP cases have not yet reached that stage;
                                                         accordingly, any recoveries that may come in these cases would serve to increase
        Conspiracy to Commit Fraud
        Bank Fraud
                                                         the $193.8 million
        Wire and Mail Fraud                           •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
        State Charges (Conspiracy to collect             the now-failed Colonial Bank
        upfront fees/commit grand theft)
        False Statements and Entries
        Loan Fraud                                        SIGTARP’s investigations concern a wide range of possible wrong-doing,
        Bankruptcy Fraud                              and result in charges including: bank fraud, conspiracy to commit fraud or to
        Alteration of records                         defraud the United States, wire fraud, mail fraud, making false statements to the
        Money Laundering
                                                      Government (including to SIGTARP agents), securities fraud, money laundering,
        Other
                                                      and bankruptcy fraud, among others.ii Those investigations have resulted in charges
     Note: Numbers may not total due to rounding.
                                                      against defendants holding a variety of jobs, including numerous senior executives.
     FIGURE 1.2                                           Figure 1.1 represents a breakdown of criminal charges from SIGTARP
                                                      investigations resulting in prison sentences. Figure 1.2 represents a breakdown
     DEFENDANTS CONVICTED
     IN CASES FILED AS A                              of defendants convicted in cases filed as a result of SIGTARP investigations, by
     RESULT OF SIGTARP                                employee type. Although the majority of SIGTARP’s investigative activity remains
     INVESTIGATIONS, BY                               confidential, over the past quarter there have been significant public developments
     EMPLOYEE TYPE                                    in several SIGTARP investigations, described below.
                 4%         2%
            4%               2%                       TARP-Related Investigations Activity Since the October 2013
         7%
                                                      Quarterly Report
      7%
                                                      Former Bank Chief Executive Officer of TARP Applicant Bank Sentenced to 23
                                                      Years in Federal Prison for Role in Massive Bank Fraud Scheme – Bank of the
                              73%                     Commonwealth
                                                      On November 6, 2013, Edward J. Woodard, Jr., the former chief executive officer,
        Senior Executive
                                                      president, and chairman of the board at the Bank of the Commonwealth (“BOC”)
        Mortgage Scammer                              was sentenced for his role in a $41 million bank fraud scheme that masked non-
        Individual                                    performing assets at BOC and contributed to the failure of BOC in 2011. Woodard
        Straw Borrower/Investor
                                                      was sentenced to 23 years in Federal prison, followed by five years of supervised
        Bank Employee
        Attorney
                                                      release. He was also ordered to jointly pay restitution of $333 million with other
        Other
     Note: Numbers may not total due to rounding.     ii T
                                                          he prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   19




co-defendants and to forfeit $65 million as part of a joint order. In May 2013, after
a 10-week trial, a jury convicted Woodard of conspiracy to commit bank fraud,
false entry in a bank record, unlawful participation in loans, false statements to a
financial institution, misapplication of bank funds, and bank fraud. The evidence
presented at trial showed that Woodard engaged in an illegal relationship with
certain favored borrowers to mask BOC’s deteriorating financial condition.
    Also this quarter, on November 22, 2013, Jeremy C. Churchill, a former
BOC vice president and commercial loan officer, was sentenced to five years of
probation, which includes one year of home detention. Churchill was also ordered
to pay $5 million in restitution and forfeiture, jointly with the other co-defendants.
Churchill pled guilty in May 2012 to conspiracy to commit bank fraud. Churchill
admitted that he submitted loan requests to BOC to provide more than $1
million to companies owned by Dwight A. Etheridge, a favored BOC borrower.
BOC subsequently fully charged off the loans as a loss. Churchill also admitted
to requesting that BOC provide a $4.1 million loan to Etheridge’s company to be
used to purchase an incomplete condominium project in Virginia Beach from the
owners who were delinquent on their loan at the bank. Churchill admitted that he
and Stephen G. Fields, BOC’s former executive vice president and commercial loan
officer, who was also convicted in the bank fraud scheme, used approximately half
the loan proceeds to pay down the underlying loan on the property.
    BOC was a community bank headquartered in Norfolk, Virginia, that failed
in September 2011. It was the eighth largest bank failure in the country that year
and the largest bank failure in Virginia since 2008. The Federal Deposit Insurance
Corporation (“FDIC”) estimates that BOC’s failure will cost the deposit insurance
fund more than $268 million. In November 2008, BOC sought $28 million in
TARP funds. Subsequently, BOC’s Federal banking regulator asked the bank to
withdraw the TARP application, which BOC did.
    From 2005 to 2009, BOC more than doubled its assets, largely through
brokered deposits, a financial tool that allows investors to pool their money and
receive higher rates of returns. Because of the high volatility of these deposits, an
institution must remain well-capitalized to accept and renew brokered deposits.
BOC funded and administered many loans during this period without following
industry standards or the bank’s own internal controls, and by 2008, the volume
of the bank’s troubled loans and foreclosed real estate soared. From 2008 to
2011, BOC executives used various methods to fraudulently mask the bank’s true
financial condition out of fear that the bank’s declining health would negatively
impact investor and customer confidence and affect the bank’s ability to accept
and renew brokered deposits. To fraudulently hide BOC’s troubled assets, the bank
insiders overdrew demand deposit accounts to make loan payments, extended new
loans or additional principal on existing loans to cover payment shortfalls, changed
the terms of loan agreements to make loans appear current, and used funds from
related entities (sometimes without authorization from the borrower) to make loan
payments.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Eight other individuals have been convicted in connection with the
                                            investigation, six of whom have been sentenced to prison; one other individual’s
                                            charges are pending:

                                            •	 In addition to convicting Edward Woodard, the jury also convicted two other
                                               former top BOC bank executives and a favored borrower on conspiracy and
                                               fraud charges relating to their roles in the bank fraud scheme. Stephen Fields,
                                               the bank’s former executive vice president and commercial loan officer, was
                                               convicted of conspiracy to commit bank fraud, false entry in a bank record,
                                               false statement to a financial institution, and misapplication of bank funds.
                                               In September 2013, Fields was sentenced to 204 months in Federal prison,
                                               followed by five years of supervised release. He was also ordered to pay $332
                                               million in restitution and forfeit $61.6 million, jointly with the other co-
                                               defendants. Troy Brandon Woodard, the son of Woodard and the former vice
                                               president and mortgage loan specialist at a subsidiary of BOC, was convicted
                                               of conspiracy to commit bank fraud and unlawful participation in a loan. In
                                               September 2013, Troy Brandon Woodard was sentenced to 96 months in
                                               Federal prison followed by five years of supervised release. He was also ordered
                                               to pay $2.4 million in restitution and forfeit $4.3 million as part of the joint
                                               restitution and forfeiture orders. Dwight A. Etheridge, a favored BOC borrower
                                               who owned and operated a residential and commercial development company,
                                               was convicted of conspiracy to commit bank fraud, misapplication of bank
                                               funds, and false statement to a financial institution. In September 2013,
                                               Etheridge was sentenced to 50 months in Federal prison, followed by five years
                                               of supervised release. Etheridge was also ordered to pay $5 million in restitution
                                               and $11 million in forfeiture, jointly with the other co-defendants.
                                            •	 In July 2013, Thomas E. Arney, who pled guilty in the case, was sentenced to
                                               27 months in Federal prison, followed by three years of supervised release. He
                                               was also ordered to pay $2 million in restitution as part of the joint restitution
                                               order and to forfeit $7.5 million, jointly with the other co-defendants, as well as
                                               a substantial amount of personal property and real estate. Arney was convicted
                                               of conspiracy to commit bank fraud, unlawful monetary transactions, and
                                               making false statements to a financial institution. Arney, a real estate developer
                                               and businessman, admitted performing favors for BOC insiders in exchange for
                                               preferential treatment that harmed the bank. Arney also admitted to helping
                                               these BOC insiders fraudulently conceal the extent of BOC’s non-performing
                                               assets by purchasing BOC-owned properties.
                                            •	 In July 2013, Recardo S. Lewis, a former vice president of Etheridge’s
                                               construction company, was sentenced to five years of probation, which includes
                                               six months home detention for his role in the fraud scheme. Lewis was also
                                               ordered to pay $855,962 in restitution as well as $2 million in forfeiture, as
                                               part of the joint restitution and forfeiture orders issued. Lewis previously pled
                                               guilty to conspiracy to defraud BOC by submitting fraudulent draws on the
                                               incomplete condominium project in Virginia Beach.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   21




•	 In September 2012 and October 2012, business partners Eric H. Menden and
   George P. Hranowskyj were sentenced to prison for their roles in the bank fraud
   scheme. Menden was sentenced to 11.5 years in prison followed by three years
   of supervised release. Hranowskyj was sentenced to 14 years in prison followed
   by three years of supervised release. Menden and Hranowskyj were ordered to
   pay $32.8 million in restitution and to forfeit $43.5 million as part of the joint
   restitution and forfeiture orders. On January 25, 2012, Natallia Green, a former
   employee of Menden and Hranowskyj, was sentenced to five years of probation
   and was ordered to pay $106,519 in restitution after pleading guilty to making
   a false statement to BOC in a loan application. On August 10, 2011, Maria
   Pukhova, another former employee of Menden and Hranowskyj, was charged
   with making a false statement on a loan application to BOC in April 2010.
   Pukhova’s case is pending.

   This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Virginia, the Federal Bureau of Investigation (“FBI”), Internal
Revenue Service Criminal Investigation (“IRS-CI”), the Securities and Exchange
Commission (“SEC”), the Federal Deposit Insurance Corporation Office of
Inspector General (“FDIC OIG”) and the Office of Inspector General – Board of
Governors of the Federal Reserve System (“FRB OIG”).

Former Senior Executive of TARP Applicant Bank Pleads Guilty to Bank Fraud
Schemes – The Park Avenue Bank
On October 17, 2013, Matthew L. Morris, a former Park Avenue Bank (“Park
Avenue”) senior vice president, pled guilty in Federal court in New York, New
York, to conspiracy to commit bank bribery, conspiracy to commit fraud on bank
regulators, conspiracy to commit wire fraud, and substantive fraud on bank
regulators. At sentencing on July 15, 2014, Morris faces up to 30 years in Federal
prison, a period of supervised release, a fine, and restitution.
    As previously reported, on October 1, 2012, SIGTARP agents, along with its
law enforcement partners, arrested Morris for his role in the bank fraud schemes
that led to the failure of Park Avenue Bank, as well as an insurance fraud scheme.
On the same day, the U.S. District Court for the Southern District of New York
unsealed the 13-count indictment against Morris, which charged the defendant
with conspiracy to commit bank bribery, bank and insurance fraud, and the theft
of $2.3 million from a publicly traded company. Anthony Huff, a businessman
from Kentucky, was also arrested and charged in connection with the bank fraud
schemes as well as for insurance fraud and tax evasion. Allen Reichman, a former
executive director of investments at an investment bank and financial services
company, was also arrested and charged with conspiracy to commit wire fraud
in connection with the alleged insurance fraud. Huff and Reichman’s cases are
pending.
    Charles Antonucci, the former president and chief executive officer of Park
Avenue Bank, previously pled guilty on October 8, 2010, to offenses including
securities fraud, making false statements to bank regulators, bank bribery, and
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            embezzlement of bank funds. Antonucci was arrested in March 2010 after
                                            attempting to steal $11 million of TARP funds by, among other things, making
                                            fraudulent claims about the bank’s capital position. With his guilty plea, Antonucci
                                            became the first defendant convicted of attempting to steal from TARP.
                                                As senior vice president at Park Avenue, Morris managed the bank’s
                                            relationships with Huff and his business entities. As part of his plea agreement,
                                            Morris admitted that, from 2008 through 2009, he and Antonucci accepted up
                                            to $400,000 and other benefits in exchange for providing preferential treatment
                                            in connection with Huff’s banking relationship. In exchange for bribes, Morris
                                            admitted that he and Antonucci (i) caused Park Avenue Bank to issue fraudulent
                                            letters of credit totaling $1.75 million to aid Huff in securing an investment in a
                                            business he owned, (ii) allowed Huff to freely overdraft accounts at Park Avenue
                                            Bank in excess of $9 million in violation of bank policy, (iii) facilitated intra-bank
                                            transfers in furtherance of frauds perpetrated by Huff, and (iv) fraudulently caused
                                            Park Avenue Bank to issue at least $4.5 million in loans to Huff-related businesses
                                            by circumventing the bank’s loan review procedures and allowing Huff to submit
                                            loan applications containing false statements.
                                                Morris also admitted that in about October 2008, he devised a plan with
                                            Huff and Antonucci to prevent Park Avenue Bank from being designated as
                                            undercapitalized by its regulator, FDIC. Morris admitted that he, Huff, Antonucci
                                            and other co-conspirators used a series of fraudulent transactions to make it appear
                                            that Antonucci personally invested $6.5 million in Park Avenue Bank when, in
                                            actuality, the $6.5 million was part of Park Avenue Bank’s pre-existing capital.
                                            Morris admitted that he, Huff, and Antonucci further defrauded FDIC by making
                                            false statements to, and providing false documents to, FDIC about the true source
                                            of the funds used for Antonucci’s purported $6.5 million investment in Park Avenue
                                            Bank. To further conceal the fraudulent $6.5 million investment, Morris admitted
                                            that he and Huff had conspired to steal $2.3 million from a publicly traded
                                            company to partially fund the investment, and then attempted to conceal the theft
                                            with a fabricated Park Avenue Bank certificate of deposit. Antonucci emphasized to
                                            FDIC that his $6.5 million investment had stabilized the bank’s capital problems
                                            and should be considered favorably in evaluating the bank’s November 2008
                                            request for $11.35 million in TARP funds through the Capital Purchase Program.
                                            Park Avenue Bank specifically referenced Antonucci’s $6.5 million investment in its
                                            TARP application.
                                                Morris further admitted that, from July 2008 to November 2009, he conspired
                                            with Huff, Antonucci, and Reichman to defraud Oklahoma insurance regulators
                                            into allowing Antonucci to purchase the assets of an Oklahoma insurance company.
                                            Morris, Huff, and Antonucci funded most of the purchase of the insurance
                                            company by convincing Reichman to cause the investment firm to issue a $30
                                            million loan. Huff and Antonucci pledged the insurance company’s own assets as
                                            collateral for the loan, which was prohibited under Oklahoma law. Morris admitted
                                            that, to secure regulatory approval of the purchase of the insurance company, he,
                                            Huff, and Antonucci falsely represented to regulators that Park Avenue Bank was
                                            funding the purchase, thereby concealing the fact that the insurance company’s
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   23




own assets were pledged as collateral for the loan. Morris stated that after the sale
was finalized, they took millions of dollars of the insurance company’s assets for
themselves. The insurance company later became insolvent and was placed into
receivership.
   On March 12, 2010, Park Avenue Bank was closed by the New York State
Banking Department, and FDIC was appointed as receiver. FDIC estimates that
Park Avenue Bank’s failure will cost the deposit insurance fund $50.7 million.
   The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the Southern District of New York, the FBI, U.S. Immigration and Customs
Enforcement, the New York State Banking Department Criminal Investigations
Bureau, and FDIC OIG.

Two Charged in Fraud Schemes Against TARP Bank – Matthew D. Sweet,
Alberto Solaroli
On November 6, 2013, a former senior executive of One Bank & Trust N.A.
(“Onebanc”) and a borrower were charged in Federal Court in Little Rock,
Arkansas, in fraud schemes perpetrated against Onebanc. If convicted, the former
executive, Matthew D. Sweet, faces up to 30 years in prison, a period of supervised
release, and a fine for the bank fraud charges. OneFinancial Corporation (“One
Financial”), the parent company of Onebanc, received $17.3 million in TARP
funds in June 2009, which remains outstanding as of December 31, 2013.
    Sweet was the vice president and controller of Onebanc until February 2012.
The indictment alleges that, while employed with Onebanc, Sweet obtained 30
cashier’s checks from January 2009 to October 2011 drawn on a Onebanc account
by using his position as a senior executive to sign cashier’s checks. He would then
mail the cashier’s checks to his two personal credit cards to pay off the credit card
bills. In total, Sweet is alleged to have stolen almost $75,000. When confronted
by Onebanc management, Sweet admitted his actions. He was allowed to resign
and he paid back the amount he had stolen with two cashier’s checks from
another bank. One check for $9,662.25 was made payable to Onebanc and one
for $101,003.49 was made payable to Layton Stuart, former president and CEO of
Onebanc. Sweet is scheduled to go on trial on June 23, 2014.
    As previously reported, on July 12, 2013, $17.9 million in life insurance
benefits, several bank accounts, and five vehicles were seized in connection with
a SIGTARP civil forfeiture investigation of Stuart, the former owner of One
Financial. In September 2012, Stuart was officially terminated from functioning
in any capacity at Onebanc by its board of directors as a result of an order by the
Office of the Comptroller of the Currency. Stuart passed away on March 26, 2013.
The civil forfeiture complaint filed in Federal court in Little Rock, Arkansas, seeks
the forfeiture of the proceeds of financial transactions in connection with a bank
fraud and money laundering scheme allegedly committed by Stuart and others. The
alleged scheme began in 2008 and ran until 2012 when Stuart was terminated as
CEO of Onebanc. The complaint alleges that Stuart diverted almost $2 million of
the TARP money for his personal use. The civil forfeiture case is pending.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Also on November 6, 2013, Onebanc customer Alberto Solaroli was charged
                                            with bank fraud for fraudulently obtaining funds from Onebanc. The charges
                                            alleged that Solaroli, purporting to be the owner of patents for certain technology,
                                            submitted falsified financial documents to Onebanc in order to obtain a $1.5
                                            million loan. As part of the application process, Solaroli fraudulently claimed assets
                                            of $170 million and misrepresented his personal net worth to be more than $169
                                            million. Solaroli allegedly used the funds for personal expenses and never made
                                            a single payment on the loan. In 2008, Onebanc sued Solaroli and received a
                                            civil judgment in Florida for $1.5 million, which Solarioli has not paid. Solaroli is
                                            scheduled to go on trial on August 11, 2014.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Arkansas, the FBI, IRS-CI, FRB OIG, and FDIC OIG.

                                            TARP Bank and Former CFO Charged by Securities and Exchange Commission
                                            with False Accounting – Fifth Third Bank and Daniel Poston
                                            On December 4, 2013, the SEC entered an administrative order against Fifth
                                            Third Bancorp (“Fifth Third”) and Daniel Poston, its former chief financial officer,
                                            for failing to properly report Fifth Third’s non-performing commercial real estate
                                            loans in the third quarter of 2008. Fifth Third received $3.4 billion in TARP funds
                                            in December 2008.
                                                According to the SEC’s order, Fifth Third suffered a substantial increase in its
                                            non-performing assets due to the decline in the real estate market in 2007 and
                                            2008 and borrowers’ failure to repay their loans as originally required. Ultimately, in
                                            the third quarter of 2008, the company decided to pursue a sale of these troubled
                                            loans. In September 2008, Fifth Third entered into agreements with two loan
                                            brokers to market and sell the loans. When Fifth Third decided to sell the loans,
                                            U.S. accounting rules required the company to reclassify the loans from “held for
                                            investment” to “held for sale” and to carry them at fair value. Despite the actions
                                            taken by Fifth Third to market and sell the non-performing loans, Fifth Third
                                            falsely continued to classify the loans as “held for investment,” which incorrectly
                                            suggested that the company had not made the decision to sell the loans. As Fifth
                                            Third’s chief financial officer, Poston was aware of Fifth Third’s decision to sell
                                            the loans as well as the accounting rules governing such a sale. Despite that
                                            knowledge, Poston did not direct the company to classify and value the loans as
                                            required. He also inaccurately represented Fifth Third’s loan classifications to its
                                            auditor, and falsely certified the company’s inaccurate quarterly report submitted to
                                            the SEC in November 2008.
                                                To settle the SEC’s charges, Fifth Third agreed to pay a $6.5 million civil money
                                            penalty. Poston agreed to pay a $100,000 civil money penalty and to be suspended
                                            from appearing or practicing as an accountant before the SEC for one year.
                                                This case was investigated by SIGTARP and the SEC.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                       25




Perpetrators of Mortgage Modification Scheme Convicted of Defrauding
Homeowners in $4 Million Fraud Scheme – Home Owners Protection Economics,
Inc. (“HOPE”)
On November 14, 2013, a Federal jury in Massachusetts convicted Christopher
S. Godfrey and Dennis Fischer of defrauding homeowners in a home loan
modification scam involving a company named Home Owners Protection
Economics, Inc. (“HOPE”). Both Godfrey and Fischer were convicted of
conspiracy, wire fraud, mail fraud, and misuse of a government seal. At sentencing
on February 13, 2014, Godfrey and Fischer each face a maximum sentence of
up to 20 years in prison on each count, a period of supervised release, a fine, and
restitution.
     On August 9, 2011, SIGTARP agents, with its law enforcement partners,                 FIGURE 1.3
arrested Godfrey, Fischer, Vernell Burris, Jr., and Brian M. Kelly for their roles in
                                                                                           HOPE VICTIMS, BY STATE
the mortgage modification fraud scheme. On November 28, 2012, Burris pled
guilty to conspiracy and wire fraud for his role in the scheme. On May 2, 2013,
Kelly pled guilty to conspiracy, nine counts of wire fraud, and nine counts of mail
fraud for his role in the scheme. Burris and Kelly are scheduled to be sentenced on
February 26, 2014. At sentencing, Burris and Kelly each face a maximum sentence
of up to 20 years on each count to be followed by a period of supervised release, a
fine, and restitution.
     All four defendants participated in a fraudulent home loan modification scam
through HOPE. Through a series of misrepresentations, HOPE induced thousands
                                                                                            Concentration of HOPE Victims
of financially distressed homeowners to pay up-front fees of up to $900 each                    1-25          26-50          51-99         >100
in exchange for home loan modifications, modification services, and “software
licenses.” In exchange for the fee, HOPE sent homeowners a “do-it-yourself”                  Notes: Based on Government database of known
                                                                                             HOPE victims, May 2010-April 2011. More than half
application package that was nearly identical to the application provided free               of the approximately 4,800 records in that database
                                                                                             had incomplete addresses and thus are not shown in
of charge by the U.S. Government through the Home Affordable Modification                    this map. Additionally, database does not include
                                                                                             records prior to May 2010, although HOPE began
Program (“HAMP”), which is a Federally funded mortgage assistance program                    operations in 2009.
implemented under TARP. HOPE falsely misrepresented to homeowners that,
with HOPE’s assistance, the homeowners were virtually guaranteed to receive
a loan modification under HAMP. HOPE lulled the distressed homeowners by
telling them that HOPE had an almost perfect record of obtaining home loan
modifications. The HOPE customers had no advantage in the applications
process, and, in fact, most of their applications were denied. Through these
misrepresentations, HOPE was able to persuade thousands of homeowners
collectively to pay more than $4 million in fees to HOPE. Victims of HOPE lived
in all 50 states and Washington, DC. Figure 1.3 shows the states with the highest
numbers of known victims.
     This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Massachusetts, the Computer Crime and Intellectual Property Section
of the U.S. Department of Justice’s Criminal Division and the FBI.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Two Plead Guilty to Running National HAMP Mortgage Modification Scam; Five
                                            Others Charged
                                            On October 23, 2013, Guy Samuel, Anthony Blackwell, Angel Gonzalez, Aren
                                            Goldfaden, and Jonathan Lyons were charged with allegedly operating a large
                                            mortgage modification scheme that defrauded hundreds of victims out of millions
                                            of dollars. All five defendants were charged with conspiracy and wire fraud. Also, on
                                            October 16, 2013, Scott Schreiber pled guilty to conspiracy to commit wire fraud
                                            and wire fraud and on September 19, 2013, Darrell Keys pled guilty to conspiracy
                                            to commit wire fraud in connection with their roles in the scheme. Sentencing
                                            for Keys is scheduled for March 19, 2014, while Schreiber is scheduled to be
                                            sentenced on April 17, 2014.
                                                Between January 2009 and June 2011, the defendants operated several
                                            companies that allegedly falsely promised to help financially struggling homeowners
                                            refinance their mortgages for lower interest rates and monthly payments after
                                            the homeowners paid upfront fees of thousands of dollars. The defendants
                                            allegedly enticed homeowners to participate in a fraudulent loan modification
                                            program by making numerous false misrepresentations to homeowners through
                                            advertisements, websites, promotional letters, and direct conversations. The alleged
                                            misrepresentations included: (i) the defendants’ companies were associated with
                                            HAMP; (ii) a mortgage modification was guaranteed and would only take 30 to 60
                                            days; (iii) mortgage payments submitted to the defendants could “assist” with the
                                            modification approval process; and (iv) homeowners would be refunded their paid
                                            fees if the defendants could not modify a homeowner’s loan. The defendants are
                                            also accused of altering customer financial information used by an online service
                                            to determine eligibility for HAMP modifications. This caused false modification
                                            approvals to be generated, lulling customers into believing work was actually being
                                            done on their behalf. Customers who received the deceptive modification approvals
                                            erroneously believed that they were eligible for a modification. After receiving the
                                            upfront fees from the struggling homeowners, the defendants allegedly did nothing
                                            and used the funds for their own personal use. Through the scheme, the charges
                                            allege that the defendants’ companies obtained at least $2.3 million from more
                                            than 500 homeowners throughout the United States.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the FBI.

                                            California Man Sentenced to Federal Prison in Foreclosure-Rescue Scam –
                                            Walter Bruce Harrell
                                            On November 26, 2013, Walter Bruce Harrell was sentenced to 10 months in
                                            Federal prison followed by three years of supervised release for his role in carrying
                                            out a foreclosure rescue fraud scheme. Harrell previously pled guilty in Federal
                                            court in San Francisco, California, on August 2, 2013, to bankruptcy fraud and
                                            making false statements in bankruptcy proceedings. Harrell admitted that from
                                            March 2011 through January 2013, he perpetrated a scheme to prevent lenders,
                                            including TARP-recipient banks, from lawfully foreclosing on properties. Harrell
                                            admitted to soliciting homeowners whose properties were facing foreclosure and
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   27




promising to postpone the foreclosure in exchange for a monthly fee. After the
fees were paid, Harrell admitted that he directly or indirectly had the property
owners transfer a fractional interest in their distressed property to individuals paid
by Harrell to voluntarily file for bankruptcy. As required by law, these bankruptcy
filings automatically halted the foreclosure sales until the lenders sought relief from
the stay or until the bankruptcy case was dismissed. In circumstances where the
bankruptcy court allowed a foreclosure to proceed, Harrell admitted that he paid
an individual to file bankruptcy petitions in which he could execute the scheme
to defraud creditors who were attempting to lawfully foreclose on numerous
properties. In doing so, he delayed and obstructed foreclosure sales by creditors,
including TARP banks, through improper use of the Federal bankruptcy process.
     This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of California, and the FBI.

Delaware Construction Project Manager Pleads Guilty to Bank Fraud Conspiracy
– Salvatore J. Leone
On October 7, 2013, Salvatore J. Leone pled guilty in Federal court in Delaware
to conspiracy to commit bank fraud for his role in a scheme to defraud Delaware-
based TARP-recipient bank Wilmington Trust Company (“Wilmington Trust”).
Wilmington Trust received $330 million in TARP funds in December 2008. At
sentencing on February 13, 2014, Leone faces up to 30 years in Federal prison, a
period of supervised release, and a fine.
    Leone, a former project manager and partner in several limited liability
companies formed for the purpose of developing real estate in and around Dover,
Delaware, admitted that from approximately January 2007 through December
2009, he conspired with Michael A. Zimmerman to defraud Wilmington Trust by
submitting fraudulent construction draw requests in order to obtain construction
loan proceeds. During that time, Leone acted as project manager and partner
with Zimmerman, a Delaware real estate developer. Leone admitted that he and
Zimmerman obtained more than $37 million in financing from Wilmington Trust
for three real estate development projects. Leone further admitted that he and his
co-conspirators submitted to Wilmington Trust numerous fraudulent construction
draw requests and requests for the advancement of funds. After the requested
funds were disbursed, Leone and his co-conspirators used the funds for purposes
other than requested, including for their own personal use.
    As previously reported, Zimmerman, who was arrested on January 24, 2013,
by SIGTARP agents and its law enforcement partners, has been charged in
a separate indictment with conspiracy to commit bank fraud, eight counts of
making a false statement to a financial institution, and two counts of money
laundering. He is currently awaiting trial. Also as previously reported, Joseph
Terranova, a former senior official at Wilmington Trust, pled guilty on May 8,
2013, to conspiracy to commit bank fraud for his role in a fraud scheme that
concealed the true financial condition of Wilmington Trust by engaging in “extend
and pretend” schemes to keep loans current and to hide past-due loans from
regulators and investors. Terranova admitted to facilitating Zimmerman’s receipt
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            of more than $2 million in proceeds that he was not entitled to under the terms
                                            of his loan agreement. Terranova concealed Wilmington Trust’s true financial
                                            condition by misrepresenting more than $883 million in loans that were past due
                                            in 2009. Terranova also took part in a mass extension of expired and matured loan
                                            commitments that resulted in a failure to report more than $373 million in past
                                            due loans.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Delaware, the FBI, IRS-CI, and FRB OIG.

                                            Former Executive of TARP Bank Admits to Taking Bribes and Former Debt
                                            Collection Agency CEO Sentenced to Federal Prison in Fraud Scheme – Oxford
                                            Collection Agency
                                            On November 22, 2013, Wilbur Tate III pled guilty in Federal court in Bridgeport,
                                            Connecticut, to receiving bribes while he was employed as an assistant vice
                                            president with TARP recipient U.S. Bank. At sentencing on February 14, 2014,
                                            Tate faces up to five years in prison, a period of supervised release, and a fine. As
                                            previously reported, on February 27, 2013, Tate was arrested by SIGTARP agents
                                            and its law enforcement partners and charged with taking bribes from executives at
                                            the debt collection agency Oxford Collection Agency (“Oxford”).
                                                From January 2004 through February 2011, Tate was responsible for
                                            outsourcing collection accounts to collection agencies, including Oxford. Tate
                                            admitted that, from August 2008 through November 2010, he accepted bribes
                                            from several executives at Oxford in exchange for steering bank business to Oxford.
                                            Tate took bribes that began with boxes of expensive cigars and escalated to cash
                                            payments of as much as $5,000 that were hidden in cigar boxes.
                                                Also this quarter, on December 19, 2013, Peter Pinto, the former chief
                                            executive officer at Oxford, was sentenced to 48 months in Federal prison, followed
                                            by five years of supervised release. Restitution will be determined by the court at
                                            a later date. Peter Pinto and his father, Richard Pinto, each had previously pled
                                            guilty in May 2012 to one count of conspiracy to commit wire fraud, substantive
                                            wire fraud, bank fraud, and money laundering stemming from a $10 million fraud
                                            scheme they executed while executives at Oxford. On January 30, 2013, Richard
                                            Pinto, the now-deceased former chairman of Oxford, was sentenced to 60 months
                                            in Federal prison and was ordered to pay $12.3 million in restitution.
                                                Also as previously reported, on September 9, 2013, Patrick Pinto, a former
                                            vice president at Oxford, was sentenced to two years of probation accompanied
                                            by six months of home confinement and a $10,000 fine for his role in the fraud
                                            scheme perpetrated through Oxford. Three other former Oxford senior executives
                                            pled guilty in December 2012 for their roles in the scheme: Randall Silver, chief
                                            financial officer, Charles Harris, executive vice president, and Carlos Novelli, chief
                                            operations officer. At sentencing, Silver faces up to 25 years in prison and a fine;
                                            Harris and Novelli each face up to five years in prison and a fine.
                                                From January 2007 through March 2011, Oxford had agreements with
                                            business clients to collect debts from debtors, to report such collections to the
                                            clients, and to remit the collected payments back to the clients. The clients would
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   29




pay Oxford a portion of the monies collected by Oxford as a fee. Silver, Harris, and
Novelli admitted to conspiring with Richard Pinto and Peter Pinto to execute a
fraud scheme in which they (i) collected funds from debtors on behalf of clients
but did not remit those funds to the clients and (ii) created false documents and
used other deceptive means to cover up their failure to remit collected funds to
clients and their improper use of the funds. Richard Pinto and Peter Pinto also
admitted to causing Oxford to secure a line of credit from TARP recipient Webster
Bank without disclosing to the bank that Oxford was defrauding its clients and had
significant outstanding payroll taxes. Silver also helped Richard Pinto and Peter
Pinto defraud Webster Bank by inducing the bank to increase the line of credit to
$6 million by withholding Oxford’s true financial condition and submitting falsified
financial records to the bank. Richard Pinto, Peter Pinto, and Silver also admitted
to laundering funds from the line of credit by providing those funds to clients
to maintain the clients’ business, which continued the scheme. The fraudulent
scheme led victims to lose more than $12 million.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the District of Connecticut, the U.S. Attorney’s Office for the Northern District
of Georgia, IRS-CI, the FBI, and the Connecticut Securities, Commodities and
Investor Fraud Task Force.

Former Tennessee Businessman Sentenced to Federal Prison for Ponzi Schemes
That Defrauded TARP Banks – Edward Shannon Polen
On December 19, 2013, Edward Shannon Polen was sentenced to 71 months in
Federal prison, followed by five years of supervised release, for his role in executing
several elaborate Ponzi schemes in which he defrauded investors and several TARP-
recipient banks. Previously, Polen pled guilty in December 2012 in Federal court in
Nashville, Tennessee, to bank fraud, mail fraud, wire fraud, and money laundering.
    From January 2007 through March 2011, Polen executed several Ponzi
schemes in which he solicited and ultimately defrauded more than 50 investors
of more than $16 million. In one of those schemes, he falsely represented to
victim-investors that he needed money to purchase construction equipment that
he was going to sell to Tennessee Emergency Management Agency contractors for
a significant profit. When confronted with payment demands, Polen provided his
victims with post-dated checks drawn on accounts at multiple banks, including
F&M Bank, U.S. Bank, and Fifth Third Bank, all which received TARP funds. The
checks were drawn from accounts that had been closed or did not have sufficient
funds to cover the amounts of the checks. Polen admitted to using investors’ money
for his own personal use, including paying off his gambling debts and repaying
prior investment victims to keep the scams going.
    The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Middle District of Tennessee, IRS-CI, the FBI, the Tennessee Valley Authority
Office of Inspector General, and the Tennessee Bureau of Investigation.
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Two Individuals Sentenced to Federal Prison in Connection with Their Roles in
                                            $5 Million Bank Fraud Scheme – Matthew Amento, Christopher Woods
                                            On December 20, 2013, Matthew Amento and Christopher Woods were sentenced
                                            in Newark, New Jersey, for their roles in a fraud scheme running from March 2008
                                            through February 2010 that resulted in significant losses to mortgage lenders,
                                            including TARP-recipients Bank of America and Wells Fargo. Amento and Woods
                                            were each sentenced to 18 months in Federal prison, followed by three years of
                                            supervised release, and ordered to each pay $1.23 million in restitution.
                                                Previously, in 2012, Amento and Woods pled guilty in Federal court to wire
                                            fraud charges in connection with their roles in the fraud scheme. Amento and
                                            Woods recruited straw borrowers to buy residential properties located in New
                                            Jersey and submitted fraudulent loan applications to lenders along with false
                                            supporting financial information, including financial documents that were altered
                                            to reflect inflated income and asset amounts for the applicants. In addition,
                                            Amento and Woods caused others to create and submit to lenders inaccurate loan
                                            settlement statements that showed fake liens on the subject property purportedly
                                            owned by entities controlled by Amento and Woods. After the lenders approved
                                            these loans, Amento and Woods caused loan proceeds to be transferred to bank
                                            accounts they controlled, to pay off liens purportedly owned by entities they
                                            controlled. This scheme caused lenders, including the TARP-recipient banks, to
                                            suffer losses totaling approximately $5 million.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of New Jersey, the FBI, the United States Postal Inspection Service, and
                                            the Department of Housing and Urban Development Office of Inspector General
                                            as part of the New Jersey Mortgage Fraud Task Force.

                                            Business Owner Sentenced to Federal Prison for Defrauding TARP Bank –
                                            Joseph D. Wheliss, Jr.
                                            On October 25, 2013, Joseph D. Wheliss, Jr., the owner and operator of National
                                            Embroidery Works, Inc., was sentenced to two years in Federal prison followed by
                                            five years of supervised release for his involvement in a scheme to defraud TARP
                                            recipient Pinnacle National Bank (“Pinnacle”). Wheliss was also ordered to pay
                                            restitution and forfeiture in the amount of $4.8 million.
                                                As previously reported, Wheliss pled guilty in Federal court in Nashville,
                                            Tennessee, to bank fraud on October 5, 2012. From approximately 2005 to 2011,
                                            Wheliss, a former banking customer of Pinnacle, defrauded Pinnacle by submitting
                                            false and forged documents to the bank regarding his finances and assets, causing
                                            the bank to give him multiple commercial loans totaling more than $5.6 million.
                                            In order to obtain the commercial loans, Wheliss claimed to be the beneficiary of
                                            a trust fund that he at one point valued at nearly $20 million, and he pledged this
                                            “asset” as collateral for the loans. The trust fund did not exist, and Wheliss was not
                                            the beneficiary of such a trust. Pinnacle, a recipient of $95 million in TARP funds,
                                            suffered a loss of approximately $4.8 million due to Wheliss’s fraud.
                                                The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Middle District of Tennessee, and the FBI.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   31




Former Delaware Bank President and CEO Pleads Guilty to Bank Fraud Scheme
– James A. Ladio
On December 17, 2013, James A. Ladio pled guilty in Federal court in Wilmington,
Delaware, to perpetrating a fraud scheme that used bank funds to pay off personal
debts. Ladio was charged on November 26, 2013, with two counts of bank fraud
and two counts of money laundering. At sentencing on April 17, 2014, Ladio
faces up to 30 years in Federal prison, a period of supervised release, a fine, and
mandatory restitution. According to court documents, Ladio was the founder and
former president and chief executive officer of MidCoast Community Bank, Inc.
(“MidCoast”), a community bank located in Wilmington, Delaware. From 2004
through 2008, Ladio borrowed money from a TARP-recipient bank to fund a
number of business and investment projects, securing the loans with an investment
property. In March 2009, Ladio sold the investment property without informing the
bank or using the proceeds to pay back the loans. In April 2010, that bank began
to consider the loans for restructuring and discovered that Ladio had sold the
property. In July 2010, Ladio agreed to a repayment plan.
    In the months that followed, Ladio went on to use his position at MidCoast to
persuade two bank customers to borrow money from MidCoast under the guise
of business loans and then transfer the proceeds to him in the form of short-term,
high-interest loans. In October 2010, the first MidCoast customer obtained a
$700,000 line of credit after indicating he intended to use the funds to make
improvements on a building project. The same day he received the funds, the
customer wired $629,240 to Ladio’s personal checking account. In July 2011, a
second MidCoast customer applied for a working line of capital for his various
business interests. After successfully obtaining a $650,000 disbursement on a line
of credit, that customer then wired $639,000 to Ladio’s personal bank account.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Delaware, the FBI, and IRS-CI.

Borrower Pleads Guilty to Defrauding Failed TARP Bank – Lawrence Allen Wright
On October 29, 2013, Lawrence Allen Wright, a local developer, pled guilty in
Federal court in Pensacola, Florida, in connection with a series of fraud schemes
against several banks, including TARP-recipients GulfSouth Private Bank
(“GulfSouth”), Regions Bank, and Bank of America. Wright was convicted of
conspiracy to commit fraud affecting a financial institution, conspiracy to commit
money laundering, bank fraud, mail fraud, aggravated identity theft, and making
false statements to a Federally insured institution. At sentencing on January 14,
2014, Wright faces up to 30 years in Federal prison, a period of supervised release,
and a fine. For the conviction of aggravated identity theft, Wright faces a minimum
mandatory sentence of two years in Federal prison.
    From November 2006 through January 2010, Wright admitted to engaging in a
scheme where an individual’s identity was used without that individual’s knowledge
or permission on mortgage and tax documents to obtain bank loans. After obtaining
the loan, Wright stopped making payments, which resulted in a foreclosure and a
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            civil action against that person. Wright admitted that he engaged in this conduct to
                                            obtain loans on several properties, which resulted in losses to several banks.
                                                During this time, Wright also admitted to recruiting individuals to purchase
                                            unimproved lots by promising that his company, Wright & Associates, would
                                            make the monthly loan payments. The purchasers’ incomes were inflated on the
                                            loan applications, and ultimately, no payments were made on the loans, and the
                                            properties went into foreclosure.
                                                On October 19, 2012, GulfSouth failed, and FDIC was named as receiver. At
                                            the time, $7.5 million in TARP funds had not been repaid. FDIC estimates the cost
                                            to the deposit insurance fund from the bank failure to be in excess of
                                            $36.1 million.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Florida, and FDIC OIG.

                                            Missouri Businessman Convicted of Defrauding TARP Bank – Michael E. Filmore
                                            On December 20, 2013, Michael Edward Filmore pled guilty to bank fraud charges
                                            in Federal court in St. Louis, Missouri. Filmore was convicted of defrauding
                                            Pulaski Bank (“Pulaski”) out of more than $5 million. At sentencing on March 18,
                                            2014, Filmore faces up to 30 years in prison, a period of supervised release, and a
                                            fine. On January 16, 2009, Pulaski Financial Corp., the parent company of Pulaski,
                                            received approximately $33 million in TARP funds.
                                                Filmore was engaged in the business of selling and leasing medical equipment.
                                            Filmore admitted that on November 1, 2013, he attempted to take out a secured
                                            loan in order to purchase additional medical equipment from a purported
                                            selling company. In connection with the transaction, he made numerous
                                            misrepresentations and submitted a fictitious purchase order. Filmore further
                                            admitted that he disguised the fact that he actually controlled the account to which
                                            the funds were to be disbursed. Pulaski discovered the discrepancies during the
                                            underwriting process and cancelled the wire transfer of the funds. Additionally,
                                            as collateral for all his outstanding loans and a $1 million revolving line of credit,
                                            Filmore pledged a brokerage account that was never actually funded.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Missouri, and the FBI.

                                            Three Charged in Wire Fraud Schemes – Marvin Solis, Leigh F. Fiske, and
                                            Michael P. Ramdat
                                            Three people were indicted on September 5 and November 21, 2013, by a San
                                            Francisco, California, Federal grand jury for their alleged roles in schemes that
                                            defrauded numerous victims. The illegal profits were funneled through banks that
                                            received TARP funding.
                                               On September 5, 2013, an indictment was returned against Marvin Solis
                                            charging him with wire fraud for his role in operating a fraudulent real estate
                                            investment program. Solis was arrested on September 11, 2013, by SIGTARP
                                            agents and its law enforcement partners. From September 2008 through March
                                            2009, Solis allegedly devised a fraudulent investment scheme in which he
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   33




represented that he would assist clients by locating investment properties for them
to purchase. Instead of fulfilling his promises, Solis allegedly used investors’ money
to, among other things, pay his own expenses and trade in the futures market.
    On November 21, 2013, an indictment was returned against Leigh F. Fiske
and Michael P. Ramdat charging them with conspiracy and multiple counts
of wire fraud. Fiske and Ramdat were arrested by SIGTARP agents and their
law enforcement partners on September 16, 2013, and December 2, 2013,
respectively. According to that indictment, from July 2008 through June 2009,
Fiske and Ramdat allegedly misrepresented that they would help investors obtain
lines of credit for their businesses. Instead, Fiske and Ramdat never provided any
assistance to these individuals and allegedly transferred the money into their own
personal bank accounts. The charges allege that Fiske and Ramdat executed a plan
that defrauded victims out of over $400,000 and used the profits for their own
personal expenses.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of California, and the FBI.

Two Insurance Agents Charged and One Insurance Agent Convicted for Roles in
Insurance Fraud Scheme – Daniel Carpenter, Wayne Bursey, and Joseph Edward
Waesche IV
On December 12, 2013, Daniel Carpenter and Wayne Bursey, senior executives
of several companies that marketed, sold, and administered employee welfare
benefit plans, were indicted by a Federal grand jury in Hartford, Connecticut,
for 33 counts of wire fraud, mail fraud, and conspiracy for allegedly defrauding
Lincoln National Life Insurance Company (“Lincoln”). Lincoln is a subsidiary of
Lincoln National Corporation, a holding company that received $950 million in
TARP funds. Also, on December 9, 2013, Joseph Edward Waesche IV pled guilty in
Federal court in Hartford, Connecticut, for his participation in the fraud scheme.
At sentencing on March 6, 2014, Waesche faces up to five years in Federal prison,
a period of supervised release, and a fine.
     According to documents filed in court, from 2006 through 2013, the
defendants worked with insurance agents to obtain life insurance policies on
elderly individuals that would then be held as investments or sold to a third-party
investor. The defendants allegedly recruited elderly straw purchasers to apply for
life insurance policies by promising that the premiums would initially be paid by
a third party, essentially offering these individuals free insurance for two years.
The defendants then allegedly assisted the insureds with filing fraudulent loan
applications with the insurance providers, including Lincoln. These policies,
unknown to the insurers, were stranger-originated life insurance policies or
investor-originated life insurance policies, meaning that the intent was to sell
ownership of the policies to investors. At the time, these same insurance companies
were denying applications if the policy holder intended, at the outset, to resell the
policy or if an investor, ultimately interested in taking ownership, financed the
policy. The loan applications made numerous misrepresentations, including the
income and net worth of the straw insureds, the presence of third-party financing,
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            and the true intent to sell the policy to investors. The defendants allegedly profited
                                            through the submission of numerous false life insurance applications by receiving
                                            millions of dollars in commissions. The insurance companies were forced to pay
                                            inflated payouts while receiving less income and a decreased cash flow. The fraud
                                            also rendered their financial projections unreliable.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Connecticut, and the Department of Labor Office of Inspector General.

                                            Sentences Resulting from TARP-Related Crimes
                                            Of the 122 defendants convicted as a result of a SIGTARP investigation, 72
                                            defendants have already been sentenced to prison for TARP-related crimes, 16
                                            were sentenced to probation, and the remainder await sentencing.
                                               The consequences for TARP-related crime are severe. The average prison
                                            sentence imposed by courts for TARP-related crime investigated by SIGTARP is
                                            67 months, which is nearly double the national average length of prison sentences
                                            involving white collar fraud of 35 months.iii Fourteen defendants investigated
                                            by SIGTARP were sentenced to 10 years or more in Federal prison, including
                                            Lee Farkas, former chairman of mortgage company Taylor, Bean and Whitaker
                                            Mortgage Corporation LLC, who is serving a 30-year prison sentence, and Edward
                                            Woodard, former chairman of the Bank of the Commonwealth, who is serving a
                                            23-year prison sentence. Many of the criminal schemes uncovered by SIGTARP
                                            had been ongoing for years, and involved millions of dollars and complicated
                                            conspiracies with multiple co-conspirators. On average, as a result of SIGTARP
                                            investigations, criminals convicted of crimes related to TARP’s banking programs
                                            have been sentenced to serve 77 months in prison. Criminals convicted for
                                            mortgage modification fraud schemes or other mortgage fraud investigated by
                                            SIGTARP were sentenced to serve an average of 42 months in prison. Criminals
                                            investigated by SIGTARP and convicted of investment schemes such as Ponzi
                                            schemes and sales of fake TARP-backed securities were sentenced to serve an
                                            average of 108 months in prison. Figure 1.4 shows the people sentenced to prison,
                                            the sentences they received, and their affiliations.




                                            iii See the U.S. Sentencing Commission’s 2012 Sourcebook of Federal Sentencing Statistics for additional information.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                      35




FIGURE 1.4




 Lee Bentley Farkas             Edward Woodard                 Stephen Fields               David McMaster               Mark Anthony McBride         Delroy Davy                  George Hranowskyj
 360 months                     276 months                     204 months                   188 months                   170 months                   168 months                   168 months
 3 years supervised release     5 years supervised release     5 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release   3 years supervised release
 Chairman                       President & CEO                Executive Vice President     Vice President               Omni National Bank           Omni National Bank           Owner/Operator
 Taylor, Bean and Whitaker      Bank of the Commonwealth       Bank of the Commonwealth     American Mortgage                                                                      345 Granby, LLC
                                                                                            Specialists Inc.




 Mark A. Conner                 Eric Menden                    Robert Egan                  Mark Farhood                 Glen Alan Ward               John Farahi                  Gordon Grigg
 144 months                     138 months                     132 months                   132 months                   132 months                   120 months                   120 months
 5 years supervised release     3 years supervised release     3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release
 President                      Owner/Operator                 President                    Owner                        Partner                      Investment Fund Manager      Financial Advisor and Owner
 FirstCity Bank                 345 Granby, LLC                Mount Vernon Money Center    Home Advocate Trustees       Timelender                   and Operator                 ProTrust Management, Inc.
                                                                                                                                                      New Point Financial
                                                                                                                                                      Services, Inc.




 Scott Powers                   Robin Bruhjell Brass           Catherine Kissick            Troy Brandon Woodard         Howard Shmuckler             Clayton A. Coe               David Tamman
 96 months                      96 months                      96 months                    96 months                    90 months                    87 months                    84 months
 5 years supervised release     3 years supervised release     3 years supervised release   5 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release
 CEO                            Owner/Operator                 Senior Vice President        Vice President               Owner/Operator               Vice President               Attorney
 American Mortgage              BBR Group, LLC                 Colonial Bank                Bank of the Commonwealth     The Shmuckler Group, LLC     Senior Commercial Loan       Nixon Peabody LLP
 Specialists Inc.                                                                           Subsidiary                                                Officer
                                                                                                                                                      FirstCity Bank




 Lori Macakanja                 Jerry J. Williams              Desiree Brown                Jason Sant                   Edward Shannon Polen         Adam Teague                  Francesco Mileto
 72 months                      72 months                      72 months                    72 months                    71 months                    70 months                    65 months
 3 years supervised release     3 years supervised release     3 years supervised release   2 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release
 Housing Counselor              President, CEO, and Chairman   Treasurer                    Co-owner                     Owner                        Vice President
 Home Front, Inc.               Orion Bank                     Taylor, Bean and Whitaker    Home Advocate Trustees       Polen Lawn Care and          Appalachian Community Bank
 (a HUD-approved company)                                                                                                Maintenance/F&M




 Glenn Steven Rosofsky          Frederic Gladle                William Cody                 Delton de Armas              Jeffrey Levine               Bernard McGarry              Richard Pinto
 63 months                      61 months                      60 months                    60 months                    60 months                    60 months                    60 months
 3 years supervised release     3 years supervised release     5 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release   5 years supervised release
 Owner                          Operator                       Owner/Operator               CFO                          Executive Vice President     Chief Operatiing Officer     Chairman
 Federal Housing Modification   Timelender                     C&C Holdings, LLC            Taylor, Bean and Whitaker    Omni National Bank           Mount Vernon Money Center    Oxford Collection Agency
 Department
36                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Dwight Etheridge                Peter Pinto                     Julius Blackwelder           Paul Allen                     Brent Merriell               Robert E. Maloney, Jr.          Cheri Fu
     50 months                       48 months                       46 months                    40 months                      39 months                    39 months                       36 months
     5 years supervised release      3 years supervised release      3 years supervised release   2 years supervised release     5 years supervised release   3 years supervised release      5 years supervised release
     President                       President/COO                   Manager                      CEO                                                         In-house Counsel                Owner/President
     Tivest Development &            Oxford Collection Agency        Friends Investment Group     Taylor, Bean and Whitaker                                   FirstCity Bank                  Galleria USA
     Construction, LLC




     Roger Jones                     Raymond Bowman                  Thomas Hebble                Michael Trap                   Tommy Arney                  Joseph D. Wheliss, Jr.          Clint Dukes
     33 months                       30 months                       30 months                    30 months                      27 months                    24 months                       24 months
     3 years supervised release      2 years supervised release      3 years supervised release   3 years supervised release     3 years supervised release   5 years supervised release      5 years supervised release
     Federal Housing Modification    President                       Executive Vice President     Owner                          Owner                        Owner/Operator                  Owner
     Department                      Taylor, Bean and Whitaker       Orion Bank                   Federal Housing Modification   Residential Development      National Embroidery Works Inc   Dukes Auto Collision Repair
                                                                                                  Department                     Company




     Angel Guerzon                   Reginald Harper                 Thomas Fu                    Karim Lawrence                 Ziad Nabil Mohammed          Matthew Amento                  Christopher Woods
     24 months                       24 months                       21 months                    21 months                      Al Saffar                    18 months                       18 months
     3 years supervised release      3 years supervised release      5 years supervised release   5 years supervised release     21 months                    3 years supervised release      3 years supervised release
     Senior Vice President           President and CEO               Owner/CFO                    Loan Officer                   3 years supervised release   Owner                           Owner
     Orion Bank                      First Community Bank            Galleria USA, Inc.           Omni National Bank             Operator                     Blue and White Management,      Blue and White Management,
                                                                                                                                 Compliance Audit             Ameridream                      Ameridream
                                                                                                                                 Solutions, Inc.




     Troy A. Fouquet                 Gregory Flahive                 Lynn Nunes                   Carlos Peralta                 Andrew M. Phalen             Sara Beth Bushore               Walter Bruce Harrell
     18 months                       12 months                       12 months                    12 months                      12 months                    Rosengrant                      10 months
     3 years supervised release      3 years probation               5 years supervised release   3 years supervised release     5 years probation            12 months                       3 years supervised release
     Owner                           Owner/Attorney                  Owner                        Park Avenue Bank               Operator                     3 years supervised release      Owner
     Team Management, LLC            Flahive Law Corporation         Network Funding                                             CSFA Home Solutions          Operator
     TRISA, LLC                                                                                                                                               Compliance Audit
                                                                                                                                                              Solutions, Inc.




     Justin D. Koelle                Jacob J. Cunningham             John D. Silva                Daniel Al Saffar               Dominic A. Nolan             Teresa Kelly                    Sean Ragland
     9 months                        8 months                        8 months                     6 months                       6 months                     3 months                        3 months
     5 years probation               5 years probation               5 years probation            3 years supervised release     5 years probation            3 years supervised release      3 years supervised release
     CEO                             CEO                             Senior Official              Sales Representative           Owner                        Operations Supervisor           Senior Financial Analyst
     CSFA Home Solutions             CSFA Home Solutions             CSFA Home Solutions          Compliance Audit               CSFA Home Solutions          Colonial Bank                   Taylor, Bean and Whitaker
                                                                                                  Solutions, Inc.




     Mark W. Shoemaker               Michael Bradley Bowen
     1 day                           1 day
     (with credit for time served)   (with credit for time served)
     5 years supervised release      5 years supervised release
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   37




Location of TARP-Related Crimes
SIGTARP has found, investigated, and supported the prosecution of TARP-related
crime throughout the nation. Our investigations have led to criminal charges
against 174 defendants (122 of whom have been convicted as of December 31,
2013, while others await trial).iv These defendants were charged in courts in 20
states and Washington, DC. SIGTARP investigations have identified victims of
TARP-related crimes in all 50 states and Washington, DC. Victims of TARP-related
crimes include taxpayers, the Federal Government, including Treasury and FDIC,
TARP-recipient banks, and homeowners targeted by mortgage modification scams.
Figure 1.5 shows locations of U.S. Attorney’s Offices and state prosecutorial offices
where criminal charges were filed as a result of SIGTARP investigations.v




iv Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.

v The prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
 investigations.
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.5

                                            LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
                                            SIGTARP INVESTIGATIONS



                                                                                        Fargo
                                                                                                                                                              Concord
                                                                                                                                                                Boston
                                                                                                                                   Buffalo      Brooklyn
                                                                                                                                              New York       New Haven
                                                                                                                                                           Newark
                                             Sacramento                                                               Chicago                           Philadelphia
                                                                                                                                           Wilmington
                                                                                                                             District of Columbia    Upper Marlboro
                                                San Francisco                                                                                      Alexandria
                                                                              Denver                               Springfield
                                                                                                      Kansas City
                                                                                                                                                       Norfolk
                                                                                           Jefferson City       St. Louis
                                                    Las Vegas
                                                                                                                             Nashville
                                            Los Angeles
                                                           Riverside                                        Little Rock
                                                          San Diego                                                                Atlanta
                                                                                                                                     Macon


                                                                                                                                    Tallahassee
                                                                                                                    New Orleans
                                                                                                                                             Tampa




                                            Little Rock, Arkansas             Macon, Georgia                                 Fargo, North Dakota
                                            Eastern District of Arkansas      Middle District of Georgia                     District of North Dakota
                                            Los Angeles, California           Atlanta, Georgia                               Concord, New Hampshire
                                            Central District of California    Northern District of Georgia                   District of New Hampshire
                                            Sacramento, California            Springfield, Illinois                          Newark, New Jersey
                                            Eastern District of California    Central District of Illinois                   District of New Jersey
                                            Sacramento, California            Chicago, Illinois                              Las Vegas, Nevada
                                            Superior Court of California      Northern District of Illinois                  District of Nevada
                                            San Francisco, California         Chicago, Illinois                              Brooklyn, New York
                                            Northern District of California   Circuit Court of Cook County, Illinois         Eastern District of New York
                                            San Diego, California             New Orleans, Louisiana                         Buffalo, New York
                                            Southern District of California   Eastern District of Louisiana                  Western District of New York
                                            Denver, Colorado                  Boston, Massachusetts                          New York, New York
                                            District of Colorado              District of Massachusetts                      Southern District of New York
                                            New Haven, Connecticut            Upper Marlboro, Maryland                       Philadelphia, Pennsylvania
                                            District of Connecticut           Prince George’s District Court                 Eastern District of Pennsylvania
                                            Wilmington, Delaware              St. Louis, Missouri                            Nashville, Tennessee
                                            District of Delaware              Eastern District of Missouri                   Middle District of Tennessee
                                            Tampa, Florida                    Kansas City, Missouri                          Alexandria, Virginia
                                            Middle District of Florida        Western District of Missouri                   Eastern District of Virginia
                                            Tallahassee, Florida              Jefferson City, Missouri                       Washington, DC
                                            Northern District of Florida      Western District of Missouri                   District of Columbia
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   39




Restitution and Forfeiture from TARP-Related Crimes
As of December 31, 2013, investigations conducted by SIGTARP have resulted in
more than $4.71 billion in court orders for the return of money to victims or the
Government. These orders happen only after conviction and sentencing or civil
resolution and many SIGTARP cases have not yet reached that stage; therefore,
any additional court orders would serve to increase this amount.
    Two cases in particular that SIGTARP investigated have resulted in not
only lengthy prison sentences for a number of individuals in each case but also
significant orders of forfeiture and restitution. In the Colonial Bank/Taylor, Bean
and Whitaker Mortgage Corporation (“TBW”) case, former TBW chairman Lee
Bentley Farkas spearheaded a $2.9 billion fraud scheme that contributed to the
failure of Colonial Bank, the sixth largest bank failure in U.S. history. The case
resulted in not only prison time for eight people including Farkas but also court-
ordered restitution of $3.5 billion and forfeiture of $38.5 million. In the Bank
of the Commonwealth case, where former chairman Edward J. Woodard led a
$41 million bank fraud scheme that masked non-performing assets at BOC and
contributed to the failure of BOC in 2011, the court entered a restitution order of
$333 million and a forfeiture order of $65 million against nine defendants, each
responsible for at least a portion.
    Overall in SIGTARP cases, orders of restitution and forfeiture to victims
and the Government of numerous assets as well as seized assets pending final
order include dozens of vehicles, more than 30 properties (including businesses
and waterfront homes), more than 30 bank accounts (including a bank account
located in the Cayman Islands), bags of silver, U.S. currency, antique and collector
coins (including gold, silver, and copper coins), artwork, and antique furniture,
Civil War memorabilia, NetSpend Visa and CashPass MasterCard debit cards,
Western Union money orders with the “Pay To” line blank, and the entry of money
judgments by courts against more than 20 defendants.
    Of the vehicles ordered to be forfeited (including automobiles, a tractor, water
craft, recreational and commercial vehicles) several are antique and expensive cars,
including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954 Cadillac Eldorado
convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
    As part of the Bank of the Commonwealth case, Thomas Arney, who pled guilty
for his role in the bank fraud scheme, agreed to forfeit the proceeds from the sale
of two antique cars to the Government: a 1948 Pontiac Silver Streak and a 1957
Cadillac Coup de Ville. Figure 1.6 includes pictures of the forfeited cars, as well as
other examples of assets seized by the Government in SIGTARP investigations.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.6




                                            1957 Cadillac Coupe de Ville.                    1948 Pontiac Silver Streak.




                                            2010 Mercedes-Benz GLK 350 4Matic.               2005 Hummer H2. Estimated value in 2013:
                                            Estimated value in 2013: $29,000. (Source        $24,000. (Source Kelley Blue Book)
                                            Kelley Blue Book)




                                            Property located in Norfolk, Virginia. (Photo    1958 Mercedes-Benz Cabriolet 220. Estimated
                                            courtesy of Bill Tiernan, The Virginian-Pilot)   value in 2013: $185,000. (Source Hagerty.com)




                                                                                             19th century English painting of
                                                                                             “Royal Family,” oil on canvas.
                                                                                             Estimated appraised value:
                                                                                             $6,000.
                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   41




Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                   candelabra arms. Estimated appraised value:
                                                   $8,000.




2005 Scout Dorado. (Sold for $1,800)               Cash seized from safe, $158,000.




Alabama property ordered forfeited.                Kubota tractor.
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP-Related Prohibitions from Working in Banking and Financial
                                            Services; as a Government Contractor; or as a Licensed Attorney
                                            SIGTARP investigations not only have led to lengthy prison terms, restitution
                                            and forfeiture orders and civil judgments for TARP-related offenses, but also
                                            have resulted in senior executives being suspended or permanently banned from
                                            working in banking and financial services, as a Government contractor, or as a
                                            licensed attorney. As of December 31, 2013, SIGTARP investigations have resulted
                                            in orders temporarily suspending or permanently banning 75 individuals from
                                            working in the banking or financial industry, working as a contractor with the
                                            Federal Government, or working as a licensed attorney. Many of these people were
                                            at the highest levels of companies that applied for or received a TARP bailout.
                                            They were trusted to exercise good judgment and make sound decisions. However,
                                            they abused that trust, many times for personal benefit. The suspensions and bans
                                            remove these senior executives from the banking and financial industries in which
                                            many practiced for years. A violation of the removal, in some instances, could
                                            be a basis for further prosecution. These high-level executives, some of whom
                                            were chief executive officers, chief financial officers, or licensed attorneys, have
                                            been sanctioned in a variety of ways, many by more than one authority: (i) by a
                                            sentencing court as part of the terms of supervised release after a prison term has
                                            been served; (ii) by the executive branch of the Federal Government as a bar from
                                            engaging in a Government contract; (iii) by a Federal banking regulator, which has
                                            the authority to ban an individual from working in the banking industry; (iv) by the
                                            Securities and Exchange Commission (“SEC”), which has the authority to issue
                                            certain bans relating to working in the securities industry; (v) by a Federal court
                                            in enforcing a Federal Trade Commission (“FTC”) request to order a ban against
                                            advertising, marketing, promoting, or selling mortgage assistance or mortgage relief;
                                            and (vi) by a state bar association, which has the authority to suspend or disbar a
                                            licensed attorney.
                                                Of the 75 individuals, 44 were heads or owners of companies, including
                                            those who were chairmen, chief executive officers, and presidents of financial
                                            institutions. Most of the remaining 31 individuals were chief financial officers,
                                            senior vice presidents, chief operating officers, chief credit officers, licensed
                                            attorneys, and other senior executives. This quarter, Edward Woodard, former
                                            president, chief executive officer, and chairman of the board at the Bank of the
                                            Commonwealth, not only was sentenced to 23 years in Federal prison for his
                                            role in a $41 million bank fraud scheme, but also once he is released from prison
                                            and begins to serve his five year term of supervised release, he is prohibited from
                                            engaging in any aspect of the banking business, or any similar occupation. In the
                                            $2.9 billion fraud that led to the failures of Taylor, Bean and Whitaker Mortgage
                                            Corporation (“TBW”) and Colonial Bank, the chief executive officer and chairman
                                            of TBW, Lee Bentley Farkas, not only was sent to Federal prison for 30 years, but
                                            also was barred from contracting with the Federal Government and is prohibited
                                            by the court from working in the financial or real estate industries while he is on
                                            supervised release subsequent to his release from Federal prison.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   43




    The Federal Deposit Insurance Corporation (“FDIC”) issued lifetime bans
against former president, CEO, and chairman Mark Conner of failed TARP
applicant FirstCity Bank, Stockton, Georgia, and former president and CEO
Reginald Harper of failed TARP applicant First Community Bank, Hammond,
Louisiana, for engaging in unsafe and unsound banking practices and breaching
their fiduciary duty. FDIC bans prohibit these former CEOs from participating in
the conduct of the affairs not only of the banks where they were senior officials but
also of any bank in the future. The bans were issued in addition to them receiving
a 12-year prison term and two-year prison term, respectively. Jerry Williams, former
president, CEO, and chairman of failed TARP applicant Orion Bank, Naples,
Florida, is barred from working in the banking industry or acting as an investment
advisor while he is on supervised release after his release from his six-year prison
term. New Point Financial CEO John Farahi, who engaged in a Ponzi scheme
that caused losses of $7 million to investors, including TARP-funded banks,
was not only sentenced to a 10-year prison term but also has been barred from
working for or being affiliated with any financial institution insured by FDIC while
on supervised release and was separately banned by the SEC from any broker/
dealer association. SIGTARP investigations in the civil arena have also led to FTC
actions against seven senior executives engaged in two mortgage modification
fraud schemes. Senior executives at Residential Relief Foundation and Freedom
Companies Lending have been permanently banned from advertising, marketing,
promoting, or selling mortgage assistance products or services.
    SIGTARP investigations have also led to professional bans or suspensions of
seven chief financial officers, chief operating officers, and chief credit officers
of financial institutions. As part of the terms of his supervised release following
his five-year prison sentence, TBW’s chief financial officer, Delton de Armas, is
prohibited from engaging in any aspect of the banking business, mortgage or real
estate industry, or finance for three years. Clayton Coe, FirstCity Bank’s chief
financial officer, not only was sentenced to 87 months in Federal prison but also
was banned for life from banking by the FDIC for engaging in unsafe and unsound
banking practices and breaching his fiduciary duty. Adam Teague, former chief
credit officer of failed TARP applicant Appalachian Community Bank, Ellijay,
Georgia, was also banned for life from banking by the FDIC for engaging in unsafe
and unsound banking practices and breaching his fiduciary duty, in addition to
serving a 70-month prison sentence.
    Eleven attorneys who have been investigated by SIGTARP and its law
enforcement partners have been sanctioned by their professional licensing
groups. Robert Maloney, in-house counsel for First City Bank, not only was
sentenced to a 39-month prison term but also was ordered by the FDIC to be
banned from working in the banking industry and was disbarred by the Georgia
state bar. David Tamman, outside counsel for New Point Financial of California,
who was sentenced to 84 months in Federal prison for his role in obstructing the
Government’s investigation of New Point, was ordered banned from appearing
before the SEC and also had his law license suspended by the California state
bar association. Co-defendants Greg Flahive, Cynthia Flahive, and Michael Kent
44            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Johnson of the Flahive Law Corporation not only were convicted of conducting a
                                                     mortgage modification fraud scheme but also were suspended by the California bar
                                                     association from practicing law. SIGTARP civil investigations have also led to three
                                                     attorney suspensions by the state of California: Sean Rutledge of the United Law
                                                     Group, John Michael Harrison of H.A.M.P. Resources, and Warren W. Quann of
                                                     Second Chance Negotiations. Howard Shmuckler, convicted in 2012 both in state
                                                     court in Maryland and in Federal court in Virginia for conducting a fraudulent
                                                     mortgage rescue scheme while he was the owner and CEO of The Shmuckler
                                                     Group, LLC had also held himself out as a practicing attorney. But Shmuckler,
                                                     having been previously convicted of bankruptcy fraud, had been disbarred by
                                                     the District of Columbia bar association. In addition to his criminal convictions,
                                                     Shmuckler is prohibited from practicing law without a valid law license in
                                                     Maryland and is barred by the State of Maryland Department of Labor, Licensing
                                                     and Regulation from providing credit services or foreclosure consultative services.

                                                     SIGTARP Audit Activity
                                                     SIGTARP has initiated 30 audits and six evaluations since its inception. As of
                                                     December 31, 2013, SIGTARP has issued 22 reports on audits and evaluations.
                                                     Among the ongoing audits and evaluations in process are reviews of: (i) Treasury’s
                                                     decision to waive Internal Revenue Code Section 382 for Treasury’s sales of
                                                     securities in TARP institutions; (ii) Treasury’s and the state housing finance
                                                     agencies’ implementation and execution of the Hardest Hit Fund; and (iii) the
                                                     Special Master’s 2013 executive compensation determinations at General Motors
                                                     Company and Ally Financial Inc.

                                                     SIGTARP Hotline
     SIGTARP’s Consumer Fraud Alert and              As a criminal law enforcement agency, SIGTARP created its Hotline as a crime tip
     its Armed Services Mortgage Fraud Alert         hotline for the American public to report and offer leads on criminal investigations
     are reproduced inside the back cover of         and suspected violations of criminal and civil laws in connection with TARP. As
     this report.                                    of December 31, 2013, the SIGTARP Hotline has received and analyzed 33,334
                                                     Hotline contacts. These contacts run the gamut from expressions of concern
     For more about SIGTARP’s Hotline,               over the economy to serious allegations of fraud involving TARP, and a number
     see Section 3 of this report, “Taxpayer         of SIGTARP’s investigations were generated in connection with Hotline tips. The
     Complaints to Hotline Help SIGTARP              SIGTARP Hotline can receive information anonymously. SIGTARP honors all
     Fight Fraud and Highlight Continuing            applicable whistleblower protections and will provide confidentiality to the fullest
     Problems with TARP Housing                      extent possible. SIGTARP urges anyone aware of fraud, waste, or abuse involving
     Programs.”
                                                     TARP programs or funds, whether it involves the Federal Government, state and
                                                     local entities, private firms, or individuals, to contact its representatives at 877-SIG-
                                                     2009 or www.sigtarp.gov.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   45




Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives
and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
General and her staff meet regularly with and brief members of Congress and
Congressional staff. Additionally, on October 29 and 30, 2013, SIGTARP’s Deputy
Special Inspector General, Peggy Ellen, and Deputy Special Inspector General for
Reporting, Mia Levine, presented briefings open to all Senate and House staff,
respectively, on SIGTARP’s October 29, 2013, Quarterly Report and SIGTARP’s
special report entitled “Treasury Approved Large Decreases in the Estimated
Number of Homeowners to be Helped by States Through TARP’s HHF Program.”
    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Staffing and Infrastructure
SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
City, Los Angeles, San Francisco, and Atlanta. As of December 31, 2013, SIGTARP
had 169 employees, plus one detailee from the Federal Housing Finance Agency
Office of Inspector General. The SIGTARP organization chart as of January 29,
2014, can be found in Appendix L, “Organizational Chart.” SIGTARP posts all of
its reports, testimony, audits, and contracts on its website, www.sigtarp.gov.
     From its inception through December 31, 2013, SIGTARP’s website has had
more than 61.1 million web “hits,” and there have been more than 5.4 million
downloads of SIGTARP’s quarterly reports. The site was redesigned in May 2012.
From May 10, 2012, through December 31, 2013, there have been 190,159 page
views.vi From July 1, 2012, through December 31, 2013, there have been 12,503
downloads of SIGTARP’s quarterly reports.vii




viIn October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
  system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

 • Numbers reported to SIGTARP as of September 30, 2009
 • Archived numbers provided by Treasury for the period of October through December 2009
 • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

 Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
 than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.

vii Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Budget
                                            Figure 1.7 provides a detailed breakdown of SIGTARP’s fiscal year 2013 budget,
                                            which reflects a total operating budget of $41.1 million. The Consolidated and
                                            Further Continuing Appropriations Act, 2013 (P.L. 113-6) provided $41.7 million
                                            in annual appropriations. The operating budget included $39.6 million in annual
                                            appropriation and portions of SIGTARP’s initial funding that have not yet been
                                            spent.
                                                Figure 1.8 provides a detailed breakdown of SIGTARP’s fiscal year 2014
                                            budget, which reflects a total operating plan of $43.1 million. This would include
                                            $34.9 million in requested annual appropriations and portions of SIGTARP’s initial
                                            funding.

                                             FIGURE 1.7                                      FIGURE 1.8

                                             SIGTARP FY 2013                                 SIGTARP FY 2014
                                             OPERATING BUDGET                                OPERATING PLAN
                                             ($ MILLIONS, PERCENTAGE OF $41.1 MILLION)       ($ MILLIONS, PERCENTAGE OF $43.1 MILLION)


                                                                                                           Other Services
                                                    Other Services                                               $1.7, 4%
                                                          $1.6, 4%
                                                                                               Advisory Services
                                            Advisory Services                                              $3.2
                                                        $3.4
                                                                                                                    7%
                                                                8%
                                                                                             Interagency
                                             Interagency                          Salaries                    22%
                                                                                             Agreements                           Salaries
                                             Agreements     20%           66%     and              $9.5                     65%   and
                                                    $8.2
                                                                                  $27.0                                           $27.8
                                                                                                     Travel
                                                         Travel                                   $0.9, 2%
                                                      $0.9, 2%
SECT IO N 2   TARP OVERVIEW
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           49




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.6
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                 Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.         that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                 Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $456.6 billion as of December                 Deobligations: An agency’s cancellation
31, 2013.7 Of that amount, $422.2 billion had been spent.8 Taxpayers are owed                or downward adjustment of previously
$43.9 billion as of December 31, 2013. According to Treasury, as of December                 incurred obligations.
31, 2013, it had $31.5 billion in write-offs, realized losses, or amounts currently
not collectible because of pending bankruptcies or receiverships, leaving $12.4
billion in TARP funds outstanding.9 Treasury’s write-offs and realized losses are
money that taxpayers will never get back. Treasury generally expects the amounts
currently not collectible will also be lost.10 These amounts do not include $10.5
billion in TARP funds spent on housing support programs, which are designed as
a Government subsidy, with no repayments to taxpayers expected.11 In the quarter
ended December 31, 2013, funds that were obligated but unspent remained
available to be spent on only TARP’s housing support programs. According to
Treasury, in the quarter ended December 31, 2013, $1 billion of TARP funds
were spent on housing programs, leaving $28 billion obligated and available to be
spent.12
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of December 31, 2013. Table
 50                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                 2.1 lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
                                                                                 Assistance Program (“CAP”), which was never funded, and summarizes three
                                                                                 programs under “Automotive Industry Support Programs.” Table 2.2 details write-
                                                                                 offs, realized losses, and amounts currently not collectible in TARP as of December
                                                                                 31, 2013.
TABLE 2.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, PRINCIPAL REFINANCED, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                            Obligation                                                                                                  Principal               Still Owed to
                                           After Dodd-                    Current                                              Principal              Refinanced                  Taxpayers                    Available
                                                 Frank                  Obligation              Expenditure                      Repaid                into SBLF                 under TARP                 to Be Spent
 Program                               (As of 10/3/2010)        (As of 12/31/2013)         (As of 12/31/2013)         (As of 12/31/2013)        (As of 12/31/2013)         (As of 12/31/2013)a         (As of 12/31/2013)

 Housing Support
                                                   $45.6                      $38.5c                     $10.5                           NA                     $0.0                           NA                   $28.0
 Programsb
 Capital Purchase
                                                   204.9                      204.9                      204.9                   $195.9d                          2.2                      $6.8                         0.0
 Program
 Community
 Development Capital                                   0.6                        0.6                        0.2                       0.1                        0.0                        0.5                        0.0
 Initiativee
 Systemically Significant
                                                     69.8                       67.8f                      67.8                      54.4                         0.0                      13.5                         0.0
 Failing Institutions
 Targeted Investment
                                                     40.0                       40.0                       40.0                      40.0                         0.0                        0.0                        0.0
 Program
 Asset Guarantee
                                                       5.0                        5.0                        0.0                       0.0                        0.0                        0.0                        0.0
 Program
 Automotive Industry
                                                     81.8g                      79.7h                      79.7                      56.6                         0.0                      23.1                         0.0
 Support Programs
 Term Asset-Backed
                                                       4.3                        0.1i                       0.1                       0.1                        0.0                        0.0                        0.0
 Securities Loan Facility
 Public-Private
                                                     22.4                       19.6                       18.6                      18.6j                        0.0                        0.0                        0.0k
 Investment Program
 Unlocking Credit for
                                                       0.4                        0.4                        0.4                       0.4                        0.0                        0.0                        0.0
 Small Businesses
 Total                                           $474.8                    $456.6                     $422.2l                    $365.7                         $2.2                     $43.9                      $28.0
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
         Amount taxpayers still owed includes amounts disbursed and still outstanding, plus $31.5 billion in write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or
          receiverships. It does not include $10.5 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
             Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
          On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
            Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $365.7 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
             billion refinanced from CPP into the Small Business Lending Fund.
 e
           CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
            expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
            obligation, only $106 million went to non-CPP institutions.
 f
      Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
              Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 h
        Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 i
   On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
    billion.
 j
    On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
     million is included in this repayment total.
 k
       PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
        PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $19.6 billion results
        because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of December
        31, 2013, except for Invesco.
 l
     The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Daily TARP Update, 1/2/2014; Treasury, response to SIGTARP data call, 1/8/2014.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                           51



TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES, WRITE-OFFS, AND AMOUNTS CURRENTLY NOT COLLECTIBLE IN
 TARP, AS OF 12/31/2013 ($ MILLIONS)
 TARP                                                                   TARP          Realized Loss
 Program         Institution                                      Investment           or Write-Offa                       Date       Description
 Realized Losses
                                                                                                                                      Sold 98,461 shares and equity stake in the UAW
 Autos           Chrysler                                               $1,888                   $1,328           4/30/2010
                                                                                                                                      Retiree trust for $560,000,000
                                                                                                                                      Sold 358,546,795 common shares at a loss in
                                                                                                   3,771        11/18/2010
                                                                                                                                      Initial Public Offering (“IPO”)
                                                                                                                                      Sold 53,782,019 common shares at a loss in
                                                                                                      566       11/26/2010
                                                                                                                                      IPO overallotment
                                                                                                                                      Sold 200,000,000 common shares to GM at a
                                                                                                   3,203        12/19/2012
                                                                                                                                      loss
                                                                                                                1/18/2013 –           Sold 58,392,078 common shares at a loss in
                                                                                                      903
                                                                                                                 4/17/2013            first pre-arranged trading plan
 Autos           GM   b
                                                                        49,500
                                                                                                                                      Sold 30,000,000 common shares at a loss in
                                                                                                      273         6/12/2013
                                                                                                                                      public offering
                                                                                                                  5/6/2013 – Sold 110,336,510 common shares at a loss in
                                                                                                      979
                                                                                                                  9/13/2013 second pre-arranged trading plan
                                                                                                                9/26/2013 – Sold 70,214,460 common shares at a loss in
                                                                                                      492
                                                                                                                11/20/2013 third pre-arranged trading plan
                                                                                                                11/21/2013            Sold 31,122,206 common shares at a loss in
                                                                                                      146
                                                                                                                – 12/9/2013           fourth pre-arranged trading plan
 CDCI            Premier Bancorp, Inc.c                                          7                        7       1/29/2013           Liquidation of failed bank
 CPP             172 CPP Banks                                            3,281                    1,356                              Sales, exchanges, and failed banks
                                                                                                   1,918          5/24/2011
                                                                                                   1,984          3/13/2012
                                                                                                   1,621          5/10/2012
 SSFI            AIGd                                                   67,835                     1,621            8/8/2012          Sale of common stock at a loss
                                                                                                   4,636          9/14/2012

                                                                                                   1,705        12/14/2012

 Total Realized Losses                                                                        $26,510
 Write-Offs
                                                                                                                                      Accepted $1.9 billion as full repayment for the
 Autos           Chrysler                                               $3,500                   $1,600           7/23/2009
                                                                                                                                      debt of $3.5 billion
 CPP             CIT Group Inc.                                           2,330                    2,330        12/10/2009            Bankruptcy
 CPP             Pacific Coast National Bancorp                                  4                        4       2/11/2010           Bankruptcy
 CPP             South Financial Group, Inc.e                                347                      217         9/30/2010           Sale of preferred stock at a loss
 CPP             TIB Financial Corpe                                           37                       25        9/30/2010           Sale of preferred stock at a loss
 Total Write-Offs                                                                               $4,176
 Currently Not Collectiblef
 CPP             25 CPP banks in bankruptcy or receivership                                        $783                               Bankruptcy or receivership in process
 Total of Realized Losses, Write-Offs, and Amounts
                                                                                              $31,468
 Currently Not Collectible
 Notes: Numbers may not total due to rounding.
 a
     Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized losses.
 b
         Since the company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully divested. About $470
          million in GM share losses during the second quarter came from Treasury’s pre-arranged stock trading plan, which ends on September 13, 2013.
 c
      On January 29, 2013, Treasury received $79,900 representing the total amount of distribution paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
 d
        Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares
         based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the
         Treasury. Receipts for non-TARP common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in
         AIG and TARP’s cost basis of $43.53 per common share.
 e
       According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as realized
        losses.
 f
   Included as investments currently not collectible are 25 CPP banks, or their subsidiary banks, with total CPP investments of $783 million, that are currently in the process of bankruptcy or
    receivership, and while Treasury has not yet realized the losses, it expects that all of its investments in the banks will be lost.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Section 105(a) Report, 1/10/2014; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler
 Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Daily TARP
 Update, 6/3/2013, 6/13/2013, and 1/2/2014.
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TARP PROGRAMS UPDATE
                                                     As of December 31, 2013, 188 institutions remain in TARP: 86 banks with
     Common Stock: Equity ownership                  remaining CPP principal investments; 32 CPP banks for which Treasury now holds
     entitling an individual to share in             only warrants to purchase stock; 69 banks and credit unions in CDCI; and Ally
     corporate earnings and voting rights.           Financial.13 Treasury does not consider the 32 CPP institutions in which it holds
                                                     only warrants to be in TARP, however Treasury applies all proceeds from the sale
     Preferred Stock: Equity ownership that          of warrants in these banks to recovery amounts in TARP’s CPP program.14 This
     usually pays a fixed dividend before            quarter, Treasury sold its remaining shares in GM; however, as of December 31,
     distributions for common stock owners           2013, Treasury still holds an $826.4 million administrative claim in the company’s
     but only after payments due to debt             2009 bankruptcy.15 Treasury (and therefore the taxpayer) remains a shareholder
     holders. It typically confers no voting         in companies that have not repaid the Government. Treasury’s equity ownership
     rights. Preferred stock also has priority       is largely in two forms — common and preferred stock — although it also has
     over common stock in the distribution           received debt in the form of senior subordinated debentures.
     of assets when a bankrupt company is                 According to Treasury, as of December 31, 2013, 264 TARP recipients
     liquidated.                                     (including 251 banks and credit unions, three auto companies, nine PPIP
                                                     managers, and AIG) had paid back all of their principal or repurchased shares,
     Senior Subordinated Debentures:                 although GM, Chrysler, and AIG did so at a loss to Treasury. Another 137 CPP
     Debt instrument ranking below senior            banks refinanced into the Small Business Lending Fund (“SBLF”). In addition, 11
     debt but above equity with regard to            TARP recipients (including 10 banks and credit unions, and Ally Financial) had
     investors’ claims on company assets             partially repaid their principal or repurchased their shares but remained in TARP.16
     or earnings.                                    According to Treasury, as of December 31, 2013, 205 banks and credit unions have
                                                     exited CPP or CDCI with less than a full repayment, including institutions whose
                                                     shares have been sold for less than par value (25), or at a loss at auction (151), and
                                                     institutions that are in various stages of bankruptcy or receivership (29).17 Eleven
                                                     banks have been sold at a profit at auction.18 Four CPP banks merged with other
                                                     CPP banks.19
                                                          Figure 2.1 provides a snapshot of the cumulative expenditures, repayments,
                                                     and amount owed as of December 31, 2013. Taxpayers also are entitled to dividend
                                                     payments, interest, and warrants for taking on the risk of TARP investments.
                                                     According to Treasury, as of December 31, 2013, Treasury had collected $47.4
                                                     billion in interest, dividends, and other income, including $9.4 billion in proceeds
                                                     from the sale of warrants and stock received as a result of exercised warrants.20
                                                          Some TARP programs are scheduled to last as late as 2021. Other TARP
                                                     programs have no scheduled ending date; TARP money will remain invested
                                                     until recipients pay Treasury back or until Treasury sells its investments in the
                                                     companies. Table 2.3 provides details of exit dates and remaining Treasury
                                                     investments.
                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                53




TABLE 2.3                                                                                                                    FIGURE 2.1
 STATUS OF CONTINUING TARP PROGRAMS                                                                                          CURRENT TARP EXPENDITURES,
 Program                                                          Investment Status as of 12/31/2013                         REPAYMENTS, AND AMOUNT
                                                                                                                             OWED ($ BILLIONS)
 Home Affordable Modification Program                             2021 to pay incentives on modifications
 Hardest Hit Fund                                                 2017 for states to use TARP funds                         $500

 FHA Short Refinance Program                                      2020 for TARP-funded letter of credit                      400      $422.2
                                                                  Remaining principal investments in 86 banks;
 Capital Purchase Program                                                                                                                              $365.7
                                                                  warrants for stock in an additional 32 banks               300

                                                                  Remaining principal investments in 69
 Community Development Capital Initiative                                                                                    200
                                                                  banks/credit unions
                                                                  Remaining investment:                                      100
                                                                  63% stake in Ally
 Automotive Industry Financing Program
                                                                  $826.4 million outstanding administrative                     0                                         $43.9
                                                                  claim in GM bankruptcy                                            TARP             TARP              Amount
                                                                                                                                    Expenditures     Repaymentsa       Owedb
 Term Asset-Backed Securities Loan Facility                       2015 maturity of last loan
 Notes: Treasury’s GM stake as of 12/31/2013.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, response to SIGTARP data call, 1/8/2014.                        Notes: As of 12/31/2013. Numbers may not total due
                                                                                                                             to rounding.
                                                                                                                             a
                                                                                                                               Repayments include $195.9 billion for CPP, $40 billion
                                                                                                                               for TIP, $56.6 billion for Auto Programs, $18.6 billion
                                                                                                                               for PPIP, $54.4 billion for SSFI, and $0.4 billion for
                                                                                                                               UCSB. The $195.9 billion for CPP repayments includes
                                                                                                                               $363.3 million in non-cash conversion from CPP to
COST ESTIMATES                                                                                                                 CDCI, which is not included in the $365.7 billion in TARP
                                                                                                                               repayments because it is still owed to TARP from CDCI.
                                                                                                                               Additionally, $2.2 billion was refinanced into SBLF.
Several Government agencies are responsible under EESA for generating cost                                                   b
                                                                                                                               Amount taxpayers still owed includes amounts
                                                                                                                               disbursed and still outstanding, plus $31.5 billion in
estimates for TARP, including the Congressional Budget Office (“CBO”), the                                                     write-offs, realized losses, and investments currently
                                                                                                                               not collectible because of pending bankruptcies or
Office of Management and Budget (“OMB”), and Treasury, whose estimated costs                                                   receiverships. It does not include $10.5 billion in TARP
                                                                                                                               dollars spent on housing programs. These programs
are audited each year by the Government Accountability Office (“GAO”). Cost                                                    are designed as Government subsidies, with no
                                                                                                                               repayment to taxpayers expected.
estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
loss and OMB’s August 2009 cost estimate of a $341 billion loss.21                                                           Sources: Treasury, Transactions Report, 1/1/2014;
                                                                                                                             Treasury, Daily TARP Update, 1/2/2014.
     On December 11, 2013, Treasury issued its September 30, 2013, fiscal year
audited agency financial statements for TARP, which contained a cost estimate
of $40.3 billion.22 This estimate is a decrease from Treasury’s estimate of a $59.7
billion loss as of September 30, 2012. According to Treasury, “These costs for the
non-housing programs fluctuate in large part due to changes in the market prices
of common stock for AIG and GM and the estimated value of the Ally stock.”23
According to Treasury, the largest costs from TARP are expected to come from
housing programs and from assistance to AIG and the automotive industry.24 This
estimate assumes that all of the funds obligated for housing support programs will
be spent.
     On May 23, 2013, CBO issued a TARP cost estimate based on its evaluation
of data as of April 17, 2013. CBO estimated the ultimate cost of TARP would be
$21 billion, down $3 billion from its estimate of $24 billion in October 2012.25
According to CBO, the decrease stemmed primarily from an increase in the market
value of the Government’s investment in General Motors shares and sales of a
portion of those investments at prices that were higher than the market price at the
time of CBO’s last report. CBO still estimates that TARP’s largest loss will come
54   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            from automotive assistance programs. CBO estimated that only $16 billion of
                                            obligated funds for housing will be spent.
                                                 On April 10, 2013, OMB issued the Administration’s fiscal year 2014 budget,
                                            which included a TARP lifetime cost estimate of $47.5 billion, based largely on
                                            figures from December 31, 2012.26 This was a decrease from its estimate of $63.5
                                            billion based on May 31, 2012, data.27 According to OMB, this decrease “was due
                                            in large part [to] improved market conditions and significant progress winding
                                            down TARP investments over the past year, most notably the higher valuations
                                            of AIG common stock and realized sale proceeds, and higher valuation of GM
                                            common stock.”28 Additionally, this estimate assumes $37.6 billion of funds
                                            obligated to housing support programs will be spent, versus earlier estimates that
                                            $45.6 billion would be spent. The estimate also assumes that PPIP will make a
                                            profit of $1.8 billion and that CPP will make a profit of $7.7 billion, including
                                            principal repayments and revenue from dividends, warrants, interest, and fees.
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.4.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   55




TABLE 2.4
 COST (GAIN) OF TARP PROGRAMS                              ($ BILLIONS)

                                                                                                         Treasury Estimate,
                                                                                                       TARP Audited Agency
 Program Name                                   CBO Estimate                  OMB Estimate              Financial Statement
     Report issued:                                5/23/2013                    4/10/2013                          12/11/2013
     Data as of:                                   4/17/2013                   12/31/2012                           9/30/2013
 Housing Support Programs                                    $16                         $37.6                               $37.7a
 Capital Purchase Program                                     (17)                          (7.7)                             (16.1)
 Systemically Significant
                                                               15                          18.1                                15.2
 Failing Institutions
 Targeted Investment Program
                                                                (8)                         (7.4)                               (8.0)
 and Asset Guarantee Program
 Automotive Industry Support
                                                               17                          23                                  14.7
 Programsb
 Term Asset-Backed Securities
                                                                0                           (0.5)                               (0.6)
 Loan Facility
 Public-Private Investment
                                                                (2)                         (1.8)                               (2.7)
 Program
 Otherc                                                             *                         *                                   *
 Total                                                      $21     d
                                                                                        $61.5                                $40.3e
 Interest on Reestimatesf                                                                 (13.9)                                   
 Adjusted Total                                                                         $47.5e                                     
 Notes: Numbers may not total due to rounding.
 a
    According to Treasury, “The estimated lifetime cost for Treasury Housing Programs under TARP represent the total commitment
     except for the FHA Refinance Program, which is accounted for under credit reform. The estimated lifetime cost of the FHA Refinance
     Program represents the total estimated subsidy cost associated with total obligated amount.”
 b
        Includes AIFP, ASSP, and AWCP.
 c
     Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 d
       The estimate is before administrative costs and interest effects.
 e
      The estimate includes interest on reestimates but excludes administrative costs.
 f
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
    estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

 Sources: OMB Estimate — OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2014/assets/econ_analyses.pdf, accessed 1/6/2014; CBO Estimate
 — CBO, “Report on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/
 attachments/03-28-2012TARP.pdf, accessed 1/6/2014; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset
 Relief Program Agency Financial Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/
 Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP PROGRAMS
                                            TARP programs fall into four categories: housing support programs, financial
                                            institution support programs, automotive industry support programs, and asset
                                            support programs.

                                            Housing Support Programs
                                            The stated purpose of TARP’s housing support programs is to help homeowners
                                            and financial institutions that hold troubled housing-related assets. Although
                                            Treasury originally committed to use $50 billion in TARP funds for these programs,
                                            it subsequently obligated only $45.6 billion, then in March 2013, reduced its
                                            obligation to $38.5 billion.29 As of December 31, 2013, $10.5 billion (27% of
                                            obligated funds) has been expended.30 However, some of these expended funds
                                            have been used for administrative expenses by the state Housing Finance Agencies
                                            participating in the Hardest Hit Fund program or remain with them as cash on
                                            hand.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering the
                                               negative spillover effects of foreclosure, such as lower housing prices, increased
                                               crime, and higher taxes.”31 MHA, for which Treasury has obligated $29.9
                                               billion of TARP funds, consists of the Home Affordable Modification Program
                                               (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which both modify
                                               first-lien mortgages to reduce payments; the Federal Housing Administration
                                               (“FHA”) HAMP loan modification option for FHA-insured mortgages
                                               (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office of Rural
                                               Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable Foreclosure
                                               Alternatives (“HAFA”) program; the Second Lien Modification Program
                                               (“2MP”); and the U.S. Department of Veterans Affairs (“VA”) HAMP (“VA
                                               HAMP”), which TARP does not fund.32 HAMP in turn encompasses various
                                               initiatives in addition to the modification of first-lien mortgages, including
                                               Home Price Decline Protection (“HPDP”), the Principal Reduction Alternative
                                               (“PRA”), and the Home Affordable Unemployment Program (“UP”).33
                                               Additionally, the overall MHA obligation of $29.9 billion includes $2.7 billion to
                                               support the Treasury/FHA Second-Lien Program (“FHA2LP”), which expired as
                                               of December 31, 2013. FHA2LP was to complement the FHA Short Refinance
                                               program (discussed later) and was intended to support the extinguishment
                                               of second-lien loans, but no second liens had been partially written down or
                                               extinguished under the program before it expired.34
                                                    As of December 31, 2013, MHA had expended $7.2 billion of TARP money
                                               (24% of $29.9 billion).35 Of that amount, $5.9 billion was expended on HAMP,
                                               which includes $1.1 billion expended on homeowners’ HAMP permanent
                                               modifications that later redefaulted.36 In addition, $731.8 million was expended
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               57




   on HAFA and $504.4 million on 2MP.37 As of December 31, 2013, there
   were 462,907 active Tier 1 and 32,382 active Tier 2 permanent first-lien
   modifications under the TARP-funded portion of HAMP, an increase of 6,365
   Tier 1 and 11,556 Tier 2 active permanent modifications over the past quarter.38
   For more information, including participation numbers for each of the MHA
   programs and subprograms, see the “Housing Support Programs” discussion in
   this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program is to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath
   of the housing bubble.”39 Treasury obligated $7.6 billion for this program.40 As
   of December 31, 2013, $3.2 billion had been drawn down by the states from
   HHF.41 However, as of September 30, 2013, the latest data available, only $2
   billion had been spent assisting 145,081 homeowners, with the remaining
   $344.4 million funds used for administrative expenses and $571 million as
   unspent cash-on-hand.42 For more information, see the “Housing Support
   Programs” discussion in this section.43
•	 FHA Short Refinance Program — Treasury has provided a TARP-funded
   letter of credit for up to $1 billion in loss protection on refinanced first liens.44
   As of December 31, 2013, there have been 3,813 refinancings under the
   FHA Short Refinance program, an increase of 261 refinancings during the
   past quarter.45 For more information, see the “Housing Support Programs”
   discussion in this section.

Financial Institution Support Programs
Treasury primarily invested capital directly into financial institutions including              Systemically Significant Institutions:
banks, bank holding companies, and, if deemed by Treasury critical to the financial             Term referring to any financial
system, some systemically significant institutions.46                                           institution whose failure would impose
                                                                                                significant losses on creditors and
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                              counterparties, call into question the
   purchased preferred stock or subordinated debentures in qualifying financial                 financial strength of similar institutions,
   institutions.47 CPP was intended to provide funds to “stabilize and strengthen               disrupt financial markets, raise
   the U.S. financial system by increasing the capital base of an array of healthy,             borrowing costs for households and
   viable institutions, enabling them [to] lend to consumers and business[es].”48               businesses, and reduce household
   Treasury invested $204.9 billion in 707 institutions through CPP, which closed               wealth.
   to new funding on December 29, 2009.49 As of December 31, 2013, 118
   of those institutions remained in TARP; in 32 of them, Treasury holds only
   warrants to purchase stock. Treasury does not consider these 32 institutions to
   be in TARP, however Treasury applies all proceeds from the sale of warrants in
   these banks to recovery amounts in TARP’s CPP program. As of December 31,
   2013, 86 of the 118 institutions had outstanding CPP principal investments.50
   Of the 707 banks that received CPP investments, 621 banks no longer have
   outstanding principal investments in CPP. Nearly a quarter of the 707 banks,
   or 165, refinanced into other Government programs — 28 of them into TARP’s
   CDCI and 137 into SBLF, a non-TARP program.51 Only 237 of the banks, or
58             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         34% of the original 707, fully repaid CPP otherwise.52 Of the other banks that
                                                         have exited CPP, four CPP banks merged with other CPP banks, Treasury
                                                         sold its investments in 25 banks for less than par and its investments in 162
                                                         banks at auction (151 of those investments sold at a loss), and 28 institutions
                                                         or their subsidiary banks failed, meaning Treasury lost its entire investment in
                                                         those banks.53 As of December 31, 2013, taxpayers were still owed $6.8 billion
                                                         related to CPP. According to Treasury, it had write-offs, realized losses, and
                                                         investments not currently collectible as a result of bankruptcy of $4.7 billion
                                                         in the program, leaving $2.1 billion in TARP funds outstanding.54 Included as
                                                         not currently collectible as a result of bankruptcy are investments in 25 CPP
                                                         banks, or their subsidiary banks, with total CPP investments of $782.5 million,
                                                         that are currently in the process of bankruptcy. While Treasury has not yet
                                                         realized the loss, it expects that all of its investments in the banks will be lost.55
                                                         According to Treasury, $195.9 billion of the CPP principal (or 96%) had been
                                                         repaid as of December 31, 2013. The repayment amount includes $363.3
                                                         million in preferred stock that was converted from CPP investments into CDCI
                                                         and therefore still represents outstanding obligations to TARP. Additionally, $2.2
                                                         billion was refinanced in 2011 into SBLF, a non-TARP Government program.56
                                                              Treasury continues to manage its portfolio of CPP investments, including,
                                                         for certain struggling institutions, converting its preferred equity ownership into
                                                         a more junior form of equity ownership, often at a discount to par value (which
                                                         may result in a loss) in an attempt to preserve some value that might be lost if
                                                         these institutions were to fail. As of December 31, 2013, Treasury has held 22
                                                         sets of auctions to sell all of its preferred stock investments in 162 banks and
                                                         part of its investment in two additional banks, selling all but 11 investments at a
                                                         discounted price resulting in a loss to Treasury.57 Treasury lost a total of $981.1
                                                         million in the auctions, including $764.8 million from discounts on principal
                                                         investments in the institutions and $216.2 million in forfeited unpaid dividends
                                                         and interest owed by the institutions. For more information, see the “Capital
                                                         Purchase Program” discussion in this section.
                                                      •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                         Treasury used TARP money to buy preferred stock in or subordinated debt from
     Community Development Financial                     Community Development Financial Institutions (“CDFIs”). Treasury intended
     Institutions (“CDFIs”): Financial                   for CDCI to “improve access to credit for small businesses in the country’s
     institutions eligible for Treasury funding          hardest-hit communities.”58 Under CDCI, TARP made capital investments
     to serve urban and rural low-income                 in the preferred stock or subordinated debt of eligible banks, bank holding
     communities through the CDFI Fund.                  companies, thrifts, and credit unions.59 Eighty-four institutions received $570.1
     CDFIs were created in 1994 by the                   million in funding under CDCI.60 However, 28 of these institutions converted
     Riegle Community Development and                    their existing CPP investment into CDCI ($363.3 million of the $570.1
     Regulatory Improvement Act.                         million) and 10 of those that converted received combined additional funding
                                                         of $100.7 million under CDCI.61 Only $106 million of CDCI money went to
                                                         institutions that were not already TARP recipients. As of December 31, 2013,
                                                         69 institutions remained in CDCI.62 As of December 31, 2013, two remaining
                                                         CDCI institutions had unpaid dividend or interest payments.63 For more
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014          59




   information, see the “Community Development Capital Initiative” discussion in
   this section.
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent
   them from failing.64 Only one firm received SSFI assistance: American
   International Group, Inc. (“AIG”).
        The Government’s rescue of AIG involved several different funding facilities
   provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury,
   with various changes to the transactions over time. Combined, Treasury and
   FRBNY committed $182 billion to bail out AIG, of which $161 billion was
   disbursed.65 That included $67.8 billion in TARP funds. Treasury’s investment
   in AIG ended on March 1, 2013.
        As reflected on Treasury’s books and records, taxpayers recouped $54.4
   billion of the $67.8 billion in TARP funds and realized losses from an
   accounting standpoint of $13.5 billion on Treasury’s sale of AIG stock.66 Due to
   a January 2011 restructuring of the FRBNY and Treasury investments, Treasury
   held common stock from both the TARP and FRBNY assistance, and, according
   to Treasury, the Government overall has made a $4.1 billion gain on the stock
   sales, and $956 million has been paid in dividends and other income.67
        On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
   announced that it had designated AIG as a systemically important nonbank
   financial company under Dodd-Frank, thereby subjecting AIG to consolidated
   supervision by the Board of Governors of the Federal Reserve System (“Federal
   Reserve”) and to enhanced prudential standards.68
        For more information, see the “Systemically Significant Failing Institutions
   Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                                                              Senior Preferred Stock: Shares that
   financial institutions it deemed critical to the financial system.69 There were two
                                                                                              give the stockholder priority dividend
   expenditures under this program, totaling $40 billion — the purchases of $20
                                                                                              and liquidation claims over junior
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
                                                                                              preferred and common stockholders.
   of America Corp. (“Bank of America”).70 Treasury also accepted common stock
   warrants from each, as required by EESA. Both banks fully repaid Treasury
                                                                                              Illiquid Assets: Assets that cannot be
   for its TIP investments.71 Treasury auctioned its Bank of America warrants on
                                                                                              quickly converted to cash.
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.72 For
   more information on these transactions, see the “Targeted Investment Program
                                                                                              Trust Preferred Securities (“TRUPS”):
   and Asset Guarantee Program” discussion in this section.
                                                                                              Securities that have both equity and
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
                                                                                              debt characteristics, created by
   insurance-like protection for a select pool of mortgage-related or similar assets
                                                                                              establishing a trust and issuing debt
   held by participants whose portfolios of distressed or illiquid assets threatened
                                                                                              to it.
   market confidence.73 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.74 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.75 On December 23, 2009, in connection with Citigroup’s TIP
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               repayment, Citigroup and the Government terminated the AGP agreement and
                                               the Government suffered no loss. On December 28, 2012, FDIC transferred
                                               $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
                                               participation in FDIC’s Temporary Liquidity Guarantee Program having closed
                                               without a loss.76 Treasury converted the TRUPS it received from FDIC into
                                               Citigroup subordinated notes and subsequently sold them for $894 million.77
                                               For more information, see the “Targeted Investment Program and Asset
                                               Guarantee Program” discussion in this section.

                                            Automotive Industry Support Programs
                                            TARP’s automotive industry support through the Automotive Industry Financing
                                            Program (“AIFP”) aimed to “prevent a significant disruption of the American
                                            automotive industry, which would pose a systemic risk to financial market stability
                                            and have a negative effect on the economy of the United States.”78 As December
                                            31, 2013, Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remains
                                            the only auto-related company whose stock is owned by Treasury. Taxpayers are
                                            still owed $9 billion for TARP’s investment in Ally Financial. In return for its
                                            investment, as of December 31, 2013, Treasury held approximately 63% of Ally
                                            Financial’s common stock. On January 16, 2014, Treasury announced that it
                                            plans to sell 410,000 shares of Ally Financial common stock for approximately $3
                                            billion in a private placement, after which it will own 37% of the company’s stock.79
                                            Treasury sold its last shares in General Motors Company (“GM”) on December
                                            9, 2013. While taxpayers no longer own shares in GM, as of December 31, 2013,
                                            Treasury still held an $826.4 million administrative claim in the company’s 2009
                                            bankruptcy.80
                                                 As of December 31, 2013, taxpayers have lost $10.3 billion on the principal
                                            TARP investment in GM. Taxpayers also lost $2.9 billion on the principal TARP
                                            investment in Chrysler Holding LLC (“Chrysler”). Chrysler Financial Services
                                            Americas LLC (“Chrysler Financial”) fully repaid its TARP investment.81
                                                 Through AIFP, Treasury made emergency loans to Chrysler, Chrysler Financial,
                                            and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
                                            and assisted Chrysler and GM during their bankruptcy restructurings. As of
                                            December 31, 2013, $79.7 billion had been disbursed through AIFP and its
                                            subprograms, and Treasury had received $56.6 billion in principal repayments,
                                            preferred stock redemption proceeds, and stock sale proceeds. As of December
                                            31, 2013, Treasury had received approximately $38.9 billion related to its GM
                                            investment, $8.2 billion related to its Ally Financial/GMAC investment, $8 billion
                                            related to its Chrysler investment, and $1.5 billion related to its Chrysler Financial
                                            investment.82 As of December 31, 2013, Treasury had also received approximately
                                            $5.6 billion in dividends and interest under AIFP and its two subprograms, ASSP
                                            and AWCP.83
                                                 In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
                                            billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
                                            in preferred stock and a 61% common equity stake.84 Through a series of stock
                                            sales, Treasury has divested its preferred stock and all of its common stock as of
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   61




December 9, 2013. Because the common stock sales all took place below Treasury’s
break-even price, Treasury has booked a loss of $10.3 billion on the sales as of
December 31, 2013.85
     Treasury invested a total of $17.2 billion in Ally Financial, and $9 billion of
that remained outstanding as of December 31, 2013. On December 30, 2010,
Treasury’s investment was restructured to provide for a 74% common equity
stake, $2.7 billion in TRUPS (including amounts received in warrants that were
immediately converted into additional securities), and $5.9 billion in mandatorily
convertible preferred shares (“MCP”).86 Treasury sold the $2.7 billion in TRUPS
on March 2, 2011, resulting in a $2.5 billion principal repayment to Treasury.87
On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase the $5.9
billion par value of MCP, plus a payment of $725 million to terminate the share
adjustment right.88 The November 20, 2013 repurchase represented a $5.63 billion
repayment of principal, bringing total Ally principal repayments to $8.2 billion.89
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.90 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.91
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
trust’s shares in Chrysler on a fully diluted basis.92 Treasury’s books reflect a $2.9
billion loss to taxpayers on their principal investment in Chrysler.93
     Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.94
     For more information, see the “Automotive Industry Support Programs”
discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they need
   to continue shipping their parts and the support they need to help access loans
   to pay their employees and continue their operations.”95 Under the program,
   which ended in April 2010, Treasury made loans for GM ($290 million) and
   Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
   fees and other income.96 For more information, see the “Auto Supplier Support
   Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
   with interest and GM repaid just the principal — $360.6 million — of its
   loan.97 For more information, see the “Auto Warranty Commitment Program”
   discussion in this section.
62             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Asset Support Programs
                                                      The stated purpose of these programs was to support the liquidity and market value
     Asset-Backed Securities (“ABS”): Bonds           of assets owned by financial institutions to free capital so that these firms could
     backed by a portfolio of consumer                extend more credit to support the economy. These assets included various classes
     or corporate loans (e.g., credit card,           of asset-backed securities (“ABS”) and several types of loans.
     auto, or small-business loans). Financial
     companies typically issue ABS backed             •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
     by existing loans in order to fund new              originally designed to increase credit availability for consumers and small
     loans for their customers.                          businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                         investors with non-recourse loans secured by certain types of ABS, including
     Servicing Advances: If borrowers’                   credit card receivables, auto loans, equipment loans, student loans, floor
     payments are not made promptly                      plan loans, insurance-premium finance loans, loans guaranteed by the Small
     and in full, mortgage servicers are                 Business Administration (“SBA”), residential mortgage servicing advances, and
     contractually obligated to advance the              commercial mortgage-backed securities (“CMBS”).98 TALF closed to new loans
     required monthly payment amount in                  in June 2010.99 TALF ultimately provided $71.1 billion in Federal Reserve
     full to the investor. Once a borrower               financing — $59 billion with non-mortgage related ABS as collateral and $12.1
     becomes current or the property is                  billion with CMBS as collateral.100 Of that amount, $97.3 million remained
     sold or acquired through foreclosure,               outstanding as of December 31, 2013.101 As of early 2013, the TALF program
     the servicer is repaid all advanced                 collected fees totaling more than the amount of loans still outstanding.102 As of
     funds.                                              December 31, 2013, there had been no surrender of collateral related to these
                                                         loans.103 For more information, see the “TALF” discussion in this section.
     Commercial Mortgage-Backed                       •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     Securities (“CMBS”): Bonds backed by                credit markets by using a combination of private equity, matching Government
     one or more mortgages on commercial                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
     real estate (e.g., office buildings, rental         non-agency residential mortgage-backed securities (“non-agency RMBS”).104
     apartments, hotels).                                Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
                                                         by private asset managers invested in non-agency RMBS and CMBS. Treasury
     Legacy Securities: Real estate-related              originally obligated $22.4 billion in TARP funds to the program and reduced
     securities originally issued before                 the amount over time to $19.6 billion as of December 31, 2013. Together, all
     2009 that remained on the balance                   nine PPIFs drew down $18.6 billion in debt and equity financing from Treasury
     sheets of financial institutions because            funding out of the total obligation, and repaid all of it.105 As of December 31,
     of pricing difficulties that resulted from          2013, the entire PPIP portfolio had been liquidated, and six PPIP funds were
     market disruption.                                  legally dissolved while the other two were winding down operations.106 For more
                                                         information, see the “Public-Private Investment Program” discussion in this
     Non-Agency Residential Mortgage-                    section.
     Backed Securities (“non-agency                   •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     RMBS”): Financial instrument backed                 Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
     by a group of residential real estate               officials announced that Treasury would buy up to $15 billion in securities
     mortgages (i.e., home mortgages for                 backed by SBA loans under UCSB.107 Treasury obligated a total of $400 million
     residences with up to four dwelling                 for UCSB and made purchases of $368.1 million in 31 securities under the
     units) not guaranteed or owned by                   program. Treasury sold the last of its UCSB securities on January 24, 2012,
     a Government-sponsored enterprise                   ending the program with a net investment gain of about $9 million.108 For more
     (“GSE”) or a Government agency.                     information, see the “Unlocking Credit for Small Businesses/Small Business
                                                         Administration Loan Support” discussion in this section.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             63




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella
program for the Administration’s homeowner assistance and foreclosure prevention            Government-Sponsored Enterprises
efforts.109 MHA initially consisted of the Home Affordable Modification Program             (“GSEs”): Private corporations created
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 and chartered by the Government to
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at          reduce borrowing costs and provide
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.110                   liquidity in the market, the liabilities
HAMP was originally intended “to help as many as three to four million financially          of which are not officially considered
struggling homeowners avoid foreclosure by modifying loans to a level that is               direct taxpayer obligations. On
affordable for borrowers now and sustainable over the long term.”111 On June 1,             September 7, 2008, the two largest
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              GSEs, the Federal National Mortgage
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  Association (“Fannie Mae”) and
number of homeowners that HAMP Tier 2 is intended to assist.112 On June 13,                 the Federal Home Loan Mortgage
2013, Treasury generally extended MHA programs for an additional two years,                 Corporation (“Freddie Mac”), were
from December 31, 2013, to December 31, 2015.113                                            placed into Federal conservatorship.
    Treasury over time expanded MHA to include sub-programs. Treasury also                  They are currently being financially
allocated TARP funds to support two additional housing support efforts: TARP                supported by the Government.
funding for 19 state housing finance agencies, called the Housing Finance
Agency Hardest Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing                 Loan Servicers: Companies that
Administration (“FHA”) refinancing program. The HHF program is scheduled                    perform administrative tasks on
to expire on December 31, 2017. The FHA refinancing program, known as FHA                   monthly mortgage payments until the
Short Refinance, is scheduled to expire on December 31, 2014.114                            loan is repaid. These tasks include
    Not all housing support programs are funded, or completely funded, by TARP.             billing, tracking, and collecting monthly
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               payments; maintaining records of
funded by TARP, with the remainder funded by the GSEs.115 Although Treasury                 payments and balances; allocating
originally committed to use $50 billion in TARP funds for these programs,                   and distributing payment collections
it subsequently obligated only $45.6 billion, and in March 2013, reduced its                to investors in accordance with
obligation to $38.5 billion, which includes $29.9 billion for MHA incentive                 each mortgage loan’s governing
payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA Short               documentation; following up
Refinance.116                                                                               on delinquencies; and initiating
    Housing support programs include the following initiatives:                             foreclosures.

                                                                                            Investors: Owners of mortgage loans
•	 Home Affordable Modification Program (“HAMP” or “HAMP Tier 1”)                           or bonds backed by mortgage loans
   — HAMP is intended to use incentive payments to encourage loan servicers                 who receive interest and principal
   (“servicers”) and investors to modify eligible first-lien mortgages so that the          payments from monthly mortgage
   monthly payments of homeowners who are currently in default or generally at              payments. Servicers manage the
   imminent risk of default will be reduced to affordable and sustainable levels.117        cash flow from borrowers’ monthly
   Incentive payments for modifications to loans owned or guaranteed by the                 payments and distribute them to
   GSEs are paid by the GSEs, not TARP.118 As of December 31, 2013, there were              investors according to Pooling and
   894,410 active permanent HAMP Tier 1 modifications, 462,907 of which were                Servicing Agreements (“PSAs”).
   under TARP, with the remainder under the GSE portion of the program.119
   While HAMP generally refers to the first-lien mortgage modification program, it
   also includes the following subprograms:
64            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                               the use of principal reduction in modifications for eligible borrowers whose
                                                               homes are worth significantly less than the remaining outstanding balances
                                                               of their first-lien mortgage loans. It provides TARP-funded incentives to
                                                               offset a portion of the principal reduction provided by the investor.120 As
                                                               of December 31, 2013, there were 112,602 (Tier 1 and Tier 2) active
                                                               permanent modifications through PRA.121
                                                          çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                               encourage additional investor participation and HAMP modifications in
                                                               areas with recent price declines by providing TARP-funded incentives to
                                                               offset potential losses in home values.122 As of December 31, 2013, 216,998
                                                               (Tier 1 and Tier 2) loan modifications had been started under HPDP, and
                                                               154,119 remained active.123
                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of all or a portion of their payments.124 As of November 30, 2013, which
                                                               according to Treasury is the most recent data available, 5,628 borrowers
                                                               were actively participating in UP.125
                                                     •	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                          Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                          occupied “rental” properties, and to allow borrowers with a wider range of debt-
                                                          to-income ratios to receive modifications.126 As of December 31, 2013, 34,286
                                                          HAMP Tier 2 modifications had become permanent, of which 32,382 remained
                                                          active.127 Of Tier 2 permanent modifications started, 5,434 were previously
                                                          HAMP Tier 1 permanent modifications of which 4,894 remained active.
     Short Sale: Sale of a home for less             •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     than the unpaid mortgage balance.                    to provide incentives to servicers, investors, and borrowers to pursue short sales
     A borrower sells the home and the                    and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
     investor accepts the proceeds as full                is unable or unwilling to enter or sustain a modification. Under this program,
     or partial satisfaction of the unpaid                the servicer releases the lien against the property and the investor waives all
     mortgage balance, thus avoiding the                  rights to seek a deficiency judgment against a borrower who uses a short sale or
     foreclosure process.                                 deed-in-lieu when the property is worth less than the outstanding amount of the
                                                          mortgage.128 As of December 31, 2013, there were 146,960 short sales or deeds-
     Deed-in-Lieu of Foreclosure: Instead                 in-lieu under HAFA.129
     of going through foreclosure, the               •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     borrower voluntarily surrenders the                  second-lien mortgages when a corresponding first lien is modified under
     deed to the home to the investor, as                 HAMP by a participating servicer.130 As of December 31, 2013, 16 servicers are
     satisfaction of the unpaid mortgage                  participating in 2MP.131 These servicers represent approximately 55 – 60% of the
     balance.                                             second-lien servicing market.132 As of December 31, 2013, there were 79,696
                                                          active permanently modified second liens in 2MP.133
                                                     •	   Agency-Insured Programs — These programs are similar in structure to
                                                          HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
                                                          the Department of Veterans Affairs (“VA”).134 Treasury provides TARP-funded
                                                          incentives to encourage modifications under the FHA and RD modification
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014          65




   programs, but not for the VA modification program. As of December 31, 2013,
   there were 65 RD-HAMP active permanent modifications, 20,472 FHA-
   HAMP active permanent modifications, and 259 VA-HAMP active permanent
   modifications.135
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.136 According to Treasury, as of December 31, 2013, the program had
   expired and no second liens had been partially written down or extinguished
   under the program.137
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.138 As of September 30,
   2013, the latest data available, 145,081 homeowners had received assistance
   under HHF.139
•	 FHA Short Refinance Program — This program, which is partially supported
   by TARP funds, is intended to provide borrowers who are current on their                 Underwater Mortgage: Mortgage loan
   mortgage an opportunity to refinance existing underwater mortgage loans that             on which a homeowner owes more
   are not currently insured by FHA into FHA-insured mortgages with lower                   than the home is worth, typically as
   principal balances. Treasury has provided a TARP-funded letter of credit for             a result of a decline in the home’s
   up to $1 billion in loss coverage on these newly originated FHA loans.140 As             value. Underwater mortgages also are
   of December 31, 2013, 3,813 loans had been refinanced under FHA Short                    referred to as having negative equity.
   Refinance.141

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $10.5 billion, or 27%, has been expended as
of December 31, 2013.142 Of that, $1 billion was expended in the quarter ended
December 31, 2013. However, some of the expended funds remain as cash on
hand or paid for administrative expenses at state housing finance agencies (“HFAs”)
participating in the Hardest Hit Fund program. Treasury has capped the aggregate
amount available to pay servicer, borrower, and investor incentives under MHA
programs at $29.9 billion, of which $7.2 billion (24%), has been spent as of
December 31, 2013.143 Treasury allocated $7.6 billion to the Hardest Hit Fund.
As of December 31, 2013, of the $7.6 billion in TARP funds available for HHF,
states had drawn down $3.2 billion.144 As of September 30, 2013, the latest date for
which spending analysis is available, the states had drawn down $2.9 billion.145 As
of September 30, 2013, states had spent $2 billion (26%) of those funds to assist
145,081 homeowners, spent $344.4 million (5%) for administrative expenses, and
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            held $571 million (8%) as unspent cash-on-hand.146,i,ii Treasury originally allocated
                                            $8.1 billion for FHA Short Refinance, but deobligated $7.1 billion in March
                                            2013.147 Of the $1 billion currently allocated for FHA Short Refinance, $59.2
                                            million has been spent, which includes $50 million held in a pre-funded reserve
                                            account to pay future claims, $9.2 million spent on administrative expenses, and
                                            $47,840 spent on one refinanced mortgage that later redefaulted.148
                                                Table 2.5 shows the breakdown in expenditures and estimated funding
                                            allocations for these housing support programs. Figure 2.2 also shows these
                                            expenditures, as a percentage of allocations.

                                            TABLE 2.5
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 12/31/2013 ($ BILLIONS)
                                                                                                                       ALLOCATIONS                            EXPENDITURES
                                             MHA
                                                  HAMPa
                                                       First Lien Modification                                         $19.1                                       $5.0
                                                       PRA Modification                                                    2.0                                       0.5
                                                       HPDP                                                                1.6                                       0.3
                                                       UP                                                                   —    b
                                                                                                                                                                       —
                                                                                HAMP Total                            $22.7                                        $5.9
                                                  HAFA                                                                     4.2                                       0.7
                                                  2MP                                                                      0.1                                       0.5
                                                  Treasury FHA-HAMP                                                        0.2                                         —c
                                                  RD-HAMP                                                                   —d                                         —d
                                                  FHA2LP                                                                   2.7                                         —
                                                                                  MHA Total                                          $29.9                                    $7.2
                                             HHF (Drawdown by States)                e
                                                                                                                                      $7.6                                    $3.2
                                             FHA Short Refinance                                                                      $1.0 f
                                                                                                                                                                              $0.1
                                                                                  Total                                              $38.5                                  $10.5
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                               Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                 Treasury does not allocate TARP funds to UP.
                                             c
                                               Treasury has expended $0.04 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of December 31, 2013, $94,810 has been expended for RD-
                                                 HAMP.
                                             e
                                               Not all of the funds drawn down by states have been used to assist homeowners. As of September 30, 2013, HFAs had drawn
                                                down approximately $2.9 billion, and, according to the latest data available, only $2.0 billion (26%) of TARP funds allocated for HHF
                                                have gone to help 145,081 homeowners.
                                             f
                                               This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                             Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, 1/8/2014, and 1/17/2014; Treasury, Transactions Report-Housing
                                             Programs, 12/27/2013; Treasury, Daily TARP Update, 1/2/2014.




                                            i According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                              HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                              they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                              assistance, cash-on-hand, or undrawn funds.
                                            ii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                made.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   67




FIGURE 2.2
                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 12/31/2013 ($ BILLIONS)
              HAMP                                                                                                 26% spent
        $22.7 billion                                                                                              ($5.9 billion)

   Hardest Hit Fund                                        42% spenta
        $7.6 billion                                       ($3.2 billion)

              HAFA                            17% spent
         $4.2 billion                         ($0.7 billion)
                                                                                                     Funds Allocated
            FHA2LP                                                                                   Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           22% spent
         $0.2 billion       ($0.04 billion)

                        0                  $5                    $10             $15                  $20                $25
                                          billion               billion         billion              billion            billion

                        Notes: Numbers may not total due to rounding. HAMP includes HAMP Tier 1, HAMP Tier 2, HPDP, and PRA.
                        TARP funds are not used to support the UP program, which provides forbearance of a portion of the
                        homeowner’s mortgage payment. RD-HAMP expenditures equal $94,810 as of December 31, 2013.
                        Treasury has allocated $0.1 billion for the 2MP program. As of December 31, 2013, $0.5 billion has been
                        expended for 2MP. As of December 31, 2013, the FHA2LP program had expired.
                        a
                          In this figure, Hardest Hit Funds “spent” represents the amount of funds states had drawn down as of
                          December 31, 2013. Treasury requires states to return any HHF funds drawn down but unspent after
                          December 31, 2017. According to Treasury, committed program funds are funds committed to
                          homeowners who have been approved to participate in HHF programs that are anticipated to be disbursed
                          over the duration of their participation; states vary as to when and how they capture and report
                          funds as committed. HHF funds committed for homeowner assistance are recorded variously as
                          homeowner assistance, cash-on-hand, or undrawn funds.

                        Sources: Treasury, responses to SIGTARP data call, 1/8/2014 and 1/17/2014.


     As of December 31, 2013, Treasury had active agreements with 90 servicers.149
That compares with 145 servicers that had agreed to participate in MHA as
of October 3, 2010.150 According to Treasury, of the $29.9 billion obligated to
participating servicers under their Servicer Participation Agreements (“SPAs”), as
of December 31, 2013, only $7.2 billion (24%) has been spent, broken down as
follows: $5.9 billion had been spent on completing permanent modifications of first
liens, including HAMP Tier 1, HAMP Tier 2, PRA, and HPDP, (495,289 of which
remain active); $504.4 million had been spent under 2MP; and $731.8 million
had been spent on incentives for short sales or deeds-in-lieu of foreclosure under
HAFA.151 Of the combined amount of incentive payments, according to Treasury,
approximately $3.6 billion went to pay investor or lender incentives, $2.1 billion
went to pay servicer incentives, and $1.5 billion went to pay borrower incentives.152
As of December 31, 2013, of the $7.6 billion in TARP funds available for HHF,
states had drawn down $3.2 billion.153 As of September 30, 2013, states had
drawn down $2.9 billion and, according to the latest data available, had spent $2
billion (26%) of those funds to assist 145,081 homeowners, spent $344.4 million
(5%) for administrative expenses, and held $571 million (8%) as unspent cash-on-
hand.154 The remaining $1 billion has been obligated under FHA Short Refinance
68   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to purchase a letter of credit to provide up to $1 billion in first loss coverage and to
                                            pay $25 million in fees for the letter of credit.155 According to Treasury, it has paid
                                            only one claim for one default on the 3,813 loans refinanced under FHA Short
                                            Refinance. However, Treasury has pre-funded a reserve account with $50 million
                                            to pay future claims and has spent $9.2 million on administrative expenses.156 Table
                                            2.6 shows the breakdown of TARP-funded expenditures related to housing support
                                            programs (not including the GSE-funded portion of HAMP).
                                                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   69




TABLE 2.6
 BREAKDOWN OF TARP EXPENDITURES, AS OF 12/31/2013 ($ MILLIONS)
 MHA                                                                             TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
               Servicer Incentive Payment                                            $659.8
               Servicer Current Borrower Incentive Payment                            $16.8
               Annual Servicer Incentive Payment                                  $1,061.6
               Investor Current Borrower Incentive Payment                            $66.8
               Investor Monthly Reduction Cost Share                              $2,134.8
               Annual Borrower Incentive Payment                                  $1,040.0
               Tier 2 Incentive Payments                                              $43.7
          HAMP First Lien Modification Incentives Total                                     $5,023.4
          PRA                                                                                  $518.2
          HPDP                                                                                 $348.6
          UP                                                                                          $—a
          HAMP Program Incentives Total                                                                     $5,890.2
     HAFA Incentives
          Servicer Incentive Payment                                                                      $212.9
          Investor Reimbursement                                                                          $151.3
          Borrower Relocation                                                                             $367.6
     HAFA Incentives Total                                                                                     $731.8
     Second-Lien Modification Program Incentives
          2MP Servicer Incentive Payment                                                                    $60.6
          2MP Annual Servicer Incentive Payment                                                             $27.2
          2MP Annual Borrower Incentive Payment                                                             $25.1
          2MP Investor Cost Share                                                                         $150.6
          2MP Investor Incentive                                                                          $240.9
     Second-Lien Modification Program Incentives Total                                                         $504.4
     Treasury/FHA-HAMP Incentives
               Annual Servicer Incentive Payment                                                            $23.1
               Annual Borrower Incentive Payment                                                            $21.4
     Treasury/FHA-HAMP Incentives Total                                                                          $44.5
     RD-HAMP                                                                                                           $—b
     FHA2LP                                                                                                            $—
 MHA Incentives Total                                                                                            $7,170.9
 HHF Disbursements (Drawdowns by State HFAs)                                                                     $3,229.7
 FHA Short Refinance (Loss-Coverage)                                                                                  $59.2
 Total Expenditures                                                                                             $10,459.8
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
    payment.
 b
    RD-HAMP expenditures equal $94,810 as of December 31, 2013.

 Sources: Treasury, responses to SIGTARP data call, 1/8/2014 and 1/17/2014.
70             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                            HAMP
                                                            According to Treasury, HAMP was intended “to help as many as three to four
                                                            million financially struggling homeowners avoid foreclosure by modifying loans to
                                                            a level that is affordable for borrowers now and sustainable over the long term.”157
                                                            Although HAMP contains several subprograms, the term “HAMP” is most often
                                                            used to refer to the HAMP First-Lien Modification Program, described below.

                                                            HAMP First-Lien Modification Program
                                                            The HAMP First-Lien Modification Program, which went into effect on April
                                                            6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
     Trial Modification: Under HAMP, a
                                                            lower monthly payments. A HAMP modification consists of two phases: a trial
     period of at least three months in
                                                            modification that was designed to last three months, followed by a permanent
     which a borrower is given a chance
                                                            modification. Treasury pays incentives for active TARP (non-GSE) HAMP
     to establish that he or she can make
                                                            permanent modifications for five years.158 In designing HAMP, the Administration
     lower monthly mortgage payments and
                                                            envisioned a “shared partnership” between the Government and investors to bring
     qualify for a permanent modification.
                                                            distressed borrowers’ first lien monthly payments down to an “affordable and
                                                            sustainable” level.159 The program description immediately below refers only to the
     For additional information about                       original HAMP program, which was renamed “HAMP Tier 1,” after the launch of
     what happens to HAMP permanent                         HAMP Tier 2.
     modifications after five years, please see
     the discussion, “Payment Increases on                  HAMP Modification Statistics
     HAMP-Modified Mortgages to Begin in                    As of December 31, 2013, a total of 894,410 mortgages were in active HAMP Tier
     2014,” in this section.                                1 (“HAMP”) permanent modifications under both TARP (non-GSE) and GSE
                                                            HAMP. Some 40,193 were in active trial modifications. As of December 31, 2013,
                                                            for borrowers receiving permanent modifications, 95.5% received an interest rate
                                                            reduction, 63.7% received a term extension, 33.7% received principal forbearance,
                                                            and 16.1% received principal forgiveness.160 Table 2.7 shows HAMP modification
                                                            activity, broken out by TARP and GSE loans. For more detail on redefaulted
                                                            modifications over the life of HAMP, see Table 2.10 and Figure 2.4. For more
                                                            detail on HAMP modification activity, broken out by TARP and GSE loans, see
                                                            Table F.1 in Appendix F.

                                        TABLE 2.7
                                         CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 12/31/2013
                                                                                                                   Trials
                                                           Trials           Trials              Trials      Converted to          Permanents          Permanents       Permanents
                                                         Started        Cancelled              Active        Permanent            Redefaulted            Paid Off          Active
                                         TARP        1,043,358            351,399             26,642               665,317             196,497                 5,913      462,907
                                         GSE         1,053,599            428,093             13,551               611,955             162,575                17,877      431,503
                                         Total      2,096,957             779,492            40,193            1,277,272              359,072                 23,790     894,410
                                         Sources: Treasury, response to SIGTARP data call, 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   71




   During the quarter ending December 31, 2013, 30,159 permanent
modifications were started, which is 3,169 fewer than were started in the previous
quarter and 137,061 fewer than were started in the second quarter of 2010, the
quarter when the most HAMP permanent modifications were started. Figure 2.3
shows TARP and GSE HAMP permanent modifications started, by quarter.

FIGURE 2.3

HAMP TIER 1 PERMANENT MODIFICATIONS STARTED, BY QUARTER, 2009-2013
180,000

160,000

140,000

120,000

100,000
                                                                                             30,159 HAMP permanent
 80,000                                                                                      modifications were started in
                                                                                             the quarter ended 12/31/2013.
 60,000

 40,000

 20,000

     0
           Q1    Q2    Q3    Q4    Q1   Q2    Q3    Q4    Q1     Q2   Q3   Q4   Q1   Q2   Q3     Q4    Q1   Q2    Q3   Q4
                   2009                   2010                    2011                2012                    2013

          Note: Includes TARP and GSE permanent modifications.

          Sources: Treasury, “Making Home Affordable Program Performance Report,“ 1/19/2010, 4/20/2010, 7/19/2010,
          10/25/2010, 1/31/2011, 5/6/2011, 8/5/2011, 11/3/2011, 2/6/2012, 5/4/2012, 8/3/2012, 11/9/2012, 2/8/2013,
          5/10/2013, 8/9/2013, and 11/8/2013; Treasury, responses to SIGTARP data calls, 2/28/2013, 1/23/2014, and
          1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            PAYMENT INCREASES ON HAMP–MODIFIED
                                            MORTGAGES TO BEGIN IN 2014

                                            Most homeowners who received HAMP permanent mortgage modifications
                                            saw the interest rates on their loans cut in order to reduce their monthly
                                            payments and make their mortgages more affordable and sustainable over
                                            the long term.161 For the HAMP permanent modifications made in 2009,
                                            interest rates will start to go up this year, and so will the payments, in some
                                            cases eventually by as much as $1,724 per month.162

                                            As designed, the program increases interest rates for many homeowners
                                            beginning five years after the mortgage was modified.163 In addition, TARP-
                                            funded incentive payments for servicers, investors, and homeowners end
                                            after five years. For the vast majority of homeowners who received the very
                                            first HAMP permanent mortgage modifications in 2009 and who still had
                                            an active modification as of November 30, 2013, the latest data available,
                                            interest rate and monthly payment increases are scheduled to begin in 2014
                                            and incentive payments will end.164

                                            Of the 894,302 homeowners who had active HAMP permanent modifications
                                            as of November 30, 2013, 88%, or 782,748 homeowners, are scheduled for
                                            these eventual interest rate and payment increases.165 The median payment
                                            increase after all rate increases will be around $200 per month, according to
                                            a SIGTARP analysis of Treasury’s HAMP data.166


                                            Why Homeowner Payments Will Increase
                                            HAMP permanent mortgage modifications lowered homeowners’ monthly
                                            mortgage payments to 31% of their gross monthly income through a series
                                            of steps including extending the term of the mortgage, reducing the principal
                                            owed, or cutting the interest rate to as low as 2%.167 The terms of HAMP
                                            permanent modifications remain fixed for five years.168 However, after five
                                            years, a homeowner’s mortgage interest rate can increase if the modified
                                            interest rate had been reduced below where the national average rate was for
                                            a 30-year conforming fixed-rate mortgage on the date of the modification.169
                                            The average interest rate over the last five years has generally been
                                            between 4% and 5.4%, and most modifications cut rates well below that
                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   73




benchmark.170 After five years, the interest rate on the modified loan can step
up incrementally by up to 1% per year until it reaches that benchmark.171


Almost 90% of Homeowners With HAMP Permanent Modifications Will
Experience Payment Increases
Of those 894,302 homeowners with active HAMP permanent modifications
as of November 30, 2013, 782,748 (88%) are scheduled to have mortgage
interest rate and payment increases; these increases will take place between
2014 and 2021.172 That means just 111,554 homeowners, or 12%, will not
experience payment increases.173

Among those homeowners who are scheduled to have mortgage interest
rate and payment increases, the median interest rate on their loan was 6.4%
before modification; the median monthly payment was $1,421.174 HAMP
permanent modifications reduced these homeowners’ median interest rate
to 2% and the median monthly payment to $773.175 (SIGTARP’s rate and
payment analysis excludes 77,699 HAMP permanent modifications that are
scheduled to adjust but for which records are incomplete.)

Scheduled adjustments over the coming years will increase homeowners’
monthly payments. Among the 88% of homeowners who will see their interest
rate and monthly payment increase, the median rate will rise incrementally,
by no more than 1% per year, to where the national average rate was for a
30-year conforming fixed-rate mortgage on the date of the modification, and
the median payment eventually will go up $196 per month to $989.176 Some
homeowners could eventually see their mortgage interest rates increase to
as much as 5.4%; for some, payments eventually could increase by $1,724
per month; and after all payment increases, the highest mortgage payment
any homeowner would pay per month would be $9,966.177 Table 2.8 shows
before-modification, after-modification, and after all modification increases,
median interest rates, payments, and payment increases for homeowners
who face interest rate and payment increases on HAMP mortgage
modifications. For more detail, see Table F.2 in Appendix F.
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.8
                                             HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT
                                             INCREASES, AS OF 11/30/2013
                                                                                                   Total Active
                                                                                                    Permanent                                    Median    Median
                                                                                                Modifications                                      Total Increase
                                                                                  Total Active With Scheduled                   Median          Monthly Amount of
                                                                                   Permanent          Payment                   Interest       Mortgage   Monthly
                                                                                 Modifications       Increases                     Ratea       Paymenta Paymenta
                                                 Before Modification                    894,302                  782,748            6.4%           $1,421                  —
                                                    After Modification                  894,302                  782,748            2.0%              $773                 —
                                             After All Modification
                                                                                       894,302                  782,748            4.5%               $989             $196
                                                         Increases
                                             a
                                                  nalysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 77,699 HAMP permanent
                                                 A
                                                 modifications with incomplete records.

                                             Source: SIGTARP analysis of Treasury HAMP data.



                                            Homeowners in All States Will Be Affected by Payment Increases
                                            Four states account for half of homeowners with active HAMP permanent
                                            modifications that are scheduled for interest rate and payment increases:
                                            California, Florida, New York, and Illinois.178 Homeowners in 11 jurisdictions
                                            face mortgage payment increases that are more than the $196 national
                                            median: California, Hawaii, Maryland, Massachusetts, Nevada, New Jersey,
                                            New York, Virginia, Utah, Washington, and Washington, DC.179 While 88%
                                            of homeowners nationally with HAMP-modified mortgages face scheduled
                                            interest rate and payment increases, that percentage is even higher in 17
                                            jurisdictions: Arizona, California, Connecticut, Guam, Hawaii, Illinois, Maine,
                                            Massachusetts, Nevada, New Jersey, New York, Oregon, Puerto Rico, Rhode
                                            Island, the Virgin Islands, Washington, and Washington, DC.180 Table 2.9
                                            shows, as of November 30, 2013, all active HAMP permanent modifications
                                            with scheduled monthly mortgage payment increases, by state.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   75




TABLE 2.9
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
 AS OF 11/30/2013
                                                        Percentage
                                     Total Active         of Active
                                      Permanent         Permanent         Median      Maximum
                                   Modifications      Modifications     Payment        Payment
                  Total Active   With Scheduled     With Scheduled      Increase       Increase
                   Permanent            Payment           Payment        After All      After All
 State           Modifications         Increases          Increase    Increasesa     Increasesa
 Alabama                4,773              3,572               75%           $95           $928
 Alaska                   399                321               80%           174            809
 Arizona               33,556            29,574                88%           185          1,208
 Arkansas               1,825              1,471               81%             96           789
 California           234,572           213,714                91%           297          1,724
 Colorado              12,524            10,790                86%           171          1,094
 Connecticut           11,516            10,088                88%           190          1,237
 Delaware               2,613              2,212               85%           171            834
 Florida              110,166            96,341                87%           161          1,168
 Georgia               31,591            26,267                83%           133          1,061
 Guam                       7                  7             100%              53           173
 Hawaii                 3,516              3,205               91%           356          1,230
 Idaho                  3,311              2,796               84%           159            894
 Illinois              45,892            40,597                88%           175          1,088
 Indiana                8,083              6,298               78%             93         1,022
 Iowa                   1,993              1,605               81%             91           626
 Kansas                 2,044              1,655               81%           103          1,042
 Kentucky               3,173              2,545               80%             92           865
 Louisiana              4,851              3,800               78%           102            694
 Maine                  2,429              2,136               88%           142            789
 Maryland              27,990            24,474                87%           241          1,174
 Massachusetts         21,224            19,086                90%           232          1,064
 Michigan              25,802            21,934                85%           120          1,273
 Minnesota             13,622            11,914                87%           172          1,117
 Mississippi            2,944              2,154               73%             87           730
 Missouri               8,435              6,701               79%           105            889
 Montana                1,028                860               84%           172          1,074
 Nebraska               1,145                922               81%             89           632
 Nevada                19,049            16,999                89%           212          1,042
 New Hampshire          3,879              3,366               87%           180            761
                                                                          Continued on next page
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                            HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
                            AS OF 11/30/2013 (CONTINUED)
                                                                                                                   Percentage
                                                                                          Total Active               of Active
                                                                                           Permanent               Permanent                   Median             Maximum
                                                                                        Modifications            Modifications               Payment               Payment
                                                                 Total Active         With Scheduled           With Scheduled                Increase              Increase
                                                                  Permanent                  Payment                 Payment                  After All             After All
                            State                               Modifications               Increases                Increase              Increasesa            Increasesa
                            New Jersey                                   28,778                   25,995                       90%                 $232               $1,100
                            New Mexico                                     3,047                    2,495                      82%                   139                  913
                            New York                                     46,299                   42,623                       92%                   286               1,507
                            North Carolina                               15,650                   12,857                       82%                   114               1,060
                            North Dakota                                     132                      111                      84%                   110                  560
                            Ohio                                         18,215                   15,107                       83%                     97                 886
                            Oklahoma                                       2,014                    1,549                      77%                     83                 784
                            Oregon                                       10,113                     8,975                      89%                   191               1,052
                            Pennsylvania                                 18,170                   15,011                       83%                   129                  933
                            Puerto Rico                                    3,166                    2,958                      93%                     94                 982
                            Rhode Island                                   4,258                    3,826                      90%                   192                  905
                            South Carolina                                 7,983                    6,425                      80%                   116               1,105
                            South Dakota                                     293                      244                      83%                   121                  836
                            Tennessee                                      8,539                    6,619                      78%                     96              1,075
                            Texas                                        23,841                   18,703                       78%                     96              1,169
                            Utah                                           7,737                    6,650                      86%                   197               1,023
                            Vermont                                          783                      673                      86%                   147                  853
                            Virgin Islands                                       6                        6                  100%                    143                  213
                            Virginia                                     20,986                   18,197                       87%                   225               1,118
                            Washington                                   19,097                   16,964                       89%                   219               1,075
                            Washington, DC                                 1,545                    1,362                      88%                   250                  888
                            West Virginia                                  1,159                      938                      81%                   123                  569
                            Wisconsin                                      8,137                    6,747                      83%                   124                  968
                            Wyoming                                          402                      309                      77%                   166                  829
                            Total                                     894,302                  782,748                        88%                  $196              $1,724
                            a
                                 nalysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 77,699 HAMP permanent modifications with
                                A
                                incomplete records.

                            Source: SIGTARP analysis of Treasury HAMP data.						
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               77




Homeowners Who Have Redefaulted on HAMP Permanent                                                                                            For more on homeowners who have
Modifications or Are at Risk of Redefaultingiii                                                                                              redefaulted on HAMP permanent
As of December 31, 2013, HAMP has helped more than 894,410 homeowners                                                                        mortgages or are at risk of defaulting, see
                                                                                                                                             SIGTARP’s July 2013 Quarterly Report,
avoid foreclosure through permanent mortgage modifications, but another 359,072
                                                                                                                                             pages 161-184.
homeowners (or 28%) fell three months behind in payments and, thus, redefaulted
out of the program–often into a less advantageous private sector modification
or even worse, into foreclosure.181 This percentage (cumulative redefault rate)
includes all homeowners who received HAMP permanent modifications since                                                                      Cumulative Redefault Rate: The
the start of the program. As of December 31, 2013, taxpayers lost $1.1 billion in                                                            total number of HAMP permanent
TARP funds paid to servicers and investors as incentives for 196,497 homeowners                                                              modifications that have redefaulted
who received TARP (non-GSE) HAMP permanent modifications and later                                                                           (as of a specific date) divided by the
redefaulted.182 Also, as of November 30, 2013, the latest data available, 97,315                                                             total number of HAMP permanent
(11% of active HAMP permanent modifications) had missed one to two monthly                                                                   modifications started (as of the same
mortgage payments and, thus, are at risk of redefaulting out of the program.183                                                              specific date).
    The longer a homeowner remains in HAMP, the more likely he or she is to
redefault out of the program, with homeowners redefaulting on the oldest HAMP
permanent modifications at a rate of 49.6%.iv As of November 30, 2013, the
latest data provided by Treasury, redefault rates of HAMP permanent mortgage
modifications that had been started in each year, since 2009, continued to increase
as the modifications age. Nearly half of all homeowners who received a HAMP
permanent modification received it in 2009 and 2010.184 As of November 30, 2013,
the latest data provided by Treasury, homeowners who received HAMP permanent
modifications in 2009 redefaulted at rates ranging from 43% to 49.6%.185 As
of November 30, 2013, the latest data provided by Treasury, homeowners who
received HAMP permanent modifications in 2010 redefaulted at rates ranging
from 34.2% to 41.9%.186
    Homeowners who redefaulted fell out of the HAMP program, and their
HAMP permanent modification was not sustainable. Once again, they risked
losing their homes and some may have lost their homes. Treasury reported that
of the homeowners with redefaulted loans reported by twenty-one servicers that
participated in a survey, as of November 30, 2013, the latest data available, 27%
of homeowners who redefaulted received an alternative modification, usually
a private sector modification, 21% of homeowners moved into the foreclosure
process, and 12% of homeowners lost their home via a short sale or deed-in-lieu of
foreclosure.187
    Since HAMP’s inception in 2009, the cumulative redefault rate for
homeowners who received permanent modifications has risen each year—from
1% at the end of 2009 to 28% at the end of 2013.188 Table 2.10 provides detail on
the annual and cumulative number and percentage of homeowners who received
HAMP permanent modifications and have redefaulted over the life of HAMP.
Figure 2.4 provides detail on the status (active and redefaulted) over time of
homeowners’ HAMP permanent modifications by the year they originated.


iii In this section, “HAMP” refers to the original HAMP First-Lien Modification Program, which Treasury later named HAMP Tier 1.
iv Treasury’s calculation of redefault rates may exclude some modifications due to missing or invalid data.
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                        TABLE 2.10
                                         HAMP TIER 1 PERMANENT MODIFICATION REDEFAULT ACTIVITY, AS OF
                                         12/31/2013
                                                                                Permanents Started                           Permanents Redefaulted
                                                                                                                                                      Redefault Rate
                                                                                   Annual      Cumulative              Annual       Cumulative           Cumulative
                                                           2009                    23,633            23,633                129                129                      1%
                                                           2010                  243,262           266,895             29,015             29,144                     11%
                                                           2011                  185,254           452,149             59,080             88,224                     20%
                                         TARP
                                                           2012                  114,745           566,894             58,860           147,084                      26%
                                                           2013                    98,423          665,317             49,413           196,497                      30%
                                                           Total                665,317                              196,497
                                                           2009                    43,305            43,305                339                339                      1%
                                                           2010                  269,450           312,755             27,730             28,069                       9%
                                                           2011                  168,423           481,178             51,287             79,356                     16%
                                         GSE
                                                           2012                    87,280          568,458             49,229           128,585                      23%
                                                           2013                    43,497          611,955             33,990           162,575                      27%
                                                           Total                611,955                              162,575
                                                           2009                    66,938            66,938                468                468                      1%
                                                           2010                  512,712           579,650             56,745             57,213                     10%
                                                           2011                  353,677           933,327           110,367            167,580                      18%
                                         Total
                                                           2012                  202,025         1,135,352           108,089            275,669                      24%
                                                           2013                  141,920         1,277,272             83,403           359,072                      28%
                                                           Total             1,277,272                               359,072
                                         Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; and December 31, 2013.

                                         Sources: Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013,
                                         10/23/2013, 1/23/2014, and 1/24/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013 and 1/23/2014; SIGTARP
                                         Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress,
                                         1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   79




FIGURE 2.4

ACTIVE AND REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY YEAR OF
MODIFICATION, STATUS AS OF 12/31/2009 - 12/31/2013
600,000



500,000



400,000



300,000



200,000



100,000



     0
          As of 12/31/2009       As of 12/31/2010          As of 12/31/2011          As of 12/31/2012          As of 12/31/2013

      Modification Year       2009        2010        2011       2012        2013
      Redefaulted
      Active

      Notes: According to Treasury and Fannie Mae, reporting by HAMP permanent modification effective date did not exist until
      January 2011. Because of reporting schedules, some of the HAMP permanent modification activity reported in any year may
      include some modifications with effective dates in the following year. Data excludes all HAMP permanent modifications started
      but paid off (23,790 HAMP permanent modifications had been paid off as of 12/31/2013).

      Sources: Treasury, responses to SIGTARP data calls, 1/23/2014 and 1/24/2014; Fannie Mae, response to SIGTARP data call,
      1/23/2014; SIGTARP analysis of Treasury HAMP data.




Servicer Redefault Rates
As of December 31, 2013, of 1,138,117 homeowners’ HAMP permanent
modifications currently serviced by 10 of the largest servicers, 307,570, or 27%,
subsequently redefaulted, and three servicers account for nearly half of these
homeowners’ HAMP permanent modifications that redefaulted: Ocwen Loan
Servicing, LLC, with 79,156 homeowners’ permanent modifications redefaulted;
Wells Fargo Bank, N.A., with 44,364 homeowners’ permanent modifications
redefaulted, and JPMorgan Chase Bank, NA, with 44,291 homeowners’ permanent
modifications redefaulted.189 Of these 10 servicers participating in HAMP, the
three servicers with the highest percentage of homeowners’ HAMP permanent
modifications made that redefaulted were Select Portfolio Servicing, Inc. with 42%
of homeowners’ permanent modifications redefaulted; Bank of America, N.A.,
with 31% of homeowners’ permanent modifications redefaulted; and Ocwen Loan
Servicing, LLC, with 30% of homeowners’ permanent modifications redefaulted,
as compared with the average for the 10 of 27%.190 Table 2.11 provides data on
homeowners’ HAMP permanent modifications by servicers participating in HAMP
and currently servicing the modifications listed.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.11
                                             HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS AND REDEFAULTS
                                             CURRENTLY WITHIN SERVICERS’ PORTFOLIOS, BY SERVICER, AS OF
                                             12/31/2013
                                                                                                                                                                     Percentage
                                                                                                                                    Permanent                      of Permanent
                                                                                                     Permanent                    Modifications                    Modifications
                                                                                                    Modifications                  Redefaulted                      Redefaulted
                                             Ocwen Loan Servicing, LLCa                                     264,043                         79,156                                30%
                                             Wells Fargo Bank, N.A.          b
                                                                                                            186,418                         44,364                                24%
                                             JPMorgan Chase Bank, N.A.c                                     193,501                         44,291                                23%
                                             Bank of America, N.A.          d
                                                                                                            111,837                         34,669                                31%
                                             Nationstar Mortgage LLC                                        123,260                         31,939                                26%
                                             Select Portfolio Servicing, Inc.                                 56,429                        23,944                                42%
                                             CitiMortgage Inc                                                 68,009                        16,289                                24%
                                             Seterus, Inc.                                                    52,770                        13,748                                26%
                                             Green Tree Servicing LLC                                         61,437                        13,644                                22%
                                             U.S. Bank National Association                                   20,413                          5,526                               27%
                                             Other                                                          173,441                         53,312                                31%
                                             Total                                                      1,311,558                        360,882                                 28%
                                             Notes: HAMP include HAMP Tier 1 and Tier 2 modifications, including those that received assistance under the Home Price Decline
                                             Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs. Includes both TARP and GSE modifications. Includes
                                             modifications listed by the current servicer of the loan.
                                             a
                                               Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                                             b
                                               Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                                             c
                                               JPMorgan Chase Bank, N.A. includes EMC Mortgage Corporation.
                                             d
                                               Bank of America includes the former BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.

                                             Sources: Treasury, response to SIGTARP data call, 1/23/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.



                                            Redefaults: Impact on Taxpayers Funding TARP
                                            Taxpayers have lost more than $1.1 billion in TARP funds paid to servicers and
                                            investors as incentives for 196,497 homeowners’ non-GSE, HAMP (Tier 1)
                                            permanent mortgage modifications that redefaulted.191 As of December 31, 2013,
                                            Treasury has distributed $5.8 billion in TARP funds for 665,317 homeowners’
                                            non-GSE, HAMP (Tier 1) permanent modifications.192 According to Treasury,
                                            $3.1 billion of that was designated for investor incentives, $1.7 billion for servicer
                                            incentives, and $1 billion for homeowner incentives.193 (Homeowner incentives
                                            are paid to servicers that, in turn, apply the payment to a homeowner’s mortgage).
                                            According to Treasury, 19% of those funds were paid for incentives on homeowners’
                                            HAMP permanent modifications that later redefaulted.194
                                                More than half of TARP funds that Treasury spent for HAMP permanent
                                            modifications that redefaulted were for mortgages currently serviced by three
                                            servicers, Ocwen Loan Servicing, LLC, Wells Fargo Bank, N.A., and Select
                                            Portfolio Servicing, Inc. (listed in Table 2.12).195,v Almost all (90%) of TARP

                                            v Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
                                             by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
                                             transfers are not taken into account when the current servicer on the loan is used.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             81




funds Treasury spent for HAMP permanent modifications that redefaulted were
for mortgages currently serviced by 10 servicers (listed in Table 2.12).196 Table
2.12 shows payments for homeowners’ HAMP permanent modifications (active,
redefaulted, and paid off mortgages) that are currently within servicers’ portfolios.

TABLE 2.12
 TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS CURRENTLY WITHIN
 SERVICERS’ PORTFOLIOS, AS OF 12/31/2013
                                                                                                              TARP                                         Percentage of Total
                                            TARP Incentive                TARP Incentive                  Incentive                 Total TARP                 TARP Incentive
                                             Payments for                  Payments for               Payments for                    Incentive                 Payments for
                                              Permanents                    Permanents                 Permanents                Payments for                     Permanents
 Servicer Name                                      Active                  Redefaulted                    Paid Off             Permanents All                    Redefaulted 
 Ocwen Loan Servicing,
                                            $1,292,772,760                  $325,099,011                 $6,918,215             $1,624,789,986                                    20%
 LLC
 Wells Fargo Bank, N.A.                         761,526,089                  136,672,002                   6,561,777                 904,759,868                                  15%
 Select Portfolio Servicing,
                                                280,390,089                  131,051,255                   3,878,174                 415,319,518                                  32%
 Inc.
 JPMorgan Chase Bank, NA                        822,700,336                  126,031,182                   5,868,335                 954,599,853                                  13%
 Bank of America, N.A.                          547,980,207                  101,774,142                   4,819,204                 654,573,553                                  16%
 Nationstar Mortgage LLC                        332,940,973                    65,040,726                  1,896,524                 399,878,223                                  16%
 CitiMortgage Inc                               181,128,026                    35,452,590                  3,121,054                 219,701,670                                  16%
 GMAC Mortgage, LLC                               56,446,573                   20,473,000                  2,793,944                  79,713,516                                  26%
 Carrington Mortgage
                                                  40,975,197                   18,217,246                     404,221                 59,596,664                                  31%
 Services, LLC.
 OneWest Bank                                     72,197,598                   17,743,943                     828,660                 90,770,200                                  20%
 Other                                          317,351,780                  105,046,002                   9,992,308                 432,390,089                                  24%
 Total                                    $4,706,409,627               $1,082,601,098                 $47,082,416             $5,836,093,142                                      19%
 Notes: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan.
 The incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used.
 Totals shown here exclude payments and/or drafts performed for modifications that are not currently Permanent Modifications. Totals shown here include payments under the
 HAMP Tier 1, Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

 Sources: Treasury, response to SIGTARP data call, 1/10/2014.
82   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Redefaults: Impact on States
                                            Homeowners are redefaulting throughout the nation. While the cumulative
                                            number of homeowners’ HAMP permanent modifications in certain states may not
                                            be high, some states with a relatively small number of modifications have redefault
                                            rates of 30% or more.197 For example, only 4,891 homeowners from Mississippi
                                            received HAMP permanent modifications, but these homeowners have redefaulted
                                            at a rate of 38%. Meanwhile, some states with the highest number of homeowners
                                            who have redefaulted have the lowest redefault rates. For example, California,
                                            which has the most homeowners in permanent modifications, has the highest
                                            number of homeowners who redefaulted on HAMP permanent modifications,
                                            66,411, but has one of the lowest redefault rates, 22%. (Only Guam, Puerto Rico,
                                            and the Virgin Islands have lower rates.) Florida, Illinois, and New York have the
                                            next highest number of homeowners who redefaulted, at 44,225, 21,112, and
                                            16,368, respectively. After Mississippi, in Tennessee and Alabama homeowners
                                            have redefaulted at a rate of 36%. Tables 2.13-2.19 and Figure 2.5 show regional
                                            and state breakdowns of the number of homeowners with HAMP permanent
                                            modifications, the number of homeowners with active permanent modifications,
                                            the number who have redefaulted on modifications, and the redefault rates.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   83




TABLE 2.13
 REDEFAULTED HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS, BY
 REGION, CUMULATIVE AS OF 12/31/2013
                                       Permanent                         Active                Redefaulted
                                      Modifications               Modifications               Modifications           Redefault Rate
 West                                         352,021                   267,824                         78,809                      22%
 Mountain West/ Plains                             70,098                   47,572                      20,519                      29%
 Southwest/ South Central                     104,609                       68,954                      32,956                      32%
 Midwest                                      199,746                   133,144                         62,476                      31%
 Mid-Atlantic/ Northeast                      279,974                   191,910                         83,157                      30%
 Southeast                                    270,824                   185,006                         81,155                      30%
 TOTAL                                    1,277,272                    894,410                      359,072                         28%
 Notes: Includes GSE and non-GSE modifications. Of HAMP permanent modifications, 23,790 loans have been paid off.

 Source: Treasury, response to SIGTARP data call, 1/23/2014.


FIGURE 2.5
REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
AS OF 12/31/2013

     AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                             20,519                                      MIDWEST                           MID-ATLANTIC/
                            WA                                                            62,476                            NORTHEAST
                                                                                                                VT    ME
                                              MT        ND                                                                    83,157
                       OR                                              MN                                                 NH
                                                                                  WI                           NY
     WEST                           ID                      SD                                                             MA
                                                                                          MI
    78,809
                                              WY
                                                                        IA                                               CT RI
                                                                                               OH         PA            NJ
                                                            NE
                              NV                                                   IL    IN                            DE
                      CA                 UT                                                             WV VA        MD
                                                   CO                   MO
                                                                 KS                           KY                    DC
               HI                                                                                        NC
                                                                                         TN
                                     AZ                           OK        AR                           SC
                                                   NM
     GU                                                                                MS AL       GA           SOUTHEAST
                                                             TX              LA                                   81,155

                                                                                                         FL           PR    VI
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                        32,956

                WEST                                                              MIDWEST
                MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     West
     TABLE 2.14
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                          Permanent                        Active                Redefaulted
                                                                         Modifications              Modifications               Modifications           Redefault Rate
                                                 WA         AK                        613                         403                         174                 28%
                                                            CA                  305,395                     234,645                      66,411                   22%
                  AK
                                            OR              GU                          10                           7                           2                20%
                                                            HI                      4,770                      3,525                       1,119                  23%
                                                            OR                    14,142                     10,116                        3,677                  26%
                                                            WA                    27,091                     19,128                        7,426                  27%
                        GU
                                            CA              Total              352,021                     267,824                       78,809                  22%
                                                            Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                             HI                             Source: Treasury, response to SIGTARP data call, 1/23/2014.



             WEST                                >27%
             Percentage of Redefaults            25-27%
             on HAMP Permanent                   <25%
             Modifications


     Mountain West/Plains
     TABLE 2.15
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                          Permanent                        Active                Redefaulted
                                                                         Modifications              Modifications               Modifications           Redefault Rate

                                  MT                        CO                    17,246                     12,502                        4,128                  24%
                                             ND
                                                            ID                      4,772                      3,304                       1,326                  28%
                   ID                        SD             KS                      3,201                      2,026                       1,059                  33%
                                   WY
                                                            MT                      1,444                      1,037                          335                 23%
                                                 NE
             NV                                             ND                        204                         133                           52                25%
                        UT
                                       CO                   NE                      1,856                      1,143                          619                 33%
                                                      KS
                                                            NV                    29,260                     19,019                        9,787                  33%
                                                            SD                        474                         291                         148                 31%
            MOUNTAIN WEST/                         >27%
                                                   25-27%
            PLAINS                                 <25%
                                                            UT                    11,027                       7,715                       2,895                  26%
            Percentage of Redefaults on
            HAMP Permanent Modifications
                                                            WY                        614                         402                         170                 28%
                                                            Total                70,098                      47,572                      20,519                  29%
                                                            Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                            Source: Treasury, response to SIGTARP data call, 1/23/2014.
                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             85




Southwest/South Central
TABLE 2.16
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate

     AZ                               OK                 AR                      2,939                      1,818                       1,003                  34%
               NM                                  AR
                                                         AZ                    50,520                     33,444                      15,890                   31%
                                                   LA    LA                      7,796                      4,848                       2,760                  35%
                                 TX
                                                         NM                      4,368                      3,046                       1,206                  28%
                                                         OK                      3,218                      2,002                       1,096                  34%
                                                         TX                    35,768                     23,796                      11,001                   31%
      SOUTHWEST/                                >27%     Total              104,609                       68,954                      32,956                  32%
                                                25-27%
      SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
      Percentage of Redefaults
      on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 1/23/2014.
      Modifications



Midwest
TABLE 2.17
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate
                                                         IA                      3,266                      1,981                       1,144                  35%
             MN
                       WI                                IL                    67,846                     45,892                      21,112                   31%
                                      MI                 IN                    12,473                       8,079                       4,084                  33%
               IA
                                                         KY                      5,005                      3,166                       1,690                  34%
                            IL   IN        OH
                                                         MI                    37,430                     25,741                      10,731                   29%
                  MO
                                       KY                MN                    20,218                     13,576                        6,157                  30%
                                                         MO                    13,422                       8,416                       4,653                  35%
       MIDWEST                              >27%
                                                         OH                    27,372                     18,183                        8,626                  32%
       Percentage of Redefaults             25-27%
       on HAMP Permanent                    <25%         WI                    12,714                       8,110                       4,279                  34%
       Modifications
                                                         Total              199,746                     133,144                       62,476                  31%
                                                         Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                         Source: Treasury, response to SIGTARP data call, 1/23/2014.
86   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Mid-Atlantic/Northeast
     TABLE 2.18
      REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                             Permanent                        Active                Redefaulted
                                                                            Modifications              Modifications               Modifications           Redefault Rate
                                    VT    ME                   CT                    17,144                     11,532                        5,369                  31%

                                               NH              DC                      2,204                      1,537                          607                 28%
                               NY               MA             DE                      4,124                      2,613                       1,444                  35%
                                                     RI
                                          CT
                          PA             NJ                    MA                    30,848                     21,260                        8,972                  29%
                                        DE                     MD                    41,190                     27,988                      12,511                   30%
                    WV VA
                    WV                MD
                                     DC                        ME                      3,805                      2,433                       1,268                  33%
                                                               NH                      5,916                      3,878                       1,878                  32%
                                                               NJ                    43,906                     28,836                      14,419                   33%
             MID-ATLANTIC/                       >27%
                                                 25-27%        NY                    63,663                     46,468                      16,368                   26%
             NORTHEAST                           <25%
             Percentage of                                     PA                    28,364                     18,209                        9,547                  34%
             Redefaults on HAMP
             Permanent Modifications                           RI                      6,341                      4,258                       1,989                  31%
                                                               VA                    29,526                     20,962                        7,875                  27%
                                                               VT                      1,153                         779                         329                 29%
                                                               WV                      1,790                      1,157                          581                 32%
                                                               Total              279,974                     191,910                       83,157                  30%
                                                               Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                               Source: Treasury, response to SIGTARP data call, 1/23/2014.



     Southeast
     TABLE 2.19
      REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 12/31/2013
                                                                             Permanent                        Active                Redefaulted
                                                                            Modifications              Modifications               Modifications           Redefault Rate
                                         NC                    AL                      7,767                      4,796                       2,761                  36%
                    TN
                                     SC                        FL                  156,866                     110,421                      44,225                   28%
               MS    AL        GA                              GA                    47,031                     31,536                      14,725                   31%
                                                     PR
                                                               MS                      4,891                      2,930                       1,851                  38%
                                                          VI
                                                               NC                    24,081                     15,618                        7,860                  33%
                                         FL
                                                               PR                      4,004                      3,176                          751                 19%
                                                               SC                    12,297                       7,980                       4,011                  33%
              SOUTHEAST                         >27%
              Percentage of                     25-27%         TN                    13,881                       8,543                       4,971                  36%
              Redefaults on HAMP                <25%
                                                               VI                            6                          6                          —                  0%
              Permanent Modifications
                                                               Region             270,824                     185,006                       81,155                  30%
                                                               Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                               Source: Treasury, response to SIGTARP data call, 1/23/2014.
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            87




Starting a HAMP Tier 1 Modification
Borrowers may request participation in HAMP.198 Borrowers who have missed two
or more payments must be solicited for participation by their servicers.199 Before
offering the borrower a trial modification, also known as a trial period plan (“TPP”),
the servicer must verify the accuracy of the borrower’s income and other eligibility
criteria. In order to verify the borrower’s eligibility for a modification under the
program, borrowers must submit the following documents as part of an “initial
package.”200


•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the                    For more information on the RMA
   servicer with the borrower’s financial information, including the cause of the               form and what constitutes hardship,
   borrower’s hardship;                                                                         see SIGTARP’s April 2011 Quarterly
•	 signed and completed requests for Federal tax return transcripts or the most                 Report, page 62.
   recent Federal income tax return, including all schedules and forms;
                                                                                                For more information on the Verification
•	 income verification documentation, such as recent pay stubs or evidence of
                                                                                                Policy, see SIGTARP’s April 2011
   other sources of income; and
                                                                                                Quarterly Report, page 63.
•	 Dodd-Frank certification (either as part of the RMA form or as a standalone
   document) that the borrower has not been convicted in the past 10 years of any               For more about the HAMP NPV test,
   of the following in connection with a mortgage or real estate transaction: felony            see the June 18, 2012, SIGTARP audit
   larceny, theft, fraud, or forgery; money laundering, or tax evasion.                         report “The NPV Test’s Impact on
                                                                                                HAMP.”

    In order for a loan to be eligible for a HAMP modification, the borrower’s initial
package, consisting of the four documents described above, must be submitted by
the borrower on or before December 31, 2015. Additionally, in order to be eligible
for incentive payments, the permanent modification must be effective on or before
September 2016.201
    Participating servicers verify monthly gross income for the borrower and the
borrower’s household, as well as other eligibility criteria.202 Then, in the case of
HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
equal to 31% of his or her monthly gross income.203
    In the first step of that waterfall, the servicer capitalizes any unpaid interest and
fees (i.e., adds them to the outstanding principal balance). Second, the servicer
reduces the interest rate in incremental steps to as low as 2%. If the 31% DTI ratio
threshold still has not been reached, in the third step the servicer extends the term
of the mortgage to a maximum of 40 years from the modification date. If these
steps are still insufficient to reach the 31% threshold, the servicer may forbear
principal (defer its due date), subject to certain limits.204 The forbearance amount
is not interest bearing and results in a lump-sum payment due upon the earliest
of the sale date of the property, the payoff date of the interest-bearing mortgage
balance, or the maturity date of the mortgage.205
88            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Servicers are not required to forgive principal under HAMP. However, servicers
                                                     may forgive principal in order to lower the borrower’s monthly payment to achieve
                                                     the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
                                                     HAMP waterfall described above, or as part of PRA.206
                                                         After completing these modification calculations, all loans that meet HAMP
                                                     eligibility criteria and are either deemed generally to be in imminent default or
                                                     delinquent by two or more payments must be evaluated using a standardized net
     Net Present Value (“NPV”) Test:                 present value (“NPV”) test that compares the NPV result for a modification to
     Compares the money generated by                 the NPV result for no modification.207 The NPV test compares the expected cash
     modifying the terms of the mortgage             flow from a modified loan with the expected cash flow from the same loan with
     with the amount an investor can                 no modifications to determine which option will be more valuable to the mortgage
     reasonably expect to recover in a               investor. A positive NPV test result indicates that a modified loan is more valuable
     foreclosure sale.                               to the investor than the existing loan. In that case, under HAMP rules, the servicer
                                                     must offer the borrower a mortgage modification. If the test generates a negative
     Loan-to-Value (“LTV”) Ratio: Lending            result, modification is optional.208 Servicers cannot refuse to evaluate a borrower
     risk assessment ratio that mortgage             for a modification simply because the outstanding loan currently has a low loan-to-
     lenders examine before approving a              value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
     mortgage; calculated by dividing the            The lower the LTV ratio is, the higher the probability that a foreclosure will be
     outstanding amount of the loan by               more profitable to an investor than a modification.
     the value of the collateral backing the             Since September 1, 2011, most of the largest mortgage servicers participating
     loan. Loans with high LTV ratios are            in MHA have been required to assign a single point of contact to borrowers
     generally seen as higher risk because           potentially eligible for evaluation under HAMP, HAFA, or UP.209 The single point of
     the borrower has less of an equity              contact has the primary responsibility for communicating with the borrower about
     stake in the property.                          options to avoid foreclosure, his/her status in the process, coordination of receipt of
                                                     documents, and coordination with other servicer personnel to promote compliance
                                                     with MHA timelines and requirements throughout the entire delinquency,
                                                     imminent default resolution process, or foreclosure.210

                                                     How HAMP Tier 1 First-Lien Modifications Work
                                                     Treasury intended that HAMP trial modifications would last three months.
                                                     Historically, many trial modifications have lasted longer. According to Treasury, as
                                                     of December 31, 2013, of a combined total of 40,193 active trials under both GSE
                                                     and TARP (non-GSE) HAMP, 7,968 (20%) had lasted more than six months.211
                                                         Borrowers in trial modifications may qualify for conversion to a permanent
                                                     modification as long as they make the required modified payments on time and
                                                     provide proper documentation, including a signed modification agreement.212
                                                     The terms of permanent modifications under HAMP Tier 1 remain fixed for five
                                                     years.213 After five years, the loan’s interest rate can increase if the modified interest
                                                     rate had been reduced below the 30-year conforming fixed interest rate on the date
                                                     of the initial modification. The interest rate can rise incrementally by up to 1%
                                                     per year until it reaches that rate.214 Otherwise, the modified interest rate remains
                                                     permanent.
                                                         If the borrower misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the borrower is, in effect, left with the original
                                                     terms of the mortgage. The borrower is responsible for the difference between
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             89




the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees
for failing to make the original pre-modification scheduled payments during the
trial period, even though under the trial modification the borrower is not required
to make these payments. Late fees are waived only for borrowers who receive a
permanent modification.215

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Borrower Rights
Treasury has issued guidance governing both the obligations of servicers and the
rights of borrowers in connection with the denial of loan modification requests.
Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
modification. A borrower who is not approved for HAMP Tier 1 is automatically
considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
request reconsideration or re-evaluation if they believe one or more NPV analysis
inputs is incorrect or if they experience a change in circumstance. Servicers are
obligated to have written procedures and personnel in place to respond to borrower
inquiries and disputes that constitute “escalated cases” in a timely manner.216
    Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
used by borrowers prior to applying for a HAMP modification or after a denial
of a HAMP modification. Borrowers can enter the NPV input values listed in                    For more information on HAMP
the HAMP Non-Approval Notice received from their servicer, or substitute with                 servicer obligations and borrower rights,
estimated NPV input values, to compare the estimated outcome provided by                      see SIGTARP’s April 2011 Quarterly
CheckMyNPV.com against that on the Non-Approval Notice.                                       Report, pages 67-76.


Modification Incentives
For new HAMP trials on or after October 1, 2011, Treasury changed the one-
time flat $1,000 incentive payment to a sliding scale based on the length of time
the loan was delinquent as of the effective date of the TPP. For loans less than or
equal to 120 days delinquent, servicers receive $1,600.217 For loans 121-210 days
delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
servicers receive only $400. Starting on March 1, 2014, incentive payments for
servicers are scheduled to increase by $400.218 For borrowers whose monthly
mortgage payment was reduced through HAMP by 6% or more, servicers also
receive incentive payments of up to $1,000 annually for three years if the borrower
remains in good standing (defined as less than three full monthly payments
delinquent).219
    For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
through HAMP by 6% or more and who make monthly payments on time earn
an annual principal reduction of up to $1,000.220 The principal reduction accrues
monthly and is payable for each of the first five years as long as the borrower
remains in good standing.221 Under both HAMP Tier 1 and HAMP Tier 2, the
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      investor is entitled to five years of incentives that make up part of the difference
                                                      between the borrower’s new monthly payment and the old one.
                                                         As of December 31, 2013, of the $29.9 billion in TARP funds allocated to the
                                                      90 servicers participating in MHA, 91% was allocated to 10 servicers.222 Table 2.20
                                                      shows incentive payments made to these servicers.

                   TABLE 2.20
                    TARP INCENTIVE PAYMENTS BY 10 SERVICERS, AS OF 12/31/2013
                                                                                        Incentive                    Incentive                  Incentive
                                                                                       Payments                     Payments                   Payments               Total Incentive
                                                      SPA Cap Limit                 to Borrowers                  to Investors               to Servicers                  Payments
                    Ocwen Loan
                                                    $6,065,675,867                 $269,062,832                $754,937,375                $429,092,632             $1,453,092,839
                    Servicing, LLCa
                    JPMorgan Chase
                                                      3,463,899,107                 290,212,966                  732,441,427                 396,979,847              1,419,634,240
                    Bank, NAb
                    Bank of America,
                                                      7,305,953,122                 301,248,409                  627,455,232                 378,353,505              1,307,057,147
                    N.A.c
                    Wells Fargo Bank,
                                                      5,080,140,212                 227,305,360                  569,132,423                 333,741,245              1,130,179,028
                    N.A.d
                    CitiMortgage Inc                    898,637,129                   70,251,660                 220,868,232                 108,827,171                 399,947,064
                    OneWest Bank                      1,548,320,680                   59,915,158                 200,507,017                   84,625,677                345,047,853
                    Select Portfolio
                                                      1,266,540,807                   76,181,706                 147,383,878                 102,958,141                 326,523,725
                    Servicing, Inc.
                    Nationstar
                                                      1,167,417,524                   61,066,330                 145,645,201                   89,488,277                296,199,808
                    Mortgage LLCe
                    Saxon Mortgage
                                                        100,807,086                   19,655,075                  41,738,413                   39,413,598                100,807,086
                    Services Inc
                    U.S. Bank National
                                                        180,955,932                   12,618,498                  29,986,407                   21,416,045                  64,020,951
                    Association
                    Total                       $27,078,347,466               $1,387,517,996              $3,470,095,605              $1,984,896,139               $6,842,509,740
                    Notes: Numbers may not total due to rounding. On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and
                    transferring the subservicing relationships to third-party servicers. The remaining SPA Cap Limit stated above represents the amount previously paid to Saxon Mortgage
                    Services, Inc. prior to ceasing servicing operations.
                    a
                      Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                    b
                      JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
                    c
                      Bank of America N.A. includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
                    d
                      Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                    e
                      Nationstar Mortgage LLC includes MorEquity, Inc and the former Aurora Loan Services LLC.

                    Source: Treasury, Transactions Report-Housing Programs, 12/27/2013.
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   91




MHA Outreach and Borrower Intake Project
On February 14, 2013, Treasury entered into an agreement with the
Neighborhood Reinvestment Corporation, also called NeighborWorks America
(“NeighborWorks”), to launch a nationwide MHA initiative with housing
counselors “in an effort to increase the number of homeowners that successfully
request assistance under MHA.”223 NeighborWorks is a Congressionally chartered
corporation that through a national network of non-profit organizations administers
housing programs, including housing counseling.224 The initiative, called the
MHA Outreach and Borrower Intake Project, will pay $450 to housing counseling
agencies for each homeowner they worked with to submit complete applications
for HAMP to servicers.225 Treasury allocated $18.3 million in TARP funds for the
project.226 As of December 31, 2013, housing counselors have initiated HAMP
application work for 7,357 homeowners, of whom 2,253 have had their completed
applications submitted to an MHA servicer and accepted by that MHA servicer,
whether or not the borrower eventually receives a mortgage modification.227
According to Treasury, housing counseling agencies are due $1,013,850 for those
accepted applications.228 NeighborWorks has, as of December 31, 2013, requested
$4.3 million in total funds, mostly for outreach, oversight, and administration, as
well as for the counseling agency payments.229

HAMP Tier 2
Effective June 1, 2012, HAMP Tier 2 expanded HAMP.230 As in HAMP Tier 1,
HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
modifications on mortgages of non-owner-occupied “rental” properties that are
tenant-occupied or vacant.231 Under the original HAMP (now HAMP Tier 1),
mortgage modifications for “rental” properties had been expressly excluded; HAMP
Tier 2 also allows borrowers with a wider range of debt-to-income situations to
receive modifications.232 Treasury’s stated policy objectives for HAMP Tier 2
are that it “will provide critical relief to both renters and those who rent their
homes, while further stabilizing communities from the blight of vacant and
foreclosed properties.”233 A borrower may have up to five loans with HAMP Tier 2
modifications, as well as a single HAMP Tier 1 modification on the mortgage for
his or her primary residence.234 If a borrower loses “good standing” on a HAMP
Tier 1 modification and it has either been at least one year since the effective
date of that modification or there has been a “change in circumstance,” he or she
is eligible for a HAMP Tier 2 remodification.235 Approximately 4,894 of active
HAMP Tier 2 permanent modifications were previously HAMP Tier 1 permanent
modifications.236
    According to Treasury, as of December 31, 2013, a total of 62 of the 90
servicers with active MHA servicer agreements had fully implemented HAMP Tier
2.237 The remaining 28 of those servicers will not implement HAMP Tier 2 because
they are in the process of terminating their servicer participation agreement, they
have gone out of business, their servicer participation agreement was signed to
participate only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding
92           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        down their non-GSE servicing operations.238 All 10 of the largest servicers have
                                                        reported that they had implemented HAMP Tier 2.239 According to Treasury, as
                                                        of December 31, 2013, it had paid $43.7 million in incentives in connection with
                                                        34,286 HAMP Tier 2 permanent modifications, 32,382 of which remain active.240
                                                            According to Treasury, as of December 31, 2013, of the 54,756 HAMP Tier
                                                        2 trial mortgage modifications started, 51,178 (93%), were for owner-occupied
                                                        properties; 3,179 (6%), were for tenant-occupied properties, and 399 (1%) were for
                                                        vacant properties.241 Of owner-occupied properties that received a HAMP Tier 2
                                                        trial modification, 16,827 trial modifications (33%) were active and 31,866 (62%)
                                                        were converted to permanent modifications, of which 30,101 (94%) were active.242
                                                        Of owner-occupied properties that received a HAMP Tier 2 trial modification,
                                                        2,485 (5%) were cancelled, and of those that received a permanent modification,
                                                        1,680 (5%) redefaulted.243 Around 91% of tenant-occupied properties that received
                                                        either a trial or permanent HAMP Tier 2 mortgage modification have remained
     For SIGTARP’s recommendations for                  active, as of December 31, 2013.244 Of vacant properties that received a HAMP
     the improvement of HAMP Tier 2,                    Tier 2 trial modification, 97 (24%) were in active trial modifications, 257 (64%)
     see SIGTARP’s April 2012 Quarterly                 were in active permanent modifications, and 45 (11%) had their trial or permanent
     Report, pages 185-189.                             modification cancelled.245 HAMP Tier 2 mortgage modification activity and
                                                        property occupancy status is shown in Table 2.21.246

                                     TABLE 2.21
                                      HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS, AS OF
                                      12/31/2013
                                                                                                              Trials
                                                                 Trials    Trials               Trials Converted to     Permanent    Permanent    Permanent
                                      Property Type            Started Cancelled               Active   Permanent      Redefaulted     Paid Off       Active
                                      Owner Occupied           51,178             2,485       16,827         31,866         1,680           85       30,101
                                      Tenant Occupied            3,179               150            879       2,150           117            9        2,024
                                      Vacant                        399               32             97         270            13            0          257
                                      Total                    54,756             2,667      17,803         34,286          1,810           94       32,382
                                      Source: Treasury, response to SIGTARP data call, 1/23/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   93




HAMP Tier 2 Eligibility
HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-
income ratio and also allows modifications on loans secured by “rental” properties.
Owner-occupied loans that are ineligible for a HAMP Tier 1 modification due to
excessive forbearance or negative NPV also may be eligible for Tier 2. Vacant rental
properties are permitted in the program, as are those occupied by legal dependents,
parents, or grandparents, even if no rent is charged. The program is not, however,
according to Treasury, intended for vacation homes, second homes, or properties
that are rented only seasonally. Additionally, loans on rental properties must be at
least two payments delinquent – those in imminent default are not eligible.247
    However, Treasury does not require that the property be rented. Treasury
requires only that a borrower certify intent to rent the property to a tenant on a
year-round basis for at least five years, or make “reasonable efforts” to do so; and
does not intend to use the property as a second residence for at least five years.248
According to Treasury, servicers are not typically required to obtain third-party
verifications of the borrower’s rental property certification when evaluating a
borrower for HAMP.249
    To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
requirements: the loan origination date must be on or before January 1, 2009;
the borrower must have a documented hardship; the property must conform to
the MHA definition of a “single-family residence” (1-4 dwelling units, including
condominiums, co-ops, and manufactured housing); the property must not be
condemned; and the loan must fall within HAMP’s unpaid principal balance
limitations.250 If a borrower satisfies these requirements, and in addition, the
loan has never been previously modified under HAMP (except for the exceptions
discussed above), the servicer is required to solicit the borrower for HAMP Tier 2.
In certain other cases, the borrower may still be eligible for HAMP Tier 2, but the
servicer is not required to solicit the borrower.251

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
considers the value of the loan to the investor before and after a modification.
Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.252
    As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) a reduction of the monthly principal and
interest payment by at least 10%. The post-modification DTI ratio range increased
in February 2013 to not less than 10% or greater than 55%. If the borrower was
previously in a HAMP Tier 1 modification (either trial or permanent), then the new
payment must be at least 10% below the previously modified payment. Because
HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
94           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    a series of incremental steps, but a consistent set of actions that are applied to the
                                                    loan. After these actions are applied, if the result of the NPV test is positive and the
                                                    modification also achieves the DTI and payment reduction goals, the servicer must
                                                    offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
                                                    NPV test is negative, modification is optional.253
                                                        As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
                                                    modification is to capitalize any unpaid interest and fees. The second step changes
                                                    the interest rate to the “Tier 2 rate,” which is the 30-year conforming fixed interest
                                                    rate on the date of the initial modification, plus a 0.5% risk adjustment. The third
                                                    step extends the term of the loan by up to 40 years from the modification effective
                                                    date. Finally, if the loan’s pre-modification mark-to-market LTV ratio is greater
                                                    than 115%, the servicer forbears principal in an amount equal to the lesser of (1)
                                                    an amount that would create a post-modification LTV ratio of 115%, or (2) an
                                                    amount equal to 30% of the post-modification principal balance. Unlike HAMP
                                                    Tier 1, there is no excessive forbearance limit in HAMP Tier 2. The HAMP Tier
                                                    2 guidelines also include several exceptions to this waterfall to allow for investor
                                                    restrictions on certain types of modifications.254
                                                        The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                                    modification waterfall” in addition to the one described here. This waterfall uses
                                                    principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                                    reduction is optional. Servicers may also reduce principal on HAMP Tier 2
                                                    modifications using PRA.255
                                                        HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
                                                    exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
                                                    servicer incentives.256

                                                    Additional TARP-Funded MHA Housing Support Programs
                                                    From April 2009 until September 2010, Treasury announced a number of
                                                    additional MHA support programs for homeowners with non-GSE mortgages.
                                                    TARP funds have been allocated to most but not all of these additional programs.
                                                    Three of these programs fall under the umbrella of the HAMP program: the Home
                                                    Price Decline Protection (“HPDP”) program, the Home Affordable Unemployment
                                                    Program (“UP”), and the Principal Reduction Alternative (“PRA”). The remaining
     For more information on these                  additional MHA programs include collaborations with other Federal agencies,
     additional housing programs, see               programs that aim to extinguish homeowners’ second mortgages (second liens), and
     SIGTARP’s October 2013 Quarterly               programs that offer alternatives to foreclosure. Table 2.22 provides more detail on
     Report, pages 93-99.                           these programs.
                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              95



TABLE 2.22
 ADDITIONAL MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS, AS OF 12/31/2013
                                                                                              Homeowners Assisted             Estimated
                                                                           Estimated Number                                         TARP              TARP
                        Date          Date                              of Homeowners to be Permanents Permanents             Allocation     Expenditures
 Program           Announced       Started   Purpose                                 Assisted   Started      Active         (In Billions)a     (In Billions)
                                          To provide incentives
 Principal                                to investors to
 Reduction                                modify homeowners’
                     6/3/2010   10/1/2010                                                    —     135,188c     112,602c           $2.00             $0.52
 Alternative                              mortgages under HAMP
 (“PRA”)b                                 by reducing the principal
                                          amount owed.
                                          To provide additional
                                          TARP-funded incentives
 Home Price                               to investors to modify
 Decline                                  mortgages through
                    7/31/2009    9/1/2009                                                    —     216,998c     154,119c            1.55               0.35
 Protection                               HAMP by partially
 (“HPDP”)b                                offsetting possible
                                          losses from home price
                                          declines.
                                             To temporarily -- fully
 Home
                                             or partially -- suspend
 Affordable
                   3/26/2010d   7/1/2010e    mortgage payments                               —       37,873f       5,628f            —g                 —g
 Unemployment
                                             for unemployed
 Program (“UP”)b
                                             homeowners.
                                             To provide TARP-
                                             funded incentives to
                                             servicers, investors,
 Home
                                             and homeowners to
 Affordable
                                             complete short sales
 Foreclosure       11/30/2009   4/5/2010h                                                    —      146,960            —            4.15               0.73
                                             and deeds-in-lieu to
 Alternatives
                                             avoid foreclosure and
 (“HAFA”)
                                             relocate homeowners
                                             unable to sustain a
                                             modified mortgage.
                                          To provide incentives
                                          to servicers, investors,
                                          and borrowers to
                                                                       “A Second Lien Program
                                          modify second
                                                                        to Reach up to 1 to 1.5
                                          mortgages (second
 Second Lien                                                              Million Homeowners,”
                                          liens) -- with a partial
 Modification                                                            according to Treasury,
                    4/28/2009   8/13/2009 or full extinguishment                                    125,304       79,696            0.13               0.50
 Program                                                                          “Making Home
                                          of the loan balance
 (“2MP”)                                                                   Affordable, Program
                                          -- for homeowners with
                                                                            Update, Fact Sheet,
                                          a corresponding first
                                                                                    4/28/2009.
                                          mortgage (first lien)
                                          that was modified under
                                          HAMP.
                                                                             “Tens of thousands
                                                                          of FHA borrowers will
                                                                         now be able to modify
                                                                         their mortgages in the
                                                                            same manner as so
 Treasury/
                                                                           many others who are
 Federal Housing
                                          To provide TARP-funded,           taking advantage of
 Administration-
                                          HAMP-like incentives              the Administration’s
 Home
                                          to servicers and             Making Home Affordable
 Affordable        7/30/2009i   8/15/2009                                                            25,636       20,472            0.23               0.04
                                          homeowners to modify          program,” according to
 Modification
                                          mortgages insured by            HUD Secretary Shaun
 Program
                                          the FHA.                        Donovan, HUD “Press
 (“Treasury/FHA-
                                                                       Release, “HUD Secretary
 HAMP”)
                                                                           Donovan Announces
                                                                               New FHA-Making
                                                                         Home Affordable Loan
                                                                       Modification Guidelines,”
                                                                                   7/30/2009.
                                                                                                                                   Continued on next page
96              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 ADDITIONAL TARP-FUNDED MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS,
 AS OF 12/31/2013 (CONTINUED)
                                                                                                                           Homeowners Assisted                                   Estimated
                                                                                                        Estimated Number                                                               TARP                  TARP
                               Date                  Date                                            of Homeowners to be Permanents Permanents                                   Allocation         Expenditures
 Program                  Announced               Started       Purpose                                           Assisted   Started      Active                               (In Billions)a         (In Billions)
 Department
 of Agriculture
                                                        To provide TARP-funded,
 Rural
                                                        HAMP-like incentives to
 Development-
                                                        servicers and borrowers
 Home                     9/17/2010i          9/24/2010                                                                          —                   74                 65                0.02                     —j
                                                        for modifications of
 Affordable
                                                        mortgages insured by
 Modification
                                                        RD.
 Program (“RD-
 HAMP”)
                                                        To provide TARP-funded
 Treasury/
                                                        incentives to servicers
 Federal Housing
                                                        and investors to partially
 Administration
                                                        or fully extinguish
 Second Lien              3/26/2010i           8/6/2010                                                                          —                    0                   0               2.69                   0.00
                                                        second mortgages
 Program
                                                        (second liens) for
 (“Treasury/FHA-
                                                        mortgages modified and
 2LP”) l
                                                        insured by the FHA.
 Department                                             To provide non-TARP-
 of Veterans                                            funded, HAMP-like
 Affairs-Home                                           incentives to servicers
 Affordable                 1/8/2010i          2/1/2010 and borrowers for                                                        —                 328                259                  —k                      —k
 Modification                                           modifications of
 Program (“VA                                           mortgages insured by
 HAMP”)                                                 the VA.
 Notes:
 a
     Estimated TARP allocations are as of January 5, 2012.
 b
     Program is a subprogram of the Home Affordable Modification Program (“HAMP”).
 c
     Includes HAMP Tier 1 and Tier 2 modifications.
 d
     In a 3/26/2010 press release, Treasury announced the concept of what was later named the “UP” program in Treasury’s May 11, 2010 Supplemental Directive.
 e
     Treasury announced that servicers could implement UP before July 1, 2010.
 f
    Data is as of 11/30/2013. As of 11/30/2013, 6,447 homeowners who received UP assistance subsequently received HAMP modifications.
 g
     Treasury does not allocate TARP funds to UP.
 h
     Treasury announced that some servicers could implement HAFA before April 5, 2010.
 i
   In its April 6, 2009 Supplemental Directive, Treasury announced that “Mortgage loans insured, guaranteed or held by a Federal Government agency (e.g., FHA, HUD, VA and Rural Development) may be eligible for the
    HAMP, subject to guidance issued by the relevant agency. Further details regarding inclusion of these loans in the HAMP will be provided in a subsequent Supplemental Directive.”
 j
    As of December 31, 2013, $94,810 has been expended for RD-HAMP.
 k
     Treasury does not provide incentive compensation related to VA-HAMP.
 l
    As of December 31, 2013, the FHA2LP program had expired.

 Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, 1/8/2014, 1/24/2014; VA, response to SIGTARP data call, 1/8/2014; Treasury, Making Home Affordable Program Handbook for Servicers of Non-GSE
 Mortgages, Version 4.3, 9/16/2013; Treasury, press releases, 4/28/2013, 7/31/2009, 11/30/2009, and 3/26/2010; Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification
 Program,” 4/6/2009; Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program -- Home Price Decline Protection Incentives,” 7/31/2009; Treasury, “Supplemental Directive 09-09: Introduction of
 Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009; Treasury, “Supplemental Directive 09-09 Revised: Introduction of Home Affordable Foreclosure Alternatives -- Short
 Sale and Deed in Lieu of Foreclosure Update,” 3/26/2010; Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010; Treasury, “Fact Sheet: FHA Program
 Adjustments to Support Refinancings for Underwater Homeowners,” 3/26/2010; Treasury, “HAMP Improvements Fact Sheet: Making Home Affordable Program Enhancements to Offer More Help for Homeowners,”
 3/26/2010; Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010; Treasury, “Supplemental Directive 10-05: Home Affordable Modification Program - Modification of Loans
 with Principal Reduction Alternative,” 6/3/2010; Treasury, Supplemental Directive 10-10: Home Affordable Modification Program – Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010; HUD,
 press release, 7/30/2009; VA, Circular 26-10-2, 1/8/2010; and VA, Circular 26-10-6, 5/24/2010.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            97




Housing Finance Agency Hardest Hit Fund (“HHF”)
Nearly four years ago, in February 2010, in an attempt to help families in places
hurt the most by the housing crisis, the Administration launched the TARP-funded
Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets
(“Hardest Hit Fund” or “HHF”).257 The Administration announced that TARP
funds would be used for “innovative measures to help families in the states that
have been hit the hardest by the aftermath of the housing bubble.”258 This TARP-
funded housing support program was to be developed and administered by state
housing finance agencies (“HFAs”) with Treasury’s approval and oversight.259,vi                                                               For more information on HHF, see:
Treasury allocated $7.6 billion in TARP funds for the HHF program and, through                                                                SIGTARP’s April 12, 2012, audit report,
four rounds of funding in 2010, obligated these TARP funds to 18 states and                                                                   “Factors Affecting Implementation of the
the District of Columbia (“states”) – those states that Treasury deemed to have                                                               Hardest Hit Fund Program,” SIGTARP’s
significant home price declines and high unemployment rates.260 Treasury approved                                                             July 2012 Quarterly Report, pages
each of the 19 states’ initial program proposals and approves any proposed changes                                                            183-185, and SIGTARP’s October 2013
to programs.261 These proposals include estimates of the number of homeowners to                                                              Quarterly Report, pages 189-255.
be helped through each program (some states have more than one program).262
     The first round of HHF allocated $1.5 billion of the amount initially allocated
for MHA initiatives. According to Treasury, these funds were designated for five
states where the average home price had decreased more than 20% from its peak.
The five states were Arizona, California, Florida, Michigan, and Nevada.263 Plans to
use these funds were approved by Treasury on June 23, 2010.264
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.265 Plans to use these funds were approved by
Treasury on August 3, 2010.266
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.267
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.268 Treasury approved third round proposals on September 23,
2010.269 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.270
     Treasury allocated the $7.6 billion in TARP funds to 18 states and the District
of Columbia and has over time approved HHF programs in several categories:271



vi P
    articipating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
   Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of December
   31, 2013, there were 69 active HHF programs run by the 19 state HFAs. According to Treasury, Illinois, New Jersey, Rhode Island and
   Washington, DC, are no longer accepting applications for assistance from homeowners because they determined that their allocated
   HHF funds would be spent on homeowners who already have been approved for HHF assistance.
98   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	   Unemployment assistance, including past-due payment assistance
                                            •	   Mortgage modification, including principal reduction assistance
                                            •	   Second-lien reduction assistance
                                            •	   Transition assistance, including short sale and deed-in-lieu of foreclosure
                                            •	   Demolition

                                                According to Treasury, states can reallocate funds between programs and
                                            modify existing programs as needed, with Treasury approval, until December 31,
                                            2017.272 According to Treasury, between September 30, 2013 and December 31,
                                            2013, eight states have reallocated funds, modified or eliminated existing programs,
                                            or established new HHF programs with Treasury approval, increasing the total
                                            number of HHF programs in 18 states and Washington, DC, as of December 31,
                                            2013, to 69, up from 66 programs as of September 30, 2013.273

                                            States’ TARP Allocations and Spending for HHF
                                            Of the $7.6 billion in TARP funds available for HHF, states collectively had
                                            drawn down $3.2 billion (42%) as of December 31, 2013.274 As of September 30,
                                            2013, the latest date for which spending analysis is available, states had drawn
                                            down $2.9 billion (38%).275 However, not all of that has been spent on direct
                                            assistance to homeowners. States have spent $2 billion (26% of the $7.6 billion)
                                            to assist 145,081 individual homeowners. States have spent the rest of the funds
                                            on administrative expenses or hold the money as cash-on-hand. States have spent
                                            $344.4 million (5%) on administrative expenses; and held $571 million (8%) as
                                            unspent cash-on-hand, as of September 30, 2013, the latest data available.276 There
                                            remains $4.7 billion (62%) in undrawn funds available for HHF, as of September
                                            30, 2013.277
                                                As of September 30, 2013, the latest data available, in aggregate, after around
                                            three and a half years, states had spent 26% ($2 billion) of the $7.6 billion in
                                            TARP funds that Treasury allocated for the HHF program to provide assistance
                                            to 168,920 program participants (which translates to 145,081 individual
                                            homeowners), or 31% of the number of homeowners the states anticipated helping
                                            with HHF in 2011.278,vii
                                                As of September 30, 2013, 86% of the HHF assistance received by homeowners
                                            was for unemployment assistance, including past-due payment assistance.279 As
                                            SIGTARP found in its April 2012 audit, these were the only types of assistance
                                            for which the Government-sponsored enterprises (“GSE”s) previously directed
                                            servicers to participate. The remaining assistance can be broken down to 13.4% for
                                            mortgage modification, including principal reduction assistance, 0.4% for second-
                                            lien reduction assistance, and 0.2% for transition assistance.280 States had not spent
                                            any funds on demolition programs as of September 30, 2013.281
                                                Figure 2.6 shows state uses of TARP funds obligated for HHF by percent, as of
                                            September 30, 2013, the most recent figures available.

                                            vii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                              programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                              and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                              cash-on-hand, or undrawn funds.
                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   99



FIGURE 2.6

STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
FOR HHF, BY PERCENT, AS OF 9/30/2013

Alabama
$162.5 million
allocated
Arizona
$267.8 million
allocated
California
$1,975.3 million
allocated
Florida
$1,057.8 million
allocated
Georgia
$339.3 million
allocated
Illinois
$445.6 million
allocated
Indiana
$221.7 million
allocated
Kentucky
$148.9 million
allocated
Michigan
$498.6 million
allocated
Mississippi
$101.9 million
allocated
Nevada
$194.0 million
allocated
New Jersey
$300.5 million
allocated
North Carolina
$482.8 million
allocated
Ohio
$570.4 million
allocated
Oregon
$220.0 million
allocated
Rhode Island
$79.4 million
allocated
South Carolina
$295.4 million
allocated
Tennessee
$217.3 million
allocated
Washington D.C.
$20.7 million
allocated
TOTAL
$7.6 billion


                   0                         20                       40                        60                        80                           100

                        Homeowner Assistance                             Cash-on-Hand
                        Administrative Expenses                          Undrawn Funds

                   Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                   participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                   and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                   as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their quarterly performance
                   reports; cash-on-hand is the amount drawn less homeowner assistance and administrative expenses; states may also hold
                   additional cash generated from interest earned on HHF cash balances, cash repayments of assistance from lien satisfaction
                   recoveries, or borrower remittances received less borrower partial payments made. State spending figures as of September
                   30, 2013, are the most recent available; Treasury has separately published December 31, 2013, figures for amounts drawn
                   down; as of December 31, 2013, states have drawn down $3.2 billion.

                   Sources: Treasury, Transactions Report-Housing Programs, 9/27/2013; Treasury, responses to SIGTARP data calls,
                   7/5/2013, 10/3/2013, 10/7/2013, 10/17/2013, 1/17/2014, 1/22/2014, and 1/23/2014. Treasury, HFA Aggregate
                   Quarterly Report Q3 2013.
100   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             State Estimates of Homeowner Participation in HHF
                                             According to Treasury, as of September 30, 2013, states had spent $2 billion to
                                             help 145,081 homeowners; in the quarter ended September 30, 2013, states had
                                             spent $346.2 million to help 18,223 homeowners.282 Each state estimates the
                                             number of borrowers to be helped in its programs. In the beginning of 2011, states
                                             collectively estimated that they would help 546,562 homeowners with HHF.283
                                             Since then, with Treasury’s approval, states have changed their programs (including
                                             reducing the estimated number of homeowners to be helped), cancelled programs,
                                             and started new programs.284 As of September 30, 2013, the states estimated
                                             helping 310,012 homeowners with HHF, which is 236,550 fewer homeowners
                                             than the states estimated helping with HHF in 2011, a decline of 43%. States
                                             collectively have reduced their estimates even from last quarter. As of June 30,
                                             2013, the 19 states collectively estimated helping as many as 367,290 homeowners
                                             over the life of the program. By September 30, 2013, the collective estimate had
                                             decreased by 57,278 homeowners, or 16%.285
                                                 Importantly, the states collectively estimate that HHF will help 310,012
                                             homeowners but fail to take into account that when states report program
                                             participation numbers, homeowners may be counted more than once when
                                             they receive assistance from multiple HHF programs offered in their state (as
                                             of September 30, 2013, 14 states have more than one program). For example, a
                                             homeowner may have lost his job, missed three months of mortgage payments,
                                             and then sought help from his state. This homeowner might be qualified to receive
                                             assistance from two HHF programs offered by his state, one that could help him
                                             make up missed mortgage payments, and a second that could help him pay his
                                             future mortgage payments while he seeks new employment. Treasury requires
                                             states to estimate the number of people who will participate in each of their
                                             programs, and then report the number who actually participate in each program.286
                                             It also requires them to report the total number of individual homeowners
                                             assisted, which is lower than the reported program participation numbers when
                                             homeowners have participated in more than one program offered by their state.287
                                                 As of September 30, 2013, the states reported that 168,920 homeowners
                                             participated in HHF programs.288 However, because homeowners may participate
                                             in more than one program, the reported program participation numbers are higher
                                             than the total number of individual homeowners assisted. According to Treasury,
                                             145,081 individual homeowners participated in HHF programs.289
                                                 Figure 2.7 shows, in the aggregate, the number of homeowners estimated
                                             to participate in HHF programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013.viii




                                             viii P
                                                   rogram participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent,
                                                in foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   101




FIGURE 2.7

STATE ESTIMATED PROGRAM PARTICIPATION, PROGRAM PARTICIPATION, AND
INDIVIDUAL HOMEOWNERS ASSISTED IN ALL HHF PROGRAMS, AS OF 9/30/2013

 600,000
                                                                                Peak estimate: 546,562
                                                                                9/30/2013 estimate: 310,012
                                                                                9/30/2013 program participation: 168,920
 500,000                                                                        Homeowners assisted: 145,081




 400,000



 300,000



 200,000



 100,000



      0
           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

              State Estimated Program Participation              Homeowners Assisted
              Program Participation

           Notes: Estimated includes highest estimate of a range. Program participation numbers may have double-counted
           individual homeowners who received assistance from more than one program in states that have more than one
           program. For their demolition programs, Michigan and Ohio neither estimated the number of homeowners they would
           serve nor reported the number of homeowners they served.

           Sources: States provide estimates for program participation and report program participation and homeowners
           assisted numbers. Treasury, Transactions Report-Housing Programs, 9/27/2013; Treasury, response to SIGTARP data
           call, 7/5/2013; Treasury, HFA Aggregate Quarterly Report Q3 2013, no date; Treasury, responses to SIGTARP data
           calls, 10/3/2013, 10/7/2013, and 1/17/2014.




State by State Updates
Of the 19 states participating in HHF, over time 16 have reduced their estimates
of how many homeowners will participate in HHF, most of them significantly
since their peak estimates. Two states have not reduced their estimates: Georgia
and New Jersey. One state, Oregon, increased its estimate. However, these three
states represented only 7% of the peak collective estimate during the first few
months of 2011, and only 13% of the collective estimate as of September 30,
2013. Collectively, since the peak in early 2011, the 19 states have reduced
their estimates of how many people they would help by 43%. Nine states have
reduced their estimates by more than 43%: Alabama (57% reduction), Arizona
(46% reduction), Florida (63% reduction), Illinois (53% reduction), Kentucky
(60% reduction), Michigan (77% reduction), Nevada (71% reduction), Ohio (44%
reduction), and Rhode Island (74% reduction).
    Collectively, as of September 30, 2013, the states have spent $2 billion on direct
assistance to homeowners, or 26% of the $7.6 billion in TARP funds obligated to
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             HHF.290,ix Of the 19 HHF states, Rhode Island has spent the highest percentage,
                                             63%, of its obligated funds on homeowner assistance. Indiana has spent the lowest
                                             percentage, 11%. In addition to Indiana, seven other states have spent less than
                                             26% of their obligated funds on assistance to homeowners: Alabama, Arizona,
                                             California, Florida, Georgia, Michigan, and Mississippi. For each of the states, the
                                             following pages review estimates of program participation and reported numbers
                                             of homeowners who have been assisted, as well as expenditures compared with
                                             obligated funds.
                                                  According to Treasury, Rhode Island, Illinois, New Jersey, and Washington,
                                             DC, are no longer accepting applications for assistance from homeowners
                                             because they determined that their allocated HHF funds would be spent on
                                             homeowners who already have been approved for HHF assistance.291,x Rhode
                                             Island stopped accepting applications after January 31, 2013.292 Illinois stopped
                                             accepting applications after September 30, 2013.293 New Jersey stopped accepting
                                             applications after November 30, 2013.294 Washington, DC stopped accepting
                                             applications after November 22, 2013.295




                                             ix A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             x According to Treasury, Illinois and Rhode Island are no longer accepting applications for assistance from homeowners because they
                                                determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   103




Alabama’s HHF Programs
Even though Treasury obligated $162,521,345 of HHF funds to Alabama,
Alabama is not getting a significant amount of these funds out the door to help
homeowners with HHF.296 As of September 30, 2013, the state had drawn down
$34 million (21%) of those funds.297,xi As of September 30, 2013, the most recent
data available, Alabama had spent $22.7 million (14% of its obligated funds) to
help 2,901 individual homeowners with its HHF programs.298,xii The remaining $5.8
million (4%) was spent on administrative expenses, and $5.5 million (3%) is held
as cash-on-hand.299,xiii As of September 30, 2013, the state had three active HHF
programs, one to provide unemployment assistance to homeowners, a second to
modify homeowners’ mortgages, and a third to provide HHF transition assistance.
At the end of 2010, Alabama estimated that it would help as many as 13,500
homeowners with HHF but, as of September 30, 2013, reduced that peak estimate
by 57%, to 5,800. Figure 2.8 shows, in aggregate, the number of homeowners
estimated to participate in Alabama’s programs (estimated program participation),
the reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of September 30, 2013. Figure 2.9 shows the number of homeowners estimated
to participate in each of Alabama’s programs (estimated program participation)
and the reported number of homeowners who participated in each of Alabama’s
programs (program participation), as of September 30, 2013.




xi Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Alabama had
    drawn down $34 million.
xii A
     ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xiii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
      cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
      made.
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           FIGURE 2.8

                                                           ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                           PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,
                                                           IN ALL HHF PROGRAMS, AS OF 9/30/2013
                                                            15,000

                                                                                                           Peak estimate: 13,500
                                                                                                           9/30/2013 estimate: 5,800
                                                            12,000                                         9/30/2013 program participation: 2,901
                                                                                                           Homeowners assisted: 2,901



                                                             9,000




                                                             6,000




                                                             3,000




                                                                  0
                                                                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                         State Estimated Program Participation                 Homeowners Assisted
                                                                         Program Participation

                                                                      Notes: Estimated includes highest estimate of a range.

                                                                      Sources: States provide estimates for program participation and report program
                                                                      participation and homeowners assisted numbers. Alabama Housing Finance Authority,
                                                                      Proposal, 8/31/2010; Treasury and Alabama Housing Finance Authority, Commitment to
                                                                      Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama
                                                                      Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
                                                                      9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and
                                                                      3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance
                                                                      Reports Q1 2011 - Q3 2013, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                        105




FIGURE 2.9

 ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 9/30/2013

      HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                                   SHORT SALE ASSISTANCE PROGRAM
      HOMEOWNERS (UNEMPLOYMENT)                                                                              (TRANSITION)
       15,000                                           Peak estimate: 13,500                                2,000                                  Peak estimate: 1,500
                                                        9/30/13 estimate: 3,100                                                                     9/30/13 estimate: 1,500
       12,000
                                                        9/30/13 program participation: 2,901                 1,500                                  9/30/13 program participation: 0
        9,000
                                                                                                             1,000
         6,000

         3,000
                                                                                                              500

             0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                          State Estimated Program Participation                Program Participation




      LOAN MODIFICATION ASSISTANCE PROGRAM
      (MODIFICATION)
        2,000                                   Peak estimate: 1,200
                                                9/30/13 estimate: 1,200
        1,500                                   9/30/13 program participation: 0
        1,000

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
 Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q3
 2013, no date.
106   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Arizona’s HHF Programs
                                             Even though Treasury obligated $267,766,006 of HHF funds to Arizona, Arizona
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.300 As of September 30, 2013, the state had drawn down $91.8
                                             million (34%) of those funds.301,xiv As of September 30, 2013, the most recent
                                             data available, Arizona had spent $44.1 million (16% of its obligated funds) to
                                             help 2,289 individual homeowners with its HHF programs.302,xv The remaining
                                             $10.6 million (4%) was spent on administrative expenses, and $37.2 million
                                             (14%) is held as cash-on-hand.303,xvi As of September 30, 2013, the state had four
                                             active HHF programs: one to modify homeowners’ mortgages with principal
                                             reduction assistance, a second to provide HHF second-lien reduction assistance to
                                             homeowners, a third to provide unemployment assistance to homeowners, and a
                                             fourth to provide transition assistance to homeowners. At the end of 2010, Arizona
                                             estimated that it would help as many as 11,959 homeowners with HHF but, as of
                                             September 30, 2013, had reduced that peak estimate by 46%, to 6,507.
                                                 Figure 2.10 shows, in aggregate, the number of homeowners estimated to
                                             participate in Arizona’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.11 shows the number of
                                             homeowners estimated to participate in each of Arizona’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Arizona’s programs (program participation), as of September 30, 2013.




                                             xiv Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Arizona had
                                                 drawn down $127 million.
                                             xv A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             xvi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   107




FIGURE 2.10

ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,
IN ALL HHF PROGRAMS, AS OF 9/30/2013

12,000



10,000



 8,000



 6,000
                            Peak estimate: 11,959
                            9/30/2013 estimate: 6,507
 4,000                      9/30/2013 program participation: 2,430
                            Homeowners assisted: 2,289


 2,000



    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Arizona (Home) Foreclosure Prevention
         Funding Corporation, Proposal, no date; Treasury and Arizona (Home) Foreclosure
         Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA
         Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
         Corporation, first through twelfth Amendment[s] to Agreement[s], 9/23/2010,
         9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011,
         3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013, and 10/30/2013; Arizona (Home)
         Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly
         performance reports), Quarterly Performance Reports Q3 2010 - Q3 2013, no date;
         Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
108              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.11

       ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

            PRINCIPAL REDUCTION ASSISTANCE                                                                         SECOND MORTGAGE ASSISTANCE COMPONENT
            (MODIFICATION)                                                                                         (SECOND-LIEN REDUCTION)
                                                                Peak estimate: 7,227
                                                                9/30/13 estimate: 1,849
             10,000                                                                                                 2,000
                                                                9/30/13 program participation: 486
               8,000
                                                                                                                    1,500
               6,000
                                                                                                                    1,000    Peak estimate: 1,875
               4,000                                                                                                         9/30/13 estimate: 180
                                                                                                                     500     9/30/13 program participation: 108
               2,000

                  0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                                  SHORT SALE ASSISTANCE COMPONENT
            ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                    (TRANSITION)
                                                              Peak estimate: 4,140
               6,000
                                                              9/30/13 estimate: 4,140                               2,000                                               Peak estimate: 1,200
               5,000                                          9/30/13 program participation: 1,764                                                                      9/30/13 estimate: 338
                                                                                                                    1,500                                               9/30/13 program participation: 72
               4,000
               3,000                                                                                                1,000
               2,000
                                                                                                                     500
               1,000
                  0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
       Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
       Corporation, first through twelfth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
       6/6/2013, and 10/30/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3 2010 - Q3
       2013, no date; Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   109




California’s HHF Programs
Even though Treasury obligated $1,975,334,096 of HHF funds to California,
California is not getting a significant amount of these funds out the door to help
homeowners with HHF.304 As of September 30, 2013, the state had drawn down
$717.5 million (36%) of those funds.305,xvii As of September 30, 2013, the most
recent data available, California had spent $468.6 (24% of its obligated funds) to
help 29,909 individual homeowners with its HHF programs.306,xviii The remaining
$65 million (3%) was spent on administrative expenses, and $183.9 million (9%)
is held as cash-on-hand.307,xix As of September 30, 2013, the state had six active
HHF programs: one to provide unemployment assistance to homeowners, a second
and third to modify homeowners’ mortgages with principal reduction assistance, a
fourth to provide HHF transition assistance to homeowners, a fifth to provide past-
due payment assistance to homeowners, and a sixth to provide HHF second-lien,
principal reduction assistance to homeowners. California had another program to
provide transition assistance to homeowners but reduced the peak estimate for this
program to zero and had not provided transition assistance to any homeowners as
of September 30, 2013.
    At the end of 2010, California estimated that it would help as many as 101,337
homeowners with HHF but, as of September 30, 2013, had reduced that peak
estimate by 29%, to 71,766.
    Figure 2.12 shows, in aggregate, the number of homeowners estimated to
participate in California’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
September 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.13 shows the number of
homeowners estimated to participate in each of California’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of California’s programs (program participation), as of September 30, 2013.




xvii T reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, California had
      drawn down $717.5 million.
xviii A
       ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xix States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
110   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.12

                                                         CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,
                                                         PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                         ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

                                                         120,000



                                                         100,000



                                                          80,000



                                                          60,000

                                                                                         Peak estimate: 101,337
                                                                                         9/30/2013 estimate: 71,766
                                                          40,000                         9/30/2013 program participation: 31,528
                                                                                         Homeowners assisted: 29,909


                                                          20,000



                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                     State Estimated Program Participation               Homeowners Assisted
                                                                     Program Participation

                                                                  Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                                  may have double-counted individual homeowners who received assistance from more
                                                                  than one program in states that have more than one program.

                                                                  Sources: States provide estimates for program participation and report program
                                                                  participation and homeowners assisted numbers. CalHFA Mortgage Assistance
                                                                  Corporation, Proposal, no date; Treasury and CalHFA Mortgage Assistance Corporation,
                                                                  Commitment to Purchase Financial Instrument and HFA Participation Agreement,
                                                                  6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh
                                                                  Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011,
                                                                  8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and
                                                                  9/20/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California,
                                                                  Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q3
                                                                  2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                       111



FIGURE 2.13

 CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 9/30/2013

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                               MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
      (UNEMPLOYMENT)                                                                                         (PAST-DUE PAYMENT)
                                                       Peak estimate: 60,531
      100,000                                          9/30/13 estimate: 50,380                              25,000                                          Peak estimate: 17,293
                                                       9/30/13 program participation: 24,496                                                                 9/30/13 estimate: 8,830
       80,000                                                                                                20,000                                          9/30/13 program participation: 4,238
       60,000                                                                                                15,000

       40,000                                                                                                10,000

       20,000                                                                                                 5,000

            0                                                                                                     0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                             TRANSITION ASSISTANCE PROGRAM
                                                                                                             (TRANSITION)
                                                        Peak estimate: 25,135                                                                                  Peak estimate: 6,471
       50,000                                                                                                10,000                                            9/30/13 estimate: 460
                                                        9/30/13 estimate: 11,560
       40,000                                           9/30/13 program participation: 2,380                  8,000
                                                                                                                                                               9/30/13 program participation: 387

       30,000                                                                                                 6,000

       20,000                                                                                                 4,000

       10,000                                                                                                 2,000

             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                    LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
      REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                              REDUCTION PROGRAM (MODIFICATION)

          500                                                                                                  200

          375                                                                                                  150

          250                                                                                                  100       Peak estimate: 166
                    Peak estimate: 370
                                                                                                                         9/30/13 estimate: 166
                    9/30/13 estimate: 370
          125                                                                                                   50       9/30/13 program participation: 0
                    9/30/13 program participation: 27
             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      NEIGHBORWORKS SACRAMENTO SHORT SALE
      GATEWAY PROGRAM (TRANSITION)

          200                                                Peak estimate: 91
                                                             9/30/13 estimate: 0
          150                                                9/30/13 program participation: 0

          100

           50

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
 Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh Amendment[s]
 to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and 9/20/2013; CalHFA Mortgage Assistance
 Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Florida’s HHF Programs
                                             Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.308 As of September 30, 2013, the state had drawn down $271.3
                                             million (26%) of those funds.309,xx As of September 30, 2013, the most recent data
                                             available, Florida had spent $169.8 million (16% of its obligated funds) to help
                                             12,129 individual homeowners with its HHF programs.310,xxi The remaining $31.5
                                             million (3%) was spent on administrative expenses, and $69.9 million (7%) is held
                                             as cash-on-hand.311,xxii As of September 30, 2013, the state had five active HHF
                                             programs: one to provide unemployment assistance to homeowners, a second and
                                             third to provide past-due payment assistance to homeowners, and a fourth and fifth
                                             to modify homeowners’ mortgages. At the start of 2011, Florida estimated that it
                                             would help as many as 106,000 homeowners with HHF but, as of September 30,
                                             2013, had reduced that peak estimate by 63%, to 39,000.
                                                 Figure 2.14 shows, in aggregate, the number of homeowners estimated to
                                             participate in Florida’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.15 shows the number of
                                             homeowners estimated to participate in each of Florida’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Florida’s programs (program participation), as of September 30, 2013.




                                             xx T
                                                 reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Florida had
                                                drawn down $336.3 million.
                                             xxi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             xxii S
                                                   tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   113




FIGURE 2.14

FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

120,000



100,000



 80,000



 60,000                                 Peak estimate: 106,000
                                        9/30/2013 estimate: 39,000
                                        9/30/2013 program participation: 20,345
                                        Homeowners assisted: 12,129
 40,000



 20,000



     0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation               Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Florida Housing Finance Corporation,
         Proposal, no date; Treasury and Florida Housing Finance Corporation, Commitment to
         Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida
         Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
         9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012,
         5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit
         Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q3
         2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
114              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.15

       FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

            UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                               MORTGAGE LOAN REINSTATEMENT PROGRAM
            (UNEMPLOYMENT)                                                                                         (PAST-DUE PAYMENT)
             100,000                                          Peak estimate: 53,000                                100,000
                                                                                                                                                                    Peak estimate: 53,000
              80,000
                                                              9/30/13 estimate: 25,000                              80,000                                          9/30/13 estimate: 25,000
                                                              9/30/13 program participation: 10,724                                                                 9/30/13 program participation: 9,620
              60,000                                                                                                60,000

              40,000                                                                                                40,000

              20,000                                                                                                20,000

                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                            State Estimated Program Participation                Program Participation




            MODIFICATION ENABLING PILOT PROGRAM                                                                    PRINCIPAL REDUCTION PROGRAM (MODIFICATION)
            (MODIFICATION)
               2,000                                                                                               50,000                                           Peak estimate: 10,000
                                                                                                                   40,000                                           9/30/13 estimate: 10,000
              1,500                                          Peak estimate: 1,500                                                                                   9/30/13 program participation: 0
                                                             9/30/13 estimate: 1,500                               30,000
               1,000                                         9/30/13 program participation: 1
                                                                                                                   20,000
                500
                                                                                                                   10,000

                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                            State Estimated Program Participation                Program Participation




            ELDERLY MORTGAGE ASSISTANCE PROGRAM
            (PAST-DUE PAYMENT)
             10,000                                           Peak estimate: 2,500
              8,000
                                                              9/30/13 estimate: 2,500
                                                              9/30/13 program participation: 0
               6,000

               4,000

               2,000

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. Florida estimates that it will serve approximately 25,000 homeowners in the
       aggregate between its Unemployment Mortgage Assistance Program and its Mortgage Loan Reinstatement Program.

       Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
       Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
       9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
       Reports, Quarterly Performance Reports Q3 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   115




Georgia’s HHF Program
Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
is not getting a significant amount of these funds out the door to help homeowners
with HHF.312 As of September 30, 2013, the state had drawn down $77.5 million
(23%) of those funds.313,xxiii As of September 30, 2013, the most recent data
available, Georgia had spent $53.4 million (16% of its obligated funds) to help
4,004 individual homeowners with its HHF program.314,xxiv The remaining $12.3
million (4%) was spent on administrative expenses, and $11.8 million (3%) is
held as cash-on-hand.315,xxv As of September 30, 2013, the state had one HHF
program, to provide unemployment assistance to homeowners. In the quarter
ending December 31,2013, Georgia introduced two new programs: one to modify
homeowners’ mortgages and a second to provide past-due payment assistance to
homeowners. Since the end of 2010, Georgia estimated that it would provide HHF
unemployment assistance to as many as 18,300 homeowners and had helped 4,004
homeowners with HHF unemployment assistance, as of September 30, 2013.
    Figure 2.16 shows the number of homeowners estimated to participate in
Georgia’s program and the number of homeowners who have been assisted, as of
September 30, 2013.




xxiii Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Georgia had
     drawn down $77.5 million.
xxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xxv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
116   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           FIGURE 2.16

                                                           GEORGIA’S MORTGAGE PAYMENT ASSISTANCE PROGRAM
                                                           (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION
                                                           AND HOMEOWNERS ASSISTED, AS OF 9/30/2013

                                                            20,000




                                                            15,000




                                                                                                   Peak estimate: 18,300
                                                            10,000                                 9/30/2013 estimate: 18,300
                                                                                                   9/30/2013 program participation: 4,004
                                                                                                   Homeowners assisted: 4,004



                                                             5,000




                                                                  0
                                                                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                         State Estimated Program Participation                 Homeowners Assisted


                                                                      Notes: Estimated includes highest estimate of a range.

                                                                      Sources: States provide estimates for program participation and homeowners assisted
                                                                      numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA
                                                                      Affordable Housing Inc., Commitment to Purchase Financial Instrument and HFA
                                                                      Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through fifth
                                                                      Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 6/28/2011,
                                                                      5/3/2012, and 12/12/2013; GHFA Affordable Housing Inc., HomeSafe Georgia, US
                                                                      Treasury Reports, Quarterly Performance Reports Q4 2010 - Q3 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   117




Illinois’s HHF Programs
Even though Treasury obligated $445,603,557 of HHF funds to Illinois, Illinois is
not getting a significant amount of these funds out the door to help homeowners
with HHF.316 As of September 30, 2013, the state had drawn down $260 million
(58%) of those funds.317,xxvi As of September 30, 2013, the most recent data
available, Illinois had spent $168.1 million (38% of its obligated funds) to help
10,102 individual homeowners.318,xxvii The remaining $22.8 million (5%) was
spent on administrative expenses, and $69.1 million (16%) is held as cash-on-
hand.319,xxviii As of September 30, 2013, the state had three HHF programs: one
to provide unemployment assistance to homeowners and a second and third to
modify homeowners’ mortgages. Illinois stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
September 30, 2013.320,xxix In mid-2011, Illinois estimated that it would help as
many as 29,000 homeowners with HHF but, as of September 30, 2013, reduced
that peak estimate by 54%, to 13,500.
    Figure 2.17 shows, in aggregate, the number of homeowners estimated to
participate in Illinois’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
September 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.18 shows the number of
homeowners estimated to participate in each of Illinois’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Illinois’s programs (program participation), as of September 30, 2013.




xxvi Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Illinois had
     drawn down $260 million.
xxvii A
       ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxviii S
        tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
       assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
       balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
       payments made.
xxix According to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
      allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
118   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.17

                                                         ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                         PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                         ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

                                                          30,000



                                                          25,000



                                                          20,000



                                                          15,000



                                                          10,000

                                                                       Peak estimate: 29,000
                                                                       9/30/2013 estimate: 13,500
                                                           5,000       9/30/2013 program participation: 10,109
                                                                       Homeowners assisted: 10,102


                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation              Homeowners Assisted
                                                                      Program Participation

                                                                   Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                                   may have double-counted individual homeowners who received assistance from more
                                                                   than one program in states that have more than one program.

                                                                   Sources: States provide estimates for program participation and report program
                                                                   participation and homeowners assisted numbers. Illinois Housing Development Authority,
                                                                   Proposal, no date; Treasury and Illinois Housing Development Authority, Commitment to
                                                                   Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois
                                                                   Housing Development Authority, first through ninth Amendment[s] to Agreement[s],
                                                                   9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012,
                                                                   9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois
                                                                   Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q3 2013,
                                                                   no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                        119




FIGURE 2.18

 ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 9/30/2013

      HARDEST HIT FUND HOMEOWNER EMERGENCY                                                                   MORTGAGE RESOLUTION FUND PROGRAM
      LOAN PROGRAM (UNEMPLOYMENT)                                                                            (MODIFICATION)

       50,000                                           Peak estimate: 27,000                                 2,000
                                                        9/30/13 estimate: 12,000
       40,000                                           9/30/13 program participation: 9,853                  1,500
                                                                                                                                                            Peak estimate: 2,000
       30,000
                                                                                                              1,000                                         9/30/13 estimate: 1,000
       20,000                                                                                                                                               9/30/13 program participation: 118
                                                                                                               500
       10,000

             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      HOME PRESERVATION PROGRAM (MODIFICATION)


          500

          375
                                  Peak estimate: 500
          250
                                  9/30/13 estimate: 500
                                  9/30/13 program participation: 138
          125

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
 Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth Amendment[s] to
 Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program,
 Reporting, Quarterly Performance Reports Q1 2011 - Q3 2013, no date.
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Indiana’s HHF Programs
                                             Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.321 As of September 30, 2013, the state had drawn down $66.3 million
                                             (30%) of those funds.322,xxx As of September 30, 2013, the most recent data
                                             available Indiana had spent $24 million (11% of its obligated funds) to help 2,260
                                             individual homeowners with its HHF programs.323,xxxi The remaining $9.8 million
                                             (4%) was spent on administrative expenses, and $32.6 million (15%) is held as
                                             cash-on-hand.324,xxxii As of September 30, 2013, the state had three active HHF
                                             programs: one to provide unemployment assistance to homeowners, a second to
                                             modify homeowners’ mortgages, and a third to provide transition assistance to
                                             homeowners. As of the quarter ending December 31, 2013, Indiana introduced
                                             one new program to demolish vacant properties with HHF funds. At the start of
                                             2011, Indiana estimated helping as many as 16,257 homeowners with HHF but, as
                                             of September 30, 2013, reduced that peak estimate by 38%, to 10,150.
                                                 Figure 2.19 shows, in aggregate, the number of homeowners estimated to
                                             participate in Indiana’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Figure 2.20 shows the number of homeowners estimated to
                                             participate in each of Indiana’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Indiana’s programs
                                             (program participation), as of September 30, 2013.




                                             xxx Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Indiana had
                                                 drawn down $66.3 million.
                                             xxxi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xxxii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                    balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                    payments made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   121




FIGURE 2.19

INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

20,000




15,000




10,000


                                        Peak estimate: 16,257
                                        9/30/2013 estimate: 10,150
 5,000                                  9/30/2013 program participation: 2,260
                                        Homeowners assisted: 2,260




    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Indiana Housing and Community
         Development Authority, Proposal, 9/1/2010 and (amended) 2/14/2011; Treasury and
         Indiana Housing and Community Development Authority, Commitment to Purchase
         Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
         Community Development Authority, first through eighth Amendment[s] to Agreement[s],
         9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012,
         9/28/2012, 3/8/2013, and 12/12/2013; Indiana Housing and Community Development
         Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly
         Performance Reports Q2 2011 - Q3 2013, no date.
122              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.20

       INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

            HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                                   HARDEST HIT FUND RECAST/MODIFICATION
            PROGRAM (UNEMPLOYMENT)                                                                                 PROGRAM (MODIFICATION)
             25,000                                            Peak estimate: 16,257                                2,000

             20,000                                            9/30/13 estimate: 8,000
                                                               9/30/13 program participation: 2,258                 1,500
                                                                                                                                                         Peak estimate: 2,000
             15,000                                                                                                                                      9/30/13 estimate: 2,000
                                                                                                                    1,000
             10,000                                                                                                                                      9/30/13 program participation: 2
                                                                                                                     500
               5,000

                  0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            HARDEST HIT FUND TRANSITION ASSISTANCE
            PROGRAM (TRANSITION)
                200

                150
                                                    Peak estimate: 150
                                                    9/30/13 estimate: 150
                100
                                                    9/30/13 program participation: 0
                 50

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
       2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
       Community Development Authority, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, 3/8/2013, and
       12/12/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q3 2013, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   123




Kentucky’s HHF Program
Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
Kentucky is not getting a significant amount of these funds out the door to help
homeowners with HHF.325 As of September 30, 2013, the state had drawn down
$64 million (43%) of those funds.326,xxxiii As of September 30, 2013, the most recent
data available, Kentucky had spent $47.6 million (32% of its obligated funds) to
help 4,500 individual homeowners with its HHF program.327,xxxiv The remaining
$8.4 million (6%) was spent on administrative expenses, and $8 million (5%) is
held as cash-on-hand.328,xxxv As of September 30, 2013, the state had one active
HHF program, to provide unemployment assistance to homeowners. At the end of
2010, Kentucky estimated that it would provide HHF unemployment assistance to
as many as 15,000 homeowners but, as of September 30, 2013, reduced that peak
estimate by 60%, to 5,960. As of September 30, 2013, Kentucky had helped 4,500
homeowners with HHF unemployment assistance.
    Figure 2.21 shows the number of homeowners estimated to participate in
Kentucky’s program and the number of homeowners who have been assisted, as of
September 30, 2013.




xxxiii Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Kentucky had
      drawn down $84 million.
xxxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxxv S
      tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
     balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
     payments made.
124   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.21

                                                         KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM
                                                         (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION
                                                         AND HOMEOWNERS ASSISTED, AS OF 9/30/2013

                                                          15,000




                                                          12,000




                                                           9,000




                                                           6,000

                                                                           Peak estimate: 15,000
                                                                           9/30/2013 estimate: 5,960
                                                           3,000           9/30/2013 program participation: 4,500
                                                                           Homeowners assisted: 4,500



                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation                 Homeowners Assisted


                                                                   Notes: Estimated includes highest estimate of a range.

                                                                   Sources: States provide estimates for program participation and homeowners assisted
                                                                   numbers. Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky
                                                                   Housing Corporation, Commitment to Purchase Financial Instrument and HFA
                                                                   Participation Agreement, 9/23/2010; Kentucky Housing Corporation, first through sixth
                                                                   Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 9/28/2011,
                                                                   3/3/2012, and 12/14/2012; Kentucky Housing Corporation, American Recovery and
                                                                   Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge
                                                                   Program, Quarterly Performance Reports Q4 2010 - Q3 2013, no date.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   125




Michigan’s HHF Programs
Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
Michigan is not getting a significant amount of these funds out the door to help
homeowners with HHF.329 As of September 30, 2013, the state had drawn down
$146.2 million (29%) of those funds.330,xxxvi As of September 30, 2013, the most
recent data available, Michigan had spent $110.2 million (22% of its obligated
funds) to help 15,190 individual homeowners with HHF programs.331,xxxvii Michigan
had spent nothing to demolish vacant properties. The remaining $15.9 million (3%)
was spent on administrative expenses, and $20.1 million (4%) is held as cash-on-
hand.332,xxxviii As of September 30, 2013, the state had five HHF programs: one to
modify homeowners mortgage, a second to modify homeowners’ mortgages with
principal reduction assistance, a third to provide past-due payment assistance to
homeowners, a fourth to unemployment assistance to homeowners, and a fifth to
demolish vacant properties. At the end of 2010, Michigan estimated that it would
help as many as 49,422 homeowners with HHF, but, as of September 30, 2013,
had reduced that peak estimate by 77%, to 11,477.
    Figure 2.22 shows, in aggregate, the number of homeowners estimated to
participate in Michigan’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
September 30, 2013. Figure 2.23 shows the number of homeowners estimated
to participate in each of Michigan’s programs (estimated program participation)
and the reported number of homeowners who participated in each of Michigan’s
programs (program participation), as of September 30, 2013.




xxxvi Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Michigan had
      drawn down $162.1 million.
xxxvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxxviii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
         balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
         payments made.
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.22

                                                         MICHIGAN ESTIMATED PROGRAM PARTICIPATION,
                                                         PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                         ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

                                                          50,000




                                                          40,000




                                                          30,000




                                                          20,000

                                                                          Peak estimate: 49,422
                                                                          9/30/2013 estimate: 11,477
                                                          10,000          9/30/2013 program participation: 15,190
                                                                          Homeowners assisted: 15,190



                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation              Homeowners Assisted
                                                                      Program Participation

                                                                   Notes: Estimated includes highest estimate of a range. For its “Blight Elimination
                                                                   Program” (Demolition), Michigan neither estimated the number of homeowners it would
                                                                   serve nor reported the number of homeowners this program has served.

                                                                   Sources: States provide estimates for program participation and report program
                                                                   participation and homeowners assisted numbers. Michigan Homeowner Assistance
                                                                   Nonprofit Housing Corporation, Proposal, 10/15/2010; Treasury and Michigan
                                                                   Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase
                                                                   Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
                                                                   Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to
                                                                   Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012,
                                                                   11/15/2012, 6/6/2013, and 12/12/2013; Michigan Homeowner Assistance Nonprofit
                                                                   Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports
                                                                   Q3 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                       127




FIGURE 2.23

 MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 9/30/2013

      PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                           LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                           Peak estimate: 3,044                                                                               Peak estimate: 21,760
         6,000                                                                                               25,000
                                                           9/30/13 estimate: 300                                                                              9/30/13 estimate: 6,600
         5,000                                             9/30/13 program participation: 287                20,000                                           9/30/13 program participation: 9,263
         4,000
                                                                                                             15,000
         3,000
                                                                                                             10,000
         2,000
         1,000                                                                                                5,000

             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                  MODIFICATION PLAN PROGRAM (MODIFICATION)
      (UNEMPLOYMENT)
                                                                                                                             Peak estimate: 825
       25,000                                                                                                 1,000
                                                                                                                             9/30/13 estimate: 295
       20,000                                                                                                                9/30/13 program participation: 48
                                                                                                               750
       15,000
                      Peak estimate: 24,618                                                                    500
       10,000
                      9/30/13 estimate: 4,282
                      9/30/13 program participation: 5,592                                                     250
         5,000

             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      BLIGHT ELIMINATION PROGRAM (DEMOLITION)

          200

          150                  Peak estimate: 0
                               9/30/13 estimate: 0
          100
                               9/30/13 program participation: 0
           50

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the
 number of homeowners it would serve nor reported the number of homeowners this program has served.

 Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
 Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
 Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, 6/6/2013, and
 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q3 2013, no date; Treasury, response to
 SIGTARP data call, 10/7/2013.
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Mississippi’s HHF Program
                                             Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
                                             Mississippi is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.333 As of September 30, 2013, the state had drawn down
                                             $28.3 million (28%) of those funds.334,xxxix As of September 30, 2013, the most
                                             recent data available, Mississippi had spent $20.4 million (20% of its obligated
                                             funds) to help 1,771 individual homeowners with its HHF program.335,xl The
                                             remaining $5.4 million (5%) was spent on administrative expenses, and $2.6
                                             million (3%) is held as cash-on-hand.336,xli As of September 30, 2013, the state
                                             had one HHF program, to provide unemployment assistance to homeowners. At
                                             the end of 2010, Mississippi estimated that it would provide HHF unemployment
                                             assistance to as many as 3,800 homeowners, but as of September 30, 2013,
                                             reduced that peak estimate by 8%, to 3,500. As of September 30, 2013, Mississippi
                                             had provided HHF unemployment assistance to 1,771 homeowners.
                                                 Figure 2.24 shows the number of homeowners estimated to participate in
                                             Mississippi’s program and the number of homeowners who have been assisted, as
                                             of September 30, 2013.




                                             xxxix T
                                                    reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Mississippi
                                                    had drawn down $44.3 million.
                                             xl According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             xli States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   129




FIGURE 2.24

MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 9/30/2013

 4,000


 3,500


 3,000


 2,500                              Peak estimate: 3,800
                                    9/30/2013 estimate: 3,500
                                    9/30/2013 program participation: 1,771
 2,000
                                    Homeowners assisted: 1,771

 1,500


 1,000


  500


    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation                 Homeowners Assisted


         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and homeowners assisted
         numbers. Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi
         Home Corporation, Commitment to Purchase Financial Instrument and HFA Participation
         Agreement, 9/23/2010; Mississippi Home Corporation, first through seventh
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 12/8/2011, 9/28/2011,
         1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013; Mississippi Home Corporation,
         Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s], Quarterly
         Performance Reports Q4 2010 - Q3 2013, no date.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Nevada’s HHF Programs
                                             Even though Treasury obligated $194,026,240 of HHF funds to Nevada, Nevada
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.337 As of September 30, 2013, the state had drawn down $98.8 million
                                             (51%) of those funds.338,xlii As of September 30, 2013, the most recent data
                                             available, Nevada had spent $76.8 million (40% of its obligated funds) to help
                                             4,694 individual homeowners with its HHF programs.339,xliii The remaining $10.5
                                             million (5%) was spent on administrative expenses, and $11.6 million (6%) is held
                                             as cash-on-hand.340,xliv As of September 30, 2013, the state had six active HHF
                                             programs: two to provide unemployment assistance to homeowners, a third and
                                             fourth to modify homeowners’ mortgages with principal reduction assistance, a
                                             fifth for second-lien reduction assistance to homeowners, and a sixth to provide
                                             transition assistance to homeowners. In mid-2011, Nevada estimated that it would
                                             help as many as 23,556 homeowners with HHF but, as of September 30, 2013,
                                             reduced that peak estimate by 71%, to 6,854.
                                                 Figure 2.25 shows, in aggregate, the number of homeowners estimated to
                                             participate in Nevada’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.26 shows the number of
                                             homeowners estimated to participate in each of Nevada’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Nevada’s programs (program participation), as of September 30, 2013.




                                             xlii T
                                                   reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Nevada had
                                                  drawn down $98.8 million.
                                             xliii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xliv S
                                                   tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   131




FIGURE 2.25

NEVADA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

25,000

                                                     Peak estimate: 23,556
                                                     9/30/2013 estimate: 6,854
                                                     9/30/2013 program participation: 4,694
20,000                                               Homeowners assisted: 4,694




15,000




10,000




 5,000




    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Nevada Affordable Housing Assistance
         Corporation, Proposal, 6/14/2010; Treasury and Nevada Affordable Housing Assistance
         Corporation, Commitment to Purchase Financial Instrument and HFA Participation
         Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
         through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
         12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,
         6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance
         Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance
         Reports Q1 2011 - Q3 2013, no date.
132              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.26

       NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                             SECOND MORTGAGE REDUCTION PLAN
                                                                                                                   (SECOND-LIEN REDUCTION)
                                                              Peak estimate: 3,016
               6,000                                          9/30/13 estimate: 1,040                               6,000                                             Peak estimate: 2,200
               5,000                                          9/30/13 program participation: 1,179                  5,000                                             9/30/13 estimate: 500
               4,000                                                                                                4,000
                                                                                                                                                                      9/30/13 program participation: 392

               3,000                                                                                                3,000
               2,000                                                                                                2,000
               1,000                                                                                                1,000
                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            SHORT-SALE ACCELERATION PROGRAM                                                                        MORTGAGE ASSISTANCE PROGRAM
            (TRANSITION)                                                                                           (UNEMPLOYMENT)
               2,000                                                                                               25,000                                               Peak estimate: 16,969
                                                                                                                   20,000
                                                                                                                                                                        9/30/13 estimate: 4,033
               1,500                                                                                                                                                    9/30/13 program participation: 2,812
                                                                                                                   15,000
               1,000
                                  Peak estimate: 1,713                                                             10,000
                                  9/30/13 estimate: 60
                500
                                  9/30/13 program participation: 100                                                5,000

                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE                                                                HOME RETENTION PROGRAM (MODIFICATION)
            (UNEMPLOYMENT)
                500                                                                                                 2,000

                375                                                                                                 1,500              Peak estimate: 1,150
                                Peak estimate: 416                                                                                     9/30/13 estimate: 1,150
                250                                                                                                 1,000
                                9/30/13 estimate: 71                                                                                   9/30/13 program participation: 0
                125             9/30/13 program participation: 211                                                   500

                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
       through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
       Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q3 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   133




New Jersey’s HHF Program
Even though Treasury obligated $300,548,144 of HHF funds to New Jersey,
New Jersey is not getting a significant amount of these funds out the door to help
homeowners with HHF.341 As of September 30, 2013, the state had drawn down
$133.5 million (44.4%) of those funds.342,xlv As of September 30, 2013, the most
recent data available, New Jersey had spent $99.8 million (33% of its obligated
funds) to help 4,424 individual homeowners with its HHF program.343,xlvi The
remaining $16.9 million (6%) was spent on administrative expenses, and $16.8
million (6%) is held as cash-on-hand.344,xlvii As of September 30, 2013, the state had
one active HHF program, to provide unemployment assistance to homeowners.
Since the end of 2010, New Jersey has estimated that it would provide HHF
unemployment assistance to as many as 6,900 homeowners and had helped
4,424 homeowners with HHF unemployment assistance, as of September 30,
2013. According to Treasury, New Jersey stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
November 30, 2013.345,xlviii
    Figure 2.27 shows the number of homeowners estimated to participate in New
Jersey’s program and the number of homeowners who have been assisted, as of
September 30, 2013.




xlv T
     reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, New Jersey
    had drawn down $190.5 million.
xlvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xlvii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
       assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
       balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
       payments made.
xlviii According to Treasury, New Jersey is no longer accepting applications for assistance from homeowners because it determined that
        its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.27

                                                         NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)
                                                         ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                         ASSISTED, AS OF 9/30/2013

                                                           8,000


                                                           7,000


                                                           6,000


                                                           5,000                            Peak estimate: 6,900
                                                                                            9/30/2013 estimate: 6,900
                                                                                            9/30/2013 program participation: 4,424
                                                           4,000                            Homeowners assisted: 4,424

                                                           3,000


                                                           2,000


                                                           1,000


                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation                 Homeowners Assisted


                                                                   Notes: Estimated includes highest estimate of a range.

                                                                   Sources: States provide estimates for program participation and homeowners assisted
                                                                   numbers. New Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010;
                                                                   Treasury and New Jersey Housing and Mortgage Finance Agency, Commitment to
                                                                   Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; New Jersey
                                                                   Housing and Mortgage Finance Agency, first through sixth Amendment[s] to
                                                                   Agreement[s], 9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012, 8/24/2012, and
                                                                   10/30/2013; New Jersey Housing and Mortgage Finance Agency, The New Jersey
                                                                   HomeKeeper Program, About the Program, Performance Reports, Quarterly
                                                                   Performance Reports Q3 2011 - Q3 2013, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   135




North Carolina’s HHF Programs
Even though Treasury obligated $482,781,786 of HHF funds to North Carolina,
North Carolina is not getting a significant amount of these funds out the door to
help homeowners with HHF.346 As of September 30, 2013, the state had drawn
down $270.5 million (56%) of those funds.347,xlix As of September 30, 2013, the
most recent data available, North Carolina had spent $194.2 million (40% of its
obligated funds) to help 13,823 individual homeowners with its HHF programs.348,l
The remaining $36.6 million (8%) was spent on administrative expenses, and
$39.7 million (8%) is held as cash-on-hand.349,li As of September 30, 2013, the
state had four active HHF programs: two to provide unemployment assistance to
homeowners, a third to provide second-lien reduction assistance to homeowners,
and a fourth to modify homeowners’ mortgages with principal reduction. North
Carolina had another program to modify homeowners’ mortgages but reduced the
peak estimate for this program to zero and had not modified any mortgages as of
September 30, 2013. As of December 31, 2013, North Carolina reduced the peak
estimate for its modification program with principal reduction assistance to zero
and introduced a new program to modify homeowners’ mortgages. From mid-2011
to mid-2013, North Carolina estimated that it would help as many as 22,290
homeowners with HHF, but as of September 30, 2013, reduced that peak estimate
to 21,530.
    Figure 2.28 shows, in aggregate, the number of homeowners estimated to
participate in North Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of September 30, 2013. Because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. Figure 2.29 shows the number
of homeowners estimated to participate in each of North Carolina’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of North Carolina’s programs (program participation), as of
September 30, 2013.




xlix T
      reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, North Carolina
    had drawn down $313.7 million.
lA
  ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
  cash-on-hand, or undrawn funds.
li States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.28

                                                         NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
                                                         PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                         ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

                                                          25,000




                                                          20,000

                                                                                             Peak estimate: 22,290
                                                                                             9/30/2013 estimate: 21,530
                                                          15,000                             9/30/2013 program participation: 13,889
                                                                                             Homeowners assisted: 13,823



                                                          10,000




                                                           5,000




                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation              Homeowners Assisted
                                                                      Program Participation

                                                                   Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                                   may have double-counted individual homeowners who received assistance from more
                                                                   than one program in states that have more than one program.

                                                                   Sources: States provide estimates for program participation and report program
                                                                   participation and homeowners assisted numbers. North Carolina Housing Finance
                                                                   Agency, Proposal, 7/23/2010; Treasury and North Carolina Housing Finance Agency,
                                                                   Commitment to Purchase Financial Instrument and HFA Participation Agreement,
                                                                   8/23/2010; North Carolina Housing Finance Agency, first through seventh Amendment[s]
                                                                   to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012,
                                                                   8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund
                                                                   & Performance Reporting, Quarterly Performance Reports Q3 2010 - Q3 2013, no date;
                                                                   Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                       137




FIGURE 2.29

 NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 9/30/2013

      MORTGAGE PAYMENT PROGRAM-1                                                                             MORTGAGE PAYMENT PROGRAM-2
      (UNEMPLOYMENT)                                                                                         (UNEMPLOYMENT)
        6,000                                                                                                15,000
        5,000                                                                                                12,000
                                                                                                                                            Peak estimate: 14,100
        4,000
                                                                                                              9,000                         9/30/13 estimate: 14,100
        3,000                                                                                                                               9/30/13 program participation: 9,782
                                                                                                              6,000
        2,000                                                 Peak estimate: 5,750
        1,000                                                 9/30/13 estimate: 5,750                         3,000
                                                              9/30/13 program participation: 4,025
             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      SECOND MORTGAGE REFINANCE PROGRAM                                                                      PERMANENT LOAN MODIFICATION PROGRAM
      (SECOND-LIEN REDUCTION)                                                                                (MODIFICATION)
        2,000                                                                                                  500

        1,500                                                                                                  375

        1,000                                              Peak estimate: 2,000                                250                                                Peak estimate: 440
                                                           9/30/13 estimate: 1,000                                                                                9/30/13 estimate: 0
          500                                              9/30/13 program participation: 82                   125                                                9/30/13 program participation: 0

             0                                                                                                    0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




      PRINCIPAL REDUCTION RECAST PROGRAM
      (MODIFICATION)
        2,000

        1,500

        1,000                                         Peak estimate: 680
                                                      9/30/13 estimate: 680
          500                                         9/30/13 program participation: 0

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                       State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
 Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through seventh Amendment[s] to
 Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting,
 Quarterly Performance Reports Q3 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Ohio’s HHF Programs
                                             Even though Treasury obligated $570,395,099 of HHF funds to Ohio, Ohio is
                                             not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.350 As of September 30, 2013, the state had drawn down $239.1
                                             million (42%) of those funds.351,lii As of September 30, 2013, the most recent
                                             data available, Ohio had spent $177.2 million (31% of its obligated funds) to help
                                             13,423 individual homeowners with its HHF programs.352,liii The remaining $29.3
                                             million (5%) was spent on administrative expenses, and $32.7 million (6%) is held
                                             as cash-on-hand.353,liv As of September 30, 2013, the state had eight active HHF
                                             programs: four to modify homeowners’ mortgages, a fifth to provide past-due
                                             payment assistance to homeowners, a sixth to provide unemployment assistance
                                             to homeowners, a seventh to provide transition assistance to homeowners and
                                             an eighth to demolish vacant properties. As of the quarter ending December
                                             31, 2013, Ohio had reduced the peak estimate for one of its two transition
                                             assistance programs to zero and had not provided HHF transition assistance to any
                                             homeowners. At the end of 2010, Ohio estimated that it would help as many as
                                             63,485 homeowners with HHF but, as of September 30, 2013, reduced that peak
                                             estimate by 44%, to 35,575.
                                                 Figure 2.30 shows, in aggregate, the number of homeowners estimated to
                                             participate in Ohio’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.31 shows the number of
                                             homeowners estimated to participate in each of Ohio’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Ohio’s programs (program participation), as of September 30, 2013.




                                             lii Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Ohio had drawn
                                                 down $270.1 million.
                                             liii A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             liv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   139




FIGURE 2.30

OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,
IN ALL HHF PROGRAMS, AS OF 9/30/2013

80,000                                     Peak estimate: 63,485
                                           9/30/2013 estimate: 35,575
                                           9/30/2013 program participation: 21,126
70,000                                     Homeowners assisted: 13,423

60,000


50,000


40,000


30,000


20,000


10,000


    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Ohio Homeowner Assistance LLC,
         Proposal [revised], 4/11/2011; Treasury and Ohio Homeowner Assistance LLC,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement,
         9/23/2010; Ohio Homeowner Assistance LLC, first through ninth Amendment[s] to
         Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,
         12/14/2012, 3/22/2013, 8/28/2013, and 12/12/2013; Ohio Homeowner Assistance
         LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 -
         Q3 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
140            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.31

       OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

           RESCUE PAYMENT ASSISTANCE PROGRAM                                                                     MORTGAGE PAYMENT ASSISTANCE PROGRAM
           (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                             (UNEMPLOYMENT)
                                                          9/30/13 estimate: 19,000                                                                               Peak estimate: 31,900
            25,000                                        9/30/13 program participation: 11,516                  50,000                                          9/30/13 estimate: 9,375
            20,000                                                                                               40,000                                          9/30/13 program participation: 8,495

            15,000                                                                                               30,000

            10,000                                                                                               20,000

             5,000                                                                                               10,000

                 0                                                                                                   0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                           State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




           MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                             LIEN ELIMINATION ASSISTANCE (MODIFICATION)
           PROGRAM (MODIFICATION)
                                                                                                                                                                 Peak estimate: 2,350
             7,500                                                                                                6,000                                          9/30/13 estimate: 700
             6,000                                                                                                5,000                                          9/30/13 program participation: 464
                                                                                                                  4,000
             4,500
                          Peak estimate: 6,400                                                                    3,000
             3,000        9/30/13 estimate: 4,600                                                                 2,000
             1,500        9/30/13 program participation: 242
                                                                                                                  1,000
                 0                                                                                                   0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                           State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




           TRANSITION ASSISTANCE PROGRAM                                                                         HOMEOWNERSHIP RETENTION ASSISTANCE
           (TRANSITION)                                                                                          (MODIFICATION)
                                                                  Peak estimate: 4,900                                                                           Peak estimate: 3,100
             6,000                                                9/30/13 estimate: 100                           6,000                                          9/30/13 estimate: 900
             5,000                                                9/30/13 program participation: 27               5,000                                          9/30/13 program participation: 284
             4,000                                                                                                4,000
             3,000                                                                                                3,000
             2,000                                                                                                2,000
             1,000                                                                                                1,000
                 0                                                                                                   0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                           State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation
                                                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                        141




OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
PROGRAM, AS OF 9/30/2013 (CONTINUED)

   HOMEOWNER STABILIZATION ASSISTANCE                                                                     SHORT REFINANCE PROGRAM
   PROGRAM (MODIFICATION)                                                                                 (TRANSITION)
                                                           Peak estimate: 900                                                                                  Peak estimate: 6,500
      6,000                                                9/30/13 estimate: 900                          10,000                                               9/30/13 estimate: 0
      5,000                                                9/30/13 program participation: 98               8,000                                               9/30/13 program participation: 0
      4,000
                                                                                                           6,000
      3,000
                                                                                                           4,000
      2,000
      1,000                                                                                                2,000

          0                                                                                                    0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                    State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




   NEIGHBORHOOD INITIATIVE PROGRAM
   (DEMOLITION)
                                                          Peak estimate: 0
    10,000                                                9/30/13 estimate: 0
     8,000                                                9/30/13 program participation: 0

      6,000

      4,000

      2,000

          0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                    State Estimated Program Participation                Program Participation



Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through ninth Amendment[s] to Agreement[s],
9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, 8/28/2013, and 12/12/2013; Ohio Homeowner Assistance LLC, Save the Dream Ohio: Quarterly
Reports, Quarterly Performance Reports Q4 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Oregon’s HHF Programs
                                             Treasury obligated $220,042,786 of HHF funds to Oregon.354 As of September
                                             30, 2013, the state had drawn down $155 million (70%) of those funds.355,lv As of
                                             September 30, 2013, the most recent data available, Oregon had spent $118.1
                                             million (54% of its obligated funds) to help 9,171 individual homeowners.356,lvi The
                                             remaining $27.3 million (12%) was spent on administrative expenses, and $9.7
                                             million (4%) is held as cash-on-hand.357,lvii As of September 30, 2013, the state
                                             had four active HHF programs: two to modify homeowners’ mortgages, a third to
                                             provide unemployment assistance to homeowners, and a fourth to provide past-
                                             due payment assistance to homeowners. Oregon had another program to modify
                                             homeowners’ mortgages but had not assisted any homeowners in that program. As
                                             of December 31, 2013, Oregon had reduced the peak estimate for its transition
                                             assistance program and had not assisted any homeowners. As of mid-2010, Oregon
                                             estimated that it would help as many as 9,400 homeowners with HHF but, as of
                                             September 30, 2013, had increased that estimate to 15,280.
                                                 Figure 2.32 shows, in aggregate, the number of homeowners estimated to
                                             participate in Oregon’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             September 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.33 shows the number of
                                             homeowners estimated to participate in each of Oregon’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Oregon’s programs (program participation), as of September 30, 2013.




                                             lv Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Oregon had
                                                drawn down $155 million.
                                             lvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             lvii S
                                                   tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   143




FIGURE 2.32

OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,
IN ALL HHF PROGRAMS, AS OF 9/30/2013

20,000                        Peak estimate: 15,280
                              9/30/2013 estimate: 15,280
                              9/30/2013 program participation: 11,667
                              Homeowners assisted: 9,171

15,000




10,000




 5,000




    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. Oregon Affordable Housing Assistance
         Corporation, Proposal, no date; Treasury and Oregon Affordable Housing Assistance
         Corporation, Commitment to Purchase Financial Instrument and HFA Participation
         Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
         thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,
         3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012,
         2/6/2013, 4/25/2013, 6/6/2013, and 8/28/2013; Oregon Affordable Housing
         Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting,
         Quarterly Performance Reports Q2 2011 - Q3 2013, no date.
144              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.33

       OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 9/30/2013

            LOAN MODIFICATION ASSISTANCE PROGRAM                                                                   MORTGAGE PAYMENT ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                         (UNEMPLOYMENT)
                                                                                                                                                           Peak estimate: 11,000
               6,000                                               Peak estimate: 2,600                            15,000
                                                                                                                                                           9/30/13 estimate: 11,000
               5,000                                               9/30/13 estimate: 0
                                                                                                                   12,000                                  9/30/13 program participation: 8,740
                                                                   9/30/13 program participation: 0
               4,000
                                                                                                                    9,000
               3,000
                                                                                                                    6,000
               2,000
               1,000                                                                                                3,000

                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            LOAN PRESERVATION ASSISTANCE PROGRAM                                                                   TRANSITION ASSISTANCE PROGRAM
            (PAST-DUE PAYMENT)                                                                                     (TRANSITION)
                                                           Peak estimate: 4,000
               6,000                                       9/30/13 estimate: 3,900                                  6,000                                                Peak estimate: 2,515
               5,000                                       9/30/13 program participation: 2,831                     5,000                                                9/30/13 estimate: 0
                                                                                                                                                                         9/30/13 program participation: 0
               4,000                                                                                                4,000
               3,000                                                                                                3,000
               2,000                                                                                                2,000
               1,000                                                                                                1,000
                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            LOAN REFINANCE ASSISTANCE PROGRAM                                                                      REBUILDING AMERICAN HOMEOWNERSHIP
            (MODIFICATION)                                                                                         ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                                  Peak estimate: 330
                500
                                                                  9/30/13 estimate: 330                              200                                                 Peak estimate: 50
                                                                  9/30/13 program participation: 89                                                                      9/30/13 estimate: 50
                375                                                                                                  150                                                 9/30/13 program participation: 7

                250                                                                                                  100

                125                                                                                                   50

                  0                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
       thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, and
       8/28/2013; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q3 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   145




Rhode Island’s HHF Program
Treasury obligated $79,351,573 of HHF funds to Rhode Island.358 As of September
30, 2013, the state had drawn down $66.5 million (84%) of those funds.359,lviii As of
September 30, 2013, the most recent data available, Rhode Island had spent $49.8
million (63% of its obligated funds) to help 3,034 individual homeowners with its
HHF programs.360,lix The remaining $7.3 million (9%) was spent on administrative
expenses, and $9.4 million (12%) is held as cash-on-hand.361,lx As of September 30,
2013, the state had five HHF programs: two to modify homeowners’ mortgages
(one of which includes principal reduction assistance), a third to provide past-due
payment assistance to homeowners, a fourth to provide transition assistance to
homeowners, and a fifth to provide unemployment assistance to homeowners.
According to Treasury, Rhode Island stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
January 31, 2013.362,lxi At the end of 2010, Rhode Island estimated that it would
help as many as 13,125 homeowners with HHF but, as of September 30, 2013,
reduced that peak estimate by 74%, to 3,413.
    Figure 2.34 shows, in aggregate, the number of homeowners estimated to
participate in Rhode Island’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of September 30, 2013. Because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. Figure 2.35 shows the number
of homeowners estimated to participate in each of Rhode Island’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of Rhode Island’s programs (program participation), as of
September 30, 2013.




lviii Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Rhode Island
      had drawn down $66.5 million.
lix According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
lx States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
lxi According to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined that
     its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.34

                                                         RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,
                                                         PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                         ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

                                                          15,000


                                                                                                     Peak estimate: 13,125
                                                                                                     9/30/2013 estimate: 3,413
                                                          12,000
                                                                                                     9/30/2013 program participation: 3,275
                                                                                                     Homeowners assisted: 3,034


                                                           9,000




                                                           6,000




                                                           3,000




                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation              Homeowners Assisted
                                                                      Program Participation

                                                                   Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                                   may have double-counted individual homeowners who received assistance from more
                                                                   than one program in states that have more than one program.

                                                                   Sources: States provide estimates for program participation and report program
                                                                   participation and homeowners assisted numbers. Rhode Island Housing and Mortgage
                                                                   Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and
                                                                   Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase
                                                                   Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
                                                                   and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s],
                                                                   9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,
                                                                   12/14/2012, and 7/17/2013; Rhode Island Housing and Mortgage Finance Corporation,
                                                                   Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports
                                                                   Q4 2010 - Q3 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                      147




FIGURE 2.35

 RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 9/30/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                                  TEMPORARY AND IMMEDIATE HOMEOWNER
      (MODIFICATION)                                                                                        ASSISTANCE (PAST-DUE PAYMENT)
        3,500                                                                                               3,000
        3,000                                            Peak estimate: 3,500                                                                                 Peak estimate: 2,750
                                                                                                            2,500
        2,500
                                                         9/30/13 estimate: 477                                                                                9/30/13 estimate: 681
                                                         9/30/13 program participation: 438                 2,000                                             9/30/13 program participation: 652
        2,000
                                                                                                            1,500
        1,500
                                                                                                            1,000
        1,000
         500                                                                                                 500
            0                                                                                                   0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                      State Estimated Program Participation                Program Participation                          State Estimated Program Participation                Program Participation




      MOVING FORWARD ASSISTANCE (TRANSITION)                                                                MORTGAGE PAYMENT ASSISTANCE –
                                                             Peak estimate: 875
                                                                                                            UNEMPLOYMENT (UNEMPLOYMENT)
        1,000                                                9/30/13 estimate: 70                           6,000
                                                             9/30/13 program participation: 64                                                             Peak estimate: 6,000
                                                                                                            5,000                                          9/30/13 estimate: 2,153
         750
                                                                                                            4,000                                          9/30/13 program participation: 2,098
         500                                                                                                3,000
                                                                                                            2,000
         250
                                                                                                            1,000
            0                                                                                                  0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                      State Estimated Program Participation                Program Participation                          State Estimated Program Participation                Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

         200                                                 Peak estimate: 100
                                                             9/30/13 estimate: 32
         150
                                                             9/30/13 program participation: 23
         100

          50

            0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                      State Estimated Program Participation                Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
 7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
 and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, and 7/17/2013;
 Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q3 2013, no date; Treasury, response to
 SIGTARP data call, 10/7/2013.
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             South Carolina’s HHF Programs
                                             Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
                                             South Carolina is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.363 As of September 30, 2013, the state had drawn
                                             down $100 million (34%) of those funds.364,lxii As of September 30, 2013, the
                                             most recent data available, South Carolina had spent $79.9 million (27% of its
                                             obligated funds) to help 6,276 individual homeowners with its HHF programs.365,lxiii
                                             The remaining $15.8 million (5%) was spent on administrative expenses, and
                                             $4.3 million (1%) is held as cash-on-hand.366,lxiv As of September 30, 2013, the
                                             state had four active HHF programs: one to provide unemployment assistance to
                                             homeowners, a second to provide past-due payment assistance to homeowners,
                                             a third to modify homeowners’ mortgages, and a fourth to provide transition
                                             assistance to homeowners. South Carolina ended its program to provide second-
                                             lien reduction assistance to homeowners. As of December 31, 2013, South
                                             Carolina introduced a new program to modify homeowners’ mortgages and had
                                             reduced the peak estimates to zero for its original program to modify homeowners’
                                             mortgages and its program to provide homeowners with second-lien reduction
                                             assistance. At the end of 2010, South Carolina estimated that it would help as
                                             many as 34,100 homeowners with HHF but, as of September 30, 2013, reduced
                                             that peak estimate by 34%, to 22,400.
                                                 Figure 2.36 shows, in aggregate, the number of homeowners estimated to
                                             participate in South Carolina’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of September 30, 2013. Because homeowners may participate in more than
                                             one program, the reported program participation numbers are higher than the
                                             total number of individual homeowners assisted. Figure 2.37 shows the number
                                             of homeowners estimated to participate in each of South Carolina’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of South Carolina’s programs (program participation), as of
                                             September 30, 2013.




                                             lxii T
                                                   reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, South Carolina
                                                  had drawn down $112.5 million.
                                             lxiii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             lxiv S
                                                   tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   149




FIGURE 2.36

SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 9/30/2013

35,000


30,000


25,000


20,000


15,000
                          Peak estimate: 34,100
                          9/30/2013 estimate: 22,400
                          9/30/2013 program participation: 9,626
10,000                    Homeowners assisted: 6,276


 5,000


    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers
         may have double-counted individual homeowners who received assistance from more
         than one program in states that have more than one program.

         Sources: States provide estimates for program participation and report program
         participation and homeowners assisted numbers. SC Housing Corp., Proposal,
         6/1/2010; Treasury and SC Housing Corp., Commitment to Purchase Financial
         Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp., first through
         sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,
         8/31/2011, 11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports,
         Quarterly Performance Reports Q1 2011 - Q3 2013, no date.
150              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.37

       SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
       BY PROGRAM, AS OF 9/30/2013

            MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                     DIRECT LOAN ASSISTANCE PROGRAM
            (UNEMPLOYMENT)                                                                                         (PAST-DUE PAYMENT)
                                                                                                                                                                   Peak estimate: 11,000
             15,000                                                                                                15,000                                          9/30/13 estimate: 10,000
             12,000                                                                                                12,000                                          9/30/13 program participation: 6,064

               9,000                                                                                                9,000
                                          Peak estimate: 14,000
               6,000                      9/30/13 estimate: 6,000                                                   6,000
                                          9/30/13 program participation: 3,460
               3,000                                                                                                3,000

                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            HAMP ASSISTANCE PROGRAM                                                                                PROPERTY DISPOSITION ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                         (TRANSITION)
                                                                                                                                                                       Peak estimate: 6,000
               6,000                         Peak estimate: 6,000                                                   6,000
                                                                                                                                                                       9/30/13 estimate: 400
               5,000                         9/30/13 estimate: 6,000                                                5,000                                              9/30/13 program participation: 102
                                             9/30/13 program participation: 0
               4,000                                                                                                4,000
               3,000                                                                                                3,000
               2,000                                                                                                2,000
               1,000                                                                                                1,000
                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation                           State Estimated Program Participation                Program Participation




            SECOND MORTGAGE ASSISTANCE PROGRAM
            (SECOND-LIEN REDUCTION)
               6,000                                               Peak estimate: 2,600
               5,000                                               9/30/13 estimate: 0
                                                                   9/30/13 program participation: 0
               4,000
               3,000
               2,000
               1,000
                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13

                             State Estimated Program Participation                Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
       Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011,
       11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q3 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   151




Tennessee’s HHF Program
Even though Treasury obligated $217,315,593 of HHF funds to Tennessee,
Tennessee is not getting a significant amount of these funds out the door to help
homeowners with HHF.367 As of September 30, 2013, the state had drawn down
$77.3 million (36%) of those funds.368,lxv As of September 30, 2013, the most
recent data available Tennessee had spent $61.6 million (28% of its obligated
funds) to help 4,601 individual homeowners.369,lxvi The remaining $10.8 million
(5%) was spent on administrative expenses, and $5 million (2%) is held as cash-
on-hand.370,lxvii As of September 30, 2013, the state had one HHF program, to
provide unemployment assistance to homeowners. At the end of 2011, Tennessee
estimated that it would provide HHF unemployment assistance to as many as
13,500 homeowners with HHF but, as of September 30, 2013, reduced that peak
estimate by 16%, to 11,300. As of September 30, 2013, Tennessee had provided
HHF unemployment assistance to 4,601 homeowners.
    Figure 2.38 shows the number of homeowners estimated to participate in
Tennessee’s program and the number of homeowners who have been assisted, as of
September 30, 2013.




lxv Treasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Tennessee had
    drawn down $95.3 million.
lxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
lxvii S
       tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.38

                                                         TENNESSEE’S HARDEST HIT FUND PROGRAM
                                                         (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION
                                                         AND HOMEOWNERS ASSISTED, AS OF 9/30/2013

                                                          15,000




                                                          12,000




                                                           9,000

                                                                                               Peak estimate: 13,500
                                                                                               9/30/2013 estimate: 11,300
                                                                                               9/30/2013 program participation: 4,601
                                                           6,000
                                                                                               Homeowners assisted: 4,601



                                                           3,000




                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation                 Homeowners Assisted


                                                                   Notes: Estimated includes highest estimate of a range.

                                                                   Sources: States provide estimates for program participation and homeowners assisted
                                                                   numbers. Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and
                                                                   Tennessee Housing Development Agency, Commitment to Purchase Financial Instrument
                                                                   and HFA Participation Agreement, 9/23/2010; Tennessee Housing Development Agency,
                                                                   first through seventh Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010,
                                                                   5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012, and 11/15/2012; Tennessee Housing
                                                                   Development Agency, Keep My Tennessee Home, Reports, Quarterly Performance
                                                                   Reports Q1 2011 - Q3 2013, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   153




Washington, DC’s HHF Program
Treasury obligated $20,697,198 of HHF funds to Washington, DC.371 As of
September 30, 2013, Washington, DC had drawn down $14.1 million (68%)
of those funds.372,lxviii As of September 30, 2013, the most recent data available,
Washington, DC had spent $10.2 million (49% of its obligated funds) to help
580 individual homeowners.373,lxix The remaining $2.5 million (12%) was spent
on administrative expenses and $1.4 million (7%) is held as cash-on-hand.374,lxx
As of September 30, 2013, Washington, DC had one HHF program, to provide
unemployment assistance to homeowners. At the end of 2010, Washington, DC
estimated that it would provide HHF unemployment assistance to as many as
1,000 homeowners with HHF but, as of September 30, 2013, reduced that peak
estimate by 20%, to 800. As of September 30, 2013, Washington, DC had provided
HHF unemployment assistance to 580 homeowners. Washington, DC stopped
accepting new applications after November 22, 2013.375
    Figure 2.39 shows the number of homeowners estimated to participate in
Washington, DC’s program and the number of homeowners who have been
assisted, as of September 30, 2013.




lxviii T
        reasury has separately published December 31, 2013, figures for amounts drawn down; as of December 31, 2013, Washington,
      DC had drawn down $18.2 million.
lxix A
      ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
lxx States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FIGURE 2.39

                                                         WASHINGTON, DC’S HOMESAVER PROGRAM
                                                         (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION
                                                         AND HOMEOWNERS ASSISTED, AS OF 9/30/2013

                                                           1,000




                                                            800

                                                                                              Peak estimate: 1,000
                                                                                              9/30/2013 estimate: 800
                                                            600                               9/30/2013 program participation: 580
                                                                                              Homeowners assisted: 580



                                                            400




                                                            200




                                                              0
                                                                   Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13


                                                                      State Estimated Program Participation                 Homeowners Assisted


                                                                   Notes: Estimated includes highest estimate of a range.

                                                                   Sources: States provide estimates for program participation and homeowners assisted
                                                                   numbers. District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury
                                                                   and District of Columbia Housing Finance Agency, Commitment to Purchase Financial
                                                                   Instrument and HFA Participation Agreement, 9/23/2010; District of Columbia Housing
                                                                   Finance Agency, first through eighth Amendment[s] to Agreement[s], 9/29/2010,
                                                                   12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011, 3/29/2012, 12/14/2012, and
                                                                   9/20/2012; District of Columbia Housing Finance Agency, HomeSaver – A Foreclosure
                                                                   Prevention Program, Quarterly Performance Reports Q1 2011 - Q3 2013, no date.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014        155




FHA Short Refinance Program
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives borrowers the option of refinancing an underwater, non-
FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
value. At that time, Treasury had allocated $8.1 billion to the program, but in
March 2013, because of what it characterized as low participation rates, Treasury
reduced TARP funds allocated for the FHA Short Refinance program to $1 billion
to provide loss protection to FHA through a letter of credit, plus up to $25 million
in fees for the letter of credit.376 FHA Short Refinance is voluntary for servicers.
Therefore, not all underwater borrowers who qualify may be able to participate in
the program.377 As of December 31, 2013, according to Treasury, 3,813 loans had
been refinanced under the program.378 As of December 31, 2013, Treasury has paid
$47,840 on one claim for one default under the program. According to Treasury,
only one FHA Short Refinance loan has defaulted; however, it is possible that more
loans have defaulted but FHA has not yet evaluated the claims.379 Treasury has
deposited $50 million into a reserve account for future claims.380 It has also spent
approximately $9.2 million on administrative expenses associated with the letter of
credit.381

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must be current on the
existing first-lien mortgage or have made three successful trial period payments; be
in a negative equity position; occupy the home as a primary residence; qualify for            For more information concerning
the new loan under standard FHA underwriting and credit score requirements; and               FHA Short Refinance eligibility, see
have an existing loan that is not insured by FHA.382 According to the Department              SIGTARP’s April 2011 Quarterly
of Housing and Urban Development (“HUD”), it evaluates the credit risk of the                 Report, pages 85-87.
loans.383

How FHA Short Refinance Works
Servicers must first determine the current value of the home using a third-party
appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
risk and, if necessary, referred for a review to confirm that the borrower’s total
monthly mortgage payments on all liens after the refinance is not greater than
31% of the borrower’s monthly gross income and the borrower’s total household
debt is not greater than 50%.384 Next, the lien holders must forgive principal that is
more than 115% of the value of the home. In addition, the original first-lien lender
must forgive at least 10% of the unpaid principal balance of the first-lien loan,
in exchange for a cash payment for 97.75% of the current home value from the
proceeds of the refinance. The lender may maintain a subordinate second lien for
up to 17.25% of that value (for a total balance of 115% of the home’s value).385
    If a borrower defaults, the letter of credit purchased by Treasury compensates
the investor for a first percentage of losses, up to specified amounts.386 For
mortgages originated between October 1, 2012, and May 31, 2013, the letter of
credit would cover approximately 4.38 – 18.85% of the unpaid principal balance
at default.387 FHA is responsible for the remaining losses on each mortgage. Funds
156   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             may be paid from the FHA Short Refinance letter of credit until the earlier of
                                             either (1) the time that the $1 billion letter of credit is exhausted, or (2) 10 years
                                             from the issuance of the letter of credit (October 2020), at which point FHA will
                                             bear all of the remaining losses.388 Treasury’s letter of credit ended on June 1, 2013.
                                             This leaves FHA solely responsible for covering any losses for mortgages originated
                                             on or after June 1, 2013, through September 30, 2014. According to Treasury,
                                             Treasury and FHA are in discussions about Treasury’s letter of credit covering
                                             losses from September 30, 2014, through December 30, 2014.389
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014         157




FINANCIAL INSTITUTION SUPPORT PROGRAMS
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Three of the programs, the Capital Purchase Program (“CPP”), the Community
Development Capital Initiative (“CDCI”), and the Capital Assistance Program
(“CAP”), were open to all qualifying financial institutions. The other three, the
Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
available on a case-by-case basis to institutions that needed assistance beyond that
available through CPP. With the expiration of TARP funding authorization, no new
investments can be made through these six programs.
    According to Treasury, to help improve the capital structure of some struggling
TARP recipients, Treasury has agreed to modify its investment in certain cases by
converting the preferred stock it originally received into other forms of equity, such        Mandatorily Convertible Preferred
as common stock or mandatorily convertible preferred stock (“MCP”).390                        Stock (“MCP”): A type of preferred
                                                                                              share (ownership in a company that
Capital Purchase Program                                                                      generally entitles the owner of the
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a           shares to collect dividend payments)
way to promote financial stability, maintain confidence in the financial system, and          that can be converted to common
enable lenders to meet the nation’s credit needs.391 CPP was a voluntary program              stock under certain parameters at the
open by application to qualifying financial institutions, including U.S.-controlled           discretion of the company – and must
banks, savings associations, and certain bank and savings and loan holding                    be converted to common stock by a
companies.392                                                                                 certain time.
    Under CPP, Treasury used TARP funds predominantly to purchase preferred
equity interests in the financial institutions. The institutions issued Treasury senior       Subordinated Debentures: Form of
preferred shares that pay a 5% annual dividend for the first five years and a 9%              debt security that ranks below other
annual dividend thereafter. Rate increases began in the quarter ended December                loans or securities with regard to
31, 2013. (See discussion in this section, “CPP Dividend Rates Increase for                   claims on assets or earnings.
Remaining Banks.”)
    In addition to the senior preferred shares, publicly traded institutions issued
Treasury warrants to purchase common stock with an aggregate market price
equal to 15% of the senior preferred share investment.393 Privately held institutions
issued Treasury warrants to purchase additional senior preferred stock worth 5% of
Treasury’s initial preferred stock investment.394 According to Treasury, through CPP,
in total Treasury purchased $204.9 billion in preferred stock and subordinated
                                                                                              For discussion of SIGTARP’s
debentures from 707 institutions in 48 states, the District of Columbia, and Puerto
                                                                                              recommendations on TARP exit paths
Rico.395                                                                                      for community banks, see SIGTARP’s
                                                                                              October 2011 Quarterly Report, pages
                                                                                              167-169.

                                                                                              For discussion of SIGTARP’s
                                                                                              recommendations issued on October 9,
                                                                                              2012, regarding CPP preferred stock
                                                                                              auctions, see SIGTARP’s October 2012
                                                                                              Quarterly Report, pages 180-183.
158            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           CPP DIVIDEND RATES INCREASE FOR REMAINING BANKS

                                                      As the banks with remaining principal investments reach the five-year
                                                      anniversary of the date of investment, they face a dividend rate increase
                                                      from 5% to 9% on the next quarterly payment due date. For example, if the
                                                      investment in a bank matured to five years in December 2013, the payment
                                                      due on the next quarterly payment date in February 2014 will be at the 9%
                                                      dividend rate. The dividend rate increases have already started to take place
                                                      and will affect large numbers of the remaining CPP banks throughout 2014.

                                                      The dividend rate for Popular, Inc., San Juan, Puerto Rico, the bank with the
                                                      largest remaining CPP principal investment, already increased in December
                                                      2013. Of the 86 banks with remaining CPP principal investments, there are
                                                      33 banks whose rates will increase to 9% by February 15, 2014, the next
                                                      due date for quarterly payments; of them, 23 are already behind on their
                                                      dividend payments. By the May 15, 2014, payment date, rates will increase
                                                      to 9% for an additional 33 banks, of which 27 are already behind on dividend
                                                      payments. By the August 15, 2014, payment date, rates will increase for 14
                                                      more banks, nine of which have already missed dividend payments. Rates will
                                                      increase for two more banks by November 15, 2014, and for the remaining
                                                      three banks by February 15, 2015. Table 2.23 lists the remaining banks by
                                                      date of dividend rate increase.

                                                      As of December 31, 2013, of the 86 banks with remaining principal
                                                      investments in CPP, 61 already have overdue missed dividends and interest.
                                                      For these banks, with the increase in the dividend rate, the amount overdue to
                                                      Treasury will grow more quickly. While all banks, regardless of size, received
      For more on SIGTARP’s October
                                                      CPP on the same terms, the one-size-fits-all repayment terms may not fit all.
      2011 recommendation regarding how
      Treasury should treat community banks           Because so many of these banks are not paying the 5% dividend, an increase
      unable to exit TARP before the dividend         to 9% may not have the intended effect of incentivizing them to exit TARP,
      rate increase, see SIGTARP’s October
                                                      particularly if they lack the ability to raise capital. In October 2011, SIGTARP
      2011 Quarterly Report, pages 167-169,
      and SIGTARP’s January 2012 Quarterly            recommended to Treasury that it assess whether it should renegotiate the
      Report, pages 159-161.                          terms of its CPP contracts for those community banks that will not be able to
                                                      exit TARP prior to the dividend rate increase. Treasury did not implement this
                                                      recommendation.
                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   159




TABLE 2.23
 CPP-RELATED DIVIDEND RATE INCREASES, AS OF 12/31/2013
                                                                                                                       Number
                                                                                                Value of Missed       of Missed
                                                             Investment      Outstanding       Dividend/Interest       Dividend
 Institution                               Location                Date   Capital Amount              Payments        Payments
 Rate Increased 12/5/2013
 Popular, Inc.                             San Juan, PR       12/5/2008    $935,000,000
 Rate Increases 2/15/2014
 First BanCorp                             San Juan, PR       1/16/2009     238,972,282
 Hampton Roads Bankshares, Inc.            Norfolk, VA       12/31/2008      80,347,000
 FNB United Corp.                          Asheboro, NC       2/13/2009      51,500,000
 Crescent Financial Bancshares, Inc.
                                           Cary, NC            1/9/2009      42,849,000
 (Crescent Financial Corporation)
 Porter Bancorp Inc.                       Louisville, KY    11/21/2008      35,000,000              $3,937,500               9
 First United Corporation                  Oakland, MD        1/30/2009      30,000,000               4,875,000              13
 Patriot Bancshares, Inc.                  Houston, TX       12/19/2008      26,038,000               4,257,240              12
 BNCCORP, Inc.                             Bismarck, ND       1/16/2009      20,093,000
 Broadway Financial Corporation            Los Angeles, CA   11/14/2008      15,000,000
                                           Mount Pleasant,
 Tidelands Bancshares, Inc                                   12/19/2008      14,448,000               2,347,800              13
                                           SC
 Bankers' Bank of the West Bancorp, Inc.   Denver, CO         1/30/2009      12,639,000
 Meridian Bank                             Devon, PA          2/13/2009      12,535,000
 One United Bank                           Boston, MA        12/19/2008      12,063,000               2,864,963              19
 Cecil Bancorp, Inc.                       Elkton, MD        12/23/2008      11,560,000               2,312,000              16
 Community Bankers Trust Corporation       Glen Allen, VA    12/19/2008      10,680,000
 NCAL Bancorp                              Los Angeles, CA   12/19/2008      10,000,000               1,362,500              10
 Greer Bancshares Incorporated             Greer, SC          1/30/2009       9,993,000               1,633,950              12
 Syringa Bancorp                           Boise, ID          1/16/2009       8,000,000               1,853,000              17
 Western Community Bancshares, Inc.        Palm Desert, CA   12/23/2008       7,290,000               1,390,725              14
 Idaho Bancorp                             Boise, ID          1/16/2009       6,900,000               1,692,225              18
 Citizens Commerce Bancshares, Inc.        Versailles, KY      2/6/2009       6,300,000               1,459,238              17
 Patapsco Bancorp, Inc.                    Dundalk, MD       12/19/2008       6,000,000               1,226,250              15
 Rising Sun Bancorp                        Rising Sun, MD      1/9/2009       5,983,000               1,385,755              17
                                           Rancho Santa
 CalWest Bancorp                                              1/23/2009       4,656,000                 824,753              13
                                           Margarita, CA
 Pacific Commerce Bank                     Los Angeles, CA   12/23/2008       4,060,000                 695,771              13
                                           Bowling Green,
 Citizens First Corporation                                  12/19/2008       3,265,788
                                           KY
 Lone Star Bank                            Houston, TX         2/6/2009       3,072,000                 799,622              19
                                                                                                          Continued on next page
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       CPP-RELATED DIVIDEND RATE INCREASES, AS OF 12/31/2013                    (CONTINUED)

                                                                                                                          Number
                                                                                                    Value of Missed      of Missed
                                                                   Investment       Outstanding    Dividend/Interest      Dividend
       Institution                              Location                 Date    Capital Amount           Payments       Payments
                                                Garden Grove,
       US Metro Bank                                                 2/6/2009        $2,861,000           $311,840                8
                                                CA
       Goldwater Bank, N.A.                     Scottsdale, AZ      1/30/2009          2,568,000            524,700              15
       Saigon National Bank                     Westminster, CA    12/23/2008          1,549,000            412,993              20
       Centrue Financial Corporation            St. Louis, MO        1/9/2009          1,402,000          6,959,475              18
       Calvert Financial Corporation            Ashland, MO         1/23/2009          1,037,000             56,530               4
       AB&T Financial Corporation               Gastonia, NC        1/23/2009            536,000            481,250              11
       Rate Increases 5/15/2014
       Royal Bancshares of Pennsylvania, Inc.   Narberth, PA        2/20/2009        30,407,000           6,841,575              18
       Central Bancorp, Inc.                    Garland, TX         2/27/2009        22,500,000           3,372,188              11
       Community First Inc.                     Columbia, TN        2/27/2009        17,806,000           2,668,600              11
       Liberty Shares, Inc.                     Hinesville, GA      2/20/2009        17,280,000           3,060,720              13
       Northern States Financial Corporation    Waukegan, IL        2/20/2009        17,211,000           3,657,338              17
       White River Bancshares Company           Fayetteville, AR    2/20/2009        16,800,000           2,746,800              12
       Bank of the Carolinas Corporation        Mocksville, NC      4/17/2009        13,179,000           1,976,850              12
       HCSB Financial Corporation               Loris, SC            3/6/2009        12,895,000           1,934,250              12
       Community First Bancshares, Inc.         Harrison, AR         4/3/2009        12,725,000
       Farmers & Merchants Bancshares, Inc.     Houston, TX          3/6/2009        11,000,000             749,375               5
       Regent Bancorp, Inc.                     Davie, FL            3/6/2009          9,982,000          1,768,033              13
       City National Bancshares Corporation     Newark, NJ          4/10/2009          9,439,000          1,887,800              16
       Provident Community Bancshares, Inc.     Rock Hill, SC       3/13/2009          9,266,000          1,621,550              14
       United American Bank                     San Mateo, CA       2/20/2009          8,700,000          2,245,627              19
       Private Bancorporation, Inc.             Minneapolis, MN     2/27/2009          8,222,000          1,408,615              13
       Highlands Independent Bancshares, Inc.   Sebring, FL          3/6/2009          6,700,000          1,095,450              12
       Capital Commerce Bancorp, Inc.           Milwaukee, WI       4/10/2009          5,100,000            972,825              14
       Georgia Primary Bank                     Atlanta, GA          5/1/2009          4,500,000          1,113,163              18
       Pinnacle Bank Holding Company, Inc.      Orange City, FL      3/6/2009          4,389,000            837,060              14
       Metropolitan Capital Bancorp, Inc.       Chicago, IL         4/10/2009          4,388,000
       Premier Service Bank                     Riverside, CA       2/20/2009          4,000,000            977,972              18
       Allied First Bancorp, Inc.               Oswego, IL          4/24/2009          3,652,000            497,675              10
       Crazy Woman Creek Bancorp, Inc.          Buffalo, WY         2/20/2009          3,100,000
       Marine Bank & Trust Company              Vero Beach, FL       3/6/2009          3,000,000            531,375              13
       St. Johns Bancshares, Inc.               St. Louis, MO       3/13/2009          3,000,000
       Freeport Bancshares, Inc.a               Freeport, IL         5/8/2009          3,000,000
       Prairie Star Bancshares, Inc.            Olathe, KS           4/3/2009          2,800,000            572,250              15
                                                                                                              Continued on next page
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014         161




CPP-RELATED DIVIDEND RATE INCREASES, AS OF 12/31/2013                                                        (CONTINUED)

                                                                                                                                                                         Number
                                                                                                                                                 Value of Missed        of Missed
                                                                                        Investment                Outstanding                   Dividend/Interest        Dividend
Institution                                               Location                            Date             Capital Amount                          Payments         Payments
Citizens Bank & Trust Company                             Covington, LA                  3/20/2009                   $2,400,000                             $163,500           5
CSRA Bank Corp.                                           Wrens, GA                      3/27/2009                     2,400,000                             425,100          13
Market Bancorporation, Inc.                               New Market, MN                 2/20/2009                     2,060,000                             392,945          14
BCB Holding Company, Inc.                                 Theodore, AL                     4/3/2009                    1,706,000                             255,613          11
Maryland Financial Bank                                   Towson, MD                     3/27/2009                     1,700,000                             115,813           5
Kirksville Bancorp, Inc.                                  Kirksville, MO                 3/20/2009                        470,000
Rate Increases 8/15/2014
U.S. Century Bank                                         Miami, FL                        8/7/2009                  50,236,000                            10,951,520         16
Chambers Bancshares, Inc.                  b
                                                          Danville, AR                   5/29/2009                   19,817,000                             1,662,667          4
OneFinancial Corporationc                                 Little Rock, AR                  6/5/2009                  17,300,000                             2,456,997          7
Suburban Illinois Bancorp, Inc.                d
                                                          Elmhurst, IL                   6/19/2009                   15,000,000                             3,460,875         11
Equity Bancshares, Inc. (First
                                                          Wichita, KS                    5/15/2009                   14,800,000
Community Bancshares, Inc)
Great River Holding Companye                              Baxter, MN                     7/17/2009                     8,400,000                            2,290,470         13
Duke Financial Group, Inc.         f
                                                          Minneapolis, MN                6/19/2009                     7,000,000
Chicago Shore Corporation                                 Chicago, IL                    7/31/2009                     7,000,000
Harbor Bankshares Corporation                             Baltimore, MD                  7/17/2009                     6,800,000                            1,190,000         14
Covenant Financial Corporation                            Clarksdale, MS                   6/5/2009                    5,000,000
Community Bancshares, Inc.                                Kingman, AZ                    7/24/2009                     3,872,000
Grand Mountain Bancshares, Inc.                           Granby, CO                     5/29/2009                     3,076,000                             747,950          18
SouthFirst Bancshares, Inc.                               Sylacauga, AL                  6/12/2009                     2,760,000                             300,840           8
Riverside Bancshares, Inc.             g
                                                          Little Rock, AR                5/15/2009                     1,100,000                              46,145           2
Rate Increases 11/15/2014
IA Bancorp, Inc.                                          Iselin, NJ                     9/18/2009                     5,976,000                             393,638           5
Grand Financial Corporationh                              Hattiesburg, MS                9/25/2009                     2,443,320
Rate Increases 2/15/2015
Liberty Bancshares, Inc.                                  Fort Worth, TX                 12/4/2009                     6,500,000
Wachusett Financial Services, Inc.                        Clinton, MA                  12/11/2009                      5,000,000
Atlantic Bancshares, Inc.                                 Bluffton, SC                 12/29/2009                      2,000,000                             299,255          11
Notes: Numbers may not total due to rounding.
a
  Freeport Bancshares, Inc. is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (5/8/2009).
b
  Chambers Bancshares, Inc. is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (5/29/2009).
c
  OneFinancial Corporation is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (6/5/2009).
d
  Suburban Illinois Bancorp, Inc. is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (6/19/2009).
e
  Great River Holding Company is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (7/17/2009).
f
  Duke Financial Group, Inc. is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (6/19/2009).
g
  Riverside Bancshares, Inc. is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (5/15/2009).
h
  Grand Financial Corporation is an S-Corporation, so its dividend rate increases on the five-year anniversary of Treasury’s investment (9/25/2009).
162              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                               Status of Funds
                                                               As of December 31, 2013, 118 of the 707 institutions remained in CPP; in 32 of
                                                               them, Treasury holds only warrants to purchase stock. Treasury does not consider
                                                               these 32 institutions to be in TARP, however Treasury applies all proceeds from
                                                               the sale of warrants in these banks to recovery amounts in TARP’s CPP program.
                                                               As of December 31, 2013, 86 of the 118 institutions had outstanding principal
                                                               investments. Taxpayers were still owed $6.8 billion.396 According to Treasury, it
                                                               had write-offs, realized losses, and investments currently not collectible as a result
                                                               of bankruptcy of $4.7 billion in the program, leaving $2.1 billion in TARP funds
                                                               outstanding. Included as investments currently not collectible are those in 25 CPP
                                                               banks, or their subsidiary banks, with total CPP investments of $782.5 million that
                                                               are in the process of bankruptcy. While Treasury has not yet realized those losses,
                                                               it expects that all of its investments in the banks will be lost.397 As of December
                                                               31, 2013, $195.9 billion of the CPP principal (or 96%) had been repaid.398 The
                                                               repayment tally includes $363.3 million in preferred stock that was converted
                                                               from CPP investments into CDCI and therefore still represents outstanding
                                                               obligations to TARP. Additionally, $2.2 billion was refinanced in 2011 into SBLF,
                                                               a non-TARP Government program.399 As of December 31, 2013, Treasury had
                                                               received approximately $12 billion in interest and dividends from CPP recipients.
                                                               Treasury also had received $7.9 billion through the sale of CPP warrants that were
      FIGURE 2.40                                              obtained from TARP recipients.400 For a complete list of CPP share repurchases,
      STATUS OF CPP RECIPIENTS,                                see Appendix D: “Transaction Detail.”
      AS OF 12/31/2013                                             Of the 707 banks that received CPP investments, 621 banks no longer have
                              2%                               outstanding principal investments in CPP. Nearly a quarter of the 707 banks, or
                                                               165, refinanced into other government programs — 28 of them into TARP’s CDCI
                   21%                                         and 137 into the Small Business Lending Fund (“SBLF”), a non-TARP program.401
       1%                           34%
                                                               Only 237 of the 707 banks, or 34%, fully repaid CPP principal otherwise.402 Of the
       4%
       4%
                                                               other banks that no longer have outstanding principal investments, four CPP banks
       4%                                                      merged with other CPP banks; Treasury sold its investments in 25 banks for less
                     19%         12%
                                                               than par and sold at auction its investments in 162 banks and part of its investment
                                                               in an additional bank (all but 11 of these investments sold at a loss); and 28
          Fully Repaid Principal (237)
                                                               institutions or their subsidiary banks failed, meaning Treasury has lost or expects to
          Remaining Principal Investment in CPP (86)
          Refinanced into SBLF (137)
                                                               lose its entire investment in those banks.403 Figure 2.40 shows the status of the 707
          Refinanced into CDCI (28)                            CPP recipients as of December 31, 2013.
          Sold for less than par (25)                              Although the 10 largest investments accounted for $142.6 billion of the
          Failed/subsidiary failed (28)                        program, CPP made many smaller investments: 311 of the 707 recipients received
          Merged (4)
                                                               less than $10 million.404 None of the banks that received investments greater
          Auction: Sold at loss (151)
          Auction: Sold at profit (11)
                                                               than $1 billion remain in CPP. All but two of the recipients with remaining
                                                               principal investments have outstanding investments of less than $100 million,
      Note: 32 banks repaid CPP principal but remain in TARP
      with Treasury holding only warrants.                     with more than half of the banks with remaining principal investments, or 63%,
      Source: Treasury, response to SIGTARP data call,         having outstanding investments of less than $10 million.405 Table 2.24 shows the
      1/8/2014.                                                distribution of investments by amount.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   163




TABLE 2.24
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 12/31/2013
                                                                                               Principal                Outstanding
                                                                                 
                                                                                            Investmenta                   Principalb
 $10 billion or more                                                                                        6                           0
 $1 billion to $10 billion                                                                                19                            0
 $100 million to $1 billion                                                                               57                            2
 $10 million to $100 million                                                                            314                           30
 Less than $10 million                                                                                  311                           54
 Total                                                                                                  707                           86
 Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
 transactions through CPP.
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.
 b
    Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
     CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
     protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
     banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
     investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 32 institutions that have
     repaid their CPP principal but still have warrants outstanding.

 Source: Treasury, response to SIGTARP data call, 1/8/2014.


    As of December 31, 2013, of the 86 banks with remaining principal
investments in CPP, 24 were in the Southeast region, 18 were in the Midwest
region, 14 were in the Mid-Atlantic/Northeast region, 13 were in the Southwest/
South Central region, 9 were in the West region, and 8 were in the Mountain
West/Plains region. The Southeast region and the Mid-Atlantic/Northeast region
had the largest total remaining CPP investments; $1.5 billion and $228.5 million,
respectively. These regions were followed in remaining CPP investments by the
Midwest region ($131.5 million), the Southwest/South Central region ($145.7
million), the Mountain West/Plains region ($71.4 million), and the West region
($58.1 million). Table 2.25 and Figure 2.41 show the geographical distribution of
the banks that remain in CPP as of December 31, 2013, by region. Tables 2.26–
2.31 show the distribution by state.
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                      TABLE 2.25
                                       BANKS WITH CPP PRINCIPAL REMAINING, BY REGION, AS OF 12/31/2013
                                                                                                                                 Number of Banks
                                                                          Banks with                       Principal                   with Missed            Value of Missed
                                                                          Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                                                           Principal                      Remaining                     Payments                    Payments
                                       West                                               9             $58,116,000                                      8          $8,222,181
                                       Mountain West/Plains                               8              71,408,000                                      4           4,865,425
                                       Southwest/South Central                           13             145,692,000                                    10           16,779,233
                                       Midwest                                           18             131,507,788                                    11           25,093,486
                                       Mid-Atlantic/Northeast                            14             228,490,000                                    10           23,092,794
                                       Southeast                                         24        1,458,840,602                                       18           33,302,379
                                       Total                                         86       $2,094,054,390                                           61         $111,355,498



                                      FIGURE 2.41
                                      AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
                                      AS OF 12/31/2013

                                          AK
                                                                          MOUNTAIN WEST/
                                                                              PLAINS
                                                                            $71 MILLION                                     MIDWEST                       MID-ATLANTIC/
                                                              WA                                                          $132 MILLION                     NORTHEAST
                                                                               MT                                                                   VT ME $228 MILLION
                                                                                              ND
                                                         OR                                              MN                                                 NH
                                                                                                                     WI                           NY
                                          WEST                       ID                       SD                                                             MA
                                                                                                                             MI
                                       $58 MILLION
                                                                               WY
                                                                                                           IA                                              CT RI
                                                                                                                                  OH         PA           NJ
                                                                                              NE
                                                                NV                                                    IL    IN                          DE
                                                         CA               UT                                                               WV VA
                                                                                    CO                     MO                                          MD
                                                                                                   KS                            KY
                                                                                                                                            NC
                                                                                                                            TN
                                                 HI                  AZ                             OK        AR                            SC
                                                                                    NM
                                                                                                                          MS AL       GA           SOUTHEAST
                                                                                               TX               LA                                 $1.5 BILLION

                                                                                                                                            FL                 PR
                                                                      SOUTHWEST/
                                                                     SOUTH CENTRAL
                                                                      $146 MILLION

                                                      WEST                                                           MIDWEST
                                                      MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                                                      SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
                                                                                    QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   165




West
TABLE 2.26
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                            Number of Banks
                                                               Banks with       Principal         with Missed  Value of Missed
                                       WA                      Remaining      Investment    Dividend/Interest Dividend/Interest
                                                                Principal      Remaining           Payments          Payments
          AK
                                  OR                   AK              0              $0                   0                $0
                                                       CA              9     58,116,000                    8         8,222,181
                                                       HI              0               0                   0                  0
                                                       OR              0               0                   0                  0
                                  CA                   WA              0               0                   0                  0
                                                       Total           9    $58,116,000                    8       $8,222,181
                   HI

    WEST                          >$100 million
    Principal investment          $21-$100 million
    remaining in CPP banks        $1-$20 million
                                  $0




Mountain West/Plains
TABLE 2.27
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                            Number of Banks
                                                               Banks with       Principal         with Missed  Value of Missed
                                                               Remaining      Investment    Dividend/Interest Dividend/Interest
                        MT             ND                       Principal      Remaining           Payments          Payments
                                                       CO              2    $15,715,000                    1          $747,950
             ID                        SD
                         WY                            ID              2     14,900,000                    2         3,545,225

                                       NE              KS              2     17,600,000                    1           572,250
     NV
                  UT                                   MT              0               0                   0                  0
                             CO
                                            KS         ND              1     20,093,000                    0                  0
                                                       NE              0               0                   0                  0
 MOUNTAIN WEST/                     >$100 million      NV              0               0                   0                  0
                                    $21-$100 million
 PLAINS                             $1-$20 million     SD              0               0                   0                  0
 Principal investment
                                    $0
 remaining in CPP banks                                UT              0               0                   0                  0
                                                       WY              1       3,100,000                   0                  0
                                                       Total           8    $71,408,000                    4       $4,865,425
166   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Southwest/South Central
        TABLE 2.28
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                                           Number of Banks
                                                                             Banks with        Principal         with Missed  Value of Missed
                                                                             Remaining       Investment    Dividend/Interest Dividend/Interest
              AZ                                 OK                           Principal       Remaining           Payments          Payments
                          NM                              AR
                                                                     AR              5     $67,742,000                    4        $6,912,609
                                                          LA         AZ              2        6,440,000                   1           524,700
                                            TX
                                                                     LA              1        2,400,000                   1           163,500
                                                                     NM              0                0                   0                 0
                                                                     OK              0                0                   0                 0
            SOUTHWEST/                            >$100 million      TX              5      69,110,000                    4         9,178,424
                                                  $21-$100 million
            SOUTH CENTRAL                         $1-$20 million     Total          13    $145,692,000                   10      $16,779,233
            Principal investment                  $0
            remaining in CPP banks




        Midwest
        TABLE 2.29
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                                           Number of Banks
                                                                             Banks with        Principal         with Missed  Value of Missed
                                                                             Remaining       Investment    Dividend/Interest Dividend/Interest
                   MN                                                         Principal       Remaining           Payments          Payments
                             WI                                      IA              0               $0                   0                $0
                                        MI
                     IA                                              IL              6      50,251,000                    3         7,615,888

                                  IL   IN    OH                      IN              0                0                   0                 0
                        MO                                           KY              3      44,565,788                    2         5,396,738
                                            KY
                                                                     MI              0                0                   0                 0
                                                                     MN              4      25,682,000                    3         4,092,030
              MIDWEST                        >$100 million
              Principal investment           $21-$100 million        MO              4        5,909,000                   2         7,016,005
              remaining in CPP               $1-$20 million
              banks                          $0                      OH              0                0                   0                 0
                                                                     WI              1        5,100,000                   1           972,825
                                                                     Total          18    $131,507,788                   11      $25,093,486
                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   167




Mid-Atlantic/Northeast
TABLE 2.30
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                                    Number of Banks
                                                                    Banks with          Principal         with Missed  Value of Missed
                            VT    ME                                Remaining         Investment    Dividend/Interest Dividend/Interest
                                                                     Principal         Remaining           Payments          Payments
                                       NH                   CT              0                 $0                   0                $0
                       NY               MA
                                             RI             DE              0                  0                   0                  0
                                    CT
                  PA                NJ                      MA              2        17,063,000                    1         2,864,963
                                  DE
        WV VA                    MD                         MD              6        62,043,000                    6        11,104,818
        WV
                                                            ME              0                  0                   0                  0
                                                            NH              0                  0                   0                  0
   MID-ATLANTIC/                         >$100 million      NJ              2        15,415,000                    2         2,281,438
                                         $21-$100 million
   NORTHEAST                             $1-$20 million     NY              0                  0                   0                  0
   Principal investment                  $0
   remaining in CPP banks                                   PA              2        42,942,000                    1         6,841,575
                                                            RI              0                  0                   0                  0
                                                            VA              2        91,027,000                    0                  0
                                                            VT              0                  0                   0                  0
                                                            WV              0                  0                   0                  0
                                                            Total          14     $228,490,000                    10      $23,092,794




Southeast
TABLE 2.31
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 12/31/2013
                                                                                                    Number of Banks
                                                                    Banks with          Principal         with Missed  Value of Missed
                                 NC                                 Remaining         Investment    Dividend/Interest Dividend/Interest
             TN
                             SC                                      Principal         Remaining           Payments          Payments

      MS               GA                                   AL              2        $4,466,000                    2          $556,453
             AL
                                             PR             FL              5        74,307,000                    5        15,183,438
                                                            GA              3        24,180,000                    3         4,598,983
                                 FL
                                                            MS              2          7,443,320                   0                  0
                                                            NC              4       108,064,000                    2         2,458,100
     SOUTHEAST                         >$100 million
                                                            PR              2      1,173,972,282                   0                  0
     Principal investment              $21-$100 million
     remaining in CPP                  $1-20 million        SC              5        48,602,000                    5         7,836,805
     banks                             $0
                                                            TN              1        17,806,000                    1         2,668,600
                                                            Total          24    $1,458,840,602                   18      $33,302,379
168               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 TABLE 2.32                                                         Program Administration
  MISSED DIVIDEND/INTEREST                                          Although Treasury’s investment authority for CPP has ended, Treasury still has
  PAYMENTS BY INSTITUTIONS,                                         significant responsibilities for managing the existing CPP portfolio, including the
  9/30/2009 TO 12/31/2013                                           following:
  ($ MILLIONS)

                                                Value of
  Quarter               Number of                Unpaid             •	 collecting dividends and interest payments on outstanding investments
  End                   Institutions          Amountsa,b,c          •	 monitoring the performance of outstanding investments
  9/30/2009                           38                $75.7       •	 disposing of warrants as investments are repaid
  12/31/2009                          43                137.4       •	 selling or restructuring Treasury’s investments in some troubled financial
  3/31/2010                           67                182.0          institutions
  6/30/2010       d
                                    109                 209.7       •	 selecting observers for recipients that have missed five quarterly dividend
  9/30/2010                         137                 211.3
                                                                       payments
                                                                    •	 selecting directors for recipients that have missed six or more quarterly dividend
  12/31/2010                        155                 276.4
                                                                       payments
  3/31/2011                         173                 277.3
  6/30/2011                         188                 320.8
                                                                    Dividends and Interest
  9/30/2011                         193                 356.9       As of December 31, 2013, Treasury had received $12 billion in dividends on
  12/31/2011                        197                 377.0       its CPP investments.406 However, as of that date, missed dividend and interest
  3/31/2012                         200                 416.0       payments by 183 institutions, including banks with missed payments that no
  6/30/2012                         203                 455.0       longer have outstanding CPP principal investments, totaled approximately $506.9
  9/30/2012                         199                 480.1       million, an increase from last quarter’s $501.8 million in missed payments from
  12/31/2012                        195                 506.2       184 institutions. Approximately $30.3 million of the unpaid amounts are non-
  3/31/2013                         192                 529.0
                                                                    cumulative, meaning that the institution has no legal obligation to pay Treasury
                                                                    unless the institution declares a dividend.407
  6/30/2013                         188                 494.9
                                                                        More than two-thirds, or 61 of the 86 banks that had remaining CPP principal
  9/30/2013                         184                 501.8
                                                                    investments as of December 31, 2013, were not current on their dividend and
  12/31/2013                        183                 506.9
                                                                    interest payments to Treasury.408 The 61 banks were behind by as many as 20
  Notes:
  a
    Includes unpaid cumulative dividends, non-cumulative           payments and in total were overdue in payments to Treasury of $111.4 million.409
     dividends, and Subchapter S interest payments but
     does not include interest accrued on unpaid cumulative
                                                                    As of December 31, 2013, 60 of the 86 banks with remaining principal investments
  b
     dividends.
       Excludes institutions that missed payments but (i) had
                                                                    were overdue by at least three payments, including 54 banks that were overdue by
        fully caught up on missed payments at the end of the        at least six payments.410 Of the banks with remaining principal investments that are
        quarter reported in column 1 or (ii) had repaid their
        investment amounts.                                         not current on payments, 43 have unpaid dividend and interest payments that are
  c
     Includes institutions that missed payments and (i)
      entered into a recapitalization or restructuring with         cumulative, and 13 have unpaid dividend payments that are non-cumulative.
      Treasury, (ii) for which Treasury sold the CPP investment
      to a third party or otherwise disposed of the investment          Table 2.32 shows the number of institutions and total unpaid amount of
      to facilitate the sale of the institution to a third party    dividend and interest payments by quarter from September 30, 2009, to December
      without receiving full repayment of unpaid dividends,
      (iii) filed for bankruptcy relief, or (iv) had a subsidiary   31, 2013. Tables 2.26–2.31 show the distribution of missed payments and value of
      bank fail.
  d
      Includes four institutions and their missed payments         those payments by state.
       not reported in Treasury’s Capital Purchase Program
       Missed Dividends and Interest Payments Report as of
       6/30/2010 but reported in Treasury’s Dividends and
       Interest Report as of the same date. The four institutions   Treasury’s Policy on Missed Dividend and Interest Payments
       are CIT, Pacific Coast National Bancorp, UCBH Holdings,
       Inc., and Midwest Banc Holdings, Inc.
                                                                    According to Treasury, it “evaluates its CPP investments on an ongoing basis with
                                                                    the help of outside advisors, including external asset managers. The external asset
  Sources: Treasury, Dividends and Interest Report,
  1/10/2014; Treasury, responses to SIGTARP data calls,             managers provide a valuation for each CPP investment” that results in Treasury
  10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
  10/11/2011, 1/5/2012, 4/5/2012, 7/10/2012,                        assigning the institution a credit score.411 For those that have unfavorable credit
  10/10/2012, 1/10/2013, 4/4/2013, 7/5/2013,
  10/7/2013, 1/8/2014; SIGTARP Quarterly Report to                  scores, including any institution that has missed more than three dividend (or
  Congress, 1/30/2010, 4/20/2010, 7/21/2010, and
  10/26/2010.
                                                                    interest) payments, Treasury has stated that the “asset manager dedicates more
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           169




resources to monitoring the institution and may talk to the institution on a more
frequent basis.”412
    Under the terms of the preferred shares or subordinated debentures held by
Treasury as a result of its CPP investments, in certain circumstances, such as when
a participant misses six dividend (or interest) payments, Treasury has the right to
appoint up to two additional members to the institution’s board of directors.413
These directors will not represent Treasury, but rather will have the same fiduciary
duties to shareholders as all other directors. They will be compensated by the
institution in a manner similar to other directors.414
    According to Treasury officials, in light of their recently announced strategy
to exit their CPP investments, Treasury is no longer pursuing efforts to exercise
its contractual rights to put directors on the board of CPP institutions that have           On September 30, 2013, SIGTARP
missed six or more dividend payments.415 Treasury has decided not to pursue its              made three recommendations regarding
contractual rights even though as of December 31, 2013, of the 86 institutions               appointments of directors to the boards
with remaining principal investments, 54 CPP institutions have missed at least six           of CPP and CDCI banks, which are
payments.416 As of December 31, 2013, Treasury had made director appointments                discussed in Section 5 of this report.
to the boards of directors of 15 CPP banks, as noted in Table 2.34.417 Most of those
banks no longer have remaining CPP principal investments. Just three of the 86
banks with remaining principal investments have Treasury-appointed directors.
Treasury has not made a director appointment since December 14, 2012.418
    For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.419 As of December 31, 2013, of the 86 CPP banks
with remaining principal investments, 58 had missed at least five payments.420
According to Treasury, the observers would be selected from its Office of Financial
Stability (“OFS”) and assigned to “gain a better understanding of the institution’s
condition and challenges and to observe how the board is addressing the
situation.”421 Their participation would be “limited to inquiring about distributed
materials, presentations, and actions proposed or taken during the meetings, as
well as addressing any questions concerning” their role.422 The findings of the
observers are taken into account when Treasury evaluates whether to appoint
individuals to an institution’s board of directors.423 As of December 31, 2013,
Treasury had assigned observers to 24 current CPP recipients, as noted in Table
2.34.424
    Twelve banks have rejected Treasury’s requests to send an observer to the
institutions’ board meetings.425 The banks had initial CPP investments of as much
as $27 million, have missed as many as 20 quarterly dividend payments to Treasury,
and have been overdue in dividend payments by as much as $4.1 million.426 Five of
these banks have since been sold at a loss to Treasury at auction.427 Five of these
banks have remaining CPP principal investments, three of which continue to
have missed payments.428 At 20 missed dividend payments, Saigon National Bank,
Westminster, California, which has never made a dividend payment, has more
missed payments than any TARP bank, yet rejected Treasury’s request to send an
observer to its board meetings.429 Table 2.33 lists the banks that rejected Treasury
observers.
170                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                 Seven of the 707 banks that received CPP investments have never made a
                                                                            single dividend payment to Treasury since receiving CPP investments. Of these
                                                                            seven banks, five have remaining CPP principal investments and two have exited
                                                                            TARP as a result of bankruptcy. Midwest Banc Holdings, Inc., Melrose Park,
                                                                            Illinois, and One Georgia Bank, Atlanta, Georgia, both exited CPP by bankruptcy.
                                                                            The five remaining banks that have never made a dividend payment are: Saigon
                                                                            National Bank, Westminster, California (20 missed payments); Lone Star Bank,
                                                                            Houston, Texas (19); United American Bank, San Mateo, California (19); Georgia
                                                                            Primary Bank, Atlanta, Georgia (18); and Grand Mountain Bankshares, Granby,
                                                                            Colorado (18).
      TABLE 2.33
       CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                         CPP Principal                 Number of                 Value of Missed            Date of Treasury                           Date
       Institution                                                         Investment            Missed Payments                       Payments                      Request                    of Rejection
       Intermountain Community Bancorp                                     $27,000,000                                —a                           $—                3/11/2011                    4/12/2011
       Community Bankers Trust Corporation                                   17,680,000                               —b                             —             10/18/2011                    11/23/2011
       White River Bancshares Company                                        16,800,000                                12                2,746,800                   3/28/2012                    4/27/2012
       Timberland Bancorp, Inc.c                                             16,641,000                               —d                             —               6/27/2011                    8/18/2011
       Alliance Financial Services Inc.         c
                                                                             12,000,000                               12   e
                                                                                                                                         3,020,400                   3/10/2011                      5/6/2011
       Central Virginia Bankshares, Inc.f                                    11,385,000                               15g                2,134,688                     3/9/2011                   5/18/2012
       Commonwealth Business Bankc                                             7,701,000                              10h                1,049,250                   8/13/2010                    9/20/2010
       Pacific International Bancorp        i
                                                                               6,500,000                               —   j
                                                                                                                                                     —               9/23/2010                   11/17/2010
       Rising Sun Bancorp                                                      5,983,000                               17                1,385,755                   12/3/2010                    2/28/2011
       Omega Capital Corp.        c
                                                                               2,816,000                              15   k
                                                                                                                                            575,588                  12/3/2010                    1/13/2011
       Citizens Bank & Trust Company                                           2,400,000                                 5                  163,500                  9/23/2010                   11/17/2010
       Saigon National Bank                                                    1,549,000                               20                   412,993                  8/13/2010                    9/20/2010
       Notes: Numbers may not total due to rounding.
       a
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed payments totaling
           $4.1 million.
       b
           Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
       c
           Bank was sold at a loss at auction.
       d
           Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
       e
           Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
       f
          Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
       g
            Central Virginia Bankshares, Inc. was sold to C&F Financial Corporation and its missed payments to Treasury were not repaid.
       h
          Commonwealth Business Bank was sold at a loss at auction and its missed payments to Treasury were not repaid.
       i
         Bank has exited the Capital Purchase Program.
       j
         Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments totaling $0.8
          million.
       k
          Omega Capital Corp. was sold at a loss at auction and its missed payments to Treasury were not repaid.

       Source: Treasury, Dividends and Interest Report, 1/10/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   171




    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes
institutions from its “non-current” reporting: (i) that have completed a
recapitalization, restructuring, or exchange with Treasury (though Treasury does
report such institutions as non-current during the pendency of negotiations); (ii)
for which Treasury sold the CPP investment to a third party, or otherwise disposed
of the investment to facilitate the sale of the institution to a third party; (iii) that
filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.430 SIGTARP
generally includes such activity in Table 2.34 under “Value of Unpaid Amounts”
with the value set as of the date of the bankruptcy, restructuring, or other event
that relieves the institution of the legal obligation to continue to make dividend
and interest payments. If a completed transaction resulted in payment to Treasury
for all unpaid dividends and interest, SIGTARP does not include the institution’s
obligations under unpaid amounts. As of December 31, 2013, for all CPP banks,
including those that were missing payments when they exited, 95 banks had missed
at least 10 dividend (or interest) payments and 143 banks had missed five dividend
(or interest) payments totaling $419.3 million.431 Table 2.34 lists CPP recipients
that had unpaid dividend (or interest) payments as of December 31, 2013. For
a complete list of CPP recipients and institutions making dividend or interest
payments, see Appendix D: “Transaction Detail.”
172             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.34
       CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013
                                                                                         Observers
                                                                                           Assigned
                                                                             Number     to Board or
                                                Dividend or                 of Missed     Directors   Value of Missed        Value of Unpaid
       Company                                  Payment Type                Payments     Appointed1        Payments2             Amounts2,3,4
       Saigon National Bank                     Non-Cumulative                    20                        $412,993                $412,993
       Lone Star Bank                           Non-Cumulative                    19        ✓                799,622                 799,622
       OneFinancial Corporation*,**             Interest                          19                       2,864,963               2,864,963
       United American Bank                     Non-Cumulative                    19                       2,245,627               2,245,627
       Centrue Financial Corporation            Cumulative                        18        n              6,959,475               6,959,475
       Georgia Primary Bank                     Non-Cumulative                    18        ✓              1,113,163               1,113,163
       Grand Mountain Bancshares, Inc.          Cumulative                        18        ✓                747,950                 747,950
       Idaho Bancorp                            Cumulative                        18        ✓              1,692,225               1,692,225
       Premier Service Bank                     Non-Cumulative                    18        ✓                977,972                 977,972
       Royal Bancshares of Pennsylvania, Inc.   Cumulative                        18        n              6,841,575               6,841,575
       Citizens Commerce Bancshares, Inc.       Cumulative                        17                       1,459,238               1,459,238
       Northern States Financial Corporation    Cumulative                        17        n              3,657,338               3,657,338
       Rising Sun Bancorp                       Cumulative                        17                       1,385,755               1,385,755
       Syringa Bancorp                          Cumulative                        17        ✓              1,853,000               1,853,000
       Cecil Bancorp, Inc.                      Cumulative                        16        ✓              2,312,000               2,312,000
       City National Bancshares Corporation     Cumulative                        16                       1,887,800               1,887,800
       U.S. Century Bank                        Non-Cumulative                    16        ✓             10,951,520              10,951,520
       Goldwater Bank, N.A.   **
                                                Non-Cumulative                    15                         524,700                 524,700
       Patapsco Bancorp, Inc.                   Cumulative                        15                       1,226,250               1,226,250
       Prairie Star Bancshares, Inc.            Cumulative                        15                         572,250                 572,250
       Capital Commerce Bancorp, Inc.           Cumulative                        14                         972,825                 972,825
       Harbor Bankshares Corporation    **
                                                Cumulative                        14                       1,360,000               1,190,000
       Market Bancorporation, Inc.              Cumulative                        14                         392,945                 392,945
       Pinnacle Bank Holding Company            Cumulative                        14                         837,060                 837,060
       Provident Community Bancshares, Inc.     Cumulative                        14                       1,621,550               1,621,550
       Western Community Bancshares, Inc.       Cumulative                        14                       1,390,725               1,390,725
       CalWest Bancorp                          Cumulative                        13                         824,753                 824,753
       CSRA Bank Corp.                          Cumulative                        13                         425,100                 425,100
       First United Corporation                 Cumulative                        13        ✓              4,875,000               4,875,000
       Great River Holding Company*,**          Interest                          13                       2,290,470               2,290,470
       Liberty Shares, Inc.                     Cumulative                        13        ✓              3,060,720               3,060,720
       Marine Bank & Trust Company              Non-Cumulative                    13                         531,375                 531,375
       Pacific Commerce Bank       **
                                                Non-Cumulative                    13                         751,089                 695,771
       Private Bancorporation, Inc.             Cumulative                        13                       1,408,615               1,408,615
       Regent Bancorp, Inc**                    Cumulative                        13                       1,768,033               1,768,033
       Tidelands Bancshares, Inc                Cumulative                        13                       2,347,800               2,347,800
                                                                                                                        Continued on next page
                                                                                    QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              173




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013                           (CONTINUED)

                                                                                 Observers
                                                                                   Assigned
                                                                     Number     to Board or
                                                   Dividend or      of Missed     Directors         Value of Missed          Value of Unpaid
Company                                            Payment Type     Payments     Appointed1              Payments2               Amounts2,3,4
Bank of the Carolinas Corporation                  Cumulative             12        ✓                   $1,976,850                $1,976,850
Greer Bancshares Incorporated                      Cumulative             12                                1,633,950              1,633,950
HCSB Financial Corporation                         Cumulative             12        ✓                       1,934,250              1,934,250
Highlands Independent Bancshares,
                                                   Cumulative             12                                1,095,450              1,095,450
Inc.
Patriot Bancshares, Inc.                           Cumulative             12        ✓                       4,257,240              4,257,240
White River Bancshares Company                     Cumulative             12                                2,746,800              2,746,800
AB&T Financial Corporation                         Cumulative             11                                 481,250                  481,250
Atlantic Bancshares, Inc.                          Cumulative             11                                 299,255                  299,255
BCB Holding Company, Inc.                          Cumulative             11                                 255,613                  255,613
Central Bancorp, Inc.                              Cumulative             11        ✓                       3,372,188              3,372,188
Community First, Inc.                              Cumulative             11        ✓                       2,668,600              2,668,600
Suburban Illinois Bancorp, Inc.         *,**
                                                   Interest               11        ✓                       3,460,875              3,460,875
Allied First Bancorp, Inc.                         Cumulative             10                                 497,675                  497,675
NCAL Bancorp                                       Cumulative             10        ✓                       1,362,500              1,362,500
Porter Bancorp, Inc.                               Cumulative              9        ✓                       3,937,500              3,937,500
SouthFirst Bancshares, Inc.                        Cumulative              8                                 300,840                  300,840
US Metro Bank**                                    Non-Cumulative          8                                 311,840                  311,840
OneUnited Bank                                     Non-Cumulative          7        ✓                       2,456,997              2,456,997
Citizens Bank & Trust Company                      Non-Cumulative          5                                 163,500                  163,500
Farmers & Merchants Bancshares,
                                                   Cumulative              5                                 899,250                  749,375
Inc.**
IA Bancorp, Inc.**                                 Cumulative              5                                 472,365                  393,638
Maryland Financial Bank                            Non-Cumulative          5                                 115,813                  115,813
Calvert Financial Corporation                      Cumulative              4                                  56,530                   56,530
Chambers Bancshares, Inc.        *,**
                                                   Interest                4                                1,662,667              1,662,667
Riverside Bancshares, Inc.*,**                     Interest                2                                  46,145                   46,145
Exchanges, Sales,
Recapitalizations, and Failed                                                                                                                
Banks with Missing Payments
Blue Valley Ban Corp*****                          Cumulative             18        n                       4,893,750              4,893,750
Pacific City Financial Corporation         *****
                                                   Cumulative             18                                3,973,050              3,973,050
Anchor BanCorp Wisconsin, Inc.****                 Cumulative             17        n                   23,604,167                23,604,167
First Banks, Inc.*****                             Cumulative             17        n                   64,543,063                64,543,063
Central Virginia Bankshares, Inc. *****            Cumulative             15                                2,134,688              2,134,688
Omega Capital Corp.      *****
                                                   Cumulative             15                                 575,588                  575,588
Rogers Bancshares, Inc.****                        Cumulative             15        n                       5,109,375              5,109,375
Pathway Bancorp*****                               Cumulative             15                                 761,588                  761,588
                                                                                                                        Continued on next page
174             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013                               (CONTINUED)

                                                                                           Observers
                                                                                             Assigned
                                                                               Number     to Board or
                                                             Dividend or      of Missed     Directors         Value of Missed          Value of Unpaid
      Company                                                Payment Type     Payments     Appointed1              Payments2               Amounts2,3,4
      Bridgeview Bancorp, Inc.*****                          Cumulative             15        n                   $7,766,250                $7,766,250
      Madison Financial Corporation          *****
                                                             Cumulative             15                                 688,913                 688,913
      Midtown Bank & Trust Company**,*****                   Non-Cumulative         15                                1,067,213              1,067,213
      TCB Holding Company****                                Cumulative             15        ✓                       2,397,488              2,397,488
      1st FS Corporation*****                                Cumulative             14        ✓                       2,864,575              2,864,575
      Dickinson Financial Corporation II           *****
                                                             Cumulative             14                            27,859,720                27,859,720
      FC Holdings, Inc.*****                                 Cumulative             14                                4,013,730              4,013,730
      Ridgestone Financial Services, Inc.            *****
                                                             Cumulative             14                                2,079,175              2,079,175
      Intervest Bancshares Corporation*****                  Cumulative             14        n                       4,375,000              4,375,000
      Fidelity Federal Bancorp    *****
                                                             Cumulative             14                                1,229,924              1,229,924
      Premierwest Bancorp      *****
                                                             Cumulative             14        n                       7,245,000              7,245,000
      First Southwest Bancorporation,
                                                             Cumulative             13                                 974,188                 974,188
      Inc.*****
      Tennessee Valley Financial Holdings,
                                                             Cumulative             13                                 531,375                 531,375
      Inc.*****
      First Sound Bank*****                                  Non-Cumulative         13                                1,202,500              1,202,500
      Stonebridge Financial Corp.         *****
                                                             Cumulative             12        ✓                       1,794,180              1,794,180
      Premier Financial Corp*,**,*****                       Interest               12                                1,597,857              1,597,857
      Citizens Bancshares Co. (MO)          ****
                                                             Cumulative             12        n                       4,086,000              4,086,000
      Northwest Bancorporation, Inc.*****                    Cumulative             12                                1,716,750              1,716,750
      Plumas Bancorp*****                                    Cumulative             12        ✓                       1,792,350              1,792,350
      Gold Canyon Bank****                                   Non-Cumulative         12                                 254,010                 254,010
      Santa Clara Valley Bank, N.A.        *****
                                                             Non-Cumulative         12                                 474,150                 474,150
      Spirit BankCorp, Inc. *****
                                                             Cumulative             12        ✓                       4,905,000              4,905,000
      Alliance Financial Services, Inc.*,*****               Interest               12                                3,020,400              3,020,400
      First Trust Corporation   *,*****
                                                             Interest               12        n                       4,522,611              4,522,611
      Eastern Virginia Bankshares, Inc.*****                 Cumulative             11        ✓                       3,300,000              3,300,000
      The Queensborough Company              *****
                                                             Cumulative             11                                1,798,500              1,798,500
      Boscobel Bancorp, Inc*,*****                           Interest               11                                1,288,716              1,288,716
      Investors Financial Corporation of
                                                             Interest               11                                 922,900                 922,900
      Pettis County, Inc.*
      Florida Bank Group, Inc.*****                          Cumulative             11        ✓                       3,068,203              3,068,203
      Reliance Bancshares, Inc.*****                         Cumulative             11        ✓                       5,995,000              5,995,000
      Village Bank and Trust Financial
                                                             Cumulative             11        ✓                       2,026,475              2,026,475
      Corp. *****
      First Financial Service Corporation*****               Cumulative             10        ✓                       2,500,000              2,500,000
      Old Second Bancorp, Inc.*****                          Cumulative             10        n                       9,125,000              9,125,000
                                                                                                                                  Continued on next page
                                                                                    QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              175




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013                           (CONTINUED)

                                                                                 Observers
                                                                                   Assigned
                                                                     Number     to Board or
                                                   Dividend or      of Missed     Directors         Value of Missed          Value of Unpaid
Company                                            Payment Type     Payments     Appointed1              Payments2               Amounts2,3,4
Security State Bank Holding-
                                                   Interest               10        ✓                   $2,931,481                $2,931,481
Company*,**,*****
Bank of George*****                                Non-Cumulative         10                                 364,150                  364,150
Valley Community Bank      *****
                                                   Non-Cumulative         10                                 749,375                  749,375
Commonwealth Business Bank*****                    Non-Cumulative         10                                1,049,250              1,049,250
Gregg Bancshares, Inc.****                         Cumulative              9                                 101,115                  101,115
Metropolitan Bank Group, Inc. / NC
                                                   Cumulative              9        ✓                   12,716,368                 9,511,543
Bancorp, Inc.***
National Bancshares, Inc.*****                     Cumulative              9                                3,024,383              3,024,383
SouthCrest Financial Group, Inc.           *****
                                                   Cumulative              9                                1,581,863              1,581,863
Citizens Bancorp****                               Cumulative              9                                1,275,300              1,275,300
Community Pride Bank
                                                   Interest                9                                 803,286                  803,286
Corporation*,**,*****
Premier Bank Holding Company****                   Cumulative              9                                1,164,938              1,164,938
RCB Financial Corporation*****                     Cumulative              9                                1,055,520              1,055,520
Central Federal Corporation        *****
                                                   Cumulative              8                                 722,500                  722,500
CoastalSouth Bancshares, Inc.*****                 Cumulative              8                                1,687,900              1,687,900
HMN Financial, Inc.*****                           Cumulative              8                                2,600,000              2,600,000
One Georgia Bank   ****
                                                   Non-Cumulative          8                                 605,328                  605,328
Independent Bank Corporation***                    Cumulative              8        ✓                   14,193,996                 6,164,420
First Intercontinental Bank*****                   Non-Cumulative          8                                 697,400                  697,400
Coloeast Bankshares, Inc.*****                     Cumulative              8        ✓                       1,090,000              1,090,000
Cascade Financial Corporation*****                 Cumulative              7                                3,409,875              3,409,875
Integra Bank Corporation****                       Cumulative              7                                7,313,775              7,313,775
Princeton National Bancorp, Inc.           ****
                                                   Cumulative              7                                2,194,763              2,194,763
Brogan Bankshares, Inc.*                           Interest                7                                 352,380                  352,380
Severn Bancorp, Inc.   *****
                                                   Cumulative              6                                1,754,475              1,754,475
Central Pacific Financial Corp.      ***,9
                                                   Cumulative              6                            10,125,000                         —
Coastal Banking Company, Inc.*****                 Cumulative              6                                 995,000                  995,000
First Reliance Bancshares, Inc.*****               Cumulative              6                                1,254,720              1,254,720
FNB United Corp.***                                Cumulative              6                                3,862,500                      —
FPB Bancorp, Inc. (FL)    ****
                                                   Cumulative              6                                 435,000                  435,000
Indiana Bank Corp.****                             Cumulative              6                                 107,310                  107,310
Naples Bancorp, Inc.   *****
                                                   Cumulative              6                                 327,000                  327,000
First Place Financial Corp.                        Cumulative              6                                5,469,525              5,469,525
Worthington Financial Holdings, Inc.*****          Cumulative              6                                 222,360                  222,360
Fort Lee Federal Savings Bank         ****
                                                   Non-Cumulative          6                                 106,275                  106,275
                                                                                                                        Continued on next page
176             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013                              (CONTINUED)

                                                                                          Observers
                                                                                            Assigned
                                                                              Number     to Board or
                                                            Dividend or      of Missed     Directors         Value of Missed          Value of Unpaid
      Company                                               Payment Type     Payments     Appointed1              Payments2               Amounts2,3,4
      Alarion Financial Services, Inc.*****                 Cumulative              6                                $532,560                $532,560
      Community Financial Shares, Inc.             ***
                                                            Cumulative              5                                 759,820                 759,820
      Delmar Bancorp*****                                   Cumulative              5                                 613,125                 613,125
      First BanCorp (PR)  ***
                                                            Cumulative              5        ✓                   42,681,526                         —
      First Federal Bancshares of Arkansas,
                                                            Cumulative              5                                1,031,250              1,031,250
      Inc.*****
      Flagstar Bancorp, Inc.*****                           Cumulative              5                            16,666,063                16,666,063
      Midwest Banc Holdings, Inc.          5
                                                            Cumulative              5                                4,239,200              4,239,200
      Pacific Capital Bancorp***,9                          Cumulative              5                            13,547,550                         —
      GulfSouth Private Bank      ****
                                                            Non-Cumulative          5                                 494,063                 494,063
      Northwest Commercial Bank****                         Non-Cumulative          5                                 135,750                 135,750
      CB Holding Corp.   ****
                                                            Cumulative              4                                 224,240                 224,240
      Colony Bankcorp, Inc.      *****
                                                            Cumulative              4                                1,400,000              1,400,000
      First Community Bank Corporation of
                                                            Cumulative              4                                 534,250                 534,250
      America*****
      Green Bankshares, Inc.*****                           Cumulative              4                                3,613,900              3,613,900
      Hampton Roads Bankshares, Inc.                ***,9
                                                            Cumulative              4                                4,017,350              4,017,350
      Pierce County Bancorp****                             Cumulative              4                                 370,600                 370,600
      Santa Lucia Bancorp       *****
                                                            Cumulative              4                                 200,000                 200,000
      Sterling Financial Corporation (WA)***,9              Cumulative              4                            18,937,500                18,937,500
      TIB Financial Corp***** ,7                            Cumulative              4                                1,850,000              1,850,000
      Community Bank of the Bay6                            Non-Cumulative          4                                  72,549                  72,549
      The Bank of Currituck      *****
                                                            Non-Cumulative          4                                 219,140                 219,140
      The Connecticut Bank and Trust
                                                            Non-Cumulative          4                                 246,673                 246,673
      Company*****
      Plato Holdings Inc.*,*****                            Interest                4                                 207,266                 207,266
      Virginia Company Bank       *****
                                                            Non-Cumulative          3                                 185,903                 185,903
      Blue River Bancshares, Inc.         ****
                                                            Cumulative              3                                 204,375                 204,375
      Community West Bancshares*****                        Cumulative              3                                 585,000                 585,000
      Legacy Bancorp, Inc.      ****
                                                            Cumulative              3                                 206,175                 206,175
      Sonoma Valley Bancorp****                             Cumulative              3                                 353,715                 353,715
      Superior Bancorp Inc.      ****
                                                            Cumulative              3                                2,587,500              2,587,500
      Tennessee Commerce Bancorp, Inc.****                  Cumulative              3                                1,125,000              1,125,000
      The South Financial Group, Inc.            ***** ,7
                                                            Cumulative              3                            13,012,500                13,012,500
      Treaty Oak Bancorp, Inc.*****                         Cumulative              3                                 133,553                 133,553
      Bank of Commerce     *****
                                                            Non-Cumulative          3                                 122,625                 122,625
                                                                                                                                 Continued on next page
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                                        177




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2013                                                                        (CONTINUED)

                                                                                                                       Observers
                                                                                                                         Assigned
                                                                                                    Number            to Board or
                                                        Dividend or                                of Missed            Directors                   Value of Missed                      Value of Unpaid
Company                                                 Payment Type                               Payments            Appointed1                        Payments2                           Amounts2,3,4
Carolina Trust Bank*****                                Non-Cumulative                                          3                                             $150,000                            $150,000
Commerce National Bank                                  Non-Cumulative                                          3                                              150,000                              150,000
Cadence Financial Corporation*****                      Cumulative                                              2                                              550,000                              550,000
First Alliance Bancshares, Inc.*****                    Cumulative                                              2                                                93,245                               93,245
Pacific Coast National Bancorp****                      Cumulative                                              2                                              112,270                              112,270
The Baraboo Bancorporation, Inc.*****                   Cumulative                                              2                                              565,390                              565,390
Colonial American Bank*****                             Non-Cumulative                                          2                                                15,655                               15,655
Fresno First Bank       ***
                                                        Non-Cumulative                                          2                                                33,357                               33,357
FBHC Holding Company*,*****                             Interest                                                2                                              123,127                              123,127
Gateway Bancshares, Inc.                                Cumulative                                              2                                              163,500                              163,500
CIT Group Inc.      ****,8
                                                        Cumulative                                              2                                          29,125,000                          29,125,000
UCBH Holdings, Inc.****                                 Cumulative                                              1                                            3,734,213                           3,734,213
Exchange Bank         *****
                                                        Non-Cumulative                                          1                                              585,875                              585,875
Tifton Banking Company****                              Non-Cumulative                                          1                                                51,775                               51,775
Total                                                                                                                                                $588,796,074                         $506,891,177
Notes: Numbers may not total due to rounding. Approximately $30.3 million of the $506.9 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n   Treasury has appointed one or more directors to the Board of Directors.
✓   Treasury has assigned an observer to the Board of Directors.

1
  F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
   an observer to the board of directors.
2
   Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
   Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
  Program.
4
    Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
     investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
     For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
      amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
      Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
       For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
        For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
         amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
         Completed exchanges:
          - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
          amounts reflect the figures Treasury reported prior to the exchange.
          - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
          amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 1/10/2014; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013, 10/7/2013, 1/13/2014.
178   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                             institutions,” as of December 31, 2013, 28 CPP participants had gone bankrupt
                                             or had a subsidiary bank fail, as indicated in Table 2.35.432 As of December 31,
                                             2013, 25 of those banks, with total CPP investments of $782.5 million, were in the
                                             process of bankruptcy, and while Treasury has not yet realized the loss, it expects
                                             that all of its investments in the banks will be lost.433

                                             Closure of Texas Community Bank, National Association
                                             On January 16, 2009, Treasury invested $11.7 million in TCB Holding Company,
                                             The Woodlands, Texas, (“TCB”) through CPP in return for preferred stock and
                                             warrants.434 On December 13, 2013, the Office of the Comptroller of the Currency
                                             (“OCC”) closed TCB’s subsidiary bank, Texas Community Bank, National
                                             Association, The Woodlands, Texas, (“Texas Community Bank”) and named the
                                             Federal Deposit Insurance Corporation (“FDIC”) as receiver.435 FDIC entered into
                                             a purchase and assumption agreement with Spirit of Texas Bank, SSB, College
                                             Station, Texas, to assume all of Texas Community Bank’s deposits.436 FDIC
                                             estimates that the cost of Texas Community Bank’s failure to the deposit insurance
                                             fund will be $10.8 million. All of Treasury’s investment in TCB is expected to be
                                             lost.437
                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   179




TABLE 2.35
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 12/31/2013                        ($ MILLIONS)

                                        Initial
                                     Invested     Investment                      Bankruptcy/
 Company                              Amount            Date           Status     Failure Datea            Subsidiary Bank
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
                                                                   no recovery                                     CIT Bank,
 CIT Group Inc., New York, NY        $2,330.0     12/31/2008                         11/1/2009
                                                                  of Treasury’s                            Salt Lake City, UT
                                                                   investment;
                                                               subsidiary bank
                                                                remains active
                                                                In bankruptcy;
 UCBH Holdings Inc.,                                                                               United Commercial Bank,
                                        298.7     11/14/2008   subsidiary bank       11/6/2009
 San Francisco, CA                                                                                        San Francisco, CA
                                                                         failed
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
 Pacific Coast National Bancorp,                                  no recovery                         Pacific Coast National
                                           4.1     1/16/2009                       11/13/2009
 San Clemente, CA                                                of Treasury’s                      Bank, San Clemente, CA
                                                                   investment;
                                                               subsidiary bank
                                                                         failed
                                                                In bankruptcy;                       Midwest Bank and Trust
 Midwest Banc Holdings, Inc.,
                                        89.4b      12/5/2008   subsidiary bank       5/14/2010                   Company,
 Melrose Park, IL
                                                                         failed                           Elmwood Park, IL
 Sonoma Valley Bancorp,                                        Subsidiary bank                          Sonoma Valley Bank,
                                           8.7     2/20/2009                         8/20/2010
 Sonoma, CA                                                              failed                               Sonoma, CA
 Pierce County Bancorp,                                        Subsidiary bank                     Pierce Commercial Bank,
                                           6.8     1/23/2009                         11/5/2010
 Tacoma, WA                                                              failed                               Tacoma, WA
 Tifton Banking Company,
                                           3.8     4/17/2009             Failed    11/12/2010                            N/A
 Tifton, GA
 Legacy Bancorp, Inc.,                                         Subsidiary bank                                 Legacy Bank,
                                           5.5     1/30/2009                         3/11/2011
 Milwaukee, WI                                                           failed                                Milwaukee, WI
 Superior Bancorp, Inc.,                                       Subsidiary bank                                Superior Bank,
                                         69.0      12/5/2008                         4/15/2011
 Birmingham, AL                                                          failed                              Birmingham, AL
 Integra Bank Corporation,                                     Subsidiary bank
                                         83.6      2/27/2009                         7/29/2011    Integra Bank, Evansville, IN
 Evansville, IN                                                          failed
 One Georgia Bank, Atlanta, GA             5.5      5/8/2009             Failed      7/15/2011                           N/A
                                                               Subsidiary bank                           First Peoples Bank,
 FPB Bancorp, Port Saint Lucie, FL         5.8     12/5/2008                         7/15/2011
                                                                         failed                          Port Saint Lucie, FL
                                                               Subsidiary bank                     Citizens Bank of Northern
 Citizens Bancorp, Nevada City, CA       10.4     12/23/2008                         9/23/2011
                                                                         failed                   California, Nevada City, CA
                                                               Subsidiary bank
 CB Holding Corp., Aledo, IL               4.1     5/29/2009                       10/14/2011        Country Bank, Aledo, IL
                                                                         failed
 Tennessee Commerce Bancorp,                                   Subsidiary bank                        Tennessee Commerce
                                         30.0     12/19/2008                         1/27/2012
 Inc., Franklin, TN                                                      failed                           Bank, Franklin, TN
 Blue River Bancshares, Inc.,                                  Subsidiary bank                                   SCB Bank,
                                           5.0      3/6/2009                         2/10/2012
 Shelbyville, IN                                                         failed                                Shelbyville, IN
 Fort Lee Federal Savings Bank             1.3     5/22/2009             Failed      4/20/2012                           N/A
                                                                                                     Continued on next page
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 12/31/2013                                                                    ($ MILLIONS) (CONTINUED)

                                                                    Initial
                                                                 Invested        Investment                                         Bankruptcy/
             Company                                              Amount               Date                         Status          Failure Datea                    Subsidiary Bank
                                                                                                         Subsidiary bank                                      Glasgow Savings Bank,
             Gregg Bancshares, Inc.                                    $0.9       2/13/2009                                            7/13/2012
                                                                                                                   failed                                              Glasgow, MO
             Premier Bank Holding Company                                9.5      3/20/2009                 In bankruptcy              8/14/2012                                       N/A
             GulfSouth Private Bank                                      7.5      9/25/2009                          Failed          10/19/2012                                        N/A
             Investors Financial Corporation of                                                                                                                             Excel Bank,
                                                                         4.0        5/8/2009                         Failed          10/19/2012
             Pettis County, Inc.                                                                                                                                            Sedalia, MO
                                                                                                                                                                      First Place Bank,
             First Place Financial Corporation                         72.9       3/13/2009                 In bankruptcy            10/29/2012
                                                                                                                                                                            Warren, OH
                                                                                                         Subsidiary bank                                        Citizens First National
             Princeton National Bancorp                                25.1       1/23/2009                                            11/2/2012
                                                                                                                   failed                                          Bank, Princeton, IL
             Gold Canyon Bank                                            1.6      6/26/2009                          Failed              4/5/2013                                      N/A
             Indiana Bank Corp.                                          1.3      4/24/2009                 In bankruptcy                4/9/2013                                      N/A
             Rogers Bancshares, Inc.                                   25.0       1/30/2009                 In bankruptcy                7/5/2013                                      N/A
                                                                                                           Filed for and
             Anchor BanCorp Wisconsin Inc.                           110.0        1/30/2009           exited bankruptcy                8/12/2013                                       N/A
                                                                                                             protectionc
             TCB Holding Company                                       11.7       1/16/2009                          Failed          12/13/2013                                        N/A
             Total                                              $3,231.2                                                                                                                   
             Notes: Numbers may not total due to rounding.
             a
               Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
             b
               The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
                (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
             c
               Treasury recouped $6 million of its investment once the company’s plan of reorganization became effective.

             Source: Treasury, Transactions Report, 1/1/2014.




                                                          Realized Losses, Write-offs, and Currently Not Collectible CPP
                                                          Investments
                                                          When a CPP investment is sold at a loss, or an institution that Treasury invested in
                                                          finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off. For
                                                          these recorded losses, Treasury has no expectation of regaining any portion of the
                                                          lost investment. When a CPP bank or its subsidiary bank fails or enters bankruptcy,
                                                          Treasury does not record that loss until the matter is resolved. However, Treasury
                                                          generally expects that all of its investment in the bank will be lost.438 As of
                                                          September 2013, Treasury began reporting investments currently not collectible
                                                          as a result of bankruptcy or receivership together with realized losses and write-
                                                          offs; previously, it had reported those as investments still outstanding. According
                                                          to Treasury, as of December 31, 2013, Treasury had realized losses, write-offs, and
                                                          investments currently not collectible as a result of bankruptcy of $4.7 billion on
                                                          its CPP investments. This total includes $90 million in realized losses this quarter.
                                                          Also included is $782.5 million in 25 banks that Treasury classified this quarter
                                                          as currently not collectible as a result of bankruptcy. Table 2.36 shows all realized
                                                          losses, write-offs, and investments currently not collectible as a result of bankruptcy
                                                          recorded by Treasury on CPP investments through December 31, 2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   181




TABLE 2.36
 REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
 12/31/2013 ($ MILLIONS)
                                                TARP
 Institution                              Investment   Loss          Date   Description
Realized Losses
The Bank of Currituck                            $4     $2     12/3/2010 Sale of preferred stock at a loss
Treaty Oak Bancorp, Inc.                          3      3     2/15/2011 Sale of preferred stock at a loss
Cadence Financial Corporation                    44      6      3/4/2011 Sale of preferred stock at a loss
                                                                            Sale of subordinated
FBHC Holding Company                              3      2      3/9/2011
                                                                            debentures at a loss
First Federal Bancshares of Arkansas,
                                                 17     11      5/3/2011 Sale of preferred stock at a loss
Inc.
First Community Bank Corporation of
                                                 11      3     5/31/2011 Sale of preferred stock at a loss
America
Cascade Financial Corporation                    39     23     6/30/2011 Sale of preferred stock at a loss
Green Bankshares, Inc.                           72      4      9/7/2011 Sale of preferred stock at a loss
Santa Lucia Bancorp                               4      1    10/21/2011 Sale of preferred stock at a loss
Banner Corporation/Banner Bank                  124     14      4/3/2012 Sale of preferred stock at a loss 
First Financial Holdings Inc.                    65      8      4/3/2012 Sale of preferred stock at a loss 
MainSource Financial Group, Inc.                 57      4      4/3/2012 Sale of preferred stock at a loss
Seacoast Banking Corporation of
                                                 50      9      4/3/2012 Sale of preferred stock at a loss
Florida
Wilshire Bancorp, Inc.                           62      4      4/3/2012 Sale of preferred stock at a loss
WSFS Financial Corporation                       53      4      4/3/2012 Sale of preferred stock at a loss
Central Pacific Financial Corp.                 135     62      4/4/2012    Sale of common stock at a loss
Ameris Bancorp                                   52      4     6/19/2012 Sale of preferred stock at a loss
Farmers Capital Corporation                      30      8     6/19/2012 Sale of preferred stock at a loss
First Capital Bancorp, Inc.                      11      1     6/19/2012 Sale of preferred stock at a loss
First Defiance Financial Corp.                   37      1     6/19/2012 Sale of preferred stock at a loss
LNB Bancorp, Inc.                                25      3     6/19/2012 Sale of preferred stock at a loss
Taylor Capital Group, Inc.                      105     11     6/19/2012    Sale of preferred stock at a loss
United Bancorp, Inc.                             21      4     6/19/2012 Sale of preferred stock at a loss
Fidelity Southern Corporation                    48      5      7/3/2012 Sale of preferred stock at a loss
First Citizens Banc Corp                         21      2      7/3/2012 Sale of preferred stock at a loss
Firstbank Corporation                            33      2      7/3/2012 Sale of preferred stock at a loss
Metrocorp Bancshares, Inc.                       45      1      7/3/2012 Sale of preferred stock at a loss
Peoples Bancorp of North Carolina, Inc.          25      2      7/3/2012 Sale of preferred stock at a loss
Pulaski Financial Corp.                          33      4      7/3/2012 Sale of preferred stock at a loss
Southern First Bancshares, Inc.                  17      2      7/3/2012 Sale of preferred stock at a loss
Naples Bancorp, Inc.                              4      3     7/12/2012 Sale of preferred stock at a loss
Commonwealth Bancshares, Inc.                    20      5      8/9/2012 Sale of preferred stock at a loss
Diamond Bancorp, Inc.                            20      6      8/9/2012 Sale of preferred stock at a loss
Fidelity Financial Corporation                   36      4      8/9/2012 Sale of preferred stock at a loss
Market Street Bancshares, Inc.                   20      2      8/9/2012 Sale of preferred stock at a loss
                                                                                    Continued on next page
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
                         12/31/2013 ($ MILLIONS) (CONTINUED)
                                                                          TARP
                         Institution                                Investment   Loss          Date   Description
                         Realized Losses
                         CBS Banc-Corp.                                   $24     $2     8/10/2012    Sale of preferred stock at a loss
                         Marquette National Corporation                    36     10     8/10/2012 Sale of preferred stock at a loss
                         Park Bancorporation, Inc.                         23      6     8/10/2012 Sale of preferred stock at a loss
                         Premier Financial Bancorp, Inc.                    7      2     8/10/2012 Sale of preferred stock at a loss
                         Trinity Capital Corporation                       36      9     8/10/2012 Sale of preferred stock at a loss
                         Exchange Bank                                     43      5     8/13/2012 Sale of preferred stock at a loss
                         Millennium Bancorp, Inc.                           7      4     8/14/2012 Sale of preferred stock at a loss
                         Sterling Financial Corporation                   303    188     8/20/2012    Sale of preferred stock at a loss
                         BNC Bancorp                                       31      2     8/29/2012 Sale of preferred stock at a loss
                         First Community Corporation                       11     0.2    8/29/2012 Sale of preferred stock at a loss
                         First National Corporation                        14      2     8/29/2012 Sale of preferred stock at a loss
                         Mackinac Financial Corporation                    11     0.5    8/29/2012 Sale of preferred stock at a loss
                         Yadkin Valley Financial Corporation               13      5     9/18/2012 Sale of preferred stock at a loss
                         Alpine Banks of Colorado                          70     13     9/20/2012 Sale of preferred stock at a loss
                         F & M Financial Corporation (NC)                  17      1     9/20/2012 Sale of preferred stock at a loss
                         F&M Financial Corporation (TN)                    17      4     9/21/2012 Sale of preferred stock at a loss
                         First Community Financial Partners, Inc.          22      8     9/21/2012 Sale of preferred stock at a loss
                         Central Federal Corporation                        7      4     9/26/2012 Sale of preferred stock at a loss
                         Congaree Bancshares, Inc.                          3     0.6   10/31/2012 Sale of preferred stock at a loss
                         Metro City Bank                                    8     0.8   10/31/2012 Sale of preferred stock at a loss
                         Blue Ridge Bancshares, Inc.                       12      3    10/31/2012    Sale of preferred stock at a loss
                         Germantown Capital Corporation                     5     0.4   10/31/2012    Sale of preferred stock at a loss
                         First Gothenburg Bancshares, Inc.                  8     0.7   10/31/2012 Sale of preferred stock at a loss
                         Blackhawk Bancorp, Inc.                           10     0.9   10/31/2012 Sale of preferred stock at a loss
                         Centerbank                                         2     0.4   10/31/2012 Sale of preferred stock at a loss
                         The Little Bank, Incorporated                      8     0.1   10/31/2012 Sale of preferred stock at a loss
                         Oak Ridge Financial Services, Inc.                 8     0.6   10/31/2012 Sale of preferred stock at a loss
                         Peoples Bancshares of TN, Inc.                     4      1    10/31/2012    Sale of preferred stock at a loss
                         Hometown Bankshares Corporation                   10     0.8   10/31/2012    Sale of preferred stock at a loss
                         Western Illinois Bancshares, Inc.                 11     0.7    11/9/2012 Sale of preferred stock at a loss
                         Capital Pacific Bancorp                            4     0.2    11/9/2012 Sale of preferred stock at a loss
                         Three Shores Bancorporation, Inc.                  6     0.6    11/9/2012 Sale of preferred stock at a loss
                         Regional Bankshares, Inc.                          2     0.1    11/9/2012 Sale of preferred stock at a loss
                         Timberland Bancorp, Inc.                          17      2     11/9/2012 Sale of preferred stock at a loss
                         First Freedom Bancshares, Inc.                     9     0.7    11/9/2012 Sale of preferred stock at a loss
                         Bankgreenville Financial Corporation               1     0.1    11/9/2012 Sale of preferred stock at a loss
                                                                                                      Sale of subordinated
                         F&C Bancorp. Inc.                                  3     0.1   11/13/2012
                                                                                                      debentures at a loss
                                                                                                              Continued on next page
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   183




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
12/31/2013 ($ MILLIONS) (CONTINUED)
                                               TARP
Institution                              Investment   Loss          Date   Description
Realized Losses
                                                                           Sale of subordinated
Farmers Enterprises, Inc.                      $12    $0.4   11/13/2012
                                                                           debentures at a loss
Franklin Bancorp, Inc.                           5      2    11/13/2012 Sale of preferred stock at a loss
Sound Banking Company                            3     0.2   11/13/2012    Sale of preferred stock at a loss
Parke Bancorp, Inc.                             16      5    11/29/2012 Sale of preferred stock at a loss
Country Bank Shares, Inc.                        8     0.6   11/29/2012    Sale of preferred stock at a loss
Clover Community Bankshares, Inc.                3     0.4   11/29/2012 Sale of preferred stock at a loss
CBB Bancorp                                      4     0.3   11/29/2012 Sale of preferred stock at a loss
Alaska Pacific Bancshares, Inc.                  5     0.5   11/29/2012 Sale of preferred stock at a loss
Trisummit Bank                                   7      2    11/29/2012 Sale of preferred stock at a loss
Layton Park Financial Group, Inc.                3     0.6   11/29/2012    Sale of preferred stock at a loss
Community Bancshares of Mississippi,
Inc. (Community Holding Company of               1     0.1   11/30/2012 Sale of preferred stock at a loss
Florida, Inc.)
FFW Corporation                                  7     0.7   11/30/2012 Sale of preferred stock at a loss
Hometown Bancshares, Inc.                        2     0.1   11/30/2012 Sale of preferred stock at a loss
Bank of Commerce                                 3     0.5   11/30/2012 Sale of preferred stock at a loss
Corning Savings And Loan Association            0.6    0.1   11/30/2012 Sale of preferred stock at a loss
Carolina Trust Bank                              4     0.6   11/30/2012    Sale of preferred stock at a loss
Community Business Bank                          4     0.3   11/30/2012 Sale of preferred stock at a loss
KS Bancorp, Inc                                  4     0.7   11/30/2012 Sale of preferred stock at a loss
Pacific Capital Bancorp                        195     15    11/30/2012    Sale of common stock at a loss
Community West Bancshares                       16      4    12/11/2012 Sale of preferred stock at a loss
Presidio Bank                                   11      2    12/11/2012    Sale of preferred stock at a loss
The Baraboo Bancorporation, Inc.                21      7    12/11/2012 Sale of preferred stock at a loss
Security Bancshares of Pulaski County,
                                                 2     0.7   12/11/2012    Sale of preferred stock at a loss
Inc.
Central Community Corporation                   22      2    12/11/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Manhattan Bancshares, Inc.                       3     0.1   12/11/2012
                                                                           debentures at a loss
First Advantage Bancshares, Inc.                 1     0.1   12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                3     0.1   12/20/2012 Sale of preferred stock at a loss
First Business Bank, National
                                                 4     0.4   12/20/2012 Sale of preferred stock at a loss
Association
Bank Financial Services, Inc.                    1     0.1   12/20/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Century Financial Services Corporation          10     0.2   12/20/2012
                                                                           debentures at a loss
Hyperion Bank                                    2     0.5   12/21/2012 Sale of preferred stock at a loss
First Independence Corporation                   3     0.9   12/21/2012 Sale of preferred stock at a loss
First Alliance Bancshares, Inc.                  3      1    12/21/2012 Sale of preferred stock at a loss
                                                                                   Continued on next page
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
                         12/31/2013 ($ MILLIONS) (CONTINUED)
                                                                        TARP
                         Institution                              Investment   Loss          Date   Description
                         Realized Losses
                         Community Financial Shares, Inc.                $7     $4    12/21/2012    Sale of preferred stock at a loss
                         Alliance Financial Services, Inc.               12      3      2/7/2013    Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         Biscayne Bancshares, Inc.                        6     0.2     2/8/2013
                                                                                                    debentures at a loss
                         Citizens Bancshares Co.                         25     12      2/8/2013 Sale of preferred stock at a loss
                         Colony Bankcorp, Inc.                           28      6      2/8/2013 Sale of preferred stock at a loss
                         Delmar Bancorp                                   9      3      2/8/2013 Sale of preferred stock at a loss
                         Dickinson Financial Corporation II             146     65      2/8/2013    Sale of preferred stock at a loss
                         F & M Bancshares, Inc.                           4     0.5     2/8/2013 Sale of preferred stock at a loss
                         First Priority Financial Corp.                   5      1      2/8/2013 Sale of preferred stock at a loss
                         HMN Financial, Inc.                             26      7      2/8/2013 Sale of preferred stock at a loss
                         Waukesha Bankshares, Inc.                        6     0.4     2/8/2013 Sale of preferred stock at a loss
                         FC Holdings, Inc.                               21      2     2/20/2013 Sale of preferred stock at a loss
                         First Sound Bank                                 7      4     2/20/2013 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         First Trust Corporation                         18      4     2/20/2013
                                                                                                    debentures at a loss
                         National Bancshares, Inc.                       25      6     2/20/2013 Sale of preferred stock at a loss
                         Ridgestone Financial Services, Inc.             11      2     2/20/2013 Sale of preferred stock at a loss
                         Carolina Bank Holdings, Inc.                    16      1     2/21/2013 Sale of preferred stock at a loss
                         Santa Clara Valley Bank, N.A.                    3     0.4     3/8/2013 Sale of preferred stock at a loss
                         Coastal Banking Company, Inc.                   10     0.4    3/11/2013 Sale of preferred stock at a loss
                         CoastalSouth Bancshares, Inc.                   16      3     3/11/2013 Sale of preferred stock at a loss
                         First Reliance Bancshares, Inc.                 15      5     3/11/2013 Sale of preferred stock at a loss
                         Southcrest Financial Group, Inc.                13      1     3/11/2013 Sale of preferred stock at a loss
                         The Queensborough Company                       12     0.3    3/11/2013 Sale of preferred stock at a loss
                         Old Second Bancorp, Inc.                        73     47     3/27/2013 Sale of preferred stock at a loss
                         Stonebridge Financial Corp.                     11      9     3/27/2013 Sale of preferred stock at a loss
                         Alliance Bancshares, Inc.                        3     0.1    3/28/2013 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         Amfirst Financial Services, Inc                  5     0.2    3/28/2013
                                                                                                    debentures at a loss
                         First Southwest Bancorporation, Inc.             6     0.5    3/28/2013 Sale of preferred stock at a loss
                         Flagstar Bancorp, Inc.                         267     24     3/28/2013    Sale of preferred stock at a loss
                         United Community Banks, Inc.                   180      7     3/28/2013    Sale of preferred stock at a loss
                                                                                                    Exchange of preferred stock at
                         First Security Group, Inc.                      33     18     4/11/2013
                                                                                                    a loss
                         BancStar, Inc.                                   9     0.1    4/26/2013 Sale of preferred stock at a loss
                         NewBridge Bancorp                               52      1     4/29/2013 Sale of preferred stock at a loss
                         First Financial Service Corporation             20      9     4/29/2013 Sale of preferred stock at a loss
                         Guaranty Federal Bancshares, Inc.               17     0.4    4/29/2013 Sale of preferred stock at a loss
                                                                                                            Continued on next page
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   185




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
12/31/2013 ($ MILLIONS) (CONTINUED)
                                              TARP
Institution                             Investment   Loss          Date   Description
Realized Losses
Intervest Bancshares Corporation              $25     $1     6/24/2013    Sale of preferred stock at a loss
First Western Financial, Inc.                  20      3     6/24/2013 Sale of preferred stock at a loss
Worthington Financial Holdings, Inc.            3     0.4    6/24/2013 Sale of preferred stock at a loss
Farmers & Merchants Financial
                                               0.4    0.1    6/24/2013 Sale of preferred stock at a loss
Corporation
Metropolitan Bank Group, Inc.                  82     49     6/28/2013 Sale of preferred stock at a loss
Alarion Financial Services, Inc.                7     0.1    7/22/2013 Sale of preferred stock at a loss
Anchor Bancorp Wisconsin, Inc.                110    104     9/27/2013    Sale of common stock at a loss
Centrue Financial Corporation                  33     21    10/18/2013 Sale of preferred stock at a loss
Coloeast Bankshares, Inc.                      10      1     7/22/2013    Sale of preferred stock at a loss
Commonwealth Business Bank                     20     0.4    7/17/2013 Sale of preferred stock at a loss
Crosstown Holding Company                      11     0.2    7/22/2013 Sale of preferred stock at a loss
Desoto County Bank                              3     0.5    9/25/2013 Sale of preferred stock at a loss
First Bancorp (PR)                            400     72     9/13/2013    Sale of common stock at a loss
First Banks, Inc.                             295    190     9/25/2013    Sale of preferred stock at a loss
First Intercontinental Bank                     6      3     8/12/2013 Sale of preferred stock at a loss
Florida Bank Group, Inc.                       20     12     8/14/2013 Sale of preferred stock at a loss
Mountain Valley Bancshares, Inc.                3      —     7/22/2013 Sale of preferred stock at a loss
RCB Financial Corporation                       9     0.8    9/25/2013 Sale of preferred stock at a loss
Severn Bancorp, Inc.                           23      —     9/25/2013 Sale of preferred stock at a loss
Universal Bancorp                              10     0.5    8/12/2013 Sale of preferred stock at a loss
Virginia Company Bank                           5      2     8/12/2013 Sale of preferred stock at a loss
Central Virginia Bankshares, Inc.              11      8     10/1/2013 Sale of preferred stock at a loss
Bank of George                                  3      2    10/21/2013 Sale of preferred stock at a loss
Blue Valley Ban Corp                           22     0.5   10/21/2013    Sale of preferred stock at a loss
Spirit Bank Corp Inc.                          30     21    10/21/2013 Sale of preferred stock at a loss
Valley Community Bank                           6      3    10/21/2013    Sale of preferred stock at a loss
Monarch Community Bancorp, Inc.                 7      2    11/15/2013 Sale of common stock at a loss
AB&T Financial Corporation                      4      2    11/19/2013    Sale of preferred stock at a loss
Bridgeview Bancorp, Inc.                       38     28    11/19/2013 Sale of preferred stock at a loss
Midtown Bank & Trust Company                    5      2    11/19/2013    Sale of preferred stock at a loss
Village Bank and Trust Financial Corp          15      9    11/19/2013 Sale of preferred stock at a loss
1st Financial Services Corporation             16      8    12/31/2013    Sale of preferred stock at a loss
                                                                                  Continued on next page
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF
                         12/31/2013 ($ MILLIONS) (CONTINUED)
                                                                                          TARP
                         Institution                                                Investment                      Loss                   Date      Description
                         Total CPP Realized Losses                                                              $1,356                                
                         Write-Offs
                         CIT Group Inc.                                                    $2,330               $2,330          12/10/2009 Bankruptcy
                         Pacific Coast National Bancorp                                            4                     4        2/11/2010          Bankruptcy
                         South Financial Group, Inc.a                                          347                   217          9/30/2010          Sale of preferred stock at a loss
                         TIB Financial Corp      a
                                                                                                 37                    25         9/30/2010          Sale of preferred stock at a loss
                         Total CPP Write-Offs                                                                   $2,576                                
                         Currently Not Collectibleb
                         UCBH Holdings Inc.                                                   $299                 $299           11/6/2009          Bankruptcy
                         Midwest Banc Holdings, Inc.                                             85                    85         5/14/2010 Bankruptcy
                         Sonoma Valley Bancorp                                                     9                     9        8/20/2010 Bankruptcy
                         Pierce County Bancorp                                                     7                     7        11/5/2010 Bankruptcy
                         Tifton Banking Company                                                    4                     4      11/12/2010 Bankruptcy
                         Legacy Bancorp, Inc.                                                      6                     6        3/11/2011          Bankruptcy
                         Superior Bancorp Inc.                                                   69                    69         4/15/2011 Bankruptcy
                         FPB Bancorp, Inc.                                                         6                     6        7/15/2011 Bankruptcy
                         One Georgia Bank                                                          6                     6        7/15/2011 Bankruptcy
                         Integra Bank Corporation                                                84                    84         7/29/2011 Bankruptcy
                         Citizens Bancorp                                                        10                    10         9/23/2011 Bankruptcy
                         CB Holding Corp.                                                          4                     4      10/14/2011 Bankruptcy
                         Tennessee Commerce Bancorp, Inc.                                        30                    30         1/27/2012          Bankruptcy
                         Blue River Bancshares, Inc.                                               5                     5        2/10/2012 Bankruptcy
                         Fort Lee Federal Savings Bank, FSB                                        1                     1        4/20/2012 Bankruptcy
                         Gregg Bancshares, Inc.                                                    1                     1        7/13/2012 Bankruptcy
                         Premier Bank Holding Company                                            10                    10         8/14/2012 Bankruptcy
                         GulfSouth Private Bank                                                    8                     8      10/19/2012 Bankruptcy
                         Investors Financial Corporation of
                                                                                                   4                     4      10/19/2012           Bankruptcy
                         Pettis County, Inc.
                         First Place Financial Corp.                                             73                    73       10/29/2012 Bankruptcy
                         Princeton National Bancorp, Inc.                                        25                    25         11/2/2012          Bankruptcy
                         Gold Canyon Bank                                                          2                     2          4/5/2013 Bankruptcy
                         Indiana Bank Corp.                                                        1                     1          4/9/2013 Bankruptcy
                         Rogers Bancshares, Inc                                                  25                    25           7/5/2013 Bankruptcy
                         TCB Holding Company                                                     12                    12       12/13/2013 Bankruptcy
                         Total CPP Currently Not Collectible                                                       $782                               
                         Total of CPP Realized Losses,
                         Write-Offs, and Currently Not                                                          $4,715                                
                         Collectible
                         Notes: Numbers may not total due to rounding.
                         a
                           In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
                            realized losses.
                         b
                            As of September 2013, Treasury no longer counts investments currently not collectible as result of bankruptcy as “outstanding.”

                         Source: Treasury, Transactions Report, 1/1/2014; Treasury, response to SIGTARP data call, 1/8/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              187




Restructurings, Recapitalizations, Exchanges, and Sales of CPP
Investments
Certain CPP institutions continue to experience high losses and financial
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
improve the quality of their capital, these institutions may ask Treasury to convert
its CPP preferred shares into a more junior form of equity or to accept a lower
valuation, resulting in Treasury taking a discount or loss. If a CPP institution
is undercapitalized and/or in danger of becoming insolvent, it may propose to
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
private capital) and to “attempt to preserve value” for Treasury’s investment.439              Undercapitalized: Condition in which a
Treasury may also sell its investment in a troubled institution to a third party at            financial institution does not meet its
a discount in order to facilitate that party’s acquisition of a troubled institution.          regulator’s requirements for sufficient
According to Treasury, although it may incur partial losses on its investment in the           capital to operate under a defined level
course of these transactions, such an outcome may be deemed necessary to avoid                 of adverse conditions.
the total loss of Treasury’s investment that would occur if the institution failed.440
    Under these circumstances, the CPP participant asks Treasury for a formal                  Due Diligence: Appropriate level of
review of its proposal. The proposal details the institution’s recapitalization plan           attention or care a reasonable person
and may estimate how much capital the institution plans to raise from private                  should take before entering into an
investors and whether Treasury and other preferred shareholders will convert                   agreement or a transaction with
their preferred stock to common stock. The proposal may also involve a proposed                another party. In finance, it often refers
discount on the conversion to common stock, although Treasury would not realize                to the process of conducting an audit
any loss until it disposes of the stock.441 In other words, Treasury would not know            or review of the institution before
whether a loss will occur, or the extent of such a loss, until it sells the common             initiating a transaction.
stock it receives as part of such an exchange. According to Treasury, when it
receives such a request, it asks one of the external asset managers that it has
hired to analyze the proposal and perform due diligence on the institution.442 The
external asset manager interviews the institution’s managers, gathers non-public
information, and conducts loan-loss estimates and capital structure analysis.
The manager submits its evaluation to Treasury, which then decides whether to
restructure its CPP investment.443
    Table 2.37 shows all restructurings, recapitalizations, exchanges, and sales of
CPP investments through December 31, 2013.

Recent Exchanges and Sales
Central Virginia Bankshares, Inc.
On January 30, 2009, Treasury invested $11.4 million in Central Virginia
Bankshares, Inc., Powhatan, Virginia, (“Central Virginia Bankshares”) through CPP
in return for preferred stock and warrants.444 On October 1, 2013, Treasury sold
all of its investment in Central Virginia Bankshares to C&F Financial Corporation,
West Point, Virginia, (“C&F”) for $3.4 million pursuant to a securities agreement
entered into on July 17, 2013. The sale resulted in a loss to Treasury of $8
million.445
188   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Monarch Community Bancorp, Inc.
                                             On February 6, 2009, Treasury invested $6.8 million in Monarch Community
                                             Bancorp, Inc., Coldwater, Michigan, (“Monarch”) through CPP in return for
                                             preferred stock and warrants.446 On October 30, 2013, Treasury entered into an
                                             agreement with Monarch to exchange its preferred stock investment and warrants
                                             for common stock, subject to the fulfillment of terms of the agreement including
                                             satisfactory completion of a capital plan.447 On November 15, 2013, Treasury
                                             converted its investment into common stock and subsequently sold its investment
                                             to several investors for $4.5 million. The sale resulted in a loss to Treasury of $2.2
                                             million.448

                                             1st Financial Services Corporation
                                             On November 14, 2008, Treasury invested $16.4 million in 1st Financial Services
                                             Corporation, Hendersonville, North Carolina, (“1st Financial Services”) through
                                             CPP in return for preferred stock and warrants.449 On December 31, 2013,
                                             Treasury sold its investment in 1st Financial Services back to 1st Financial Services
                                             for $8 million as part of an acquisition by First Citizens Bankshares, Inc. The sale
                                             resulted in a loss to Treasury of $8.4 million.450
                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                189




TABLE 2.37
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS)
                                      Investment       Original     Combined
 Company                                    Date   Investments    Investments                                            Investment Status
 Citigroup Inc.                       10/28/2008      $2,500.0                              Exchanged for common stock/warrants and sold
 Provident Bankshares                 11/14/2008         151.5
                                                                                     Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation                 12/23/2008         600.0      $1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                   redeemed by M&T Bank Corporation; Sold
 Wilmington Trust Corporation         12/12/2008         330.0
 Popular, Inc.                         12/5/2008         935.0                                       Exchanged for trust preferred securities
 First BanCorp                          1/6/2009         400.0                         Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.           12/5/2008         347.0                                                                           Sold
 Sterling Financial Corporation        12/5/2008         303.0                                           Exchanged for common stock, Sold
 Whitney Holding Corporation          12/19/2008         300.0                                                                           Sold
 First Banks, Inc.                    12/31/2008         295.4                                                                Sold at auction
 Flagstar Bancorp Inc.                 1/30/2009         267.0                                                         Sold at loss in auction
 Pacific Capital Bancorp              11/21/2008         195.0                                                 Exchanged for common stock
 United Community Banks, Inc.          12/5/2008         180.0                                                         Sold at loss in auction
 Dickinson Financial Corporation II    1/16/2009         146.0                                                         Sold at loss in auction
 Central Pacific Financial Corp.        1/9/2009         135.0                                                 Exchanged for common stock
 Banner Corporation                   11/21/2008         124.0                                                         Sold at loss in auction
 BBCN Bancorp, Inc.                   11/21/2008          67.0                                      Exchanged for a like amount of securities
                                                                       122.0b
 Center Financial Corporation         12/12/2008          55.0                                                        of BBCN Bancorp, Inc.
 First Merchants                       2/20/2009         116.0                   Exchanged for trust preferred securities and preferred stock
 Taylor Capital Group                 11/21/2008         104.8                                                         Sold at loss in auction
 Metropolitan Bank Group Inc.          6/26/2009          71.5                       Exchanged for new preferred stock in Metropolitan Bank
                                                                        81.9c
 NC Bancorp, Inc.                      6/26/2009           6.9                                             Group, Inc. and later sold at loss

 Hampton Roads Bankshares             12/31/2008          80.3                                                 Exchanged for common stock
 Old Second Bancorp, Inc.              1/16/2009          73.0                                                         Sold at loss in auction
 Green Bankshares                     12/23/2008          72.3                                                                           Sold
 Independent Bank Corporation         12/12/2008          72.0                         Exchanged for mandatorily convertible preferred stock
 Alpine Banks of Colorado              3/27/2009          70.0                                                         Sold at loss in auction
 Superior Bancorp, Inc.   d
                                       12/5/2008          69.0                                       Exchanged for trust preferred securities
 First Financial Holdings Inc.         12/5/2008          65.0                                                         Sold at loss in auction
 Wilshire Bancorp, Inc.               12/12/2008          62.2                                                         Sold at loss in auction
                                                                                       Exchanged for common stock and securities purchase
 Standard Bancshares Inc.              4/24/2009          60.0              
                                                                                                                              agreements
 MainSource Financial Group, Inc.      1/16/2009          57.0                                                         Sold at loss in auction
 WSFS Financial Corporation            1/23/2009          52.6                                                         Sold at loss in auction
 NewBridge Bancorp                    12/12/2008          52.4                                                         Sold at loss in auction
 Ameris Bancorp                       11/21/2008          52.0                                                         Sold at loss in auction
 Seacoast Banking Corporation of
                                      12/19/2008          50.0                                                         Sold at loss in auction
 Florida
                                                                                                                     Continued on next page
190          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS) (CONTINUED)
                                            Investment        Original     Combined
      Company                                     Date    Investments    Investments                              Investment Status
      Fidelity Southern Corporation         12/19/2008          $48.2                                           Sold at loss in auction
      MetroCorp Bancshares, Inc.             1/16/2009           45.0                                           Sold at loss in auction
      Cadence Financial Corporation           1/9/2009           44.0                                           Sold at loss in auction
      Exchange Bank                         12/19/2008           43.0                                           Sold at loss in auction
      Crescent Financial Bancshares, Inc.     1/9/2009           24.9                     Exchanged for a like amount of securities of
                                                                              $42.8e
      ECB Bancorp, Inc.                      1/16/2009           17.9                            Crescent Financial Bancshares, Inc.

      PremierWest Bancorp                    2/13/2009           41.4                                                             Sold
      Capital Bank Corporation              12/12/2008           41.3                                                             Sold
      Reliance Bancshares, Inc.              2/13/2009           40.0                                                  Sold at auction
      Cascade Financial Corporation         11/21/2008           39.0                                           Sold at loss in auction
      Bridgeview Bancorp, Inc.              12/19/2008           38.0                                           Sold at loss in auction
      TIB Financial Corp.                    12/5/2008           37.0                                                             Sold
      First Defiance Financial Corp.         12/5/2008           37.0                                           Sold at loss in auction
      Fidelity Financial Corporation        12/19/2008           36.3                                           Sold at loss in auction
      Marquette National Corporation        12/19/2008           35.5                                           Sold at loss in auction
      Trinity Capital Corporation            3/27/2009           35.5                                           Sold at loss in auction
      Firstbank Corporation                  1/30/2009           33.0                                           Sold at loss in auction
      First Security Group, Inc.              1/9/2009           33.0                                                             Sold
      Pulaski Financial Corp                 1/16/2009           32.5                                           Sold at loss in auction
      BNC Bancorp                            12/5/2008           31.3                                           Sold at loss in auction
      Spirit Bank Corp. Inc.                 3/27/2009           30.0                                           Sold at loss in auction
      Farmers Capital Bank Corporation        1/9/2009           30.0                                           Sold at loss in auction
      Colony Bankcorp, Inc.                   1/9/2009           28.0                                           Sold at loss in auction
      HMN Financial, Inc                    12/23/2008           26.0                                           Sold at loss in auction
      LNB Bancorp Inc.                      12/12/2008           25.2                                           Sold at loss in auction
      Peoples Bancorp of North
                                            12/23/2008           25.1                                           Sold at loss in auction
      Carolina, Inc.
      Citizens Bancshares Co.                5/29/2009           25.0                                           Sold at loss in auction
      Intervest Bancshares Corporation      12/23/2008           25.0                                           Sold at loss in auction
      National Bancshares, Inc.              2/27/2009           24.7                                           Sold at loss in auction
      CBS Banc-Corp                          3/27/2009           24.3                                           Sold at loss in auction
      Eastern Virginia Bankshares, Inc.       1/9/2009           24.0                                                  Sold at auction
      Severn Bancorp, Inc.                  11/21/2008           23.4                                                  Sold at auction
      First Citizens Banc Corp               1/23/2009           23.2                                           Sold at loss in auction
      Park Bancorporation, Inc.               3/6/2009           23.2                                           Sold at loss in auction
      Premier Financial Bancorp, Inc.        10/2/2009           22.3                                           Sold at loss in auction
      Central Community Corporation          2/20/2009           22.0                                           Sold at loss in auction
      First Community Financial Partners,
                                            12/11/2009           22.0                                           Sold at loss in auction
      Inc.
                                                                                                              Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            191




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS) (CONTINUED)
                                        Investment       Original     Combined
Company                                       Date   Investments    Investments                                      Investment Status
Blue Valley Ban Corp                     12/5/2008         $21.8                                                   Sold at loss in auction
FC Holdings, Inc.                        6/26/2009          21.0                                                   Sold at loss in auction
The Baraboo Bancorporation, Inc.         1/16/2009          20.7                                                   Sold at loss in auction
United Bancorp, Inc.                     1/16/2009          20.6                                                   Sold at loss in auction
Florida Bank Group, Inc.                 7/24/2009          20.5                                                                     Sold
Diamond Bancorp, Inc.                    5/22/2009          20.4                                                   Sold at loss in auction
Commonwealth Bancshares, Inc.            5/22/2009          20.4                                                   Sold at loss in auction
First Western Financial, Inc.             2/6/2009          20.4                                                   Sold at loss in auction
Market Street Bancshares, Inc.           5/15/2009          20.3                                                   Sold at loss in auction
First Financial Service Corporation       1/9/2009          20.0                                                   Sold at loss in auction
First Trust Corporation                   6/5/2009          18.0                                                   Sold at loss in auction
Southern First Bancshares, Inc.          2/27/2009          17.3                                                   Sold at loss in auction
F&M Financial Corporation (TN)           2/13/2009          17.2                                                   Sold at loss in auction
F & M Financial Corporation (NC)          2/6/2009          17.0                                                   Sold at loss in auction
Guaranty Federal Bancshares, Inc.        1/30/2009          17.0                                                   Sold at loss in auction
Timberland Bancorp Inc.                 12/23/2008          16.6                                                   Sold at loss in auction
First Federal Bankshares of
                                          3/6/2009          16.5                                                                     Sold
Arkansas, Inc.
1st Financial Services Corporation      11/14/2008          16.4                                                                     Sold
Parke Bancorp Inc.                       1/30/2009          16.3                                                   Sold at loss in auction
Pacific City Financial Corporation      12/19/2008          16.2                                                          Sold at auction
Carolina Bank Holdings, Inc.              1/9/2009          16.0                                                   Sold at loss in auction
CoastalSouth Bancshares, Inc.            8/28/2009          16.0                                                   Sold at loss in auction
Community West Bancshares               12/19/2008          15.6                                                   Sold at loss in auction
First Reliance Bancshares, Inc            3/6/2009          15.3                                                   Sold at loss in auction
Broadway Financial Corporation          11/14/2008          15.0                                            Exchanged for common stock
First Community Bancshares, Inc          5/15/2009          14.8                                                                     Sold
Village Bank and Trust Financial Corp     5/1/2009          14.7                                                   Sold at loss in auction
First National Corporation               3/13/2009          13.9                                                   Sold at loss in auction
Yadkin Valley Financial Corporation      7/24/2009          13.3                                                   Sold at loss in auction
SouthCrest Financial Group, Inc.         7/17/2009          12.9                                                                     Sold 
Alliance Financial Services Inc.         6/26/2009          12.0                                                   Sold at loss in auction
Farmers Enterprises, Inc.                6/19/2009          12.0                                                   Sold at loss in auction
The Queensborough Company                 1/9/2009          12.0                                                   Sold at loss in auction
Plumas Bancorp                           1/30/2009          11.9                                                          Sold at auction
Central Virginia Bankshares              1/30/2009          11.4                                                                     Sold
First Community Corporation             11/21/2008          11.4                                                   Sold at loss in auction
Western Illinois Bancshares, Inc.       12/23/2008          11.4                                                   Sold at loss in auction
First Capital Bancorp, Inc.               4/3/2009          11.0                                                   Sold at loss in auction
                                                                                                                  Continued on next page
192          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS) (CONTINUED)
                                            Investment        Original     Combined
      Company                                     Date    Investments    Investments                         Investment Status
      Mackinac Financial Corporation         4/24/2009          $11.0                                      Sold at loss in auction
      Ridgestone Financial Services, Inc.    2/27/2009           11.0                                      Sold at loss in auction
      First Community Bank Corporation
                                            12/23/2008           11.0                                                        Sold
      of America
      Stonebridge Financial Corp.            1/23/2009           11.0                                      Sold at loss in auction
      Security State Bank Holding
                                              5/1/2009           10.8                                             Sold at auction
      Company
      Presidio Bank                         11/20/2009           10.8                                      Sold at loss in auction
      Crosstown Holding Company              1/23/2009           10.7                                             Sold at auction
      Northwest Bancorporation, Inc.         2/13/2009           10.5                                             Sold at auction
      Blackhawk Bancorp, Inc.                3/13/2009           10.0                                      Sold at loss in auction
      Century Financial Services
                                             6/19/2009           10.0                                      Sold at loss in auction
      Corporation
      ColoEast Bankshares, Inc.              2/13/2009           10.0                                             Sold at auction
      HomeTown Bankshares Corporation        9/18/2009           10.0                                      Sold at loss in auction
      Coastal Banking Company, Inc.          12/5/2008           10.0                                      Sold at loss in auction
      Universal Bancorp                      5/22/2009             9.9                                            Sold at auction
      Delmar Bancorp                         12/4/2009             9.0                                     Sold at loss in auction
      RCB Financial Corporation              6/19/2009             8.9                                            Sold at auction
      First Freedom Bancshares, Inc.        12/22/2009             8.7                                     Sold at loss in auction
      BancStar, Inc.                          4/3/2009             8.6                                     Sold at loss in auction
      First Western Financial, Inc.           2/6/2009             8.6                                     Sold at loss in auction
      Commonwealth Business Bank             1/23/2009             7.7                                            Sold at auction
      Metro City Bank                        1/30/2009             7.7                                     Sold at loss in auction
      Oak Ridge Financial Services, Inc.     1/30/2009             7.7                                     Sold at loss in auction
      First Gothenburg Bancshares, Inc.      2/27/2009             7.6                                     Sold at loss in auction
      Country Bank Shares, Inc.              1/30/2009             7.5                                     Sold at loss in auction
      The Little Bank, Incorporated         12/23/2009             7.5                                     Sold at loss in auction
      First Sound Bank                      12/23/2008             7.4                                                       Sold
      FFW Corporation                       12/19/2008             7.3                                     Sold at loss in auction
      Millennium Bancorp, Inc.                4/3/2009             7.3                                                       Sold
      Central Federal Corporation            12/5/2008             7.2                                                       Sold
      Community Financial Shares, Inc.       5/15/2009             7.0                                                       Sold
      TriSummit Bank                          4/3/2009             7.0                                     Sold at loss in auction
      Monarch Community Bancorp, Inc          2/6/2009             6.8                                                       Sold
      Fidelity Federal Bancorp              11/13/2009             6.7                                            Sold at auction
      Alarion Financial Services, Inc.       1/23/2009             6.5                                            Sold at auction
      First Intercontinental Bank            3/13/2009             6.4                                            Sold at auction
      Biscayne Bancshares, Inc.              6/19/2009             6.4                                     Sold at loss in auction
                                                                                                          Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            193




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS) (CONTINUED)
                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                      Investment Status
Premier Financial Bancorp, Inc.         5/22/2009          $6.3                                                          Sold at auction
Three Shores Bancorporation, Inc.       1/23/2009           5.7                                                   Sold at loss in auction
Boscobel Bancorp Inc.                   5/15/2009           5.6                                                          Sold at auction
Waukesha Bankshares, Inc.               6/26/2009           5.6                                                   Sold at loss in auction
First Southwest Bancorporation, Inc.     3/6/2009           5.5                                                   Sold at loss in auction
Valley Community Bank                    1/9/2009           5.5                                                   Sold at loss in auction
Midtown Bank & Trust Company            2/27/2009           5.2                                                   Sold at loss in auction
Franklin Bancorp, Inc.                  5/22/2009           5.1                                                   Sold at loss in auction
AmFirst Financial Services, Inc.        8/21/2009           5.0                                                   Sold at loss in auction
Germantown Capital Corporation           3/6/2009           5.0                                                   Sold at loss in auction
Alaska Pacific Bancshares Inc.           2/6/2009           4.8                                                   Sold at loss in auction
First Priority Financial Corp.         12/18/2009           4.6                                                   Sold at loss in auction
Virginia Company Bank                   6/12/2009           4.7                                                          Sold at auction
Community Pride Bank Corporation       11/13/2009           4.4                                                          Sold at auction
CBB Bancorp                            12/20/2009           4.4                                                   Sold at loss in auction
Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                                                   Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                   Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                     Sold
Carolina Trust Bank                      2/6/2009           4.0                                                   Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                     Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                   Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                   Sold at loss in auction
KS Bancorp Inc.                         8/21/2009           4.0                                                   Sold at loss in auction
Naples Bancorp, Inc.                    3/27/2009           4.0                                                                     Sold
Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                                                   Sold at loss in auction
Pathway Bancorp                         3/27/2009           3.7                                                          Sold at auction
F & M Bancshares, Inc.                  11/6/2009           3.5                                                   Sold at loss in auction
First Alliance Bancshares, Inc.         6/26/2009           3.4                                                   Sold at loss in auction
Madison Financial Corporatoin           3/13/2009           3.4                                                          Sold at auction
Congaree Bancshares, Inc.                1/9/2009           3.3                                                   Sold at loss in auction
Mountain Valley Bancshares, Inc.        9/25/2009           3.3                                                          Sold at auction
Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                                                     Sold
First Independence Corporation          8/28/2009           3.2                                                   Sold at loss in auction
Oregon Bancorp, Inc.                    4/24/2009           3.2                                                          Sold at auction
Sound Banking Co.                        1/9/2009           3.1                                                   Sold at loss in auction
Alliance Bancshares, Inc.               6/26/2009           3.0                                                   Sold at loss in auction
Bank of Commerce                        1/16/2009           3.0                                                   Sold at loss in auction
                                                                                                                 Continued on next page
194            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2013 ($ MILLIONS) (CONTINUED)
                                                             Investment               Original           Combined
      Company                                                      Date           Investments          Investments                                                                     Investment Status
      Clover Community Bankshares, Inc.                       3/27/2009                      $3.0                                                                                   Sold at loss in auction
      F & C Bancorp. Inc.                                     5/22/2009                        3.0                                                                                  Sold at loss in auction
      FBHC Holding Company                                  12/29/2009                         3.0                                                                                                          Sold
      Fidelity Resources Company                              6/26/2009                        3.0                                               Exchanged for preferred stock in Veritex Holding
      Layton Park Financial Group, Inc.                     12/18/2009                         3.0                                                                                  Sold at loss in auction
      Tennessee Valley Financial Holdings,
                                                            12/23/2008                         3.0                                                                                            Sold at auction
      Inc.
      Berkshire Bancorp                                       6/12/2009                        2.9                                        Exchanged for preferred stock in Customers Bancorp
      Santa Clara Valley Bank, N.A.                           2/13/2009                        2.9                                                                                  Sold at loss in auction
      Omega Capital Corp.                                     4/17/2009                        2.8                                                                                            Sold at auction
      Bank of George                                          3/13/2009                        2.7                                                                                  Sold at loss in auction
      Worthington Financial Holdings, Inc.                    5/15/2009                        2.7                                                                                  Sold at loss in auction
      Community Investors Bancorp, Inc.                     12/23/2008                         2.6                                                                                  Sold at loss in auction
      Manhattan Bancshares, Inc.                              6/19/2009                        2.6                                                                                  Sold at loss in auction
      Plato Holdings Inc.                                     7/17/2009                        2.5                                                                                  Sold at loss in auction
      Brogan Bankshares, Inc.                                 5/15/2009                        2.4                                                                                            Sold at auction
      CenterBank                                                5/1/2009                       2.3                                                                                  Sold at loss in auction
      Security Bancshares of Pulaski
                                                              2/13/2009                        2.2                                                                                  Sold at loss in auction
      County, Inc.
      Hometown Bancshares, Inc.                               2/13/2009                        1.9                                                                                  Sold at loss in auction
      Hyperion Bank                                             2/6/2009                       1.6                                                                                  Sold at loss in auction
      Regional Bankshares Inc.                                2/13/2009                        1.5                                                                                  Sold at loss in auction
      Desoto County Bank                                      2/13/2009                        1.2                                                                                            Sold at auction
      First Advantage Bancshares, Inc.                        5/22/2009                        1.2                                                                                  Sold at loss in auction
      Community Bancshares of MS                                2/6/2009                       1.1                                                                                  Sold at loss in auction
      BankGreenville Financial Corp.                          2/13/2009                        1.0                                                                                  Sold at loss in auction
      Bank Financial Services, Inc.                           8/14/2009                        1.0                                                                                  Sold at loss in auction
      Corning Savings and Loan
                                                              2/13/2009                        0.6                                                                                  Sold at loss in auction
      Association
      Farmers & Merchants Financial
                                                              3/20/2009                        0.4                                                                                  Sold at loss in auction
      Corporation
      Notes: Numbers may be affected due to rounding.
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original
         $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
      b
           The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
            Corporation of $55 million.
      c
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of
          $6.9 million plus unpaid dividends of $3.5 million.
      d
           The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      e
          The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formerly Crescent Financial Corporation) of $24.9 million and the original
           investment of ECB Bancorp, Inc. of $17.9 million.

      Source: Treasury, Transactions Report, 1/1/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014        195




Treasury’s Sale of TARP Preferred Stock Investments at Auction
Overview of CPP Preferred Stock Auctions
From March 2012 through December 31, 2013, Treasury has held 22 sets of
auctions in which it has sold all of its preferred stock investments in 162 CPP
banks and part of its investment in two additional banks.451 For publicly traded
banks, Treasury auctioned the shares through a placement agent and the shares
were available for purchase by the general public. For private banks, Treasury
auctioned the shares directly and the auctions were accessible only to qualified
purchasers. The preferred stock for all but 11 of the banks sold at a discounted
price and resulted in losses to Treasury.452 In the 22 auction sets, the range of
discount on the investments was 1% to 83%.453 When Treasury sells all of its
preferred shares of a CPP bank, it forfeits the right to collect missed dividends and
interest payments from the bank. Of the 162 banks in which Treasury sold its stock
through the auction process, 59 were overdue on payments to Treasury.454 The
$216.2 million owed to Treasury for missed payments by these 59 banks will never
be recovered.455 As of December 31, 2013, Treasury lost a total of $981.1 million
in the auctions, which includes $764.8 million lost on principal investments sold
at a discount and $216.2 million on forfeited missed dividends and interest owed
by these institutions.456 More than a quarter of the banks, 43, bought back some of
their shares at the discounted price.457 In two sets of auctions this quarter, Treasury        On October 9, 2012, SIGTARP made
sold all of its TARP preferred investment in 11 banks and part of its investment in            three recommendations regarding
                                                                                               CPP preferred stock auctions, which
two additional banks.458 The two auctions this quarter accrued losses to Treasury of
                                                                                               are discussed in detail in SIGTARP’s
$59.1million.459
                                                                                               October 2012 Quarterly Report, pages
    Table 2.38 shows details for the auctions of preferred stock in CPP banks
                                                                                               180-183.
through December 31, 2013.
196        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.38
       INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013
                                                                                                         Percentage
                                                                                                           of Shares
                                                                                             Discount   Repurchased              Missed
       Institution         Auction Date     Investment      Net Proceeds    Auction Loss   Percentage   by Institution        Dividends
      Stonebridge
                             3/15/2013    $10,973,000         $1,879,145     $9,093,855          83%                        $1,794,180
      Financial Corp.
       AB&T Financial
                           11/19/2013        3,500,000            815,100     2,148,900          73%                           481,250
       Corporationa
       Bridgeview
                           11/19/2013       38,000,000        10,450,000     27,550,000          73%                         7,766,250
       Bancorp, Inc.
       Spirit Bank Corp.
                           11/19/2013       30,000,000          9,000,000    21,000,000          70%                         4,905,000
       Inc.
       Centrue Financial
                           10/21/2013       32,668,000        10,079,336     21,186,665          68%                         6,959,475
       Corporationb
       Old Second
                              3/1/2013      73,000,000        25,547,320     47,452,680          65%                         9,125,000
       Bancorp, Inc.c
       First Banks, Inc.     8/12/2013    295,400,000        104,749,295    190,650,705          65%                        64,543,063
       Bank of George      10/21/2013        2,672,000            955,240     1,716,760          64%                           364,150
       Village Bank and
       Trust Financial     11/19/2013       14,738,000          5,672,361     9,065,639          62%                         2,026,475
       Corp
       Valley Community
                           10/21/2013        5,500,000          2,296,800     3,203,200          58%                           749,375
       Bank
       First Priority
                             1/29/2013       9,175,000          4,012,094     5,162,906          56%                 
       Financial Corp.
       First
       Intercontinental      8/12/2013       6,398,000          3,222,113     3,175,887          50%                           697,400
       Bank
       Citizens
                             1/29/2013      24,990,000        12,679,301     12,310,699          49%                         4,086,000
       Bancshares Co.
       First Financial
       Service               4/29/2013      20,000,000        10,733,778      9,266,222          46%                         2,500,000
       Corporation
       Dickinson
       Financial             1/29/2013    146,053,000         79,903,245     66,149,755          45%                        27,859,720
       Corporation II
       Midtown Bank &
                           11/19/2013        5,222,000          3,133,200     2,088,800          40%            100%         1,067,213
       Trust Company
       Virginia Company
                             8/12/2013       4,700,000          2,843,974     1,856,026          39%                           185,903
       Bank
       Delmar Bancorp        1/29/2013       9,000,000          5,453,900     3,546,100          39%                           613,125
       Franklin Bancorp,
                             11/9/2012       5,097,000          3,191,614     1,905,386          37%
       Inc.
       Hyperion Bank       12/20/2012        1,552,000            983,800       568,200          37%
                                                                                                                  Continued on next page
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014       197




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                 (CONTINUED)

                                                                                                Percentage
                                                                                                  of Shares
                                                                                  Discount     Repurchased              Missed
Institution          Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
The Baraboo
Bancorporation,      12/11/2012     $20,749,000    $13,399,227    $7,349,773           35%                           $565,390
Inc.
First Community
Financial              9/12/2012     22,000,000     14,211,450     7,788,550           35%
Partners, Inc.d
First Reliance
                        3/1/2013     15,349,000     10,327,021     5,021,979           33%                          1,254,720
Bancshares, Inc.
Security
Bancshares of
                     12/11/2012       2,152,000      1,475,592       676,408           31%
Pulaski County,
Inc.
First Alliance
                     12/20/2012       3,422,000      2,370,742     1,051,258           31%                             93,245
Bancshares, Inc.
First
Independence         12/20/2012       3,223,000      2,286,675       936,325           29%
Corporation
Parke Bancorp,
                     11/30/2012      16,288,000     11,595,735     4,692,265           29%
Inc.
Marquette
National               7/27/2012     35,500,000     25,313,186    10,186,814           29%              31%
Corporation
HMN Financial,
                       1/29/2013     26,000,000     18,571,410     7,428,590           29%                          2,600,000
Inc.
Community West
                     12/11/2012      15,600,000     11,181,456     4,418,544           28%                            585,000
Bancshares
Farmers Capital
                       6/13/2012     30,000,000     21,594,229     8,405,771           28%
Bank Corporation
Park
Bancorporation,        7/27/2012     23,200,000     16,772,382     6,427,618           28%              30%
Inc.
Diamond
                       7/27/2012     20,445,000     14,780,662     5,664,338           28%
Bancorp, Inc.
TriSummit Bank       11/30/2012       7,002,000      5,198,984     1,803,016           26%
Commonwealth
                       7/27/2012     20,400,000     15,147,000     5,253,000           26%              26%
Bancshares, Inc.
National
                        2/7/2013     24,664,000     18,318,148     6,345,852           26%                          3,024,383
Bancshares, Inc.
Alliance Financial
                       1/29/2013     12,000,000      8,912,495     3,087,505           26%                          3,020,400
Services, Inc.
Trinity Capital
                       7/27/2012     35,539,000     26,396,503     9,142,497           26%
Corporation
                                                                                                         Continued on next page
198      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                   (CONTINUED)

                                                                                                        Percentage
                                                                                                          of Shares
                                                                                           Discount    Repurchased              Missed
      Institution        Auction Date     Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      Blue Ridge
                          10/31/2012     $12,000,000         $8,969,400    $3,030,600          25%
      Bancshares, Inc.
      Peoples
      Bancshares of       10/31/2012       3,900,000          2,919,500       980,500          25%
      TN, Inc.
      First Trust
                            2/7/2013      17,969,000         13,612,558     4,356,442          24%                  
      Corporation
      Colony Bankcorp,
                           1/29/2013      28,000,000         21,680,089     6,319,911          23%                         $1,400,000
      Inc.
      F&M Financial
                           9/12/2012      17,243,000         13,443,074     3,799,926          22%
      Corporation (TN)
      Layton Park
      Financial Group,    11/30/2012       3,000,000          2,345,930       654,070          22%
      Inc.
      CoastalSouth
                            3/1/2013      16,015,000         12,606,191     3,408,809          21%                          1,687,900
      Bancshares, Inc.
      Alpine Banks of
                           9/12/2012      70,000,000         56,430,297    13,569,703          19%
      Colorado
      Seacoast
      Banking
                           3/28/2012      50,000,000         40,404,700     9,595,300          19%
      Corporation of
      Florida
      United Bancorp,
                           6/13/2012      20,600,000         16,750,221     3,849,779          19%
      Inc.
      CenterBank          10/31/2012       2,250,000          1,831,250       418,750          19%
      Ridgestone
      Financial             2/7/2013      10,900,000          8,876,677     2,023,323          19%                          2,079,175
      Services, Inc.
      Congaree
                          10/31/2012       3,285,000          2,685,979       599,021          18%              35%
      Bancshares Inc.
      DeSoto County
                           9/25/2013       2,681,000          2,196,896       484,104          18%              79%                   
      Bank
      KS Bancorp, Inc.    11/30/2012       4,000,000          3,283,000       717,000          18%
      Corning Savings
      and Loan            11/30/2012         638,000            523,680       114,320          18%
      Association
      Bank of
                          11/30/2012       3,000,000          2,477,000       523,000          17%                            122,625
      Commerce
      First Western
                           7/27/2012      20,440,000         17,022,298     3,417,702          17%
      Financial, Inc.e
      Presidio Bank       12/11/2012      10,800,000          9,058,369     1,741,631          16%
      Carolina Trust
                          11/30/2012       4,000,000          3,362,000       638,000          16%                            150,000
      Bank
                                                                                                                 Continued on next page
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014       199




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                 (CONTINUED)

                                                                                                Percentage
                                                                                                  of Shares
                                                                                  Discount     Repurchased              Missed
Institution          Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
Santa Clara
                        3/1/2013     $2,900,000     $2,440,379      $459,621           16%                           $474,150
Valley Bank, N.A.
Worthington
Financial              6/24/2013      2,720,000      2,318,851       401,149           15%                            222,360
Holdings, Inc.
Timberland
                       11/9/2012     16,641,000     14,209,334     2,431,666           15%
Bancorp, Inc.
First Financial
                       3/28/2012     65,000,000     55,926,478     9,073,522           14%
Holdings Inc.
Clover
Community            11/30/2012       3,000,000      2,593,700       406,300           14%
Bankshares, Inc.
Exchange Bank          7/27/2012     43,000,000     37,259,393     5,740,607           13%              47%
LNB Bancorp Inc.       6/13/2012     25,223,000     21,863,750     3,359,250           13%
First National
                       8/23/2012     13,900,000     12,082,749     1,817,251           13%
Corporation
Banner
                       3/28/2012    124,000,000    108,071,915    15,928,085           13%
Corporation
Pulaski Financial
                       6/27/2012     32,538,000     28,460,338     4,077,662           13%
Corp
Three Shores
Bancorporation,        11/9/2012      5,677,000      4,992,788       684,212           12%
Inc.
Taylor Capital
                       6/13/2012    104,823,000     92,254,460    12,568,540           12%
Group
Yadkin Valley
Financial              9/12/2012     49,312,000     43,486,820     5,825,180           12%
Corporationf
Alaska Pacific
                     11/30/2012       4,781,000      4,217,568       563,432           12%
Bancshares, Inc.
Fidelity Financial
                       7/27/2012     36,282,000     32,013,328     4,268,672           12%              58%
Corporation
Fidelity Southern
                       6/27/2012     48,200,000     42,757,786     5,442,214           11%
Corporation
FC Holdings, Inc.       2/7/2013     21,042,000     18,685,927     2,356,073           11%                          4,013,730
First Advantage
                     12/11/2012       1,177,000      1,046,621       130,379           11%
Bancshares, Inc.
Market Street
                       7/27/2012     20,300,000     18,069,213     2,230,787           11%              89%
Bancshares, Inc.
Southern First
                       6/27/2012     17,299,000     15,403,722     1,895,278           11%                6%
Bancshares, Inc.
                                                                                                         Continued on next page
200      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                   (CONTINUED)

                                                                                                        Percentage
                                                                                                          of Shares
                                                                                           Discount    Repurchased              Missed
      Institution         Auction Date    Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      BankGreenville
      Financial             11/9/2012     $1,000,000           $891,000      $109,000          11%
      Corporation
      First Southwest
      Bancorporation,       3/15/2013      5,500,000          4,900,609       599,391          11%                           $974,188
      Inc.
      Metro City Bank     10/31/2012       7,700,000          6,861,462       838,538          11%              15%
      Premier Financial
                            7/27/2012     22,252,000         19,849,222     2,402,778          11%              46%
      Bancorp, Inc.
      First Citizens
                            6/27/2012     23,184,000         20,689,633     2,494,367          11%
      Banc Corp
      FFW Corporation     11/30/2012       7,289,000          6,515,426       773,574          11%
      ColoEast
                            7/22/2013     10,000,000          8,947,125     1,052,875          11%                          1,090,000
      Bankshares, Inc.
      CBS Banc-Corp.        7/27/2012     24,300,000         21,776,396     2,523,604          10%              95%
      SouthCrest
      Financial Group,       3/1/2013     12,900,000         11,587,256     1,312,744          10%                          1,581,863
      Inc.
      Blackhawk
                          10/31/2012      10,000,000          9,009,000       991,000          10%
      Bancorp Inc.
      First Gothenburg
                          10/31/2012       7,570,000          6,822,136       747,864          10%
      Banschares, Inc.
      WSFS Financial
                            3/28/2012     52,625,000         47,435,299     5,189,701          10%
      Corporation
      Flagstar Bancorp,
                            3/15/2013    266,657,000       240,627,277     26,029,723          10%                         16,666,063
      Inc.
      Bank Financial
                          12/20/2012       1,004,000            907,937        96,063          10%
      Services, Inc.
      Germantown
      Capital             10/31/2012       4,967,000          4,495,616       471,384           9%              25%
      Corporation, Inc.
      Farmers &
      Merchants
                            6/24/2013        442,000            400,425        41,575           9%                                    
      Financial
      Corporation
      First Capital
                            6/13/2012     10,958,000          9,931,327     1,026,673           9%              50%
      Bancorp, Inc.
      RCB Financial
                            9/25/2013      8,900,000          8,073,279       826,721           9%                          1,055,520
      Corporation
      BNC Bancorp           8/23/2012     31,260,000         28,365,685     2,894,315           9%
      Bank of Southern
                          12/20/2012       4,243,000          3,850,150       392,850           9%              30%
      California, N.A.
                                                                                                                 Continued on next page
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014       201




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                (CONTINUED)

                                                                                               Percentage
                                                                                                 of Shares
                                                                                 Discount     Repurchased              Missed
Institution          Auction Date   Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
Country Bank
                     11/30/2012     $7,525,000     $6,838,126      $686,874            9%
Shares, Inc.
HomeTown
Bankshares           10/31/2012     10,000,000      9,093,150       906,850            9%
Corporation
Oak Ridge
Financial            10/31/2012      7,700,000      7,024,595       675,405            9%
Services, Inc.
First Freedom
                       11/9/2012     8,700,000      7,945,492       754,508            9%              69%
Bancshares, Inc.
Sound Banking
                       11/9/2012     3,070,000      2,804,089       265,911            9%
Company
Regional
                       11/9/2012     1,500,000      1,373,625       126,375            8%              47%
Bankshares, Inc.
Ameris Bancorp         6/13/2012    52,000,000     47,665,332     4,334,668            8%
Central
Community            12/11/2012     22,000,000     20,172,636     1,827,364            8%
Corporation
MainSource
Financial Group,       3/28/2012    57,000,000     52,277,171     4,722,829            8%              37%
Inc.
Waukesha
                       1/29/2013     5,625,000      5,161,674       463,326            8%                  
Bankshares, Inc.
Peoples Bancorp
of North Carolina,     6/27/2012    25,054,000     23,033,635     2,020,365            8%              50%
Inc.
CBB Bancorp          11/30/2012      4,397,000      4,066,752       330,248            8%              35%
Carolina Bank
                        2/7/2013    16,000,000     14,811,984     1,188,016            7%                  
Holdings, Inc.
Firstbank
                       6/27/2012    33,000,000     30,587,530     2,412,470            7%              48%
Corporation
Community
                     11/30/2012      3,976,000      3,692,560       283,440            7%
Business Bank
Capital Pacific
                       11/9/2012     4,000,000      3,715,906       284,094            7%
Bancorp
Wilshire Bancorp,
                       3/28/2012    62,158,000     57,766,994     4,391,006            7%              97%
Inc.
Western Illinois
                       11/9/2012    11,422,000     10,616,305       805,695            7%              89%
Bancshares, Inc.
Hometown
                     11/30/2012      1,900,000      1,766,510       133,490            7%              39%
Bancshares, Inc.
                                                                                                        Continued on next page
202      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                   (CONTINUED)

                                                                                                        Percentage
                                                                                                          of Shares
                                                                                           Discount    Repurchased              Missed
      Institution         Auction Date    Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      Community
      Bancshares of       11/30/2012      $1,050,000           $977,750       $72,250           7%              52%
      Mississippi, Inc.
      F&M
                            1/29/2013      8,144,000          7,598,963       545,037           7%                  
      Bancshares, Inc.
      Community
      Investors           12/20/2012       2,600,000          2,445,000       155,000           6%              54%
      Bancorp, Inc.
      F & M Financial
                            9/12/2012     17,000,000         15,988,500     1,011,500           6%              84%
      Corporation (NC)
      Universal
                            8/12/2013      9,900,000          9,312,028       587,972           6%                                    
      Bancorp
      Commonwealth
                            7/22/2013      7,701,000          7,250,414       450,586           6%             100%        $1,049,250
      Business Bank
      Mackinac
      Financial             8/23/2012     11,000,000         10,380,905       619,095           6%
      Corporation
      Coastal Banking
                             3/1/2013      9,950,000          9,408,213       541,787           5%                            746,250
      Company, Inc.
      First Defiance
                            6/13/2012     37,000,000         35,084,144     1,915,856           5%              45%
      Financial Corp.
      Alliance
                            3/15/2013      2,986,000          2,831,437       154,563           5%                  
      Bancshares, Inc.
      F&C Bancorp,
                            11/9/2012      2,993,000          2,840,903       152,097           5%
      Inc.
      AmFirst Financial
                            3/15/2013      5,000,000          4,752,000       248,000           5%                  
      Services, Inc.
      United
      Community             3/15/2013    180,000,000       171,517,500      8,482,500           5%                  
      Banks, Inc.
      Farmers
                            11/9/2012     12,000,000         11,439,252       560,748           5%              99%
      Enterprises, Inc.
      Guaranty Federal
                            4/29/2013     12,000,000         11,493,900       506,100           4%                                    
      Bancshares, Inc.g
      Intervest
      Bancshares            6/24/2013     25,000,000         24,007,500       992,500           4%              25%                   
      Corporation
      Biscayne
                            1/29/2013      6,400,000          6,170,630       229,370           4%              53%
      Bancshares, Inc.
      MetroCorp
                            6/27/2012     45,000,000         43,490,360     1,509,640           3%              97%
      Bancshares, Inc.
                                                                                                                 Continued on next page
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014       203




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                (CONTINUED)

                                                                                               Percentage
                                                                                                 of Shares
                                                                                 Discount     Repurchased              Missed
Institution         Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
The
Queensborough          3/1/2013    $12,000,000    $11,605,572      $394,428            3%                         $1,798,500
Company
First Community
                      8/23/2012     11,350,000     10,987,794       362,206            3%              33%
Corporation
Manhattan
                    12/11/2012       2,639,000      2,560,541        78,459            3%              96%
Bancshares, Inc.
NewBridge
                      4/29/2013     52,372,000     50,837,239     1,534,761            3%                                     
Bancorp
The Little Bank,
                    10/31/2012       7,500,000      7,285,410       214,590            3%              63%
Incorporated
Crosstown
                      7/22/2013     10,650,000     10,356,564       293,436            3%                                     
Holding Company
BancStar, Inc.        4/29/2013      8,600,000      8,366,452       233,548            3%               12%                   
Alarion Financial
                      7/22/2013      6,514,000      6,338,584       175,416            3%                            532,560
Services, Inc.
Century Financial
Services            12/20/2012      10,000,000      9,751,500       248,500            2%
Corporation
Blue Valley Ban
                    10/21/2013      21,750,000     21,263,017       486,983            2%                          4,893,750
Corp
Mountain Valley
                      7/22/2013      3,300,000      3,242,000        58,000            2%              91%                    
Bancshares, Inc.
Premier Financial
                      7/22/2013      6,349,000      6,270,436        78,564            1%              60%         1,597,857
Corp.
Community Pride
                      8/12/2013      4,400,000      4,351,151        48,849            1%                            803,286
Bank Corporation
Fidelity Federal
                      7/22/2013      6,657,000      6,586,509        70,491            1%                          1,229,924
Bancorp
Omega Capital
                      7/22/2013      2,816,000      2,791,000        25,000            1%                            575,588
Corp.
Plato Holdings
                      4/29/2013      2,500,000      2,478,750        21,250            1%                            207,266
Inc.
Severn Bancorp,
                      9/25/2013     23,393,000     23,367,268        25,732            0%                          1,754,475
Inc.
Oregon Bancorp,
                    10/21/2013       3,216,000      3,216,000             0            0%              78%                    
Inc.
Reliance
                      9/25/2013     40,000,000     40,196,000      (196,000)           0%                          5,995,000
Bancshares, Inc.
Tennessee
Valley Financial      4/29/2013      3,000,000      3,041,330       (41,330)          (1%)                           531,375
Holdings, Inc
                                                                                                        Continued on next page
204        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2013                                                                            (CONTINUED)

                                                                                                                                                                      Percentage
                                                                                                                                                                        of Shares
                                                                                                                                               Discount              Repurchased                          Missed
      Institution                  Auction Date               Investment               Net Proceeds                  Auction Loss            Percentage              by Institution                    Dividends
      Northwest
      Bancorporation,                    3/1/2013           $10,500,000                  $10,728,783                    ($228,783)                       (2%)                                        $1,716,750
      Inc.
      Madison Financial
                                     11/19/2013                 3,370,000                    3,446,196                      (76,196)                     (2%)                                             688,913
      Corporation
      Brogan
                                       4/29/2013                2,400,000                    2,495,024                      (95,024)                     (4%)                                             352,380
      Bankshares, Inc.
      Plumas Bancorp                   4/29/2013              11,949,000                   12,907,297                     (958,297)                      (8%)                       58%                1,792,350
      Boscobel
                                         3/1/2013               5,586,000                    6,116,943                    (530,943)                    (10%)                                           1,288,716
      Bancorp, Inc.
      Eastern Virginia
                                     10/21/2013               24,000,000                   26,498,640                  (2,498,640)                     (10%)                                           3,300,000
      Bankshares, Inc.
      Security State
      Bank Holding                     6/24/2013              10,750,000                   12,409,261                  (1,659,261)                     (15%)                                           2,254,985
      Company
      Pathway Bancorp                  6/24/2013                3,727,000                    4,324,446                    (597,446)                    (16%)                                              761,588
      Pacific City
      Financial                      11/19/2013               16,200,000                   19,685,754                  (3,485,754)                     (22%)                        53%                3,973,050
      Corporation
      Total Auction
                                                                                                                  $764,825,073
      Losses
      Total Missed
                                                                                                                                                                                               $216,228,103
      Dividends
      Notes: Numbers may not total due to rounding.
      a
         Treasury did not sell all of its shares in AB&T Financial Corporation in this auction. The bank remains in TARP and Treasury records its remaining investment as $536,000.
      b
             Treasury did not sell all of its shares in Centrue Financial Corporation in this auction. The bank remains in TARP and Treasury records its remaining investment as $1,402,000.
      c
          Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
      d
            Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
             9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
      e
           Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
      f
        This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
      g
              The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

      Sources: Treasury, Transactions Report, 1/1/2014; SNL Financial LLC data.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            205




CPP Banks Refinancing into CDCI and SBLF                                                      For a discussion of SIGTARP’s August
On October 21, 2009, the Administration announced the Community                               20, 2013, recommendation to Treasury
Development Capital Initiative (“CDCI”) as another TARP-funded program.460                    regarding the inclusion of SBLF funds
                                                                                              as TARP repayments, see SIGTARP’s
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
                                                                                              October 2013 Quarterly Report, pages
credit unions.461 Qualifying CPP banks applied for the new TARP program, and 28
                                                                                              281-282.
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
into CDCI.462 For more information on CDCI, see “Community Development                        For information on TARP banks that
Capital Initiative” in this section.                                                          refinanced into SBLF, see SIGTARP’s
     On September 27, 2010, the President signed into law the Small Business Jobs             April 9, 2013, audit report, “Banks that
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury                Used the Small Business Lending Fund
to make up to $30 billion in capital investments in institutions with less than $10           to Exit TARP.”
billion in total assets.463 According to Treasury, it received a total of 935 SBLF
                                                                                              For a detailed list of CPP banks that
applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).464
                                                                                              refinanced into SBLF, see SIGTARP’s
Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.
                                                                                              October 2012 Quarterly Report, pages
The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock              88-92.
with the SBLF investments.465 None of the CDCI recipients were approved for
participation.                                                                                For a discussion of the impact of TARP
                                                                                              and SBLF on community banks, see
Warrant Disposition                                                                           SIGTARP’s April 2012 Quarterly
As required by EESA, Treasury received warrants when it invested in troubled                  Report, pages 145-167.
assets from financial institutions, with an exception for certain small institutions.
                                                                                              For more information on warrant
With respect to financial institutions with publicly traded securities, these warrants
                                                                                              disposition, see SIGTARP’s audit report
gave Treasury the right, but not the obligation, to purchase a certain number of              of May 10, 2010, “Assessing Treasury’s
shares of common stock at a predetermined price.466 Because the warrants rise in              Process to Sell Warrants Received from
value as a company’s share price rises, they permit Treasury (and the taxpayer) to            TARP Recipients.”
benefit from a firm’s potential recovery.467
    For publicly traded institutions, the warrants received by Treasury under CPP
allowed Treasury to purchase additional shares of common stock in a number
                                                                                              Exercise Price: Preset price at which
equal to 15% of the value of the original CPP investment at a specified exercise
                                                                                              a warrant holder may purchase each
price.468 Treasury’s warrants constitute assets with a fair market value that
                                                                                              share. For warrants in publicly traded
Treasury estimates using relevant market quotes, financial models, and/or third-
                                                                                              institutions issued through CPP, this
party valuations.469 As of December 31, 2013, Treasury had not exercised any
                                                                                              was based on the average stock price
of these warrants.470 For privately held institutions, Treasury received warrants
                                                                                              during the 20 days before the date
to purchase additional preferred stock or debt in an amount equal to 5% of the
                                                                                              that Treasury granted preliminary CPP
CPP investment. Treasury exercised these warrants immediately.471 Unsold and
                                                                                              participation approval.
unexercised warrants expire 10 years from the date of the CPP investment.472 As of
December 31, 2013, Treasury had received $7.9 billion through the sale of CPP
warrants obtained by TARP recipients.473

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
to buy back its warrants. As of December 31, 2013, 163 publicly traded institutions
had bought back $3.8 billion worth of warrants, of which $18.1 million was
purchased this quarter. As of that same date, 265 privately held institutions, the
warrants of which had been immediately exercised, bought back the resulting
206   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             additional preferred shares for a total of $160 million, of which $6.4 million was
                                             bought back this quarter.474 Table 2.39 lists publicly traded institutions that repaid
                                             TARP and repurchased warrants in the quarter ended December 31, 2013. Table
                                             2.40 lists privately held institutions that had done so in the same quarter.475

                                             TABLE 2.39
                                              CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
                                              ENDING 12/31/2013
                                                                                                                                      Number of                  Amount of
                                                                                                                                       Warrants                Repurchase
                                              Repurchase Date             Company                                                   Repurchased              ($ Thousands)
                                              11/15/2013                  Monarch Community Bancorp, Inc.                                1,846,374           $13,107,778.3
                                              10/1/2013                   Commerce National Bank                                            302,623             2,920,000.0
                                              10/1/2013                   Central Virginia Bankshares, Inc.                                 344,742             1,547,891.6
                                              12/18/2013                  Stellarone Corporation                                              87,209               566,858.5
                                              11/13/2013                  Valley Financial Corporation                                      263,542                            0.0
                                              12/9/2013                   Cathay General Bancorp                                              52,192                           0.0
                                              12/31/2013                  1st Financial Services Corporation                                276,815                            0.0
                                              Total                                                                                     3,173,497          $18,142,528.4
                                              Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
                                              traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
                                              individual financial institution.

                                              Sources: Treasury, Transactions Report, 1/1/2014; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011,
                                              7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, 7/11/2013, 10/10/2013,
                                              and 1/8/2014.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   207




TABLE 2.40
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 12/31/2013
                                                                                             Number of                 Amount of
                                                                                              Warrants               Repurchase
 Repurchase Date              Company                                                      Repurchased             ($ Thousands)
                              Bridgeview Bancorp, Inc./ Bridgeview
 11/19/2013                                                                                     1,900,000                   $1,900.0
                              Bank Group
10/21/2013                    Spirit BankCorp. Inc./Spirit Bank                                 1,500,000                    1,500.0
                              Pacific City Financial Corporation/ Pacific
11/19/2013                                                                                        810,000                       810.0
                              City Bank
10/16/2013                    Uwharrie Capital Corp/Bank of Stanly                                500,000                       500.0
12/31/2013                    Farmers Bank                                                        438,000                       438.0
10/21/2013                    Valley Community Bank                                               275,000                       275.0
11/19/2013                    Midtown Bank & Trust Company                                        261,000                       261.0
11/20/2013                    CedarStone Bank                                                     178,000                       178.0
11/19/2013                    Madison Financial Corporation                                       169,000                       169.0
                              Oregon Bancorp, Inc./Willamette Valley
10/21/2013                                                                                        161,000                       161.0
                              Bank
10/21/2013                    Bank of George                                                      134,000                       134.0
10/2/2013                     Union Financial Corporation                                           65,000                        65.0
10/16/2013                    Independence Bank                                                     53,000                        53.0
Total                                                                                         6,444,000                    $6,444.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury response to SIGTARP data call, 1/8/2014.



Treasury Warrant Auctions
If Treasury and the repaying institution cannot agree upon the price for the
institution to repurchase its warrants, Treasury may conduct a public or private
offering to auction the warrants.476 As of December 31, 2013, the combined
proceeds from Treasury’s public and private warrant auctions totaled $5.5 billion.477

Public Warrant Auctions
In November 2009, Treasury began selling warrants via public auctions.478
Through December 31, 2013, Treasury had held 26 public auctions for warrants it
received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.479
Treasury did not conduct any public warrant auctions this quarter.480 Final closing
information for all public warrant auctions is shown in Table 2.41.
208               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      TABLE 2.41
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 12/31/2013
                                                                                                              Number of            Minimum               Selling      Proceeds to Treasury
       Auction Date                   Company                                                            Warrants Offered          Bid Price              Price                ($ Millions)
                                      Bank of America A Auction (TIP)a                                          150,375,940             $7.00              $8.35                        $1,255.6
       3/3/2010
                                      Bank of America B Auction (CPP)a                                          121,792,790               1.50               2.55                           310.6
       12/10/2009                     JPMorgan Chase                                                             88,401,697               8.00             10.75                            950.3
       5/20/2010                      Wells Fargo and Company                                                   110,261,688               6.50               7.70                           849.0
       9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973             10.50              13.70                            713.7
       4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192             15.00              19.20                            324.2
                                      Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142               0.60               1.01                           257.6
       1/25/2011
                                      Citigroup B Auction (CPP)a                                                210,084,034               0.15               0.26                             54.6
       9/16/2010                      Lincoln National Corporation                                               13,049,451             13.50              16.60                            216.6
       5/6/2010                       Comerica Inc.                                                              11,479,592             15.00              16.00                            183.7
       12/3/2009                      Capital One                                                                12,657,960               7.50             11.75                            148.7
       11/29/2012                     M&T Bank Corporation                                                         1,218,522            23.50                1.35                             32.3
       2/8/2011                       Wintrust Financial Corporation                                               1,643,295            13.50              15.80                              26.0
       6/2/2011                       Webster Financial Corporation                                                3,282,276              5.50               6.30                             20.4
                                      SunTrust A Auctionb                                                          6,008,902              2.00               2.70                             16.2
       9/22/2011
                                      SunTrust B Auctionb                                                        11,891,280               1.05               1.20                             14.2
       3/9/2010                       Washington Federal, Inc.                                                     1,707,456              5.00               5.00                             15.6
       3/10/2010                      Signature Bank                                                                  595,829           16.00              19.00                              11.3
       12/15/2009                     TCF Financial                                                                3,199,988              1.50               3.00                              9.6
       12/5/2012                      Zions Bancorporation                                                         5,789,909            23.50              26.50                               7.8
       3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086             6.50               6.50                              6.7
       2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500              1.40               2.20                              6.4
       5/18/2010                      Valley National Bancorp                                                      2,532,542              1.70               2.20                              5.6
       11/30/2011                     Associated Banc-Corpc                                                        3,983,308              0.50               0.90                              3.6
       6/2/2010                       First Financial Bancorp                                                         465,117             4.00               6.70                              3.1
       6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557              0.85               1.15                              3.0
       Total                                                                                               1,090,695,026                                                               $5,446.4
       Notes: Numbers may not total due to rounding.
       a
         Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
       b
         Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
       c
         According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

       Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
       1/6/2014; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 1/6/2014; Comerica
       Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 1/6/2014; Wells Fargo and Company, “Definitive
       Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 1/6/2014; First Financial Bancorp, “Prospectus Supplement,”
       6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 1/6/2014; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
       www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 1/6/2014; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
       SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 1/6/2014; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
       3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 1/6/2014; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
       data/70858/000119312510051260/d8k.htm, accessed 1/6/2014; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
       d424b2.htm, accessed 1/6/2014; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
       1/6/2014; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 1/6/2014; JPMorgan Chase,
       “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 1/6/2014; Capital One Financial, “Prospectus Supplement,”
       12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 1/6/2014; Treasury, Transactions Report, 9/30/2013; Hartford Financial Services Group,
       Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 1/6/2014; Treasury,
       “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
       aspx, accessed 1/6/2014; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
       d424b5.htm, accessed 1/6/2014; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 1/6/2014; Treasury, Section
       105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
       Pages/tg1033.aspx, accessed 1/6/2014; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/6/2014;
       Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/6/2014; Boston Private Financial Holdings, Inc.,
       Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 1/6/2014; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
       gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 1/6/2014; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
       data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 1/6/2014; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
       Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 1/6/2014; Treasury, Citigroup Preliminary Prospectus – CPP
       Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 1/6/2014; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
       1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/6/2014; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
       10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of SunTrust Banks, Inc.,” 9/21/2011,
       www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 1/6/2014; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-
       Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 1/6/2014; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common
       Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 1/6/2014; Treasury, “Treasury Department Announces Public Offering of
       Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 1/6/2014.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           209




Private Warrant Auctions
On November 17, 2011, Treasury conducted a private auction to sell the warrants               Qualified Institutional Buyers (“QIB”):
of 17 CPP institutions for $12.7 million.481 On June 6, 2013, it conducted a second           Institutions that under U.S. securities
private auction to sell the warrants of 16 banks for $13.9 million.482 Details from           law are permitted to buy securities
both auctions are listed in Table 2.42. Treasury stated that private auctions were            that are exempt from registration
necessary because the warrants did not meet the listing requirements for the major            under investor protection laws and
exchanges, it would be more cost-effective for these smaller institutions, and that           to resell those securities to other
grouping the warrants of several institutions in a single auction would raise investor        QIBs. Generally these institutions own
interest in the warrants.483 The warrants were not registered under the Securities            and invest at least $100 million in
Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered          securities, or are registered broker-
only in private transactions to “(1) ‘qualified institutional buyers’ as defined in           dealers that own or invest at least $10
Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited              million in securities.
investors’ affiliated with the issuer.”484
                                                                                              Accredited Investors: Individuals or
                                                                                              institutions that by law are considered
                                                                                              financially sophisticated enough so
                                                                                              that they can invest in ventures that
                                                                                              are exempt from investor protection
                                                                                              laws. Under U.S. securities laws, these
                                                                                              include many financial companies,
                                                                                              pension plans, wealthy individuals,
                                                                                              and top executives or directors of the
                                                                                              issuing companies.
210   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.42
                                              PRIVATE TREASURY WARRANT AUCTIONS AS OF 12/31/2013
                                                                                                                                Number of                   Proceeds to
                                              Date                       Company                                           Warrants Offered                    Treasury
                                              11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
                                              11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
                                              11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
                                              11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
                                              11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
                                              11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
                                              11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
                                              11/17/2011                 Encore Bancshares                                              364,026                   637,071
                                              11/17/2011                 LCNB Corporation                                               217,063                   602,557
                                              11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
                                              11/17/2011                 First Merchants Corporation                                    991,453                   367,500
                                              11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
                                              11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
                                              11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
                                              11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
                                              11/17/2011                 First Busey Corporation                                        573,833                     63,677
                                              11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
                                              6/6/2013                   Banner Corporation                                             243,998                   134,201
                                              6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
                                              6/6/2013                   Central Pacific Financial Corp.                                  79,288                  751,888
                                              6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
                                              6/6/2013                   Community West Bancshares                                      521,158                   698,351
                                              6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
                                              6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                                                                         International Bancshares
                                              6/6/2013                                                                               1,326,238                 4,018,511
                                                                         Corporation
                                              6/6/2013                   Mainsource Financial Group, Inc.                               571,906                1,512,177
                                              6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
                                              6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
                                              6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
                                              6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
                                              6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
                                              6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
                                              6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
                                              6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
                                              Total                                                                               14,534,529              $26,566,831
                                              Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
                                              center/press-releases/Pages/tg1365.aspx, accessed 1/6/2014; “Treasury Completes Auction to Sell Warrants Positions,”
                                              6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 1/6/2014.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              211




Community Development Capital Initiative
The Administration announced the Community Development Capital Initiative
(“CDCI”) on October 21, 2009. According to Treasury, the program was intended
                                                                                              Community Development Financial
to help small businesses obtain credit.485 Under CDCI, TARP made $570.1
                                                                                              Institutions (“CDFIs”): Financial
million in investments in the preferred stock or subordinated debt of 84 eligible
                                                                                              institutions eligible for Treasury funding
banks, bank holding companies, thrifts, and credit unions certified as Community
                                                                                              to serve urban and rural low-income
Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
                                                                                              communities through the CDFI Fund.
these lower-cost capital investments were intended to strengthen the capital base
                                                                                              CDFIs were created in 1994 by the
of CDFIs and enable them to make more loans in low and moderate-income
                                                                                              Riegle Community Development and
communities.486 CDCI was open to certified, qualifying CDFIs or financial
                                                                                              Regulatory Improvement Act.
institutions that applied for CDFI status by April 30, 2010.487
    According to Treasury, CPP-participating CDFIs that were in good standing
could exchange their CPP investments for CDCI investments.488 CDCI closed to
new investments on September 30, 2010.489
    Treasury invested $570.1 million in 84 institutions under the program — 36
banks or bank holding companies and 48 credit unions.490 Of the 36 investments in
banks and bank holding companies, 28 were conversions from CPP (representing
$363.3 million of the total $570.1 million); the remaining eight were not CPP
participants. Treasury provided an additional $100.7 million in CDCI funds to 10
of the banks converting CPP investments. Only $106 million of the total CDCI
funds went to institutions that were not in CPP.

Status of Funds
As of December 31, 2013, 69 institutions remained in CDCI. Fourteen
institutions, including two this quarter, have fully repaid Treasury and have exited
CDCI. One institution has partially repaid and remains in the program. Premier
Bancorp, Inc., Wilmette, Illinois, previously had its subsidiary bank fail and thus
almost all of Treasury’s $6.8 million investment was lost.491
    As of December 31, 2013, taxpayers were still owed $475.2 million related
to CDCI.492 According to Treasury, it had realized losses of $6.7 million in the
program that will never be recovered, leaving $468.5 million outstanding.493
According to Treasury, $94.9 million of the CDCI principal (or 17%) had been
repaid as of December 31, 2013.494 As of December 31, 2013, Treasury had
received approximately $35.9 million in dividends and interest from CDCI
recipients.495 Table 2.43 lists the current status of all CDCI investments as of
December 31, 2013.
212   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                    TABLE 2.43
                                     CDCI INVESTMENT SUMMARY, AS OF 12/31/2013
                                                                                   Amount      Additional         Total CDCI
                                     Institution                                 from CPP     Investment         Investment
                                     Institutions Remaining in CDCI
                                     BancPlus Corporation                      $50,400,000   $30,514,000        $80,914,000
                                     Community Bancshares of Mississippi,
                                                                                54,600,000                       54,600,000
                                     Inc.
                                     Southern Bancorp, Inc.                     11,000,000    22,800,000         33,800,000
                                     Security Federal Corporation               18,000,000     4,000,000         22,000,000
                                     Carver Bancorp, Inc                        18,980,000                       18,980,000
                                     Security Capital Corporation               17,910,000                       17,910,000
                                     The First Bancshares, Inc.                  5,000,000    12,123,000         17,123,000
                                     First American International Corp.         17,000,000                       17,000,000
                                     State Capital Corporation                  15,750,000                       15,750,000
                                     Guaranty Capital Corporation               14,000,000                       14,000,000
                                     Citizens Bancshares Corporation             7,462,000     4,379,000         11,841,000
                                     M&F Bancorp, Inc.                          11,735,000                       11,735,000
                                     Liberty Financial Services, Inc.            5,645,000     5,689,000         11,334,000
                                     Mission Valley Bancorp                      5,500,000     4,836,000         10,336,000
                                     United Bancorporation of Alabama, Inc.     10,300,000                       10,300,000
                                     IBC Bancorp, Inc.                           4,205,000     3,881,000          8,086,000
                                     Fairfax County Federal Credit Union                                          8,044,000
                                     The Magnolia State Corporation                                               7,922,000
                                     First Eagle Bancshares, Inc.                7,875,000                        7,875,000
                                     Carter Federal Credit Union*                                                 6,300,000
                                     First Vernon Bancshares, Inc.               6,245,000                        6,245,000
                                     IBW Financial Corporation                   6,000,000                        6,000,000
                                     CFBanc Corporation                                                           5,781,000
                                     American Bancorp of Illinois, Inc.                                           5,457,000
                                     Lafayette Bancorp, Inc.                     4,551,000                        4,551,000
                                     Hope Federal Credit Union                                                    4,520,000
                                     Community Bank of the Bay                   1,747,000     2,313,000          4,060,000
                                     Bainbridge Bancshares, Inc.                                                  3,372,000
                                     Border Federal Credit Union                                                  3,260,000
                                     Kilmichael Bancorp, Inc.                                                     3,154,000
                                     PGB Holdings, Inc.                          3,000,000                        3,000,000
                                     Santa Cruz Community Credit Union                                            2,828,000
                                     Cooperative Center Federal Credit Union                                      2,799,000
                                     Tri-State Bank of Memphis                   2,795,000                        2,795,000
                                                                                                       Continued on next page
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   213




CDCI INVESTMENT SUMMARY, AS OF 12/31/2013             (CONTINUED)

                                              Amount            Additional         Total CDCI
Institution                                 from CPP           Investment         Investment
Institutions Remaining in CDCI
Community First Guam Federal Credit
Union                                                                             $2,650,000
Shreveport Federal Credit Union                                                    2,646,000
Pyramid Federal Credit Union                                                       2,500,000
Alternatives Federal Credit Union                                                  2,234,000
Virginia Community Capital, Inc.                                                   1,915,000
Southern Chautauqua Federal Credit Union                                           1,709,000
Tongass Federal Credit Union                                                       1,600,000
D.C. Federal Credit Union                                                          1,522,000
Vigo County Federal Credit Union                                                   1,229,000
Opportunities Credit Union                                                         1,091,000
Butte Federal Credit Union                                                         1,000,000
First Legacy Community Credit Union                                                1,000,000
Lower East Side People's Federal Credit
Union                                                                                898,000
Independent Employers Group Federal
Credit Union                                                                         698,000
Bethex Federal Credit Union                                                          502,000
Community Plus Federal Credit Union                                                  450,000
Liberty County Teachers Federal Credit
                                                                                     435,000
Union
Tulane-Loyola Federal Credit Union                                                   424,000
Northeast Community Federal Credit
                                                                                     350,000
Union
North Side Community Federal Credit
                                                                                     325,000
Union
Genesee Co-op Federal Credit Union                                                   300,000
Brooklyn Cooperative Federal Credit Union                                            300,000
Union Settlement Federal Credit Union                                                295,000
Neighborhood Trust Federal Credit Union                                              283,000
Prince Kuhio Federal Credit Union                                                    273,000
Phenix Pride Federal Credit Union                                                    153,000
Buffalo Cooperative Federal Credit Union                                             145,000
Hill District Federal Credit Union                                                   100,000
Episcopal Community Federal Credit
Union                                                                                100,000
Thurston Union of Low-Income People
(TULIP) Cooperative Credit Union                                                      75,000
                                                                        Continued on next page
214   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                     CDCI INVESTMENT SUMMARY, AS OF 12/31/2013                                          (CONTINUED)

                                                                                                               Amount             Additional       Total CDCI
                                     Institution                                                             from CPP            Investment       Investment
                                     Institutions Remaining in CDCI
                                     Renaissance Community Development
                                                                                                                                                    $31,000
                                     Credit Union
                                     Faith Based Federal Credit Union                                                                                 30,000
                                     Fidelis Federal Credit Union                                                                                     14,000
                                     Union Baptist Church Federal Credit Union                                                                        10,000
                                     East End Baptist Tabernacle Federal
                                                                                                                                                       7,000
                                     Credit Union
                                     Union Baptist Church Federal Credit Union                                                                        10,000
                                     East End Baptist Tabernacle Federal
                                                                                                                                                       7,000
                                     Credit Union
                                     Total                                                           $299,700,000              $90,535,000     $470,966,000
                                     Institutions Fully Repaid                                                                                              
                                     First M&F Corporation                                                $30,000,000                           $30,000,000
                                     University Financial Corp, Inc.                                       11,926,000           $10,189,000      22,115,000
                                     PSB Financial Corporation                                              9,734,000                             9,734,000
                                     Freedom First Federal Credit Union                                                                           9,278,000
                                     BankAsiana                                                                                                   5,250,000
                                     First Choice Bank                                                      5,146,000                             5,146,000
                                     Bancorp of Okolona, Inc.                                                                                     3,297,000
                                     Atlantic City Federal Credit Union                                                                           2,500,000
                                     Gateway Community Federal Credit Union                                                                       1,657,000
                                     Southside Credit Union                                                                                       1,100,000
                                     Brewery Credit Union                                                                                         1,096,000
                                     UNO Federal Credit Union                                                                                       743,000
                                     Greater Kinston Credit Union                                                                                   350,000
                                     UNITEHERE Federal Credit Union (Workers
                                                                                                                                                      57,000
                                     United Federal Credit Union)
                                     Total                                                                $56,806,000          $10,189,000      $92,323,000
                                     Bankrupt or with Failed Subsidiary Banks                                                                               
                                     Premier Bancorp, Inc.                                                 $6,784,000                            $6,784,000
                                     Total                                                                 $6,784,000                            $6,784,000
                                     Overall Total                                                   $363,290,000            $100,724,000      $570,073,000
                                     Notes: Numbers may not total due to rounding.

                                     * Institution has made a partial payment on Treasury’s investment.

                                     Source: Treasury, Transactions Report, 1/1/2014.
                                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           215




Missed Dividends
As of December 31, 2013, two institutions still in CDCI had unpaid dividend                                       On September 30, 2013, SIGTARP
or interest payments to Treasury totaling $185,300.496 As a result of a bankrupt                                  made a recommendation regarding the
institution that exited CDCI without remitting its interest payments, the total                                   appointment of directors of the boards
value of all missed payments equals $501,924. Treasury has the right to appoint                                   of CDCI banks, which is discussed in
two directors to the board of directors of institutions that have missed eight                                    Section 5 of this report.
dividends and interest payments, whether consecutive or nonconsecutive.497 As
of December 31, 2013, Treasury had not appointed directors to the board of any
CDCI institution.498 Treasury has sent an observer to the board meetings of one
institution, First Vernon Bancshares, Inc., Vernon, Alabama.499 Treasury made a
request to send an observer to the board meetings of First American International
Corp., Brooklyn, New York, in February 2013, but the institution, which remains
in TARP as of December 31, 2013, rejected Treasury’s request.500 Table 2.44 lists
CDCI institutions that are not current on dividend or interest payments.

TABLE 2.44
 CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF
 12/31/2013
                                             Dividend or                Number of Missed   Value of Missed
 Institution                                 Payment Type                      Payments          Payments
 PGB Holdings, Inc.                          Cumulative                              11          $165,000
 Premier Bancorp, Inc.*                      Interest                                 6           316,624
 Community Bank of the Bay                   Non-Cumulative                           1            20,300
 Total                                                                                          $501,924
                                                                                                                  Risk-Weighted Assets: Risk-based
 Notes: Numbers may not total due to rounding.
                                                                                                                  measure of total assets held by
 * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.
                                                                                                                  a financial institution. Assets are
 Source: Treasury, Dividends and Interest Report, 1/10/2014.
                                                                                                                  assigned broad risk categories. The
                                                                                                                  amount in each risk category is then
Terms for Senior Securities and Dividends                                                                         multiplied by a risk factor associated
An eligible bank, bank holding company, or thrift could apply to receive capital in                               with that category. The sum of the
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-                                resulting weighted values from each of
owned, nonprofit financial institution with a capital and governance structure                                    the risk categories is the bank’s total
different from that of for-profit banks) could apply for Government funding of                                    risk-weighted assets.
up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
assets for banks.501 Participating credit unions and Subchapter S corporations                                    Subchapter S Corporations (“S
(“S corporations”) issued subordinated debt to Treasury in lieu of the preferred                                  corporations”): Corporate form that
stock issued by other CDFI participants.502 Many CDFI investments have an                                         passes corporate income, losses,
initial dividend rate of 2%, which increases to 9% after eight years. Participating                               deductions, and credit through to
S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight                                  shareholders for Federal tax purposes.
years.503 A CDFI participating in CPP had the opportunity to request to convert                                   Shareholders of S corporations report
those shares into CDCI shares, thereby reducing the annual dividend rate it pays                                  the flow-through of income and losses
the Government from 5% to as low as 2%.504 According to Treasury, CDFIs were                                      on their personal tax returns and are
not required to issue warrants because of the de minimis exception in EESA, which                                 taxed at their individual income tax
grants Treasury the authority to waive the warrant requirement for qualifying                                     rates.
institutions in which Treasury invested $100 million or less.
216   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                If during the application process a CDFI’s primary regulator deemed it to
                                             be undercapitalized or to have “quality of capital issues,” the CDFI had the
                                             opportunity to raise private capital to achieve adequate capital levels. Treasury
                                             would match the private capital raised on a dollar-for-dollar basis, up to a total of
                                             5% of the financial institution’s risk-weighted assets. In such cases, private investors
                                             had to agree to assume any losses before Treasury.505
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             217




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systemically significant institution.”506 Through
SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
participant.507 AIG also received bailout funding from the Federal Reserve Bank of
New York (“FRBNY”). Combined, Treasury and FRBNY committed $182 billion to
bail out AIG, of which $161 billion was disbursed.508
    AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
investment in AIG ended on March 1, 2013, with the sale of its AIG stock
warrants.509
    In July 2013, the Financial Stability Oversight Council (“FSOC”) designated
AIG as a systemically important nonbank financial company under Dodd-Frank,
thereby subjecting AIG to enhanced prudential standards and to consolidated
supervision by the Board of Governors of the Federal Reserve System (“Federal
Reserve”).510 According to FSOC, “Because of AIG’s size and interconnectedness,
certain characteristics of its liabilities and products, the potential effects of a rapid
liquidation of its assets, potential challenges with resolvability, as well as other
factors … material financial distress at AIG could cause an impairment of financial
intermediation or of financial market functioning that would be sufficiently severe
to inflict significant damage on the broader economy.”511 Under Dodd-Frank,                     For more on SIGTARP’s September
enhanced prudential standards will require AIG to, among other things: (i) meet                 2012 recommendation to Treasury and
enhanced liquidity and capital standards; (ii) undergo and report periodic stress               the Federal Reserve regarding AIG’s
                                                                                                designation as a systemically important
tests; (iii) adopt enhanced risk-management processes; and (iv) submit a “living
                                                                                                financial institution, see SIGTARP’s July
will” resolution plan to be used in the event AIG faces material financial distress or
                                                                                                2013 Quarterly Report, pages 201-203.
fails.512
    Prior to the TARP bailout, AIG received bailout funding from FRBNY, which
eventually committed $35 billion in loans in a revolving credit facility; another
$52.5 billion in loans to create two special purpose vehicles (“SPV”), Maiden                   Special Purpose Vehicle (“SPV”):
Lane II and Maiden Lane III, to take mortgage-backed securities and credit                      A legal entity, often off-balance-
default swaps off AIG’s books; and a $25 billion investment for which FRBNY                     sheet, that holds transferred assets
acquired preferred interests in two other SPVs that housed certain AIG insurance                presumptively beyond the reach of the
businesses.513 In January 2011, FRBNY and Treasury restructured their agreements                entities providing the assets, and that
with AIG to use additional TARP funds and AIG funds to pay off amounts owed                     is legally isolated from its sponsor or
to FRBNY and transfer FRBNY’s common stock and its interests in the insurance-                  parent company.
related SPVs to Treasury.
    According to Treasury, in addition to recovering the full AIG bailout amount,
taxpayers have received $22.7 billion in dividends, interest, gains, and other
                                                                                                For more information on AIG and how
income.514 This included payment to FRBNY of the full amount owed on the                        the company changed while under
revolving credit facility loan, plus interest and fees of $6.8 billion; full repayment          TARP, see SIGTARP’s July 2012
of the loans to Maiden Lane II and Maiden Lane III, plus $8.2 billion in gains                  Quarterly Report, pages 151-167.
from securities cash flows and sales and $1.3 billion in interest; and full payment
of the insurance-business SPVs, plus interest and fees of $1.4 billion.515 Treasury’s
books and records reflect only the shares of AIG that Treasury received in TARP,
218            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      reflecting that taxpayers have recouped $54.4 billion of the $67.8 billion in TARP
                                                      funds spent and realized losses on the sale of TARP shares from an accounting
                                                      standpoint of $13.5 billion.516 However, in the January 2011 restructuring of
                                                      FRBNY and Treasury investments, TARP funds were used to pay off AIG’s amounts
                                                      owed to FRBNY and in return Treasury received FRBNY’s stock in AIG. According
                                                      to Treasury, when those shares are combined with TARP shares in AIG, Treasury
                                                      has made a $4.1 billion gain on the sale of the common shares and AIG has paid
                                                      $956 million in dividends, interest, and other income on Treasury’s preferred
                                                      shares.517
                                                          The Government’s rescue of AIG involved several different funding facilities
                                                      provided by FRBNY and Treasury, with various changes to the transactions over
                                                      time. The rescue of AIG was initially led by FRBNY and the Federal Reserve.
                                                      With the passage of EESA on October 3, 2008, Treasury, through SSFI, took on a
                                                      greater role in AIG’s bailout as the Government expanded and later restructured its
                                                      aid.
                                                          The amount and types of Treasury’s outstanding AIG investments changed
                                                      over time as a result of the execution of AIG’s January 2011 Recapitalization Plan,
                                                      preferred equity interest repayments, and Treasury’s sale of common stock, which
      Revolving Credit Facility: Line of              are described below.
      credit for which borrowers pay a
      commitment fee, allowing them to                FRBNY Revolving Credit Facility
      repeatedly draw down funds up to a              In September 2008, FRBNY extended an initial $85 billion revolving credit
      guaranteed maximum amount. The                  facility to AIG, which was secured by AIG’s assets, in an effort to stabilize the
      amount of available credit decreases            company. In return, AIG committed 79.8% of its voting equity to a trust for the
      and increases as funds are borrowed             sole benefit of the United States Treasury (the “AIG Trust”).518 While the $85
      and then repaid.                                billion revolving credit facility addressed the company’s severe liquidity shortage
                                                      resulting from collateral calls related to the company’s credit default swap (“CDS”)
      Credit Default Swap (“CDS”): A contract         business and securities lending activities, because the entire facility was drawn
      where the seller receives payments              upon, AIG’s leverage ratios increased significantly. The rapid deterioration in AIG’s
      from the buyer in return for agreeing to        CDS and securities lending businesses, combined with this increased leverage,
      pay the buyer when a particular credit          resulted in downward pressure on its credit rating.519 Federal officials feared that
      event occurs, such as when the credit           future downgrades in AIG’s credit rating could have “catastrophic” effects on the
      rating on a bond is downgraded or a             company, forcing it into bankruptcy.520 FRBNY and Treasury determined that
      loan goes into default. The buyer does          this possibility posed a threat to the nation’s financial system and decided that
      not need to own the asset covered by            additional transactions were necessary to modify the revolving credit facility.521
      the contract, meaning the swap can
      serve essentially as a bet against the          Restructurings of AIG Assistance
      underlying bond or loan.                        In November 2008 and March 2009, FRBNY and Treasury took several actions to
                                                      stabilize AIG’s operations.522
      Cumulative Preferred Stock: Stock
      requiring a defined dividend payment. If        •	 Initial TARP Investment: On November 25, 2008, Treasury purchased $40
      the company does not pay the dividend              billion in AIG preferred shares under TARP, the proceeds of which went directly
      on schedule, it still owes the missed              to FRBNY to pay down a portion of the outstanding balance of the existing
      dividend to the stock’s owner.                     revolving credit facility. In return, Treasury received AIG Series D cumulative
                                                         preferred stock and warrants to purchase AIG common stock.523 After that
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           219




   payment, the total amount available to AIG under FRBNY’s revolving credit
   facility was reduced from $85 billion to $60 billion.                                   Collateralized Debt Obligation (“CDO”):
•	 Creation of Maiden Lane II & III: Also in November 2008, FRBNY created                  A security that entitles the purchaser
   Maiden Lane II, an SPV, to take significant mortgage-backed securities off              to some part of the cash flows from a
   AIG’s books. FRBNY lent $19.5 billion (out of $22.5 billion committed) to               portfolio of assets such as mortgage-
   Maiden Lane II to fund the purchase of residential mortgage-backed securities           backed securities, bonds, loans, or
   (“RMBS”) that were contained in several of AIG’s U.S.-regulated insurance               other CDOs.
   subsidiaries’ portfolios. Finally, also in November 2008, FRBNY created Maiden
   Lane III, another SPV, to which FRBNY lent $24.3 billion (out of $30 billion            Non-Cumulative Preferred Stock:
   committed) to buy from AIG’s counterparties some of the collateralized debt             Preferred stock with a defined
   obligations (“CDOs”) underlying the CDS contracts written by AIG.                       dividend, without the obligation to pay
•	 Second TARP Investment: On March 2, 2009, Treasury and FRBNY                            missed dividends.
   announced a restructuring of Government assistance to AIG that, according
   to Treasury, was designed to strengthen the company’s capital position.524 In           Equity Capital Facility: Commitment
   that restructuring, AIG and Treasury signed an agreement on April 17, 2009,             to invest equity capital in a firm
   under which Treasury exchanged the Series D cumulative preferred stock,                 under certain future conditions. An
   which required AIG to make quarterly dividend and interest payments, for                equity facility when drawn down is
   $41.6 billion (including $1.6 billion in missed dividend payments) of less              an investment that increases the
   valuable Series E non-cumulative preferred stock, which required dividend and           provider’s ownership stake in the
   interest payments if AIG’s board of directors declared a dividend. Additionally,        company. The investor may be able to
   on April 17, 2009, Treasury committed to fund an equity capital facility under          recover the amount invested by selling
   which AIG could draw down up to $29.8 billion in exchange for Series F                  its ownership stake to other investors
   non-cumulative preferred stock (that had similar terms to the Series E) and             at a later date.
   additional warrants, of which AIG drew down $27.8 billion.525
•	 Creation of Additional Special Purpose Vehicles and Sale of Assets Under
   SPVs: The restructuring measures announced in March 2009 also included
   an authorization for FRBNY to acquire up to $26 billion of preferred equity
   interests in two SPVs, AIA Aurora LLC (“AIA SPV”) and ALICO Holdings LLC                For a more detailed description of the
   (“ALICO SPV”). The creation of the SPVs also facilitated the independence               disposition of Treasury’s interest in
   of these two subsidiaries in anticipation of a sale or initial public offering          the SPVs, see SIGTARP’s April 2012
   (“IPO”).526 In 2009 and 2010, AIG sold the assets of these SPVs, and later paid         Quarterly Report, pages 112-113.
   back Treasury and FRBNY.527

AIG Recapitalization Plan
On January 14, 2011, AIG executed its Recapitalization Plan with the Government,
which extinguished FRBNY’s revolving credit facility, retired FRBNY’s remaining
interests in the SPVs, and transferred those interests to Treasury, increasing
Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed to FRBNY’s
revolving credit facility with proceeds from the AIA IPO and ALICO sale. AIG
drew down $20.3 billion in TARP funds under a Series F equity capital facility
to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV and
transferred those interests to Treasury. AIG exchanged all prior outstanding
preferred shares held by the Government and issued new common stock to
Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
billion Series G equity capital facility, which was never drawn down.528
220            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For a more detailed description of                  For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
      the AIG Recapitalization Plan, see              a total of $7.9 billion in dividend payments.529 After the Recapitalization Plan was
      SIGTARP’s January 2011 Quarterly                executed, AIG no longer had an obligation to pay dividends.
      Report, pages 135-139.
                                                      Treasury’s Equity Ownership Interest in AIG
                                                      As part of the Recapitalization Plan, AIG extinguished all prior outstanding
                                                      preferred shares held by the Government, comprising $41.6 billion of Series E
                                                      preferred shares and $7.5 billion drawn from the Series F equity capital facility.
                                                      In exchange, it issued 1.655 billion shares of common stock (which included 563
                                                      million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
                                                      representing 92.1% of the common stock of AIG.530 The AIG Trust was then
                                                      terminated. AIG issued 10-year warrants to its existing non-Government common
                                                      shareholders to purchase up to a cumulative total of 75 million shares of common
                                                      stock at a strike price of $45 per share.531
                                                          In a series of six offerings from May 2011 through December 2012, Treasury
                                                      sold its 1.655 billion shares of AIG’s common stock at an average price of $31.18
                                                      per share, for a total of $51.6 billion.532 The last of those sales took place on
                                                      December 14, 2012, when Treasury sold its remaining 234 million shares for
                                                      $32.50 per share.533 As reflected on Treasury’s TARP books and records, taxpayers
                                                      have recouped $54.4 billion of the $67.8 billion in TARP funds invested in AIG
                                                      and realized losses from an accounting standpoint of $13.5 billion on Treasury’s
                                                      sale of AIG stock.534 The shares sold included AIG common stock that Treasury
                                                      obtained from FRBNY after the January 2011 restructuring of the FRBNY and
                                                      Treasury investments. According to Treasury, the Government overall made a
                                                      $4.1 billion gain on the common stock sales, and $956 million has been paid in
                                                      dividends, interest, and other income.535 This does not include payments made to
                                                      FRBNY prior to the restructuring measures completed in January 2011.
                                                          On March 1, 2013, Treasury sold its remaining investment in AIG, which
                                                      consisted of 2.7 million warrants that would have provided Treasury the right to
      For more information on Treasury’s              purchase AIG common stock at an exercise price of $50 per share.536 AIG bought
      sales of AIG common shares and AIG’s            the warrants for $25.2 million, or about $9.35 per share. The day the transaction
      buybacks of shares, see SIGTARP’s July          was completed, AIG’s closing stock price was $37.85 per share on the New York
      2013 Quarterly Report, page 131.                Stock Exchange.537

                                                      FRBNY’s Sales of Maiden Lane II Securities
                                                      In February 2012, FRBNY completed the sale of all securities in the Maiden
                                                      Lane II portfolio.538 According to FRBNY, its management of the Maiden Lane
                                                      II portfolio resulted in full repayment of its $19.5 billion loan to Maiden Lane II,
      For a more detailed description of the          generating a net gain of approximately $2.3 billion, plus $580 million in accrued
      Maiden Lane II securities sales, see            interest on the loan.539 According to FRBNY, as of December 31, 2013, a cash
      SIGTARP’s October 2012 Quarterly                balance of about $63 million remained in Maiden Lane II to pay for final expenses
      Report, pages 128-129.                          of winding down the portfolio.540
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014          221




FRBNY’s Sales of Maiden Lane III Securities
In August 2012, FRBNY completed the sale of all securities in the Maiden Lane III
portfolio. According to FRBNY, its management of the Maiden Lane III portfolio
resulted in full repayment of its $24.3 billion loan to Maiden Lane III, generating a
net gain of approximately $5.9 billion, plus $737 million in accrued interest on the
loan.541 According to FRBNY, as of December 31, 2013, a cash balance of about
$22 million remained in Maiden Lane III to pay for final expenses of winding down
the portfolio.542
    According to auction details released by FRBNY on November 23, 2012, AIG
received $5.6 billion as repayment of its equity contribution to Maiden Lane III,            For a more detailed description of the
including interest.543 After FRBNY’s loan to Maiden Lane III and AIG’s equity                Maiden Lane III securities sales, see
interest were repaid with interest, FRBNY and AIG split remaining auction                    SIGTARP’s October 2012 Quarterly
proceeds, with FRBNY receiving $5.9 billion and AIG receiving $2.9 billion.544               Report, pages 129-130.
222            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Targeted Investment Program
                                                      Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                                      Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                                      Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                                      on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                                      in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                                      and warrants from each institution.545 According to Treasury, TIP’s goal was to
                                                      “strengthen the economy and protect American jobs, savings, and retirement
                                                      security [where] the loss of confidence in a financial institution could result in
                                                      significant market disruptions that threaten the financial strength of similarly
                                                      situated financial institutions.”546 Both banks repaid TIP in December 2009.547 On
                                                      March 3, 2010, Treasury auctioned the Bank of America warrants it received under
                                                      TIP for $1.24 billion.548 On January 25, 2011, Treasury auctioned the Citigroup
                                                      warrants it had received under TIP for $190.4 million.549

                                                      Asset Guarantee Program
                                                      Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
                                                      Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                      provide loss protection on a pool of Citigroup assets valued at approximately $301
      Trust Preferred Securities (“TRUPS”):           billion. In return, as a premium, the Government received warrants to purchase
      Securities that have both equity                Citigroup common stock and $7 billion in preferred stock. The preferred stock was
      and debt characteristics created by             subsequently exchanged for trust preferred securities (“TRUPS”).550
      establishing a trust and issuing debt                Treasury received $4 billion of the TRUPS and FDIC received $3 billion.551
      to it.                                          Although Treasury’s asset guarantee was not a direct cash investment, it exposed
                                                      taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in
                                                      connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
                                                      the AGP agreement. Although at the time of termination the asset pool suffered
      For a discussion of the basis of the            a $10.2 billion loss, this number was below the agreed-upon deductible and the
      decision to provide Federal assistance to       Government suffered no loss.552
      Citigroup, see SIGTARP’s audit report,               At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by
      “Extraordinary Financial Assistance             Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in
      Provided to Citigroup, Inc.,” dated             exchange for the early termination of the loss protection. FDIC retained all of its
      January 13, 2011.                               $3 billion in securities.553 Pursuant to that termination agreement, on December
                                                      28, 2012, FDIC transferred $800 million of those securities to Treasury because
                                                      Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed
                                                      without a loss.554 On February 4, 2013, Treasury exchanged the $800 million of
                                                      securities it received from FDIC into Citigroup subordinated notes, which it then
                                                      sold for $894 million.555
                                                           Separately, on September 29, 2010, Treasury entered into an agreement with
                                                      Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
                                                      held under AGP for new TRUPS. Because the interest rate necessary to receive
                                                      par value was below the interest rate paid by Citigroup to Treasury, Citigroup
                                                      increased the principal amount of the securities sold by Treasury by an additional
                                                      $12 million, thereby enabling Treasury to receive an additional $12 million in
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   223




proceeds from the $2.2 billion sale of the Citigroup TRUPS, which occurred on
September 30, 2010.556 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under AGP for $67.2 million.557 In addition to recovering
the full bailout amount, taxpayers have received $13.4 billion over the course of
Citigroup’s participation in AGP, TIP, and CPP, including dividends, other income,
and warrant sales.558
    Bank of America announced a similar asset guarantee agreement with respect
to approximately $118 billion in Bank of America assets, but the final agreement
was never executed. Bank of America paid $425 million to the Government as a
termination fee.559 Of this $425 million, $276 million was paid to Treasury, $92
million was paid to FDIC, and $57 million was paid to the Federal Reserve.560
224            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
                                                      During the financial crisis, Treasury, through TARP, launched three automotive
                                                      industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                                      the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                                      Program (“AWCP”). According to Treasury, these programs were established “to
                                                      prevent the collapse of the U.S. auto industry, which would have posed a significant
                                                      risk to financial market stability, threatened the overall economy, and resulted in
                                                      the loss of one million U.S. jobs.”561
                                                           On December 9, 2013, Treasury announced that it had sold its remaining
                                                      shares of General Motors Company (“GM”) common stock.562 Taxpayers are no
                                                      longer shareholders in GM. However, as of December 31, 2013, Treasury still
                                                      held an $826.4 million administrative claim in the company’s 2009 bankruptcy;
                                                      according to Treasury, it does not expect any significant additional proceeds from
                                                      this claim.563 As of December 31, 2013, Ally Financial Inc. (“Ally Financial”),
                                                      formerly GMAC Inc., was the only remaining auto-related company in which
                                                      Treasury owns a stake, with $9 billion owed to taxpayers. In return for that
                                                      investment, as of December 31, 2013, Treasury owned 63% of Ally Financial’s
      For more information on GMAC/Ally               common stock.564 On January 16, 2014, Treasury announced that it plans to sell
      Financial, see “Taxpayers Continue to           410,000 shares of Ally Financial common stock for approximately $3 billion in a
      Own 74% of GMAC (Rebranded as                   private placement, after which it will own 37% of the company’s stock.565
      Ally Financial Inc.) from the TARP
                                                           As of December 31, 2013, taxpayers had lost $10.3 billion on the TARP
      Bailouts,” in SIGTARP’s January 2013
                                                      investment in GM from selling GM common stock at prices below the
      Quarterly Report, pages 147-164.
                                                      Government’s cost basis, according to Treasury.566 Taxpayers also lost $2.9 billion
                                                      on Treasury’s investment in Chrysler LLC, which exited TARP in 2011. A fourth
                                                      company, Chrysler Financial Services Americas LLC (“Chrysler Financial”), repaid
                                                      all its TARP money in 2009. ASSP was terminated in April 2010 and AWCP was
                                                      terminated in July 2009.
                                                           Treasury initially obligated approximately $84.8 billion in TARP funds through
                                                      the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
                                                      Financial.567 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
                                                      bailout after $2.1 billion in loan commitments to Chrysler were never drawn down,
                                                      and all available funding for the ASSP program was not used.568 As of December
                                                      31, 2013, taxpayers were owed $23.1 billion, of which $13.3 billion in losses
                                                      have been realized or written off and will never be repaid, leaving $9.8 billion
                                                      outstanding.569
                                                           Treasury’s investments in AIFP and the two related programs and the
                                                      companies’ principal repayments are summarized in Table 2.45.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JANAURY 29, 2014   225




TABLE 2.45
 TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS,
 AS OF 12/31/2013 ($ BILLIONS)
                                                                       Ally
                                                General           Financial                               Chrysler
                                                Motorsa               Inc.b           Chryslerc           Financial                 Total
Automotive Industry
                                                                                                                                           
Financing Program
    Treasury Investment                            $49.5               $17.2               $10.5                 $1.5              $78.6
    Principal Repaid                                 38.3                  8.2                 7.6                 1.5               55.5
Auto Supplier Support
                                                                                                                                           
Program
    Treasury Investment                                0.3                                     0.1                                       0.4
    Principal Repaid                                   0.3                                     0.1                                       0.4
 Auto Warranty
                                                                                                                                           
 Commitment Program
    Treasury Investment                                0.4                                     0.3                                       0.6
    Principal Repaid                                   0.4                                     0.3                                       0.6
 Total Treasury Investment                         $50.2               $17.2               $10.9                $1.5              $79.7
 Total Principal Repaid                            $38.9                 $8.2                $8.0               $1.5              $56.6
 Still Owed to Taxpayers                           $11.2                 $9.0                $2.9               $0.0              $23.1
 Realized Loss on
                                                 ($10.3)                                  ($2.9)                       
 Investment
 Notes: Numbers may not total due to rounding.
 a
   Principal repaid includes a series of debt payments totaling $159 million recovered from GM bankruptcy.
 b
    Investment includes an $884 million Treasury loan to GM, which GM invested in GMAC in January 2009.
 c
   Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
    rights under an agreement with the UAW retirement trust related to Chrysler shares.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Daily TARP
 Update, 1/2/2014.



Automotive Industry Financing Program
AIFP, the largest of the three auto bailout programs, has not expended any TARP
funds for the automotive industry since December 30, 2009.570 Of AIFP-related
loan principal repayments and share sale proceeds, as of December 31, 2013,
Treasury had received approximately $38.3 billion related to its GM investment,
$8.2 billion related to its Ally Financial/GMAC investment, $7.6 billion related
to its Chrysler investment, and $1.5 billion related to its Chrysler Financial
investment.571 In addition to principal repayments, Treasury had received
approximately $5.6 billion in dividends and interest as of December 31, 2013.572

GM
Between September 26, 2013 and December 9, 2013, Treasury sold its remaining
101.3 million shares of GM common stock. As of December 31, 2013, taxpayers
had lost $10.3 billion on the investment in GM.573 Treasury provided approximately
$49.5 billion to GM through AIFP, the largest of the automotive rescue programs.
Of that amount, $19.4 billion was provided before bankruptcy and $30.1 billion
226           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     was provided as financing during bankruptcy. During bankruptcy proceedings,
                                                     Treasury’s loans were converted into common or preferred stock in GM or debt
                                                     assumed by GM. As a result of GM’s bankruptcy, Treasury’s investment was
                                                     converted to a 61% common equity stake in GM, $2.1 billion in preferred stock
                                                     in GM, and a $7.1 billion loan to GM ($6.7 billion through AIFP and $360.6
                                                     million through AWCP). As part of a credit agreement with Treasury, $16.4 billion
                                                     in TARP funds were placed in an escrow account that GM could access only with
                                                     Treasury’s permission.574 As of December 31, 2013, Treasury continued to hold an
                                                     administrative claim in the company’s bankruptcy with an outstanding principal
                                                     amount of approximately $826.4 million. However, according to Treasury, it does
                                                     not expect to recover any significant additional proceeds from this claim.575

                                                     Debt Repayments
                                                     As of December 31, 2013, GM had made approximately $756.7 million in dividend
                                                     and interest payments to Treasury under AIFP.576 GM repaid the $6.7 billion loan
                                                     provided through AIFP with interest, using a portion of the escrow account that
                                                     had been funded with TARP funds. What remained in escrow was released to GM
                                                     with the final debt payment by GM.577

                                                     Sales of GM Stock
                                                     In November and December 2010, GM successfully completed an initial public
                                                     offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
                                                     stock and 100 million shares of Series B mandatorily convertible preferred shares
                                                     (“MCP”) for total gross proceeds of $23.1 billion.578 As part of the IPO priced at
                                                     $33 per share, Treasury sold 412.3 million common shares for $13.5 billion in net
                                                     proceeds (after taking into account underwriting fees associated with the IPO),
                                                     reducing its number of common shares to 500.1 million and its ownership in GM
                                                     from 61% to 33%.579 On December 15, 2010, GM repurchased Treasury’s Series A
      For more on the results of GM’s                preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
      November 2010 IPO, see SIGTARP’s               gain to Treasury of approximately $41.9 million.580 On January 13, 2011, Treasury’s
      January 2011 Quarterly Report, page            ownership in GM was diluted from 33% to 32% as a result of GM contributing 61
      163.
                                                     million of its common shares to fund GM’s hourly and salaried pension plans.581
                                                         After that, Treasury continued to sell GM stock, both directly to GM and in
                                                     the public markets. On December 21, 2012, Treasury sold 200 million common
                                                     shares to GM at $27.50 per share, for total proceeds of $5.5 billion.582 As part
                                                     of the transaction, Treasury agreed, among other things, to waive previously
                                                     required reports from GM on its liquidity and budget and to drop a ban on GM
                                                     owning private aircraft for its executives’ use.583 GM said it would take a charge
                                                     of approximately $400 million for the share buyback.584 On January 18, 2013,
                                                     Treasury announced the initiation of the first of four pre-arranged written trading
                                                     plans in conjunction with the divestment of its remaining shares.585 Under the first
                                                     trading plan, which expired April 17, 2013, Treasury sold 58.4 million shares at an
                                                     average price of $28.05 per share, for total proceeds of $1.6 billion.586 On May 6,
                                                     2013, Treasury announced a second pre-arranged written trading plan that ended
                                                     on September 13, 2013.587 Under that plan, Treasury sold 110.3 million shares
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANAURY 29, 2014                                    227




at an average price of $34.65 per share, for total proceeds of $3.8 billion.588 On
September 26, 2013, Treasury announced that it had begun a third pre-arranged
trading plan, which ended on November 20, 2013, with the sale of 70.2 million
GM shares at an average price of $36.51 per share, for proceeds of $2.6 billion.589
In the fourth and final trading plan, between November 21, 2013, and December
9, 2013, Treasury sold its remaining 31.1 million GM shares for an average price
of $38.82 per share, for proceeds of $1.2 billion.590 In addition to the trading plans,
on June 12, 2013, Treasury sold 30 million shares of common stock at $34.41 per
share in a public equity offering that raised $1 billion.591
    As of December 31, 2013, taxpayers had realized losses from an accounting
standpoint of $10.3 billion on all GM common shares sold from November
2010 through December 9, 2013, according to Treasury.592 The losses are due to
Treasury’s sales of GM common shares at prices below its cost basis of $43.52 per
share. Table 2.46 summarizes Treasury’s sales of GM stock.

TABLE 2.46
 TREASURY’S SALES OF GM COMMON SHARES
                                                                                     Share                 Proceeds                 Realized Loss                # Shares                Remaining
 Date                    Description                    # Shares Sold                Price               ($ Millions)                 ($ Millions)              Remaining              Equity Owned
                         During GM’s bankruptcy, Treasury received an equity stake in GM with a
 July 2009                                                                                                                                                   912,394,068                          60.8%
                         cost basis of $43.52 per common share.
                         Initial Public
 11/18/2010                                                358,546,795               $32.75                   $11,743                         $3,771         553,847,273                          36.9%
                         Offering (IPO)
 11/26/2010              IPO Overallotment                   53,782,019              $32.75                      1,761                            566        500,065,254                          32.0%
                         GM buyback of
 12/21/2012                                                200,000,000               $27.50                      5,500                          3,203        300,065,254                          22.0%
                         shares
 1/18/2013 –
                         1st trading plan                    58,392,078             $28.05a                      1,638                            903        241,673,176                          17.7%
 4/17/2013
                         Public equity
 6/12/2013                                                   30,000,000             $34.41b                      1,032                            273       189,194,989c                          13.8%
                         offering
 5/6/2013 –
                         2nd trading plan                  110,336,510               $34.65                      3,823                            979        101,336,666                            7.3%
 9/13/2013
 9/26/2013 –
                         3rd trading plan                    70,214,460             $36.51d                      2,563                            492          31,122,206                           2.2%
 11/20/2013
 11/21/2013 –
                         4th trading plan                    31,122,206             $38.82e                      1,208                            146                         0                          0
 12/9/2013
 Total                                                   912,394,068                                         $29,269                       $10,333
 Notes: Numbers may not total due to rounding. In most instances, dates reflect when Treasury received proceeds.
 a
   Weighted average price of shares sold. Treasury’s January 18, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 58,392,078 shares of common stock during a three-month
    period ending on April 17, 2013. Sales were completed on April 11, 2013.
 b
      Weighted average price of shares sold. Treasury’s May 6, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 142,814,136 shares of common stock during the period ending on
       September 13, 2013.
 c
    General Motors Company prospectus, 6/6/2013.
 d
     Weighted average price of shares sold. Treasury’s September 26, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 70,214,460 shares of common stock during the period
      ending on December 20, 2013. Sales were completed on November 20, 2013.
 e
     Weighted average price of shares sold. Treasury’s November 21, 2013, trading plan gave JPMorgan the discretion to sell Treasury’s remaining shares of GM common stock.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, response to SIGTARP data call, 1/8/2014.
228             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           GOVERNMENT OWNERSHIP OF GM ENDS



                                                           On December 9, 2013, Treasury announced that it had sold its remaining
                                                           stake in GM, ending five years of Government loans and investments in the
                                                           largest U.S.-based auto maker.593 The bailout included GM going through
                                                           bankruptcy in 2009. Before and during the bankruptcy, the Government
                                                           through TARP provided $49.5 billion to GM, of which $10.3 billion had been
                                                           booked as a loss as of December 31, 2013.594 As of December 31, 2013,
                                                           Treasury still held an $826.4 million administrative claim in the company’s
                                                           2009 bankruptcy; according to Treasury, it does not expect any significant
                                                           additional proceeds from this claim.595




      FIGURE 2.42

      GENERAL MOTORS TIMELINE, 2008–2013
                                                                                                                                     JULY 13
                                                                                                                                     GM emerges
                                                                                                                                     from
                                                                                                                                     bankruptcy.
                                                                                                                                     Treasury
                                                                  MARCH 30                                                           restructures
         DECEMBER 19                 FEBRUARY 15                  Treasury rejects                                                   its investment
         Bush Administration         Obama Administration         GM’s restructuring                                                 from loans to
         announces plans to          convenes the Auto            plan. Under                                        JUNE 1          a mix of
         assist auto industry.       Task Force, which            direction of the Auto                              GM files for    common and
                                     delegates the                Team, GM plans to       APRIL AND MAY              bankruptcy.     preferred
         DECEMBER 31                 responsibility for           restructure in order    Treasury provides $2       Treasury        stock, and
         General Motors              evaluating restructur-       to reduce liabilities   and $4 billion loans to    provides GM     debt in the
         receives $13.4 billion      ing plans to Treasury’s      and improve             GM to finalize its         a $30.1         new GM
         financing from TARP.        Auto Team.                   operations.             restructuring plan.        billion loan.   entity.



        DECEMBER 2008               FEBRUARY 2009                 MARCH 2009              APRIL & MAY 2009          JUNE 2009        JULY 2009
                                                                                                                   QUARTERLY REPORT TO CONGRESS I JANAURY 29, 2014                             229




On December 10, 2013, the day after Treasury announced that it had sold its
last GM shares, GM announced the January 2014 retirement of Dan Akerson,
its chairman and chief executive officer, and the appointment of Mary Barra,
formerly GM’s head of product development, as the new CEO.596 On January
14, 2014, GM declared its first quarterly dividend payout to stockholders
since 2008.597 Figure 2.42 reviews important dates in the bailout of GM.




  NOVEMBER 18
  GM stock goes public;                                                           DECEMBER 21
  Treasury recovers                                                               GM repurchases 200                          JUNE 6
  $13.5 billion via the                                                           million shares for                          Treasury sells
  Initial Public Offering,              DECEMBER 15                               $5.5 billion. Treasury                      30 million
  reducing the                          GM repurchases all                        announces planned                           shares for $1                          DECEMBER 9
  Government’s                          preferred stock held                      exit in 12-15 months                        billion when GM                        Treasury sells the last
  ownership stake from                  by Treasury for $2.1                      through pre-arranged                        returns to S&P                         of its GM common
  61% to 33%.                           billion.                                  trading plans.                              500 index.                             stock.



November 2010                          December 2010                             December 2012                               June 2013                              December 2013

Sources: SIGTARP, “Treasury’s Role in the Decision for GM to Provide Pension Payments to Delphi Employees,” 8/15/2013, www.sigtarp.gov/Audit%20Reports/SIGTARP_Delphi_Report.pdf;
accessed 1/2/2014; Treasury, “GM Timeline,” 12/9/2013, www.treasury.gov/press-center/press-releases/Documents/GM%20Timeline.pdf, accessed 1/2/2014.
230            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Ally Financial, formerly known as GMAC
                                                      Ally Financial is still in TARP and as of December 31, 2013, taxpayers were
                                                      owed $9 billion for the TARP investment in it. In return for its investment, as of
                                                      December 31, 2013, Treasury held approximately 63% of Ally Financial’s common
      For a discussion of the history and
                                                      stock. On January 16, 2014, Treasury announced that it plans to sell 410,000
      financial condition of Ally Financial,
                                                      shares of Ally Financial common stock for approximately $3 billion in a private
      see SIGTARP’s January 2013 Quarterly
      Report, pages 147-164.
                                                      placement, after which it will own 37% of the company’s stock.598
                                                           On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase $5.938
                                                      billion par value of MCP, plus a payment of $725 million to terminate the share
                                                      adjustment right.599 As of December 31, 2013, Ally Financial had made two
                                                      principal payments for a total of $8.2 billion to Treasury since receiving bailout
                                                      assistance almost five years ago.600 The company also had paid a total of $3.7
                                                      billion in quarterly dividends to Treasury through December 31, 2013, as required
                                                      by the terms of the preferred stock that Ally Financial issued to Treasury.601
                                                           Ally Financial received $17.2 billion in three separate direct injections of TARP
                                                      funds, plus a TARP-funded capital injection from GM. On December 29, 2008,
                                                      Treasury purchased $5 billion in senior preferred equity from GMAC and received
                                                      an additional $250 million in preferred shares through warrants that Treasury
                                                      exercised immediately at a cost of $2,500.602 In January 2009, Treasury loaned
                                                      GM $884 million to invest in GMAC.603 In May 2009, Treasury exchanged this
                                                      $884 million debt for a 35% common equity ownership in GMAC.604 On May 21,
                                                      2009, Treasury made an additional investment in GMAC when it purchased $7.5
                                                      billion of MCP and received warrants that Treasury immediately exercised for an
                                                      additional $375 million in MCP at an additional cost of approximately $75,000.605
                                                      On December 30, 2009, Treasury invested another $3.8 billion in GMAC, and
                                                      Treasury received $2.5 billion in trust preferred securities (“TRUPS”) and $1.3
                                                      billion in MCP. Treasury also received warrants, which were immediately exercised,
                                                      to purchase an additional $127 million in TRUPS and $62.5 million in MCP at an
                                                      additional cost of approximately $1,270 and $12,500, respectively.606 Additionally,
                                                      Treasury converted $3 billion of its MCP into GMAC common stock, increasing
                                                      its common equity ownership from 35% to 56%.607 On May 10, 2010, GMAC
                                                      changed its name to Ally Financial Inc.608
                                                           On December 30, 2010, Treasury announced the conversion of $5.5 billion
                                                      of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
                                                      stake in Ally Financial’s common equity from 56% to 74%.609 On March 7, 2011,
                                                      Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering,
                                                      resulting in a $2.5 billion principal repayment to Treasury.610
                                                           The 2010 conversion of $5.5 billion of Treasury’s MCP diluted the shares of
                                                      other existing shareholders in Ally Financial. Following the conversion, the private
                                                      equity firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party
                                                      investors collectively held 7.6%, an independently managed trust owned by GM
                                                      held 5.9%, and GM directly held a 4% stake in Ally Financial’s common equity.611
                                                      Later, GM’s interests were consolidated in the trust and on December 12, 2013,
                                                      GM sold its stake for $0.9 billion.612
                                                                                 QUARTERLY REPORT TO CONGRESS I JANAURY 29, 2014   231




Ally Financial Sells Some Stock in Private Placement; Repurchases Preferred
Shares from Treasury
On November 20, 2013, Ally Financial closed two transactions that reduced
Treasury’s stake in the company from 74% to 63%.613 In one transaction, Ally
Financial completed a private placement of 216,667 shares of its common stock for
an aggregate purchase price of $1.3 billion. In the other transaction, Ally Financial
repurchased from Treasury all of its MCP and also terminated Treasury’s existing
share adjustment right associated with those shares.614 Ally said it paid Treasury
$5.2 billion to repurchase $5.938 billion par value of MCP, plus a payment of $725
million to terminate the share adjustment right.615
    According to Treasury, under new agreements associated with these
transactions, Treasury will have the right to designate a majority of the Ally
Financial Board of Directors as long as its ownership stake exceeds 50%.616 As of
December 31, 2013, Treasury had designated six of the 11 directors.617
    On December 23, 2013, Ally Financial announced that the Federal Reserve had
granted the company financial holding company status, permitting it to engage in a
broader range of business activities, while continuing to operate its insurance and
remarketing businesses.618

Proposed Ally Financial IPO
On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).619 The document
includes a prospectus relating to the issuance of Ally Financial common stock.620
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.621
    Ally Financial stated that the proposed IPO would consist of “common stock
to be sold by the U.S. Department of the Treasury.”622 Ally Financial has disclosed
additional details about its proposed IPO in several amended Form S-1 Registration
statements filed over time with the SEC, the most recent on December 23,
2013.623

Ally Financial Released from Mortgage Claims of Bankrupt Subsidiary
On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
it was exploring strategic alternatives for its international operations.624 As a result
of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from
its financial statements and wrote down its equity interest in ResCap to zero.625
On June 26, 2013, the U.S. Bankruptcy Court approved Ally Financial’s proposed
settlement to pay $2.1 billion to the ResCap estate for release from certain
mortgage claims and liabilities.626 As part of the settlement, ResCap on June 13,
2013, fully repaid Ally Financial’s secured claim for $1.13 billion owed under
existing credit facilities.627 Ally Financial recorded a charge of about $1.6 billion in
the second quarter of 2013 related to the settlement, and said it would make its
settlement payment to the ResCap estate when the reorganization plan became
232   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             effective.628 The U.S. Bankruptcy Court approved the ResCap reorganization plan
                                             on December 11, 2013, marking the court’s formal approval of broad releases
                                             for all mortgage-related claims against Ally Financial. The plan became effective
                                             December 17, 2013.629

                                             Ally Financial Agrees to Sell International, Other Assets
                                             On November 21, 2012, Ally Financial announced it had reached agreements
                                             to sell its remaining international assets over time for $9.2 billion in proceeds.
                                             According to Ally Financial, that included the sale of most of its operations in
                                             Europe and Latin America to GM Financial Company, Inc. (“GM Financial”), and
                                             a 40% stake in a joint venture in China. From this, Ally Financial received $2.6
                                             billion in total proceeds.630 In June, 2013, Ally Financial said it completed the sale
                                             of its business in France, and on October 1, 2013, it said it completed the sale
                                             of its Brazil operations to GM Financial for $611 million.631 Ally Financial also
                                             has said it expects the sale of a joint venture stake in China to close in 2014.632
                                             In addition, it sold its Canadian auto finance operation to Royal Bank of Canada
                                             for $4.1 billion and its Mexican insurance business to ACE Group for $865
                                             million, in sales completed on February 1, 2013, and May 2, 2013, respectively.633
                                             Additionally, Ally Financial’s subsidiary, Ally Bank, announced in March 2013 that
                                             it agreed to sell its entire agency mortgage servicing rights to Ocwen Financial
                                             and Quicken Loans.634 Both sales were completed on April 17, 2013, according to
                                             Ally Bank, which said it received a combined $850 million in proceeds from the
                                             transactions.635 Table 2.47 summarizes Ally Financial’s international and domestic
                                             asset sales in 2013.

                                             TABLE 2.47
                                              ALLY FINANCIAL - 2013 ASSET SALES                              ($ MILLIONS)

                                                                            Sale Proceeds                     Buyer       Sale Closed
                                              Ally Credit Canada,                                     Royal Bank of
                                                                                        $4,100                                    2/1/13
                                              ResMor Trust                                                  Canada
                                              Ally Bank                                                     Walter
                                              wholesale                                      N/A       Investment               2/28/13
                                              mortgage unit                                           Management
                                              Units in Latin
                                              America, Europe,                          $2,600         GM Financial              4/2/13a
                                              China
                                              Ally Bank                                                      Ocwen
                                              mortgage                                    $850            Financial,            4/17/13
                                              servicing                                              Quicken Loans
                                              ABA Seguros
                                                                                          $865          ACE Group                 5/2/13
                                              Insurance
                                              Brazilian
                                                                                          $611         GM Financial             10/1/13
                                              operations
                                              Total Proceeds:                          $9,026                                              
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                The closing on 4/2/2013 did not include China assets, which are expected to close in 2014.

                                              Sources: Ally Financial SEC filings, press releases.
                                                                               QUARTERLY REPORT TO CONGRESS I JANAURY 29, 2014   233




Chrysler
Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
the TARP investment in Chrysler. Through October 3, 2010, Treasury made
approximately $12.5 billion available to Chrysler directly through AIFP in three
stages: $4 billion before bankruptcy to CGI Holding LLC, which was the parent
of Chrysler and Chrysler Financial; $1.9 billion in financing to Chrysler during
bankruptcy; and $6.6 billion to Chrysler afterwards.636 In exchange, Treasury
received 10% of the common equity in Chrysler.
    On April 30, 2010, following the bankruptcy court’s approval of the plan
of liquidation for Chrysler, the $1.9 billion loan was extinguished without
repayment. In return, Treasury retained the right to recover proceeds from the
sale of assets that were collateral for the loan from the liquidation of Chrysler
assets.637 According to Treasury, it is unlikely to fully recover its initial investment
of approximately $1.9 billion related to the loan.638 As of December 31, 2013,
Treasury had recovered approximately $57.4 million from asset sales during
bankruptcy.639 Of the $4 billion lent to Chrysler’s parent company, CGI Holding
LLC, before bankruptcy, $500 million of the debt was assumed by Chrysler while
the remaining $3.5 billion was held by CGI Holding LLC.640 Under the terms
of this loan agreement, as amended on July 23, 2009, Treasury was entitled to
the greater of approximately $1.4 billion or 40% of any proceeds that Chrysler
Financial paid to its parent company, CGI Holding LLC, after certain other
distributions were made.641 On May 14, 2010, Treasury accepted $1.9 billion in full
satisfaction of its $3.5 billion loan to CGI Holding LLC.642
    On May 24, 2011, Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
to repay the loans from Treasury and the Canadian government.643 The repaid loans
were made up of $6.6 billion in post-bankruptcy financing (of which $2.1 billion
was never drawn down), and the $500 million in debt assumed by Chrysler.644
Treasury terminated Chrysler’s ability to draw the remaining $2.1 billion TARP
loan.645
    Over time, Fiat increased its ownership of Chrysler. On July 21, 2011, Treasury
sold to Fiat for $500 million Treasury’s remaining equity ownership interest in
Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to receive
proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust
pertaining to the trust’s shares in Chrysler.646 On January 1, 2014, Chrysler and
the UAW announced that Fiat North America would purchase the UAW retiree
trust’s remaining 41.46% interest in Chrysler for $3.65 billion plus four separate
payments totaling $700 million.647
    As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.648

Chrysler Financial
Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
234   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             fully repaid the loan in addition to approximately $7.4 million in interest
                                             payments.649 In connection with the $3.5 billion pre-bankruptcy loan remaining
                                             with CGI Holding LLC, the parent company of Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
                                             CGI Holding LLC, after certain other distributions were made.650 On May 14,
                                             2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.651 Seven months later, on December 21, 2010, TD Bank Group
                                             announced that it had agreed to purchase Chrysler Financial from Cerberus, the
                                             owner of CGI Holding LLC, for approximately $6.3 billion.652 TD Bank Group
                                             completed its acquisition of Chrysler Financial on April 1, 2011, and has rebranded
                                             Chrysler Financial under the TD Auto Finance brand.653

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to
                                             ASSP to “help stabilize the automotive supply base and restore credit flows in a
                                             critical sector of the American economy.”654 Because of concerns about the auto
                                             manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
                                             from banks by using their receivables as collateral. ASSP enabled automotive parts
                                             suppliers to access Government-backed protection for money owed to them for the
                                             products they shipped to manufacturers. Under the program, Treasury made loans
                                             for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in April
                                             2010.655

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.656
                                             Treasury obligated $640.8 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.657 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.658
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             235




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions               Non-Recourse Loan: Secured loan
by providing eligible borrowers $71.1 billion in non-recourse loans through the             in which the borrower is relieved of
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                  the obligation to repay the loan upon
ABS and commercial mortgage-backed securities (“CMBS”). Treasury initially                  surrendering the collateral.
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
any TALF loans that defaulted.659 As of February 6, 2013, all TARP funding for              Collateral: Asset pledged by a
TALF was either deobligated or repaid.660 Of the $71.1 billion in TALF loans,               borrower to a lender until a loan is
none have defaulted and $97.3 million remained outstanding as of December 31,               repaid. Generally, if the borrower
2013.661                                                                                    defaults on the loan, the lender gains
    PPIP used a combination of private equity and Government equity and debt                ownership of the pledged asset and
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)           may sell it to satisfy the debt. In TALF,
held by financial institutions. In July 2009, Treasury announced the selection              the ABS or CMBS purchased with
of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally               the TALF loan is the collateral that is
obligated $22.4 billion in TARP funds to the program, then reduced the obligation           posted with FRBNY.
over time when several PPIFs did not use the full amounts available to them. One
PPIP manager, The TCW Group, Inc. (“TCW”), withdrew soon after the program
began. A total of $18.6 billion in TARP funding was drawn down and fully repaid
by PPIP fund managers.662 As of December 31, 2013, the entire PPIP portfolio had
been liquidated, and six PPIP funds were legally dissolved while the other two were
winding down operations.663
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.664 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.665

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.666 According to FRBNY, TALF was “designed to increase credit
availability and support economic activity by facilitating renewed issuance of
consumer and business ABS.”667 TALF is divided into two parts:668


•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, that purchased the collateral from
   FRBNY if borrowers chose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default.
236            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                      in operation until final TALF loans mature on March 11, 2015.669 TALF loans are
                                                      non-recourse (unless the borrower has made any misrepresentations or breaches
                                                      warranties or covenants), which means that FRBNY cannot hold the borrower
                                                      liable for any losses beyond the surrender of collateral for the TALF loan.670
      For a discussion of the credit rating               TALF LLC’s funding originated from a fee charged to FRBNY for the
      agency industry and an analysis of the          commitment to purchase any collateral surrendered by the borrowers. This fee was
      impact of NRSROs on TARP and the                derived from the principal balance of each outstanding TALF program loan.671 As of
      overall financial market, see SIGTARP’s         December 31, 2013, $97.3 million in TALF loans was outstanding.672 According to
      October 2009 Quarterly Report, pages            FRBNY, no TALF borrowers have surrendered collateral in lieu of repayment and
      113–148.                                        consequently no collateral has been purchased by TALF LLC since its inception.673

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.674 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
                                                      backed ABS, newly issued CMBS, and legacy CMBS.675 The final maturity date of
                                                      loans in the TALF portfolio is March 11, 2015.676
                                                          To qualify as TALF collateral, the non-mortgage-backed ABS had to have
      Nationally Recognized Statistical Rating        underlying loans for automobile, student, credit card, or equipment debt; insurance
      Organization (“NRSRO”): Credit rating           premium finance; SBA-guaranteed small business loans; or receivables for
      agency registered with the SEC. Credit          residential mortgage servicing advances (“servicing advance receivables”). Collateral
      rating agencies provide their opinion           was also required to hold the highest investment grade credit ratings from at least
      of the creditworthiness of companies            two nationally recognized statistical rating organizations (“NRSROs”).677
      and the financial obligations issued                To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
      by companies. The ratings distinguish           have been issued by an institution other than a Government-sponsored enterprise
      between investment grade and non–               (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      investment grade equity and debt                and interest payments, not be junior to other securities with claims on the same
      obligations.                                    pool of loans, and possess the highest long-term investment grade credit rating
                                                      from at least two rating agencies.678 Newly issued CMBS had to be issued on or
      TALF Agent: Financial institution that          after January 1, 2009, while legacy CMBS were issued before that date.679
      is party to the TALF Master Loan
      and Security Agreement and that                 Loan Terms
      occasionally acts as an agent for the           TALF participants were required to use a TALF agent to apply for a TALF loan.680
      borrower. TALF agents include primary           After the collateral (the particular asset-backed security financed by the TALF loan)
      and nonprimary broker-dealers.                  was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
                                                      which represents the amount of money put up by the borrower (the borrower’s
      Haircut: Difference between the value           “skin in the game”), was required for each TALF loan.681 Haircuts for non-
      of the collateral and the value of the          mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
      loan (the loan value is less than the           and generally ranged between 5% and 16% for non-mortgage-backed ABS with
      collateral value).                              average lives of five years or less.682 The haircut for legacy and newly issued CMBS
                                                      was generally 15% but rose above that amount if the average life of the CMBS was
      “Skin in the Game”: Equity stake in an          greater than five years.683
      investment; down payment; the amount                FRBNY lent each borrower the amount of the market price of the pledged
      an investor can lose.                           collateral minus the haircut, subject to certain limitations.684 The borrower
                                                                                                                   QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014         237




delivered the collateral to the custodian bank, which collected payments generated
by the collateral and distributed them to FRBNY (representing the borrower’s                                                       Custodian Bank: Bank holding the
payment of interest on the TALF loan).685 Any excess payments from the collateral                                                  collateral and managing accounts for
above the interest due and payable to FRBNY on the loan go to the TALF                                                             FRBNY; for TALF the custodian is Bank
borrower.686                                                                                                                       of New York Mellon.


TALF Loans
TALF provided a total of $71.1 billion in loans through FRBNY. Treasury initially
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
any TALF loans that defaulted.687 On January 15, 2013, Treasury and FRBNY said
the TARP-funded credit protection was no longer needed because lending fees
collected by TALF had exceeded the amount of loans still outstanding.688 As of
February 6, 2013, all TARP funding for TALF was either deobligated or repaid.689
    TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
during the lending phase of the program, which ended on March 11, 2010. As of
December 31, 2013, $46.6 million was outstanding, all in student loans.690 Table
2.48 lists all TALF loans collateralized by non-mortgage-backed ABS, by ABS
sector.

TABLE 2.48
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ BILLIONS)

 ABS Sector
 Auto Loans                                                                                                           $12.8
 Credit Card Receivables                                                                                               26.3
 Equipment Loans                                                                                                         1.6
 Floor Plan Loans                                                                                                        3.9
 Premium Finance                                                                                                         2.0
 Servicing Advance Receivables                                                                                           1.3
 Small-Business Loans                                                                                                    2.2
 Student Loans                                                                                                           8.9
 Total                                                                                                               $59.0
 Notes: Numbers may not total due to rounding. Data as of 12/31/2013.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
 html, accessed 1/3/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
 TALF_recent_operations.html, accessed 1/3/2014.



   TALF provided $12.1 billion of loans to purchase CMBS during the lending
phase of the program, which ended on June 28, 2010. Approximately 99% of the
loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.691
As of December 31, 2013, $50.7 million was outstanding.692 Table 2.49 includes all
TALF CMBS loans.
238           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TABLE 2.49
                                                      TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

                                                      Type of Collateral Assets
                                                      Newly Issued CMBS                                                                                                     $0.1
                                                      Legacy CMBS                                                                                                           12.0
                                                      Total                                                                                                               $12.1
                                                      Notes: Numbers may not total due to rounding. Data as of 12/31/2013.

                                                      Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                                      html, accessed 1/3/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                                      CMBS_recent_operations.html, accessed 1/3/2014.



                                                         TALF loans were issued with terms of three years or five years. The final
                                                     maturity date of the last of the five-year loans is March 11, 2015.693 The
                                                     outstanding TALF loans consist of $50.7 million in loans collateralized by CMBS
                                                     and $46.6 million in loans collateralized by student loans. As of December 31,
                                                     2013, $64.1 million worth of TALF loans will mature by the end of 2014 and the
                                                     remaining $33.2 million will mature by March 11, 2015.694
                                                         The Federal Reserve posted on its website detailed information on the 177
                                                     TALF borrowers, including the identities of the borrowers, the amounts and rates
                                                     of the loans, and details about the collateral.695
                                                         As of December 31, 2013, $71 billion in TALF loans had been repaid.
                                                     According to FRBNY, the outstanding collateral on the remaining $97.3 million in
                                                     TALF loans was performing as expected.696

                                                     Asset Disposition Facility
                                                     When FRBNY created TALF LLC, TARP loaned the facility $100 million.697 As
                                                     of December 31, 2013, the $100 million had been repaid in full along with $13
                                                     million in interest, according to Treasury.698 During the remaining two years of the
                                                     program, any interest, fees, and gains collected above the remaining principal on
                                                     outstanding TALF loans will be shared by Treasury (90%) and FRBNY (10%).699 As
                                                     of December 31, 2013, Treasury had received $573.2 million in additional gains
                                                     and FRBNY had received $63.7 million.700

                                                     Current Status
                                                     As of December 31, 2013, TALF LLC had assets of $109 million, which consisted
                                                     of interest and other income and fees earned from permitted investments.701 From
      Excess Spread: Funds left over
                                                     its February 4, 2009, formation through December 31, 2013, TALF LLC had spent
      after required payments and other
                                                     approximately $3.1 million on administration.702
      contractual obligations have been met.
                                                         When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
      In TALF it is the difference between
                                                     the program shifted primarily to portfolio management, which includes maintaining
      the periodic amount of interest paid
                                                     documentation, overseeing the custodian that is responsible for holding ABS
      out by the collateral and the amount
                                                     collateral, calculating and collecting principal and interest on TALF loans,
      of interest charged by FRBNY on the
                                                     disbursing excess spread to TALF borrowers in accordance with the governing
      nonrecourse loan provided to the
                                                     documents, monitoring the TALF portfolio, collecting and managing collateral
      borrower to purchase the collateral.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   239




assets if a borrower defaults or surrenders the collateral in lieu of repayment, and
paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess of
FRBNY’s cost of funding.703
240             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Public-Private Investment Program
      Legacy Securities: Real estate-related           According to Treasury, the purpose of the Public-Private Investment Program
      securities originally issued before              (“PPIP”) was to purchase legacy securities from banks, insurance companies,
      2009 that remained on the balance                mutual funds, pension funds, and other eligible financial institutions as defined
      sheets of financial institutions because         in EESA, through Public-Private Investment Funds (“PPIFs”).704 PPIFs were
      of pricing difficulties that resulted from       partnerships, formed specifically for this program, that invested in mortgage-backed
      market disruption.                               securities using equity capital from private-sector investors combined with TARP
                                                       equity and debt. A private-sector fund management firm oversaw each PPIF on
      Equity: Investment that represents an            behalf of investors. According to Treasury, the aim of PPIP was to “restart the
      ownership interest in a business.                market for legacy securities, allowing banks and other financial institutions to free
                                                       up capital and stimulate the extension of new credit.”705
      Debt: Investment in a business that                  Treasury selected nine fund management firms to establish PPIFs. One PPIP
      is required to be paid back to the               manager, TCW, subsequently withdrew. As of December 31, 2013, the entire
      investor, usually with interest.                 PPIP portfolio had been liquidated, and six PPIP funds were legally dissolved
                                                       while the other two were winding down operations. Private investors and Treasury
                                                       co-invested in the PPIFs to purchase legacy securities from financial institutions.
                                                       The fund managers raised private-sector capital. Treasury matched the private-
      For more information on the selection of
                                                       sector equity dollar-for-dollar and provided debt financing in the amount of the
      PPIP managers, see SIGTARP’s October
                                                       total combined equity. Each PPIP manager was also required to invest at least $20
      7, 2010, audit report entitled “Selecting
                                                       million of its own money in the PPIF.706 Each PPIF was approximately 75% TARP
      Fund Managers for the Legacy
      Securities Public-Private Investment             funded.
      Program.”                                            Under the program, Treasury, the PPIP managers, and the private investors
                                                       shared PPIF profits and losses on a pro rata basis based on their limited partnership
      For more information on the withdrawal           interests. Treasury also received warrants in each PPIF that gave Treasury the
      of TCW as a PPIP manager, see                    right to receive an extra portion of the fund’s final profits that would otherwise be
      SIGTARP’s January 2010 Quarterly                 distributed to the private investors.707
      Report, page 88.                                     The PPIP portfolio consisted of eligible securities and cash assets. The
                                                       securities eligible for purchase by PPIFs (“eligible assets”) were non-agency
                                                       residential mortgage-backed securities (“non-agency RMBS”) and commercial
                                                       mortgage-backed securities (“CMBS”) that also met the following criteria: issued
                                                       before January 1, 2009 (legacy); rated when issued AAA or equivalent by two or
                                                       more credit rating agencies designated as nationally recognized statistical rating
                                                       organizations (“NRSROs”); secured directly by actual mortgages, leases, or other
                                                       assets, not other securities (other than certain swap positions, as determined by
                                                       Treasury); and located primarily in the United States (the loans and other assets


      Pro Rata: Refers to dividing something          Limited Partnership: Partnership in which     Non-Agency Residential Mortgage-
      among a group of participants according         there is at least one partner whose           Backed Securities (“non-agency RMBS”):
      to the proportionate share that each            liability is limited to the amount invested   Financial instrument backed by a group
      participant holds as a part of the whole.       (limited partner) and at least one partner    of residential real estate mortgages (i.e.,
                                                      whose liability extends beyond monetary       home mortgages for residences with up
                                                      investment (general partner).                 to four dwelling units) not guaranteed
                                                                                                    or owned by a Government-sponsored
                                                                                                    enterprise (“GSE”), or a Government
                                                                                                    agency.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   241




that secure the non-agency RMBS and CMBS); and purchased from financial
institutions eligible for TARP participation.708

PPIP Process
Funds chosen to participate in PPIP raised private capital, which Treasury
matched on a three to one basis (one part equity and two parts debt) up to a
preset maximum set by Treasury. To obtain obligated funds, PPIP managers sent a
notice to Treasury and the private investors requesting a “draw down” of portions
of obligated contributions in order to purchase specific investments or to pay
certain expenses and debts of the partnerships.709 After obtaining the funds, PPIP
managers were required to provide monthly portfolio reports to Treasury and other
investors.710

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
power. PPIF fund-raising was completed in December 2009. After the capital-
raising stage, Treasury obligated a total of $22.4 billion in a combination of
matching equity funds and debt financing for PPIP, which included funds for
TCW, which subsequently withdrew from the program. Table 2.50 shows equity
and debt committed by Treasury for the eight PPIFs that actively participated in
the program.
242   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                              TABLE 2.50
                               PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER                                                                    ($ BILLIONS)

                                                                                                                                                         Total
                                                                               Private-Sector              Treasury              Treasury          Purchasing           Purchasing
                               Manager                                                 Equity                Equity                  Debt              Powera           Power Used
                               AG GECC PPIF Master Fund, L.P.                                 $1.2                $1.2                  $2.5                 $5.0                  90%
                               AllianceBernstein Legacy
                                                                                                1.2                 1.2                  2.3                   4.6                 92%
                               Securities Master Fund, L.P.
                               BlackRock PPIF, L.P.                                             0.7                 0.7                  1.4                   2.8                 76%
                               Invesco Legacy Securities Master
                                                                                                0.9                 0.9                  1.7                   3.4                 68%
                               Fund, L.P.
                               Marathon Legacy Securities
                               Public-Private Investment                                        0.5                 0.5                  0.9                   1.9                100%
                               Partnership, L.P.
                               Oaktree PPIP Fund, L.P.                                          1.2                 1.2                  2.3                   4.6                 48%
                               RLJ Western Asset Public/Private
                                                                                                0.6                 0.6                  1.2                   2.5                100%
                               Master Fund, L.P.
                               Wellington Management Legacy
                                                                                                1.1                 1.1                  2.3                   4.6                100%
                               Securities PPIF Master Fund, LP
                               Totals for Fundsb                                              $7.4               $7.4                $14.7                 $29.4                   83%
                               Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Two funds were winding down operations and had
                               not been legally dissolved as of December 31, 2013: AG GECC and Marathon.
                               a
                                 Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
                               b
                                  TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the
                                   total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

                               Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 1/8/2014.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   243




   The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.711 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”712 The investment
periods for all PPIFs expired in 2012.713
   Subsequently, fund managers had up to five years ending in 2017 to manage
and sell off the fund’s investment portfolio and return proceeds to taxpayers and
investors, with the ability to extend that period under certain circumstances.714
However, by June 30, 2013, all PPIP managers had liquidated their portfolios.

Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.715 The
last fund’s investment period ended in December 2012.716 Treasury also disbursed
$356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
from the program.717
    As a group, the funds drew down and spent about 83% of the total money
available to them to invest in legacy real estate-backed securities.718 All unused
TARP debt financing has been deobligated by Treasury.719 Unused TARP equity
financing is deobligated when each fund is legally dissolved.

PPIP Fund Repayments and Liquidations
Throughout the program, PPIP managers were required to make TARP payments
to Treasury for debt principal, debt interest, and equity capital. Under the program,
the PPIP funds also shared profits from the investments with Treasury. All PPIFs
have fully repaid their TARP debt and equity financing.720 The nine PPIFs together
had repaid $12.4 billion in TARP debt and $6.3 billion in TARP equity, including
payments by TCW, as of December 31, 2013.
    The PPIP managers wound down their portfolios as follows:

•	 In June 2013, Oaktree liquidated its remaining PPIP investments.721 According
   to Treasury, Oaktree fully repaid Treasury’s equity investment of $555.9 million
   and Treasury debt of $1.1 billion, with interest. On December 31, 2013,
   Oaktree filed a formal certificate with the state of Delaware declaring that its
   PPIF had been disolved.722
•	 In June 2013, Marathon liquidated its remaining PPIP investments.723
   According to Treasury, Marathon fully repaid Treasury’s equity investment of
   $474.6 million and Treasury debt of $949 million, with interest. As of December
   31, 2013, Marathon had made its final distribution but had not completed
   dissolving the fund.724
•	 In May 2013, AG GECC liquidated its remaining PPIP investments.725
   According to Treasury, AG GECC fully repaid Treasury’s equity investment of
   $1.1 billion and Treasury debt of $2.2 billion, with interest. As of December 31,
244   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  2013, AG GECC’s PPIF still had approximately $3.5 million in cash to pay for
                                                  wind-down expenses.726
                                             •	   In February 2013, Wellington liquidated its remaining PPIP investments.727
                                                  According to Treasury, Wellington fully repaid Treasury’s equity investment of
                                                  $1.1 billion and Treasury debt of $2.3 billion, with interest. On July 25, 2013,
                                                  Wellington filed a formal certificate with the state of Delaware declaring that its
                                                  PPIF had been dissolved.728
                                             •	   In November 2012, BlackRock liquidated its remaining PPIP investments.729
                                                  According to Treasury, BlackRock fully repaid Treasury’s equity investment of
                                                  $528.2 million and Treasury debt of $1.1 billion, with interest.730 On December
                                                  20, 2013, BlackRock filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.731
                                             •	   In September 2012, AllianceBernstein liquidated its remaining PPIP
                                                  investments.732 According to Treasury, AllianceBernstein fully repaid Treasury’s
                                                  equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with
                                                  interest.733 On August 23, 2013, AllianceBernstein filed a formal certificate with
                                                  the state of Delaware declaring that its PPIF had been dissolved.734
                                             •	   In October 2012, RLJ Western liquidated its remaining PPIP investments.735
                                                  According to Treasury, RLJ Western fully repaid Treasury’s equity investment of
                                                  $620.6 million and Treasury debt of $1.2 billion, with interest.736 On December
                                                  31, 2012, RLJ Western filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.737
                                             •	   Invesco was the first of the PPIP funds to sell its portfolio, liquidating it in
                                                  March 2012.738 According to Treasury, Invesco fully repaid Treasury’s equity
                                                  investment of $581 million and Treasury debt of $1.2 billion, with interest.739
                                                  On October 3, 2012, Invesco filed a formal certificate with the state of
                                                  Delaware declaring that its PPIF had been dissolved.740

                                                 In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
                                             managers paid a total of $3.5 billion in gross income payments and capital gains
                                             to the Government through December 31, 2013, as well as $87 million in warrant
                                             proceeds.741 Table 2.51 shows each fund’s payments to Treasury through December
                                             31, 2013.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   245




TABLE 2.51
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 12/31/2013                                                          ($ MILLIONS)

                                                                                                                                   Gross
                                                                                                                                 Income
                                                                      Debt                 Debt              Equity           Payments               Equity
                                                                  Principal             Interest            Capital          and Capital            Warrant
 Manager                                                         Payments             Payments           Paymentsa                 Gains          Paymentsb
 AG GECC PPIF Master Fund, L.P.                                      $2,235                    $66             $1,117                 $776                  $19
 AllianceBernstein Legacy Securities
                                                                       2,128                     58              1,064                  481                   12
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                  1,053                     34                528                  395                   10
 Invesco Legacy Securities Master Fund,
                                                                       1,162                     18                581                  139                     3
 L.P.
 Marathon Legacy Securities Public-Private
                                                                          949                    28                475                  364                     9
 Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                               1,111                     17                556                  232                     6
 RLJ Western Asset Public/Private Master
                                                                       1,241                     37                621                  421                   11
 Fund, L.P.
 UST/TCW Senior Mortgage Securities
                                                                          200                   0.3                156                    20                 0.5
 Fund, L.P.
 Wellington Management Legacy Securities
                                                                       2,299                     61              1,149                  651                   16
 PPIF Master Fund, LP
 Totals for All Funds                                              $12,378                  $320              $6,247               $3,479                   $87
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Two funds were winding down operations and had not
 been legally dissolved as of December 31, 2013: AG GECC and Marathon.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
    the private partners in excess of their contributed capital.

 Sources: Treasury, Transactions Report, 1/1/2014; Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Dividends and Interest Report,
 1/10/2014.
246   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Securities Purchased by PPIFs
                                             According to their agreements with Treasury, PPIP managers invested in both
                                             RMBS and CMBS, except for Oaktree, which invested only in CMBS.742 Figure
                                             2.43 shows the collective value of securities held by all PPIFs at the end of each
                                             calendar quarter from the beginning of the funds’ investment period, until all
                                             securities were sold in the quarter ended June 30, 2013, broken down by RMBS
                                             and CMBS.

                                             FIGURE 2.43

                                             INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
                                             25



                                             20



                                             15



                                             10



                                              5



                                              0
                                                  Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


                                                     Commercial Mortgage-Backed Securities Investments
                                                     Residential Mortgage-Backed Securities Investments

                                                  Notes: Numbers may not total due to rounding.

                                                  Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
                                                  March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
                                                  March 2013, and June 2013.




                                                 PPIF investments were classified by underlying asset type. All non-agency
                                             RMBS investments were considered residential because the underlying assets were
                                             mortgages for residences with up to four dwelling units. For CMBS, the assets were
                                             commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                             as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                             or residential uses), and self-storage. Over the course of the program, the portfolio
                                             held large concentrations of office and retail. Figure 2.44 breaks down CMBS
                                             investment distribution by sector from December 31, 2009 through June 30, 2013.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   247




FIGURE 2.44

AGGREGATE CMBS SECTOR HOLDINGS BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Office                  Multifamily             Lodging/Hotel
        Retail                  Industrial              Other

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.




   Non-agency RMBS and CMBS were classified by the degree of estimated
default risk (sometimes referred to as “quality”). In general, the highest-quality
rankings went to mortgages with the strictest requirements regarding borrower
credit, completeness of documentation, and underwriting standards. Treasury
characterized the investment-quality levels of risk for the types of mortgage loans
that support non-agency RMBS as follows:743

•	 Prime — mortgage loan made to a borrower with good credit that generally met
   the lender’s strictest underwriting criteria.
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
   documentation or other characteristics that do not meet the standards for prime
   loans.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gave the borrower choices about how much interest and principal to pay each
   month, which could result in an increasing loan principal balance over time.
•	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
   subprime, or option ARM but met the definition of “eligible assets” above.
248   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Treasury characterized CMBS according to the bond’s degree of “credit
                                             enhancement,” i.e., the percentage of the underlying mortgage pool by balance that
                                             must be written down before the bond had any losses.744

                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.745
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
                                                at issuance.
                                             •	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
                                                AM, or AJ but met the definition of “eligible assets” above.

                                                Figure 2.45 and Figure 2.46 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels from December 31,
                                             2009, through June 30, 2013, by market value, as reported by PPIP managers.

                                             FIGURE 2.45

                                             AGGREGATE RMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Prime                   Subprime                      Other – RMBS
                                                     Alt-A                   Option Arm

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   249




FIGURE 2.46

AGGREGATE CMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6

 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Super Senior            AM          AJ         Other – CMBS


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.




   Figures 2.47 and 2.48 show the distribution of non-agency RMBS and CMBS
investments held in PPIP by respective risk levels from December 31, 2009,
through June 30, 2013, as a percentage of market value, as reported by PPIP
managers.
250   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.47

                                             AGGREGATE RMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Prime                   Subprime                      Other – RMBS
                                                       Alt-A                   Option Arm

                                                    Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.



                                             FIGURE 2.48

                                             AGGREGATE CMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%


                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Super Senior            AJ
                                                       AM                      Other – CMBS

                                                    Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   251




   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figures 2.49 and 2.50 show
the states with the greatest representation in the underlying non-agency RMBS and
CMBS investments in PPIFs, as reported by PPIP managers from December 31,
2009 through June 30, 2013.


FIGURE 2.49

AGGREGATE RMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        California              New York                       Other
        Florida                 Virginia/New Jersey

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers. Virginia ranked fourth
     from Q4 2009 – Q2 2012 and was replaced by New Jersey from Q3 2012 forward.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
252   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.50

                                             AGGREGATE CMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     California              Texas                    Other
                                                     New York                Florida

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                                Non-agency RMBS and CMBS can be classified by the delinquency of the
                                             underlying mortgages. Figures 2.51 and 2.52 show the distribution of non-agency
                                             RMBS and CMBS investments held in PPIP by delinquency levels, as reported by
                                             PPIP managers from December 31, 2009, through June 30, 2013.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   253




FIGURE 2.51

AGGREGATE AVERAGE RMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


FIGURE 2.52

AGGREGATE AVERAGE CMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
254            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.746
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”),
      guaranteed loans.
                                                      on March 2, 2010, and August 27, 2010, respectively.747 Under the governing
                                                      agreement, EARNEST Partners, on behalf of Treasury, purchased SBA pool
      SBA Pool Certificates: Ownership
                                                      certificates from Coastal Securities and Shay Financial without confirming to the
      interest in a bond backed by SBA-
                                                      counterparties that Treasury was the buyer.748 From March 19, 2010, to September
      guaranteed loans.
                                                      28, 2010, Treasury purchased 31 floating-rate 7(a) securities from Coastal
                                                      Securities and Shay Financial for a total of approximately $368.1 million.749
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
                                                      SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.750
      For more information on SBA 7(a) Loan           According to Treasury, over the life of the program Treasury also had received
      Program mechanics and TARP support              $29 million and $13.3 million in amortizing principal and interest payments,
      for the program, see SIGTARP’s April            respectively.751
      2010 Quarterly Report, pages 105-106.

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page 134.
              TAXPAYER COMPLAINTS TO HOTLINE
              HELP SIGTARP FIGHT FRAUD AND
SECT IO N 3
              HIGHLIGHT CONTINUING PROBLEMS
              WITH TARP HOUSING PROGRAMS
256   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             257




INTRODUCTIONi
As a criminal law enforcement agency, SIGTARP created its Hotline in 2009, soon                                                                  The SIGTARP Hotline can receive
after SIGTARP’s inception, as a crime tip hotline for the public to call SIGTARP                                                                 information anonymously. SIGTARP
and offer leads on criminal investigations and suspected criminal activity related                                                               honors all applicable whistleblower
to the Troubled Asset Relief Program (“TARP”). Because SIGTARP honors all                                                                        protections and will provide
                                                                                                                                                 confidentiality to the fullest extent
applicable whistleblower protections and provides confidentiality to the fullest
                                                                                                                                                 possible. SIGTARP urges anyone aware
extent possible, members of the public can maintain their anonymity when they
                                                                                                                                                 of fraud, waste, or abuse involving TARP
report information that could be vital to stopping bailout-related crime. SIGTARP                                                                programs or funds, whether it involves
has received and reviewed 33,334 Hotline complaints as of December 31, 2013.                                                                     the Federal Government, state and local
    SIGTARP has investigated a range of criminal activities arising from Hotline                                                                 entities, private firms, or individuals, to
tips, including fraud schemes in banking, housing, and securities trading TARP                                                                   contact its representatives at 877-SIG-
programs. Although for confidentiality reasons, SIGTARP does not normally                                                                        2009 or www.sigtarp.gov.
discuss when a tip results in a criminal investigation, in an effort to educate
homeowners about a particular type of scam in order to prevent further
victimization, and to help homeowners know when to call SIGTARP’s Hotline,
SIGTARP is reporting that it has received complaints concerning suspected
mortgage modification scams. These are fraudulent schemes that take advantage
of homeowners struggling to keep their homes who want to apply to lower their
mortgage payments through TARP’s signature housing program, Home Affordable
Modification Program (“HAMP”). Homeowner complaints to SIGTARP about
these scams are vital to help SIGTARP identify and stop these scams. SIGTARP
has been successful in identifying many of these criminals, putting them out of
business, and actively supporting prosecutions and convictions, including court
orders to repay victims. Of the 174 individuals charged with crimes as a result of
a SIGTARP investigation, 66 of these were charged with mortgage modification
fraud. Courts have already convicted 38 of the 66 charged. Twenty-two of
those defendants convicted of the mortgage modification scams investigated by
SIGTARP were sentenced to prison, six were sentenced to probation, and 10 await
sentencing. Hotline tips from the public can significantly help SIGTARP combat
this type of heinous crime.
    Combating mortgage modification scams requires a coordinated effort among
Federal and state agencies. As the co-chair of the President’s Financial Fraud
Enforcement Task Force Rescue Fraud Working Group, SIGTARP has taken the
lead in coordinating investigations and training other agencies. SIGTARP leverages
resources by partnering with other law enforcement agencies; refers relevant
complaints to the Federal Trade Commission (“FTC”), which tracks these scams
in a national database; works with regulators to ban convicted defendants (22 to
date) from their industries; and has spearheaded preventive efforts to educate
homeowners to help them avoid being victims in the first place. When a Hotline
complaint does not rise to the level of a tip alleging crime, but rather describes a
problem or issue the party is experiencing within a TARP program, it is referred to


iT
  he Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is issuing this report under the
 Emergency Economic Stabilization Act. The report is based on SIGTARP internal information. It is not an audit or evaluation under the
 Inspector General Act of 1978 as amended.
258   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury or another appropriate agency so that those agencies that are set up to
                                             provide individual relief or assistance or have oversight of the TARP program can
                                             take action on the complaint. For example, if a homeowner reports problems with
                                             a servicer approving a HAMP mortgage modification, SIGTARP would refer the
                                             complaint to Treasury, which conducts oversight of HAMP servicers. In addition
                                             to these referrals, SIGTARP has found these complaints to be a valuable source
                                             of facts to inform SIGTARP audits and to develop recommendations that could
                                             prevent fraud, waste, and abuse related to TARP and to improve the effectiveness
                                             or efficiency of TARP programs.
                                                 Complaints about TARP housing programs dominate SIGTARP’s Hotline.
                                             These complaints may not rise to the level of allegations of criminal conduct, but
                                             they do provide individual examples of American taxpayers, especially struggling
                                             homeowners, who continue to feel the ongoing effects of the financial crisis.
                                             Americans struggling to hold on to their homes while pursuing help through TARP
                                             housing programs have contacted the SIGTARP Hotline. The legacy of TARP
                                             includes:

                                             •	 Complaints to SIGTARP alleging improper foreclosures, and difficulties with
                                                short sales that result in foreclosures, continue even while a homeowner is
                                                pursuing help through TARP housing programs.
                                             •	 Individual homeowners continue to tell SIGTARP that that they are unable to
                                                gain admittance into a TARP program because of some problem on the part of
                                                their mortgage servicer.
                                             •	 Complaints regarding difficulty in communication with servicers regarding
                                                HAMP and regarding servicer mishandling of HAMP application documents
                                                persist, despite requirements that homeowners be assigned a servicer single
                                                point of contact.

                                                 Homeowner complaints to SIGTARP’s Hotline evidence that some distressed
                                             homeowners have not received the help they need under TARP’s housing programs,
                                             including HAMP, which, according to Treasury, was intended “to help as many
                                             as three to four million financially struggling homeowners avoid foreclosure
                                             by modifying loans to a level” that is affordable and sustainable.752 Securing a
                                             permanent mortgage modification under HAMP is one of the last options available
                                             to many homeowners trying to save their home. However, with only 894,410 active
                                             permanent HAMP Tier 1 modifications as of December 31, 2013, HAMP is falling
                                             far short of the three to four million once predicted. SIGTARP’s analysis of Hotline
                                             complaints reveals that the TARP programs that were supposed to help struggling
                                             homeowners have instead frustrated and angered individual homeowners who
                                             looked to the Government for help from TARP, some of whom lost their homes to
                                             foreclosure.
                                                 Treasury’s recent decision to extend the deadline for homeowners to apply
                                             for HAMP through December 31, 2015, presents an opportunity for Treasury
                                             to improve efficiency and effectiveness of HAMP through its oversight of the
                                             mortgage servicers. Dating back to the earliest days of HAMP, SIGTARP has
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   259




made numerous recommendations to Treasury that are designed to improve
servicer performance in HAMP, but Treasury has not fully implemented many
of these recommendations. Treasury should fully implement SIGTARP’s servicer
performance recommendations and by not doing so is allowing poor servicer
performance to continue to hurt homeowners who are struggling to stay in their
homes.




HOTLINE TIPS HELP SIGTARP FIGHT CRIME
SIGTARP’s Hotline has provided SIGTARP with valuable tips from the public
that have led to SIGTARP initiating criminal investigations. SIGTARP normally
maintains the confidentiality of the identity of callers and of criminal actions that
may result from a Hotline complaint. However, to educate homeowners, SIGTARP
is revealing the circumstances of certain mortgage modification complaints to
prevent the perpetration of future fraud. Typically, a mortgage modification scam
will have one or more red flags: the con artists (1) will claim that they can help the
homeowner get a mortgage modification because they have an expertise or that
they are affiliated with HAMP or another Government housing program, and may
even go so far as to display a Government seal; (2) will tell the homeowner to stop
paying the mortgage servicer and stop all contact with the mortgage servicer; (3)
will claim a high success rate of clients who have received a mortgage modification;
(4) will charge an upfront fee whereas in many states an upfront fee is illegal;
and (5) will offer a money-back guarantee. Although the majority of SIGTARP’s
investigative activity remains confidential, there have been some significant public
developments related to investigations assisted by Hotline tips that could help
inform the public about when they should call SIGTARP’s Hotline:

•	 Home Owners Protection Economics, Inc.: SIGTARP received several
   separate calls to SIGTARP’s Hotline from homeowners who reported mortgage
   modification schemes by a company called Home Owners Protection
   Economics, Inc., (“HOPE”). SIGTARP’s subsequent investigation into the
   company included the Hotline complaints in support of the investigation.
   HOPE falsely misrepresented to homeowners that, with HOPE’s assistance,
   the homeowners were virtually guaranteed to receive a loan modification under
   HAMP. HOPE lulled the distressed homeowners by telling them that HOPE
   had an almost perfect record of obtaining mortgage modifications, including
   under HAMP. Using these misrepresentations, HOPE induced thousands of
   financially distressed homeowners to pay up-front fees of up to $900 each in
   exchange for home loan modifications, modification services, and “software
   licenses.” However, HOPE did not help homeowners obtain a mortgage
   modification. In exchange for the fee, HOPE sent homeowners “software” that
   was nearly identical to the HAMP application provided free of charge by the
   U.S. Government. The HOPE customers had no advantage in the application
260   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                process, and, in fact, most of their applications were denied. The scams
                                                perpetrated by these criminals victimized thousands of struggling homeowners
                                                who lost more than $4 million in fees to HOPE.
                                                    As a result of the investigation by SIGTARP and its law enforcement
                                                partners, on August 9, 2011, SIGTARP agents arrested four Florida men
                                                connected with the fraudulent HOPE schemes, concurrent with a 20-count
                                                indictment filed in Federal court in Boston, charging Christopher S. Godfrey,
                                                Dennis Fischer, Vernell Burris, Jr., and Brian M. Kelly with conspiracy, wire
                                                fraud, mail fraud, and misuse of a Government seal. On November 28, 2012,
                                                Burris pled guilty to conspiracy and wire fraud for his role in the scheme.
                                                On May 2, 2013, Kelly pled guilty to conspiracy, nine counts of wire fraud,
                                                and nine counts of mail fraud for his role in the scheme. On November 14,
                                                2013, a Federal jury in Massachusetts convicted Godfrey and Fischer of
                                                defrauding homeowners in the home loan modification scam. Both Godfrey and
                                                Fischer were convicted of conspiracy, wire fraud, mail fraud, and misuse of a
                                                Government seal. All four defendants are scheduled to be sentenced in February
                                                2014 and face a maximum sentence of up to 20 years in prison on each count,
                                                a fine, and restitution. [U.S. v. Christopher S. Godfrey, et al., 11-CR-10279 (D.
                                                Mass.)]
                                             •	 Shutdown of Internet marketing of websites suspected of mortgage
                                                modification scams: While interviewing victims of suspected mortgage
                                                modification scams, SIGTARP learned that many homeowners fell prey to these
                                                scams after being enticed by Internet advertisements and web banners that
                                                promised help in lowering mortgage payments. The Internet ads increased the
                                                scope and scale of these frauds. SIGTARP took a proactive approach to stop
                                                homeowners from being victimized in the first place and to deter those who may
                                                be contemplating or starting these scams. In November 2011, SIGTARP worked
                                                with Google, Yahoo, and Bing so that these search engines suspended Internet
                                                advertising relationships with more than 900 web advertisers and agents
                                                associated with advertisers that used the hallmarks of these fraud scams.
                                             •	 21st Century Real Estate Investment Corp.: On August 18, 2009, a
                                                homeowner from Southern California called SIGTARP’s Hotline to report
                                                that he had attempted to modify his mortgage through a company he heard
                                                advertised on the radio, 21st Century Real Estate Investment Corp. (“21st
                                                Century”). The company allegedly instructed him to make payments directly
                                                to the company and to not make monthly payments to his mortgage servicer.
                                                SIGTARP initiated an investigation that uncovered allegations that mortgage
                                                modification scams run out of 21st Century and related companies had
                                                victimized more than 4,000 struggling homeowners who lost at least $7 million
                                                in fees, and many of the victims lost their homes to foreclosure as well. The
                                                investigation by SIGTARP and its law enforcement partners resulted in the
                                                September 2012 indictment of 11 individuals who had been charged by a
                                                Federal grand jury in Riverside, California, with allegedly running a massive
                                                fraudulent mortgage modification scheme through 21st Century and several
                                                related companies. According to the indictment, during an 18-month period
                                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   261




   that began in June 2008, under the leadership of Andrea Ramirez, 21st Century
   “defrauded financially distressed homeowners by making false promises and
   guarantees regarding 21st Century’s ability to negotiate loan modifications
   from the homeowners’ mortgage lenders, falsely representing that 21st Century
   was operating a loan modification program sponsored by the United States
   government, instructing homeowners to cease communication with their
   mortgage lenders and to cease making their mortgage payments.” Ramirez and
   her 10 co-conspirators face trial in August 2014, each charged with nine felony
   counts: five counts of mail fraud, three counts of wire fraud, and one count of
   conspiracy.ii [U.S. v. Andrea R. Ramirez, et al., 12-CR-0065 (C.D. Cal.)]
•	 Nations Housing Modification Center: On March 20, 2009, a homeowner
   contacted SIGTARP’s Hotline about a seemingly suspicious letter he received
   in the mail. The letter was a solicitation to homeowners who were delinquent
   on mortgage payments; it purported to be the result of a bill passed by
   Congress. A SIGTARP investigation found that, using the names “Nations
   Housing Modification Center” (“NHMC”) and “Federal Housing Modification
   Department,” the conspirators used false and fraudulent statements and
   representations to induce customers to pay advance fees of $2,500 to $3,000
   each to purchase loan-modification services from NHMC. Included among the
   misrepresentations of the scam was that NHMC was affiliated with the Federal
   Government or HAMP and that it was located on Capitol Hill in Washington,
   DC. The fraud grossed at least $900,000 from more than 300 homeowners.
   Michael Trap, Roger Jones, and Glenn Rosofsky pled guilty in Federal court in
   San Diego, California, to their involvement in the fraudulent loan-modification
   scheme. The three have since been sentenced to 30, 33, and 63 months in
   Federal prison, respectively, as well as subsequent supervised release of three
   years, and were ordered to pay a total of $456,749 in restitution. [U.S. v.
   Michael Trap, 10-CR-00913 (S.D. Cal.); U.S. v. Roger T. Jones, 10-CR-05046
   (S.D. Cal.); U.S. v. Glenn S. Rosofsky, 10-CR-00978 (S.D. Cal.)]
•	 Federal Loan Modification Law Center: On May 6, 2009, a homeowner
   contacted SIGTARP’s Hotline with a tip that the Federal Loan Modification
   Law Center (“FLMLC”) was engaged in the fraudulent use of the HAMP
   program to fleece homeowners from $995 to $3,400 for loan modification
   services that were never performed. It was the first of a number of complaints
   that SIGTARP received about the company. SIGTARP teamed with the
   Federal Trade Commission (“FTC”) to investigate FLMLC as well as affiliated
   companies and individuals operating the companies. The investigation found
   that the company lured in struggling homeowners with promises of mortgage
   modifications in exchange for upfront fees of $1,000 to $4,000. In several
   instances the company falsely claimed that it was part of or affiliated with
   the Federal Government. After taking the upfront fees from homeowners,
   the company was not reachable by the homeowners, and little or no contact
   was actually made with the servicers of the mortgages. In July 2010, the

ii Criminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
262   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                FTC settled with FLMLC and others for charging homeowners upfront
                                                fees and falsely claiming that they could get homeowners’ mortgage loans
                                                modified. The order imposed an $11.5 million judgment. In December 2010,
                                                a Federal court in Santa Ana, California, issued a final judgment and order for
                                                permanent injunction against one more individual, Boaz Minitzer, for similar
                                                fraudulent conduct. The civil judgment ordered $10.4 million in restitution and
                                                permanently prohibits everyone involved with the company from advertising
                                                or selling mortgage modification and foreclosure relief services. Any money
                                                collected to satisfy the judgment was to be paid to injured consumers. [Federal
                                                Trade Commission v. Federal Loan Modification Law Center LLP, et al., 09-CV-
                                                401 (C.D. Cal.)]




                                             GRIEVANCES RELATED TO TARP HOUSING
                                             PROGRAMS DOMINATE COMPLAINTS TO SIGTARP
                                             Complaints about TARP housing programs, particularly HAMP, dominate Hotline
                                             complaints to SIGTARP. Homeowners contacted SIGTARP to allege mistreatment
                                             by mortgage servicers in the following categories: access to TARP housing
                                             programs; lack of communication or misplaced application documents by servicers;
                                             foreclosures and short sales; and trial modification problems including extended
                                             trials, payment issues, and negative credit reporting. Some people who contacted
                                             SIGTARP had multiple related complaints.
                                                 Homeowners have reported problems getting into the HAMP program, where
                                             callers said that they believed servicers prevented them from getting modifications
                                             for which they believed they were eligible. These included cases where callers told
                                             SIGTARP that their mortgage servicer did not properly process their application, or
                                             did not properly calculate their monthly income. For struggling homeowners, the
                                             Government-created housing programs are a chance for them to save their homes.
                                             Frustrated homeowners expressed anger to SIGTARP over the possibility of losing
                                             their homes as a result of issues with mortgage servicers, when these programs exist
                                             to help the homeowners.
                                                 Homeowners also reported to SIGTARP that their mortgage servicer was not
                                             communicating with them or was providing inaccurate or contradictory information
                                             about their HAMP mortgage modification status, or that their mortgage servicer
                                             had lost or misplaced documents related to their HAMP mortgage modification
                                             application. Misplaced documents and lack of communication from servicers add
                                             to the frustration and difficulty of people who are trying to save their homes.
                                                 Homeowners reported to SIGTARP that they had lost their home to foreclosure
                                             even while applying for a HAMP mortgage modification or applying to participate
                                             in a TARP short-sale program. Homeowners report to SIGTARP that while they are
                                             attempting to save their homes by applying to HAMP, they have encountered delays
                                             in their application process, and mortgage servicers have simultaneously initiated
                                             foreclosure proceedings. Other homeowners are attempting to participate in the
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   263




TARP housing program to facilitate short sales, but report finding their mortgage
servicers uncooperative or incompetent in administering their applications for this
program.
    Homeowners also reported to SIGTARP issues relating to HAMP trial
modifications, including extended trial periods, payment issues, and negative credit
reporting. When a homeowner begins a trial period in HAMP but fails to obtain a
permanent modification, he can find himself in even worse condition than when
he began the HAMP application process. That is because when a homeowner
is cancelled out of a HAMP trial modification, he is left with the original terms
of the mortgage and is responsible for making up the difference between the
original monthly mortgage payment and any HAMP modified payment that he had
made during the trial period. In some cases this results in a big balloon payment.
Additionally, servicers can also charge late fees on principal and interest that was
not paid during the HAMP trial modification. In the worst case scenario, the
homeowner can lose his home to foreclosure.




COMPLAINTS ABOUT FORECLOSURES CONTINUE
Homeowners continue to make complaints to SIGTARP regarding short sales
or foreclosures. The following are examples of complaints homeowners made to
SIGTARP. In August 2012, a man from Arizona contacted SIGTARP to report that
his mortgage servicer misrepresented his income in the review of his application for
TARP’s Home Affordable Foreclosure Alternatives (“HAFA”) program, thus denying
him the opportunity to participate in the program with a short sale of his house. He
alleged that the servicer refused to explain the discrepancy, citing the proximity of
an upcoming scheduled foreclosure date, even though the forms with the correct
proof of income were submitted much earlier. In another instance, in April 2013,
a man from Northern California contacted SIGTARP to report that his mortgage
servicer allegedly inflated the price of his house when it was set for a short sale so
that the company could foreclose on the property instead. A foreclosure can hurt
a homeowner’s credit rating more than a short sale would, and it also prevents the
homeowner from receiving incentives under HAFA.
    One common type of complaint to SIGTARP regarding foreclosures is what
is known as dual tracking—that is, that servicers begin foreclosure proceedings
against a homeowner at the same time that the homeowner is attempting to
save that house through a HAMP modification. Treasury prohibits dual tracking.
Often, a homeowner’s application for a HAMP modification has been delayed
by the servicer due to circumstances such as misplaced documents or backlogs
in processing. While the homeowner is trying to avail himself of TARP programs
that the Government set up to help him save his home, the servicer nonetheless
continues its foreclosure process, even though the servicer should be aware that
the homeowner has applied for HAMP. If the foreclosure process moves more
quickly than the servicer review of the HAMP modification (which often is
reviewed in a separate department than foreclosures), the homeowner can lose his
264   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             home before he is ever fully reviewed for a HAMP modification.
                                                 Complaints about dual tracking by servicers have surfaced since the earliest
                                             days of HAMP, and recent calls to SIGTARP show that this serious problem
                                             continues. For example, in July 2010, a homeowner from Southern California
                                             contacted SIGTARP to report that she had applied for a HAMP modification and
                                             was awaiting final income verification. The caller told SIGTARP that there was a
                                             delay in processing the HAMP modification due to a backlog at the servicer, and
                                             in that time the bank moved to foreclose on and sell the house. Now, years later,
                                             SIGTARP continues to receive similar complaints. In July 2012, a woman from
                                             Ohio contacted SIGTARP to report that even though she was making timely trial
                                             modification payments, her servicer had initiated foreclosure proceedings. In
                                             December 2012, a 76-year-old woman from Illinois called SIGTARP to say that
                                             she had spent six months applying for a HAMP modification from one servicer,
                                             and then her mortgage was transferred to a new servicer that immediately sent
                                             notice that it was beginning foreclosure proceedings. Also, in December 2012, a
                                             woman from Southern California contacted SIGTARP to say that she had been
                                             participating in a trial modification and making timely payments, but that she
                                             had received a letter from her servicer stating that it had initiated foreclosure
                                             proceedings. In January 2013, a man from Florida contacted SIGTARP to report
                                             that he had repeatedly filed application documents with his servicer and that
                                             the servicer kept misplacing them. Sometimes the servicer would later find the
                                             documents after they had expired and the homeowner would have to send in
                                             the application documents again. Ultimately, the bank filed to foreclose on the
                                             homeowner’s home while he was still in the process of re-filing documents that the
                                             servicer had lost or had allowed to expire. In July 2013, a woman from Southern
                                             California contacted SIGTARP to report that while she was in the process
                                             of applying for a loan modification, her mortgage servicer kept changing and
                                             delaying the application process, and that at the same time she was approved for a
                                             modification she also received a notice of foreclosure. Also in July 2013, a woman
                                             from Florida contacted SIGTARP to report that she had been making timely trial
                                             modification payments for eight months when her loan was sold to a new servicer
                                             and that the new servicer started foreclosure proceedings. In October 2013, a
                                             man from Virginia contacted SIGTARP to report that he had turned in a HAMP
                                             modification package in January 2013, but it was not reviewed by his servicer until
                                             February 2013 and the servicer did not begin the processing of the application until
                                             September 2013. In the meantime, the servicer began foreclosure proceedings
                                             against him.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   265




COMPLAINTS ABOUT SERVICERS PERSIST
Communication Problems Continue Despite Single Point of
Contact Requirement
Homeowner calls to SIGTARP about miscommunication and lack of
communication, or servicers losing and misplacing documents, continue to persist.
When HAMP was introduced, SIGTARP reported on homeowner complaints
related to miscommunication or lack of communication by the servicer. After a
request by certain members of Congress, Treasury instituted a rule in May 2011
that servicers establish a single point of contact—a single individual responsible
for managing a borrower’s HAMP application process and communicating with
the borrower. However, despite this rule, SIGTARP’s Hotline has continued to
receive homeowner complaints about servicers relating to single point of contact
issues. In the period from the implementation of the single point of contact rule
through December 31, 2013, 143 homeowners who had applied for a HAMP
mortgage modification reported to SIGTARP that they had not even been assigned
a functional single point of contact. For example, a woman from Arizona contacted
SIGTARP in January 2013 to report that she had been assigned eight different
single points of contact and while she was being shuffled around to different
single points of contact her application documents had gone missing. She reported
that most of the servicer representatives had been unresponsive and one of them
actually yelled at her over the phone when she was finally able to get in touch
with him. A man from Southern California contacted SIGTARP in March 2013
to report that his servicer had lost his modification application documents and
had sent a series of conflicting letters, and that he was currently being foreclosed
upon without explanation. He reported that he had been assigned 12 single
points of contact in the previous nine months. A woman from Texas contacted
SIGTARP in April 2013 to report a lack of communication from her servicer as
she was applying for a HAMP modification. She reported that the single point of
contact assigned to her never answered the phone or kept phone appointments.
When she requested that the servicer reassign her a new single point of contact,
according to the homeowner, the servicer refused. In December 2013, a woman
from Nevada contacted SIGTARP to report that in addition to miscommunication
from her mortgage servicer over the start date of a trial modification, the servicer
kept changing her single point of contact month after month, thus adding to the
miscommunication.

Homeowners Continue to Report HAMP Access and Trial
Modification Issues
Homeowner complaints to SIGTARP also persist about servicer errors in the
HAMP application process and servicer errors related to trial modifications.
These homeowners contact SIGTARP to report that they believe they meet
HAMP requirements, but are not being admitted into the program due to alleged
servicer error. For example, in August 2010, a struggling homeowner in California
266   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             contacted SIGTARP to report that the servicer of his mortgage had inflated his
                                             gross income in a HAMP modification application, making him ineligible for a
                                             HAMP modification, but the servicer refused to let the homeowner know how that
                                             figure had been calculated, even though this is a basic right of applicants under
                                             HAMP rules. Years later, homeowners continue to make similar complaints to
                                             SIGTARP. For example, a woman from Kansas contacted SIGTARP in January
                                             2013 to report that after she made five trial modification payments, the servicer
                                             of her mortgage denied her modification even though there was no change in her
                                             circumstances, and the servicer provided no rationale for why she was suddenly
                                             ineligible. A woman from Northern California contacted SIGTARP in May 2013 to
                                             report that she had made three HAMP trial payments, asserting that she has proof
                                             of timely payment, but was rejected by her servicer for a permanent modification
                                             because the servicer claimed she had made late payments. In July 2013, a man
                                             from Florida contacted SIGTARP to report that after the servicer of his mortgage
                                             prequalified his loan for a HAMP modification and he completed the HAMP
                                             modification loan application, the servicer of his loan offered him a less favorable
                                             non-HAMP modification.
                                                 Additionally, SIGTARP continues to receive complaints about servicers relating
                                             to HAMP trial modifications, including extended trial periods, payment issues,
                                             and negative credit reporting, although less so than in earlier years. For example,
                                             in August 2013, a man from Arizona contacted SIGTARP to report that he had
                                             made three timely trial modification payments when his servicer transferred his
                                             mortgage to another servicer. The new servicer did not recognize his modification
                                             agreement and was expecting payment of his full mortgage amount, even though
                                             the previous servicer reported sending modification information to the new
                                             servicer. Another common complaint to SIGTARP by homeowners is that their
                                             trial modification, originally designed to last three months, had been extended for
                                             several more months. According to Treasury, as of December 31, 2013, 20% of
                                             active trial modifications had lasted more than six months. A woman from Arizona
                                             contacted SIGTARP in January 2013 to report that after an application process and
                                             trial modification period that combined lasted for 17 months, she was ultimately
                                             declined for a permanent modification.




                                             BIGGEST SERVICERS DRAW THE MOST SIGTARP
                                             HOTLINE COMPLAINTS
                                             The majority of complaints to SIGTARP concern TARP housing programs,
                                             and the two mortgage servicers with the biggest TARP portfolios were also the
                                             subjects of the most complaints reviewed, Bank of America Corporation (“Bank
                                             of America”) and JP Morgan Chase & Co. (“JP Morgan Chase”). Complaints
                                             against Bank of America and JP Morgan Chase in the following categories were
                                             proportionally greater than among all servicers as a group: complaints related to
                                             lack of communication or misplaced application documents; complaints about
                                             foreclosures and short sales; and complaints about trial modification problems.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   267




CALIFORNIA AND FLORIDA LEAD NATION IN
SIGTARP HOTLINE COMPLAINTS
While SIGTARP’s Hotline has received taxpayer complaints from all over the
country, a disproportionately large share of complaints in relation to their
population comes from California and Florida. Their outsized share of complaints
is meaningful because California and Florida were two of the states most affected
by the mortgage crisis, with some of the steepest drops in home prices and sharpest
increases in foreclosure rates. The content of the complaints from California
and Florida is similar to that of complaints nationally: lack of communication or
misplaced application documents by servicers; foreclosures and short sales; trial
modification problems including extended trials, payment issues, and negative
credit reporting; and mortgage modification scams. Although SIGTARP has
received complaints from all states, after California and Florida, the largest
numbers of Hotline complaints have come from homeowners in Michigan,
Virginia, Arizona, Maryland, Texas, Illinois, and Ohio.




TREASURY SHOULD MOVE MORE AGGRESSIVELY
TO IMPROVE SERVICER PERFORMANCE
Homeowners continue to complain to SIGTARP about issues with their mortgage
servicers related to the HAMP program and other TARP housing programs.
SIGTARP has made numerous recommendations to Treasury that are designed to
improve servicer performance in HAMP and increase Treasury oversight of HAMP
servicers. Many of those recommendations, dating back to the earliest days of
HAMP, call for Treasury to set meaningful and measurable performance metrics
and goals for servicers, and then to publicly report on servicer performance against
those benchmarks. Treasury has not fully implemented these recommendations,
leaving HAMP and homeowners vulnerable to abuse by servicers.
    With the Administration’s June 13, 2013, extension of HAMP through
December 31, 2015, Treasury has an opportunity to take more aggressive steps to
ensure that all servicers act in accordance with the program rules and the contracts
they signed, for which they are being paid by taxpayers.
    SIGTARP recommended in October 2011 that Treasury use all financial
remedies such as withholding, permanently reducing, and clawing back incentive
payments for servicers who fail to perform at an acceptable level. Treasury rejected
SIGTARP’s recommendation. Although Treasury has told SIGTARP that it believes
remedies enacted against servicers have been appropriate, servicer problems persist.
Treasury has told SIGTARP that it plans to take no further action to implement
this recommendation.
    In May and August 2011, SIGTARP made five recommendations to Treasury
with the goal of improving mortgage servicer compliance. These recommendations
focused on mortgage servicers’ poor treatment of homeowners and serious failures
268   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             by servicers to follow program rules. SIGTARP recommended that Treasury
                                             establish detailed guidance and internal controls governing how the MHA
                                             Servicer Compliance Assessment is conducted and how each compliance area is
                                             weighted. Treasury has only partially implemented this recommendation. SIGTARP
                                             recommended that Treasury increase the detail and quality of MHA Compliance
                                             Committee meeting minutes; SIGTARP recommended that Treasury require that
                                             servicer communications to homeowners relating to changes in the status or terms
                                             of a homeowner’s modification application, trial or permanent modification, HAFA
                                             agreement, or any other significant change, be in writing; SIGTARP recommended
                                             that Treasury establish benchmarks and goals for acceptable program performance
                                             for servicers, including length of trial modifications, conversion rates from trial
                                             to permanent modifications, length of time to resolve escalated homeowner
                                             complaints, and the percentage of required modification status reports that are
                                             missing; and SIGTARP recommended that Treasury publicly assess the top 10
                                             MHA servicers’ program performance against acceptable performance benchmarks
                                             in these same areas. Treasury has not implemented these four recommendations.
                                                 In June 2012, SIGTARP made four recommendations to Treasury relating to
                                             mortgage servicers. Again, homeowners were continuing to experience challenges
                                             accessing HAMP. SIGTARP recommended that Treasury should stop allowing
                                             servicers to add a risk premium to Freddie Mac’s discount rate in HAMP’s present
                                             value test; SIGTARP recommended that Treasury require servicers to use accurate
                                             information when evaluating net present value test results for homeowners
                                             applying to HAMP, that servicers be required to maintain documentation of
                                             all net present value inputs, and that Treasury should permanently withhold
                                             incentives from servicers that do not; SIGTARP recommended that Treasury
                                             require servicers to improve communication with homeowners regarding a denial
                                             of HAMP modification and to withhold incentives from servicers that do not
                                             follow these requirements; and SIGTARP recommended that Treasury require that
                                             Making Home Affordable Compliance Committee meeting minutes capture more
                                             detail regarding the substance of servicer compliance, specifically listing specific
                                             problems encountered by servicers, remedial options discussed, and requisite
                                             actions taken to remedy the situation. Treasury has not implemented these
                                             recommendations.
                                                 Continued calls to SIGTARP’s Hotline about foreclosures, in addition to the
                                             constant stream of complaints about servicers, have raised SIGTARP’s concerns.
                                             SIGTARP made a recommendation to Treasury on April 1, 2013, that Treasury
                                             ensure that homeowners in HAMP get sustainable relief from foreclosure by
                                             researching and analyzing whether and to what extent the conduct of HAMP
                                             mortgage servicers may contribute to homeowners redefaulting on HAMP
                                             permanent mortgage modifications, and that Treasury provide transparency and
                                             accountability by publishing its conclusions and determinations. Treasury has
                                             not fully implemented this recommendation. It is imperative that Treasury better
                                             understand the factors affecting the ability of homeowners to remain in HAMP,
                                             particularly where Treasury can exercise control and oversight and, once that
                                             research and analysis has been completed, that it publish the results.
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           269




    After investigating mortgage modification scams, SIGTARP created a joint task
force with the Consumer Financial Protection Bureau and Treasury to leverage
resources in investigating, combating, and shutting down mortgage modification
                                                                                           SIGTARP’s Consumer Fraud Alert and
scams related to HAMP and to provide awareness to at-risk homeowners. The                  its Armed Services Mortgage Fraud Alert
Task Force has issued two fraud alerts: (1) an alert to educate homeowners on              are reproduced inside the back cover of
how to recognize and avoid these scams and (2) an alert specifically to warn               this report.
members of the Armed Services community. Treasury has also worked with
SIGTARP to identify websites bearing the hallmarks of these scams. In an
effort to make sure these warnings reached vulnerable homeowners, SIGTARP
made a recommendation to Treasury in April 2012, as Treasury announced an
expansion of HAMP to include a second tier of qualifying homeowners. SIGTARP
recommended that Treasury: a) require that servicers provide the SIGTARP/CFPB/
Treasury Joint Task Force Consumer Fraud Alert to all HAMP-eligible borrowers
as part of their monthly mortgage statement until the expiration of the application
period for HAMP, and b) undertake a sustained public service campaign as soon
as possible both to reach additional borrowers who could potentially be helped by
HAMP Tier 2 and to arm the public with complete, accurate information about the
program to avoid confusion and delay, and to prevent fraud and abuse. Treasury has
not implemented this recommendation. It is important that Treasury educate as
many homeowners as possible with accurate information about HAMP in an effort
to prevent homeowners from being victims of mortgage modification fraud.
    SIGTARP’s analysis of complaints reveals that more needs to be done to address
the continuing problems facing homeowners. Without Treasury requiring greater
accountability of servicers and servicer-related improvements, homeowners are
likely to continue feeling the frustrations of dealing with TARP housing programs.
270   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT IO N 4
              TARP OPERATIONS AND
              ADMINISTRATION
272   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   273




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.753 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.754 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM OPERATING
EXPENDITURES
As of December 31, 2013, Treasury has obligated $396.4 million for TARP
administrative costs and $1.2 billion in programmatic operating expenditures for
a total of $1.6 billion since the beginning of TARP. Of that, $217.7 million has
been obligated in the year since December 31, 2012. According to Treasury, as of
December 31, 2013, it had spent $347.5 million on TARP administrative costs and
$997.8 million on programmatic operating expenditures, for a total of $1.3 billion
since the beginning of TARP. Of that, $247.2 million has been spent in the year
since December 31, 2012.755
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of December 31, 2013, it
employs 43 career civil servants, 66 term appointees, and 23 reimbursable
detailees, for a total of 132 full-time employees.756 Between TARP’s inception in
2008 and December 31, 2013, Treasury had retained 154 private vendors — 20
financial agents and 134 contractors — to help administer TARP.757 According
to Treasury, as of December 31, 2013, 60 private vendors were active — 10
financial agents and 50 contractors, some with multiple contracts.758 The number
of private-sector staffers who provide services under these agreements dwarfs
the number of people working for OFS. According to Fannie Mae and Freddie
Mac, as of September 30, 2013, together they had about 661 people dedicated to
working on their TARP contracts.759 According to Treasury, as of September 30,
2013, or December 31, 2013 — the latest numbers available vary due to reporting
cycles — at least approximately another 289 people were working on other active
OFS contracts, including financial agent and legal services contracts, for a total of
approximately 950 private-sector employees working on TARP.760
    Table 4.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through December 31, 2013. The
administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 4.2 provides a summary of OFS service contracts, which include
274   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             costs to hire financial agents and contractors, and obligations through December
                                             31, 2013, excluding costs and obligations related to personnel services, travel, and
                                             transportation.

                                             TABLE 4.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                        Ending 12/31/2013        Ending 12/31/2013
                                              Administrative                                                                                                                        
                                                  Personnel Services                                                                                                                
                                                      Personnel Compensation & Benefits                                   $123,942,456                          $123,877,662
                                                  Total Personnel Services                                              $123,942,456                           $123,877,662
                                                                                                                                                                                    
                                                  Non-Personnel Services                                                                                                            
                                                      Travel & Transportation of Persons                                      $2,391,207                            $2,377,040
                                                      Transportation of Things                                                      11,960                                 11,960
                                                      Rents, Communications, Utilities &
                                                                                                                                  786,303                                711,540
                                                      Misc. Charges
                                                      Printing & Reproduction                                                            459                                   459
                                                      Other Services                                                        267,224,586                           218,401,725
                                                      Supplies & Materials                                                     1,837,098                              1,832,913
                                                      Equipment                                                                   253,286                                243,907
                                                      Land & Structures                                                                    —                                      —
                                                      Insurance Claims & Indemnities                                                       —                                      —
                                                      Dividends and Interest                                                             634                                   634
                                                  Total Non-Personnel Services                                          $272,505,532                           $223,580,177
                                              Total Administrative                                                      $396,447,988                           $347,457,839
                                              Programmatic                                                           $1,168,729,201                            $997,840,825
                                              Total Administrative and Programmatic                                  $1,565,177,189                         $1,345,298,664
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, responses to SIGTARP data call, 1/8/2014 and 1/15/2014.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.761 Treasury hired no new
                                             financial agents in the quarter ended December 31, 2013.762
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             275




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                    Type of
 Date         Vendor                           Purpose                              Transaction         Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP   Legal services for the
 10/10/2008                                                                         Contract                   $931,090               $931,090
              LLP                              implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1   Investment and Advisory Services     Contract                  2,635,827              2,635,827
              The Bank of New York Mellon
 10/14/2008                                    Custodian                            FAA Listing              59,793,204             55,456,648
              Corporation
 10/16/2008   PricewaterhouseCoopers, LLP      Internal control services            Contract                 34,980,857             33,505,992
                                               For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                      9,000                       —
                                               services                             Agreement
 10/18/2008   Ernst & Young LLP                Accounting Services                  Contract                 14,550,519             13,640,626
                                               Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                             Contract                  3,060,921              2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/29/2008   Squire Sanders & Dempsey LLP                                          Contract                  2,687,999              2,687,999
                                               Purchase Program
 10/31/2008   Lindholm & Associates, Inc.      Human resources services             Contract                    614,963                  614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/7/2008                                                                          Contract                  2,702,441              2,702,441
              LLP4                             industry loans
                                                                                    Interagency
 11/9/2008    Internal Revenue Service         Detailees                                                         97,239                   97,239
                                                                                    Agreement
                                                                                    Interagency
 11/17/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                       8,095                    8,095
                                                                                    Agreement
              Department of the Treasury —                                          Interagency
 11/25/2008                                    Administrative Support                                        16,512,820             16,131,121
              Departmental Offices                                                  Agreement
              Trade and Tax Bureau —           IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                       67,489                   67,489
              Treasury                         Operation of SharePoint              Agreement
                                                                                    Interagency
 12/5/2008    Washington Post3                 Subscription                                                         395                       —
                                                                                    Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase of
 12/10/2008                                                                         Contract                    102,769                  102,769
              LLP4                             asset-backed securities
                                               Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                              Contract                          —                       —
                                               issue
                                                                                    Interagency
 12/15/2008   Office of Thrift Supervision     Detailees                                                        225,547                  164,823
                                                                                    Agreement
              Department of Housing and                                             Interagency
 12/16/2008                                    Detailees                                                              —                       —
              Urban Development                                                     Agreement
                                                                                    Interagency
 12/22/2008   Office of Thrift Supervision     Detailees                                                              —                       —
                                                                                    Agreement
              Cushman and Wakefield of VA
 12/24/2008                                    Painting Services for TARP Offices   Contract                      8,841                    8,841
              Inc.
                                                                                                                          Continued on next page
276          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Securities and Exchange                                                 Interagency
      1/6/2009                                        Detailees                                                 $30,416                 $30,416
                   Commission                                                              Agreement
      1/7/2009     Colonial Parking Inc.              Lease of parking spaces              Contract             347,634                 244,017
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract             409,955                 409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Office Machines                      Contract               3,213                    3,213
                   Inc.
                   Office of the Comptroller of the                                        Interagency
      1/30/2009                                       Detailees                                                 501,118                 501,118
                   Currency                                                                Agreement
                                                      IAA — GAO required by P.L. 110-
                                                                                           Interagency
      2/2/2009     Government Accountability Office   343 to conduct certain activities                       7,459,049               7,459,049
                                                                                           Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service2          Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,225                 272,225
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               479,105,269             415,129,990
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              347,826,162             290,159,044
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                   The Boston Consulting Group        Management Consulting relating to
      3/6/2009                                                                             Contract             866,169                 866,169
                   Inc.                               the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             295,724                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                                                                                           Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             277




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction         Obligated Value        Expended Value
                                               SBA Initiative Legal Services
                                               — Contract Novated to TOFS-
3/30/2009   McKee Nelson LLP5                                                       Contract                   $126,631               $126,631
                                               10-D-0001 with Bingham
                                               McCutchen LLP
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services       Contract                  1,834,193              1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                  4,865,419              3,830,691
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                             35,190                   25,812
                                                                                    Agreement
            The Boston Consulting Group        Management Consulting relating to
4/3/2009                                                                            Contract                  3,975,195              3,974,923
            Inc.                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                          45,822                   45,822
                                                                                    Agreement
4/17/2009   Herman Miller Inc.                 Aeron Chairs                         Contract                     53,799                   53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                     49,369,320             48,015,902
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                     27,099,072             26,901,057
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                     12,769,288             12,684,829
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   State Department                   Detailees                                                              —                       —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                         48,422                   48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                           325                     325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                    124,340                  124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil Inc.                                                             Contract                     90,304                   90,304
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                        430,000                  430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                        243,778                  243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public-Private            Contract                  2,287,423              2,287,423
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public-Private            Contract                  7,849,101              3,526,529
            LLP
                                               Investment Funds (PPIF) program
                                                                                    Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                     89,436                   89,436
                                                                                    Agreement
                                               Federal Consulting Group             Interagency
6/29/2009   Department of the Interior                                                                           49,000                   49,000
                                               (Foresee)                            Agreement
                                                                                                                          Continued on next page
278          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                        Type of
      Date         Vendor                            Purpose                            Transaction     Obligated Value        Expended Value
      7/8/2009     Judicial Watch6                   Litigation Settlement              Other Listing           $1,500                  $1,500
                                                     Executive search services for
      7/17/2009    Korn/Ferry International          the OFS Chief Investment Officer   Contract                74,023                  74,023
                                                     position
                   Cadwalader Wickersham & Taft
      7/30/2009                                      Restructuring Legal Services       Contract             1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP          Restructuring Legal Services       Contract                 1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                      Restructuring Legal Services       Contract                26,493                  26,493
                   Carol, LLP
                                                                                        Interagency
      8/10/2009    Department of Justice             Detailees                                                  63,109                  54,679
                                                                                        Agreement
                   National Aeronautics and Space                                       Interagency
      8/10/2009                                      Detailees                                                 140,889                 140,889
                   Administration (NASA)                                                Agreement
                                                     Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                     Contract                 3,000                    3,000
                                                     Subscription
                                                                                        Interagency
      8/25/2009    Department of Justice             Detailees                                                  63,248                  63,248
                                                                                        Agreement
      9/2/2009     Knowledge Mosaic Inc.             SEC filings subscription service   Contract                 5,000                    5,000
                                                     Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                        Contract                59,990                  59,990
                                                     Subscription
      9/11/2009    PricewaterhouseCoopers, LLP       PPIP compliance                    Contract             3,647,526               3,559,089
                                                                                        Interagency
      9/18/2009    Treasury Franchise Fund — BPD     Administrative Support                                    436,054                 436,054
                                                                                        Agreement
      9/28/2009    Judicial Watch6                   Litigation Settlement              Other Listing            2,146                    2,146
                                                                                        Interagency
      9/30/2009    Immixtechnology Inc.3             EnCase eDiscovery ProSuite                                210,184                       —
                                                                                        Agreement
                                                                                        Interagency
      9/30/2009    Immixtechnology Inc.3             Guidance Inc.                                             108,000                       —
                                                                                        Agreement
      9/30/2009    NNA INC.                          Administrative Support             Contract                 8,220                    8,220
                                                     SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                     Contract               460,000                 460,000
                                                     financial analytics service
                   Department of the Treasury —                                         Interagency
      11/9/2009                                      Administrative Support                                 18,239,373              17,772,584
                   Departmental Offices                                                 Agreement
                                                                                        Interagency
      12/16/2009   Internal Revenue Service          Detailees                                                      —                        —
                                                                                        Agreement
                                                                                        Financial
      12/22/2009   Avondale Investments, LLC         Asset Management Services                                 772,657                 772,657
                                                                                        Agent
                                                                                        Financial
      12/22/2009   Bell Rock Capital, LLC            Asset Management Services                               2,712,275               2,658,878
                                                                                        Agent
                                                     Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                            Contract             1,653,289                 869,755
                                                     Litigation Support
                                                                                        Financial
      12/22/2009   KBW Asset Management, Inc.        Asset Management Services                               4,937,433               4,937,433
                                                                                        Agent
                                                                                        Financial
      12/22/2009   Lombardia Capital Partners, LLC   Asset Management Services                               3,217,866               3,217,866
                                                                                        Agent
                   Paradigm Asset Management                                            Financial
      12/22/2009                                     Asset Management Services                               4,121,773               4,050,593
                   Co., LLC                                                             Agent
                                                                                                                          Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             279




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date         Vendor                             Purpose                             Transaction         Obligated Value        Expended Value
             Raymond James (f/k/a Howe                                              Financial
12/22/2009                                      Asset Management Services                                      $485,371               $433,971
             Barnes Hoefer & Arnett, Inc.)                                          Agent
             Howe Barnes Hoefer & Arnett,
12/23/2009                                      Asset Management Services           FAA Listing               3,124,094              3,124,094
             Inc.
                                                IAA — GAO required by P.L.110-
                                                                                    Interagency
1/14/2010    Government Accountability Office   343 to conduct certain activities                             7,304,722              7,304,722
                                                                                    Agreement
                                                related to TARP
             Association of Government
1/15/2010                                       CEAR Program Application            Contract                      5,000                    5,000
             Accountants
                                                                                    Interagency
2/16/2010    Internal Revenue Service           Detailees                                                        52,742                   52,742
                                                                                    Agreement
                                                FNMA IR2 assessment — OFS
2/16/2010    The MITRE Corporation              task order on Treasury MITRE        Contract                    730,192                  730,192
                                                Contract
                                                                                    Interagency
2/18/2010    Treasury Franchise Fund — BPD      Administrative Support                                        1,221,140              1,221,140
                                                                                    Agreement
3/8/2010     Qualx Corporation                  FOIA Support Services               Contract                    549,528                  549,528
             Department of the Treasury —                                           Interagency
3/12/2010                                       Administrative Support                                          671,731                  671,731
             Departmental Offices                                                   Agreement
                                                                                    Interagency
3/22/2010    Gartner, Inc.                      Financial Management Services                                    73,750                   73,750
                                                                                    Agreement
             Federal Maritime Commission                                            Interagency
3/26/2010                                       Detailees                                                       158,600                  158,600
             (FMC)                                                                  Agreement
             Morgan Stanley & Co.                                                   Financial
3/29/2010                                       Disposition Agent Services                                   16,685,290             16,685,290
             Incorporated                                                           Agent
                                                                                    Interagency
4/2/2010     Financial Clerk U.S. Senate        Congressional Oversight Panel                                 4,797,556              4,797,556
                                                                                    Agreement
4/8/2010     Squire Sanders & Dempsey LLP       Housing Legal Services              Contract                  1,229,350                  918,224
4/12/2010    Hewitt EnnisKnupp, Inc.  1
                                                Investment Consulting Services      Contract                  5,468,928              4,458,789
                                                Data and Document Management
4/22/2010    Digital Management Inc.                                                Contract                          —                       —
                                                Consulting Services
                                                Data and Document Management
4/22/2010    MicroLink LLC                                                          Contract                 16,949,546             14,426,646
                                                Consulting Services
                                                Data and Document Management
4/23/2010    RDA Corporation                                                        Contract                  8,799,246              7,535,462
                                                Consulting Services
                                                                                    Interagency
5/4/2010     Internal Revenue Service           Training — Bulux CON 120                                          1,320                    1,320
                                                                                    Agreement
                                                                                    Financial
5/17/2010    Lazard Fréres & Co. LLC            Transaction Structuring Services                             14,222,312             14,222,312
                                                                                    Agent
             Reed Elsevier Inc (dba             Accurint subscription service for
6/24/2010                                                                           Contract                      8,208                    8,208
             LexisNexis)                        one year — 4 users
                                                Financial Institution Management
             The George Washington
6/30/2010                                       & Modeling — Training course        Contract                      5,000                    5,000
             University
                                                (J.Talley)
                                                Program Compliance Support
7/21/2010    Navigant Consulting Inc.                                               Contract                  3,774,673                  749,946
                                                Services
                                                Program Compliance Support
7/21/2010    Regis & Associates PC                                                  Contract                  1,933,557              1,097,249
                                                Services
                                                                                                                          Continued on next page
280          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction   Obligated Value        Expended Value
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                      Contract          $9,221,312              $5,104,609
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers, LLP                                            Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services               Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users     Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract           1,357,061                 232,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract           7,034,968               3,554,953
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract             227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract           2,741,512               1,287,614
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract          12,534,275               6,175,600
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract             367,641                 213,347
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract             498,290                    1,150
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract               5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                  29,915                       —
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract               7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     SBA 7(a) Security Purchase
      9/17/2010    Bingham McCutchen LLP5                                                 Contract              11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/27/2010    Davis Audrey Robinette            management, scanning and             Contract           4,024,787               3,455,360
                                                     document management and
                                                     correspondence
                                                                                                                          Continued on next page
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             281




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction         Obligated Value        Expended Value
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                     $2,430                  $2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                  5,200,000              2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                        995                     995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                      1,500                   1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                     12,975                  12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
                                                                                     Interagency
10/26/2010   Government Accountability Office   343 to conduct certain activities                              5,600,000              3,738,195
                                                                                     Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS
                                                task order on Treasury MITRE
11/8/2010    The MITRE Corporation              Contract for cost and data           Contract                  2,288,166              1,850,677
                                                validation services related to
                                                HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                             6,139,167              6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                  1,311,314              1,299,002
                                                against BPA)
             Reed Elsevier Inc. (dba            Accurint subscription services one
12/29/2010                                                                           Contract                        684                     684
             LexisNexis)                        user
                                                                                     Interagency
1/5/2011     Canon U.S.A. Inc.                  Administrative Support                                            12,937                  12,013
                                                                                     Agreement
                                                Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                   5,542,473              5,542,473
                                                Services                             Agent
                                                                                     Interagency
1/24/2011    Treasury Franchise Fund — BPD      Administrative Support                                         1,090,860              1,090,860
                                                                                     Agreement
             Association of Government
1/26/2011                                       CEAR Program Application             Contract                      5,000                   5,000
             Accountants
                                                Mentor Program Training (call
2/24/2011    ESI International Inc.                                                  Contract                     20,758                  20,758
                                                against IRS BPA)
             Department of the Treasury —                                            Interagency
2/28/2011                                       Administrative Support                                        13,523,880             13,001,815
             Departmental Offices                                                    Agreement
                                                Executive Compensation Data
3/3/2011     Equilar, Inc.                                                           Contract                     59,995                  59,995
                                                Subscription
                                                Executive Compensation Data
3/10/2011    Mercer (US) Inc.                                                        Contract                      7,425                   3,600
                                                Subscription
                                                                                                                           Continued on next page
282          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                           Type of
      Date         Vendor                              Purpose                             Transaction   Obligated Value        Expended Value
      3/22/2011    Harrison Scott Publications Inc.    Subscription Service                Contract              $5,894                  $5,894
                                                                                           Interagency
      3/28/2011    Fox News Network LLC7               Litigation Settlement                                    121,000                 121,000
                                                                                           Agreement
                   Federal Reserve Bank of New                                             Interagency
      4/20/2011                                        Oversight Services                                     1,300,000               1,004,063
                   York (FRBNY) HR                                                         Agreement
      4/26/2011    PricewaterhouseCoopers, LLP         Financial Services Omnibus          Contract           5,799,844               4,341,068
      4/27/2011    ASR Analytics LLC                   Financial Services Omnibus          Contract           2,645,423               2,036,983
      4/27/2011    Ernst & Young LLP                   Financial Services Omnibus          Contract           1,584,282                 629,460
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract           3,761,751               2,973,571
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract              50,000                       —
      4/27/2011    MorganFranklin Corporation          Financial Services Omnibus          Contract           1,187,957                 358,547
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract           3,643,643               2,158,710
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract              50,000                       —
      4/28/2011    KPMG LLP                            Financial Services Omnibus          Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                       21,300                       —
                                                                                           Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                            Contract              10,433                  10,262
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government            Contract               7,515                    7,515
                                                       Solutions
                                                       One year subscription to the
                                                       CQ Today Breaking News &
      6/9/2011     CQ-Roll Call Inc.                   Schedules, CQ Congressional &       Contract               7,753                    7,753
                                                       Financial Transcripts, CQ Custom
                                                       Email Alerts
                                                       Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             711,698                 648,471
                                                       Monitoring Subscription Services
                   Department of the Treasury —                                            Interagency
      6/21/2011                                        Administrative Support                                   660,601                 660,601
                   Departmental Offices                                                    Agreement
                   Internal Revenue Service —                                              Interagency
      7/28/2011                                        Detailee                                                  84,234                  84,234
                   Procurement                                                             Agreement
                                                                                           Interagency
      9/9/2011     Financial Management Service        FMS — NAFEO                                               22,755                  22,755
                                                                                           Agreement
                                                       MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 339,489
                                                       Background Checks (BPA)
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      9/15/2011                                                                            Contract               4,392                    4,392
                   Inc                                 Supplies
                                                       National Business Center, Federal   Interagency
      9/29/2011    Department of the Interior                                                                    51,000                  51,000
                                                       Consulting Group                    Agreement
                                                       Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                   Contract               4,200                    4,200
                                                       Subscription Service
                                                                                           Interagency
      10/4/2011    Internal Revenue Service            Detailees                                                168,578                  84,289
                                                                                           Agreement
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      10/20/2011                                                                           Contract               4,827                    4,827
                   Inc.                                Supplies
                                                                                                                           Continued on next page
                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             283




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                        Type of
Date         Vendor                               Purpose                               Transaction         Obligated Value        Expended Value
11/3/2011    Judicial Watch6                      Litigation Settlement                 Other Listing                  $850                    $850
11/18/2011   Qualx Corporation                    FOIA Support Services                 Contract                     68,006                   68,006
                                                                                        Financial
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services                               12,050,000             10,025,000
                                                                                        Agent
                                                  Pre-Program and Discovery
12/20/2011   The Allison Group LLC                                                      Contract                     19,065                   19,065
                                                  Process Team Building
                                                                                        Interagency
12/30/2011   Department of the Treasury           Administrative Support                                            901,433                  899,268
                                                                                        Agreement
             Department of the Treasury —                                               Interagency
12/30/2011                                        Administrative Support                                         15,098,746             10,127,276
             Departmental Offices                                                       Agreement
                                                  IAA — GAO required by P.L. 110-
                                                                                        Interagency
1/4/2012     Government Accountability Office     343 to conduct certain activities                               2,500,000              2,475,937
                                                                                        Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                        Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                         31,088                       —
                                                                                        Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                     Contract                  2,769,000              2,461,622
                                                  Services
                                                  Structuring and Disposition           Financial
2/7/2012     Greenhill & Co., LLC                                                                                 1,680,000              1,680,000
                                                  Services                              Agent
2/14/2012    Association of Govt Accountants      CEAR Program Application              Contract                      5,000                    5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services          Contract                    346,112                  296,112
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)        Contract                  2,148,649              1,662,291
                                                  National Business Center, Federal     Interagency
3/14/2012    Department of Interior                                                                                  57,500                   57,500
                                                  Consulting Group                      Agreement
             Department of the Treasury —                                               Interagency
3/30/2012                                         Administrative Support                                          1,137,451              1,137,451
             Departmental Offices WCF                                                   Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                  Contract                          —                       —
                                                  Maintenance Agreement for Canon
4/2/2012     Cartridge Technology, Inc.                                                 Contract                     15,692                   11,767
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                               Contract                     44,995                   44,995
                                                  Subscription
                                                                                        Interagency
6/12/2012    Department of Justice                Detailees                                                       1,737,884                  252,702
                                                                                        Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services                 Contract                    104,112                  104,112
                                                  Subscription for Anti Fraud Unit to
6/30/2012    West Publishing Corporation                                                Contract                      8,660                    8,660
                                                  Perform Background Research
7/26/2012    Knowledge Mosaic Inc.                SEC filings subscription service      Contract                      4,750                    4,750
                                                                                        Interagency
8/1/2012     Internal Revenue Service             Training                                                            4,303                    4,303
                                                                                        Agreement
                                                  Subscription to Commercial
8/3/2012     Harrison Scott Publications Inc.                                           Contract                      3,897                    3,897
                                                  Mortgage Alert Online Service
                                                  Administrative Resource Center        Interagency
9/19/2012    Treasury Franchise Fund — BPD                                                                          826,803                  826,803
                                                  (ARC)                                 Agreement
                                                  Data Subscription Services for
9/28/2012    SNL Financial LC                     Financial, Regulatory, and Market     Contract                    180,000                  180,000
                                                  Data and Services
                                                                                                                              Continued on next page
284               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                             Type of
      Date                 Vendor                                          Purpose                                           Transaction                    Obligated Value                  Expended Value
                                                                                                                             Interagency
      11/19/2012           Government Accountability Office                Oversight services                                                                     $4,800,000                        $2,809,872
                                                                                                                             Agreement
                           Association of Government
      12/13/2012                                                           CEAR Program Application                          Contract                                      5,000                             5,000
                           Accountants
                           Department of the Treasury —                                                                      Interagency
      12/19/2012                                                           Administrative Support                                                                 12,884,241                        11,205,868
                           Departmental Offices                                                                              Agreement
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Asset Management Services                                                                3,000,000                         2,708,333
                                                                                                                             Agent
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Legal Advisory                                                                           4,500,000                         4,500,000
                                                                                                                             Agent
      2/13/2013            Mercer (US) Inc.                                Personnel detail                                  Contract                                      4,050                                  —
      2/14/2013            Neighborhood Investment Corp                    Foreclosure Prevention under MHA                  Contract                             18,262,000                          3,561,329
                           Department of the Treasury —                                                                      Interagency
      3/4/2013                                                             Administrative Support                                                                   1,331,732                            403,265
                           Departmental Offices WCF                                                                          Agreement
                           Department of Housing and                                                                         Interagency
      3/7/2013                                                             Research and Analysis Services                                                              499,348                           499,348
                           Urban Development                                                                                 Agreement
      3/26/2013            Bloomberg Finance L.P.                          Administrative Support                            Contract                                      5,400                             5,400
                                                                                                                             Interagency
      3/28/2013            Treasury Acquisition Institute                  Legal Advisory                                                                                21,000                                   —
                                                                                                                             Agreement
                                                                                                                             Interagency
      5/1/2013             Internal Revenue Service                        Legal Services                                                                                88,854                            88,854
                                                                                                                             Agreement
      5/10/2013            Equilar Inc.                                    Administrative Support                            Contract                                    45,995                            45,995
      6/13/2013            West Publishing Corporation                     Administrative Support                            Contract                                      8,131                             8,131
      8/1/2013             Evolution Management Inc.                       Outplacement Services for OFS                     Contract                                    26,670                            23,620
      8/20/2013            Knowledge Mosaic Inc                            SEC Filings subscription service                  Contract                                      4,500                             4,500
                                                                                                                             Interagency
      8/27/2013            Bureau of Public Debt — ARC                     Administrative Support                                                                               —                                 —
                                                                                                                             Agreement
                                                                                                                             Interagency
      8/28/2013            Bureau of Public Debt — ARC                     Administrative Support                                                                   3,575,805                                     —
                                                                                                                             Agreement
                                                                                                                             Interagency
      9/25/2013            Treasury Franchise Fund — BPD                   Administrative Support                                                                        46,832                                   —
                                                                                                                             Agreement
                                                                           Financial Data Subscription
      9/26/2013            SNL Financial                                   Services — Information                            Contract                                  200,000                           200,000
                                                                           Technology
                                                                                                                             Interagency
      9/27/2013            Treasury Franchise Fund — BPD                   Administrative Support                                                                      644,988                           161,249
                                                                                                                             Agreement
                           Department of the Treasury —                                                                      Interagency
      11/22/2013                                                           Administrative Support                                                                 11,218,738                                      —
                           Departmental Offices                                                                              Agreement
                                                                                                                             Interagency
      11/22/2013           Internal Revenue Service                        Legal Services                                                                              107,185                             26,796
                                                                                                                             Agreement
                                                                                                                             Interagency
      11/25/2013           Treasury Franchise Fund — BPD                   Administrative Support                                                                   1,862,792                                     —
                                                                                                                             Agreement
                           Association of Government
      12/12/2013                                                           CEAR Program Application                          Contract                                      5,000                             5,000
                           Accountants
      Total                                                                                                                                               $1,460,195,642                    $1,236,829,625
      Notes: Numbers may not total due to rounding. Table 4.2 includes all vendor contracts administered under Federal Acquisition Regulations, interagency agreements, and financial agency agreements
      entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no task
      orders have been awarded and so those contracts are not reflected in this table.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      7
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

      Source: Treasury, response to SIGTARP data call, 1/15/2014.
S ECT I O N 5   SIGTARP RECOMMENDATIONS
286   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             287




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made 128 recommendations in its quarterly reports to Congress and its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations and, in the table at the end of this section, summarizes all of
SIGTARP’s recommendations and notes the extent of implementation.




UPDATE ON RECOMMENDATIONS REGARDING
THE APPOINTING OF DIRECTORS TO THE BOARDS
OF CPP AND CDCI INSTITUTIONS
On September 30, 2013, SIGTARP expressed its concern to Treasury that                            For the full text of SIGTARP’s
Treasury has not enforced its contractual right to appoint directors to the boards               recommendations regarding the
of Capital Purchase Program (“CPP”) and Community Development Capital                            appointing of directors to the boards
Initiative (“CDCI”) institutions. Even though Treasury recognizes the value of                   of CPP and CDCI institutions and for
having Treasury-selected directors at TARP banks that have missed multiple TARP                  Treasury’s response, see Appendix J of
                                                                                                 this report.
dividend payments, Treasury has rarely exercised and appears to be abandoning its
efforts to enforce that right. As a result, SIGTARP issued three recommendations
calling upon Treasury to utilize this important tool to protect taxpayers’ investments
in TARP banks and to promote the fiscal health of lenders and their ability to meet
the credit needs of our nation and local communities.
    Specifically, SIGTARP recommended that Treasury: (1) enforce its right to
appoint directors for CPP institutions that have failed to pay six or more quarterly
TARP dividend or interest payments; (2) prioritize the appointing of directors to the
board of CPP institutions that have rejected Treasury’s requests to send officials to
observe board meetings, that have failed to pay a large number of TARP dividend
payments or owe the largest amount of delinquent TARP dividends, or that are
currently subject to an order from their Federal banking regulator, particularly
orders related to the health or condition of the bank or its board of directors (and to
use information learned by Treasury observers in assisting prioritization of banks to
which Treasury should appoint directors); (3) enforce its right to appoint directors
to CDCI institutions that have failed to pay eight or more TARP quarterly dividend
or interest payments.
    In an October 28, 2013, letter responding to SIGTARP, Treasury rejected
SIGTARP’s recommendations, instead insisting that its current processes for
director appointments are sufficient, noting that it is focused on winding down
its TARP investments. Although Treasury was never meant to hold its TARP
investments forever, Treasury should not forget the reason it invested taxpayers’
dollars in community banks through CPP: to maintain and support their ability
to lend to the local communities that depended on them. For that reason, when
288   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury invested in CPP banks it took on various roles and responsibilities beyond
                                             getting taxpayers’ money back. Although TARP did not require CPP banks to
                                             submit a lending plan as a condition of receiving TARP support, Treasury put some
                                             safeguards in place to protect the banks’ financial health and stability, along with
                                             taxpayers’ investment. This included Treasury creating the right to appoint directors
                                             if banks continued to demonstrate difficulty in recovering from the financial crisis.
                                                  Rather than focusing on whether TARP’s goals have been met before selling its
                                             CPP investments, Treasury instead now seems more concerned with its role as a
                                             money manager, and particularly with maximizing TARP profits and divesting from
                                             its CPP investments as soon as possible. However, as part of this effort to wind
                                             down TARP, as of December 31, 2013, Treasury lost a total of $981.1 million in
                                             the auctions, which includes $764.8 million lost on principal investments sold at
                                             a discount and $216.2 million on forfeited missed dividends and interest owed by
                                             these institutions. Treasury has incurred investment losses on principal for all but
                                             11 of the 162 CPP bank investments it sold at auction as of December 31, 2013.
                                             Moreover, Treasury’s response to SIGTARP’s recommendations, in which Treasury
                                             stated it nominated directors to boards of CPP banks “(a)s part of Treasury’s
                                             management of those investments” demonstrates a change by Treasury in the
                                             purpose of appointing directors. Treasury did not create the contractual right to
                                             appoint directors to manage its CPP investments or to maximize its profits; it pays
                                             Treasury employees and hired Houlihan Lokey Capital, Inc. as financial advisor
                                             to do that. In fact, Treasury’s website clearly explains that these directors are not
                                             Treasury officials or agents, they do not report to Treasury, and they cannot force
                                             dividend payments to be made to Treasury. In other words, these directors cannot
                                             manage Treasury’s investment. They have fiduciary duties to protect the interest of
                                             all investors, including taxpayers, just like any other director at the institution.
                                                  Treasury’s suggestion that SIGTARP’s concerns are alleviated because the
                                             purchasers of Treasury’s CPP shares continue to have the right to appoint directors
                                             further demonstrates that Treasury does not appreciate its responsibilities towards
                                             financial stability. Because Treasury did not invest in CPP banks just for a profit,
                                             Treasury should not equate itself with private investors. With its TARP investments
                                             in community banks, Treasury took on the responsibility to promote the strength
                                             and stability of the banks so they could continue support to the small businesses,
                                             homeowners, and members of their communities who rely on them. Treasury
                                             created the right to appoint directors to serve that goal, not to manage or maximize
                                             its financial investment. Treasury is now abandoning that important and unique
                                             responsibility.
                                                  To truly maximize the return on taxpayers’ investment in CPP and make sure it
                                             was not in vain, Treasury should use all tools available to help the banks it invested
                                             in remain financially stable and lend to their communities, both while they remain
                                             in TARP and upon their exit from Treasury’s oversight. Treasury invested taxpayers’
                                             dollars in CPP banks to provide long-term relief, not to save the banks following
                                             the financial crisis only to let them fail after their exit from TARP. One way to
                                             do that is by appointing directors to struggling TARP banks who can provide an
                                             independent voice. As SIGTARP recommended to Treasury, this can be done at the
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   289




same time Treasury continues to explore its divestment from CPP banks remaining
in TARP. Moreover, the fact that Treasury indicates its divestment will take more
time as some banks are still struggling to repay Treasury should itself be a sign to
Treasury that banks need more help.
    Although Treasury indicated it will continue to appoint directors, it rejected
SIGTARP’s recommendations. However, Treasury has not appointed a director to
a CPP bank since December 2012, and only three remaining CPP banks currently
have Treasury–appointed directors.
    Instead of accepting SIGTARP’s recommendations as a means of ensuring that
CPP’s goals are met, Treasury seems content to follow its unsuccessful approach,
focusing on appointing directors at banks that received taxpayer investments of
$25 million or more. In some cases, Treasury suggested, it will appoint directors for
banks with investments of $15 million or more. Either way, however, this approach
again focuses on dollars and cents rather than CPP’s goals. As of December 31,
2013, of the remaining CPP banks with investments of $25 million or more,
two banks already had directors and four banks were eligible for directors. Those
four, however, already had Treasury observers gathering information to determine
whether a director was necessary. Of the remaining CPP banks with investments
between $15 and $25 million eligible for a director, one bank already had a director
and six banks were eligible for directors. Of those six, Treasury observers have
reported on four banks; one bank actually rejected an observer. On the other hand,
41 of the remaining CPP banks with investments below $15 million were eligible
for directors as of December 31, 2013.
    Because it may not be cost efficient to appoint directors at all of the eligible
CPP banks, Treasury should prioritize its decisions, based on the goals of TARP
and CPP, as SIGTARP recommended. Treasury should aggressively enforce
its contractual right to appoint directors in order to protect the investments
of taxpayers, and to preserve the strength of these community banks and their
ability to make credit available to their communities. In addition, as SIGTARP
recommended, Treasury should also continue to consider appointing directors to
struggling CDCI institutions. SIGTARP looks forward to working with Treasury on
implementing these recommendations.
                                                                                                                                                                                          290
SIGTARP RECOMMENDATIONS TABLE
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
  1 *     Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                X
          role and expressly giving SIGTARP access to relevant
          documents and personnel.
  2 *     Treasury should include language in new TARP agreements                                                                            Although Treasury has made
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
          recommends that each program participant should (1)                                                                                this recommendation in many of its
          acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
          compliance of the conditions contained in the agreement                                                                            in MHA.
          in question, (2) establish internal controls with respect to                            X
          that condition, (3) report periodically to the Compliance
          department of the Office of Financial Stability (“OFS-
          Compliance”) regarding the implementation of those controls
          and its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official to
          OFS-Compliance that such report is accurate.
  3 *     All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website            X
          as soon as possible.
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




  4 *     Treasury should require all TARP recipients to report on the
                                                                                X
          actual use of TARP funds.
  5 *     Treasury quickly determines its going-forward valuation
                                                                                X
          methodology.
  6 *     Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends         X
          to exercise warrants of common stock.
  7 *     In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
          consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
          program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                                X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
  8 *     Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                          X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
  9 *     Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 10 *     Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
 11       Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
 12 *     Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
          SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
 13 *     In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
 14 *     In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
 15 *     Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
          protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
          participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
          underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
          measures.
 16 *     Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                     X
          for itself, SIGTARP, and other relevant oversight bodies.
 17 *     Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
 18 *     All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
 19 *     Treasury should address the confusion and uncertainty on
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014




          executive compensation by immediately issuing the required            X
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                         291
                                                                                                                                                                                          292
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 20 *     Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
 21 *     Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
 22 *     Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest                                                                             recommendation, but has failed to
          PPIF funds in legacy assets that they hold or manage on                                 X                                          impose other significant safeguards.
          behalf of themselves or their clients or (2) conduct PPIF
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          transactions with entities in which they have invested on
          behalf of themselves or others.
 23 *     Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
          have stringent investor-screening procedures, including                                                                            managers include investor-screening
          comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
          as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
          operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
          of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
          to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
          owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
          can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
          funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                             information.
 24 *     Treasury should require PPIP managers to provide most
          favored nation clauses to PPIF equity stakeholders, to
                                                                                X
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
 25       Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation.
                                                                                                             X
          subject property before funding a mortgage modification.                                                                           SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 26 *     In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
          be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
          sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
          of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
          participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
          of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
          the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
          hidden fees and payments so that applicants are made fully
          aware of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer from
          collecting payments from the Government and not passing
          the full amount of the subsidies to the homeowners); and (6)
          the fact that no fee should be charged for the modification.
 27 *     Additional anti-fraud protections should be adopted in MHA                                                                         Treasury has taken steps to implement
          to verify the identity of the participants in the transaction                                                                      policies and conduct compliance reviews
          and to address the potential for servicers to steal from                                                                           to address this recommendation.
          individuals receiving Government subsidies without applying                             X                                          However, it remains unclear if Treasury
          them for the benefit of the homeowner.                                                                                             has an appropriate method to ensure the
                                                                                                                                             irregularities identified in the compliance
                                                                                                                                             reviews are resolved.
 28 *     In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
          the income reported on a mortgage modification application                                                                         recommendation and does not require
          with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
 29 *     In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
 30 *     In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
          incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
          verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
          mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                          X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
 31 *     In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about
                                                                                X
          modification rescue fraudsters, and publicize that no fee is
          necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                           293
                                                                                                                                                                                          294
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 32 *     In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
          the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains
          database of such information.                                                                                                      servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                  X                                          participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
 33 *     Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
          barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
          investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
          employees of the fund management company who manage                                                                                represents a material deficiency in the
          non-PPIF funds.                                                                                                                    program.
 34 *     Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
          and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
          seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
          holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
 35       Treasury should define appropriate metrics and an                                                                                  Treasury has stated that it has developed
          evaluation system should be put in place to monitor the                                                                            risk and performance metrics. However,
          effectiveness of the PPIF managers, both to ensure they                                                                            more than four years into the program,
          are fulfilling the terms of their agreements and to measure                             X                                          it is still not clear how Treasury will
          performance.                                                                                                                       use these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
 36 *     The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
          PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
          performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
          Treasury concludes that the manager has materially violated                                                     X                  period after 12 months. That timeframe
          compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
 37 *     Treasury should require PPIF managers to disclose to
          Treasury, as part of the Watch List process, not only
                                                                                X
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 38       Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
          the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
          unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
          investors.                                                                                                                         not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
 39 *     Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
          to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
          and (2) develop mechanisms to ensure that acceptance of               X                                                            rating agencies, and have agreed to
          collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
          incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                             appropriate.
 40 *     Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to              X
          the investment of TARP funds.
 41 *     Treasury should improve existing control systems to
          document the occurrence and nature of external phone calls
          and in-person meetings about actual and potential recipients          X
          of funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
 42 *     The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal
          assistance provided.
 43 *     Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
          future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
          financial institutions that would require an advance review                                                                 X      ownership position in any other financial
          so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
          and challenges facing such institutions.
 44 *     Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                           295
                                                                                                                                                                                         296
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 45       Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
          statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
          its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                           X
          of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
          permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
          toward meeting that goal.
 46       Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
          and publicly report against them to measure over time                                                                              reporting of servicer performance, it
          the implementation and success of HAMP. For example,                                                                               has not identified goals for each metric
          Treasury could set goals and publicly report against those                                                                         and measured performance against
          goals for servicer processing times, modifications as a                                 X                                          those goals. Treasury has not set an
          proportion of a servicer’s loans in default, modifications                                                                         acceptable metric for redefaults.
          as a proportion of foreclosures generally, rates of how
          many borrowers fall out of the program prior to permanent
          modification, and re-default rates.
 47       Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional
          borrowers who could benefit from the program and to arm
                                                                                X
          the public with complete, accurate information — this will
          help to avoid confusion and delay, and prevent fraud and
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          abuse.
 48       Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                    X
          on subjective determinations by the servicer.
 49       Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
          borrowers being underwater.                                                                                                        recommendation.
 50       Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with
          insufficient capital to ensure that the TARP matching funds
          are not flowing into an institution that is on the verge of           X
          failure.
 51       Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
 52       Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                    X
          programs, the terms should be revised to provide expressly
          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 53       Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                           X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
 54       Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
          the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
          the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                 X
          considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
          rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                             casts his or her vote.
 55       Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
          all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                           X
          repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                             substance of such conversations.
 56 *     Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this
          will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
          information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
          concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                             generally to limit discussion to valuation
                                                                                                  X                                          ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
 57 *     Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
          participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
          ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
          but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                  X                                          TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
 58 *     Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                  X                                          June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014




                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
                                                                                                                                                                                            297
                                                                                                                                                                                         298
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 59       For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected                                                                                  but not expected participation.
          participation in each and that, after each program is                                   X
          launched, it report monthly as to the program’s performance
          against these expectations.
 60 *     Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
          principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
          is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
          borrowers, and address potential conflict of interest issues.
 61       Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal                                                               X
          reduction programs consistent with FHA’s procedures.
 62 *     Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                X                                                            the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
 63       Treasury should launch a broad-based information
          campaign, including public service announcements in target
          markets that focus on warnings about potential fraud, and             X
          include conspicuous fraud warnings whenever it makes
          broad public announcements about the HAMP program.
 64       When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators               X
          should conduct a new analysis of whether the applying
          institution is sufficiently healthy and viable to warrant
          participation in SBLF.
 65       When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                          X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 66       Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
          refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
          dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
 67 *     Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the             X
          identity of the CPP institution and the details of the proposed
          transaction.
 68 *     When a CPP participant refinances into SBLF and seeks
          additional taxpayer funds, Treasury should provide to
                                                                                 X
          SIGTARP the identity of the institution and details of the
          proposed additional SBLF investment.
 69 *     OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
          establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                X
          firms should prepare legal fee bills and describe specific                                                                         resources.
          work performed in the bills, and which costs and fees are
          allowable and unallowable.
 70 *     OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
          submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
          instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                             X
          making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
 71 *     OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
          and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
          Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
          guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
          bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
          OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          299
                                                                                                                                                                                          300
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 72 *     OFS should review previously paid legal fee bills to                                                                               Although Treasury previously agreed
          identify unreasonable or unallowable charges, and seek                                                                             to implement this recommendation,
          reimbursement for those charges, as appropriate.                                                                                   Treasury only reviewed the legal fee bills
                                                                                                                                             for one of the five law firms that SIGTARP
                                                                                                                           X                 had already described as unreasonable.
                                                                                                                                             Treasury refuses to seek any
                                                                                                                                             reimbursement for those charges. See
                                                                                                                                             also Recommendation 81 concerning this
                                                                                                                                             issue.
 73 *     Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
          Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
          area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                  X                                          metrics to assess the servicer’s internal
                                                                                                                                             controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary.
 74 *     Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
          the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
          rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
          and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
          ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
          rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
          that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-up
          up including escalation to Treasury’s Office of General                                                                            actions or escalation.
          Counsel or the Assistant Secretary and the outcomes of that
          escalation.
 75 *     Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
          with homeowners relating to changes in the status or                                                                               recommendation, saying it already
          terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
          permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
          significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                          X
          the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
 76 *     Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
          acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
          including the length of time it takes for trial modifications to                                                                   including that trial periods should last
          be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
          rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
          the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
          complaints, and the percentage of required modification                                                                            performance, many servicers have
          status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
 77 *     Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury has rejected this
          program performance against acceptable performance                                                                                 recommendation, saying only that it
          benchmarks in the areas of: the length of time it takes                                                                            would “continue to develop and improve
          for trial modifications to be converted into permanent                                                                             the process where appropriate.”
          modifications, the conversion rate for trial modifications                                                       X
          into permanent modifications, the length of time it takes
          to resolve escalated homeowner complaints, and the
          percentage of required modification status reports that are
          missing.
 78 *     Treasury must ensure that all servicers participating in MHA                                                                       Treasury has rejected this important
          comply with program requirements by vigorously enforcing                                                                           recommendation, stating that it believes
          the terms of the servicer participation agreements, including                                                                      that the remedies enacted have been
          using all financial remedies such as withholding, permanently                                                                      appropriate and that appropriate
                                                                                                                           X
          reducing, and clawing back incentives for servicers who                                                                            transparency exists.
          fail to perform at an acceptable level. Treasury should be
          transparent and make public all remedial actions taken
          against any servicer.
 79       Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Simpson Thacher
          & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                            X
          Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
          ($146,867); and Bingham McCutchen LLP (novated from
          McKee Nelson LLP, $57,939).
 80       The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $91,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                          X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task
          order 1, and $22,546 in other direct costs not allowed
          under contract TOFS-09-007, task order 1.
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                         301
                                                                                                                                                                                         302
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 81       Treasury should promptly review all previously paid legal fee                                                                      Treasury only reviewed the legal fee
          bills from all law firms with which it has a closed or open                                                                        bills for one of the five law firms that
          contract to identify unreasonable or unallowable charges                                                         X                 SIGTARP had already described as
          and seek reimbursement for those charges, as appropriate.                                                                          unreasonable. Treasury refuses to seek
                                                                                                                                             any reimbursements for those charges.
 82       Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
 83       Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
 84 *     Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded that it continues
          should develop a clear TARP exit path to ensure that                                                                               its efforts to wind down CPP through
          as many community banks as possible repay the TARP                                                                                 repayments, restructuring, and sales.
          investment and prepare to deal with the banks that cannot.                                                                         Treasury has not addressed the criteria
                                                                                                             X
          Treasury should develop criteria pertaining to restructurings,                                                                     for these divestment strategies or
          exchanges, and sales of its TARP investments (including any                                                                        consulted with regulators.
          discount of the TARP investment, the treatment of unpaid
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          TARP dividend and interest payments, and warrants).
 85 *     Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
          terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
          community banks that will not be able to exit TARP prior                                                        X
          to the dividend rate increase in order to help preserve the
          value of taxpayers’ investments.
 86       Treasury should protect borrower personally identifiable                                                                           Treasury has said it will adopt this
          information (“PII”) and other sensitive borrower information                                                                       recommendation in part. Treasury did
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                        not agree to review each HFA’s policies
          that within 90 days, all Housing Finance Agencies (and                                                                             and procedures to determine if they
          their contractors) (“HFAs”) participating in HHF develop                                                                           are effective. Also, Treasury did not
          and implement effective policies and procedures to ensure                                                                          require notification within 24 hours or
          protection against unauthorized access, use, and disposition                                                                       notification to SIGTARP. SIGTARP will
          of PII and other sensitive borrower information; (2) Treasury                                                                      monitor Treasury’s efforts to implement
          reviewing each HFA’s policies and procedures to determine                                                                          the recommendation.
          if they are effective, and taking such action as is required to                                    X
          ensure effectiveness; (3) requiring that all parties granted
          access to borrower information should be made aware
          of restrictions on copying and disclosing this information;
          (4) requiring annual certification by HFAs to Treasury that
          they are in compliance with all applicable laws, policies
          and procedures pertaining to borrower information; and (5)
          requiring that HFAs promptly notify Treasury and SIGTARP
          within 24 hours, when a breach of security has occurred
          involving borrower information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 87 *     To ensure that the Office of the Special Master consistently                                                                       OSM began memorializing in its records
          grants exceptions to the $500,000 cash salary cap, the                                                                             justifications for exceptions. However,
          Office of the Special Master should substantiate each                                                                              SIGTARP found in its review of the 2012
          exception requested and whether the requests demonstrate                                                                           determinations that those records do not
                                                                                                                           X
          or fail to demonstrate “good cause.”                                                                                               substantiate each exception requested
                                                                                                                                             and whether the request for an exception
                                                                                                                                             demonstrates or fails to demonstrate
                                                                                                                                             “good cause.”
 88 *     The Office of the Special Master should better document
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
                                                                                 X
          in its analysis of the 50th percentile of the market, and
          it should also maintain records and data so that the
          relationship between its determinations and benchmarks are
          clearly understood.
 89 *     The Office of the Special Master should develop more                                                                               Treasury has not agreed to implement
          robust policies, procedures, or guidelines to help ensure                                                                          this important recommendation.
          that its pay determination process and its decisions are
          evenhanded. These measures will improve transparency
                                                                                                                           X
          and help the Office of the Special Master consistently apply
          the Interim Final Rule principles of “appropriate allocation,”
          “performance-based compensation,” and “comparable
          structures and payments.”
 90       In order to allow for effective compliance and enforcement                                                                         Treasury responded to this
          in HAMP Tier 2, Treasury should require that the borrower                                                                          recommendation by requiring that
          prove that the property has been rented and is occupied                                                                            borrowers certify that they intend to rent
          by a tenant at the time the borrower applies for a loan                                                                            the property for at least five years and
          modification, as opposed to requiring only a certification                                                                         that they will make reasonable efforts
          that the borrower intends to rent the property. As part of                                                                         to rent. This does not go far enough.
          the Request for Mortgage Assistance (“RMA”) application                                                                            Requiring only a self-certification, under
          for HAMP Tier 2, the borrower should provide the servicer                                                                          penalty of perjury, without a strong
          with a signed lease and third-party verified evidence of                                                        X                  compliance and enforcement regime to
          occupancy in the form of documents showing that a renter                                                                           ensure that the intent is carried out and
          lives at the property address, such as a utility bill, driver’s                                                                    the property is actually rented, leaves the
          license, or proof of renter’s insurance. In the case of                                                                            program vulnerable to risks that TARP
          multiple-unit properties under one mortgage Treasury should                                                                        funds will pay investors for modifications
          require that the borrower provide the servicer with evidence                                                                       for mortgages on vacation homes
          that at least one unit is occupied by a tenant as part of the                                                                      that are not rented, and may delay, as
          RMA.                                                                                                                               opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                           303
                                                                                                                                                                                            304
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 91       To continue to allow for effective compliance and                                                                                  Treasury rejected this recommendation,
          enforcement in HAMP Tier 2 after the trial modification has                                                                        stating that eligibility is not retested
          started, Treasury should require that, prior to conversion                                                                         prior to conversion. This does not go far
          of a trial modification to a permanent modification, the                                                                           enough. Requiring only a self-certification,
          borrower certify under penalty of perjury that none of the                                                                         without a strong compliance and
          occupancy circumstances stated in the RMA have changed.                                                                            enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
 92       To prevent a property that has received a HAMP Tier 2                                                                              Treasury told SIGTARP that implementing
          modification from remaining vacant for an extended period                                                                          this recommendation would create
          of time after a lease expires or a tenant vacates,                                                                                 significant additional procedures and
          (a) Treasury should require that borrowers immediately notify                                                                      documentation requirements. With no
          their servicer if the property has remained vacant for more                                                                        compliance regime to determine that a
          than three months.                                                                                                                 renter is in place, the program remains
                                                                                                                                             vulnerable to TARP funds being paid to
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          (b) Treasury should require servicers to provide monthly                                                                           modify mortgages that do not fit within
          reports to Treasury of any properties that have remained                                                         X                 the intended expansion of the program.
          vacant for more than three months.
          (c) Treasury should bar payment of TARP-funded incentives
          to any participant for a loan modification on a property that
          has been reported vacant for more than three months, until
          such time as the property has been re-occupied by a tenant
          and the borrower has provided third-party verification of
          occupancy.
 93       In order to protect against the possibility that the extension                                                                     Treasury has not implemented this
          and expansion of HAMP will lead to an increase in mortgage                                                                         recommendation. It is important that
          modification fraud,                                                                                                                Treasury educate as many homeowners
          (a) Treasury should require that servicers provide the                                                                             as possible with accurate information
          SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                              about HAMP in an effort to prevent
          Alert to all HAMP-eligible borrowers as part of their monthly                                                                      mortgage modification fraud.
          mortgage statement until the expiration of the application
                                                                                                                           X
          period for HAMP Tier 1 and 2.
          (b) Treasury should undertake a sustained public service
          campaign as soon as possible both to reach additional
          borrowers who could potentially be helped by HAMP Tier 2
          and to arm the public with complete, accurate information
          about the program to avoid confusion and delay, and to
          prevent fraud and abuse.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 94       Given the expected increase in the volume of HAMP                                                                                  Treasury has not implemented this
          applications due to the implementation of HAMP Tier 2,                                                                             recommendation. Treasury has not held
          Treasury should convene a summit of key stakeholders to                                                                            a summit of all key stakeholders to
                                                                                                                           X
          discuss program implementation and servicer ramp-up and                                                                            make the program roll-out efficient and
          performance requirements so that the program roll-out is                                                                           effective.
          efficient and effective.
 95       To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          Treasury said that it will include metrics
          and assess servicer performance,                                                                                                   in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
          (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
          compliance assessments that measure compliance with the
          program guidelines and requirements of HAMP Tier 2.
                                                                                                              X                        
          (b) Treasury should develop and publish separate metrics
          related to HAMP Tier 2 in the compliance results and
          program results sections of the quarterly Making Home
          Affordable (“MHA”) servicer assessments of the Top 10 MHA
          servicers.
 96       To allow for assessment of the progress and success                                                                                Treasury has rejected this
          of HAMP Tier 2, Treasury should set meaningful and                                                                                 recommendation. Treasury’s refusal to
          measurable goals, including at a minimum the number of                                                                             provide meaningful and measurable goals
          borrowers Treasury estimates will be helped by HAMP Tier                                                        X                  leaves it vulnerable to accusations that it
          2. Treasury should unambiguously and prominently disclose                                                                          is trying to avoid accountability.
          its goals and report monthly on its progress in meeting
          these goals.
 97       Treasury should set meaningful and measurable                                                                                      Treasury has not implemented this
          performance goals for the Hardest Hit Fund program                                                                                 recommendation. It is important that
          including, at a minimum, the number of homeowners                                                                                  Treasury sets meaningful goals and
          Treasury estimates will be helped by the program, and                                                           X                  metrics to identify program successes
          measure the program’s progress against those goals.                                                                                and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
 98       Treasury should instruct state housing finance agencies                                                                            Treasury issued letters to five housing
          in the Hardest Hit Fund to set meaningful and measurable                                                                           finance agencies requiring those states
          overarching and interim performance goals with appropriate                                                                         to provide an action plan with measurable
          metrics to measure progress for their individual state                                                                             interim and overall goals, including
          programs.                                                                                                                          benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                           305
                                                                                                                                                                                             306
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 99       Treasury should set milestones at which the state housing                                                                          Treasury issued letters to five housing
          finance agencies in the Hardest Hit Fund must review the                                                                           finance agencies requiring those states
          progress of individual state programs and make program                                                                             to provide an action plan with measurable
          adjustments from this review.                                                                                                      interim and overall goals, including
                                                                                                                                             benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
100       Treasury should publish on its website and in the Housing                                                                          Treasury has only partially implemented
          Scorecard on a quarterly basis the total number of                                                                                 this recommendation. Treasury recently
          homeowners assisted, funds drawn down by states, and                                                                               started publishing some aggregated
          dollars expended for assistance to homeowners, assistance                                                                          data on its website. However, Treasury
                                                                                                  X
          committed to homeowners, and cash on hand, aggregated                                                                              does not publish all of the data SIGTARP
          by all state Hardest Hit Fund programs.                                                                                            recommended nor does Treasury publish
                                                                                                                                             any data at all concerning the Hardest Hit
                                                                                                                                             Fund in the Housing Scorecard.
                                                                                                                                                                                             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




101       Treasury should develop an action plan for the Hardest                                                                             Treasury has rejected this
          Hit Fund that includes steps to increase the numbers of                                                                            recommendation. It is important that
          homeowners assisted and to gain industry support for                                                                               Treasury change the status quo and fulfill
          Treasury-approved HHF programs. Treasury should set                                                                                its role as steward over TARP programs,
          interim metrics for how many homeowners it intends to                                                                              make determinations of which programs
          assist in a Treasury-defined time period in each particular                                                                        are successful and which programs
          program (such as principal reduction, second lien reduction,                                                     X                 are not working, and ensure that HHF
          or reinstatement). If Treasury cannot achieve the desired                                                                          funds are reaching homeowners. This
          level of homeowners assisted in any one program area in                                                                            may include putting the funds toward
          the defined time period, Treasury should put the funds to                                                                          programs that are more successful at
          better use toward programs that are reaching homeowners.                                                                           reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102       Treasury should stop allowing servicers to add a risk                                                                              Treasury has not implemented this
          premium to Freddie Mac’s discount rate in HAMP’s net                                                                               recommendation. The addition of a
          present value test.                                                                                                                risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                          X
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                             Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
103       Treasury should ensure that servicers use accurate                                                                                 Treasury has not implemented this
          information when evaluating net present value test results                                                                         recommendation. Servicer errors using
          for homeowners applying to HAMP and should ensure that                                                                             NPV inputs and the lack of properly
          servicers maintain documentation of all net present value                                                                          maintained records on NPV inputs have
                                                                                                                           X
          test inputs. To the extent that a servicer does not follow                                                                         diminished compliance and placed the
          Treasury’s guidelines on input accuracy and documentation                                                                          protection of homeowner’s rights to
          maintenance, Treasury should permanently withhold                                                                                  challenge servicer error at risk.
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 Treasury has not implemented this
          communication with homeowners regarding denial of a                                                                                recommendation. Servicers’ failure to
          HAMP modification so that homeowners can move forward                                                                              communicate denial in a timely manner
          with other foreclosure alternatives in a timely and fully                                                                          can have serious consequences because
                                                                                                                           X
          informed manner. To the extent that a servicer does not                                                                            a delay may prevent homeowners from
          follow Treasury’s guidelines on these communications,                                                                              finding other foreclosure alternatives
          Treasury should permanently withhold incentives from that                                                                          sooner.
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         Treasury has not implemented this
          Making Home Affordable Compliance Committee meeting                                                                                recommendation. SIGTARP found a lack
          minutes regarding the substance of discussions related to                                                                          of detail in Treasury’s meeting minutes
          compliance efforts on servicers in HAMP. Treasury should                                                                           and because Treasury failed to document
                                                                                                                           X
          make sure that minutes clearly outline the specific problems                                                                       its oversight, SIGTARP was unable to
          encountered by servicers, remedial options discussed, and                                                                          verify Treasury’s role in the oversight of
          any requisite actions taken to remedy the situation.                                                                               servicers or its compliance agent Freddie
                                                                                                                                             Mac.
106       In order to protect taxpayers who funded TARP against any                                                                          Neither Treasury nor the Federal
          future threat that might result from LIBOR manipulation,                                                                           Reserve has agreed to implement this
          Treasury and the Federal Reserve should immediately                                                                                recommendation despite Treasury telling
          change any ongoing TARP programs including, without                                                                                SIGTARP that it “share[s SIGTARP’s]
          limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                             concerns about the integrity” of LIBOR,
                                                                                                                          X
                                                                                                                                             and the Federal Reserve telling SIGTARP
                                                                                                                                             that it agreed that “recent information
                                                                                                                                             regarding the way the LIBOR has been
                                                                                                                                             calculated has created some uncertainty
                                                                                                                                             about the reliability of the rate.”
107       In order to protect taxpayers who invested TARP funds                                                                              On July 8, 2013, the Financial Stability
          into AIG to the fullest extent possible, Treasury and the                                                                          Oversight Council unanimously voted to
          Federal Reserve should recommend to the Financial Stability                                                                        designate AIG as systemically important.
                                                                                X
          Oversight Council that AIG be designated as a systemically
          important financial institution so that it receives the
          strongest level of Federal regulation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                          307
                                                                                                                                                                                        308
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
108       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP Capital Purchase Program investments in a way that                                                                            this important recommendation.
          protects taxpayer interests, before allowing a TARP bank
          to purchase Treasury’s TARP shares at a discount to the
          TARP investment (for example as the successful bidder
          at auction), Treasury should undertake an analysis, in                                                           X
          consultation with Federal banking regulators, to determine
          that allowing the bank to redeem its TARP shares at a
          discount to the TARP investment outweighs the risk that the
          bank will not repay the full TARP investment. Treasury should
          document that analysis and consultation.
109       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP investments in a way that promotes financial stability                                                                        this important recommendation.
          and preserves the strength of our nation’s community
          banks, Treasury should undertake an analysis in consultation
          with Federal banking regulators that ensures that it is exiting
          its Capital Purchase Program investments in a way that
          satisfies the goals of CPP, which are to promote financial
          stability, maintain confidence in the financial system and                                                       X
          enable lending. This financial stability analysis of a bank’s
          exit from TARP should determine at a minimum: (1) that the
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          bank will remain healthy and viable in the event of an auction
          of Treasury’s preferred shares; and (2) that the bank’s exit
          from TARP does not have a negative impact on the banking
          industry at a community, state, regional, and national level.
          Treasury should document that analysis and consultation.
110       Treasury should better document its decision whether or not                                                                        Treasury has not agreed to implement
          to auction its preferred shares in a TARP bank to adequately                                                                       this important recommendation, but
          reflect the considerations made for each bank and detailed                                                                         is reviewing its practices in light of
                                                                                                                           X
          rationale.                                                                                                                         SIGTARP’s recommendations. SIGTARP
                                                                                                                                             will monitor Treasury’s efforts to
                                                                                                                                             implement this recommendation.
111 *     Each year, Treasury should reevaluate total compensation                                                                           Treasury has not agreed to implement
          for those employees at TARP exceptional assistance                                                                                 this important recommendation.
                                                                                                                          X
          companies remaining in the Top 25 from the prior year,
          including determining whether to reduce total compensation.
112 *     To ensure that Treasury effectively applies guidelines aimed                                                                       Treasury has not agreed to implement
          at curbing excessive pay and reducing risk taking, Treasury                                                                        this important recommendation.
                                                                                                                          X
          should develop policies, procedures, and criteria for
          approving pay in excess of Treasury guidelines.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
113 *     Treasury should independently analyze whether good cause                                                                           Treasury has not agreed to implement
          exists to award a Top 25 employee a pay raise or a cash                                                                            this important recommendation.
          salary over $500,000. To ensure that the Office of the
          Special Master has sufficient time to conduct this analysis,                                                     X
          Treasury should allow OSM to work on setting Top 25 pay
          prior to OSM’s receiving the company pay proposals, which
          starts the 60-day timeline.
114 *     To be consistent with Treasury’s Interim Final Rule that the                                                                       Treasury made some progress
          portion of performance-based compensation compared                                                                                 in implementing this important
          to total compensation should be greater for positions that                                                                         recommendation by including long-term
          exercise higher levels of responsibility, Treasury should                                                                          restricted stock in the 2013 Treasury-
          return to using long-term restricted stock for employees,                                          X                               approved pay packages. It is important
          particularly senior employees such as CEOs.                                                                                        that Treasury continue to address this
                                                                                                                                             recommendation by using long-term
                                                                                                                                             restricted stock in pay packages going
                                                                                                                                             forward.
115       Treasury should conduct in-depth research and analysis to                                                                          Treasury has agreed to implement this
          determine the causes of redefaults of HAMP permanent                                                                               important recommendation. Treasury
          mortgage modifications and the characteristics of loans                                                                            told SIGTARP that it is in the process of
          or the homeowner that may be more at risk for redefault.                                                                           conducting the recommended research.
          Treasury should require servicers to submit any additional                                                                         SIGTARP will monitor Treasury’s efforts to
                                                                                                             X
          information that Treasury needs to conduct this research                                                                           implement the recommendation.
          and analysis. Treasury should make the results of this
          analysis public and issue findings based on this analysis,
          so that others can examine, build on, and learn from this
          research.
116       As a result of the findings of Treasury’s research and                                                                             Treasury has agreed to consider this
          analysis into the causes of HAMP redefaults, and                                                                                   important recommendation, based on
          characteristics of redefaults, Treasury should modify                                                                       X      the results of research it is conducting.
          aspects of HAMP and the other TARP housing programs in                                                                             SIGTARP will monitor Treasury’s efforts to
          ways to reduce the number of redefaults.                                                                                           implement the recommendation.
117       Treasury should require servicers to develop and use                                                                               Treasury has agreed to implement
          an “early warning system” to identify and reach out to                                                                             this important recommendation and
          homeowners that may be at risk of redefaulting on a                                                                                is considering taking further action.
                                                                                                                          X
          HAMP mortgage modification, including providing or                                                                                 SIGTARP will monitor Treasury’s efforts to
          recommending counseling and other assistance and                                                                                   implement the recommendation.
          directing them to other TARP housing programs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014
                                                                                                                                                                                          309
                                                                                                                                                                                          310
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
118       In the letter Treasury already requires servicers to send to                                                                       Treasury has agreed to implement
          homeowners who have redefaulted on a HAMP modification                                                                             this important recommendation and
          about possible options to foreclosure, Treasury should                                                                             is considering taking further action.
          require the servicers to include other available alternative                                                                       SIGTARP will monitor Treasury’s efforts to
          assistance options under TARP such as the Hardest Hit                                                                              implement the recommendation.
                                                                                                                           X
          Fund and HAMP Tier 2, so that homeowners can move
          forward with other alternatives, if appropriate, in a timely
          and fully informed manner. To the extent that a servicer
          does not follow Treasury’s rules in this area, Treasury should
          permanently withhold incentives from that servicer.
119       Treasury and the Federal banking regulators should                                                                                 Treasury has not agreed to implement
          improve coordination when collaborating on current and                                                                             this important recommendation.
          future initiatives by (1) defining the roles of all participants
          at the outset of collaborative efforts by creating precise
          and directed governing documents (i.e., charters) that
          clearly address the responsibilities of each entity; and (2)                                                     X
          jointly documenting processes and procedures, including
          flowcharts, risk management tools, and reporting systems
          to ensure that objectives are met. Each participant should
          sign off to demonstrate their understanding of, and
          agreement with, these procedures.
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




120       To increase small-business lending by former TARP banks                                                                            Treasury has not agreed to implement
          participating in SBLF, Treasury should work with the banks                                                                         this important recommendation.
                                                                                                                           X
          to establish new, achievable plans to increase lending going
          forward.
121       To preserve the amount of capital former TARP banks                                                                                Treasury has not agreed to implement
          participating in SBLF have to lend, the primary Federal                                                                            this important recommendation.
          banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                           X
          should not approve dividend distributions to common
          shareholders of former TARP banks that have not effectively
          increased small-business lending while in SBLF.
122       In order to prevent confusion, promote transparency, and                                                                           Treasury has not agreed to implement
          present taxpayers who funded TARP with clear and accurate                                                                          this important recommendation.
          reporting, when Treasury discusses the amount of TARP
          funds (or CPP funds) recovered or repaid, Treasury should                                                        X
          not count the $2.1 billion in TARP investments that Treasury
          refinanced into the Small Business Lending Fund, which is
          outside of TARP.
123       To ensure that homeowners in HAMP get sustainable relief                                                                           Treasury has not agreed to implement
          from foreclosure, Treasury should research and analyze                                                                             this important recommendation.
          whether and to what extent the conduct of HAMP mortgage
          servicers may contribute to homeowners redefaulting on                                                           X
          HAMP permanent mortgage modifications. To provide
          transparency and accountability, Treasury should publish its
          conclusions and determinations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
124       Treasury should establish an achievable benchmark for a                                                                            Treasury has made progress toward
          redefault rate on HAMP permanent mortgage modifications                                                                            implementing this recommendation.
          that represents acceptable program performance and                                                                                 In Treasury’s quarterly “MHA Servicer
          publicly report against that benchmark.                                                                                            Assessment,” published in its October
                                                                                                                                             2013 “Making Home Affordable
                                                                                                                                             Performance Report,” Treasury included
                                                                                                                                             a new servicer performance metric,
                                                                                                             X
                                                                                                                                             assessing whether seven HAMP servicers
                                                                                                                                             complied with Treasury’s guidelines
                                                                                                                                             concerning homeowners’ HAMP
                                                                                                                                             modifications that servicers disqualified. 
                                                                                                                                             SIGTARP looks forward to working
                                                                                                                                             with Treasury to fully implement this
                                                                                                                                             recommendation.
125       Treasury should publicly assess and report quarterly on                                                                            Treasury has not agreed to implement
          the status of the ten largest HAMP servicers in meeting                                                                            this important recommendation.
          Treasury’s benchmark for an acceptable homeowner
          redefault rate on HAMP permanent mortgage modifications,
          indicate why any servicer fell short of the benchmark,
                                                                                                                           X
          require the servicer to make changes to reduce the
          number of homeowners who redefault in HAMP, and use
          enforcement remedies including withholding, permanently
          reducing, or clawing back incentive payments for any
          servicer that fails to comply in a timely manner.
126       To protect the investment taxpayers made through TARP in                                                                           Treasury has not agreed to implement
          community banks and to ensure that these banks continue                                                                            this important recommendation. See
          to lend in their communities which is a goal of TARP’s Capital                                                                     discussion in this section.
                                                                                                                           X
          Purchase Program, Treasury should enforce its right to
          appoint directors for CPP institutions that have failed to pay
          six or more quarterly TARP dividend or interest payments.
127       In enforcing its right to appoint directors to the board                                                                           Treasury has not agreed to implement
          of CPP institutions that have failed to pay six or more                                                                            this important recommendation. See
          quarterly dividend or interest payments, Treasury should                                                                           discussion in this section.
          prioritize appointing directors to the board of those CPP
          institutions that meet one or more of the following criteria:
          (1) rejected Treasury’s request to send officials to observe
          board meetings; (2) have failed to pay a large number of
          TARP dividend payments or that owe the largest amount
                                                                                                                           X
          of delinquent TARP dividends; or (3) is currently subject to
          an order from their Federal banking regulator, particularly
          orders related to the health or condition of the bank or
          its board of directors. In addition, Treasury should use
          information learned from Treasury officials that have
          observed the bank’s board meetings to assist in prioritizing
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014




          its determination of banks to which Treasury should appoint
          directors.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           311
                                                                                                                                                                                                      312
SIGTARP RECOMMENDATIONS TABLE                (CONTINUED)

                                                                                         Partially                        Not
      Recommendation                                                     Implemented   Implemented    In Process      Implemented         TBD/NA        Comments
128   To protect the investment taxpayers made in TARP and to                                                                                           Treasury has not agreed to implement
      ensure that institutions continue to lend in low and moderate                                                                                     this important recommendation. See
      income communities which is the goal of TARP’s Community                                                                                          discussion in this section.
      Development Capital Initiative, Treasury should enforce its                                                           X
      right to appoint directors to CDCI institutions that have failed
      to pay eight or more TARP quarterly dividend (or interest)
      payments.
                                                                                               Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                                                      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
               ENDNOTES
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                313


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 1/6/2014.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009, §202; Dodd-Frank Wall Street Reform and Consumer Protection Act,
       P.L. 111-203, 7/21/2010, §1302.
7.	    Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       1.2.2014.pdf, accessed 1/6/2014.
8.	    Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014.
9.	    Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily_TARP_Update%20-%201.2.2014.pdf, accessed 1/6/2014.
10.	   Treasury, replies to SIGTARP data calls, various.
11.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       1.2.2014.pdf, accessed 1/6/2014.
12.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       1.2.2014.pdf, accessed 1/6/2014.
13.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
       Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
14.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
       Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
15.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014; Treasury, Transactions
       Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-
       14_INVESTMENT.pdf, accessed 1/6/2014.
16.	   Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014; Treasury, response to SIGTARP data call, 1/8/2014.
17.	   Treasury, response to SIGTARP data call, 1/8/2014.
18.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
       Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
19.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
       Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
20.	   Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014.
21.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 1/6/2014; OMB, “Analytical
       Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 1/6/2014.
22.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
23.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
24.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
25.	   CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/attachments/44256_TARP.pdf,
       accessed 1/6/2014.
26.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 1/6/2014.
27.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
       reports/tarp_report_august_2012.pdf, accessed 1/6/2014.
28.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 1/6/2014.
29.	   Treasury, response to SIGTARP data call, 1/8/2014.
30.	   Treasury, response to SIGTARP data call, 1/8/2014.
31.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 1/6/2014.
32.	   Treasury, “Office of Financial Stability, Agency Financial Report —Troubled Asset Relief Program, Fiscal Year 2013,” 12/11/2013, www.treasury.
       gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
33.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 1/6/2014;
       Treasury, “Principal Reduction Alternative (PRA),” no date, www.makinghomeaffordable.gov/programs/lower-payments/Pages/pra.aspx, accessed
       1/6/2014; Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.hmpadmin.com/portal/news/docs/2009/
       hpdprelease073109.pdf, accessed 1/6/2014.
34.	   Treasury, response to SIGTARP data call, 1/8/2014.
35.	   Treasury, response to SIGTARP data call, 1/8/2014.
36.	   Treasury, responses to SIGTARP data call, 1/8/2014 and 1/10/2014.
37.	   Treasury, response to SIGTARP data call, 1/8/2014.
314            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      38.	   Treasury, response to SIGTARP data call, 1/24/2014.
      39.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 1/6/2014.
      40.	   Treasury, response to SIGTARP data call, 1/8/2014.
      41.	   Treasury, response to SIGTARP data call, 1/17/2014.
      42.	   Treasury, response to SIGTARP data call, 1/17/2014.
      43.	   Treasury, response to SIGTARP data call, 1/8/2014.
      44.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
             AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
             Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 1/6/2014.
      45.	   Treasury, response to SIGTARP data call, 1/24/2014.
      46.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      47.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/6/2014.
      48.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/6/2014.
      49.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      50.	   Treasury, response to SIGTARP data call, 1/8/2014.
      51.	   Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      52.	   Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      53.	   Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      54.	   Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-
             stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      55.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
      56.	   Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-
             stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury,
             response to SIGTARP data call, 1/8/2014.
      57.	   Treasury, response to SIGTARP data call, 1/8/2014.
      58.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      59.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
             investment-programs/cdci/Pages/Overview.aspx, accessed 1/6/2014.
      60.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      61.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      62.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      63.	   Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
             Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      64.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             1/6/2014.
      65.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
             9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/6/2014.
      66.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             1.2.2014.pdf, accessed 1/6/2014.
      67.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             1.2.2014.pdf, accessed 1/6/2014.
      68.	   Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
             Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 1/6/2014.
      69.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 1/6/2014.
      70.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      71.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      72.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
             Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      73.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 1/6/2014.
                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                315


74.	    Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
        center/press-releases/Pages/hp1358.aspx, accessed 1/6/2014.
75.	    U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
        Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
        pdf, accessed 1/6/2014.
76.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 1/6/2014.
77.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 1/6/2014.
78.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
        Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 1/6/2014.
79.	    Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock, 1/16/2014, www.treasury.gov/press-
        center/press-releases/Pages/jjl2258.aspx, accessed 1/24/2014.
80.	    Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
        gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014.
81.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/Daily_TARP_Update%20-%201.2.2014.pdf, accessed 1/6/2014.
82.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
83.	    Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
        Dividends%20Interest%20Report.pdf, accessed 1/10/2014; Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-
        stability/reports/Documents/Daily_TARP_Update%20-%201.2.2014.pdf, accessed 1/6/2014.
84.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
85.	    Treasury, response to SIGTARP data call, 1/8/2014.
86.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
87.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
88.	    Treasury, Blog Posting, “Taxpayers Are One Step Closer to Exiting Ally,” www.treasury.gov/connect/blog/Pages/Taxpayers-are-One-Step-Closer-to-
        Exiting-Ally.aspx, accessed 12/18/2013.
89.	    Treasury, Daily Tarp Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        1.2.2014.pdf, accessed 1/15/2014.
90.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
91.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 1/6/2014.
92.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 1/6/2014.
93.	    Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
        Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014.
94.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
95.	    Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
        stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 1/6/2014.
96.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
97.	    Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
98.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/6/2014.
99.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/6/2014.
100.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
        1/6/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
        TALF_recent_operations.html, accessed 1/6/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/
        markets/cmbs_operations.html, accessed 1/6/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date,
        www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 1/6/2014; FRBNY, response to SIGTARP data call, 1/8/2014.
101.	   FRBNY, response to SIGTARP data call, 1/8/2014.
102.	   Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
        Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
        1/6/2014.
103.	   FRBNY, response to SIGTARP data call, 1/8/2014.
104.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
        gov/press-center/press-releases/Pages/tg65.aspx, accessed 1/6/2014.
105.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
316             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      106.	 Treasury, response to SIGTARP data call, 1/10/2014.
      107.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg58.aspx, accessed 1/6/2014.
      108.	 Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
            www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 1/6/2014.
      109.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 1/6/2014.
      110.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 1/6/2014.
      111.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      112.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      113.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      114.	 Treasury, response to SIGTARP data call, 6/25/2013.
      115.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
            doc11227/03-17-tarp.pdf, accessed 1/6/2014.
      116.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            1.2.2014.pdf, accessed 1/2/2014; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 1/8/2014.
      117.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 1/6/2014.
      118.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2014.
      119.	 Treasury, response to SIGTARP data call, 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
      120.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      121.	 Treasury, response to SIGTARP data call, 1/24/2014.
      122.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 1/6/2014.
      123.	 Treasury, response to SIGTARP data call, 1/8/2014.
      124.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      125.	 Treasury, response to SIGTARP data call, 1/24/2014.
      126.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      127.	 Treasury, response to SIGTARP data call, 1/24/2014.
      128.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 1/6/2014.
      129.	 Treasury, response to SIGTARP data call, 1/24/2014.
      130.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      131.	 Treasury, response to SIGTARP data call, 1/8/2014.
      132.	 Treasury, response to SIGTARP data call, 1/24/2014.
      133.	 Treasury, response to SIGTARP data call, 1/24/2014.
      134.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014; Department of Veterans Affairs, “Revised VA Making Home
            Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed 1/6/2014.
      135.	 VA, response to SIGTARP data call, 1/8/2014; Treasury, response to SIGTARP data call, 1/24/2014.
      136.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2014.
      137.	 Treasury, response to SIGTARP data call, 1/8/2014.
      138.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2014.
      139.	 Treasury, responses to SIGTARP data call, 10/3/2013 and 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
            revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
            Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014;
            GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
            treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
            illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
            Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American
            Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
            www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
            Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014;
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               317


        Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
        com/about%20mhc/disclosures.htm, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
        US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The
        New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
        1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
        ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
        Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
        Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island
        Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
        Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing
        Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency,
        “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing
        Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
        ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
140.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
        AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
        Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 1/6/2014.
141.	   Treasury, response to SIGTARP data call, 1/24/2014.
142.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        1.2.2014.pdf, accessed 1/2/2014; Treasury, responses to SIGTARP data call, 1/8/2014 and 1/17/2014.
143.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        1.2.2014.pdf, accessed 1/2/2014; Treasury, response to SIGTARP data call, 1/8/2014.
144.	   Treasury, responses to SIGTARP data calls, 1/8/2014 and 1/17/2014; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
        1/8/2014.
145.	   Treasury, response to SIGTARP data call, 10/3/2013.
146.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013 and 1/17/2014; Treasury, “HFA Aggregate Quarterly
        Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit
        Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home)
        Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/
        ShowPage.aspx?ID=405&CID=11, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports
        & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance
        Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_
        ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,”
        no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development
        Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing
        and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.
        org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief
        Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014;
        Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
        mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/6/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
147.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        1.2.2014.pdf, accessed 1/2/2014; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
        Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 1/6/2014; Treasury, briefing to SIGTARP and other Federal agency staff,
        3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
        stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
        Agreement.pdf, accessed 1/6/2014.
148.	   Treasury, response to SIGTARP data call, 1/8/2014.
149.	   Treasury, response to SIGTARP data call, 1/8/2014.
150.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
        pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
151.	   Treasury, responses to SIGTARP data calls, 1/8/2014 and 1/24/2014.
318            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      152.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 1/8/2014; Treasury, response to SIGTARP data call, 1/8/2014.
      153.	 Treasury, response to SIGTARP data call, 1/17/2014; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 1/8/2014.
      154.	 Treasury, responses to SIGTARP data call, 10/3/2013 and 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
            revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
            Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014;
            GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
            treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
            illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
            Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American
            Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
            www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
            Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014;
            Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
            com/about%20mhc/disclosures.htm, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
            US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The
            New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
            1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
            ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
            Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
            Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island
            Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
            Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing
            Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency,
            “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing
            Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
            ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
      155.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
            AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
            Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 1/6/2014.
      156.	 Treasury, responses to SIGTARP data calls, 1/8/2014 and 1/24/2014.
      157.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      158.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      159.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      160.	 Treasury, response to SIGTARP data call, 1/24/2014.
      161.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010;
            SIGTARP analysis of Treasury HAMP data.
      162.	 SIGTARP analysis of Treasury HAMP data.
      163.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      164.	 SIGTARP analysis of Treasury HAMP data.
      165.	 SIGTARP analysis of Treasury HAMP data.
      166.	 SIGTARP analysis of Treasury HAMP data.
      167.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      168.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      169.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      170.	 Freddie Mac, “Primary Mortgage Market Survey Archives,” www.freddiemac.com/pmms/pmms_archives.html, accessed 1/6/2014; SIGTARP
            analysis of Treasury HAMP data.
      171.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      172.	 SIGTARP analysis of Treasury HAMP data.
      173.	 SIGTARP analysis of Treasury HAMP data.
      174.	 SIGTARP analysis of Treasury HAMP data.
      175.	 SIGTARP analysis of Treasury HAMP data.
      176.	 SIGTARP analysis of Treasury HAMP data.
      177.	 SIGTARP analysis of Treasury HAMP data.
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               319


178.	   SIGTARP analysis of Treasury HAMP data.
179.	   SIGTARP analysis of Treasury HAMP data.
180.	   SIGTARP analysis of Treasury HAMP data.
181.	   Treasury, response to SIGTARP data call, 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014; OCC, “Mortgage Metrics Report,
        Third Quarter 2013,” 12/23/2013, www.occ.gov/publications/publications-by-type/other-publications-reports/mortgage-metrics-2013/mortgage-
        metrics-q3-2013.pdf, accessed 1/14/2014; In its “Mortgage Metrics Report, Third Quarter 2013,” OCC compared a snapshot of HAMP
        permanent modifications and private modifications, from the third quarter of 2011 through the second quarter of 2013, between three and 15
        months after the modifications became effective, and 60 or more days late on payments.
182.	   Treasury, responses to SIGTARP data calls, 1/10/2014 and 1/24/2014.
183.	   SIGTARP analysis of Treasury HAMP data.
184.	   Treasury, responses to SIGTARP data calls, 4/19/2013, 5/23/2013, 7/19/2013, 10/21/2013,10/23/2013, and 1/24/2014; Fannie Mae, responses
        to SIGTARP data calls, 4/19/2013, 5/2212013, 10/21/2013 and 10/23/2013.
185.	   Treasury, “HAMP Redefault Tables 1-16-December 2013,” accessed 1/9/2014.
186.	   Treasury, “HAMP Redefault Tables 1-16-December 2013,” accessed 1/9/2014.
187.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 1/23/2014.
188.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013, 10/21/2013,10/23/2013, and
        1/24/2014; Fannie Mae, responses to SIGTARP data calls, 4/19/2013, 5/22/2013, 10/21/2013, and 1/23/2014.
189.	   Treasury, response to SIGTARP data call, 1/23/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
190.	   Treasury, response to SIGTARP data call, 1/23/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
191.	   Treasury, responses to SIGTARP data calls, 1/23/2014 and 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
192.	   Treasury, responses to SIGTARP data calls, 1/23/2014 and 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
193.	   Treasury, response to SIGTARP data call, 1/8/2014.
194.	   Treasury, response to SIGTARP data call, 1/10/2014.
195.	   Treasury, response to SIGTARP data call, 1/10/2014.
196.	   Treasury, response to SIGTARP data call, 1/10/2014.
197.	   Treasury, response to SIGTARP data call, 1/23/2014.
198.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
199.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
200.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
201.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
202.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
203.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
204.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
205.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
206.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
207.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
208.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
        Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2014.
209.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
210.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
211.	   Treasury, response to SIGTARP data call, 1/24/2014; Fannie Mae, response to SIGTARP data call, 1/23/2014.
212.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
213.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
        Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2014.
214.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
        Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2014.
215.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
216.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
217.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
218.	   Treasury, “Supplemental Directive 13-08, Making Home Affordable Program – Borrower Post-Modification Counseling and Servicer Incentives,”
        9/30/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1308.pdf, accessed 1/6/2014.
320            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      219.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      220.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      221.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      222.	 Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/6/2014.
      223.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            1/6/2014.
      224.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            1/6/2014.
      225.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014; NeighborWorks, “Making Home
            Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
            MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 1/6/2014; NeighborWorks, “Making Home Affordable
            Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,” 3/6/2013.
      226.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            1/6/2014.
      227.	 Treasury, response to SIGTARP data call, 1/8/2014.
      228.	 Treasury, response to SIGTARP data call, 1/8/2014.
      229.	 Treasury, response to SIGTARP data call, 1/8/2014.
      230.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      231.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      232.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      233.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 1/6/2014.
      234.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      235.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      236.	 Treasury, response to SIGTARP data call, 1/23/2014.
      237.	 Treasury, response to SIGTARP data call, 1/8/2014.
      238.	 Treasury, response to SIGTARP data call, 1/8/2014.
      239.	 Treasury, response to SIGTARP data call, 11/2/2012.
      240.	 Treasury, responses to SIGTARP data calls, 1/8/2014 and 1/23/2014.
      241.	 Treasury, response to SIGTARP data call, 1/23/2014.
      242.	 Treasury, response to SIGTARP data call, 1/23/2014.
      243.	 Treasury, response to SIGTARP data call, 1/23/2014.
      244.	 Treasury, response to SIGTARP data call, 1/23/2014.
      245.	 Treasury, response to SIGTARP data call, 1/23/2014.
      246.	 Treasury, response to SIGTARP data call, 1/23/2014.
      247.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      248.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      249.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      250.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      251.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      252.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      253.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      254.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      255.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
      256.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 1/6/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               321


257.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
      markets, accessed 1/6/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
      about-mha/latest-news/Pages/pr_02192010.aspx, accessed 1/6/2014.
258.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
      markets, accessed 1/6/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
      about-mha/latest-news/Pages/pr_02192010.aspx, accessed 1/6/2014.
259.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; The White House, “Help for the Hardest Hit Housing Markets,”
      2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 1/6/2014; www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “White House: Help for the Hardest Hit
      Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 1/6/2014; Treasury,
      “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/
      Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 1/6/2014; Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,”
      3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed
      1/6/2014; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.
      gov/press-center/press-releases/Pages/tg618.aspx, accessed 1/6/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010,
      www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury,
      “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
      Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 1/6/2014; Treasury, “Hardest Hit
      Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
      Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 1/6/2014; Treasury, “Obama Administration Approves State Plans for
      Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
      tg757.aspx, accessed 1/6/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
      Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 1/6/2014; Treasury, Transactions
      Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
      9-29-10.pdf, accessed 1/6/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
      Overview_11.03.10.pdf, accessed 1/6/2014.
260.	 Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
      FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 1/6/2014; Treasury, “Administration Announces Second Round of Assistance
      for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 1/6/2014; Treasury,
      “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
      Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 1/6/2014; Treasury, Transactions Report,
      9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-10.pdf,
      accessed 1/6/2014.
261.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 1/6/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
      3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014;
      Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 1/6/2014; Treasury, “Obama Administration
      Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
      press-releases/Pages/tg757.aspx, accessed 1/6/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
      Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 1/6/2014;
      Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf, accessed
      1/6/2014.
262.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 1/6/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
      3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014;
      Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 1/6/2014; Treasury, “Obama Administration
      Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
      press-releases/Pages/tg757.aspx, accessed 1/6/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
      Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 1/6/2014;
      Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf,
      accessed 1/6/2014; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements, Amendments, and Initial Program
      Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed
      1/6/2014; SIGTARP analysis of HFA participation agreements and amendments.
263.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/6/2014.
264.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/6/2014.
265.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 1/6/2014.
266.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
      foreclosure-initiative, accessed 1/6/2014.
322            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      267.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            1/6/2014.
      268.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
            With Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            1/6/2014.
      269.	 Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/6/2014.
      270.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
            reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 1/6/2014.
      271.	 Treasury, responses to SIGTARP data calls, 10/3/2013 and 1/17/2014; Treasury, “Hardest Hit Fund, Archived Program Information,
            Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-
            Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; SIGTARP analysis of HFA participation agreements and
            amendments.
      272.	 Treasury, “Hardest Hit Fund: Program Purpose and Overview,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/default.aspx, accessed 1/17/2014.
      273.	 Treasury, responses to SIGTARP data calls, 10/3/2013 and 1/17/2014.
      274.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
            1/17/2014.
      275.	 Treasury, response to SIGTARP data call, 10/3/2013.
      276.	 Treasury, responses to SIGTARP data call, 10/3/2013 and 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
            revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
            Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014;
            GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
            treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
            illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
            Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American
            Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
            www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
            Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014;
            Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
            com/about%20mhc/disclosures.htm, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
            US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The
            New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
            1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
            ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
            Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
            Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island
            Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
            Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing
            Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency,
            “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing
            Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
            ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
      277.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 10/3/2013.
      278.	 Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
            revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
            Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014;
            GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
            treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
            illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
            Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American
            Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
            www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                323


        Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014;
        Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
        com/about%20mhc/disclosures.htm, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
        US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The
        New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
        1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
        ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
        Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
        Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island
        Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
        Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing
        Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency,
        “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing
        Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
        ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
279.	   Treasury, response to SIGTARP data call, 1/17/2014.
280.	   Treasury, response to SIGTARP data call, 1/17/2014.
281.	   Treasury, response to SIGTARP data call, 1/17/2014.
282.	   Treasury, responses to SIGTARP data call, 10/3/2013 and 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.
        treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
        revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
        hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
        “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
        1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
        keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
        Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014;
        GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
        treasuryReports.asp, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
        illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
        Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American
        Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
        www.kyhousing.org/page.aspx?id=3165, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
        Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014;
        Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
        com/about%20mhc/disclosures.htm, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
        US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The
        New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
        1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
        ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
        Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
        Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island
        Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
        Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing
        Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency,
        “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing
        Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
        ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
283.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
        gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; SIGTARP analysis of HFA
        participation agreements and amendments.
284.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
        gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; SIGTARP analysis of HFA
        participation agreements and amendments.
285.	   Treasury, responses to SIGTARP data calls, 10/3/2013 and 1/17/2014.
286.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
        treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Treasury, “Hardest
        Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
        HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 1/6/2014; Treasury, “Hardest Hit Fund, Archived Program
        Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
        initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 1/6/2014; Alabama Housing Finance
        Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
        1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
        no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
        Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014;
        Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.
324            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
            Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/6/2014; Illinois Housing
            Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014;
            Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
            www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
            Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
            1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
            gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures,
            Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/6/2014;
            Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
            nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
            Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest
            Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
            1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
            accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
            www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
            Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
            fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
            Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
            org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
            Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
            Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
      287.	 Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing
            Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
            1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
            no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
            Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014;
            Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
            org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
            Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/6/2014; Illinois Housing
            Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014;
            Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
            www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
            Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
            1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
            gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures,
            Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/6/2014;
            Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
            nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
            Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest
            Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
            1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
            accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
            www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
            Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
            fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
            Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
            org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
            Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
            Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
      288.	 Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing
            Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
            1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
            no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
            Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014;
            Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
            org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
            Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/6/2014; Illinois Housing
            Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014;
            Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
            www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
            Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
            1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
            gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures,
            Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/6/2014;
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               325


        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
289.	   Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
        Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing
        Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
        1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
        no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
        Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014;
        Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
        org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
        Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/6/2014; Illinois Housing
        Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/6/2014;
        Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
        www.877gethope.org/reports/, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
        Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
        1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
        gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/6/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
        www.oregonhomeownerhelp.org/en/reporting, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
        Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
        fa7b_10737418238_10737418240_btnlink, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
        Reports.aspx, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
        org/news-and-reports/, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
        Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
        Default.aspx, accessed 1/6/2014; SIGTARP analysis of HFA quarterly performance reports.
290.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date,
        www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
        revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
        hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013
        and 1/17/2014.
291.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013 and 1/17/2014; Rhode Island Housing and Mortgage Finance Corporation,
        “HHFRI News,” no date, www.hhfri.org, accessed 1/6/2014; Illinois Housing Development Authority, “Welcome to the Illinois Hardest Hit
        Program,” no date, www.illinoishardesthit.org, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey
        HomeKeeper Program,” no date, www.njhomekeeper.com, accessed 12/4/2013.
292.	   Treasury, response to SIGTARP data call, 10/7/2013 and 1/17/2014; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI
        News,” no date, www.hhfri.org, accessed 1/6/2014.
293.	   Treasury, response to SIGTARP data call, 10/7/2013 and 1/17/2014; Illinois Housing Development Authority, “Welcome to the Illinois Hardest
        Hit Program,” no date, www.illinoishardesthit.org, accessed 1/6/2014.
294.	   Treasury, response to SIGTARP data call, 10/7/2013 and 1/17/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey
        HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 12/4/2013.
295.	   Treasury, response to SIGTARP data call, 1/17/2014.
296.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
297.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
        1/17/2014.
298.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
326             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 3rd Quarter,” no date,
              www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 1/6/2014; SIGTARP analysis of Alabama Housing Finance Authority
              quarterly performance report.
      299.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
              “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Alabama Housing Finance Authority,
              “Hardest Hit Alabama, Treasury Reports, 2013, 3rd Quarter,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
              1/6/2014; SIGTARP analysis of Alabama Housing Finance Authority HFA quarterly performance report.
      300.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      301.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      302.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit
              Fund-3rd Quarter 2013,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 1/7/2014; SIGTARP analysis of Arizona
              (Home) Foreclosure Prevention Funding Corporation quarterly performance report.
      303.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013
              and 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Arizona (Home)
              Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund-3rd Quarter 2013,” no date, www.azhousing.
              gov/ShowPage.aspx?ID=405&CID=11, accessed 1/7/2014; SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding Corporation
              quarterly performance report.
      304.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      305.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014 Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      306.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly
              Reports, 2013, Third Quarter (Period ending 9/30/13),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 1/6/2014; SIGTARP
              analysis of CalHFA Mortgage Assistance Corporation quarterly performance report.
      307.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
              “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; CalHFA Mortgage Assistance
              Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, 2013, Third Quarter (Period ending 9/30/13),” no date,
              keepyourhomecalifornia.org/quarterly-reports, accessed 1/6/2014; SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly
              performance report.
      308.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      309.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      310.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,
              HHF QTR Report ending 9/30/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed
              1/7/2014; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
      311.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,
              HHF QTR Report ending 9/30/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed
              1/7/2014; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                327


312.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
313.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
314.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, September 2013 Report,” no
      date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/10/2014; SIGTARP analysis of GHFA Affordable
      Housing Inc. quarterly performance report.
315.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, September 2013 Report,” no date,
      www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 1/7/2014; SIGTARP analysis of GHFA Affordable Housing
      Inc. quarterly performance report.
316.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
317.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
318.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Third
      Quarter Performance Report 2013,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 1/7/2014; SIGTARP analysis of Illinois Housing
      Development Authority quarterly performance report.
319.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Illinois Housing Development
      Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Third Quarter Performance Report 2013,” no date, www.illinoishardesthit.org/
      spv-7.aspx, accessed 1/7/2014; SIGTARP analysis of Illinois Housing Development Authority quarterly performance report.
320.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, and 1/17/2014; Illinois Housing Development Authority, “Welcome to the
      Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 1/7/2014.
321.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
322.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
323.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports
      to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q3) 2013 as submitted to Treasury November 15, 2013,” no date,
      www.877gethope.org/reports/, accessed 1/7/2014; SIGTARP analysis of Indiana Housing and Community Development Authority quarterly
      performance report.
324.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Indiana Housing and Community
      Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q3)
      2013 as submitted to Treasury November 15, 2013,” no date, www.877gethope.org/reports/, accessed 1/7/2014; SIGTARP analysis of Indiana
      Housing and Community Development Authority quarterly performance report.
325.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
326.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
327.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
328             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              12.11.13.pdf, accessed 1/6/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief
              Program, Kentucky Unemployment Bridge Program, Unemployment Bridge Program 3rd Quarter 2013 Report,” no date, www.kyhousing.org/
              page.aspx?id=3165, accessed 1/7/2014; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
      328.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
              “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Kentucky Housing Corporation,
              “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program, Unemployment
              Bridge Program 3rd Quarter 2013 Report,” no date, www.kyhousing.org/page.aspx?id=3165, accessed 1/7/2014; SIGTARP analysis of Kentucky
              Housing Corporation quarterly performance report.
      329.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      330.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      331.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,
              Quarter End 09/30/2013,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/7/2014;
              SIGTARP analysis of Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
      332.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014;
              Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Michigan Homeowner
              Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports, Quarter End 09/30/2013,” no date, www.michigan.gov/
              mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 1/7/2014; SIGTARP analysis of Michigan Homeowner Assistance
              Nonprofit Housing Corporation quarterly performance report.
      333.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      334.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      335.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report,
              3rd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 1/7/2014; SIGTARP analysis of Mississippi Home
              Corporation quarterly performance report.
      336.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
              “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Mississippi Home Corporation,
              “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report, 3rd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/
              disclosures.htm, accessed 1/7/2014; SIGTARP analysis of Mississippi Home Corporation quarterly performance report.
      337.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      338.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
              1/17/2014.
      339.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
              1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
              12.11.13.pdf, accessed 1/6/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 3Qtr.
              2013,” no date, nevadahardesthitfund.nv.gov/, accessed 1/7/2014; SIGTARP analysis of Nevada Affordable Housing Assistance Corporation
              quarterly performance report.
      340.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
              “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Nevada Affordable Housing Assistance
              Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 3Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed 1/7/2014;
              SIGTARP analysis of Nevada Affordable Housing Assistance Corporation quarterly performance report.
      341.	   Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014             329


342.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
343.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the
      Program, Performance Reports, New Jersey Third Quarter 2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
      1/6/2014; SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
344.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; New Jersey Housing and Mortgage
      Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports, New Jersey Third Quarter 2013
      Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 1/6/2014; SIGTARP analysis of New Jersey Housing and
      Mortgage Finance Agency quarterly performance report.
345.	 Treasury, response to SIGTARP data call, 1/17/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper
      Program,” no date, www.njhomekeeper.com/, accessed 12/4/2013.
346.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
347.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
348.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly
      Reports, Quarter 3 – July – September 2013,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/7/2014; SIGTARP
      analysis of North Carolina Housing Finance Agency quarterly performance report.
349.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; North Carolina Housing
      Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports, Quarter 3 – July – September 2013,” no date, www.
      ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 1/7/2014; SIGTARP analysis of North Carolina Housing Finance Agency
      quarterly performance report.
350.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
351.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
352.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Third Quarter 2013 Report”
      ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/7/2014; SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly
      performance report.
353.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Ohio Homeowner Assistance LLC,
      “Save the Dream Ohio: Quarterly Reports, Third Quarter 2013 Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 1/7/2014;
      SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly performance report.
354.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
355.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
356.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative,
      Reporting, OHSI Quarter 3 2013 Report (July - September 2013),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/7/2014;
      SIGTARP analysis of Oregon Affordable Housing Assistance Corporation quarterly performance report.
330            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      357.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 1/22/2014,
            and 1/23/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Oregon
            Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI Quarter 2 2013 Report (July
            - September),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 1/7/2014; SIGTARP analysis of Oregon Affordable Housing
            Assistance Corporation quarterly performance report.
      358.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      359.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
            1/17/2014.
      360.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
            1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20
            revised%2012.11.13.pdf, accessed 1/6/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode
            Island, About HHFRI, REPORTS, Q3 2013,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa
            7b_10737418238_10737418240_btnlink, accessed 1/7/2014; SIGTARP analysis of Rhode Island Housing and Mortgage Finance Corporation
            quarterly performance report.
      361.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
            “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Rhode Island Housing and Mortgage
            Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS, Q3 2013,” no date, www.hhfri.org/HHFRI_Dynamic_
            Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 1/7/2014; SIGTARP analysis of Rhode
            Island Housing and Mortgage Finance Corporation quarterly performance report.
      362.	 Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, 10/17/2013 and 1/17/2014; Rhode Island Housing and Mortgage Finance
            Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 1/7/2014.
      363.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      364.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
            1/17/2014.
      365.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
            1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
            12.11.13.pdf, accessed 1/6/2014; SC Housing Corp, “SC HELP, Reports, Quarter ending September 30, 2013,” no date, www.schelp.gov/
            Resources/Reports.aspx, accessed 1/7/2014; SIGTARP analysis of SC Housing Corp quarterly performance report.
      366.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
            “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; SC Housing Corp, “SC HELP,
            Reports, Quarter ending September 30, 2013,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 1/7/2014; SIGTARP analysis of SC
            Housing Corp quarterly performance report.
      367.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
      368.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
            1/17/2014.
      369.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
            1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
            12.11.13.pdf, accessed 1/6/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, Third Quarter 2013 Report,”
            no date, www.keepmytnhome.org/news-and-reports/, accessed 1/17/2014; SIGTARP analysis of Tennessee Housing Development Agency
            quarterly performance report.
      370.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
            “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; Tennessee Housing Development
            Agency, “Keep My Tennessee Home, Reports, Third Quarter 2013 Report,” no date, www.keepmytnhome.org/news-and-reports/, accessed
            1/17/2014; SIGTARP analysis of Tennessee Housing Development Agency quarterly performance report.
      371.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               331


372.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, responses to SIGTARP data calls, 10/3/2013 and
      1/17/2014.
373.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed
      1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury, “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%20
      12.11.13.pdf, accessed 1/6/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly
      performance reports], DCHFA HomeSaver Program – September 2013 Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/
      ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 1/7/2014; SIGTARP analysis of District of Columbia Housing
      Finance Agency quarterly performance report.
374.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/17/2014; Treasury,
      “HFA Aggregate Quarterly Report Q3 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Aggregate%20Quarterly%20Report%20Q32013%20revised%2012.11.13.pdf, accessed 1/6/2014; District of Columbia Housing Finance
      Agency, “HomeSaver – A Foreclosure Prevention Program [quarterly performance reports], DCHFA HomeSaver Program – September 2013
      Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed
      1/7/2014; SIGTARP analysis of District of Columbia Housing Finance Agency quarterly performance report.
375.	 Treasury, response to SIGTARP data call, 1/17/2014.
376.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 1/8/2014.
377.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
      latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 1/8/2014.
378.	 Treasury, response to SIGTARP data call, 1/24/2014.
379.	 Treasury, response to SIGTARP data call, 1/8/2014.
380.	 Treasury, response to SIGTARP data call, 1/8/2014.
381.	 Treasury, response to SIGTARP data call, 1/8/2014.
382.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 1/8/2014; HUD,
      response to SIGTARP draft, 1/10/2011.
383.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
384.	 HUD, response to SIGTARP draft report, 1/10/2011.
385.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 1/8/2014.
386.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 1/8/2014; HUD, response to SIGTARP draft report, 3/31/2011.
387.	 Treasury, responses to SIGTARP data calls, 1/23/2014 and 1/24/2014.
388.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013.
389.	 Treasury, response to SIGTARP data call, 1/8/2014.
390.	 Treasury conference call, 3/19/2009.
391.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
392.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
393.	 Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cpp/Documents/spa.pdf, accessed 1/2/2014.
394.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.
      pdf, accessed 1/2/2014.
395.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
396.	 Treasury, response to SIGTARP data call, 1/8/2014.
397.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014; Treasury, response to SIGTARP data call, 1/8/2014.
398.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
399.	 Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
      Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014; Treasury,
      response to SIGTARP data call, 1/8/2014.
400.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
401.	 Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
402.	 Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
332            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      403.	 Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
      404.	 Treasury, response to SIGTARP data call, 1/8/2014.
      405.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
      406.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      407.	 Treasury, response to SIGTARP data call 1/8/2014; Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/Dec%202013%20Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      408.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      409.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      410.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      411.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2014.
      412.	 Treasury, response to SIGTARP data call, 1/8/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 1/2/2014.
      413.	 Treasury, response to SIGTARP data call 1/8/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 1/2/2014.
      414.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            1/2/2014.
      415.	 Treasury meeting with SIGTARP staff, 1/8/2014.
      416.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      417.	 Treasury, response to SIGTARP data call, 1/8/2014.
      418.	 Treasury, response to SIGTARP data call, 1/8/2014.
      419.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            1/2/2014.
      420.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      421.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            1/2/2014.
      422.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            1/2/2014.
      423.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            1/2/2014.
      424.	 Treasury, response to SIGTARP data call, 1/13/2014.
      425.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      426.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      427.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      428.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      429.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      430.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      431.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      432.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
      433.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014; Treasury, response to SIGTARP data call, 1/8/2014.
      434.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014            333


435.	 FDIC, “Spirit of Texas Bank, SSB, College Station, Texas, Assumes All of the Deposits of Texas Community Bank, National Association, The
      Woodlands, Texas,” 12/13/2013, www.fdic.gov/news/news/press/2013/pr13118.html, accessed 1/14/2014.
436.	 FDIC, “Spirit of Texas Bank, SSB, College Station, Texas, Assumes All of the Deposits of Texas Community Bank, National Association, The
      Woodlands, Texas,” 12/13/2013, www.fdic.gov/news/news/press/2013/pr13118.html, accessed 1/14/2014.
437.	 Treasury, response to SIGTARP data call, 1/22/2014.
438.	 Treasury, responses to SIGTARP data calls, various.
439.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 1/8/2014.
440.	 Treasury conference call, 3/19/2010.
441.	 Treasury, response to SIGTARP draft report, 1/14/2012.
442.	 Treasury conference call, 3/19/2010.
443.	 Treasury conference call, 3/19/2010.
444.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
445.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
446.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
447.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
448.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
449.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
450.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
451.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
452.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
453.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
454.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
455.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
456.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
457.	 SNL Financial LLC data.
458.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
459.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
460.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 1/2/2014.
461.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
462.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
463.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
464.	 Treasury, response to SIGTARP data call, 10/5/2011.
465.	 Treasury, response to SIGTARP data call, 10/5/2011.
466.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 1/2/2014.
467.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
      Report%20Aug2011.pdf, accessed 1/2/2014.
468.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2014.
469.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2014.
470.	 Treasury, response to SIGTARP data call, 1/8/2014.
471.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2014.
472.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
      Report%20Aug2011.pdf, accessed 1/2/2014; Treasury, response to SIGTARP data call, 1/8/2014.
473.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
474.	 Treasury, response to SIGTARP data call, 1/8/2014.
475.	 Treasury, response to SIGTARP data call, 1/8/2014.
334            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      476.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2014.
      477.	 Treasury, response to SIGTARP data call, 1/8/2014.
      478.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/2/2014.
      479.	 Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014.
      480.	 Treasury, response to SIGTARP data call, 1/8/2014.
      481.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 1/2/2014.
      482.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
            accessed 1/2/2014.
      483.	 Treasury conference call, 11/10/2011.
      484.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 1/2/2014.
      485.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 1/3/2014.
      486.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
            cdci/Pages/faqs.aspx, accessed 1/3/2014; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/3/2014; Treasury Press Release, “Treasury Announces
            Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
            9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 1/3/2014.
      487.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 1/3/2014.
      488.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
            investment-programs/cdci/Pages/default.aspx, accessed 1/3/2014.
      489.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 1/3/2014.
      490.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      491.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      492.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      493.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      494.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      495.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      496.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      497.	 Treasury, “Summary of Terms of CDCI Senior Preferred Terms,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
            investment-programs/cdci/Documents/CDCI20Bank-Thrift20Term20Sheet20042610.pdf, accessed 1/3/2014.
      498.	 Treasury, response to SIGTARP data call, 1/8/2014.
      499.	 Treasury, response to SIGTARP data call, 1/13/2014.
      500.	 Treasury, response to SIGTARP data call, 1/13/2014.
      501.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/3/2014.
      502.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 1/3/2014.
      503.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
            1/3/2014; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
            1/3/2014.
      504.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/3/2014.
      505.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/3/2014.
      506.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
            FY2010BIB-Complete.pdf, accessed 1/3/2014.
      507.	 Treasury, response to SIGTARP data call, 1/8/2010.
      508.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014; Treasury, Daily TARP Update, 1/2/2014, www.treasury.
            gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%201.2.2014.pdf, accessed 1/3/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                335


509.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
510.	 Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
      Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 1/3/2014.
511.	 Financial Stability Oversight Council, “Basis of the Financial Stability Oversight Council’s Final Determination Regarding American
      International Group, Inc.,” 7/8/2013, www.treasury.gov/initiatives/fsoc/designations/Documents/Basis%20of%20Final%20Determination%20
      Regarding%20American%20International%20Group,%20Inc.pdf, accessed 1/3/2014.
512.	 Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010.
513.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014.
514.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014.
515.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 1/3/2014; FRBNY, “Summary of Maiden
      Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed 1/3/2014.
516.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      1.2.2014.pdf, accessed 1/3/2014.
517.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 1/3/2014; FRBNY, “Summary of Maiden
      Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed 1/3/2014.
518.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 1/3/2014; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      1/3/2014.
519.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
      Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/3/2014.
520.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/3/2014.
521.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/3/2014.
522.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/3/2014.
523.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
      105report.pdf, accessed 1/6/2014.
524.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/3/2014.
525.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.
      gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 1/3/2014;
      Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
      Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 1/3/2014.
526.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/3/2014.
527.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/3/2014; Treasury Press Release, “With
      $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1096.aspx, accessed 1/3/2014; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/data/5272/000095012311021398/y90008ae8vk.
      htm, accessed 1/3/2014.
528.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/3/2014.
529.	 Treasury, response to SIGTARP data call, 4/4/2013.
530.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/3/2014; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/3/2014; AIG, 10-Q, 11/5/2010, www.sec.gov/
      Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/3/2014.
531.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/3/2014.
532.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
      Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 1/3/2014.
533.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
      Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 1/3/2014.
534.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      1.2.2014.pdf, accessed 1/3/2014.
535.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/3/2014.
536.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
537.	 AIG, Stock Information, www.aig.com/Stock-Information_3171_438015.html, accessed 1/3/2014.
538.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 1/3/2014.
539.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 1/3/2014.
336            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      540.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 1/2/2014, www.federalreserve.gov/releases/h41/20140102/, accessed 1/14/2014.
      541.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
            Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
            accessed 1/3/2014.
      542.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 1/2/2014, www.federalreserve.gov/releases/h41/20140102/, accessed 1/14/2014.
      543.	 Federal Reserve, Quarterly Report on Balance Sheet Developments, March 2013, www.federalreserve.gov/monetarypolicy/bsd-overview-201303.
            htm, accessed 1/3/2014.
      544.	 Federal Reserve, Quarterly Report on Balance Sheet Developments, March 2013, www.federalreserve.gov/monetarypolicy/bsd-overview-201303.
            htm, accessed 1/3/2014.
      545.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 1/3/2014; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 1/3/2014.
      546.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            1/3/2014.
      547.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 1/3/2014.
      548.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      549.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      550.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 1/3/2014; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/3/2014.
      551.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 1/3/2014.
      552.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/3/2014.
      553.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 1/3/2014.
      554.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 1/3/2014.
      555.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 1/3/2014.
      556.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/3/2014.
      557.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
      558.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 1/3/2014; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of
            $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1841.aspx, accessed 1/3/2014.
      559.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 1/3/2014.
      560.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 1/3/2014.
      561.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 1/6/2014.
      562.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
            jl2236.aspx, accessed 1/6/2014.
      563.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, Office of Financial Stability – Troubled Asset Relief Program,
            Agency Financial Report – Fiscal Year 2013, 12/11/13, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-
            12-11-13_Final.pdf, accessed 1/6/2014.
      564.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      565.	 Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock, 1/16/2014, www.treasury.gov/press-
            center/press-releases/Pages/jjl2258.aspx, accessed 1/24/2014.
      566.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            1.2.2014.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
      567.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      568.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal
            Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20
            AFR%20Nov%2015.pdf, accessed 1/6/2014.
      569.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            1.2.2014.pdf, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014.
                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                 337


570.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
571.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
572.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
573.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
      jl2236.aspx, accessed 1/6/2014; Treasury, response to SIGTARP data call, 1/8/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed
      1/6/2014; Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/
      press-center/press-releases/Pages/jl2173.aspx, accessed 1/6/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
574.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/6/2014.
575.	 Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2013, 12/11/13, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 1/6/2014; Treasury, Transactions
      Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-
      14_INVESTMENT.pdf, accessed 1/6/2014.
576.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
577.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 1/6/2014.
578.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/6/2014.
579.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/6/2014; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 1/6/2014; GM
      Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, media.gm.com/content/media/
      be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 1/6/2014.
580.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/6/2014.
581.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/6/2014.
582.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 1/6/2014.
583.	 General Motors Company Form 8-K, 12/20/2012, www.sec.gov/Archives/edgar/data/1467858/000146785812000082/form8-kusttreasurystock.
      htm, accessed 1/6/2014; Treasury, Stockholders Agreement, 10/15/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      automotive-programs/Documents/GM%20Corporate%20Docs.pdf, accessed 1/7/2014; Treasury, Second Amended and Restated Secured Credit
      Agreement, 8/12/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/Documents/General%20Motors%20
      Company%20Loan%20Documents%20%20(post-July%2010,%202009).pdf, accessed 1/7/2014.
584.	 General Motors Press Release, “GM to Buy Back Stock from U.S. Treasury Department,” 12/19/2012, media.gm.com/media/us/en/gm/news.
      detail.html/content/Pages/news/us/en/2012/Dec/1219_gm-ust-stock.html, accessed 1/7/2014.
585.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 1/7/2014.
586.	 Treasury, response to SIGTARP data call, 1/8/2014. Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
587.	 Treasury Press Release, “Treasury Announces Next Step in Plan to Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-
      center/press-releases/Pages/jl1926.aspx, accessed 1/7/2014; Treasury, response to SIGTARP data call, 1/8/2014.
588.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
589.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
590.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
591.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 1/7/2014.
592.	 Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
      Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014.
593.	 Treasury, Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
      jl2236.aspx, accessed 1/7/2014.
594.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      1.2.2014.pdf, accessed 1/6/2014.
595.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, Office of Financial Stability – Troubled Asset Relief Program,
      Agency Financial Report – Fiscal Year 2013, 12/11/13, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-
      12-11-13_Final.pdf, accessed 1/6/2014.
596.	 GM, Press Release, “Dan Akerson to Retire as GM CEO in January 2014,” 12/10/2013, media.gm.com/content/media/us/en/gm/news.detail.
      html/content/Pages/news/emergency_news/1210-gm-execs.html, accessed 1/7/2014.
338            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      597.	 GM, Press Release, “GM Declares 30 Cents per Share Quarterly Stock Dividend,” 1/14/2014, www.gm.com/company/investors/latest-news/
            news_detail_page.content_pages_news_us_en_2014_jan_0114-dividend.~content~gmcom~home~company~investors.html, accessed
            1/15/2014; SNL Financial data.
      598.	 Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock, 1/16/2014, www.treasury.gov/press-
            center/press-releases/Pages/jjl2258.aspx, accessed 1/24/2014.
      599.	 media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-Treasury,
            accessed 1/7/2014.
      600.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            1.2.2014.pdf, accessed 1/6/2014.
      601.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      602.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 1/7/2014.
      603.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/7/2014.
      604.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/7/2014.
      605.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 1/7/2014; Treasury, Section
            105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 1/7/2014.
      606.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/7/2014.
      607.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/7/2014.
      608.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 1/7/2014.
      609.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 1/7/2014.
      610.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 1/7/2014.
      611.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            1/7/2014.
      612.	 GM Press Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.
            html/content/Pages/news/us/en/2013/Dec/1212-ally.html, accessed 1/7/2014.
      613.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-
            11-20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 1/7/2014; Treasury, Transactions Report,
            1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-
            14_INVESTMENT.pdf, accessed 1/6/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
            Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
            Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 1/7/2014.
      614.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 1/7/2014; Ally Financial Press Release, “Ally
            Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-
            20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 1/7/2014.
      615.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 1/7/2014.
      616.	 Treasury, response to SIGTARP data call, 1/8/2014.
      617.	 Treasury, response to SIGTARP data call, 1/8/2014.
      618.	 Ally Press Release, “Ally Financial Granted Financial Holding Company Status,” 12/23/2013, media.ally.com/2013-12-23-Ally-Financial-
            Granted-Financial-Holding-Company-Status, accessed 1/7/2014.
      619.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 1/7/2014.
      620.	 Ally Financial, Amendment No. 9 to Form S-1 Registration Statement, 12/23/2013, www.sec.gov/Archives/edgar/
            data/40729/000119312513482886/d611675ds1a.htm, accessed 1/7/2014; Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.
            sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed 1/7/2014.
      621.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            1/7/2014.
      622.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 1/7/2014.
      623.	 Ally Financial, Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
            ?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 1/7/2014; Ally Financial, Amendment No. 2 to Form S-1
            Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&SessionID=y
            WV1FqvBONn9GA7, accessed 1/7/2014; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.sec.gov/
            Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 1/7/2014; Ally Financial, Amendment No. 4 to Form S-1 Registration
            Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 1/7/2014; Ally Financial,
            Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
            d167661ds1a.htm, accessed 1/7/2014; Ally Financial, Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
            Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 1/7/2014; Ally Financial, Amendment No. 7 to Form S-1
            Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 1/7/2014; Ally
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014               339


        Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
        d388008ds1a.htm, accessed 1/7/2014.
624.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
        Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 1/7/2014.
625.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
        Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 1/7/2014; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/
        edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 1/7/2014.
626.	   In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
        Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement
        with Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, www.rescaprmbssettlement.com/docs/4098.
        pdf, accessed 1/7/2014.
627.	   Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
        com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 1/7/2014.
628.	   Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
        31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 1/7/2014.
629.	   In re: Residential Capital LLC, et. al., U.S. Bankruptcy Court for the Southern District of New York, Case No.12-12020, “Notice
        of Entry of Confirmation Order Confirming the Second Amended Joint Chapter 11 Plan Proposed by Residential Capital, LLC,
        et. al., and the Official Committee of Unsecured Creditors and Occurrence of Effective Date,” 12/17/2013, www.kccllc.net/
        documents/1212020/1212020131217000000000007.pdf, accessed 1/14/2014; Ally Press Release, “ResCap Plan of Reorganization Approved by
        U.S. Bankruptcy Court”, media.ally.com/2013-12-11-ResCap-Plan-of-Reorganization-Approved-by-U-S-Bankruptcy-Court, accessed 1/7/2014.
630.	   Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
        com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 1/7/2014.
631.	   Ally Financial Press Release, “Ally Financial Completes Sale Of Operations In Brazil,” 10/2/2013, media.ally.com/2013-10-01-Ally-Financial-
        Completes-Sale-of-Operations-in-Brazil, accessed 1/7/2014.
632.	   Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
        31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 1/7/2014.
633.	   Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
        php?s=20295&item=122599, accessed 1/7/2014; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance Business,”
        5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 1/7/2014.
634.	   Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
        21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 1/7/2014.
635.	   Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
        Completes-Sales-of-Mortgage-Servicing-Rights, accessed 1/7/2014.
636.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
637.	   Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
        2010%20105(a)%20Report_final.pdf, accessed 1/7/2014.
638.	   Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
        aspx, accessed 1/7/2014.
639.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
640.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
641.	   Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
        gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 1/7/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.
        gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed
        1/6/2014.
642.	   Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
        Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
643.	   Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
        media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 1/7/2014; Treasury
        Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
        accessed 1/7/2014.
644.	   Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
        aspx, accessed 1/7/2014.
645.	   Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
        aspx, accessed 1/7/2014.
646.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 1/7/2014.
647.	   Chrysler Press Release, “Chrysler Group Announces Agreement With UAW Calling for Contributions to VEBA Trust and Also Announces a
        Special Distribution,” 1/1/2014, www.chryslergroupllc.com/Investor/PressReleases/ChryslerDocuments/Chrysler%20Group%20Announces%20
        Agreement%20With%20UAW.pdf, accessed 1/2/2014; Fiat Press Release, “Fiat to acquire remaining equity interests in Chrysler Group
        LLC from VEBA Trust,” 1/1/2014, www.fiatspa.com/en-US/media_center/FiatDocuments/2014/Gennaio/Fiat_to_acquire_remaining_equity_
        interests_in_Chrysler_Group_LLC_from_VEBA_Trust.pdf, accessed 1/7/2014.
648.	   Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
        Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
340             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      649.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/Dec%202013%20Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
      650.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
            Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
            Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 1/7/2014; Treasury, Transactions Report, 1/1/2014, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf,
            accessed 1/6/2014.
      651.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      652.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, mediaroom.tdbank.com/index.
            php?s=30379&item=94198, accessed 1/7/2014.
      653.	 TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/data/1337471/000095012311032930/y90599e8vk.htm, accessed 1/7/2014;
            Banking Business Review, “TD Bank closes acquisition of Chrysler Financial,” 4/1/2011, retailbanking.banking-business-review.com/news/td-
            bank-closes-acquisition-of-chrysler-financial-040411, accessed 1/7/2014.
      654.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg64.aspx, accessed 1/7/2014.
      655.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014; Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/
            financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 1/7/2014.
      656.	 Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/7/2014.
      657.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      658.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      659.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 1/3/2014.
      660.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
            -%201.2.2014.pdf, accessed 1/3/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      661.	 FRBNY, response to SIGTARP data call, 1/8/2014.
      662.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      663.	 Treasury, response to SIGTARP data call, 1/8/2014.
      664.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      665.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      666.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/3/2014.
      667.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 1/3/2014.
      668.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 1/3/2014.
      669.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      670.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 1/3/2014.
      671.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 1/3/2014.
      672.	 FRBNY, response to SIGTARP data call, 1/8/2014.
      673.	 FRBNY, response to SIGTARP data call, 1/8/2014.
      674.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 1/3/2014.
      675.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 1/3/2014.
      676.	 FRBNY, response to SIGTARP data call, 1/8/2014.
      677.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 1/3/2014.
      678.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 1/3/2014.
      679.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 1/3/2014.
      680.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 1/3/2014.
      681.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 1/3/2014; Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet”,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 1/3/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014                341


682.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/3/2014.
683.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/3/2014.
684.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/3/2014.
685.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/3/2014.
686.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
687.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 1/3/2014.
688.	 Federal Reserve, “Quarterly Report on Federal Reserve Balance Sheet Developments”, March 2013, www.federalreserve.gov/monetarypolicy/
      files/quarterly_balance_sheet_developments_report_201303.pdf, accessed 1/3/2014.
689.	 Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
      -%201.2.2014.pdf, accessed 1/3/2014; Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/1-2-14%20Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
690.	 FRBNY, response to SIGTARP data call, 1/8/2014.
691.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/3/2014;
      FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
      1/3/2014.
692.	 FRBNY, response to SIGTARP data call, 1/8/2014.
693.	 FRBNY, response to SIGTARP data call, 1/8/2014.
694.	 FRBNY, response to SIGTARP data call, 1/8/2014.
695.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 1/3/2014.
696.	 FRBNY, response to SIGTARP data call, 1/8/2014.
697.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
698.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      1/3/2014.
699.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 1/3/2014.
700.	 FRBNY, response to SIGTARP data call, 1/8/2014; Treasury, response to SIGTARP data call, 1/8/2014.
701.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 1/2/2014, www.federalreserve.gov/releases/h41/, accessed 1/3/2014; FRBNY,
      response to SIGTARP data call, 1/8/2014.
702.	 FRBNY, response to SIGTARP data call, 1/8/2014.
703.	 FRBNY, response to SIGTARP data call, 1/8/2014.
704.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 1/6/2014.
705.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 1/6/2014.
706.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/6/2014.
707.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
      ppip/Pages/purpose-and-overview.aspx, accessed 1/6/2014.
708.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/6/2014.
709.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/6/2014.
710.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/6/2014; Treasury, “Amended and Restated
      Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
      Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/6/2014.
711.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 1/6/2014.
712.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/6/2014.
713.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
714.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20%28redacted%29.pdf, accessed 1/6/2014.
715.	 Treasury, response to SIGTARP data call, 1/8/2014.
716.	 Treasury, response to SIGTARP data call, 1/8/2014.
717.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
342            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      718.	 Treasury, response to SIGTARP data call, 1/8/2014.
      719.	 Treasury, response to SIGTARP data call, 1/8/2014.
      720.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      721.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      722.	 Treasury, response to SIGTARP data call, 1/8/2014.
      723.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      724.	 Treasury, response to SIGTARP data call, 1/10/2014.
      725.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
      726.	 Treasury, response to SIGTARP data call, 1/8/2014.
      727.	 PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
      728.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Wellington
            Management Legacy Securities PPIF (Offshore), L.P., 7/25/2013, Authentication No. 0616264, File No. 4709656.
      729.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
            12/5/2012, www.businesswire.com/news/home/20121205006450/en/BlackRock-Liquidates-Public-Private-Investment-Partnership-23.5-
            Internal, accessed 1/14/2014; BlackRock PPIP monthly report for November 2012 submitted to Treasury and SIGTARP, 12/14/2012.
      730.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      731.	 Treasury, response to SIGTARP data call, 1/8/2014.
      732.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
            for Treasury,” 10/9/2012, phx.corporate-ir.net/phoenix.zhtml?c=60983&p=irol-newsArticle&ID=1743175&highlight=, accessed 1/14/2014;
            AllianceBernstein PPIP monthly report for September 2012, submitted to Treasury and SIGTARP, 10/15/2012.
      733.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      734.	 Treasury, response to SIGTARP data call, 1/8/2014.
      735.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership at a 23.9% Internal Rate of
            Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
            partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 1/6/2014; RLJ Western PPIP monthly report for
            November 2012, submitted to Treasury and SIGTARP, 11/15/2012.
      736.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      737.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      738.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 1/6/2014; Invesco PPIP monthly report for March 2012, submitted
            to Treasury and SIGTARP, 4/16/2012.
      739.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
            Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/6/2014.
      740.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      741.	 Treasury, response to SIGTARP data call, 1/8/2014.
      742.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 1/6/2014.
      743.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 1/6/2014.
      744.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 1/6/2014.
      745.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 1/6/2014.
      746.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
            accessed 1/3/2014; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 1/3/2014.
      747.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 1/3/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 1/3/2014.
      748.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 1/3/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 1/3/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
            and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 1/3/2014.
                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014         343


749.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
750.	 Treasury, Transactions Report, 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20Transactions%20
      Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/3/2014.
751.	 Treasury, Dividends and Interest Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%202013%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2014.
752.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 9/4/2013.
753.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
754.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
755.	 Treasury, response to SIGTARP data call, 1/8/2014.
756.	 Treasury, response to SIGTARP data call, 1/8/2014.
757.	 Treasury, response to SIGTARP data call, 1/8/2014.
758.	 Treasury, response to SIGTARP data call, 1/8/2014.
759.	 Fannie Mae, response to SIGTARP data call, 1/9/2014; Freddie Mac, response to SIGTARP data call, 1/13/2014.
760.	 Treasury, response to SIGTARP data call, 1/8/2014.
761.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
762.	 Treasury, response to SIGTARP data call, 1/15/2014.
344           APPENDIX A I GLOSSARY I JANUARY 29, 2014




      GLOSSARY
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans (e.g., credit card,       Cumulative Redefault Rate: The total number of HAMP
      auto, or small-business loans). Financial companies typically      permanent modifications that have redefaulted (as of
      issue ABS backed by existing loans in order to fund new loans      a specific date) divided by the total number of HAMP
      for their customers.                                               permanent modifications started (as of the same specific
                                                                         date).
      Collateral: Asset pledged by a borrower to a lender until a
      loan is repaid. Generally, if the borrower defaults on the loan,   Custodian Bank: Bank holding the collateral and managing
      the lender gains ownership of the pledged asset and may sell       accounts for FRBNY; for TALF the custodian is Bank of New
      it to satisfy the debt. In TALF, the ABS or CMBS purchased         York Mellon.
      with the TALF loan is the collateral that is posted with
                                                                         Debt: Investment in a business that is required to be paid
      FRBNY.
                                                                         back to the investor, usually with interest.
      Collateralized Debt Obligation (“CDO”): A security that
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      entitles the purchaser to some part of the cash flows from a
                                                                         foreclosure, the borrower voluntarily surrenders the deed
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         to the home to the investor as satisfaction of the unpaid
      loans, or other CDOs.
                                                                         mortgage balance.
      Commercial Mortgage-Backed Securities (“CMBS”):
                                                                         Deobligations: An agency’s cancellation or downward
      Bonds backed by one or more mortgages on commercial real
                                                                         adjustment of previously incurred obligations.
      estate (e.g., office buildings, rental apartments, hotels).
                                                                         Due Diligence: Appropriate level of attention or care a
      Common Stock: Equity ownership entitling an individual to
                                                                         reasonable person should take before entering into an
      share in corporate earnings and voting rights.
                                                                         agreement or a transaction with another party. In finance, it
      Community Development Financial Institutions                       often refers to the process of conducting an audit or review of
      (“CDFIs”): Financial institutions eligible for Treasury            the institution before initiating a transaction.
      funding to serve urban and rural low-income communities
                                                                         Equity: Investment that represents an ownership interest in
      through the CDFI Fund. CDFIs were created in 1994
                                                                         a business.
      by the Riegle Community Development and Regulatory
      Improvement Act.                                                   Equity Capital Facility: Commitment to invest equity
                                                                         capital in a firm under certain future conditions. An equity
                                                                         facility when drawn down is an investment that increases
                                                                         the provider’s ownership stake in the company. The investor
                                                                         may be able to recover the amount invested by selling its
                                                                         ownership stake to other investors at a later date.
                                                                                        GLOSSARY I APPENDIX A I JANUARY 29, 2014     345




Excess Spread: Funds left over after required payments and          Loan Servicers: Companies that perform administrative
other contractual obligations have been met. In TALF it is          tasks on monthly mortgage payments until the loan is
the difference between the periodic amount of interest paid         repaid. These tasks include billing, tracking, and collecting
out by the collateral and the amount of interest charged by         monthly payments; maintaining records of payments and
FRBNY on the nonrecourse loan provided to the borrower to           balances; allocating and distributing payment collections to
purchase the collateral.                                            investors in accordance with each mortgage loan’s governing
                                                                    documentation; following up on delinquencies; and initiating
Exercise Price: Preset price at which a warrant holder
                                                                    foreclosures.
may purchase each share. For warrants in publicly traded
institutions issued through CPP, this was based on the              Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
average stock price during the 20 days before the date that         that mortgage lenders examine before approving a mortgage;
Treasury granted preliminary CPP participation approval.            calculated by dividing the outstanding amount of the loan
                                                                    by the value of the collateral backing the loan. Loans with
Government-Sponsored Enterprises (“GSEs”): Private
                                                                    high LTV ratios are generally seen as higher risk because the
corporations created and chartered by the Government to
                                                                    borrower has less of an equity stake in the property.
reduce borrowing costs and provide liquidity in the market,
the liabilities of which are not officially considered direct       Mandatorily Convertible Preferred Stock (“MCP”): A type
taxpayer obligations. On September 7, 2008, the two largest         of preferred share (ownership in a company that generally
GSEs, the Federal National Mortgage Association (“Fannie            entitles the owner of the shares to collect dividend payments)
Mae”) and the Federal Home Loan Mortgage Corporation                that can be converted to common stock under certain
(“Freddie Mac”), were placed into Federal conservatorship.          parameters at the discretion of the company — and must be
They are currently being financially supported by the               converted to common stock by a certain time.
Government.
                                                                    Nationally Recognized Statistical Rating Organization
Haircut: Difference between the value of the collateral and         (“NRSRO”): Credit rating agency registered with the
the value of the loan (the loan value is less than the collateral   SEC. Credit rating agencies provide their opinion of the
value).                                                             creditworthiness of companies and the financial obligations
                                                                    issued by companies. The ratings distinguish between
Illiquid Assets: Assets that cannot be quickly converted to
                                                                    investment grade and non-investment grade equity and debt
cash.
                                                                    obligations.
Investors: Owners of mortgage loans or bonds backed by
                                                                    Net Present Value (“NPV”) Test: Compares the money
mortgage loans who receive interest and principal payments
                                                                    generated by modifying the terms of the mortgage with the
from monthly mortgage payments. Servicers manage the cash
                                                                    amount an investor can reasonably expect to recover in a
flow from borrowers’ monthly payments and distribute them
                                                                    foreclosure sale.
to investors according to Pooling and Servicing Agreements
(“PSAs”).                                                           Non-Agency Residential Mortgage-Backed Securities
                                                                    (“non-agency RMBS”): Financial instrument backed by
Legacy Securities: Real estate-related securities originally
                                                                    a group of residential real estate mortgages (i.e., home
issued before 2009 that remained on the balance sheets
                                                                    mortgages for residences with up to four dwelling units) not
of financial institutions because of pricing difficulties that
                                                                    guaranteed or owned by a Government-sponsored enterprise
resulted from market disruption.
                                                                    (“GSE”) or a Government Agency.
Limited Partnership: Partnership in which there is at least
                                                                    Non-Cumulative Preferred Stock: Preferred stock with
one partner whose liability is limited to the amount invested
                                                                    a defined dividend, without the obligation to pay missed
(limited partner) and at least one partner whose liability
                                                                    dividends.
extends beyond monetary investment (general partner).
                                                                    Non-Recourse Loan: Secured loan in which the borrower is
                                                                    relieved of the obligation to repay the loan upon surrendering
                                                                    the collateral.
346           APPENDIX A I GLOSSARY I JANUARY 29, 2014




      Obligations: Definite commitments that create a legal              Servicing Advances: If borrowers’ payments are not made
      liability for the Government to pay funds.                         promptly and in full, mortgage servicers are contractually
                                                                         obligated to advance the required monthly payment amount
      Pool Assemblers: Firms authorized to create and market
                                                                         in full to the investor. Once a borrower becomes current
      pools of SBA-guaranteed loans.
                                                                         or the property is sold or acquired through foreclosure, the
      Preferred Stock: Equity ownership that usually pays a fixed        servicer is repaid all advanced funds.
      dividend before distributions for common stock owners but
                                                                         Short Sale: Sale of a home for less than the unpaid mortgage
      only after payments due to debt holders. It typically confers
                                                                         balance. A borrower sells the home and the investor accepts
      no voting rights. Preferred stock also has priority over
                                                                         the proceeds as full or partial satisfaction of the unpaid
      common stock in the distribution of assets when a bankrupt
                                                                         mortgage balance, thus avoiding the foreclosure process.
      company is liquidated.
                                                                         Skin in the Game: Equity stake in an investment; down
      Pro Rata: Refers to dividing something among a group of
                                                                         payment; the amount an investor can lose.
      participants according to the proportionate share that each
      participant holds as a part of the whole.                          Special Purpose Vehicle (“SPV”): A legal entity, often off-
                                                                         balance-sheet, that holds transferred assets presumptively
      Qualified Institutional Buyers (“QIB”): Institutions that
                                                                         beyond the reach of the entities providing the assets, and that
      under U.S. securities law are permitted to buy securities that
                                                                         is legally isolated from its sponsor or parent company.
      are exempt from registration under investor protection laws
      and to resell those securities to other QIBs. Generally these      Subchapter S Corporations (“S corporations”): Corporate
      institutions own and invest at least $100 million in securities,   form that passes corporate income, losses, deductions, and
      or are registered broker-dealers that own or invest at least $10   credit through to shareholders for Federal tax purposes.
      million in securities.                                             Shareholders of S corporations report the flow-through of
                                                                         income and losses on their personal tax returns and are taxed
      Revolving Credit Facility: Line of credit for which borrowers
                                                                         at their individual income tax rates.
      pay a commitment fee, allowing them to repeatedly draw
      down funds up to a guaranteed maximum amount. The                  Subordinated Debentures: Form of debt security that ranks
      amount of available credit decreases and increases as funds        below other loans or securities with regard to claims on assets
      are borrowed and then repaid.                                      or earnings.
      Risk-Weighted Assets: Risk-based measure of total assets           Systemically Significant Institutions: Term referring to any
      held by a financial institution. Assets are assigned broad         financial institution whose failure would impose significant
      risk categories. The amount in each risk category is then          losses on creditors and counterparties, call into question the
      multiplied by a risk factor associated with that category. The     financial strength of similar institutions, disrupt financial
      sum of the resulting weighted values from each of the risk         markets, raise borrowing costs for households and businesses,
      categories is the bank’s total risk-weighted assets.               and reduce household wealth.
      SBA Pool Certificates: Ownership interest in a bond backed         TALF Agent: Financial institution that is party to the TALF
      by SBA-guaranteed loans.                                           Master Loan and Security Agreement and that occasionally
                                                                         acts as an agent for the borrower. TALF agents include
      Senior Preferred Stock: Shares that give the stockholder
                                                                         primary and nonprimary broker-dealers.
      priority dividend and liquidation claims over junior preferred
      and common stockholders.                                           Trial Modification: Under HAMP, a period of at least three
                                                                         months in which a borrower is given a chance to establish
      Senior Subordinated Debentures: Debt instrument ranking
                                                                         that he or she can make lower monthly mortgage payments
      below senior debt but above equity with regard to investors’
                                                                         and qualify for a permanent modification.
      claims on company assets or earnings.
                                                                         Trust Preferred Securities (“TRUPS”): Securities that have
                                                                         both equity and debt characteristics, created by establishing a
                                                                         trust and issuing debt to it.
                                                                                                  GLOSSARY I APPENDIX A I JANUARY 29, 2014                              347




Undercapitalized: Condition in which a financial institution      Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
does not meet its regulator’s requirements for sufficient         fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
capital to operate under a defined level of adverse conditions.   1/2/2014.
                                                                  Federal Reserve Board, Federal Reserve Banks Operating Circular No. 9: Treasury Investments and
Underwater Mortgage: Mortgage loan on which a                     Collateral Securing Public Funds and Financial Interests of the Government, www.frbservices.org/
                                                                  files/regulations/pdf/operating_circular_9_072513.pdf, accessed 1/20/2014.
homeowner owes more than the home is worth, typically as a        FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 1/2/2014.
result of a decline in the home’s value. Underwater mortgages     FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
also are referred to as having negative equity.                   card_securitization/glossary.html, accessed 1/2/2014.
                                                                  FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                  rules/2000-4600.html, accessed 1/2/2014.
                                                                  FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 1/2/2014.
                                                                  SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                  3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                  Affordable_Modification_Program.pdf, accessed 1/2/2014.
                                                                  GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                  special.pubs/d06382sp.pdf, p. 7-3, accessed 1/2/2014.
                                                                  GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                  on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 1/2/2014; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
                                                                  Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                  Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 1/2/2014.
                                                                  IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
                                                                  Employed/Abusive-Offshore-Tax-Avoidance-Schemes-Glossary-of-Offshore-Terms, accessed
                                                                  1/2/2014.
                                                                  Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012, www.
                                                                  hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
                                                                  accessed 1/2/2014.
                                                                  SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                  groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 1/2/2014.
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 1/2/2014.
                                                                  Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                  1/2/2014.
                                                                  Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                  center/press-releases/Pages/tg58.aspx, accessed 1/2/2014.
                                                                  Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                  aspx, accessed 1/2/2014.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 1/2/2014.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/2/2014.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 1/2/2014.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 1/2/2014.
348           APPENDIX B I ACRONYMS AND ABBREVIATIONS I JANUARY 29, 2014




      ACRONYMS AND ABBREVIATIONS

           1st Financial                                                              Chrysler Chrysler Holding LLC
                         1st Financial Services Corporation
               Services
                                                                            Chrysler Financial Chrysler Financial Services Americas LLC
           21st Century 21st Century Real Estate Investment Corp.
                                                                                                  Council of the Inspectors General on Integrity and
                                                                                         CIGIE
                    2MP Second Lien Modification Program                                          Efficiency
                     ABS     asset-backed securities                                 Citigroup    Citigroup Inc.
                the “Act” Securities Act of 1933                                         CLTV Combined Loan-to-Value
                     AGP Asset Guarantee Program                                        CMBS      commercial mortgage-backed securities
                     AHR American Home Recovery                             Coastal Securities Coastal Securities, Inc.
                      AIA    American International Insurance Co., Ltd.                   CPP Capital Purchase Program
                 AIA SPV AIA Aurora LLC                                                           Department of Education Office of Inspector
                                                                                       DE OIG
                                                                                                  General
                     AIFP Automotive Industry Financing Program
                                                                                        Delphi    Delphi Corporation
                      AIG American International Group, Inc.
                                                                                                  Dodd-Frank Wall Street Reform and Consumer
               AIG Trust AIG Credit Facility Trust                            Dodd-Frank Act
                                                                                                  Protection Act
                   ALICO     American Life Insurance Company
                                                                                           DTI debt-to-income
              ALICO SPV ALICO Holdings LLC
                                                                                         EESA     Emergency Economic Stabilization Act of 2008
      Ally, Ally Financial   Ally Financial Inc.
                                                                               Eligible Assets securities eligible for purchase by PPIFs
                    AMS      American Mortgage Specialists
                                                                                  Fannie Mae Federal National Mortgage Association
                  Anchor Anchor BanCorp Wisconsin, Inc.
                                                                                           FBI    Federal Bureau of Investigation
                    ASSP Auto Supplier Support Program
                                                                                          FDIC    Federal Deposit Insurance Corporation
        Auto Task Force      Presidential Task Force on the Auto Industry
                                                                                                  Federal Deposit Insurance Corporation Office of
                                                                                     FDIC OIG
                   AWCP Auto Warranty Commitment Program                                          Inspector General
       Bank of America Bank of America Corporation                           Federal Reserve      Board of Governors of the Federal Reserve System
                     BNC BNC National Bank                                                FHA     Federal Housing Administration
                     BOC     Bank of the Commonwealth                                 FHA2LP Treasury/FHA Second-Lien Program
               Broadway Broadway Financial Corporation                                     Fiat   Fiat North America LLC
                     C&F     C&F Financial Corporation                              Fifth Third   Fifth Third Bancorp
                 Calvert     Calvert Financial Corporation                                FLC Flahive Law Corporation
                     CAP Capital Assistance Program                                    FLMLC      Federal Loan Modification Law Center
                     CBO     Congressional Budget Office                         Florida Bank     Florida Bank Group, Inc.
                    CDCI     Community Development Capital Initiative                             Office of Inspector General-Board of Governors of
                                                                                      FRB OIG
                                                                                                  the Federal Reserve System
                    CDFI     Community Development Financial Institution
                                                                                       FRBNY      Federal Reserve Bank of New York
                   CDOs      collateralized debt obligations
                                                                                 Freddie Mac Federal Home Loan Mortgage Corporation
                     CDS     credit default swap
                                                                                         FSOC     Financial Stability Oversight Council or the Council
        Central Virginia
                         Central Virginia Bankshares, Inc.
           Bankshares                                                                     FTC Federal Trade Commission
                     CEO     chief executive officer                                      GAO Government Accountability Office
               Cerberus      Cerberus Capital Management, L.P.                             GM     General Motors Company
                     CFO     chief financial officer                             GM Financial     General Motors Financial Company, Inc.
                                                                               ACRONYMS AND ABBREVIATIONS I APPENDIX B I JANUARY 29, 2014          349




 God Please Help GPH Investments                                                         OFS    Office of Financial Stability
            GSE Government-sponsored enterprise                                  Old Second Old Second National Bank
       GulfSouth GulfSouth Private Bank                                                 OMB     Office of Management and Budget
           HAFA    Home Affordable Foreclosure Alternatives program                 Onebanc One Bank & Trust N.A.
               Home Affordable Modification Program; HAMP                      One Financial OneFinancial Corporation
          HAMP
               Tier 1
                                                                                 Option ARM     Option Adjustable Rate Mortgage
    HAMP Tier 2 Home Affordable Modification Program Tier 2
                                                                                      Oxford Oxford Collection Agency
        Hanover Hanover Settlement, Inc.
                                                                                Park Avenue Park Avenue Bank
            HAT    Home Advocate Trustees
                                                                                       PBGC Pension Benefit Guaranty Corporation
            HFA Housing Finance Agency
                                                                                           PII personally identifiable information
            HHF    Hardest Hit Fund
                                                                                     Pinnacle Pinnacle National Bank
 HHF or Hardest
                Housing Finance Agency Hardest Hit Fund                     Please Help Lord    PHL Investments
       Hit Fund
                                                                                         PPIF Public-Private Investment Fund
          HOPE Home Owners Protection Economics, Inc.
                                                                                         PPIP Public-Private Investment Program
          HPDP Home Price Decline Protection
                                                                                         PRA Principal Reduction Alternative
            HUD    Department of Housing and Urban Development
                                                                                     Premier Premier Bank
        Jobs Act   Small Business Jobs Act of 2010
                                                                                         PSA    Pooling and Servicing Agreements
JP Morgan Chase    JP Morgan Chase & Co.
                                                                                      Pulaski   Pulaski Bank
             IPO   initial public offering
                                                                                          QIB Qualified Institutional Buyers
          IRS-CI   Internal Revenue Service Criminal Investigation
                                                                                                Department of Agriculture Office of Rural
                   International Union of Electronic, Electrical,                         RD
             IUE                                                                                Development
                   Salaried, Machine and Furniture Workers
                                                                                                Department of Agriculture Office of Rural
         Lincoln Lincoln National Life Insurance Company                           RD-HAMP
                                                                                                Development HAMP
             LTV loan-to-value
                                                                                     ResCap Residential Capital, LLC
            M&T    M&T Bank Corporation
                                                                                         RMA    request for mortgage assistance
      Mainstreet Mainstreet Bank
                                                                                       RMBS     residential mortgage-backed securities
            MBS    mortgage-backed securities
                                                                                      Rogers Rogers Bancshares, Inc.
           MCP mandatorily convertible preferred shares
                                                                                                Railroad Retirement Board Office of Inspector
                                                                                     RRB OIG
           MHA     Making Home Affordable program                                               General
       MidCoast MidCoast Community Bank, Inc.                                 S corporations subchapter S corporations
       Monarch Monarch Community Bancorp, Inc.                                           SBA    Small Business Administration
                   Neighborhood Reinvestment Corporation and                            SBLF    Small Business Lending Fund
 NeighborWorks
                   NeighborWorks America
                                                                                                “Banks that Used the Small Business Lending Fund
                                                                                SBLF Report
      New Point New Point Financial Services, Inc.                                              to Exit TARP”
          NHMC     Nations Housing Modification Center                                   SEC    Securities and Exchange Commission
           NMC Nationwide Mortgage Concepts                                         servicers loan servicers
    Non-Agency Non-Agency Residential Mortgage-Backed                      servicing advance receivables for residential mortgage servicing
         RMBS Securities                                                          receivables advances
            NPV net present value                                             Shay Financial    Shay Financial Services, Inc.
         NRSRO     nationally recognized statistical rating organization                        Office of the Special Inspector General for the
                                                                                    SIGTARP
                                                                                                Troubled Asset Relief Program
            OCC Office of the Comptroller of the Currency
350          APPENDIX B I ACRONYMS AND ABBREVIATIONS I JANUARY 29, 2014




                          Special Inspector General for the Troubled Asset
           SIGTARP Act
                          Relief Program Act of 2009
        Small Business
                       Jobs Act of 2010
              Jobs Act
                   SPA Servicer Participation Agreements
                   SPV special purpose vehicle
                   SSFI   Systemically Significant Failing Institutions program
                  TALF    Term Asset-Backed Securities Loan Facility
                  TARP Troubled Asset Relief Program
                   TBW    Taylor, Bean and Whitaker Mortgage Corporation
                   TCB TCB Holding Company, The Woodlands, Texas
                  TCW     The TCW Group, Inc.
      Texas Community Texas Community Bank, National Association, The
                Bank Woodlands, Texas
                    TIP Targeted Investment Program
                   TPP trial period plan
              Treasury Department of the Treasury
                          Department of Treasury Office of Inspector
          Treasury OIG
                          General
              Treasury
                       Secretary of the Treasury
             Secretary
         Treasury/FHA- HAMP Loan Modification Option for FHA-insured
                 HAMP Mortgages
                TRUPS trust preferred securities
                   TSG The Shmuckler Group, LLC
                  UAW United Auto Workers
                 UCSB Unlocking Credit for Small Businesses
                    UP Home Affordable Unemployment Program
          Urban Motors Urban Motors Corporation
                   UCB United Commercial Bank
                  USW United Steelworkers of America
                     VA Department of Veterans Affairs
                          Department of Veterans Affairs Home Affordable
              VA HAMP
                          Modification Program
                   WAT    Walk Away Today
       Wilmington Trust   Wilmington Trust Company
                                                                                          REPORTING REQUIREMENTS I APPENDIX C I JANUARY 29, 2014          351




REPORTING REQUIREMENTS
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

#     EESA        EESA Reporting       Treasury Response to SIGTARP Data Call                                                          SIGTARP Report
      Section     Requirement                                                                                                          Section
1     Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2: “TARP
      121(c)(A)   the categories of    2010.                                                                                           Overview”
                  troubled assets      Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                  purchased or                                                                                                         Appendix D:
                                       troubled assets under TARP since that date.
                  otherwise procured                                                                                                   “Transaction
                  by the Treasury      Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/           Detail”
                  Secretary.           financial-stability/Pages/default.aspx, as of 7/11/2013, or as otherwise noted:
                                       CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                       by providing capital to viable financial institutions of all sizes throughout the nation.
                                       Without a viable banking system, lending to businesses and consumers could have frozen
                                       and the financial crisis might have spiraled further out of control.
                                       AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the height
                                       of the financial crisis in September 2008, American International Group (AIG) was on
                                       the brink of failure. At the time, AIG was the largest provider of conventional insurance
                                       in the world. Millions depended on it for their life savings and it had a huge presence
                                       in many critical financial markets, including municipal bonds. AIG’s failure would have
                                       been devastating to global financial markets and the stability of the broader economy.
                                       Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly failure.
                                       AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                       whose failure would have caused serious harm to the financial system and the broader
                                       economy. It involved supporting the value of certain assets held by qualifying financial
                                       institutions by agreeing to absorb a portion of losses on those assets. AGP was
                                       conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                       conjunction with other forms of exceptional assistance. … Two institutions received
                                       assistance under the AGP - Bank of America and Citigroup.
                                       TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                       considered systemically significant, to prevent broader disruption of financial markets.
                                       Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                       Citigroup Inc. and Bank of America.
                                       TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                       Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                       restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                       and small businesses. … Under this program, the Federal Reserve Bank of New York
                                       made non-recourse loans to buyers of AAA-rated asset-backed securities to help stimulate
                                       consumer and business lending. Treasury used TARP funds to provide credit support for
                                       these loans.
                                       PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                       Investment Program (PPIP), which was designed to support market functioning and
                                       facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                       Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                       CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                       3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                       and the communities they serve cope with effects of the financial crisis. Under this
                                       program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                       institutions received investments totaling approximately $570 million.
352       APPENDIX C I REPORTING REQUIREMENTS I JANUARY 29, 2014




      #   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
          Section     Requirement                                                                                                           Section
                                              SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                              Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                              community banks and community development loan funds (CDLFs) in order to encourage
                                              small business lending. The purpose of the SBLF is to encourage Main Street banks and
                                              small businesses to work together, help create jobs, and promote economic growth in
                                              communities across the nation.
                                              SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                              SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                              this program, Treasury purchased securities backed by the government guaranteed
                                              portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                              order to increase overall small business lending.
                                              AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                              2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                              collapse of the U.S. auto industry.
                                              ASSP: The Automotive Supplier Support Program was created to ensure that auto
                                              suppliers received compensation for their services and products, regardless of the
                                              condition of the auto companies that purchase their products.a
                                              AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                              and Chrysler during their restructuring periods.a
                                              HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                              offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                              that are affordable and sustainable over the long-term. HAMP was designed to help
                                              families who are struggling to remain in their homes and show: documented financial
                                              hardship and an ability to make their monthly mortgage payments after a modification.
                                              HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                              while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                              pay-for-success incentives. This means that funds are spent only when transactions are
                                              completed and only as long as those contracts remain in place. Therefore, funds will be
                                              disbursed over many years.
      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                      purchased in each       Information on all transactions as well as additional information about these programs and
                                                                                                                                            Detail”
                      such category           related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                      described under         to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                      Section 121(c)(A).      default.aspx.
      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 2: “TARP
          121(c)(C)   of the reasons          2010.                                                                                         Overview”
                      the Treasury
                      Secretary deemed                                                                                                      Appendix C:
                      it necessary to                                                                                                       “Reporting
                      purchase each such                                                                                                    Requirements”
                      troubled asset.                                                                                                       of prior SIGTARP
                                                                                                                                            Quarterly Reports
                                                                                                                                            to Congress
      4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(D)   financial institution   2010.                                                                                         “Transaction
                      from which such                                                                                                       Detail”
                      troubled assets         Information on all transactions as well as additional information about these programs and
                      were purchased.         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                                              to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                              default.aspx.
                                                                                                                 REPORTING REQUIREMENTS I APPENDIX C I JANUARY 29, 2014                           353




#       EESA             EESA Reporting             Treasury Response to SIGTARP Data Call                                                                              SIGTARP Report
        Section          Requirement                                                                                                                                    Section
5       Section          A listing of               There have been no new PPIP fund managers hired between June 30, 2013 and                                           Section 2:
        121(c)(E)        and detailed               December 31, 2013.                                                                                                  “Public-Private
                         biographical                                                                                                                                   Investment
                         information on each                                                                                                                            Program”
                         person or entity
                         hired to manage                                                                                                                                Appendix C:
                         such troubled                                                                                                                                  “Reporting
                         assets.                                                                                                                                        Requirements”
                                                                                                                                                                        of prior SIGTARP
                                                                                                                                                                        Quarterly Reports
                                                                                                                                                                        to Congress
6       Section          A current estimate         Treasury published its most recent valuation of TARP investments on 1/10/2014, in its                               Table C.1;
        121(c)(F)        of the total amount        December 2013 Monthly Report to Congress, which will be available on Treasury’s public                              Section 2:
                         of troubled assets         website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                            “TARP Overview”
                         purchased pursuant         Pages/Monthly-Report-to-Congress.aspx.
                         to any program                                                                                                                                 Appendix D:
                         established under                                                                                                                              “Transaction
                         Section 101, the                                                                                                                               Detail”
                         amount of troubled
                         assets on the books
                         of Treasury, the
                         amount of troubled
                         assets sold, and
                         the profit and loss
                         incurred on each
                         sale or disposition
                         of each such
                         troubled assets.
7       Section          A listing of the           Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Section 2:
        121(c)(G)        insurance contracts        2010. As such, Treasury cannot issue any new insurance contracts after this date.                                   “TARP Overview”
                         issued under
                         Section 102.                                                                                                                                   Section 2:
                                                                                                                                                                        “Targeted
                                                                                                                                                                        Investment
                                                                                                                                                                        Program and
                                                                                                                                                                        Asset Guarantee
                                                                                                                                                                        Program”
8       Section          A detailed                 Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Table C.1;
        121(f)           statement of               2010.
                         all purchases,                                                                                                                                 Section 2:
                                                    Treasury provides information about TARP obligations, expenditures, and revenues in
                         obligations,                                                                                                                                   “TARP Overview”
                                                    TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                         expenditures,
                                                    initiatives/financial-stability/Pages/default.aspx.
                         and revenues                                                                                                                                   Section 4:
                         associated with            Information on obligations and expenditures is also available in the Daily TARP Update                              “TARP
                         any program                reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                          Operations and
                         established by the         stability/reports/Pages/Daily-TARP-Reports.aspx.                                                                    Administration”
                         Secretary of the
                         Treasury under                                                                                                                                 Appendix D:
                         Sections 101 and                                                                                                                               “Transaction
                         102.                                                                                                                                           Detail”
Notes:
a
  Description is as of 7/11/2013.

Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 1/2/2014; ASSP: “Treasury Announces Auto
Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 1/2/2014; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 1/2/2014; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 1/2/2014; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010, www.gpo.
gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 1/2/2014; MHA “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/
financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 1/2/2014.
354            APPENDIX C I REPORTING REQUIREMENTS I JANUARY 29, 2014




      TABLE C.1
       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                     ($ BILLIONS)
       (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                       Obligations
                                                                                                                       After Dodd-                    Current
                                                                                                                             Frank                 Obligations
                                                                                                                             (As of                     (As of                                         On Treasury’s
                                                                                        Total Funding                 10/3/2010)                 12/31/2013)                        Expended                 Booksa
       Housing Support Programs                                                                 $70.6b                           $45.6                       $38.5c                        $10.5                     $—d
                                                                                                204.9
       Capital Purchase Program (“CPP”)                                                                                          204.9                       204.9                         204.9                     6.8
                                                                                               (195.9)e
                                                                                                    0.6
       Community Development Capital Initiative (“CDCI”)                                                                             0.6                        0.6f                           0.2                   0.5
                                                                                                   (0.1)
                                                                                                  69.8
       Systemically Significant Failing Institutions (“SSFI”)                                                                      69.8                       67.8h                          67.8                   13.5
                                                                                                 (56.4)g
                                                                                                  40.0
       Targeted Investment Program (“TIP”)                                                                                         40.0                       40.0                           40.0                    0.0
                                                                                                 (40.0)
                                                                                                301.0
       Asset Guarantee Program (“AGP”)                                                                                               5.0                        5.0                            0.0                   0.0
                                                                                               (301.0)
                                                                                                  81.8n
       Automotive Industry Support Programs (“AIFP”)m                                                                              81.8                       79.7                           79.7                   23.1
                                                                                                 (58.7)
                                                                                                  71.1
       Term Asset-Backed Securities Loan Facility (“TALF”)                                                                           4.3                        0.1                            0.1                   0.0
                                                                                                   (0.1)i
                                                                                                  29.8
       Public-Private Investment Program (“PPIP”)                                                                                  22.4                       19.6                           18.6                    0.0k
                                                                                                 (18.6)j
                                                                                                    0.4l
       Unlocking Credit for Small Businesses (“UCSB”)                                                                                0.4                        0.4                            0.4                   0.0
                                                                                                   (0.4)
       Total                                                                                  $868.9                          $474.8                      $456.6                       $422.2o                   $43.9
       Notes: Numbers may not total due to rounding.
       a
             “On Treasury’s Books” includes amounts disbursed and still outstanding of $12.4 billion, plus write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or
              receiverships, totaling $31.5 billion. It does not include $10.5 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers
              expected.
       b
               Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
                estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
       c
              On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
       d
               Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
       e
              Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $365.7 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
               $2.2 billion refinanced from CPP into the Small Business Lending Fund.
       f
           CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
            was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
            Of the total obligation, only $106 million went to non-CPP institutions.
       g
                The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
                 received from the AIG credit facility trust in the January 2011 recapitalization.
       h
             Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
       i
         On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
          $0.1 billion.
       j
          On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
           $958 million is included in this repayment total.
       k
            PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
             billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
             $19.6 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn
             equity was not as of December 31, 2013, except for Invesco.
       l
           Treasury reduced commitment from $15 billion to an obligation of $400 million.
       m
                 Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
       n
             Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
       o
                The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

       Sources: Repayments data: Treasury, Transactions Report, 1/1/2014; Treasury, Daily TARP Update, 1/2/2014.
TRANSACTION DETAIL
TABLE D.1
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution         Description1    Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/23/2008                                                                                                                                     $0.00
           1st Constitution     Preferred                            Redeemed, in
10/27/2010 Bancorp,             Stock w/           $12,000,000.00     full; warrants            $12,000,000.00                                            12,000       $1,000.00                                                   $11.00                       $1,106,666.67
           Cranbury, NJ11       Warrants                            not outstanding
11/22/2011                                                                                                                                                                                                        $326,576.00
2/13/2009                                           $4,400,000.00                                                                              $0.00
           1st Enterprise     Preferred                              Redeemed, in
12/11/2009 Bank, Los Angeles, Stock w/              $6,000,000.00     full; warrants                                                                                                                                               $19.30                       $1,128,156.44
           CA8,14,18,44       Warrants                              not outstanding
9/1/2011                                                                                        $10,400,000.00                                            10,400       $1,000.00                                  $220,000.00
11/14/2008 1st FS                                                                                                                              $0.00
                                Preferred                               Sold, in full;
           Corporation,
                                Stock w/           $16,369,000.00      warrants not                                                                                                                                                $0.38                        $1,229,948.97
12/31/2013 Hendersonville,      Warrants                                outstanding              $8,000,000.00                                            16,369         $488.70     ($8,369,000.00)
           NC
1/23/2009                                                                                                                                      $0.00
           1st Source           Preferred                            Redeemed, in
12/29/2010 Corporation,         Stock w/          $111,000,000.00     full; warrants           $111,000,000.00                                           111,000       $1,000.00                                                   $31.94                      $10,730,000.00
           South Bend, IN11     Warrants                            not outstanding
3/9/2011                                                                                                                                                                                                         $3,750,000.00
3/13/2009 1st United            Preferred                                                                                                      $0.00
                                                                     Redeemed, in
           Bancorp, Inc.,       Stock w/
                                                   $10,000,000.00     full; warrants                                                                                                                                               $7.61                          $370,902.67
11/18/2009 Boca   Raton,        Exercised                                                       $10,000,000.00                                            10,000       $1,000.00                                  $500,000.00
                                                                    not outstanding
           FL8,11,14            Warrants
1/23/2009 AB&T Financial        Preferred                             Sold, in part;                                                     $536,000.00
           Corporation,         Stock w/            $3,500,000.00         warrants                                                                                                                                                 $0.54                          $360,694.44
11/19/2013 Gastonia, NC         Warrants                               outstanding                 $815,100.00                                             2,964         $275.00     ($2,148,900.00)

1/30/2009                     Preferred                                                                                                        $0.00
                                                                     Redeemed, in
          Adbanc, Inc,        Stock w/
                      8,14,44                      $12,720,000.00     full; warrants                                                                                                                                                                            $1,715,769.00
7/21/2011 Ogallala, NE        Exercised                                                         $12,720,000.00                                            12,720       $1,000.00                                  $636,000.00
                                                                    not outstanding
                              Warrants
1/23/2009                                                                                                                                      $0.00
                                Preferred
7/19/2013 Alarion Financial                                             Sold, in full;             $877,729.70                                               893         $982.90         ($15,270.30)
                                Stock w/
          Services, Inc.,                           $6,514,000.00      warrants not                                                                                                                                                                               $998,056.89
7/22/2013 Ocala, FL8,14         Exercised                                                        $5,524,880.90                                             5,621         $982.90         ($96,119.10)             $337,363.35
                                                                        outstanding
                                Warrants
9/12/2013                                                                                                            ($64,026.11)
2/6/2009                                                                                                                                       $0.00
11/28/2012                                                                                         $208,870.74                                               234         $892.60         ($25,129.26)
           Alaska Pacific    Preferred                                  Sold, in full;
11/29/2012 Bancshares, Inc., Stock w/               $4,781,000.00          warrants              $4,058,697.67                                             4,547         $892.60       ($488,302.33)                               $16.89                         $913,405.00
           Juneau, AK        Warrants                                   outstanding
1/11/2013                                                                                                            ($42,675.67)
3/26/2013                                                                                                             ($7,324.33)
6/26/2009                                                                                                                                      $0.00
                            Preferred
3/27/2013 Alliance                                                      Sold, in full;                                                                                                                             $94,153.69
                            Stock w/
          Bancshares, Inc.,                         $2,986,000.00      warrants not                                                                                                                                                                               $611,060.00
3/28/2013 Dalton, GA        Exercised                                                            $2,856,437.46                                             2,986         $956.60       ($129,562.54)               $44,746.31
                                                                        outstanding
                            Warrants
4/9/2013                                                                                                             ($25,000.00)
12/19/2008                                                                                                                                     $0.00
          Alliance Financial    Preferred                          Redeemed, in
5/13/2009 Corporation,          Stock w/           $26,918,000.00   full; warrants              $26,918,000.00                                            26,918       $1,000.00                                                   $25.90                         $538,360.25
          Syracuse, NY11        Warrants                          not outstanding
6/17/2009                                                                                                                                                                                                         $900,000.00
6/26/2009                                                                                                                                      $0.00
                                 Subordinated
2/6/2013     Alliance Financial                                         Sold, in full;           $3,375,945.00                                          4,500,000          $0.75     ($1,124,055.00)
                                 Debentures
             Services Inc.,                        $12,000,000.00      warrants not                                                                                                                                                                               $388,741.80
2/7/2013                         w/ Exercised                                                    $5,626,575.00                                          7,500,000          $0.75     ($1,873,425.00)              $504,900.00
             Saint Paul, MN14,15                                        outstanding
                                 Warrants
3/26/2013                                                                                                            ($90,025.20)
                                Preferred                           Full investment
          Allied First
                                Stock w/                              outstanding;
4/24/2009 Bancorp, Inc.,                            $3,652,000.00                                                                      $3,652,000.00                                                                               $0.40                          $409,753.25
                                Exercised                                  warrants
          Oswego, IL8
                                Warrants                                outstanding
3/27/2009                                                                                                                                      $0.00
                                                                                                   $280,115.76                                               344         $814.30         ($63,884.24)
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




9/18/2012 Alpine Banks          Preferred
                                                                        Sold, in full;
          of Colorado,          Stock w/
9/19/2012                                          $70,000,000.00      warrants not              $6,559,920.24                                             8,056         $814.30     ($1,496,079.76)                                                           $13,407,114.25
          Glenwood              Exercised
                     8,14                                               outstanding
9/20/2012 Springs, CO           Warrants                                                        $50,160,264.00                                            61,600         $814.30    ($11,439,736.00)             $3,291,750.00
11/16/2012                                                                                                          ($570,003.00)
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  355
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                     (CONTINUED)                                                                                                                                                                         356
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/30/2009                      Preferred                                                                                                     $0.00
          AMB Financial                                            Redeemed, in
                               Stock w/
          Corp., Munster,                         $3,674,000.00     full; warrants                                                                                                                                                  $7.30                          $529,576.45
9/22/2011 IN8,14,45            Exercised                                                       $3,674,000.00                                              3,674       $1,000.00                                    $184,000.00
                                                                  not outstanding
                               Warrants
3/6/2009  AmeriBank            Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Holding Company,     Stock w/
                                                  $2,492,000.00     full; warrants                                                                                                                                                                                 $343,021.33
9/15/2011 Collinsville,        Exercised                                                       $2,492,000.00                                              2,492       $1,000.00                                    $125,000.00
                                                                  not outstanding
          OK8,14,44            Warrants
1/9/2009                                                                                                                                     $0.00
          American Express Preferred                               Redeemed, in
6/17/2009 Company, New     Stock w/           $3,388,890,000.00     full; warrants         $3,388,890,000.00                                           3,388,890      $1,000.00                                                     $90.50                      $74,367,308.33
          York, NY11       Warrants                               not outstanding
7/29/2009                                                                                                                                                                                                       $340,000,000.00
5/29/2009                   Preferred                                                                                                        $0.00
          American Premier                                         Redeemed, in
                            Stock w/
          Bancorp, Arcadia,                       $1,800,000.00     full; warrants                                                                                                                                                                                 $162,682.49
1/26/2011 CA8,11,14         Exercised                                                          $1,800,000.00                                              1,800       $1,000.00                                     $90,000.00
                                                                  not outstanding
                            Warrants
1/9/2009  American State       Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Bancshares,          Stock w/
                                                  $6,000,000.00     full; warrants                                                                                                                                                                                 $920,141.67
11/2/2011 Inc., Great Bend,    Exercised                                                       $6,000,000.00                                              6,000       $1,000.00                                    $300,000.00
                                                                  not outstanding
          KS8,11,14            Warrants
11/21/2008                                                                                                                                   $0.00
                               Preferred                              Sold, in full;
             Ameris Bancorp,
6/19/2012                      Stock w/          $52,000,000.00      warrants not             $48,391,200.00      ($725,868.00)                          52,000         $930.60      ($3,608,800.00)                                $21.11                       $9,302,107.00
             Moultrie, GA
                               Warrants                               outstanding
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




8/22/2012                                                                                                                                                                                                         $2,670,000.00
12/19/2008                                                                                                                                   $0.00
          AmeriServ            Preferred                           Redeemed, in
8/11/2011 Financial, Inc,      Stock w/          $21,000,000.00     full; warrants            $21,000,000.00                                             21,000       $1,000.00                                                     $3.03                        $2,776,666.66
          Johnstown, PA45      Warrants                           not outstanding
11/2/2011                                                                                                                                                                                                          $825,000.00
8/21/2009                                                                                                                                    $0.00
3/26/2013                      Subordinated                                                      $359,040.00                                            374,000           $0.96         ($14,960.00)
          AmFirst Financial                                           Sold, in full;
                               Debentures
3/27/2013 Services, Inc.,                         $5,000,000.00      warrants not              $2,112,000.00                                           2,200,000          $0.96         ($88,000.00)                                                             $1,511,380.00
                               w/ Exercised
          McCook, NE14,15                                             outstanding
3/28/2013                      Warrants                                                        $2,328,960.00                                           2,426,000          $0.96         ($97,040.00)               $259,875.00
4/9/2013                                                                                                           ($48,000.00)
1/30/2009 Anchor BanCorp       Preferred                              Sold, in full;                                                         $0.00
          Wisconsin Inc.,      Stock w/         $110,000,000.00      warrants not                                                                                                                                                   $18.29
9/27/2013 Madison, WI94        Warrants                               outstanding              $6,000,000.00                                          60,000,000          $0.10    ($104,000,000.00)

1/30/2009                                                                                                                                    $0.00
          Annapolis          Preferred                             Redeemed, in
4/18/2012 Bancorp, Inc.      Stock w/             $8,152,000.00     full; warrants             $4,076,000.00                                               4,076      $1,000.00                                                     $12.62
          Annapolis, MD11,90 Warrants                                outstanding
3/6/2013                                                                                       $4,076,000.00                                               4,076      $1,000.00
11/21/2008                                                                                                                                   $0.00
4/6/2011  Associated       Preferred                               Redeemed, in              $262,500,000.00                                            262,500       $1,000.00
          Banc-Corp, Green Stock w/             $525,000,000.00     full; warrants                                                                                                                                                  $17.40                     $68,104,166.67
9/14/2011 Bay, WI11        Warrants                               not outstanding            $262,500,000.00                                            262,500       $1,000.00
12/6/2011                                                                                                                                                                                                         $3,435,005.65
                             Preferred                          Full investment
           Atlantic
                             Stock w/                             outstanding;
12/29/2009 Bancshares, Inc.,                      $2,000,000.00                                                                      $2,000,000.00                                                                                  $2.30                          $122,724.78
                             Exercised                                 warrants
           Bluffton, SC8,17
                             Warrants                               outstanding
2/27/2009                      Preferred                                                                                                     $0.00
          Avenue Financial                                         Redeemed, in
                               Stock w/
          Holdings, Inc.,                         $7,400,000.00     full; warrants                                                                                                                                                                               $1,028,415.33
9/15/2011 Nashville, TN8,14,44 Exercised                          not outstanding              $7,400,000.00                                               7,400      $1,000.00                                    $370,000.00
                               Warrants
1/30/2009 Avidbank                                                                                                                           $0.00
                               Preferred                           Redeemed, in
          Holdings, Inc./
7/31/2013                      Stock w/           $6,000,000.00     full; warrants             $6,000,000.00                                               6,000      $1,000.00                                                                                  $1,372,276.00
          Peninsula Bank
                      11       Warrants                           not outstanding
8/28/2013 Holding Co.                                                                                                                                                                                              $190,781.12
3/13/2009                  Preferred                                                                                                         $0.00
          BancIndependent,                                         Redeemed, in
                           Stock w/
          Inc., Sheffield,                       $21,100,000.00     full; warrants                                                                                                                                                                               $2,686,411.03
7/14/2011 AL8,44           Exercised                                                          $21,100,000.00                                             21,100       $1,000.00                                   $1,055,000.00
                                                                  not outstanding
                           Warrants
7/10/2009                    Preferred                                                                                                       $0.00
          Bancorp Financial,                                       Redeemed, in
                             Stock w/
          Inc., Oak Brook,                       $13,669,000.00     full; warrants                                                                                                                                                                               $1,516,736.93
8/18/2011 IL8,17,44          Exercised                                                        $13,669,000.00                                             13,669       $1,000.00                                    $410,000.00
                                                                  not outstanding
                             Warrants
                                                                                                                                                                                                                                                          Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)
                                                                                                                                                         Number     Average Price                                                  Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding    Dividend/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants      Paid to Treasury
12/19/2008                                                                                                                                     $0.00
             Bancorp Rhode       Preferred                            Redeemed, in
8/5/2009     Island, Inc.,       Stock w/          $30,000,000.00      full; warrants            $30,000,000.00                                           30,000       $1,000.00                                                                                    $941,666.66
             Providence, RI11    Warrants                            not outstanding
9/30/2009                                                                                                                                                                                                          $1,400,000.00
2/20/2009                      Preferred                                                                                                       $0.00
          BancPlus                                                    Redeemed, in
                               Stock w/
          Corporation,                             $48,000,000.00      full; warrants                                                                                                                                                                              $4,207,399.33
9/29/2010 Ridgeland, MS8,11,14 Exercised                             not outstanding             $48,000,000.00                                           48,000       $1,000.00                                   $2,400,000.00
                               Warrants
4/3/2009                                                                                                                                       $0.00
                                 Preferred
4/26/2013 BancStar, Inc.,                                                Sold, in full;               $98,267.00                                             100         $982.70          ($1,733.00)
                                 Stock w/
                     8,14                            $8,600,000.00      warrants not                                                                                                                                                                               $1,908,670.00
4/29/2013 Festus, MO             Exercised                                                        $8,352,695.00                                            8,500         $982.70       ($147,305.00)                $426,338.55
                                                                         outstanding
                                 Warrants
5/31/2013                                                                                                            ($84,509.62)
12/19/2008 BancTrust             Preferred                            Redeemed, in                                                             $0.00
           Financial Group,      Stock w/          $50,000,000.00      full; warrants                                                                                                                                                $26.84         730,994      $10,436,156.00
2/15/2013 Inc., Mobile, AL83     Warrants                            not outstanding             $50,000,000.00                                           50,000       $1,000.00                                     $15,000.00

8/14/2009                                                                                                                                      $0.00
12/19/2012 Bank Financial         Preferred                                                         $451,600.92                                              486         $929.20         ($34,399.08)
                                                                         Sold, in full;
           Services, Inc.,       Stock w/
12/20/2012                                           $1,004,000.00      warrants not                $481,335.96                                              518         $929.20         ($36,664.04)                $23,500.00                                     $183,244.00
           Eden Prairie,         Exercised
                                                                         outstanding
1/11/2013 MN8,14                 Warrants                                                                             ($9,329.37)
3/26/2013                                                                                                            ($15,670.63)
10/28/2008                                      $15,000,000,000.00                                                                             $0.00
1/9/2009  Bank of America Preferred             $10,000,000,000.00    Redeemed, in
          Corporation,        Stock w/                                 full; warrants                                                                                                                                                $15.57                    $1,293,750,000.00
12/9/2009 Charlotte, NC6,7,11 Warrants                               not outstanding         $25,000,000,000.00                                         1,000,000     $25,000.00
3/9/2010                                                                                                                                                                                                         $305,913,040.28
1/16/2009                        Preferred                                                                                                     $0.00
           Bank of                                                       Sold, in full;
                                 Stock w/
11/30/2012 Commerce,                                 $3,000,000.00      warrants not              $2,502,000.00                                            3,000         $834.00       ($498,000.00)                $100,100.00                                     $510,473.00
                                 Exercised
           Charlotte, NC8,14                                             outstanding
1/11/2013                        Warrants                                                                            ($25,000.00)
11/14/2008 Bank of                                                                                                                             $0.00
                                 Preferred                            Redeemed, in
           Commerce
9/27/2011                        Stock w/          $17,000,000.00      full; warrants            $17,000,000.00                                           17,000       $1,000.00                                                     $3.80                         $2,439,027.78
           Holdings,
                      44         Warrants                            not outstanding
10/26/2011 Redding, CA                                                                                                                                                                                              $125,000.00
3/13/2009                        Preferred                                                                                                     $0.00
                                                                         Sold, in full;
           Bank of George,       Stock w/
                        8                            $2,672,000.00      warrants not                                                                                                                                                                                $279,991.00
10/21/2013 Las Vegas, NV         Exercised                                                          $955,240.00                                            2,672         $357.50     ($1,716,760.00)                 $48,709.00
                                                                         outstanding
                                 Warrants
12/5/2008                                                                                                                                      $0.00
           Bank of Marin   Preferred                                  Redeemed, in
3/31/2009 Bancorp, Novato, Stock w/                $28,000,000.00      full; warrants            $28,000,000.00                                           28,000       $1,000.00                                                     $43.39                         $451,111.11
           CA11            Warrants                                  not outstanding
11/23/2011                                                                                                                                                                                                         $1,703,984.00
10/28/2008                                                                                                                                     $0.00
          Bank of New York Preferred                                  Redeemed, in
6/17/2009 Mellon, New York, Stock w/             $3,000,000,000.00     full; warrants         $3,000,000,000.00                                         3,000,000      $1,000.00                                                                                 $95,416,667.00
          NY11              Warrants                                 not outstanding
8/5/2009                                                                                                                                                                                                         $136,000,000.00
             Bank of the                                             Full investment
                                 Preferred
             Carolinas                                                 outstanding;
4/17/2009                        Stock w/          $13,179,000.00                                                                     $13,179,000.00                                                                                 $0.75          475,204        $1,039,677.00
             Corporation,                                                   warrants
                                 Warrants
             Mocksville, NC                                              outstanding
12/12/2008                                                                                                                                     $0.00
           Bank of the         Preferred                              Redeemed, in
11/4/2009 Ozarks, Inc., Little Stock w/            $75,000,000.00      full; warrants            $75,000,000.00                                           75,000       $1,000.00                                                     $56.59                        $3,354,166.67
           Rock, AR11          Warrants                              not outstanding
11/24/2009                                                                                                                                                                                                         $2,650,000.00
                            Preferred                                Full investment
          Bankers’ Bank of
                            Stock w/                                   outstanding;
1/30/2009 the West Bancorp,                        $12,639,000.00                                                                     $12,639,000.00                                                                                                               $3,425,858.00
                            Exercised                                       warrants
          Inc., Denver, CO8
                            Warrants                                     outstanding
1/23/2009                        Preferred                                                                                                     $0.00
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




             BankFirst Capital                                        Redeemed, in
                                 Stock w/
             Corporation,                          $15,500,000.00      full; warrants                                                                                                                                                                              $2,217,469.25
9/8/2011                         Exercised                                                       $15,500,000.00                                           15,500       $1,000.00                                    $775,000.00
             Macon, MS8,14,44                                        not outstanding
                                 Warrants
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    357
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                         358
                                                                                                                                                           Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                        Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/13/2009                                                                                                                                        $0.00
                                 Preferred
11/9/2012 BankGreenville,                                               Sold, in full;             $900,000.00                                               1,000         $900.00       ($100,000.00)                $21,880.50
                                 Stock w/
                        8,14                        $1,000,000.00      warrants not                                                                                                                                                                                  $203,773.00
1/11/2013 Greenville, SC         Exercised                                                                              ($9,000.00)
                                                                        outstanding
                                 Warrants
3/26/2013                                                                                                              ($16,000.00)
11/21/2008                                                                                                                                       $0.00
             Banner             Preferred                               Sold, in full;
4/3/2012     Corporation, Walla Stock w/          $124,000,000.00      warrants not            $109,717,680.00      ($1,645,765.20)                        124,000         $884.80    ($14,282,320.00)                                $44.82                      $20,873,746.67
             Walla, WA          Warrants                                outstanding
6/12/2013                                                                                                                                                                                                            $134,201.00
2/6/2009  Banner County          Preferred                                                                                                       $0.00
                                                                     Redeemed, in
          Ban Corporation,       Stock w/
                                                      $795,000.00     full; warrants                                                                                                                                                                                 $107,411.42
7/28/2011 Harrisburg,            Exercised                                                         $795,000.00                                                 795       $1,000.00                                    $40,000.00
                                                                    not outstanding
          NE8,14,44              Warrants
1/16/2009                                                                                                                                        $0.00
          Bar Harbor             Preferred                           Redeemed, in
2/24/2010 Bankshares, Bar        Stock w/          $18,751,000.00     full; warrants            $18,751,000.00                                              18,751       $1,000.00                                                    $39.99                       $1,036,514.11
          Harbor, ME12,16        Warrants                           not outstanding
7/28/2010                                                                                                                                                                                                            $250,000.00
11/14/2008                                                                                                                                       $0.00
           BB&T Corp.,           Preferred                           Redeemed, in
6/17/2009 Winston-Salem,         Stock w/       $3,133,640,000.00     full; warrants         $3,133,640,000.00                                               3,134    $1,000,000.00                                                   $37.32                      $92,703,516.67
           NC11                  Warrants                           not outstanding
7/22/2009                                                                                                                                                                                                          $67,010,401.86
                                 Preferred                          Full investment
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




             BCB Holding
                                 Stock w/                             outstanding;
4/3/2009     Company, Inc.,                         $1,706,000.00                                                                        $1,706,000.00                                                                                                               $173,507.50
                                 Exercised                                 warrants
             Theodore, AL8
                                 Warrants                               outstanding
12/23/2008                                                                                                                                       $0.00
          BCSB Bancorp,          Preferred                           Redeemed, in
1/26/2011 Inc., Baltimore,       Stock w/          $10,800,000.00     full; warrants            $10,800,000.00                                              10,800       $1,000.00                                                    $26.08                       $1,129,500.00
          MD11                   Warrants                           not outstanding
4/19/2013                                                                                                                                                                                                           $1,442,000.00
1/30/2009                                                                                                                                        $0.00
7/6/2011                                                                                         $1,500,000.00                                               1,500       $1,000.00
                                 Preferred
10/19/2011 Beach Business                                          Redeemed, in                  $1,500,000.00                                               1,500       $1,000.00
                                 Stock w/
           Bank, Manhattan                          $6,000,000.00   full; warrants                                                                                                                                                    $9.18                          $963,317.00
3/7/2012 Beach, CA8,11,14        Exercised                                                       $1,500,000.00                                               1,500       $1,000.00
                                                                  not outstanding
                                 Warrants
6/6/2012                                                                                         $1,200,000.00                                               1,200       $1,000.00
6/27/2012                                                                                          $300,000.00                                                 300       $1,000.00                                   $300,000.00
6/12/2009 Berkshire                                                                                                                              $0.00
           Bancorp, Inc./        Preferred
9/19/2011 Customers                                                  Redeemed, in                          $0.00                                             2,892       $1,000.00
                                 Stock w/
                                                    $2,892,000.00     full; warrants                                                                                                                                                                                 $407,478.00
           Bancorp, Inc.,        Exercised
                                                                    not outstanding
12/28/2011 Phoneixville,         Warrants                                                        $2,892,000.00                                               2,892       $1,000.00                                   $145,000.00
           PA8,11,14
12/19/2008                                                                                                                                       $0.00
           Berkshire Hills       Preferred                           Redeemed, in
5/27/2009 Bancorp, Inc.,         Stock w/          $40,000,000.00     full; warrants            $40,000,000.00                                              40,000       $1,000.00                                                    $27.27                         $877,777.78
           Pittsfield, MA11      Warrants                           not outstanding
6/24/2009                                                                                                                                                                                                           $1,040,000.00
2/13/2009                     Preferred                                                                                                          $0.00
             Bern Bancshares,                                        Redeemed, in
                              Stock w/
             Inc., Bern,                              $985,000.00     full; warrants                                                                                                                                                  $7.27                          $137,062.50
9/1/2011        8,14,44       Exercised                                                            $985,000.00                                                 985       $1,000.00                                    $50,000.00
             KS                                                     not outstanding
                              Warrants
4/24/2009 Birmingham                                $1,635,000.00                                                                                $0.00
                                 Preferred
           Bloomfield                                                Redeemed, in
12/18/2009 Bancshares, Inc,      Stock w/           $1,744,000.00     full; warrants                                                                                                                                                  $5.13                          $342,022.67
                                 Exercised
           Birmingham,                                              not outstanding
7/28/2011 MI8,14,18,44           Warrants                                                        $3,379,000.00                                               3,379       $1,000.00                                    $82,000.00

                                                                        Sold, in full;
6/19/2009                                                              warrants not                                                              $0.00
             Biscayne            Subordinated                           outstanding
             Bancshares, Inc.,   Debentures
2/7/2013                                            $6,400,000.00                                $2,532,140.00                                            2,600,000          $0.97         ($67,860.00)               $64,158.97                                   $1,896,838.00
             Coconut Grove,      w/ Exercised
2/8/2013     FL15,17             Warrants                                                        $3,700,820.00                                            3,800,000          $0.97         ($99,180.00)              $140,347.75
3/26/2013                                                                                                              ($62,329.60)
                                                                                                                                                                                                                                                            Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)
                                                                                                                                                          Number     Average Price                                                      Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
3/13/2009                                                                                                                                       $0.00
                                  Preferred
10/29/2012 Blackhawk                                                     Sold, in full;             $186,550.00                                               205         $910.00         ($18,450.00)
                                  Stock w/
           Bancorp, Inc.,                           $10,000,000.00      warrants not                                                                                                                                                      $10.95                       $1,980,211.25
10/31/2012 Beloit, WI8,14         Exercised                                                       $8,913,450.00                                             9,795         $910.00       ($881,550.00)                    $470,250.00
                                                                         outstanding
                                  Warrants
1/11/2013                                                                                                             ($91,000.00)
5/22/2009                          Preferred                                                                                                    $0.00
          Blackridge                                                Redeemed, in
                                  Stock w/
6/27/2012 Financial, Inc.,                           $5,000,000.00   full; warrants               $2,250,000.00                                             2,250       $1,000.00                                                                                        $877,326.00
                                  Exercised
          Fargo, ND8,14                                            not outstanding
9/12/2012                         Warrants                                                        $2,750,000.00                                             2,750       $1,000.00                                        $250,000.00
3/6/2009                                                                                                                                        $0.00
           Blue Ridge        Preferred
10/29/2012 Bancshares, Inc., Stock w/                                    Sold, in full;               $19,630.00                                               26         $755.00          ($6,370.00)
                                                    $12,000,000.00      warrants not                                                                                                                                                                                   $2,427,244.00
10/31/2012 Independence,     Exercised                                                            $9,040,370.00                                            11,974         $755.00     ($2,933,630.00)                    $541,793.34
                                                                         outstanding
           MO8,14            Warrants
1/11/2013                                                                                                             ($90,600.00)
3/6/2009 Blue River               Preferred                                                                                                     $0.00
          Bancshares,             Stock w/                             Currently not
                                                     $5,000,000.00                                                                                                                                                                        $0.01                          $529,105.00
2/10/2012 Inc., Shelbyville,      Exercised                              collectible                                                                                                  ($5,000,000.00)
          IN8,64,97               Warrants
12/5/2008                                                                                                                                       $0.00
           Blue Valley Ban        Preferred                              Sold, in full;
10/18/2013 Corp, Overland         Stock w/          $21,750,000.00          warrants              $3,177,232.50                                             3,250         $977.60         ($72,767.50)                                    $6.00          111,083         $211,458.33
           Park, KS               Warrants                               outstanding
10/21/2013                                                                                       $18,085,785.00                                            18,500         $977.60       ($414,215.00)
4/17/2009 BNB Financial           Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Services                Stock w/
                                                     $7,500,000.00     full; warrants                                                                                                                                                                                  $1,901,052.00
8/30/2013 Corporation, New        Exercised                                                       $7,500,000.00                                             7,500       $1,000.00                                        $375,000.00
                                                                     not outstanding
          York, NY8               Warrants
12/5/2008                                                                                                                                       $0.00
                                  Preferred                              Sold, in full;
              BNC Bancorp,
8/29/2012                         Stock w/          $31,260,000.00      warrants not             $28,797,649.80      ($431,964.75)                         31,260         $921.20     ($2,462,350.20)                                     $17.14                       $5,835,061.00
              Thomasville, NC
                                  Warrants                               outstanding
9/19/2012                                                                                                                                                                                                                $939,920.00
2/27/2009                         Preferred                                                                                                     $0.00
              BNC Financial                                           Redeemed, in
                                  Stock w/
              Group, Inc., New                       $4,797,000.00     full; warrants                                                                                                                                                                                    $636,920.75
8/4/2011                          Exercised                                                       $4,797,000.00                                             4,797       $1,000.00                                        $240,000.00
              Canaan, CT8,14,44                                      not outstanding
                                  Warrants
                                  Preferred                          Full investment
              BNCCORP, Inc.,      Stock w/                             outstanding;
1/16/2009                                           $20,093,000.00                                                                     $20,093,000.00                                                                                     $12.20                       $5,589,559.00
              Bismarck, ND8       Exercised                                 warrants
                                  Warrants                               outstanding
3/6/2009                          Preferred                                                                                                     $0.00
          BOH Holdings,                                               Redeemed, in
                                  Stock w/
          Inc., Houston,                            $10,000,000.00     full; warrants                                                                                                                                                                                  $1,283,777.44
7/14/2011 TX8,14,44               Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                        $500,000.00
                                                                     not outstanding
                                  Warrants
5/15/2009                                                                                                                                       $0.00
                                  Subordinated
3/8/2013  Boscobel                                                       Sold, in full;                                                                                                                                  $232,180.54
                                  Debentures
          Bancorp, Inc,                              $5,586,000.00      warrants not                                                                                                                                                                                     $468,624.00
3/11/2013 Boscobel, WI14,15       w/ Exercised                                                    $5,586,000.00                                          5,586,000          $1.11                         $592,730.46    $129,709.80
                                                                         outstanding
                                  Warrants
4/9/2013                                                                                                              ($61,787.30)
11/21/2008                                                                                                                                      $0.00
          Boston Private
1/13/2010 Financial               Preferred                         Redeemed, in                 $50,000,000.00                                            50,000       $1,000.00
                                  Stock w/         $154,000,000.00   full; warrants                                                                                                                                                       $12.62                      $11,022,222.23
6/16/2010 Holdings, Inc.,         Warrants                         not outstanding              $104,000,000.00                                           104,000       $1,000.00
          Boston, MA11
2/7/2011                                                                                                                                                                                                                $6,202,523.25
12/23/2008                                                                                                                                      $0.00
2/23/2011 Bridge Capital          Preferred                           Redeemed, in               $15,000,000.00                                            15,000       $1,000.00
          Holdings, San           Stock w/          $23,864,000.00     full; warrants                                                                                                                                                     $20.54                       $2,613,582.22
3/16/2011 Jose, CA11              Warrants                           not outstanding              $8,864,000.00                                             8,864       $1,000.00
4/20/2011                                                                                                                                                                                                               $1,395,000.00
12/19/2008                        Preferred                                                                                                     $0.00
           Bridgeview                                                    Sold, in full;
                                  Stock w/
           Bancorp, Inc.,                           $38,000,000.00      warrants not                                                                                                                                                                                   $2,393,155.56
11/19/2013 Bridgeview, IL8        Exercised                                                      $10,450,000.00                                            38,000         $275.00    ($27,550,000.00)                    $716,319.00
                                                                         outstanding
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                  Warrants
11/14/2008 Broadway                                  $9,000,000.00                                                                     $15,000,000.00
                                                                   Full investment
           Financial              Preferred
                                                                     outstanding;
           Corporation,           Stock w/                                                                                                                                                                                                $0.93                          $810,416.67
12/4/2009 Los Angeles,                               $6,000,000.00   warrants not
                                  Warrants
                                                                       outstanding
           CA9,10,18,65,96,99
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         359
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                         (CONTINUED)                                                                                                                                                                             360
                                                                                                                                                          Number     Average Price                                                        Stock Price       Current
Transaction                        Investment                            Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution            Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)         Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
5/15/2009                                                                                                                                       $0.00
                            Subordinated
4/26/2013 Brogan                                                          Sold, in full;               $60,000.00                                          60,000           $1.05                           $3,000.60
                            Debentures
          Bankshares, Inc.,                           $2,400,000.00      warrants not                                                                                                                                                                                      $402,720.00
4/29/2013 Kaukauna, WI14,15 w/ Exercised                                  outstanding              $2,340,000.00                                         2,340,000          $1.05                         $117,023.40      $125,135.60
                            Warrants
5/31/2013                                                                                                             ($25,000.00)
7/17/2009 Brotherhood         referred                                                                                                          $0.00
                                                                     Redeemed, in
          Bancshares,        Stock w/
                                                     $11,000,000.00   full; warrants                                                                                                                                                                                     $1,295,586.01
9/15/2011 Inc., Kansas City, Exercised                                                            $11,000,000.00                                           11,000       $1,000.00                                          $550,000.00
                                                                    not outstanding
          KS8,14,44          Warrants
4/24/2009                                                                                                                                       $0.00
                            Preferred
5/23/2012 Business                                                   Redeemed, in                  $6,000,000.00                                            6,000       $1,000.00
                            Stock w/
          Bancshares, Inc.,                          $15,000,000.00   full; warrants                                                                                                                                                                                     $2,957,709.00
1/9/2013 Clayton, MO8,11,14 Exercised                               not outstanding                $2,500,000.00                                            2,500       $1,000.00
                            Warrants
4/24/2013                                                                                          $6,500,000.00                                            6,500       $1,000.00                                          $750,000.00
3/13/2009                     Preferred                                                                                                         $0.00
                                                                     Redeemed, in
          Butler Point, Inc., Stock w/
                    8,11,14                             $607,000.00   full; warrants                                                                                                                                                                                        $87,123.53
11/2/2011 Catlin, IL          Exercised                                                              $607,000.00                                              607       $1,000.00                                            $30,000.00
                                                                    not outstanding
                              Warrants
1/9/2009                                                                                                                                        $0.00
          C&F Financial     Preferred                                  Redeemed, in
7/27/2011 Corporation, West Stock w/                 $20,000,000.00     full; warrants            $10,000,000.00                                           10,000       $1,000.00                                                           $45.67         167,504       $2,902,778.00
          Point, VA11       Warrants                                     outstanding
4/11/2012                                                                                         $10,000,000.00                                           10,000       $1,000.00
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




12/23/2008                         Preferred          $4,767,000.00                                                                             $0.00
           Cache Valley                                                Redeemed, in
                                   Stock w/
12/18/2009 Banking Company                            $4,640,000.00     full; warrants                                                                                                                                                                                   $1,029,333.80
                                   Exercised
           , Logan, UT8,14,18,44                                      not outstanding
7/14/2011                          Warrants                                                        $9,407,000.00                                            9,407       $1,000.00                                          $238,000.00
1/9/2009     Cadence Financial Preferred                                  Sold, in full;                                                        $0.00
             Corporation,      Stock w/              $44,000,000.00      warrants not                                                                                                                                                                                    $3,984,062.50
3/4/2011     Starkville, MS    Warrants                                   outstanding             $38,000,000.00                                           44,000         $863.60     ($6,000,000.00)

2/27/2009                      Preferred                                                                                                        $0.00
          California Bank                                              Redeemed, in
                               Stock w/
          of Commerce,                                $4,000,000.00     full; warrants                                                                                                                                                                                     $555,899.67
9/15/2011 Lafayette, CA8,14,44 Exercised                              not outstanding              $4,000,000.00                                            4,000       $1,000.00                                          $200,000.00
                               Warrants
1/23/2009 California Oaks          Preferred                                                                                                    $0.00
                                                                       Redeemed, in
          State Bank,              Stock w/
                                                      $3,300,000.00     full; warrants                                                                                                                                                                                     $337,219.25
12/8/2010 Thousand   Oaks,         Exercised                                                       $3,300,000.00                                            3,300       $1,000.00                                          $165,000.00
                                                                      not outstanding
          CA8,11,14                Warrants
                                    Preferred                         Full investment
          Calvert Financial
                                   Stock w/                             outstanding;
1/23/2009 Corporation,                                $1,037,000.00                                                                     $1,037,000.00                                                                                                                      $215,443.00
                                   Exercised                                 warrants
          Ashland, MO8
                                   Warrants                               outstanding
                           Preferred                                  Full investment
          CalWest Bancorp,
                           Stock w/                                     outstanding;
1/23/2009 Rancho Santa                                $4,656,000.00                                                                     $4,656,000.00                                                                                       $1.70                          $396,163.67
                           Exercised                                         warrants
          Margarita, CA8
                           Warrants                                       outstanding
12/23/2008                         Preferred                                                                                                    $0.00
           Capital Bancorp,                                            Redeemed, in
                                   Stock w/
           Inc., Rockville,                           $4,700,000.00     full; warrants                                                                                                                                                                                     $517,281.19
12/30/2010 MD8,11,14               Exercised                                                       $4,700,000.00                                            4,700       $1,000.00                                          $235,000.00
                                                                      not outstanding
                                   Warrants
12/12/2008 Capital Bank            Preferred                           Redeemed, in                                                             $0.00
           Corporation,            Stock w/          $41,279,000.00     full; warrants                                                                                                                                                      $21.75         749,619       $3,973,104.25
1/28/2011 Raleigh, NC39            Warrants                           not outstanding             $41,279,000.00                                           41,279       $1,000.00

                           Preferred                                  Full investment
          Capital Commerce
                           Stock w/                                     outstanding;
4/10/2009 Bancorp, Inc.,                              $5,100,000.00                                                                     $5,100,000.00                                                                                                                      $304,973.00
                           Exercised                                         warrants
          Milwaukee, WI8
                           Warrants                                       outstanding
11/14/2008 Capital One                                                                                                                          $0.00
                                   Preferred                           Redeemed, in
           Financial
6/17/2009                          Stock w/       $3,555,199,000.00     full; warrants         $3,555,199,000.00                                         3,555,199      $1,000.00                                                           $76.61                    $105,174,637.58
           Corporation,
                       11          Warrants                           not outstanding
12/9/2009 McLean, VA                                                                                                                                                                                                    $146,500,064.55
12/23/2008                                                                                                                                      $0.00
                                   Preferred
11/8/2012 Capital Pacific                                                 Sold, in full;             $247,727.04                                              264         $938.40         ($16,272.96)
                                   Stock w/
          Bancorp,                                    $4,000,000.00      warrants not                                                                                                                                                                                      $845,369.00
11/9/2012 Portland, OR8,14         Exercised                                                       $3,505,712.96                                            3,736         $938.40       ($230,287.04)                      $169,042.00
                                                                          outstanding
                                   Warrants
1/11/2013                                                                                                             ($25,000.00)
                                                                                                                                                                                                                                                                  Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                           (CONTINUED)
                                                                                                                                                             Number     Average Price                                                 Stock Price       Current
Transaction                          Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution              Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
10/23/2009 Cardinal                  Subordinated                                                                                                  $0.00
                                                                         Redeemed, in
           Bancorp II, Inc.,         Debentures
                                                        $6,251,000.00     full; warrants                                                                                                                                                                               $983,479.56
9/8/2011   Washington,               w/ Exercised                                                    $6,251,000.00                                          6,251,000          $1.00                                   $313,000.00
                                                                        not outstanding
           MO15,14,45                Warrants
1/9/2009                                                                                                                                           $0.00
2/20/2013                                                                                           $14,525,843.40                                            15,534         $935.10     ($1,008,156.60)
          Carolina Bank              Preferred                              Sold, in full;
2/21/2013 Holdings, Inc.,            Stock w/          $16,000,000.00      warrants not                $435,756.60                                               466         $935.10         ($30,243.40)                               $10.12                       $3,329,805.00
          Greensboro, NC             Warrants                               outstanding
3/26/2013                                                                                                               ($149,616.00)
4/19/2013                                                                                                                                                                                                             $1,800,000.00
2/6/2009                                                                                                                                           $0.00
11/30/2012                                                                                           $3,412,000.00                                             4,000         $853.00       ($588,000.00)
          Carolina Trust    Preferred                                       Sold, in full;
1/11/2013 Bank, Lincolnton, Stock w/                    $4,000,000.00      warrants not                                  ($34,120.00)                                                                                                   $3.31                          $613,320.00
          NC                Warrants                                        outstanding
3/26/2013                                                                                                                ($15,880.00)
6/11/2013                                                                                                                                                                                                               $19,132.00
2/13/2009 Carrollton                 Preferred                         Redeemed, in                                                                $0.00
          Bancorp,                   Stock w/           $9,201,000.00   full; warrants                                                                                                                                                  $4.92                        $1,974,364.00
4/19/2013 Baltimore, M11             Warrants                         not outstanding                $9,201,000.00                                             9,201       $1,000.00                                   $213,594.16

1/16/2009 Carver Bancorp,                                                Redeemed, in                                                              $0.00
                                     Preferred
          Inc, New York,                               $18,980,000.00     full; warrants                                                                                                                                                $6.99                        $1,531,580.55
8/27/2010 NY9,11,36                  Stock                                                          $18,980,000.00                                            18,980       $1,000.00
                                                                        not outstanding
11/21/2008 Cascade Financial Preferred                                      Sold, in full;                                                         $0.00
           Corporation,      Stock w/                  $38,970,000.00      warrants not                                                                                                                                                                              $1,428,900.00
6/30/2011 Everett, WA        Warrants                                       outstanding             $16,250,000.00                                            38,970         $417.00    ($22,720,000.00)

12/5/2008                                                                                                                                          $0.00
3/20/2013 Cathay General             Preferred                           Redeemed, in              $129,000,000.00                                           129,000       $1,000.00
          Bancorp, Los               Stock w/         $258,000,000.00     full; warrants                                                                                                                                                $26.73                      $58,766,667.00
9/30/2013 Angeles, CA11              Warrants                           not outstanding            $129,000,000.00                                           129,000       $1,000.00
12/9/2013                                                                                                                                                                                                            $13,107,778.30
2/27/2009                     Preferred                 $3,000,000.00                                                                              $0.00
           Catskill Hudson                                             Redeemed, in
                              Stock w/
12/22/2009 Bancorp, Inc, Rock                           $3,500,000.00   full; warrants                                                                                                                                                  $18.15                         $685,071.47
                              Exercised
           Hill, NY8,14,18,44                                         not outstanding
7/21/2011                     Warrants                                                               $6,500,000.00                                             6,500       $1,000.00                                   $263,000.00
5/29/2009                      Preferred                                                                                                           $0.00
             CB Holding Corp., Stock w/                                   Currently not
                     8,57,97                            $4,114,000.00                                                                                                                                                                                                  $271,579.53
10/14/2011 Aledo, IL           Exercised                                    collectible                                                                                                  ($4,114,000.00)
                               Warrants
2/20/2009                                               $2,644,000.00                                                                              $0.00
12/29/2009                                              $1,753,000.00
                                     Preferred
11/28/2012 CBB Bancorp,                                                     Sold, in full;           $1,268,825.60                                             1,360         $932.05         ($91,174.40)
                                     Stock w/
                              8,18                                         warrants not                                                                                                                                                                                $799,528.00
11/29/2012 Cartersville, GA          Exercised                                                       $2,831,259.86                                             3,037         $932.05       ($205,740.14)               $115,861.34
                                                                            outstanding
                                     Warrants
1/11/2013                                                                                                                ($32,969.92)
3/26/2013                                                                                                                   ($363.42)
3/27/2009                                                                                                                                          $0.00
8/7/2012                             Preferred                                                                                                                                                                         $287,213.85
                                                                            Sold, in full;
             CBS Banc-Corp.,         Stock w/
8/9/2012                                               $24,300,000.00      warrants not                $923,304.00                                             1,020         $905.20         ($96,696.00)              $689,313.24                     523,076       $4,548,137.00
             Russellville, AL8,14    Exercised
                                                                            outstanding
8/10/2012                            Warrants                                                       $21,073,056.00                                            23,280         $905.20     ($2,206,944.00)               $131,297.76
9/11/2012                                                                                                               ($219,963.60)
                                                                      Full investment
                                     Preferred
             Cecil Bancorp,                                             outstanding;
12/23/2008                           Stock w/          $11,560,000.00                                                                     $11,560,000.00                                                                                $0.39          261,538         $516,988.89
             Inc., Elkton, MD                                                warrants
                                     Warrants
                                                                          outstanding
2/6/2009                    Preferred                                                                                                              $0.00
                                                                         Redeemed, in
           CedarStone Bank, Stock w/
                      8                                 $3,564,000.00     full; warrants                                                                                                                                                $18.76                         $930,099.00
11/20/2013 Lebanon, TN      Exercised                                                                $3,564,000.00                                             3,564       $1,000.00                                   $178,000.00
                                                                        not outstanding
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                            Warrants
1/9/2009                                                                                                                                           $0.00
                                     Preferred                           Redeemed, in
             Center Bancorp,
9/15/2011                            Stock w/          $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                                                 $1,341,667.00
             Inc., Union, NJ44
                                     Warrants                           not outstanding
12/7/2011                                                                                                                                                                                                              $245,000.00
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       361
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                     (CONTINUED)                                                                                                                                                                      362
                                                                                                                                                       Number     Average Price                                                Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/12/2008 Center Financial                                                                                                                  $0.00
                               Preferred                           Redeemed, in
           Corporation/
                               Stock w/          $55,000,000.00     full; warrants                                                                                                                                               $16.59         341,504      $23,237,328.00
6/27/2012 BBCN     Bancorp,                                                                   $55,000,000.00                                            55,000       $1,000.00
                               Warrants                              outstanding
           Inc.11,59
5/1/2009                                                                                                                                     $0.00
10/29/2012                     Preferred                                                           $24,750.00                                               30         $825.00          ($5,250.00)
                                                                      Sold, in full;
             CenterBank,       Stock w/
11/1/2012                                         $2,250,000.00      warrants not              $1,831,500.00                                             2,220         $825.00       ($388,500.00)               $84,057.43                                     $429,355.00
             Milford, OH8,14   Exercised
                                                                      outstanding
1/11/2013                      Warrants                                                                            ($18,562.50)
3/26/2013                                                                                                           ($6,437.50)
11/21/2008 Centerstate                                                                                                                       $0.00
                               Preferred                           Redeemed, in
           Banks of Florida
9/30/2009                      Stock w/          $27,875,000.00     full; warrants            $27,875,000.00                                            27,875       $1,000.00                                                                                $1,196,302.58
           Inc., Davenport,
              12,16            Warrants                           not outstanding
10/28/2009 FL                                                                                                                                                                                                   $212,000.00
1/16/2009 Centra Financial     Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Holdings, Inc.,      Stock w/
3/31/2009                                        $15,000,000.00     full; warrants            $15,000,000.00                                            15,000       $1,000.00                                                   $10.15                         $172,937.50
          Morgantown,          Exercised
             8,11,14                                              not outstanding
4/15/2009 WV                   Warrants                                                                                                                                                                         $750,000.00
12/5/2008                                                                                                                                    $0.00
           Central Bancorp,    Preferred                           Redeemed, in
8/25/2011 Inc., Somerville,    Stock w/          $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                   $0.00                        $1,361,111.11
           MA45                Warrants                           not outstanding
10/19/2011                                                                                                                                                                                                     $2,525,000.00
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                Preferred                         Full investment
             Central Bancorp, Stock w/                              outstanding;
2/27/2009                                        $22,500,000.00                                                                     $22,500,000.00                                                                                                            $2,411,625.00
             Inc., Garland, TX8 Exercised                                warrants
                                Warrants                              outstanding
1/30/2009                       Preferred                                                                                                    $0.00
             Central                                               Redeemed, in
                                Stock w/
             Bancshares, Inc.,                    $5,800,000.00     full; warrants                                                                                                                                                                              $769,176.83
7/6/2011                8,11,14 Exercised                                                      $5,800,000.00                                             5,800       $1,000.00                                  $290,000.00
             Houston, TX                                          not outstanding
                                Warrants
2/20/2009                                                                                                                                    $0.00
           Central             Preferred
12/10/2012 Community                                                  Sold, in full;           $5,333,059.60                                             5,758         $926.20       ($424,940.40)
                               Stock w/
                                                 $22,000,000.00      warrants not                                                                                                                                                                             $4,566,167.00
12/11/2012 Corporation,        Exercised                                                      $15,043,340.40                                            16,242         $926.20     ($1,198,659.60)             $1,058,725.80
                                                                      outstanding
           Temple, TX8,14      Warrants
1/11/2013                                                                                                         ($203,764.00)
12/5/2008 Central Federal      Preferred                              Sold, in full;                                                         $0.00
          Corporation,         Stock w/           $7,225,000.00      warrants not                                                                                                                                                                               $612,118.06
9/26/2012 Fairlawn, OH         Warrants                               outstanding              $3,000,000.00                                             7,225         $415.20     ($4,225,000.00)

12/23/2008                                                                                                                                   $0.00
           Central Jersey      Preferred                           Redeemed, in
11/24/2010 Bancorp,            Stock w/          $11,300,000.00     full; warrants            $11,300,000.00                                            11,300       $1,000.00                                                   $1.33                        $1,084,486.11
           Oakhurst, NJ11      Warrants                           not outstanding
12/1/2010                                                                                                                                                                                                       $319,658.99
1/9/2009                                                                                                                                     $0.00
6/22/2011 Central Pacific      Preferred                              Sold, in full;          $36,337,500.00      ($454,218.75)                       2,850,000         $12.75    ($32,121,928.87)
          Financial Corp.,     Stock w/         $135,000,000.00      warrants not                                                                                                                                                $20.08                       $2,362,500.00
4/4/2012 Honolulu, HI40        Warrants                               outstanding             $36,427,038.55      ($387,816.38)                       2,770,117         $13.15    ($30,113,532.58)
6/11/2013                                                                                                                                                                                                       $751,888.00
1/30/2009 Central Valley                                                                                                                     $0.00
                           Preferred                             Redeemed, in
          Community
8/18/2011                  Stock w/               $7,000,000.00   full; warrants               $7,000,000.00                                             7,000       $1,000.00                                                   $11.25                         $892,499.67
          Bancorp, Fresno,
            45             Warrants                             not outstanding
9/28/2011 CA                                                                                                                                                                                                    $185,016.80
1/30/2009 Central Virginia  Preferred                                 Sold, in full;                                                         $0.00
          Bankshares, Inc., Stock w/             $11,385,000.00      warrants not                                                                                                                                                $0.31                          $450,656.00
10/1/2013 Powhatan, VA93    Warrants                                  outstanding              $3,350,000.00                                            11,385         $294.20     ($8,035,000.00)

12/18/2009                      Preferred                                                                                                    $0.00
          Centric Financial                                        Redeemed, in
                                Stock w/
          Corporation,                            $6,056,000.00     full; warrants                                                                                                                                                                              $501,821.89
7/14/2011 Harrisburg, PA8,17,44 Exercised                         not outstanding              $6,056,000.00                                             6,056       $1,000.00                                  $182,000.00
                                Warrants
2/6/2009                       Preferred                                                                                                     $0.00
          Centrix Bank &                                           Redeemed, in
                               Stock w/
          Trust, Bedford,                         $7,500,000.00     full; warrants                                                                                                                                               $24.50                       $1,012,791.42
7/28/2011 NH8,14,44            Exercised                                                       $7,500,000.00                                             7,500       $1,000.00                                  $375,000.00
                                                                  not outstanding
                               Warrants
                                                                                                                                                                                                                                                       Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                             Number     Average Price                                                               Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                      Remaining Capital       of Shares       of Shares     (Realized Loss) /                                            as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount         Disposed        Disposed             (Write-off)               Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/9/2009                                                                                                                               $1,402,000.00
9/25/2013 Centrue Financial Preferred                                 Sold, in part;             $8,211,450.00                                                25,266         $325.00      ($17,054,550.00)
           Corporation, St. Stock w/              $32,668,000.00          warrants                                                                                                                                                                                   508,320         $571,690.00
10/18/2013 Louis, MO        Warrants                                   outstanding               $1,950,000.00                                                 6,000         $325.00        ($4,050,000.00)
10/29/2013                                                                                                           ($82,114.50)
6/19/2009                                                                                                                                      $0.00
           Century Financial    Subordinated
12/19/2012 Services                                                     Sold, in full;               $39,400.00                                               40,000           $0.99              ($600.00)                          $198,635.58
                                Debentures
                                                  $10,000,000.00       warrants not                                                                                                                                                                                                $2,938,871.00
                                w/ Exercised                                                     $9,810,600.00                                             9,960,000           $0.99         ($149,400.00)                           $297,953.37
12/20/2012 Corporation, 14,15                                           outstanding
           Santa Fe, NM         Warrants
1/11/2013                                                                                                            ($98,500.00)
                            Subordinated                         Full investment
          Chambers
                            Debentures                             outstanding;
5/29/2009 Bancshares, Inc.,                       $19,817,000.00                                                                      $19,817,000.00                                                                                                                               $5,754,675.00
                            w/ Exercised                                warrants
          Danville, AR15
                            Warrants                                 outstanding
                                Preferred                           Full investment
          Chicago Shore
                                Stock w/                              outstanding;
7/31/2009 Corporation ,                             $7,000,000.00                                                                      $7,000,000.00                                                                                                                               $1,637,271.00
                                Exercised                                  warrants
          Chicago, IL8
                                Warrants                                outstanding
12/31/2008                      Preferred                                    Exited                                                            $0.00
             CIT Group Inc.,
                          23    Stock w/        $2,330,000,000.00      bankruptcy/                                                                                                                                                                    $52.13                      $43,687,500.25
12/10/2009 New York, NY         Warrants                               receivership                                                                                                     ($2,330,000,000.00)

10/28/2008                                                                                                                                     $0.00
                               Preferred                             Redeemed, in
             Citigroup Inc.,
12/10/2010                     Stock w/        $25,000,000,000.00     full; warrants        $25,000,000,000.00                                          7,692,307,692          $4.14                           $6,852,354,470.93                      $52.11                    $932,291,667.00
             New York, NY19,30
                               Warrants                             not outstanding
1/31/2011                                                                                                                                                                                                                          $54,621,848.84
1/16/2009 Citizens &                                                                                                                           $0.00
                                Preferred                            Redeemed, in
          Northern
8/4/2010                        Stock w/          $26,440,000.00      full; warrants            $26,440,000.00                                                26,440       $1,000.00                                                                  $20.63                       $2,049,100.00
          Corporation,
                       11       Warrants                            not outstanding
9/1/2010 Wellsboro, PA                                                                                                                                                                                                               $400,000.00
12/23/2008                  Preferred                                                                                                          $0.00
          Citizens Bancorp,
                            Stock w/                                  Currently not
          Nevada City,                            $10,400,000.00                                                                                                                                                                                      $0.01                          $223,571.00
9/23/2011 CA8,55,97         Exercised                                   collectible                                                                                                       ($10,400,000.00)
                            Warrants
5/29/2009                                                                                                                                      $0.00
                                 Preferred
2/7/2013     Citizens                                                   Sold, in full;           $6,657,375.00                                                12,990         $512.50        ($6,332,625.00)                          $258,018.75
                                 Stock w/
             Bancshares Co.,                      $24,990,000.00       warrants not                                                                                                                                                                                                  $628,033.33
2/8/2013                    8,14 Exercised                                                       $6,150,000.00                                                12,000         $512.50        ($5,850,000.00)                          $387,028.12
             Chillicothe, MO                                            outstanding
                                 Warrants
3/26/2013                                                                                                           ($128,073.75)
3/6/2009  Citizens                                                                                                                             $0.00
                                                                   Redeemed, in
          Bancshares            Preferred
                                                    $7,462,000.00   full; warrants                                                                                                                                                                    $6.15                          $535,813.00
8/13/2010 Corporation,          Stock                                                            $7,462,000.00                                                 7,462       $1,000.00
                                                                  not outstanding
          Atlanta, GA9,11,36
                                Preferred                           Full investment
          Citizens Bank &
                                Stock w/                              outstanding;
3/20/2009 Trust Company,                            $2,400,000.00                                                                      $2,400,000.00                                                                                                                                 $445,083.00
                                Exercised                                  warrants
          Covington, LA8
                                Warrants                                outstanding
             Citizens           Preferred                           Full investment
             Commerce          Stock w/                               outstanding;
2/6/2009                                            $6,300,000.00                                                                      $6,300,000.00                                                                                                                                 $180,258.50
             Bancshares, Inc., Exercised                                   warrants
             Versailles, KY8   Warrants                                 outstanding
12/23/2008                      Preferred                                                                                                      $0.00
          Citizens                                                   Redeemed, in
                                Stock w/
          Community Bank,                           $3,000,000.00     full; warrants                                                                                                                                                                                                 $424,645.84
7/28/2011 South Hill, VA8,14,44 Exercised                           not outstanding              $3,000,000.00                                                 3,000       $1,000.00                                                 $150,000.00
                                Warrants
12/19/2008 Citizens First                                                                                                              $3,265,788.00
                                Preferred                            Redeemed, in
           Corporation,
2/16/2011                       Stock w/            $8,779,000.00    part; warrants              $2,212,308.00                                                    63      $35,116.00                                                                  $9.86          254,218       $1,724,708.00
           Bowling Green,
              11                Warrants                               outstanding
2/13/2013 KY                                                                                     $3,300,904.00                                                    94      $35,116.00
12/12/2008 Citizens Republic Preferred                               Redeemed, in                                                              $0.00
           Bancorp, Inc.     Stock w/            $300,000,000.00      full; warrants
4/12/2013 Flint, Michigan86 Warrants                                   outstanding             $300,000,000.00                                               300,000       $1,000.00
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




12/12/2008 Citizens South                                                                                                                      $0.00
                                Preferred                            Redeemed, in
           Banking
9/22/2011                       Stock w/          $20,500,000.00      full; warrants            $20,500,000.00                                                20,500       $1,000.00                                                                  $0.00                        $2,847,222.22
           Corporation,
                        45      Warrants                            not outstanding
11/9/2011 Gastonia, NC                                                                                                                                                                                                               $225,157.00
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     363
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                        364
                                                                                                                                                         Number     Average Price                                                  Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
             City National                                          Full investment
             Bancshares          Preferred                            outstanding;
4/10/2009                                           $9,439,000.00                                                                      $9,439,000.00                                                                                                                $281,859.00
             Corporation,        Stock                                warrants not
             Newark, NJ8,9                                              outstanding
11/21/2008                                                                                                                                     $0.00
12/30/2009 City National     Preferred                             Redeemed, in                $200,000,000.00                                           200,000       $1,000.00
           Corporation,      Stock w/             $400,000,000.00   full; warrants                                                                                                                                                   $79.22                      $23,916,666.67
3/3/2010 Beverly Hills, CA11 Warrants                             not outstanding              $200,000,000.00                                           200,000       $1,000.00
4/7/2010                                                                                                                                                                                                          $18,500,000.00
3/27/2009                                                                                                                                      $0.00
                             Preferred
11/28/2012 Clover Community Stock w/                                    Sold, in full;             $955,825.50                                             1,095         $872.90       ($139,174.50)
           Bankshares, Inc.,                        $3,000,000.00      warrants not                                                                                                                                                                                 $610,864.00
11/29/2012 Clover, SC8,14    Exercised                                                           $1,662,874.50                                             1,905         $872.90       ($242,125.50)                $114,021.50
                                                                        outstanding
                             Warrants
1/11/2013                                                                                                            ($25,000.00)
12/5/2008                                                                                                                                      $0.00
3/8/2013                                                                                         $3,772,645.00                                             3,950         $955.10       ($177,355.00)
          Coastal Banking
3/11/2013 Company, Inc.,         Preferred                              Sold, in full;           $5,730,600.00                                             6,000         $955.10       ($269,400.00)
                                 Stock w/           $9,950,000.00      warrants not                                                                                                                                                  $7.75                        $1,434,038.00
4/9/2013 Fernandina82            Warrants                               outstanding                                  ($95,032.45)
          Beach, FL
4/10/2013                                                                                                                                                                                                             $99,000.00
6/12/2013                                                                                                                                                                                                           $225,647.45
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




8/28/2009                                                                                                                                      $0.00
          CoastalSouth           Preferred
3/8/2013                                                                Sold, in full;             $397,550.00                                               500         $795.10       ($102,450.00)                $389,857.05
          Bancshares,            Stock w/
                                                   $16,015,000.00      warrants not                                                                                                                                                                               $1,235,448.96
                        Head     Exercised                                                      $12,335,976.50                                            15,515         $795.10     ($3,179,023.50)                  $25,990.47
3/11/2013 Inc., Hilton8,17                                              outstanding
          Island, SC             Warrants
4/9/2013                                                                                                            ($127,335.27)
12/19/2008                                                                                                                                     $0.00
                                Preferred                            Redeemed, in
             CoBiz Financial
9/8/2011                        Stock w/           $64,450,000.00     full; warrants            $64,450,000.00                                            64,450       $1,000.00                                                     $11.96                       $8,763,409.72
             Inc., Denver, CO45
                                Warrants                            not outstanding
11/23/2011                                                                                                                                                                                                          $143,677.00
1/9/2009                                                                                                                                       $0.00
          Codorus Valley         Preferred                           Redeemed, in
8/18/2011 Bancorp, Inc.,         Stock w/          $16,500,000.00     full; warrants            $16,500,000.00                                            16,500       $1,000.00                                                     $19.53                       $2,151,875.00
          York, PA44             Warrants                           not outstanding
9/28/2011                                                                                                                                                                                                           $526,604.00
2/13/2009                                                                                                                                      $0.00
                            Preferred
7/19/2013 ColoEast                                                      Sold, in full;               $46,995.00                                               52         $903.80          ($5,005.00)
                            Stock w/
          Bankshares, Inc.,                        $10,000,000.00      warrants not                                                                                                                                                                               $1,229,277.78
7/22/2013 Lamar, CO8,14     Exercised                                                            $8,990,505.00                                             9,948         $903.80       ($957,495.00)                $494,381.25
                                                                        outstanding
                            Warrants
9/12/2013                                                                                                            ($90,375.00)
3/27/2009 Colonial American      Preferred                                                                                                     $0.00
                                                                   Redeemed, in
           Bank, West            Stock w/
                                                      $574,000.00   full; warrants                                                                                                                                                                                   $65,142.53
10/26/2011 Conshohocken,         Exercised                                                         $574,000.00                                               574       $1,000.00                                      $29,000.00
                                                                  not outstanding
           PA8,11,14             Warrants
1/9/2009                                                                                                                                       $0.00
2/7/2013                                                                                        $21,633,944.71                                            27,661         $782.10     ($6,027,055.29)
                                  Preferred                             Sold, in full;
             Colony Bankcorp,
2/8/2013                          Stock w/         $28,000,000.00      warrants not                $265,135.29                                               339         $782.10         ($73,864.71)                                $6.10                        $3,990,000.00
             Inc., Fitzgerald, GA
                                  Warrants                              outstanding
3/26/2013                                                                                                           ($218,990.80)
6/12/2013                                                                                                                                                                                                           $810,000.00
11/21/2008                                                                                                                                     $0.00
          Columbia Banking Preferred                                 Redeemed, in
8/11/2010 System, Inc.,    Stock w/                $76,898,000.00     full; warrants            $76,898,000.00                                            76,898       $1,000.00                                                     $27.49                       $6,621,772.22
          Tacoma, WA11,16 Warrants                                  not outstanding
9/1/2010                                                                                                                                                                                                           $3,301,647.00
2/27/2009                   Preferred                                                                                                          $0.00
          Columbine Capital                                          Redeemed, in
                            Stock w/
          Corp., Buena                              $2,260,000.00     full; warrants                                                                                                                                                                                $316,478.64
9/22/2011 Vista, CO8,14,44  Exercised                                                            $2,260,000.00                                             2,260       $1,000.00                                    $113,000.00
                                                                    not outstanding
                            Warrants
11/14/2008                                                                                                                                     $0.00
                                 Preferred                           Redeemed, in
             Comerica Inc.,
3/17/2010                        Stock w/       $2,250,000,000.00     full; warrants         $2,250,000,000.00                                          2,250,000      $1,000.00                                                     $47.54                    $150,937,500.00
             Dallas, TX11
                                 Warrants                           not outstanding
5/12/2010                                                                                                                                                                                                        $181,102,043.40
                                                                                                                                                                                                                                                           Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)
                                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/9/2009  Commerce                                                                                                                              $0.00
                                  Preferred                           Redeemed, in
          National Bank,
10/7/2009                         Stock w/           $5,000,000.00     full; warrants             $5,000,000.00                                              5,000       $1,000.00                                                   $14.85                          $36,111.11
          Newport Beach,
            11                    Warrants                           not outstanding
10/1/2013 CA                                                                                                                                                                                                        $566,858.50
5/22/2009                                                                                                                                       $0.00
8/7/2012                                                                                            $130,500.00                                            174,000           $0.75         ($43,500.00)
                                 Subordinated
8/8/2012     Commonwealth                                                Sold, in full;           $1,469,250.00                                           1,959,000          $0.75       ($489,750.00)
                                 Debentures
             Bancshares, Inc.,                      $20,400,000.00      warrants not                                                                                                                                                                              $5,529,295.00
8/9/2012                   14,15 w/ Exercised                                                    $13,100,250.00                                          17,467,000          $0.75     ($4,366,750.00)              $792,990.00
             Louisville, KY                                              outstanding
                                 Warrants
8/10/2012                                                                                           $600,000.00                                            800,000           $0.75       ($200,000.00)              $105,732.00
9/11/2012                                                                                                            ($153,000.00)
1/23/2009                         Preferred                                                                                                     $0.00
          Commonwealth                                                   Sold, in full;
                                  Stock w/
7/17/2013 Business Bank,                             $7,701,000.00      warrants not              $7,323,651.00                                              7,701         $951.00       ($377,349.00)              $362,427.91      $21.40                         $838,268.00
                                  Exercised
          Los Angeles, CA8,14                                            outstanding
9/12/2013                         Warrants                                                                            ($73,236.51)
1/16/2009                         Preferred                                                                                                     $0.00
           Community 1st                                              Redeemed, in
                                  Stock w/
           Bank, Roseville,                          $2,550,000.00     full; warrants                                                                                                                                                                               $221,660.00
12/19/2012 CA8,11,14              Exercised                                                       $2,550,000.00                                              2,550       $1,000.00                                  $128,000.00
                                                                     not outstanding
                                  Warrants
3/6/2009  Community               Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancshares of           Stock w/
                                                       $500,000.00     full; warrants                                                                                                                                                                                $91,742.00
7/18/2012 Kansas,   Inc., Goff,   Exercised                                                         $500,000.00                                                500       $1,000.00                                   $25,000.00
                                                                     not outstanding
          KS8,11,14               Warrants
9/11/2009 Community               Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancshares of           Stock w/
                                                    $52,000,000.00     full; warrants                                                                                                                                                                             $3,193,250.00
9/29/2010 Mississippi, Inc.,      Exercised                                                      $52,000,000.00                                             52,000       $1,000.00                                 $2,600,000.00
                                                                     not outstanding
          Brandon, MS11,8,14      Warrants
                            Preferred                                Full investment
          Community
                            Stock w/                                   outstanding;
7/24/2009 Bancshares, Inc.,                          $3,872,000.00                                                                      $3,872,000.00                                                                                                               $879,139.00
                     8,17   Exercised                                       warrants
          Kingman, AZ
                            Warrants                                     outstanding
1/16/2009 Community                                                   Redeemed, in                                                              $0.00
                             Preferred
          Bank of the Bay,                           $1,747,000.00     full; warrants                                                                                                                                                                                $76,188.61
9/29/2010 Oakland, CA9,11,36 Stock                                   not outstanding              $1,747,000.00                                              1,747       $1,000.00

5/29/2009 Community Bank                                                                                                                        $0.00
                              Preferred                               Redeemed, in
           Shares of Indiana,
9/15/2011                     Stock w/              $19,468,000.00     full; warrants            $19,468,000.00                                             19,468       $1,000.00                                                   $19.42                       $2,233,412.12
           Inc., New Albany,
             44               Warrants                               not outstanding
10/19/2011 IN                                                                                                                                                                                                      $1,100,869.50
12/19/2008 Community                                                                                                                   $10,680,000.00
                             Preferred                                Redeemed, in
           Bankers Trust
7/24/2013                    Stock w/               $17,680,000.00    part; warrants              $4,500,000.00                                              4,500       $1,000.00                                                   $3.76          780,000       $4,429,052.00
           Corporation, Glen
                    11,101   Warrants                                   outstanding
11/20/2013 Allen, VA                                                                              $2,500,000.00                                               2,500      $1,000.00
2/27/2009 Community               Preferred                                                                                                     $0.00
                                                                         Sold, in full;
          Business Bank,          Stock w/
11/30/2012                                           $3,976,000.00      warrants not              $3,717,560.00                                              3,976         $935.00       ($258,440.00)              $167,035.00      $8.90                          $814,455.00
          West Sacramento,        Exercised
            8,14                                                         outstanding
1/11/2013 CA                      Warrants                                                                            ($25,000.00)
12/19/2008 Community                                                                                                                            $0.00
                                  Preferred                           Redeemed, in
           Financial
                                  Stock w/          $12,643,000.00     full; warrants                                                                                                                                                $6.25          351,194       $2,563,720.00
1/9/2013 Corporation, 81          Warrants                              outstanding              $12,643,000.00                                             12,643       $1,000.00
           Staunton, VA
5/15/2009 Community               Preferred                                                                                                     $0.00
                                                                         Sold, in full;
          Financial Shares,       Stock w/
                                                     $6,970,000.00      warrants not                                                                                                                                                 $0.91                          $947,194.00
12/21/2012 Inc.,  Glen Ellyn,     Exercised                                                       $3,136,500.00                                              6,970         $450.00     ($3,833,500.00)              $157,050.00
                                                                         outstanding
           IL74,8,14              Warrants
                               Preferred                             Full investment
             Community First
                               Stock w/                                outstanding;
4/3/2009     Bancshares, Inc.,                      $12,725,000.00                                                                     $12,725,000.00                                                                                                             $3,201,612.00
                               Exercised                                    warrants
             Harrison, AR8
                               Warrants                                  outstanding
3/20/2009 Community First         Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancshares              Stock w/
                                                    $20,000,000.00     full; warrants                                                                                                                                                                             $2,628,111.33
8/18/2011 Inc., Union City,       Exercised                                                      $20,000,000.00                                             20,000       $1,000.00                                 $1,000,000.00
                                                                     not outstanding
          TN8,14,44               Warrants
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                  Preferred                          Full investment
          Community First
                                  Stock w/                             outstanding;
2/27/2009 Inc., Columbia,                           $17,806,000.00                                                                     $17,806,000.00                                                                                                             $1,908,453.00
                                  Exercised                                 warrants
          TN8
                                  Warrants                               outstanding
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    365
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                            366
                                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/6/2009 Community                                                                                                                             $0.00
           Holding Company
11/30/2012 of Florida, Inc./  Preferred                                                          $1,002,750.00                                               105       $9,550.00         ($47,250.00)                    $25,000.00
                                                                        Sold, in full;
                              Stock w/
1/11/2013 Community                                 $1,050,000.00      warrants not                                  ($10,027.50)
                              Exercised
           Bancshares of                                                outstanding
                              Warrants
           Mississippi, Inc.,
3/26/2013                                                                                                            ($14,972.50)
           Brandon, MS8,67
12/23/2008                                                                                                                                     $0.00
12/19/2012 Community             Preferred                                                         $952,850.00                                             1,003         $950.00         ($50,150.00)
                                                                        Sold, in full;
           Investors             Stock w/
12/20/2012                                          $2,600,000.00      warrants not              $1,517,150.00                                             1,597         $950.00         ($79,850.00)                   $105,000.00                                     $565,616.00
           Bancorp, Inc.,        Exercised
                       8,14                                             outstanding
1/11/2013 Bucyrus, OH            Warrants                                                                            ($24,700.00)
3/26/2013                                                                                                               ($300.00)
1/30/2009                                                                                                                                      $0.00
           Community        Preferred                              Redeemed, in
8/11/2011 Partners Bancorp, Stock w/                $9,000,000.00   full; warrants               $9,000,000.00                                             9,000       $1,000.00                                                         $7.21                        $1,138,750.00
           Middletown, NJ44 Warrants                              not outstanding
10/26/2011                                                                                                                                                                                                              $460,000.00
11/13/2009 Community Pride       Subordinated                                                                                                  $0.00
                                                                        Sold, in full;
           Bank Corporation,     Debentures
8/12/2013                                           $4,400,000.00      warrants not              $4,400,000.00                                          4,400,000          $1.11                         $484,924.00    $177,716.96                                     $448,253.42
           Ham Lake,             w/ Exercised
              15,17                                                     outstanding
9/12/2013 MN                     Warrants                                                                            ($48,849.24)
1/9/2009     Community           Preferred                                                                                                     $0.00
                                                                     Redeemed, in
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




             Trust Financial     Stock w/
                                                   $24,000,000.00     full; warrants                                                                                                                                                                                  $3,259,100.00
7/6/2011     Corporation,        Exercised                                                      $24,000,000.00                                            24,000       $1,000.00                                       $1,200,000.00
                                                                    not outstanding
             Ruston, LA8,14,44   Warrants
12/19/2008                                                                                                                                     $0.00
12/10/2012                                                                                       $2,172,000.00                                             3,000         $724.00       ($828,000.00)
           Community West        Preferred                              Sold, in full;
12/11/2012 Bancshares,           Stock w/          $15,600,000.00      warrants not              $9,122,400.00                                            12,600         $724.00     ($3,477,600.00)                                     $6.56                        $2,461,333.33
           Goleta, CA            Warrants                               outstanding
1/11/2013                                                                                                           ($112,944.00)
6/12/2013                                                                                                                                                                                                               $698,351.00
          CommunityOne                                            Full investment
                                 Preferred
          Bancorp/FNB                                               outstanding;
2/13/2009                        Stock w/          $51,500,000.00                                                                     $51,500,000.00                                                                                                     22,071       $2,589,305.00
          United Corp.,                                                  warrants
                                 Warrants
          Asheboro, NC53                                              outstanding
1/9/2009                                                                                                                                       $0.00
                             Preferred
10/29/2012 Congaree                                                     Sold, in full;               $23,932.54                                               29         $825.30          ($5,067.46)
                             Stock w/
           Bancshares, Inc.,                        $3,285,000.00      warrants not                                                                                                                                                      $3.85                          $691,286.00
10/31/2012 Cayce, SC8,14     Exercised                                                           $2,687,046.56                                             3,256         $825.30       ($568,953.44)                    $106,364.00
                                                                        outstanding
                             Warrants
1/11/2013                                                                                                            ($25,000.00)
2/13/2009                                                                                                                                      $0.00
           Corning Savings       Preferred
11/30/2012 and Loan                                                     Sold, in full;             $548,680.00                                               638         $860.00         ($89,320.00)                     $3,960.00
                                 Stock w/
                                                      $638,000.00      warrants not                                                                                                                                                                                     $132,065.00
                                 Exercised                                                                            ($5,486.80)
1/11/2013 Association,8,14                                              outstanding
          Corning, AR            Warrants
3/26/2013                                                                                                            ($19,513.20)
1/30/2009                                                                                                                                      $0.00
                                 Preferred
11/28/2012 Country Bank                                                 Sold, in full;             $713,208.30                                               777         $917.90         ($63,791.70)
                                 Stock w/
           Shares, Inc.,                            $7,525,000.00      warrants not                                                                                                                                                                                   $1,570,840.00
11/29/2012 Milford, NE8,14       Exercised                                                       $6,193,989.20                                             6,748         $917.90       ($554,010.80)                    $372,240.00
                                                                        outstanding
                                 Warrants
1/11/2013                                                                                                            ($69,071.98)
             Covenant            Preferred                          Full investment
             Financial           Stock w/                             outstanding;
6/5/2009                                            $5,000,000.00                                                                      $5,000,000.00                                                                                                                  $1,219,739.00
             Corporation,        Exercised                                 warrants
             Clarksdale, MS8     Warrants                               outstanding
                             Preferred                              Full investment
          Crazy Woman
                             Stock w/                                 outstanding;
2/20/2009 Creek Bancorp,                            $3,100,000.00                                                                      $3,100,000.00                                                                                     $10.70                         $800,166.00
                           8 Exercised                                     warrants
          Inc., Buffalo, WY
                             Warrants                                   outstanding
             Crescent Financial
                                                                    Full investment
             Bancshares, Inc. Preferred
                                                                      outstanding;
1/9/2009     (Crescent Financial Stock w/          $24,900,000.00                                                                     $24,900,000.00                                                                                     $14.43         514,693      $10,432,774.00
                                                                           warrants
             Corporation),       Warrants
                                                                        outstanding
             Raleigh, NC58
                                                                                                                                                                                                                                                               Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                         (CONTINUED)
                                                                                                                                                            Number     Average Price                                                  Stock Price       Current
Transaction                      Investment                              Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution          Description1     Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/23/2009                                                                                                                                        $0.00
                           Preferred
7/19/2013 Crosstown                                                       Sold, in full;             $343,794.50                                                350         $982.30          ($6,205.50)
                           Stock w/
          Holding Company,                           $10,650,000.00      warrants not                                                                                                                                                                                $2,610,550.00
7/22/2013 Blaine, MN8,14   Exercised                                                              $10,117,381.00                                             10,300         $982.30       ($182,619.00)                $531,210.67
                                                                          outstanding
                           Warrants
9/12/2013                                                                                                             ($104,611.76)
                           Preferred                                Full investment
          CSRA Bank Corp., Stock w/                                   outstanding;
3/27/2009                                             $2,400,000.00                                                                      $2,400,000.00                                                                                                                 $180,940.00
          Wrens, GA8       Exercised                                       warrants
                           Warrants                                     outstanding
12/5/2008                                                                                                                                        $0.00
8/26/2009 CVB Financial Corp, Preferred                              Redeemed, in                 $97,500,000.00                                             97,500       $1,000.00
                    11,16     Stock w/              $130,000,000.00   full; warrants                                                                                                                                                    $17.07                       $4,739,583.33
9/2/2009 Ontario, CA          Warrants                              not outstanding               $32,500,000.00                                             32,500       $1,000.00
10/28/2009                                                                                                                                                                                                            $1,307,000.00
2/27/2009                        Preferred                                                                                                       $0.00
          D.L. Evans                                                 Redeemed, in
                                 Stock w/
          Bancorp, Burley,                           $19,891,000.00   full; warrants                                                                                                                                                                                 $2,800,592.33
9/27/2011 ID8,14,44              Exercised                                                        $19,891,000.00                                             19,891       $1,000.00                                    $995,000.00
                                                                    not outstanding
                                 Warrants
5/15/2009                          Subordinated                                                                                                  $0.00
             Deerfield Financial                                       Redeemed, in
                                   Debentures
             Corporation,                             $2,639,000.00     full; warrants                                                                                                                                                                                 $512,338.96
9/8/2011                           w/ Exercised                                                    $2,639,000.00                                           2,639,000          $1.00                                    $132,000.00
             Deerfield, WI14,15,44                                    not outstanding
                                   Warrants
12/4/2009                                                                                                                                        $0.00
                                 Preferred
2/7/2013                                                                  Sold, in full;           $5,293,527.28                                              8,648         $612.10     ($3,354,472.72)                $311,943.55
             Delmar Bancorp,     Stock w/
                                                      $9,000,000.00      warrants not                                                                                                                                                                                  $832,487.50
2/8/2013     Delmar, MD8,14      Exercised                                                           $215,462.72                                                352         $612.10       ($136,537.28)
                                                                          outstanding
                                 Warrants
3/26/2013                                                                                                              ($55,089.90)
2/13/2009                                             $1,173,000.00                                                                              $0.00
12/29/2009                 Preferred                  $1,508,000.00
          DeSoto County                                                   Sold, in full;
                           Stock w/
9/24/2013 Bank, Horn Lake,                                               warrants not                $301,428.58                                                366         $823.03         ($64,571.42)                $40,563.34                                     $577,206.00
            8,18           Exercised
          MS                                                              outstanding
9/25/2013                  Warrants                                                                $1,895,467.59                                              2,315         $816.45       ($419,532.41)
10/29/2013                                                                                                             ($33,333.34)
5/22/2009                                                                                                                                        $0.00
8/8/2012                   Subordinated                                                            $4,381,500.00                                           6,000,000          $0.73     ($1,618,500.00)
          Diamond Bancorp,                                                Sold, in full;
                           Debentures
8/9/2012 Inc., Washington,                           $20,445,000.00      warrants not             $10,197,941.25                                          13,965,000          $0.73     ($3,767,058.75)                $688,041.09                                   $5,541,380.00
             14,15         w/ Exercised
          MO                                                              outstanding
8/10/2012                  Warrants                                                                  $350,520.00                                            480,000           $0.73       ($129,480.00)                  $91,535.40
9/11/2012                                                                                                             ($149,299.61)
1/16/2009                                                                                                                                        $0.00
                                 Preferred
2/7/2013     Dickinson Financial                                          Sold, in full;           $8,025,555.03                                             14,523         $552.60     ($6,497,444.97)                   $3,372.19
                                 Stock w/
             Corporation II,                        $146,053,000.00      warrants not                                                                                                                                                                                $2,631,196.78
2/8/2013                         Exercised                                                        $72,684,793.30                                            131,530         $552.60    ($58,845,206.70)               $4,922,044.87
             Kansas City, MO8,14                                          outstanding
                                 Warrants
3/26/2013                                                                                                             ($807,103.48)
3/13/2009                                                                                                                                        $0.00
          Discover Financial Preferred                                 Redeemed, in
4/21/2010 Services ,         Stock w/             $1,224,558,000.00     full; warrants         $1,224,558,000.00                                           1,224,558      $1,000.00                                                     $55.95                      $67,690,844.00
          Riverwoods, IL11 Warrants                                   not outstanding
7/7/2010                                                                                                                                                                                                            $172,000,000.00
1/30/2009                                                                                                                                        $0.00
             DNB Financial     Preferred                               Redeemed, in
8/4/2011     Corporation,      Stock w/              $11,750,000.00     full; warrants            $11,750,000.00                                             11,750       $1,000.00                                                     $20.75                       $1,475,277.61
             Downingtown, PA44 Warrants                               not outstanding
9/21/2011                                                                                                                                                                                                              $458,000.00
6/19/2009                    Subordinated                                                                                                $7,000,000.00
           Duke Financial                                              Redeemed, in
                             Debentures
           Group, Inc.,                              $12,000,000.00    part; warrants                                                                                                                                                                                $4,599,206.00
11/27/2013 Minneapolis, MN15 w/ Exercised                                outstanding               $5,000,000.00                                           5,000,000          $1.00
                             Warrants
12/5/2008                                                                                                                                        $0.00
12/23/2009 Eagle Bancorp,        Preferred                             Redeemed, in               $15,000,000.00                                             15,000       $1,000.00
           Inc., Bethesda,       Stock w/            $38,235,000.00     full; warrants                                                                                                                                                  $30.63                       $3,817,731.76
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




7/14/2011 MD12,44                Warrants                                outstanding              $23,235,000.00                                             23,235       $1,000.00
11/23/2011                                                                                                                                                                                                            $2,794,422.00
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       367
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                               368
                                                                                                                                                          Number     Average Price                                                         Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/5/2008                                                                                                                                       $0.00
           East West         Preferred                                Redeemed, in
12/29/2010 Bancorp,          Stock w/              $306,546,000.00     full; warrants           $306,546,000.00                                           306,546       $1,000.00                                                            $34.97                      $31,676,420.00
           Pasadena, CA11,16 Warrants                                not outstanding
1/26/2011                                                                                                                                                                                                                 $14,500,000.00
1/9/2009                                                                                                                                        $0.00
           Eastern Virginia  Preferred                                   Sold, in full;
10/18/2013 Bankshares, Inc., Stock w/               $24,000,000.00          warrants              $3,900,000.00                                             3,900       $1,104.10                          $406,029.00                       $7.00          373,832       $2,220,000.00
           Tappahannock, VA Warrants                                     outstanding
10/21/2013                                                                                       $20,100,000.00                                            20,100       $1,104.10                         $2,092,611.00
             ECB Bancorp, Inc.                                       Full investment
                                Preferred
             Crescent Financial                                        outstanding;
1/16/2009                       Stock w/            $17,949,000.00                                                                     $17,949,000.00
             Bancshares, Inc.,                                              warrants
                           89   Warrants
             Engelhard, NC                                               outstanding
12/23/2008                                                                                                                                      $0.00
           Emclaire Financial Preferred                               Redeemed, in
8/18/2011 Corp., Emlenton, Stock w/                  $7,500,000.00     full; warrants             $7,500,000.00                                             7,500       $1,000.00                                                            $25.14                         $994,791.67
           PA44               Warrants                               not outstanding
12/7/2011                                                                                                                                                                                                                    $51,113.00
12/5/2008                                                                                                                                       $0.00
           Encore                 Preferred                           Redeemed, in
9/27/2011 Bancshares Inc.,        Stock w/          $34,000,000.00     full; warrants            $34,000,000.00                                            34,000       $1,000.00                                                                                         $4,778,888.89
           Houston, TX45          Warrants                              outstanding
11/23/2011                                                                                                                                                                                                                  $637,071.00
12/19/2008 Enterprise                                                                                                                           $0.00
                              Preferred                               Redeemed, in
           Financial Services
11/7/2012                     Stock w/              $35,000,000.00     full; warrants            $35,000,000.00                                            35,000       $1,000.00                                                            $20.42         324,074       $6,795,833.00
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




           Corp., St. Louis,
              11              Warrants                               not outstanding
1/9/2013 MO                                                                                                                                                                                                                $1,006,100.00
6/12/2009 Enterprise              Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Financial Services      Stock w/
                                                     $4,000,000.00     full; warrants                                                                                                                                                                                       $480,205.56
8/25/2011 Group, Inc.,  Allison   Exercised                                                       $4,000,000.00                                             4,000       $1,000.00                                           $200,000.00
                                                                     not outstanding
          Park, PA8,14,44         Warrants
1/30/2009                    Preferred                                                                                                          $0.00
          Equity                                                      Redeemed, in
                             Stock w/
          Bancshares, Inc.,                          $8,750,000.00     full; warrants                                                                                                                                                        $16.70
8/11/2011 Wichita, KS8,44,72 Exercised                               not outstanding              $8,750,000.00                                             8,750       $1,000.00                                           $438,000.00
                             Warrants
12/19/2008                                                                                                                                      $0.00
8/3/2012                                                                                            $481,387.50                                               550         $875.20         ($68,612.50)
8/8/2012                          Preferred                                                      $17,505,000.00                                            20,000         $875.20     ($2,495,000.00)                      $1,910,898.00
             Exchange Bank,                                              Sold, in full;
                                  Stock w/
8/9/2012     Santa Rosa,                            $43,000,000.00      warrants not              $8,725,367.25                                             9,969         $875.20     ($1,243,632.75)                       $120,386.57                                   $7,980,919.00
                                  Exercised
             CA8,14                                                      outstanding
8/10/2012                         Warrants                                                          $420,995.25                                               481         $875.20         ($60,004.75)                       $22,930.78
8/13/2012                                                                                        $10,503,000.00                                            12,000         $875.20     ($1,497,000.00)
9/11/2012                                                                                                            ($376,357.50)
1/30/2009                                            $4,609,000.00                                                                              $0.00
11/6/2009                                            $3,535,000.00
             F&M                  Preferred
2/6/2013                                                                 Sold, in full;           $4,797,325.00                                             5,090         $942.50       ($292,675.00)
             Bancshares,          Stock w/
                                                                        warrants not                                                                                                                                                                                      $1,584,421.00
2/7/2013     Inc., Trezevant,     Exercised                                                       $2,734,192.50                                             2,901         $942.50       ($166,807.50)                       $222,007.50
                                                                         outstanding
             TN8,14,18            Warrants
2/8/2013                                                                                            $144,202.50                                               153         $942.50          ($8,797.50)
3/26/2013                                                                                                             ($76,757.21)
2/6/2009                                                                                                                                        $0.00
9/18/2012                         Preferred                                                                                                                                                                                 $136,813.05
          F & M Financial                                                Sold, in full;
                                  Stock w/
9/19/2012 Corporation,                              $17,000,000.00      warrants not              $2,664,750.00                                             2,805         $950.00       ($140,250.00)                                                                     $3,355,971.00
                                  Exercised
          Salisbury, NC8,14                                              outstanding
9/20/2012                         Warrants                                                       $13,485,250.00                                            14,195         $950.00       ($709,750.00)                       $638,460.90
11/16/2012                                                                                                           ($161,500.00)
5/22/2009                                                                                                                                       $0.00
                            Subordinated
11/8/2012 F&C Bancorp Inc., Debentures                                   Sold, in full;           $1,590,599.43                                          1,659,000          $0.96         ($68,400.57)
                     14,15                           $2,993,000.00      warrants not                                                                                                                                                                                        $872,778.00
11/13/2012 Holden, MO       w/ Exercised                                                          $1,278,999.18                                          1,334,000          $0.96         ($55,000.82)                      $125,000.00
                                                                         outstanding
                            Warrants
1/11/2013                                                                                                             ($25,000.00)
                                                                                                                                                                                                                                                                   Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                          Number     Average Price                                                      Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/13/2009                                                                                                                                      $0.00
9/19/2012                        Preferred                                                                                                                                                                                $96,465.60
          F&M Financial                                                 Sold, in full;
                                 Stock w/
9/20/2012 Corporation,                             $17,243,000.00      warrants not                $157,500.00                                                200         $787.50         ($42,500.00)                                                                 $3,388,249.00
                                 Exercised
          Clarksville, TN8,14                                           outstanding
9/21/2012                        Warrants                                                       $13,421,362.50                                             17,043         $787.50     ($3,621,637.50)                    $645,975.00
11/16/2012                                                                                                          ($135,788.63)
1/9/2009                                                                                                                                       $0.00
                                 Preferred                           Redeemed, in
             F.N.B. Corporation,
9/9/2009                         Stock w/         $100,000,000.00     full; warrants           $100,000,000.00                                            100,000       $1,000.00                                                         $12.62         819,640       $9,632,884.00
             Hermitage, PA11
                                 Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                               $690,100.00
             Farmers &           Preferred                          Full investment
             Merchants           Stock w/                             outstanding;
3/6/2009                                           $11,000,000.00                                                                     $11,000,000.00                                                                                                                   $2,063,280.00
             Bancshares, Inc.,   Exercised                                 warrants
             Houston, TX8        Warrants                               outstanding
3/20/2009 Farmers &                                                                                                                            $0.00
                                 Preferred
          Merchants                                                     Sold, in full;
6/24/2013 Financial              Stock w/                                                          $425,425.00                                                442         $962.50         ($16,575.00)                    ($2,835.00)
                                                      $442,000.00      warrants not                                                                                                                                                                                      $102,609.00
                                 Exercised
          Corporation,                                                  outstanding
7/26/2013 Argonia, KS8,14        Warrants                                                                            ($25,000.00)

1/23/2009                        Preferred                                                                                                     $0.00
                                                                     Redeemed, in
             Farmers Bank ,      Stock w/
1/9/2013                                            $8,752,000.00     full; warrants             $3,063,000.00                                               3,063      $1,000.00                                                                                      $2,206,202.00
             Windsor, VA8,11     Exercised
                                                                    not outstanding
12/31/2013                       Warrants                                                        $5,689,000.00                                               5,689      $1,000.00                                        $438,000.00
1/9/2009                                                                                                                                       $0.00
          Farmers Capital Preferred                                     Sold, in full;
6/19/2012 Bank Corporation, Stock w/               $30,000,000.00      warrants not             $22,196,700.00      ($332,950.50)                          30,000         $739.90     ($7,803,300.00)                                     $21.75                       $5,166,600.00
          Frankfort, KY     Warrants                                    outstanding
7/18/2012                                                                                                                                                                                                                 $75,000.00
6/19/2009                                                                                                                                      $0.00
11/8/2012 Farmers                Subordinated                                                        $96,290.00                                           100,000           $0.96          ($3,710.00)
                                                                        Sold, in full;
           Enterprises,          Debentures
11/9/2012                                          $12,000,000.00      warrants not                                                                                                                                       $37,387.14                                   $3,423,094.00
           Inc., Great Bend,     w/ Exercised
              14,15                                                     outstanding
11/13/2012 KS                    Warrants                                                       $11,458,510.00                                          11,900,000          $0.96       ($441,490.00)                    $552,936.00
1/11/2013                                                                                                           ($115,548.00)
3/20/2009                   Preferred                                                                                                          $0.00
          Farmers State                                              Redeemed, in
                            Stock w/
          Bankshares, Inc.,                           $700,000.00     full; warrants                                                                                                                                                                                      $90,173.67
7/21/2011 Holton, KS8,14,45 Exercised                                                              $700,000.00                                                700       $1,000.00                                         $40,000.00
                                                                    not outstanding
                            Warrants
12/29/2009                       Subordinated                                                                                                  $0.00
             FBHC Holding                                               Sold, in full;
                                 Debentures
             Company,                               $3,035,000.00      warrants not                                                                                                                                                                                      $154,592.16
3/9/2011                         w/ Exercised                                                      $650,000.00                                           3,035,000          $0.21     ($2,385,000.00)
             Boulder, CO15,17                                           outstanding
                                 Warrants
6/26/2009                    Preferred                                                                                                         $0.00
                                                                        Sold, in full;
          FC Holdings, Inc., Stock w/
2/20/2013                                          $21,042,000.00      warrants not             $18,874,674.00                                             21,042         $897.00     ($2,167,326.00)                    $994,613.40                                     $156,090.00
          Houston, TX8,14    Exercised
                                                                        outstanding
3/26/2013                    Warrants                                                                               ($188,746.74)
12/19/2008                       Preferred                                                                                                     $0.00
          FCB Bancorp,                                               Redeemed, in
                                 Stock w/
          Inc., Louisville,                         $9,294,000.00     full; warrants                                                                                                                                                                                   $1,397,234.25
9/22/2011 KY8,14,45              Exercised                                                       $9,294,000.00                                              9,294       $1,000.00                                        $465,000.00
                                                                    not outstanding
                                 Warrants
12/19/2008                                                                                                                                     $0.00
                            Preferred
11/28/2012 FFW Corporation, Stock w/                                    Sold, in full;             $879,424.60                                                974         $902.90         ($94,575.40)
                     8,14                           $7,289,000.00      warrants not                                                                                                                                                                                    $1,567,852.00
11/30/2012 Wabash, IN       Exercised                                                            $5,701,813.50                                               6,315        $902.90       ($613,186.50)                    $358,558.20
                                                                        outstanding
                            Warrants
1/11/2013                                                                                                            ($65,812.38)
5/29/2009                   Subordinated                                                                                                       $0.00
          Fidelity Bancorp,                                        Redeemed, in
                            Debentures
          Inc, Baton Rouge,                         $3,942,000.00   full; warrants                                                                                                                                                                                     $1,265,924.00
3/27/2013 LA 11,14,15       w/ Exercised                                                         $3,942,000.00                                           3,942,000          $1.00                                        $197,000.00
                                                                  not outstanding
                            Warrants
12/12/2008 Fidelity Bancorp,     Preferred                           Redeemed, in                                                              $0.00
           Inc., Pittsburgh,     Stock w/           $7,000,000.00     full; warrants
11/30/2012 PA77                  Warrants                              outstanding               $7,000,000.00                                               7,000      $1,000.00
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




11/13/2009                                                                                                                                     $0.00
                                 Preferred
7/19/2013 Fidelity Federal                                              Sold, in full;             $439,000.00                                                439       $1,058.90                          $25,857.10
                                 Stock w/
          Bancorp,                                  $6,657,000.00      warrants not
7/22/2013 Evansville, IN8,17     Exercised                                                       $6,218,000.00                                               6,218      $1,058.90                         $366,240.20    $242,302.50
                                                                        outstanding
                                 Warrants
9/12/2013                                                                                                            ($70,490.97)
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         369
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                         370
                                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/19/2008                                                                                                                                      $0.00
8/1/2012                                                                                            $120,320.10                                                135         $891.30         ($14,679.90)
8/2/2012                                                                                              $26,737.80                                                30         $891.30          ($3,262.20)
8/3/2012                          Preferred                                                         $298,572.10                                                335         $891.30         ($36,427.90)
             Fidelity Financial                                          Sold, in full;
                                  Stock w/
8/7/2012     Corporation,                           $36,282,000.00      warrants not              $3,200,514.66                                               3,591        $891.30       ($390,485.34)                $170,227.93                                   $7,228,349.00
                                  Exercised
             Wichita, KS8,14                                             outstanding
8/8/2012                          Warrants                                                        $2,348,470.10                                               2,635        $891.30       ($286,529.90)                $167,374.94
8/9/2012                                                                                         $26,056,877.36                                             29,236         $891.30     ($3,179,122.64)               $1,210,615.36
8/10/2012                                                                                           $285,203.20                                                320         $891.30         ($34,796.80)               $176,884.89
9/11/2012                                                                                                            ($323,366.95)
12/19/2008 Fidelity Southern      Preferred                              Sold, in full;                                                         $0.00
           Corporation,           Stock w/          $48,200,000.00          warrants                                                                                                                                                   $16.61       2,602,563       $8,528,883.00
7/3/2012 Atlanta, GA              Warrants                               outstanding             $43,408,920.00      ($651,133.80)                          48,200         $900.60     ($4,791,080.00)

12/31/2008                                                                                                                                      $0.00
             Fifth Third          Preferred                           Redeemed, in
2/2/2011     Bancorp,             Stock w/       $3,408,000,000.00     full; warrants         $3,408,000,000.00                                            136,320      $25,000.00                                                     $21.03                    $355,946,667.00
             Cincinnati, OH11     Warrants                           not outstanding
3/16/2011                                                                                                                                                                                                          $280,025,936.00
12/23/2008                                                                                                                                      $0.00
2/23/2011 Financial               Preferred                         Redeemed, in                 $12,505,000.00                                              2,501       $5,000.00
          Institutions, Inc.,     Stock w/          $37,515,000.00   full; warrants                                                                                                                                                    $24.71                       $4,192,649.11
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




3/30/2011 Warsaw, NY11            Warrants                         not outstanding               $25,010,000.00                                              5,002       $5,000.00
5/11/2011                                                                                                                                                                                                            $2,079,962.50
2/13/2009                    Preferred                                                                                                          $0.00
          Financial Security                                        Redeemed, in
                             Stock w/
          Corporation,                               $5,000,000.00   full; warrants                                                                                                                                                                                   $664,597.33
7/21/2011 Basin, WY8,14,45   Exercised                                                            $5,000,000.00                                               5,000      $1,000.00                                    $250,000.00
                                                                   not outstanding
                             Warrants
7/31/2009                       Subordinated                                                                                                    $0.00
             Financial Services                                       Redeemed, in
                                Debentures
             of Winger, Inc.,                        $3,742,000.00     full; warrants                                                                                                                                                                                 $633,322.46
9/1/2011                        w/ Exercised                                                      $3,742,000.00                                           3,742,000          $1.00                                    $112,000.00
             Winger, MN15,17,44                                      not outstanding
                                Warrants
5/22/2009                                                                                                                                       $0.00
12/10/2012 First Advantage        Preferred                                                         $690,723.49                                                769         $898.20         ($78,276.51)                  $2,979.49
                                                                         Sold, in full;
           Bancshares Inc.,       Stock w/
12/11/2012                                           $1,177,000.00      warrants not                $366,469.68                                                408         $898.20         ($41,530.32)                 $26,318.80                                    $227,945.00
           Coon Rapids,           Exercised
               8,14                                                      outstanding
1/11/2013 MN                      Warrants                                                                            ($10,571.93)
3/26/2013                                                                                                             ($14,428.07)
6/26/2009                                                                                                                                       $0.00
                              Preferred
12/20/2012 First Alliance                                                Sold, in full;           $2,395,742.20                                               3,422        $700.10     ($1,026,257.80)                 $94,701.71
                              Stock w/
           Bancshares, Inc.,                         $3,422,000.00      warrants not                                                                                                                                                                                  $538,231.00
1/11/2013 Cordova, TN    8,14 Exercised                                                                               ($23,957.42)
                                                                         outstanding
                              Warrants
3/26/2013                                                                                                              ($1,042.58)
7/24/2009 First American          Subordinated                                                                                                  $0.00
                                                                    Redeemed, in
           Bank Corporation,      Debentures
12/21/2011                                          $50,000,000.00   full; warrants              $15,000,000.00                                          15,000,000          $1.00                                                                                 $13,058,531.00
           Elk Grove Village,     w/ Exercised
             11,14,15                                              not outstanding
12/11/2012 IL                     Warrants                                                       $35,000,000.00                                          35,000,000          $1.00                                   $2,500,000.00
3/13/2009 First American                                                                                                                        $0.00
                                                                      Redeemed, in
          International           Preferred
                                                    $17,000,000.00     full; warrants                                                                                                                                                                               $1,204,166.78
8/13/2010 Corp.,  Brooklyn,       Stock                                                          $17,000,000.00                                             17,000       $1,000.00
                                                                     not outstanding
          NY9,11,36
1/9/2009                                                                                                                                        $0.00
                                  Preferred                           Redeemed, in
             First Bancorp,
9/1/2011                          Stock w/          $65,000,000.00     full; warrants            $65,000,000.00                                             65,000       $1,000.00                                                     $16.62         616,308       $8,594,444.44
             Troy, NC45
                                  Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                            $924,462.00
1/16/2009                                                                                                                             $238,972,281.88
                                  Preferred                            Sold, in part;
             First BanCorp,
8/16/2013                         Stock w/         $400,000,000.00         warrants              $81,000,000.00                                          12,000,000          $6.75    ($64,711,540.92)                                 $17.22         389,484      $32,999,386.32
             San Juan, PR34
                                  Warrants                              outstanding
9/13/2013                                                                                         $8,514,153.00                                           1,261,356          $6.75     ($6,802,024.20)
2/20/2009                         Preferred                                                                                                     $0.00
           First BancTrust                                            Redeemed, in
                                  Stock w/
1/18/2012 Corporation,                               $7,350,000.00     full; warrants             $3,675,000.00                                               3,675      $1,000.00                                                     $14.60                       $1,332,517.00
                                  Exercised
           Paris, IL8,11,14                                          not outstanding
10/24/2012                        Warrants                                                        $3,675,000.00                                               3,675      $1,000.00                                    $368,000.00
                                                                                                                                                                                                                                                             Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/6/2009 First Bank of          Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Charleston, Inc.,     Stock w/
                                                   $3,345,000.00     full; warrants                                                                                                                                                                              $448,105.00
7/21/2011 Charleston,           Exercised                                                       $3,345,000.00                                             3,345       $1,000.00                                  $167,000.00
                                                                   not outstanding
          WV8,14,45             Warrants
1/16/2009                       Preferred                                                                                                     $0.00
             First Bankers                                          Redeemed, in
                                Stock w/
             Trustshares, Inc.,                   $10,000,000.00     full; warrants                                                                                                                                               $19.00                       $1,441,222.22
9/8/2011                        Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                  $500,000.00
             Quincy, IL8,14,45                                     not outstanding
                                Warrants
12/31/2008                                                                                                                                    $0.00
8/8/2013                                                                                          $105,000.00                                               300         $350.00        ($195,000.00)
8/9/2013                                                                                       $12,171,950.00                                            34,777         $350.00     ($22,605,050.00)            $2,430,181.71
                                Preferred
8/12/2013 First Banks, Inc.,                                           Sold, in full;          $87,028,900.00                                           248,654         $350.00    ($161,625,100.00)            $5,919,151.59
                                Stock w/
                      8                          $295,400,000.00      warrants not                                                                                                                                                                             $6,037,237.50
9/12/2013 Clayton, MO           Exercised                                                                          ($993,058.50)
                                                                       outstanding
                                Warrants
9/24/2013                                                                                       $3,209,702.21                                             5,819         $551.60      ($2,609,297.79)
9/25/2013                                                                                       $3,226,801.50                                             5,850         $551.60      ($2,623,198.50)
10/29/2013                                                                                                          ($64,365.04)
3/6/2009                                                                                                                                      $0.00
           First Busey          Preferred                         Redeemed, in
8/25/2011 Corporation,          Stock w/         $100,000,000.00   full; warrants             $100,000,000.00                                           100,000       $1,000.00                                                   $5.80                       $12,347,221.89
           Urbana, IL45         Warrants                         not outstanding
11/23/2011                                                                                                                                                                                                        $63,677.00
4/10/2009 First Business                           $2,211,000.00                                                                              $0.00
12/11/2009 Bank, National                          $2,032,000.00
           Association/     Preferred                                  Sold, in full;
12/19/2012 Bank of Southern Stock w/                                  warrants not              $1,373,084.00                                             1,500         $916.70        ($126,916.00)              $90,461.65                                     $752,663.00
           California, N.A. Warrants                                   outstanding
12/20/2012 San Diego,                                                                           $2,510,399.84                                             2,743         $915.60        ($232,600.16)
             8,14,18
1/11/2013  CA                                                                                                       ($33,333.33)
12/19/2008 First California                                                                                                                   $0.00
                                Preferred                         Redeemed, in
           Financial Group,
7/14/2011                       Stock w/          $25,000,000.00   full; warrants              $25,000,000.00                                            25,000       $1,000.00                                                   $8.50                        $3,211,806.00
           Inc, Westlake
                       45       Warrants                         not outstanding
8/24/2011 Village, CA                                                                                                                                                                                            $599,042.00
4/3/2009                                                                                                                                      $0.00
          First Capital         Preferred                              Sold, in full;
6/19/2012 Bancorp, Inc.,        Stock w/          $10,958,000.00      warrants not             $10,082,565.38      ($151,238.48)                         10,958         $920.10        ($875,434.62)                              $4.64          250,947       $1,759,344.00
          Glen Allen, VA        Warrants                               outstanding
2/6/2013                                                                                                                                                                                                         $266,041.78
                                                                    Redeemed, in
2/13/2009                       Preferred          $2,200,000.00     full; warrants                                                           $0.00
           First Choice                                            not outstanding
                                Stock w/
           Bank, Cerritos,                                                                                                                                                                                                                                       $300,642.94
                                Exercised
12/22/2009 CA8,11,14,18,36                         $2,836,000.00
                                Warrants
9/24/2010                                                                                       $5,036,000.00                                             5,036       $1,000.00                                  $110,000.00
1/23/2009                                                                                                                                     $0.00
             First Citizens     Preferred                              Sold, in full;
7/3/2012     Banc Corp,         Stock w/          $23,184,000.00      warrants not             $21,004,704.00      ($315,070.56)                         23,184         $906.00      ($2,179,296.00)                              $9.86          469,312       $3,992,877.00
             Sandusky, OH       Warrants                               outstanding
9/5/2012                                                                                                                                                                                                         $563,174.00
3/20/2009 First Colebrook       Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancorp, Inc.,        Stock w/
                                                   $4,500,000.00     full; warrants                                                                                                                                                                              $614,487.75
9/22/2011 Colebrook,            Exercised                                                       $4,500,000.00                                             4,500       $1,000.00                                  $225,000.00
                                                                   not outstanding
          NH8,14,44             Warrants
11/21/2008                                                                                                                                    $0.00
             First Community    Preferred                           Redeemed, in
7/8/2009     Bancshares Inc.,   Stock w/          $41,500,000.00     full; warrants            $41,500,000.00                                            41,500       $1,000.00                                                   $16.70                       $1,308,402.78
             Bluefield, VA12    Warrants                           not outstanding
11/22/2011                                                                                                                                                                                                        $30,600.00
          First Commuity
                                Preferred                          Full investment
          Bancshares,
                                Stock w/                             outstanding;
5/15/2009 Inc./Equity                             $14,800,000.00                                                                     $14,800,000.00                                                                                                            $4,984,351.00
                                Exercised                                 warrants
          Bancshares, Inc.,
                                Warrants                               outstanding
          Wichita, KS8,72
12/23/2008 First Community                                                                                                                    $0.00
                             Preferred                                 Sold, in full;
           Bank Corporation
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                             Stock w/             $10,685,000.00      warrants not                                                                                                                                                                               $744,982.44
5/31/2011 of America,        Warrants                                  outstanding              $7,754,267.48                                            10,685         $725.70      ($2,930,732.52)
           Pinellas Park, FL
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 371
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                     (CONTINUED)                                                                                                                                                                       372
                                                                                                                                                       Number     Average Price                                                 Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
11/21/2008                                                                                                                                   $0.00
          First Community      Preferred                              Sold, in full;
8/29/2012 Corporation,         Stock w/          $11,350,000.00      warrants not             $11,155,120.50      ($167,326.81)                         11,350         $982.80       ($194,879.50)                                $10.40                       $2,140,686.00
          Lexington, SC        Warrants                               outstanding
11/1/2012                                                                                                                                                                                                        $297,500.00
12/11/2009                                                                                                                                   $0.00
8/8/2012                                                                                                                                                                                                          $70,727.58
8/9/2012                                                                                                                                                                                                         $440,082.72
                              Preferred
8/10/2012 First Community Stock w/                                    Sold, in full;                                                                                                                             $209,563.20
          Financial Partners,                    $22,000,000.00      warrants not                                                                                                                                                                              $3,320,656.00
9/19/2012 Inc., Joliet, IL8   Exercised                                                          $326,250.00                                               500         $652.50       ($173,750.00)
                                                                      outstanding
                              Warrants
9/20/2012                                                                                      $3,051,090.00                                             4,676         $652.50     ($1,624,910.00)
9/21/2012                                                                                     $10,977,660.00                                            16,824         $652.50     ($5,846,340.00)
11/16/2012                                                                                                        ($143,550.00)
12/5/2008 First Defiance       Preferred                              Sold, in full;                                                         $0.00
          Financial Corp.,     Stock w/          $37,000,000.00          warrants                                                                                                                                                 $25.97         550,595       $6,546,862.00
6/19/2012 Defiance, OH         Warrants                               outstanding             $35,618,420.00      ($534,276.30)                         37,000         $962.70     ($1,381,580.00)

9/11/2009 First Eagle          Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancshares, Inc.,    Debentures
                                                  $7,500,000.00     full; warrants                                                                                                                                                                               $639,738.21
9/17/2010 Hanover    Park,     w/ Exercised                                                    $7,500,000.00                                          7,500,000          $1.00                                   $375,000.00
                                                                  not outstanding
          IL11,15,36           Warrants
2/6/2009                       Preferred                                                                                                     $0.00
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




          First Express of                                         Redeemed, in
                               Stock w/
          Nebraska, Inc.,                         $5,000,000.00     full; warrants                                                                                                                                                                               $824,313.00
2/15/2012 Gering, NE8,11,14    Exercised                                                       $5,000,000.00                                             5,000       $1,000.00                                   $250,000.00
                                                                  not outstanding
                               Warrants
3/6/2009     First Federal                                                                                                                   $0.00
                               Preferred                              Sold, in full;
             Bancshares of
                               Stock w/          $16,500,000.00      warrants not                                                                                                                                                 $8.70                          $570,625.00
5/3/2011     Arkansas, Inc.,                                                                   $6,000,000.00                                            16,500         $363.60    ($10,500,000.00)
                               Warrants                               outstanding
             Harrison, AR
12/23/2008                                                                                                                                   $0.00
          First Financial     Preferred                            Redeemed, in
2/24/2010 Bancorp,            Stock w/           $80,000,000.00     full; warrants            $80,000,000.00                                            80,000       $1,000.00                                                    $17.43                       $4,677,777.78
          Cincinnati, OH12,16 Warrants                            not outstanding
6/8/2010                                                                                                                                                                                                        $2,966,288.32
6/12/2009 First Financial      Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancshares,          Debentures
                                                  $3,756,000.00     full; warrants                                                                                                                                                                               $694,280.34
9/22/2011 Inc., Lawrence,      w/ Exercised                                                    $3,756,000.00                                          3,756,000          $1.00                                   $113,000.00
                                                                  not outstanding
          KS15,17,44           Warrants
12/5/2008                                                                                                                                    $0.00
             First Financial   Preferred                              Sold, in full;
4/3/2012     Holdings Inc.,    Stock w/          $65,000,000.00      warrants not             $56,778,150.00      ($851,672.25)                         65,000         $873.50     ($8,221,850.00)                                $22.87                      $10,815,494.00
             Charleston, SC    Warrants                               outstanding
5/22/2013                                                                                                                                                                                                       $1,400,000.00
1/9/2009  First Financial                                                                                                                    $0.00
                             Preferred                                Sold, in full;
          Service
4/29/2013                    Stock w/            $20,000,000.00          warrants             $10,842,200.00                                            20,000         $542.10     ($9,157,800.00)                                $4.91          215,983       $1,600,000.00
          Corporation,
                             Warrants                                 outstanding
5/31/2013 Elizabethtown,  KY                                                                                      ($108,422.00)
12/22/2009                  Preferred                                                                                                        $0.00
          First Freedom                                               Sold, in full;
                            Stock w/
11/9/2012 Bancshares, Inc.,                       $8,700,000.00      warrants not              $8,025,750.00                                             8,700         $922.50       ($674,250.00)               $256,118.75                                   $1,320,735.00
                            Exercised
          Lebanon, TN9,17                                             outstanding
1/11/2013                   Warrants                                                                               ($80,257.50)
2/27/2009                                                                                                                                    $0.00
           First Gothenburg  Preferred
10/29/2012 Bancshares,                                                Sold, in full;               $26,398.99                                               29         $910.30          ($2,601.01)
                             Stock w/
                                                  $7,570,000.00      warrants not                                                                                                                                                                              $1,517,766.00
10/31/2012 Inc., Gothenburg, Exercised                                                         $6,864,647.71                                             7,541         $910.30       ($676,352.29)               $362,118.92
                                                                      outstanding
           NE8,14            Warrants
1/11/2013                                                                                                          ($68,910.46)
8/28/2009 First Guaranty       Preferred                                                                                                     $0.00
                                                                 Redeemed, in
          Bancshares,          Stock w/
                                                 $20,699,000.00   full; warrants                                                                                                                                                                               $2,330,477.00
9/22/2011 Inc., Hammond,       Exercised                                                      $20,699,000.00                                             2,070      $10,000.00                                  $1,030,000.00
                                                                not outstanding
          LA8,14,44            Warrants
11/14/2008 First Horizon                                                                                                                     $0.00
                               Preferred                           Redeemed, in
           National
12/22/2010                     Stock w/         $866,540,000.00     full; warrants           $866,540,000.00                                           866,540       $1,000.00                                                    $11.65                      $91,227,405.56
           Corporation,
                         11    Warrants                           not outstanding
3/9/2011 Memphis, TN                                                                                                                                                                                           $79,700,000.00
                                                                                                                                                                                                                                                        Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                        Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
8/28/2009                                                                                                                                     $0.00
           First
12/20/2012 Independence                                                Sold, in full;           $2,336,675.00                                             3,223         $725.00       ($886,325.00)
                                Preferred
                                                   $3,223,000.00      warrants not                                                                                                                                                                                       $533,582.00
1/11/2013 Corporation,          Stock                                                                               ($23,366.75)
                                                                       outstanding
          Detroit, MI8,9
3/26/2013                                                                                                           ($26,633.25)
3/13/2009 First                 Preferred                                                                                                     $0.00
                                                                       Sold, in full;
          Intercontinental      Stock w/
8/12/2013                                          $6,398,000.00      warrants not              $3,247,112.96                                             6,398         $507.50     ($3,150,887.04)                      $139,320.00                                     $757,453.89
          Bank, Doraville,      Exercised
             8                                                         outstanding
9/12/2013 GA                    Warrants                                                                            ($25,000.00)
12/12/2008 First Litchfield                                                                                                                   $0.00
                                Preferred                           Redeemed, in
           Financial
                                Stock w/          $10,000,000.00     full; warrants                                                                                                                                                                                      $659,722.22
4/7/2010 Corporation, 11        Warrants                           not outstanding             $10,000,000.00                                            10,000       $1,000.00                                         $1,488,046.41
           Litchfield, CT
2/27/2009                                                                                                                                     $0.00
          First M&F          Preferred                              Redeemed, in
9/29/2010 Corporation,       Stock w/             $30,000,000.00     full; warrants            $30,000,000.00                                            30,000       $1,000.00                                                           $16.19                       $2,383,333.33
          Kosciusko, MS11,36 Warrants                              not outstanding
8/30/2013                                                                                                                                                                                                               $4,089,510.61
1/16/2009                      Preferred                                                                                                      $0.00
          First Manitowoc                                           Redeemed, in
                               Stock w/
          Bancorp, Inc.,                          $12,000,000.00     full; warrants                                                                                                                                                       $18.50                         $237,983.33
5/27/2009 Manitowoc, WI8,11,14 Exercised                           not outstanding             $12,000,000.00                                            12,000       $1,000.00                                          $600,000.00
                               Warrants
2/6/2009  First Market                                                                                                                        $0.00
          Bank, FSB/Union
                            Preferred                               Redeemed, in
          First Market
                            Stock w/              $33,900,000.00     full; warrants                                                                                                                                                                                    $2,695,972.22
12/7/2011 Banksahres        Warrants                               not outstanding             $33,900,000.00                                            35,595       $1,000.00                         $1,695,000.00
          Corporation,
          Richmond, VA11,25
2/13/2009                   Preferred                                                                                                         $0.00
          First Menasha                                             Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $4,797,000.00     full; warrants                                                                                                                                                                                      $676,865.00
9/15/2011 Neenah, WI8,14,44 Exercised                              not outstanding              $4,797,000.00                                             4,797       $1,000.00                                          $240,000.00
                            Warrants
2/20/2009                                                                                                                                     $0.00
           First Merchants      Preferred                           Redeemed, in
9/22/2011 Corporation,          Stock w/         $116,000,000.00     full; warrants           $116,000,000.00                                           116,000       $1,000.00                                                           $22.72                      $15,015,555.00
           Muncie, IN33,44,45   Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                               $367,500.00
12/5/2008                                                                                                                                     $0.00
           First Midwest        Preferred                           Redeemed, in
11/23/2011 Bancorp, Inc.,       Stock w/         $193,000,000.00     full; warrants           $193,000,000.00                                           193,000       $1,000.00                                                           $17.53                      $28,628,333.33
           Itasca, IL11         Warrants                           not outstanding
12/21/2011                                                                                                                                                                                                               $900,000.00
3/13/2009                       Preferred                                                                                                     $0.00
          First National                                               Sold, in full;
                                Stock w/
          Corporation,                            $13,900,000.00      warrants not                                                                                                                                                        $5.65                        $2,621,903.00
8/29/2012 Strasburg, VA8,14     Exercised                                                      $12,266,750.00      ($184,001.25)                         13,900         $882.50     ($1,633,250.00)                      $624,674.69
                                                                       outstanding
                                Warrants
3/20/2009 First NBC Bank        Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Holding Company,      Stock w/
                                                  $17,836,000.00     full; warrants                                                                                                                                                                                    $2,305,989.56
8/4/2011 New    Orleans,        Exercised                                                      $17,836,000.00                                            17,836       $1,000.00                                          $892,000.00
                                                                   not outstanding
          LA8,14,44             Warrants
11/21/2008                                                                                                                                    $0.00
          First Niagara         Preferred                           Redeemed, in
5/27/2009 Financial Group,      Stock w/         $184,011,000.00     full; warrants           $184,011,000.00                                           184,011       $1,000.00                                                           $10.62                       $4,753,618.00
          Lockport, NY12,16     Warrants                           not outstanding
6/24/2009                                                                                                                                                                                                               $2,700,000.00
3/13/2009 First Northern                                                                                                                      $0.00
                                Preferred                           Redeemed, in
           Community
9/15/2011                       Stock w/          $17,390,000.00     full; warrants            $17,390,000.00                                            17,390       $1,000.00                                                           $7.20                        $2,178,580.33
           Bancorp, Dixon,
             44                 Warrants                           not outstanding
11/16/2011 CA                                                                                                                                                                                                            $375,000.00
11/21/2008                                                                                                                                    $0.00
           First PacTrust       Preferred                           Redeemed, in
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




12/15/2010 Bancorp, Inc.,       Stock w/          $19,300,000.00     full; warrants            $19,300,000.00                                            19,300       $1,000.00                                                           $13.41       3,670,822       $1,994,333.34
           Chula Vista, CA11    Warrants                           not outstanding
1/5/2011                                                                                                                                                                                                                $1,003,227.00
3/13/2009 First Place           Preferred                                                                                                     $0.00
                                                                     Currently not
           Financial Corp.,     Stock w/          $72,927,000.00                                                                                                                                                                          $0.00                        $7,009,094.50
10/29/2012 Warren, OH73,97                                             collectible                                                                                                 ($72,927,000.00)
                                Warrants
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         373
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                       374
                                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/20/2009                                            $4,579,000.00                                                                              $0.00
12/18/2009                        Preferred          $4,596,000.00
             First Priority                                              Sold, in full;
                                  Stock w/
2/7/2013     Financial Corp.,                                           warrants not              $6,682,192.50                                               7,575        $882.23       ($892,807.50)               $48,083.60                                   $1,711,259.00
                                  Exercised
             Malvern, PA8,14,18                                          outstanding
2/8/2013                          Warrants                                                        $1,410,831.60                                               1,600        $882.05       ($189,168.40)              $176,633.62
3/26/2013                                                                                                             ($80,930.24)
3/6/2009                     Preferred                                                                                                          $0.00
          First Reliance                                                 Sold, in full;
                             Stock w/
3/11/2013 Bancshares, Inc.,                         $15,349,000.00      warrants not             $10,431,333.89                                             15,349         $679.60     ($4,917,666.11)              $624,632.45      $1.71                        $2,042,406.00
                        8,14 Exercised
          Florence, SC                                                   outstanding
4/9/2013                     Warrants                                                                                ($104,313.34)
1/30/2009                         Preferred          $2,600,000.00                                                                              $0.00
           First Resource                                             Redeemed, in
                                  Stock w/
12/11/2009 Bank, Exton,                              $2,417,000.00     full; warrants                                                                                                                                                                               $584,793.60
                                  Exercised
           PA8,14,18,44,45                                           not outstanding
9/15/2011                         Warrants                                                        $5,017,000.00                                               5,017      $1,000.00                                  $130,000.00
1/9/2009  First Security    Preferred                                    Sold, in full;                                                         $0.00
          Group, Inc.,      Stock w/                $33,000,000.00      warrants not                                                                                                                                                 $2.30                        $1,402,500.00
4/11/2013 Chattanooga, TN87 Warrants                                     outstanding             $14,912,862.00                                           9,941,908          $1.50    ($18,087,138.00)

12/23/2008                   Preferred                                   Sold, in full;                                                         $0.00
           First Sound Bank,
                      79     Stock w/                $7,400,000.00      warrants not                                                                                                                                                 $0.15          114,080         $330,944.44
2/20/2013 Seattle, WA        Warrants                                    outstanding              $3,700,000.00                                               7,400        $500.00     ($3,700,000.00)

7/17/2009                        Subordinated                                                                                                   $0.00
           First South                                                Redeemed, in
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                 Debentures
9/28/2011 Bancorp, Inc.,                            $50,000,000.00     full; warrants            $13,125,000.00                                          13,125,000          $1.00                                                                               $12,932,451.00
                                 w/ Exercised
           Lexington, TN11,14,15                                     not outstanding
11/28/2012                       Warrants                                                        $36,875,000.00                                          36,875,000          $1.00                                 $2,500,000.00
1/30/2009 First Southern          Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancorp, Inc.,          Stock w/
                                                    $10,900,000.00     full; warrants                                                                                                                                                                               $818,468.31
6/16/2010 Boca   Raton,           Exercised                                                      $10,900,000.00                                             10,900       $1,000.00                                  $545,000.00
                                                                     not outstanding
          FL11,8,14               Warrants
3/6/2009                                                                                                                                        $0.00
3/26/2013 First Southwest         Preferred                                                         $315,007.00                                                350         $900.00         ($34,993.00)
                                                                         Sold, in full;
          Bancorporation,         Stock w/
3/27/2013                                            $5,500,000.00      warrants not              $2,835,063.00                                               3,150        $900.00       ($314,937.00)              $206,048.21                                     $207,327.00
          Inc., Alamosa,          Exercised
             8,14                                                        outstanding
3/28/2013 CO                      Warrants                                                        $1,800,040.00                                               2,000        $900.00       ($199,960.00)               $45,788.48
4/9/2013                                                                                                              ($49,501.10)
3/6/2009                          Preferred                                                                                                     $0.00
          First Texas BHC,                                          Redeemed, in
                                  Stock w/
          Inc., Fort Worth,                         $13,533,000.00   full; warrants                                                                                                                                                                               $1,862,389.00
9/15/2011 TX8,14,44               Exercised                                                      $13,533,000.00                                             13,533       $1,000.00                                  $677,000.00
                                                                   not outstanding
                                  Warrants
6/5/2009                   Subordinated                                                                                                         $0.00
          First Trust                                                    Sold, in full;
                           Debentures
2/20/2013 Corporation, New                          $17,969,000.00      warrants not             $13,750,058.49                                          17,969,000          $0.77     ($4,218,941.51)              $644,726.19                                   $1,046,896.40
                           w/ Exercised
          Orleans, LA14,15                                               outstanding
3/26/2013                  Warrants                                                                                  ($137,500.58)
1/23/2009                     Preferred                                                                                                         $0.00
                                                                      Redeemed, in
          First ULB Corp., Stock w/
                      8,11,14                        $4,900,000.00     full; warrants                                                                                                                                                                                $66,020.69
4/22/2009 Oakland, CA         Exercised                                                           $4,900,000.00                                               4,900      $1,000.00                                  $245,000.00
                                                                     not outstanding
                              Warrants
                                                                     Full investment
          First United            Preferred
                                                                       outstanding;
1/30/2009 Corporation,            Stock w/          $30,000,000.00                                                                     $30,000,000.00                                                                                $7.67          326,323       $2,312,500.00
                                                                            warrants
          Oakland, MD             Warrants
                                                                         outstanding
6/12/2009                      Preferred                                                                                                        $0.00
          First Vernon                                                Redeemed, in
                               Stock w/
          Bancshares, Inc.,                          $6,000,000.00     full; warrants                                                                                                                                                                               $417,770.42
9/29/2010 Vernon, AL8,11,14,36 Exercised                             not outstanding              $6,000,000.00                                               6,000      $1,000.00                                  $245,000.00
                               Warrants
2/6/2009                                             $8,559,000.00                                                                              $0.00
12/11/2009                                          $11,881,000.00
8/9/2012                                                                                          $6,138,000.00                                               7,920        $775.00     ($1,782,000.00)              $311,681.70
          First Western           Preferred                              Sold, in full;
8/10/2012 Financial, Inc.,        Stock w/                              warrants not                  $62,000.00                                                80         $775.00         ($18,000.00)              $39,370.32                                   $3,768,965.00
          Denver, CO8,14,18       Warrants                               outstanding
9/11/2012                                                                                                             ($62,000.00)
6/24/2013                                                                                        $10,994,240.00                                             12,440         $874.81     ($1,445,760.00)
7/26/2013                                                                                                            ($109,942.41)
                                                                                                                                                                                                                                                           Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                     (CONTINUED)
                                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                   Investment                             Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution       Description1    Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/30/2009                                                                                                                                      $0.00
             Firstbank        Preferred                               Sold, in full;
7/3/2012     Corporation,     Stock w/           $33,000,000.00      warrants not             $31,053,330.00       ($465,799.95)                           33,000         $941.00     ($1,946,670.00)                               $19.34                       $5,651,360.00
             Alma, MI         Warrants                                outstanding
7/18/2012                                                                                                                                                                                                         $1,946,670.00
1/9/2009                                                                                                                                       $0.00
          FirstMerit          Preferred                            Redeemed, in
4/22/2009 Corporation,        Stock w/          $125,000,000.00     full; warrants           $125,000,000.00                                              125,000       $1,000.00                                                   $22.23       2,408,203      $71,033,631.08
          Akron, OH11         Warrants                            not outstanding
5/27/2009                                                                                                                                                                                                         $5,025,000.00
1/30/2009                                                                                                                                      $0.00
3/26/2013                                                                                      $1,439,258.50                                                1,579         $911.50       ($139,741.50)
3/27/2013 Flagstar Bancorp, Preferred                                 Sold, in full;         $228,401,847.00                                              250,578         $911.50    ($22,176,153.00)
                            Stock w/            $266,657,000.00      warrants not                                                                                                                                                   $19.62                      $37,220,872.00
3/28/2013 Inc., Troy, MI    Warrants                                  outstanding             $13,216,750.00                                               14,500         $911.50     ($1,283,250.00)
4/9/2013                                                                                                          ($2,430,578.56)
6/12/2013                                                                                                                                                                                                           $12,905.00
7/24/2009                     Preferred                                                                                                        $0.00
          Florida Bank                                                Sold, in full;
                              Stock w/
          Group, Inc.,                           $20,471,000.00      warrants not                                                                                                                                                                                $1,180,793.08
8/14/2013 Tampa, FL8,84       Exercised                                                        $8,000,000.00                                               20,471         $390.80    ($12,471,000.00)
                                                                      outstanding
                              Warrants
2/20/2009                     Preferred                                                                                                        $0.00
          Florida Business                                         Redeemed, in
                              Stock w/
          BancGroup, Inc.,                        $9,495,000.00     full; warrants                                                                                                                                                                               $1,339,750.50
9/22/2011 Tampa, FL8,14,44    Exercised                                                        $9,495,000.00                                                 9,495      $1,000.00                                  $475,000.00
                                                                  not outstanding
                              Warrants
12/19/2008                                                                                                                                     $0.00
           Flushing Financial Preferred                            Redeemed, in
10/28/2009 Corporation, Lake Stock w/            $70,000,000.00     full; warrants            $70,000,000.00                                               70,000       $1,000.00                                                   $20.70                       $3,004,166.66
           Success, NY12,16 Warrants                              not outstanding
12/30/2009                                                                                                                                                                                                         $900,000.00
2/27/2009                      Preferred                                                                                                       $0.00
          FNB Bancorp,                                             Redeemed, in
                               Stock w/
          South San                              $12,000,000.00     full; warrants                                                                                                                                                  $28.00                       $1,667,700.00
9/15/2011 Francisco, CA45,8,14 Exercised                          not outstanding             $12,000,000.00                                               12,000       $1,000.00                                  $600,000.00
                               Warrants
5/15/2009 Foresight           Preferred                                                                                                        $0.00
                                                                   Redeemed, in
           Financial Group,   Stock w/
                                                 $15,000,000.00     full; warrants                                                                                                                                                  $18.75                       $2,920,292.00
12/11/2012 Inc.,  Rockford,   Exercised                                                       $15,000,000.00                                               15,000       $1,000.00                                  $750,000.00
                                                                  not outstanding
           IL8,11,14          Warrants
5/22/2009                     Preferred                                                                                                        $0.00
          Fort Lee Federal
                              Stock w/                              Currently not
          Savings Bank,                           $1,300,000.00                                                                                                                                                                                                     $87,184.85
4/20/2012 Fort Lee, NJ8,66,97 Exercised                               collectible                                                                                                     ($1,300,000.00)
                              Warrants
4/3/2009                      Preferred                                                                                                        $0.00
          Fortune Financial                                        Redeemed, in
                              Stock w/
          Corporation,                            $3,100,000.00     full; warrants                                                                                                                                                                                 $413,927.67
9/15/2011 Arnold, MO8,14,45   Exercised                                                        $3,100,000.00                                                3,100       $1,000.00                                  $155,000.00
                                                                  not outstanding
                              Warrants
12/5/2008 FPB Bancorp,        Preferred                                                                                                        $0.00
                                                                    Currently not
          Inc., Port St.      Stock w/            $5,800,000.00                                                                                                                                                                     $0.01          183,158         $273,889.00
7/15/2011 Lucie, FL50,97                                              collectible                                                                                                     ($5,800,000.00)
                              Warrants
1/23/2009                  Preferred                                                                                                           $0.00
           FPB Financial                                           Redeemed, in
                           Stock w/
12/16/2009 Corp., Hammond,                        $3,240,000.00     full; warrants             $1,000,000.00                                                1,000       $1,000.00                                                                                  $221,721.50
             8,11,14       Exercised
           LA                                                     not outstanding
6/16/2010                  Warrants                                                            $2,240,000.00                                                2,240       $1,000.00                                  $162,000.00
5/22/2009                                                                                                                                      $0.00
                             Preferred
11/9/2012 Franklin Bancorp, Stock w/                                  Sold, in full;             $594,550.00                                                  940         $632.50       ($345,450.00)              $126,798.62
           Inc., Washington,                      $5,097,000.00      warrants not                                                                                                                                                                                  $965,344.00
11/13/2012 MO8,14            Exercised                                                         $2,629,302.50                                                4,157         $632.50     ($1,527,697.50)               $45,188.88
                                                                      outstanding
                             Warrants
1/11/2013                                                                                                            ($25,000.00)
                               Subordinated                     Full investment
             Freeport
                               Debentures                         outstanding;
5/8/2009     Bancshares, Inc.,                    $3,000,000.00                                                                        $3,000,000.00                                                                                                             $1,137,543.00
                               w/ Exercised                            warrants
             Freeport, IL15
                               Warrants                             outstanding
6/26/2009                     Subordinated                                                                                                     $0.00
          Fremont                                                  Redeemed, in
                              Debentures
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




          Bancorporation,                        $35,000,000.00     full; warrants                                                                                                                                                                               $9,046,066.00
7/25/2012 Fremont, CA11,14,15 w/ Exercised                                                    $35,000,000.00                                            35,000,000          $1.00                                 $1,750,000.00
                                                                  not outstanding
                              Warrants
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   375
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                          376
                                                                                                                                                          Number     Average Price                                                    Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4       Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/23/2009                    Preferred                                                                                                         $0.00
                                                                      Redeemed, in
          Fresno First Bank, Stock w/
                     8,14,44                         $1,968,000.00     full; warrants                                                                                                                                                                                  $371,100.00
11/1/2012 Fresno, CA         Exercised                                                            $1,968,000.00                                             1,968       $1,000.00                                       $98,000.00
                                                                     not outstanding
                             Warrants
4/24/2009                     Subordinated                                                                                                     $0.00
           Frontier                                                   Redeemed, in
                              Debentures
11/24/2009 Bancshares, Inc.,                         $3,000,000.00     full; warrants             $1,600,000.00                                          1,600,000          $1.00                                                                                      $258,192.00
                              w/ Exercised
           Austin, TX11,14,15                                        not outstanding
10/6/2010                     Warrants                                                            $1,400,000.00                                          1,400,000          $1.00                                      $150,000.00
12/23/2008                                                                                                                                     $0.00
          Fulton Financial       Preferred                            Redeemed, in
7/14/2010 Corporation,           Stock w/         $376,500,000.00      full; warrants           $376,500,000.00                                           376,500       $1,000.00                                                       $13.09                      $29,335,625.00
          Lancaster, PA11        Warrants                            not outstanding
9/8/2010                                                                                                                                                                                                            $10,800,000.00
5/8/2009                    Preferred                                                                                                          $0.00
          Gateway                                                     Redeemed, in
                            Stock w/
          Bancshares, Inc.,                          $6,000,000.00     full; warrants                                                                                                                                                                                  $960,794.87
4/13/2012 Ringgold, GA8,14  Exercised                                                             $6,000,000.00                                             6,000       $1,000.00                                      $300,000.00
                                                                     not outstanding
                            Warrants
2/6/2009  Georgia                Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Commerce               Stock w/
                                                     $8,700,000.00     full; warrants                                                                                                                                                                                  $961,470.83
2/16/2011 Bancshares,   Inc.,    Exercised                                                        $8,700,000.00                                             8,700       $1,000.00                                      $435,000.00
                                                                     not outstanding
          Atlanta, GA8,11,14     Warrants
                                Preferred                            Full investment
             Georgia Primary Stock w/                                  outstanding;
5/1/2009                                             $4,500,000.00                                                                     $4,500,000.00                                                                                                                          $0.00
             Bank, Atlanta, GA8 Exercised                                   warrants
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                Warrants                                 outstanding
3/6/2009                                                                                                                                       $0.00
           Germantown           Preferred
10/29/2012 Capital Corporation, Stock w/                                 Sold, in full;               $26,393.77                                               29         $910.10          ($2,606.23)
                                                     $4,967,000.00      warrants not                                                                                                                                                                                   $988,890.00
10/31/2012 Inc., Germantown, Exercised                                                            $4,494,221.94                                             4,938         $910.10       ($443,778.06)                  $214,595.28
                                                                         outstanding
           TN8,14            Warrants
1/11/2013                                                                                                            ($25,000.00)
6/26/2009                          Preferred                                                                                                   $0.00
             Gold Canyon
                                   Stock w/                            Currently not
             Bank, Gold                              $1,607,000.00                                                                                                                                                                                                      $53,859.52
4/5/2013                8,17,91,97 Exercised                             collectible                                                                                                  ($1,607,000.00)
             Canyon, AZ
                                   Warrants
10/28/2008                                                                                                                                     $0.00
          Goldmans Sachs         Preferred                            Redeemed, in
6/17/2009 Group, Inc. New        Stock w/       $10,000,000,000.00     full; warrants        $10,000,000,000.00                                         10,000,000      $1,000.00                                                                                 $318,055,555.44
          York, NY11             Warrants                            not outstanding
7/22/2009                                                                                                                                                                                                         $1,100,000,000.00
                            Preferred                                Full investment
          Goldwater Bank,
                            Stock w/                                   outstanding;
1/30/2009 N.A., Scottsdale,                          $2,568,000.00                                                                     $2,568,000.00                                                                                                                   $145,750.00
                            Exercised                                       warrants
          AZ8
                            Warrants                                     outstanding

                                 Preferred                          Redeemed, in
4/24/2009 Grand Capital          Stock w/                            full; warrants                                                            $0.00
          Corporation,                               $4,000,000.00 not outstanding                                                                                                                                                                                     $517,145.00
                                 Exercised
          Tulsa, OK8,14,44
9/8/2011                         Warrants                                                         $4,000,000.00                                             4,000       $1,000.00                                      $200,000.00
                            Subordinated                             Full investment
          Grand Financial
                            Debentures                                 outstanding;
9/25/2009 Corporation,                               $2,443,320.00                                                                     $2,443,320.00                                                                                                                   $848,354.00
                            w/ Exercised                                    warrants
          Hattiesburg, MS15
                            Warrants                                     outstanding
                            Preferred                                Full investment
          Grand Mountain
                            Stock w/                                   outstanding;
5/29/2009 Bancshares, Inc.,                          $3,076,000.00                                                                     $3,076,000.00
                            Exercised                                       warrants
          Granby, CO8
                            Warrants                                     outstanding
1/9/2009     GrandSouth                              $9,000,000.00                                                                             $0.00
                                 Preferred                            Redeemed, in
             Bancorporation,
12/11/2009                       Stock w/            $6,319,000.00     full; warrants                                                                                                                                                   $5.55                        $1,856,917.08
             Greenville,
                                 Warrants                            not outstanding
9/8/2011     SC8,14,18,44                                                                        $15,319,000.00                                            15,319       $1,000.00                                      $450,000.00
                           Subordinated                              Full investment
          Great River
                           Debentures                                  outstanding;
7/17/2009 Holding Company,                           $8,400,000.00                                                                     $8,400,000.00                                                                                                                   $759,575.46
                           w/ Exercised                                     warrants
          Baxter, MN15
                           Warrants                                      outstanding
12/5/2008                                                                                                                                      $0.00
          Great Southern         Preferred                            Redeemed, in
8/18/2011 Bancorp,               Stock w/          $58,000,000.00      full; warrants            $58,000,000.00                                            58,000       $1,000.00                                                       $30.41                       $7,838,055.56
          Springfield, MO45      Warrants                            not outstanding
9/21/2011                                                                                                                                                                                                            $6,436,364.00
12/23/2008 Green             Preferred                                   Sold, in full;                                                        $0.00
           Bankshares, Inc., Stock w/              $72,278,000.00       warrants not                                                                                                                                                                                 $5,942,857.78
9/7/2011 Greeneville, TN     Warrants                                    outstanding             $68,700,000.00                                            72,278         $950.50     ($3,578,000.00)

                                                                                                                                                                                                                                                              Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/27/2009                                                                                                                                     $0.00
                              Preferred
11/14/2012 Green Circle                                             Redeemed, in                  $800,000.00                                                800       $1,000.00
                              Stock w/
           Investments, Inc.,                      $2,400,000.00     full; warrants                                                                                                                                                                               $516,021.00
1/23/2013 Clive, IA8,11,14    Exercised                                                           $800,000.00                                                800       $1,000.00
                                                                   not outstanding
                              Warrants
4/24/2013                                                                                         $800,000.00                                                800       $1,000.00                                  $120,000.00
2/27/2009 Green City            Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Bancshares,           Stock w/
                                                     $651,000.00   full; warrants                                                                                                                                                                                  $49,037.33
                  Green City,   Exercised                                                         $651,000.00                                                651       $1,000.00                                   $33,000.00
7/14/2010 Inc.,8,11,14                                           not outstanding
          MO                    Warrants
                           Preferred                               Full investment
          Greer Bancshares
                           Stock w/                                  outstanding;
1/30/2009 Incorporated,                            $9,993,000.00                                                                      $9,993,000.00                                                                                $5.20                          $975,831.00
                           Exercised                                      warrants
          Greer, SC8
                           Warrants                                    outstanding
2/13/2009                   Preferred                                                                                                         $0.00
          Gregg
                            Stock w/                                 Currently not
          Bancshares, Inc.,                          $825,000.00                                                                                                                                                                                                   $45,190.00
7/13/2012 Ozark, MO8,68,97  Exercised                                  collectible                                                                                                     ($825,000.00)
                            Warrants
2/20/2009                   Preferred                                                                                                         $0.00
          Guaranty Bancorp,                                         Redeemed, in
                            Stock w/
          Inc., Woodsville,                        $6,920,000.00     full; warrants                                                                                                                                                                               $969,040.00
9/15/2011 NH8,14,45         Exercised                                                           $6,920,000.00                                               6,920      $1,000.00                                  $346,000.00
                                                                   not outstanding
                            Warrants
9/25/2009 Guaranty Capital                                          Redeemed, in                                                              $0.00
                                Subordinated
          Corporation,                            $14,000,000.00     full; warrants                                                                                                                                                                               $913,299.33
7/30/2010 Belzoni, MS9,15,36    Debentures                                                     $14,000,000.00                                          14,000,000          $1.00
                                                                   not outstanding
1/30/2009                                                                                                                                     $0.00
6/13/2012                                                                                       $5,000,000.00                                               5,000      $1,000.00
4/26/2013 Guaranty Federal Preferred                                   Sold, in full;               $96,750.00                                               100         $967.50          ($3,250.00)
          Bancshares, Inc., Stock w/              $17,000,000.00      warrants not                                                                                                                                                 $11.00                       $3,390,721.00
4/29/2013 Springfield, MO11 Warrants                                   outstanding             $11,513,250.00                                             11,900         $967.50       ($386,750.00)
5/15/2013                                                                                                                                                                                                        $2,003,250.00
5/31/2013                                                                                                          ($116,100.00)
9/25/2009                    Preferred                                                                                                        $0.00
           GulfSouth Private
                             Stock w/                                Currently not
           Bank, Destin,                           $7,500,000.00                                                                                                                                                                                                  $757,380.00
10/19/2012 FL17,28,70,97     Exercised                                 collectible                                                                                                   ($7,500,000.00)
                             Warrants
6/26/2009                   Preferred                                                                                                         $0.00
          Gulfstream                                                Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $7,500,000.00     full; warrants                                                                                                                                                                               $876,541.63
8/18/2011 Stuart, FL8,14,45 Exercised                                                           $7,500,000.00                                               7,500      $1,000.00                                  $375,000.00
                                                                   not outstanding
                            Warrants
2/20/2009                     Preferred                                                                                                       $0.00
          Hamilton State                                            Redeemed, in
                              Stock w/
          Bancshares,                              $7,000,000.00     full; warrants                                                                                                                                                                               $819,165.89
4/13/2011 Hoschton, GA8,11,14 Exercised                            not outstanding              $7,000,000.00                                                280      $25,000.00                                  $350,000.00
                              Warrants
                                                                   Full investment
           Hampton Roads Preferred
                                                                     outstanding;
12/31/2008 Bankshares, Inc., Stock w/             $80,347,000.00                                                                     $80,347,000.00                                                                                $1.75          757,633       $2,510,844.00
                                                                          warrants
           Norfolk, VA38     Warrants
                                                                       outstanding
             Harbor                                                Full investment
             Bankshares         Preferred                            outstanding;
7/17/2009                                          $6,800,000.00                                                                      $6,800,000.00                                                                                                               $282,744.47
             Corporation,       Stock                                warrants not
             Baltimore, MD8,9                                          outstanding
3/13/2009                      Preferred                                                                                                      $0.00
           Haviland                                                 Redeemed, in
                               Stock w/
           Bancshares, Inc.,                         $425,000.00     full; warrants                                                                                                                                                                                $41,524.22
12/29/2010 Haviland, KS8,11,14 Exercised                           not outstanding                $425,000.00                                                425       $1,000.00                                   $21,000.00
                               Warrants
12/19/2008                                                                                                                                    $0.00
          Hawthorne
5/9/2012                    Preferred                             Redeemed, in                 $12,000,000.00                                             12,000       $1,000.00
          Bancshares, Inc.,
                            Stock w/              $30,255,000.00   full; warrants                                                                                                                                                  $12.15                       $6,054,505.00
5/15/2013 Lee’s Summit,                                                                        $18,255,000.00                                             18,255       $1,000.00
                            Warrants                             not outstanding
          MO11
6/12/2013                                                                                                                                                                                                         $540,000.00
                                                                 Full investment
             HCSB Financial     Preferred
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                   outstanding;
3/6/2009     Corporation,       Stock w/          $12,895,000.00                                                                     $12,895,000.00                                                                                $0.19           91,714       $1,090,702.00
                                                                        warrants
             Loris, SC          Warrants
                                                                     outstanding
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  377
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                      378
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
9/11/2009                   Preferred                                                                                                          $0.00
          Heartland                                                  Redeemed, in
                            Stock w/
          Bancshares, Inc.,                         $7,000,000.00     full; warrants                                                                                                                                               $28.79                       $1,073,471.00
7/17/2012 Franklin, IN8,17  Exercised                                                            $7,000,000.00                                             7,000       $1,000.00                                  $248,000.00
                                                                    not outstanding
                            Warrants
12/19/2008                                                                                                                                     $0.00
           Heartland Financial Preferred                             Redeemed, in
9/15/2011 USA, Inc.,           Stock w/            $81,698,000.00     full; warrants            $81,698,000.00                                            81,698       $1,000.00                                                   $28.79                      $11,188,087.22
           Dubuque, IA45       Warrants                             not outstanding
9/28/2011                                                                                                                                                                                                        $1,800,000.00
9/25/2009                     Preferred                                                                                                        $0.00
          Heritage                                                   Redeemed, in
                              Stock w/
3/16/2011 Bankshares, Inc.,                        $10,103,000.00     full; warrants             $2,606,000.00                                             2,606       $1,000.00                                                   $12.95                         $947,284.46
                      8,17,45 Exercised
          Norfolk, VA                                               not outstanding
8/11/2011                     Warrants                                                           $7,497,000.00                                             7,497       $1,000.00                                  $303,000.00
11/21/2008                                                                                                                                     $0.00
             Heritage        Preferred                               Redeemed, in
3/7/2012     Commerce Corp., Stock w/              $40,000,000.00     full; warrants            $40,000,000.00                                            40,000       $1,000.00                                                   $8.24                        $6,761,267.00
             San Jose, CA11  Warrants                               not outstanding
6/10/2013                                                                                                                                                                                                         $140,000.00
11/21/2008                                                                                                                                     $0.00
           Heritage Financial Preferred                              Redeemed, in
12/22/2010 Corporation,       Stock w/             $24,000,000.00     full; warrants            $24,000,000.00                                            24,000       $1,000.00                                                   $17.10                       $2,503,333.33
           Olympia, WA11,16 Warrants                                not outstanding
8/17/2011                                                                                                                                                                                                         $450,000.00
3/20/2009                                                                                                                                      $0.00
          Heritage Oaks          Preferred                           Redeemed, in
7/17/2013 Bancorp, Paso          Stock w/          $21,000,000.00     full; warrants            $21,000,000.00                                            21,000       $1,000.00                                                   $7.50                        $4,666,335.00
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




          Robles, CA11           Warrants                           not outstanding
8/7/2013                                                                                                                                                                                                         $1,575,000.00
11/21/2008                                                                                                                                     $0.00
                                 Preferred                           Redeemed, in
             HF Financial Corp.,
6/3/2009                         Stock w/          $25,000,000.00     full; warrants            $25,000,000.00                                            25,000       $1,000.00                                                   $12.95                         $666,666.67
             Sioux Falls, SD11
                                 Warrants                           not outstanding
6/30/2009                                                                                                                                                                                                         $650,000.00
5/8/2009   Highlands                                $3,091,000.00                                                                              $0.00
                                 Preferred
           Bancorp, Inc.                                             Redeemed, in
12/22/2009 (Highlands State      Stock w/           $2,359,000.00     full; warrants                                                                                                                                               $5.45                          $606,927.00
                                 Exercised
          Bank), Vernon,                                            not outstanding
9/22/2011 NJ8,18,21,44           Warrants                                                        $5,450,000.00                                             5,450       $1,000.00                                  $155,000.00

             Highlands           Preferred                          Full investment
             Independent         Stock w/                             outstanding;
3/6/2009                                            $6,700,000.00                                                                      $6,700,000.00                                                                                                              $617,712.00
             Bancshares, Inc.,   Exercised                                 warrants
             Sebring, FL8        Warrants                               outstanding
1/30/2009                   Preferred                                                                                                          $0.00
          Hilltop Community                                          Redeemed, in
                            Stock w/
          Bancorp, Inc.,                            $4,000,000.00     full; warrants                                                                                                                                               $9.36                          $267,049.67
4/21/2010 Summit, NJ8,11,14 Exercised                               not outstanding              $4,000,000.00                                             4,000       $1,000.00                                  $200,000.00
                            Warrants
12/23/2008                                                                                                                                     $0.00
2/7/2013     HMN Financial,      Preferred                              Sold, in full;           $2,561,325.00                                             3,550         $721.50       ($988,675.00)
             Inc., Rochester,    Stock w/          $26,000,000.00          warrants                                                                                                                                                $10.57         833,333       $2,462,777.78
2/8/2013     MN                  Warrants                               outstanding             $16,197,675.00                                            22,450         $721.50     ($6,252,325.00)
3/26/2013                                                                                                           ($187,590.00)
1/16/2009                                                                                                                                      $0.00
             Home              Preferred                           Redeemed, in
7/6/2011     Bancshares, Inc., Stock w/            $50,000,000.00   full; warrants              $50,000,000.00                                            50,000       $1,000.00                                                   $37.35                       $6,180,555.56
             Conway, AR11      Warrants                           not outstanding
7/27/2011                                                                                                                                                                                                        $1,300,000.00
2/20/2009 Hometown               Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Bancorp of             Stock w/
                                                    $3,250,000.00     full; warrants                                                                                                                                                                              $801,202.00
8/28/2013 Alabama, Inc.,         Exercised                                                       $3,250,000.00                                             3,250       $1,000.00                                  $163,000.00
                                                                    not outstanding
          Oneonta, AL8           Warrants
2/13/2009                                                                                                                                      $0.00
11/28/2012                   Preferred                                                             $608,170.50                                               645         $942.90         ($36,829.50)
           Hometown                                                     Sold, in full;
                             Stock w/
11/30/2012 Bancshares, Inc.,                        $1,900,000.00      warrants not              $1,183,339.50                                             1,255         $942.90         ($71,660.50)              $70,095.00                                     $393,196.00
                     8,14    Exercised
           Corbin, KY                                                   outstanding
1/11/2013                    Warrants                                                                                ($17,915.11)
3/26/2013                                                                                                             ($7,084.89)
9/18/2009 HomeTown               Preferred                                                                                                     $0.00
                                                                        Sold, in full;
           Bankshares            Stock w/
10/31/2012                                         $10,000,000.00      warrants not              $9,185,000.00                                            10,000         $918.50       ($815,000.00)              $315,461.52      $6.36                        $1,702,400.00
           Corporation,          Exercised
                        8,17                                            outstanding
1/11/2013 Roanoke, VA            Warrants                                                                            ($91,850.00)
                                                                                                                                                                                                                                                         Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                        Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/12/2008                                                                                                                                    $0.00
           HopFed Bancorp, Preferred                                 Redeemed, in
12/19/2012 Hopkinsville,   Stock w/                $18,400,000.00     full; warrants            $18,400,000.00                                           18,400       $1,000.00                                                    $11.39         253,666       $3,697,889.00
           KY11            Warrants                                 not outstanding
1/16/2013                                                                                                                                                                                                         $256,257.00
12/19/2008                                                                                                                                    $0.00
11/10/2010 Horizon Bancorp, Preferred                              Redeemed, in                  $6,250,000.00                                            6,250       $1,000.00
           Michigan City,   Stock w/               $25,000,000.00   full; warrants                                                                                                                                                 $25.33       3,106,771       $3,106,770.83
8/25/2011 IN11,45           Warrants                              not outstanding               $18,750,000.00                                           18,750       $1,000.00
11/23/2011                                                                                                                                                                                                       $1,750,551.00
2/27/2009                      Preferred                                                                                                      $0.00
          Howard Bancorp,                                            Redeemed, in
                               Stock w/
          Inc., Ellicott City,                      $5,983,000.00     full; warrants                                                                                                                                               $9.42                          $837,793.05
9/22/2011 MD8,14,44            Exercised                                                         $5,983,000.00                                            5,983       $1,000.00                                   $299,000.00
                                                                    not outstanding
                               Warrants
5/1/2009                         Preferred          $4,000,000.00                                                                             $0.00
           HPK Financial                                             Redeemed, in
                                 Stock w/
11/13/2009 Corporation,                             $5,000,000.00     full; warrants                                                                                                                                                                            $1,596,554.65
                      8,11,14,18 Exercised
           Chicago, IL                                              not outstanding
12/11/2012                       Warrants                                                        $9,000,000.00                                            9,000       $1,000.00                                   $344,000.00
11/14/2008                                                                                                                                    $0.00
           Huntington            Preferred                           Redeemed, in
12/22/2010 Bancshares,           Stock w/       $1,398,071,000.00     full; warrants         $1,398,071,000.00                                         1,398,071      $1,000.00                                                    $9.65                     $147,185,808.56
           Columbus, OH11        Warrants                           not outstanding
1/19/2011                                                                                                                                                                                                       $49,100,000.00
2/6/2009                                                                                                                                      $0.00
                                 Preferred
12/20/2012 Hyperion Bank,                                               Sold, in full;           $1,008,800.00                                            1,552         $650.00       ($543,200.00)                $25,700.00
                                 Stock w/
                          8,14                      $1,552,000.00      warrants not                                                                                                                                                                               $327,666.00
1/11/2013 Philadelphia, PA       Exercised                                                                          ($10,088.00)
                                                                        outstanding
                                 Warrants
3/26/2013                                                                                                           ($14,912.00)
                                 Preferred                        Full investment
             IA Bancorp, Inc.,   Stock w/                           outstanding;
9/18/2009                                           $5,976,000.00                                                                     $5,976,000.00                                                                                                               $916,227.00
             Iselin, NJ8,17      Exercised                               warrants
                                 Warrants                             outstanding
5/15/2009                                                            Redeemed, in                                                             $0.00
          IBC Bancorp, Inc., Subordinated
                     9,15,36                        $4,205,000.00     full; warrants                                                                                                                                                                              $427,216.32
9/10/2010 Chicago, IL        Debentures                                                          $4,205,000.00                                         4,205,000          $1.00
                                                                    not outstanding
12/5/2008                                                                                                                                     $0.00
          Iberiabank             Preferred                           Redeemed, in
3/31/2009 Corporation,           Stock w/          $90,000,000.00     full; warrants            $90,000,000.00                                           90,000       $1,000.00                                                    $62.85                       $1,450,000.00
          Lafayette, LA12,16     Warrants                           not outstanding
5/20/2009                                                                                                                                                                                                        $1,200,000.00
3/27/2009                    Preferred                                                                                                        $0.00
                                                                     Redeemed, in
          IBT Bancorp, Inc., Stock w/
                    8,14                            $2,295,000.00     full; warrants                                                                                                                                                                              $526,463.00
6/12/2013 Irving, TX         Exercised                                                           $2,295,000.00                                            2,295       $1,000.00                                   $115,000.00
                                                                    not outstanding
                             Warrants
3/13/2009 IBW Financial                                                                                                                       $0.00
                                 Preferred                           Redeemed, in
          Corporation ,
                                 Stock w/           $6,000,000.00     full; warrants                                                                                                                                               $12.00                         $453,067.00
9/3/2010 Washington,             Warrants                           not outstanding              $6,000,000.00                                            6,000       $1,000.00
          DC8,10,11
3/6/2009                         Preferred                                                                                                    $0.00
                                                                     Redeemed, in
          ICB Financial,         Stock w/
                     8,14,44                        $6,000,000.00     full; warrants                                                                                                                                               $4.60                        $1,194,458.00
11/1/2012 Ontario, CA            Exercised                                                       $6,000,000.00                                            6,000       $1,000.00                                   $300,000.00
                                                                    not outstanding
                                 Warrants
                                 Preferred                          Full investment
             Idaho Bancorp,      Stock w/                             outstanding;
1/16/2009                                           $6,900,000.00                                                                     $6,900,000.00                                                                                $0.15                          $124,305.92
             Boise, ID8          Exercised                                 warrants
                                 Warrants                               outstanding
5/22/2009                        Preferred          $6,272,000.00                                                                             $0.00
           Illinois State                                            Redeemed, in
                                 Stock w/
12/29/2009 Bancorp, Inc.,                           $4,000,000.00     full; warrants                                                                                                                                                                            $1,158,113.00
                                 Exercised
           Chicago, IL8,14,18,44                                    not outstanding
9/22/2011                        Warrants                                                       $10,272,000.00                                           10,272       $1,000.00                                   $406,000.00
1/9/2009                         Preferred                                                                                                    $0.00
           Independence                                              Redeemed, in
                                 Stock w/
           Bank, East                               $1,065,000.00     full; warrants                                                                                                                                                                              $276,723.00
10/16/2013 Greenwich, RI8        Exercised                                                       $1,065,000.00                                            1,065       $1,000.00                                    $53,000.00
                                                                    not outstanding
                                 Warrants
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




1/9/2009                                                                                                                                      $0.00
          Independent Bank Preferred                                 Redeemed, in
4/22/2009 Corp., Rockland, Stock w/                $78,158,000.00     full; warrants            $78,158,000.00                                           78,158       $1,000.00                                                    $39.12                       $1,118,093.61
          MA11             Warrants                                 not outstanding
5/27/2009                                                                                                                                                                                                        $2,200,000.00
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  379
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                                380
                                                                                                                                                          Number     Average Price                                                          Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                         as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/12/2008 Independent Bank Preferred                                 Redeemed, in                                                              $0.00
           Corporation,     Stock w/               $72,000,000.00      full; warrants                                                                                                                                                         $12.00                       $9,004,000.00
8/30/2013 Ionia, MI29       Warrants                                 not outstanding             $72,000,000.00                                            72,000       $1,000.00                         $2,426,000.00

4/24/2009                        Preferred                                                                                                      $0.00
              Indiana Bank
                                 Stock w/                              Currently not
              Corp., Dana,                           $1,312,000.00                                                                                                                                                                                                           $165,139.00
4/9/2013                         Exercised                               collectible                                                                                                  ($1,312,000.00)
              IN8,22,92,97
                                 Warrants
12/12/2008 Indiana                                                                                                                              $0.00
                                 Preferred                            Redeemed, in
           Community
                                 Stock w/          $21,500,000.00      full; warrants                                                                                                                                                         $0.00                        $4,031,250.00
9/12/2012 Bancorp,               Warrants                            not outstanding             $21,500,000.00                                            21,500       $1,000.00                                           $1,800,000.00
           Columbus, IN11
2/27/2009 Integra Bank                                                                                                                          $0.00
                                 Preferred
          Corporation,                                                 Currently not
                                 Stock w/          $83,586,000.00                                                                                                                                                                                          7,418,876       $1,950,340.00
7/29/2011 Evansville,                                                    collectible                                                                                                 ($83,586,000.00)
                                 Warrants
          IN22,52,97
12/19/2008 Intermountain                                                                                                                        $0.00
                                 Preferred                            Redeemed, in
           Community
                                 Stock w/          $27,000,000.00      full; warrants                                                                                                                                                         $15.60          65,323       $6,944,884.00
11/20/2013 Bancorp,              Warrants                               outstanding              $27,000,000.00                                            27,000       $1,000.00
           Sandpoint, ID
12/23/2008                                                                                                                                      $0.00
7/11/2012 International                                                                          $40,000,000.00                                            40,000       $1,000.00
                                 Preferred                         Redeemed, in
           Bancshares
11/1/2012                        Stock w/         $216,000,000.00   full; warrants               $45,000,000.00                                            45,000       $1,000.00                                                             $26.36                      $41,520,139.00
           Corporation,
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                     11          Warrants                         not outstanding
11/28/2012 Laredo, TX                                                                           $131,000,000.00                                           131,000       $1,000.00
6/11/2013                                                                                                                                                                                                                   $4,018,511.00
12/23/2008 Intervest                                                                                                                            $0.00
                            Preferred                                    Sold, in full;
           Bancshares
6/24/2013                   Stock w/               $25,000,000.00           warrants             $24,250,000.00                                            25,000         $970.00       ($750,000.00)                                         $7.51          691,882       $6,028,056.00
           Corporation, New
                            Warrants                                     outstanding
7/26/2013 York, NY                                                                                                   ($242,500.00)
5/8/2009   Investors Financial                                                                                                                  $0.00
                                 Subordinated
           Corporation of
                                 Debentures                            Currently not
           Pettis County,                            $4,000,000.00                                                                                                                                                                                                           $174,324.60
10/19/2012 Inc., Sedalia,        w/ Exercised                            collectible                                                                                                  ($4,000,000.00)
                                 Warrants
           MO15,71,97
10/28/2008                                                                                                                                      $0.00
           JPMorgan Chase Preferred                                   Redeemed, in
6/17/2009 & Co., New York, Stock w/             $25,000,000,000.00     full; warrants        $25,000,000,000.00                                          2,500,000     $10,000.00                                                             $58.10                    $795,138,888.89
           NY11            Warrants                                  not outstanding
12/16/2009                                                                                                                                                                                                                $936,063,469.11
1/30/2009                    Preferred                                                                                                          $0.00
          Katahdin                                                    Redeemed, in
                             Stock w/
          Bankshares Corp.,                        $10,449,000.00      full; warrants                                                                                                                                                         $11.90                       $1,452,046.75
8/18/2011 Houlton, ME8,14,44 Exercised                               not outstanding             $10,449,000.00                                            10,449       $1,000.00                                            $522,000.00
                             Warrants
11/14/2008                                                                                                                                      $0.00
                                 Preferred                            Redeemed, in
              KeyCorp,
3/30/2011                        Stock w/        $2,500,000,000.00     full; warrants         $2,500,000,000.00                                            25,000     $100,000.00                                                             $13.42                    $297,222,222.22
              Cleveland, OH11
                                 Warrants                            not outstanding
4/20/2011                                                                                                                                                                                                                  $70,000,000.00
                              Preferred                              Full investment
          Kirksville Bancorp,
                              Stock w/                                 outstanding;
3/20/2009 Inc., Kirksville,                           $470,000.00                                                                         $470,000.00                                                                                                                        $119,390.00
                              Exercised                                     warrants
          MO8
                              Warrants                                   outstanding
8/21/2009                    Preferred                                                                                                          $0.00
                                                                         Sold, in full;
          KS Bancorp, Inc., Stock w/
11/30/2012                                           $4,000,000.00      warrants not              $3,308,000.00                                             4,000         $827.00       ($692,000.00)                        $140,400.00      $9.00                          $713,937.00
          Smithfield, NC8,14 Exercised
                                                                         outstanding
1/11/2013                    Warrants                                                                                 ($25,000.00)
2/20/2009 Lafayette              Preferred           $1,998,000.00                                                                              $0.00
                                                                      Redeemed, in
           Bancorp,              Stock w/
12/29/2009                                           $2,453,000.00     full; warrants                                                                                                                                                                                        $267,134.50
           Inc., Oxford,         Exercised
              8,11,14,18,36                                          not outstanding
9/29/2010 MS                     Warrants                                                         $4,451,000.00                                             4,451       $1,000.00                                            $100,000.00
2/6/2009                                                                                                                                        $0.00
8/4/2010                                                                                         $20,000,000.00                                            20,000       $1,000.00
          Lakeland               Preferred                            Redeemed, in
3/16/2011 Bancorp, Inc.,         Stock w/          $59,000,000.00      full; warrants            $20,000,000.00                                            20,000       $1,000.00                                                             $12.37                       $6,460,833.00
          Oak Ridge, NJ11        Warrants                            not outstanding
2/8/2012                                                                                         $19,000,000.00                                            19,000       $1,000.00
2/29/2012                                                                                                                                                                                                                   $2,800,000.00
2/27/2009                                                                                                                                       $0.00
              Lakeland Financial Preferred                            Redeemed, in
6/9/2010      Corporation,       Stock w/          $56,044,000.00      full; warrants            $56,044,000.00                                            56,044       $1,000.00                                                             $39.00                       $3,596,156.33
              Warsaw, IN12       Warrants                            not outstanding
11/22/2011                                                                                                                                                                                                                   $877,557.00
                                                                                                                                                                                                                                                                    Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                         Number     Average Price                                                       Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)        Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/18/2009                                                                                                                                     $0.00
                                 Preferred
11/29/2012 Layton Park                                                  Sold, in full;           $2,370,930.00                                             3,000         $790.30       ($629,070.00)                     $104,375.00
                                 Stock w/
           Financial Group,                         $3,000,000.00      warrants not                                                                                                                                                                                      $481,858.00
1/11/2013 Milwaukee, WI8,14      Exercised                                                                           ($23,709.29)
                                                                        outstanding
                                 Warrants
3/26/2013                                                                                                             ($1,290.71)
1/9/2009                                                                                                                                       $0.00
                                 Preferred                         Redeemed, in
             LCNB Corp.,
10/21/2009                       Stock w/          $13,400,000.00   full; warrants              $13,400,000.00                                            13,400       $1,000.00                                                          $17.87                         $524,833.33
             Lebanon, OH11
                                 Warrants                         not outstanding
11/22/2011                                                                                                                                                                                                               $602,557.00
12/23/2008                       Preferred                                                                                                     $0.00
           Leader Bancorp,                                           Redeemed, in
                                 Stock w/
           Inc., Arlington,                         $5,830,000.00     full; warrants                                                                                                                                                                                     $609,961.06
11/24/2010 MA8,11,14             Exercised                                                       $5,830,000.00                                             5,830       $1,000.00                                         $292,000.00
                                                                    not outstanding
                                 Warrants
1/30/2009 Legacy Bancorp,                                                                                                                      $0.00
                           Preferred                                  Currently not
          Inc., Milwaukee,                          $5,498,000.00                                                                                                                                                                                                        $355,079.00
3/11/2011 WI9,48,97        Stock                                        collectible                                                                                                  ($5,498,000.00)

1/23/2009 Liberty                Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Bancshares,            Stock w/
                                                   $57,500,000.00     full; warrants                                                                                                                                                                                   $7,816,966.00
7/21/2011 Inc., Jonesboro,       Exercised                                                      $57,500,000.00                                            57,500       $1,000.00                                        $2,875,000.00
                                                                    not outstanding
          AR8,14,45              Warrants
2/13/2009 Liberty                Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Bancshares,            Stock w/
                                                   $21,900,000.00     full; warrants                                                                                                                                                                                   $3,000,452.00
                  Springfield,   Exercised                                                      $21,900,000.00                                            21,900       $1,000.00                                        $1,095,000.00
8/18/2011 Inc.,8,14,45                                              not outstanding
          MO                     Warrants
                             Preferred                              Full investment
          Liberty
                             Stock w/                                 outstanding;
12/4/2009 Bancshares, Inc.,                         $6,500,000.00                                                                      $6,500,000.00                                                                                                                   $1,352,476.00
                        8,17 Exercised                                     warrants
          Fort Worth, TX
                             Warrants                                   outstanding
2/6/2009 Liberty Financial                                           Redeemed, in                                                              $0.00
                              Preferred
          Services, Inc., New                       $5,645,000.00     full; warrants                                                                                                                                                                                     $461,008.58
9/24/2010 Orleans, LA9,11,36  Stock                                                              $5,645,000.00                                             5,645       $1,000.00
                                                                    not outstanding
                                   Preferred                        Full investment
             Liberty Shares,       Stock w/                           outstanding;
2/20/2009                                          $17,280,000.00                                                                     $17,280,000.00                                                                                                                   $1,399,560.00
             Inc., Hinesville, GA8 Exercised                               warrants
                                   Warrants                             outstanding
7/10/2009                                                                                                                                      $0.00
          Lincoln National       Preferred                           Redeemed, in
6/30/2010 Corporation,           Stock w/         $950,000,000.00     full; warrants           $950,000,000.00                                           950,000       $1,000.00                                                          $51.46                      $46,180,554.50
          Radnor, PA11           Warrants                           not outstanding
9/22/2010                                                                                                                                                                                                             $213,671,319.20
12/12/2008                                                                                                                                     $0.00
                               Preferred                                Sold, in full;
             LNB Bancorp Inc.,
6/19/2012                      Stock w/            $25,223,000.00      warrants not             $21,923,074.91      ($328,846.12)                         25,223         $869.20     ($3,299,925.09)                                      $10.03                       $4,438,492.00
             Lorain, OH
                               Warrants                                 outstanding
7/18/2012                                                                                                                                                                                                                $860,326.00
                                 Preferred                          Full investment
             Lone Star Bank,     Stock w/                             outstanding;
2/6/2009                                            $3,072,000.00                                                                      $3,072,000.00                                                                                                                            $0.00
             Houston, TX8        Exercised                                 warrants
                                 Warrants                               outstanding
12/12/2008                                                                                                                                     $0.00
           LSB Corporation, Preferred                                Redeemed, in
11/18/2009 North Andover,   Stock w/               $15,000,000.00     full; warrants            $15,000,000.00                                            15,000       $1,000.00                                                                         407,542         $700,000.00
           MA11             Warrants                                not outstanding
12/16/2009                                                                                                                                                                                                               $560,000.00
6/26/2009 M&F Bancorp,                                               Redeemed, in                                                              $0.00
                                 Preferred
          Inc., Durham,                            $11,735,000.00     full; warrants                                                                                                                                                                                     $674,762.50
8/20/2010 NC8,9,17               Stock                                                          $11,735,000.00                                            11,735       $1,000.00
                                                                    not outstanding
12/23/2008                                                                                                                                     $0.00
5/18/2011 M&T Bank               Preferred                         Redeemed, in                $370,000,000.00                                           370,000       $1,000.00
          Corporation,           Stock w/         $600,000,000.00   full; warrants                                                                                                                                                       $116.42                    $155,027,270.00
8/21/2012 Buffalo, NY11          Warrants                         not outstanding              $230,000,000.00                                           230,000       $1,000.00
12/17/2012                                                                                                                                                                                                             $31,838,761.34
4/24/2009 Mackinac                                                                                                                             $0.00
                                 Preferred                              Sold, in full;
           Financial
8/29/2012                        Stock w/          $11,000,000.00      warrants not             $10,538,990.00      ($158,084.85)                         11,000         $958.10       ($461,010.00)                                      $9.90                        $1,840,923.00
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




           Corporation,
                                 Warrants                               outstanding
12/19/2012 Manistique, MI                                                                                                                                                                                               $1,300,000.00
3/13/2009                     Preferred                                                                                                        $0.00
           Madison Financial                                            Sold, in full;
                             Stock w/
           Corporation,                             $3,370,000.00      warrants not                                                                                                                                                                                      $169,421.50
11/19/2013 Richmond, KY8     Exercised                                                           $3,370,000.00                                             3,370       $1,022.60                         $76,195.70      $207,878.45
                                                                        outstanding
                             Warrants
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         381
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                       382
                                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/23/2008                                                                                                                                      $0.00
                                  Preferred
11/24/2009 Magna Bank,                                              Redeemed, in                  $3,455,000.00                                               3,455      $1,000.00
                                  Stock w/
                                                    $13,795,000.00   full; warrants                                                                                                                                                                               $1,661,468.00
6/8/2011     Memphis, TN8,11,44   Exercised                                                       $3,455,000.00                                               3,455      $1,000.00
                                                                   not outstanding
                                  Warrants
8/18/2011                                                                                         $6,885,000.00                                               6,885      $1,000.00                                  $690,000.00
12/29/2009                     Preferred                                                                                                        $0.00
             Mainline Bancorp,                                      Redeemed, in
                               Stock w/
             Inc., Ebensburg,                        $4,500,000.00   full; warrants                                                                                                                                                  $69.50                         $538,188.00
3/9/2012        8,14           Exercised                                                          $4,500,000.00                                              4,500       $1,000.00                                  $225,000.00
             PA                                                    not outstanding
                               Warrants
1/16/2009 MainSource                                                                                                                            $0.00
                            Preferred                                    Sold, in full;
          Financial Group,
4/3/2012                    Stock w/                $57,000,000.00      warrants not             $53,073,270.00      ($796,099.05)                          57,000         $931.10     ($3,926,730.00)                               $18.03                       $9,159,773.00
          Inc., Greensburg,
                            Warrants                                     outstanding
6/11/2013 IN                                                                                                                                                                                                       $1,512,177.00
12/5/2008                                                                                                                                       $0.00
           Manhattan              Preferred                           Redeemed, in
9/16/2009 Bancorp, El             Stock w/           $1,700,000.00     full; warrants             $1,700,000.00                                               1,700      $1,000.00                                                   $4.16                           $66,347.22
           Segundo, CA11          Warrants                           not outstanding
10/14/2009                                                                                                                                                                                                           $63,363.90
6/19/2009                                                                                                                                       $0.00
                              Subordinated
12/10/2012 Manhattan                                                     Sold, in full;                                                                                                                              $11,385.02
                              Debentures
           Bancshares, Inc.,                         $2,639,000.00      warrants not                                                                                                                                                                                $770,044.00
12/11/2012 Manhattan, IL14,15 w/ Exercised                               outstanding              $2,586,404.73                                           2,639,000          $0.98         ($52,595.27)              $95,959.50
                              Warrants
1/11/2013                                                                                                             ($25,000.00)
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                  Preferred                          Full investment
             Marine Bank &
                                  Stock w/                             outstanding;
3/6/2009     Trust Company,                          $3,000,000.00                                                                      $3,000,000.00                                                                                                               $235,713.00
                                  Exercised                                 warrants
             Vero Beach, FL8
                                  Warrants                               outstanding
             Market               Preferred                          Full investment
             Bancorporation,      Stock w/                             outstanding;
2/20/2009                                            $2,060,000.00                                                                      $2,060,000.00                                                                                                               $138,778.00
             Inc., New Market,    Exercised                                 warrants
             MN8                  Warrants                               outstanding
5/15/2009                                                                                                                                       $0.00
                              Subordinated
8/9/2012  Market Street                                                  Sold, in full;          $17,919,962.10                                          19,931,000          $0.90     ($2,011,037.90)              $727,225.54
                              Debentures
          Bancshares, Inc.,                         $20,300,000.00      warrants not                                                                                                                                                                              $5,535,303.00
8/10/2012 Mt. Vernon, IL14,15 w/ Exercised                               outstanding                $331,767.90                                            369,000           $0.90         ($37,232.10)              $97,505.10
                              Warrants
9/11/2012                                                                                                            ($182,517.30)
12/19/2008                                                                                                                                      $0.00
8/7/2012  Marquette               Preferred                                                       $2,530,958.50                                              3,514         $720.20       ($983,041.50)              $142,974.56
                                                                         Sold, in full;
          National                Stock w/
8/9/2012                                            $35,500,000.00      warrants not              $5,904,609.50                                              8,198         $720.20     ($2,293,390.50)             $1,054,743.77    $216.00                       $7,072,587.00
          Corporation,            Exercised
                     8,14                                                outstanding
8/10/2012 Chicago, IL             Warrants                                                       $17,133,307.00                                             23,788         $720.20     ($6,654,693.00)              $252,452.23
9/11/2012                                                                                                            ($255,688.75)
11/14/2008 Marshall & Ilsley      Preferred                         Redeemed, in                                                                $0.00
           Corporation,           Stock w/       $1,715,000,000.00   full; warrants                                                                                                                                                                            $226,522,916.66
7/5/2011 Milwaukee, WI43          Warrants                         not outstanding            $1,715,000,000.00                                           1,715,000      $1,000.00                                 $3,250,000.00

                             sPreferred                              Full investment
          Maryland Financial
                             Stock w/                                  outstanding;
3/27/2009 Bank, Towson,                              $1,700,000.00                                                                      $1,700,000.00                                                                                                               $313,466.00
                             Exercised                                      warrants
          MD8
                             Warrants                                    outstanding
12/5/2008                                                                                                                                       $0.00
                                Preferred                             Redeemed, in
             MB Financial Inc.,
3/14/2012                       Stock w/           $196,000,000.00     full; warrants           $196,000,000.00                                            196,000       $1,000.00                                                   $32.06                      $32,095,000.00
             Chicago, IL11
                                Warrants                             not outstanding
5/2/2012                                                                                                                                                                                                           $1,518,072.00
11/20/2009 McLeod                 Preferred                                                                                                     $0.00
                                                                      Redeemed, in
           Bancshares,            Stock w/
                                                     $6,000,000.00     full; warrants                                                                                                                                                                               $570,433.33
                  Shorewood,      Exercised                                                       $6,000,000.00                                                600      $10,000.00                                  $300,000.00
8/18/2011 Inc.,8,14,45                                               not outstanding
           MN                     Warrants
2/27/2009                         Preferred         $11,800,000.00                                                                              $0.00
           Medallion Bank,                                            Redeemed, in
                                  Stock w/
12/22/2009 Salt Lake City,                           $9,698,000.00     full; warrants                                                                                                                                                                             $2,317,674.81
                                  Exercised
           UT8,14,18,44                                              not outstanding
7/21/2011                         Warrants                                                       $21,498,000.00                                             21,498       $1,000.00                                  $645,000.00
5/15/2009                                                                                                                                       $0.00
             Mercantile Bank
4/4/2012                          Preferred                         Redeemed, in                 $10,500,000.00                                             10,500       $1,000.00
             Corporation,
                                  Stock w/          $21,000,000.00   full; warrants                                                                                                                                                  $21.58       3,166,021       $3,166,020.56
6/6/2012     Grand Rapids,                                                                       $10,500,000.00                                             10,500       $1,000.00
                                  Warrants                         not outstanding
             MI11
7/3/2012                                                                                                                                                                                                           $7,465,100.00
                                                                                                                                                                                                                                                           Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/6/2009                        Preferred                                                                                                      $0.00
             Mercantile Capital                                      Redeemed, in
                                Stock w/
             Corp., Boston,                         $3,500,000.00     full; warrants                                                                                                                                                                              $475,815.03
8/4/2011                        Exercised                                                        $3,500,000.00                                             3,500       $1,000.00                                  $175,000.00
             MA8,14,44                                              not outstanding
                                Warrants
3/6/2009     Merchants           Preferred                                                                                                     $0.00
                                                                     Redeemed, in
             and Planters        Stock w/
                                                    $1,881,000.00     full; warrants                                                                                                                                                                              $256,560.00
9/7/2011     Bancshares, Inc.,   Exercised                                                       $1,881,000.00                                             1,881       $1,000.00                                   $94,000.00
                                                                    not outstanding
             Toone, TN8,14,56    Warrants
6/19/2009 Merchants and          Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Manufacturers          Stock w/
                                                    $3,510,000.00     full; warrants                                                                                                                                                                              $424,668.47
9/8/2011 Bank Corporation,       Exercised                                                       $3,510,000.00                                             3,510       $1,000.00                                  $176,000.00
                                                                    not outstanding
          Joliet, IL8,14,44      Warrants
2/13/2009                        Preferred          $6,200,000.00 Full investment                                                     $12,535,000.00
           Meridian Bank,        Stock w/                           outstanding;
                     8,18                                                                                                                                                                                                                                       $2,851,026.00
12/11/2009 Devon, PA             Exercised          $6,335,000.00        warrants
                                 Warrants                             outstanding
1/30/2009                                                                                                                                      $0.00
                                 Preferred
10/29/2012 Metro City Bank,                                             Sold, in full;               $26,102.90                                               29         $900.10          ($2,897.10)
                                 Stock w/
                       8,14                         $7,700,000.00      warrants not                                                                                                                                                                             $1,574,888.00
11/1/2012 Doraville, GA          Exercised                                                       $6,904,667.10                                             7,671         $900.10       ($766,332.90)              $369,948.00
                                                                        outstanding
                                 Warrants
1/11/2013                                                                                                            ($69,307.70)
1/16/2009                                                                                                                                      $0.00
             MetroCorp         Preferred                                Sold, in full;
7/3/2012     Bancshares, Inc., Stock w/            $45,000,000.00      warrants not             $44,152,650.00      ($662,289.75)                         45,000         $981.20       ($847,350.00)                               $15.07                       $7,828,900.00
             Houston, TX       Warrants                                 outstanding
6/11/2013                                                                                                                                                                                                        $2,087,368.00
6/26/2009                   Preferred                                                                                                          $0.00
          Metropolitan                                                  Sold, in full;
                            Stock w/
          Bank Group, Inc.,                        $71,526,000.00      warrants not                                                                                                                                                                             $3,786,440.95
6/28/2013 Chicago, IL8,42   Exercised                                                           $23,718,541.95                                            71,526         $331.60    ($47,807,458.05)
                                                                        outstanding
                            Warrants
4/10/2009                                           $2,040,000.00 Full investment                                                      $4,388,000.00
           Metropolitan          Preferred
                                                                    outstanding;
           Capital Bancorp,      Stock w/                                                                                                                                                                                                                         $979,089.00
11/20/2009 Inc., Chicago, IL8,18 Warrants           $2,348,000.00        warrants
                                                                      outstanding
12/19/2008                                                                                                                                     $0.00
           Mid Penn              Preferred                           Redeemed, in
12/28/2012 Bancorp, Inc.,        Stock w/          $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                   $14.34          73,099       $2,012,500.00
           Millersburg, PA11     Warrants                           not outstanding
1/23/2013                                                                                                                                                                                                          $58,479.20
1/30/2009 Middleburg                                                                                                                           $0.00
                                 Preferred                           Redeemed, in
           Financial
12/23/2009                       Stock w/          $22,000,000.00     full; warrants            $22,000,000.00                                            22,000       $1,000.00                                                                                  $986,944.11
           Corporation,
                          12     Warrants                           not outstanding
11/18/2011 Middleburg, VA                                                                                                                                                                                         $301,001.00
1/23/2009                       Preferred                                                                                                      $0.00
           Midland States                                            Redeemed, in
                                Stock w/
           Bancorp, Inc.,                          $10,189,000.00     full; warrants                                                                                                                                                                              $508,989.34
12/23/2009 Effingham, IL8,11,14 Exercised                           not outstanding             $10,189,000.00                                            10,189       $1,000.00                                  $509,000.00
                                Warrants
1/9/2009                                                                                                                                       $0.00
           MidSouth              Preferred                           Redeemed, in
8/25/2011 Bancorp, Inc.,         Stock w/          $20,000,000.00     full; warrants            $20,000,000.00                                            20,000       $1,000.00                                                                                $2,627,777.78
           Lafayette, LA44       Warrants                           not outstanding
11/22/2011                                                                                                                                                                                                        $206,557.00
2/27/2009                        Preferred                                                                                                     $0.00
           Midtown Bank &                                               Sold, in full;
                                 Stock w/
           Trust Company,                           $5,222,000.00      warrants not                                                                                                                                                                               $275,104.50
11/19/2013 Atlanta, GA8          Exercised                                                       $3,133,200.00                                             5,222         $600.00     ($2,088,800.00)              $161,833.05
                                                                        outstanding
                                 Warrants
12/5/2008 Midwest Banc                                                                                                                         $0.00
                                 Preferred
          Holdings, Inc.,                                             Currently not
                                 Stock w/          $84,784,000.00                                                                                                                                                                               4,282,020         $824,289.00
5/14/2010 Melrose    Park,                                              collectible                                                                                                 ($84,784,000.00)
                                 Warrants
          IL22,27,97
2/13/2009                    Preferred                                                                                                         $0.00
           Midwest Regional                                          Redeemed, in
                             Stock w/
           Bancorp, Inc.,                             $700,000.00     full; warrants                                                                                                                                                                               $28,294.14
11/10/2009 Festus, MO8,11,14 Exercised                              not outstanding                $700,000.00                                               700       $1,000.00                                   $35,000.00
                             Warrants
2/6/2009  MidWestOne                                                                                                                           $0.00
                                 Preferred                           Redeemed, in
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




          Financial Group,
7/6/2011                         Stock w/          $16,000,000.00     full; warrants            $16,000,000.00                                            16,000       $1,000.00                                                   $27.20                       $1,933,333.33
          Inc., Iowa City,
            11                   Warrants                           not outstanding
7/27/2011 IA                                                                                                                                                                                                     $1,000,000.00
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  383
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)                                                                                                                                                                        384
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                             Investment          Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution        Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/20/2009 Mid-Wisconsin        Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Financial            Stock w/
                                                 $10,000,000.00      full; warrants                                                                                                                                                 $5.60                        $2,344,226.00
4/26/2013 Services, Inc.,      Exercised                                                       $10,000,000.00                                            10,000       $1,000.00                                    $500,000.00
                                                                   not outstanding
          Medford, WI8,11,14   Warrants
4/3/2009                       Preferred                                                                                                     $0.00
          Millennium                                                   Sold, in full;
                               Stock w/
          Bancorp, Inc.,                           $7,260,000.00      warrants not                                                                                                                                                                               $1,392,562.00
8/14/2012 Edwards, CO8         Exercised                                                        $2,904,000.00                                              7,260        $400.00     ($4,356,000.00)
                                                                       outstanding
                               Warrants
1/9/2009   Mission                                                                                                                           $0.00
                                                                    Redeemed, in
           Community           Preferred
                                                   $5,116,000.00     full; warrants                                                                                                                                                 $6.20                          $759,583.89
12/28/2011 Bancorp, San   Luis Stock                                                            $5,116,000.00                                             5,116       $1,000.00
                                                                   not outstanding
           Obispo, CA9,11
12/23/2008 Mission Valley                                           Redeemed, in                                                             $0.00
                               Preferred
           Bancorp, Sun                            $5,500,000.00     full; warrants                                                                                                                                                                                $456,041.66
8/20/2010 Valley, CA9,11,36    Stock                                                            $5,500,000.00                                             5,500       $1,000.00
                                                                   not outstanding
12/19/2008 Monadnock           Preferred                                                                                                     $0.00
                                                                    Redeemed, in
           Bancorp, Inc.,      Stock w/
                                                   $1,834,000.00     full; warrants                                                                                                                                                 $5.25                          $413,349.00
12/28/2012 Peterborough,       Exercised                                                        $1,834,000.00                                             1,834       $1,000.00                                     $92,000.00
                                                                   not outstanding
           NH11,8,14           Warrants
2/6/2009     Monarch                                                                                                                         $0.00
                               Preferred                               Sold, in full;
             Community
                               Stock w/            $6,785,000.00      warrants not                                                                                                                                                  $2.70                          $262,919.00
11/15/2013 Bancorp, Inc.,98    Warrants                                outstanding              $4,545,202.00                                          2,272,601          $2.00     ($2,239,798.00)
           Coldwater, MI
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




12/19/2008 Monarch Financial                                                                                                                 $0.00
                             Preferred                              Redeemed, in
           Holdings, Inc.,
12/23/2009                   Stock w/            $14,700,000.00      full; warrants            $14,700,000.00                                            14,700       $1,000.00                                                     $12.31                         $743,166.66
           Chesapeake,
             12,16           Warrants                              not outstanding
2/10/2010  VA                                                                                                                                                                                                      $260,000.00
3/13/2009 Moneytree            Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Corporation,         Stock w/
                                                   $9,516,000.00     full; warrants                                                                                                                                                                              $1,299,481.00
9/15/2011 Lenoir  City,        Exercised                                                        $9,516,000.00                                              9,516      $1,000.00                                    $476,000.00
                                                                   not outstanding
          TN8,14,45            Warrants
1/30/2009                      Preferred                                                                                                     $0.00
          Monument                                                  Redeemed, in
                               Stock w/
          Bank, Bethesda,                          $4,734,000.00     full; warrants                                                                                                                                                                                $652,958.50
8/11/2011 MD8,14,44            Exercised                                                        $4,734,000.00                                             4,734       $1,000.00                                    $237,000.00
                                                                   not outstanding
                               Warrants
10/28/2008                                                                                                                                   $0.00
                               Preferred                            Redeemed, in
             Morgan Stanley,
6/17/2009                      Stock w/       $10,000,000,000.00     full; warrants        $10,000,000,000.00                                         10,000,000      $1,000.00                                                     $31.36                    $318,055,555.11
             New York, NY11
                               Warrants                            not outstanding
8/12/2009                                                                                                                                                                                                       $950,000,000.00
1/16/2009                    Preferred                                                                                                       $0.00
          Morrill                                                   Redeemed, in
                             Stock w/
          Bancshares, Inc.,                      $13,000,000.00      full; warrants                                                                                                                                                                              $1,779,122.22
7/20/2011 Merriam, KS8,11,14 Exercised                             not outstanding             $13,000,000.00                                            13,000       $1,000.00                                    $650,000.00
                             Warrants
1/23/2009                   Preferred                                                                                                        $0.00
          Moscow                                                    Redeemed, in
                            Stock w/
4/25/2012 Bancshares, Inc.,                        $6,216,000.00     full; warrants             $1,100,000.00                                              1,100      $1,000.00                                                                                  $1,276,377.00
                            Exercised
          Moscow, TN8,11,14                                        not outstanding
12/5/2012                   Warrants                                                            $5,116,000.00                                              5,116      $1,000.00                                    $311,000.00
9/25/2009                      Preferred                                                                                                     $0.00
          Mountain Valley                                              Sold, in full;
                               Stock w/
7/22/2013 Bancshares, Inc.,                        $3,300,000.00      warrants not              $3,267,000.00                                             3,300         $990.00         ($33,000.00)               $140,034.65                                     $687,941.00
                               Exercised
          Cleveland, GA8,14                                            outstanding
9/12/2013                      Warrants                                                                            ($25,000.00)
3/27/2009                      Preferred                                                                                                     $0.00
           MS Financial,                                            Redeemed, in
                               Stock w/
           Inc., Kingwood,                         $7,723,000.00     full; warrants                                                                                                                                                                              $1,097,289.90
10/19/2011 TX8,11,14           Exercised                                                        $7,723,000.00                                              7,723      $1,000.00                                    $386,000.00
                                                                   not outstanding
                               Warrants
12/23/2008                                                                                                                                   $0.00
          MutualFirst          Preferred                            Redeemed, in
8/25/2011 Financial, Inc.,     Stock w/          $32,382,000.00      full; warrants            $32,382,000.00                                            32,382       $1,000.00                                                     $17.13                       $4,326,595.00
          Muncie, IN45         Warrants                            not outstanding
9/28/2011                                                                                                                                                                                                          $900,194.00
3/27/2009                      Preferred                                                                                                     $0.00
                                                                       Sold, in full;
          Naples Bancorp,      Stock w/
                          8                        $4,000,000.00      warrants not                                                                                                                                                                                 $356,066.67
7/12/2012 Inc., Naples, FL     Exercised                                                          $600,000.00                                             4,000         $150.00     ($3,400,000.00)
                                                                       outstanding
                               Warrants
11/21/2008                                                                                                                                   $0.00
          Nara Bancorp,     Preferred                               Redeemed, in
6/27/2012 Inc. Los Angeles, Stock w/             $67,000,000.00      full; warrants            $67,000,000.00                                            67,000       $1,000.00
          CA11,59           Warrants                               not outstanding
8/8/2012                                                                                                                                                                                                          $2,189,317.20
                                                                                                                                                                                                                                                          Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                 Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/27/2009                                                                                                                                     $0.00
                             Preferred
2/19/2013 National                                                     Sold, in full;           $2,438,182.50                                             3,250         $750.20       ($811,817.50)               $342,841.95
                             Stock w/
          Bancshares, Inc.,                       $24,664,000.00      warrants not                                                                                                                                                                              $2,307,492.00
2/20/2013 Bettendorf, IA8,14 Exercised                                 outstanding             $16,064,996.94                                            21,414         $750.20     ($5,349,003.06)               $502,606.30
                             Warrants
3/26/2013                                                                                                          ($185,031.79)
12/12/2008 National Penn                                                                                                                      $0.00
                                Preferred                         Redeemed, in
           Bancshares,
3/16/2011                       Stock w/         $150,000,000.00   full; warrants             $150,000,000.00                                           150,000       $1,000.00                                                    $11.33                      $16,958,333.33
           Inc., Boyertown,
              11,16             Warrants                         not outstanding
4/13/2011 PA                                                                                                                                                                                                     $1,000,000.00
12/11/2009 Nationwide           Subordinated                                                                                                  $0.00
                                                                    Redeemed, in
           Bankshares,          Debentures
                                                   $2,000,000.00     full; warrants                                                                                                                                                                               $176,190.00
12/29/2010 Inc., West Point,    w/ Exercised                                                    $2,000,000.00                                          2,000,000          $1.00                                   $100,000.00
                                                                   not outstanding
           NE11,14,15           Warrants
6/26/2009 NC Bancorp,                                                                                                                         $0.00
                               Preferred                               Sold, in full;
          Inc/Metropolitan
                               Stock w/            $6,880,000.00      warrants not
6/28/2013 Bank Group,8,42Inc., Warrants                                outstanding              $2,281,458.05                                             6,880         $331.60     ($4,598,541.95)
          Chicago, IL
                              Preferred                            Full investment
             NCAL Bancorp,    Stock w/                               outstanding;
12/19/2008                                        $10,000,000.00                                                                     $10,000,000.00                                                                                $0.55                        $1,311,027.78
             Los Angeles, CA8 Exercised                                   warrants
                              Warrants                                 outstanding
6/19/2009                 Subordinated                                                                                                        $0.00
          NEMO Bancshares                                           Redeemed, in
                          Debentures
          Inc., Madison,                           $2,330,000.00     full; warrants                                                                                                                                                                               $752,347.00
4/24/2013 MO11,14,15      w/ Exercised                                                          $2,330,000.00                                          2,330,000          $1.00                                   $117,000.00
                                                                   not outstanding
                          Warrants
1/16/2009 New Hampshire                                                                                                                       $0.00
                             Preferred                              Redeemed, in
          Thrift Bancshares,
8/25/2011                    Stock w/             $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                    $15.25                       $1,304,166.67
          Inc., Newport,
             44              Warrants                              not outstanding
2/15/2012 NH                                                                                                                                                                                                      $737,100.00
1/9/2009  New York Private      Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bank & Trust          Stock w/
                                                 $267,274,000.00     full; warrants                                                                                                                                                                            $66,156,005.83
7/24/2013 Corporation,   New    Exercised                                                     $267,274,000.00                                           267,274       $1,000.00                                 $13,364,000.00
                                                                   not outstanding
          York, NY8,11,14       Warrants
12/12/2008                                                                                                                                    $0.00
4/26/2013                                                                                       $2,709,121.50                                             2,763         $980.50         ($53,878.50)
          NewBridge             Preferred                              Sold, in full;
4/29/2013 Bancorp,              Stock w/          $52,372,000.00      warrants not             $48,641,624.50                                            49,609         $980.50       ($967,375.50)                                $7.43                       $11,471,039.00
          Greensboro, NC        Warrants                               outstanding
5/15/2013                                                                                                                                                                                                        $7,778,782.65
5/31/2013                                                                                                          ($513,507.46)
12/23/2008 Nicolet              Preferred                                                                                                     $0.00
                                                                  Redeemed, in
           Bankshares,          Stock w/
                                                  $14,964,000.00   full; warrants                                                                                                                                                                               $2,192,842.66
9/1/2011 Inc.,   Green Bay,     Exercised                                                      $14,964,000.00                                            14,964       $1,000.00                                   $748,000.00
                                                                 not outstanding
           WI8,14,44            Warrants
1/9/2009                                                                                                                                      $0.00
           North Central     Preferred                              Redeemed, in
12/14/2011 Bancshares, Inc., Stock w/             $10,200,000.00     full; warrants            $10,200,000.00                                            10,200       $1,000.00                                                    $0.00                        $1,494,583.33
           Fort Dodge, IA11 Warrants                               not outstanding
1/11/2012                                                                                                                                                                                                         $600,000.00
12/12/2008                                                                                                                                    $0.00
           Northeast            Preferred                           Redeemed, in
11/28/2012 Bancorp,             Stock w/           $4,227,000.00     full; warrants             $4,227,000.00                                             4,227       $1,000.00                                                    $9.58                          $837,181.00
           Lewiston, ME11       Warrants                           not outstanding
12/28/2012                                                                                                                                                                                                         $95,000.00
5/15/2009                                          $1,341,000.00                                                                              $0.00
           Northern State       Preferred                           Redeemed, in
12/18/2009 Bank, Closter,       Stock w/           $1,230,000.00     full; warrants                                                                                                                                                                               $349,782.00
           NJ8,11,14,18         Warrants                           not outstanding
3/28/2012                                                                                       $2,571,000.00                                             2,571       $1,000.00                                    $67,000.00
             Northern                                              Full investment
                                Preferred
             States Financial                                        outstanding;
2/20/2009                       Stock w/          $17,211,000.00                                                                     $17,211,000.00                                                                                $0.65          584,084         $418,322.50
             Corporation,                                                 warrants
                                Warrants
             Waukegan, IL                                              outstanding
11/14/2008                                                                                                                                    $0.00
          Northern Trust        Preferred                           Redeemed, in
6/17/2009 Corporation,          Stock w/       $1,576,000,000.00     full; warrants         $1,576,000,000.00                                          1,576,000      $1,000.00                                                    $61.89                      $46,623,333.35
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




          Chicago, IL11         Warrants                           not outstanding
8/26/2009                                                                                                                                                                                                       $87,000,000.00
1/30/2009                       Preferred                                                                                                     $0.00
          Northway                                                  Redeemed, in
                                Stock w/
          Financial, Inc.,                        $10,000,000.00     full; warrants                                                                                                                                                $17.50                       $1,430,624.67
9/15/2011 Berlin, NH8,14,44     Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                   $500,000.00
                                                                   not outstanding
                                Warrants
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  385
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                            386
                                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution         Description1    Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/13/2009                                                                                                                                      $0.00
          Northwest             Preferred
3/8/2013                                                                Sold, in full;           $2,000,000.00                                             2,000       $1,032.10                          $64,220.00
          Bancorporation,       Stock w/
                                                   $10,500,000.00      warrants not                                                                                                                                                                                     $575,429.50
                                Exercised                                                        $8,500,000.00                                             8,500       $1,032.10                         $272,935.00    $587,634.55
3/11/2013 Inc.,8,14Spokane,                                             outstanding
          WA                    Warrants
4/9/2013                                                                                                            ($108,371.55)
2/13/2009 Northwest             Preferred                                                                                                      $0.00
                                                                   Redeemed, in
          Commercial            Stock w/
                                                    $1,992,000.00   full; warrants                                                                                                                                                                                      $288,393.00
1/9/2013 Bank,   Lakewood,      Exercised                                                        $1,992,000.00                                             1,992       $1,000.00                                        $100,000.00
                                                                  not outstanding
          WA11,8,14             Warrants
1/30/2009                                                                                                                                      $0.00
           Oak Ridge
10/31/2012 Financial            Preferred                               Sold, in full;           $7,095,550.00                                             7,700         $921.50       ($604,450.00)
                                Stock w/            $7,700,000.00      warrants not                                                                                                                                                      $6.64          163,830       $1,444,854.00
1/11/2013 Services, Inc.,       Warrants                                outstanding                                  ($70,955.50)
          Oak Ridge, NC
2/6/2013                                                                                                                                                                                                                $122,887.50
12/5/2008                                                                                                                                      $0.00
          Oak Valley            Preferred                          Redeemed, in
8/11/2011 Bancorp,              Stock w/           $13,500,000.00   full; warrants              $13,500,000.00                                            13,500       $1,000.00                                                         $8.27                        $1,811,250.00
          Oakdale, CA45         Warrants                          not outstanding
9/28/2011                                                                                                                                                                                                               $560,000.00
1/16/2009                                                                                                                                      $0.00
           OceanFirst          Preferred                             Redeemed, in
12/30/2009 Financial Corp.,    Stock w/            $38,263,000.00     full; warrants            $38,263,000.00                                            38,263       $1,000.00                                                         $17.13                       $1,828,121.61
           Toms River, NJ12,16 Warrants                             not outstanding
2/3/2010                                                                                                                                                                                                                $430,797.00
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




1/30/2009                       Preferred                                                                                                      $0.00
                                                                     Redeemed, in
          Ojai Community        Stock w/
                        8                           $2,080,000.00     full; warrants                                                                                                                                                     $6.00                          $470,759.00
9/25/2013 Bank, Ojai, CA        Exercised                                                        $2,080,000.00                                             2,080       $1,000.00                                        $104,000.00
                                                                    not outstanding
                                Warrants
12/5/2008                                                                                                                                      $0.00
          Old Line          Preferred                                Redeemed, in
7/15/2009 Bancshares, Inc., Stock w/                $7,000,000.00     full; warrants             $7,000,000.00                                             7,000       $1,000.00                                                         $14.50                         $213,888.89
          Bowie, MD11       Warrants                                not outstanding
9/2/2009                                                                                                                                                                                                                $225,000.00
12/12/2008                                                                                                                                     $0.00
          Old National          Preferred                            Redeemed, in
3/31/2009 Bancorp,              Stock w/          $100,000,000.00     full; warrants           $100,000,000.00                                           100,000       $1,000.00                                                         $15.37                       $1,513,888.89
          Evansville, IN11      Warrants                            not outstanding
5/8/2009                                                                                                                                                                                                               $1,200,000.00
1/16/2009                                                                                                                                      $0.00
3/11/2013                                                                                       $24,684,870.00                                            70,028         $352.50    ($45,343,130.00)
3/26/2013 Old Second            Preferred                               Sold, in full;             $452,424.00                                             1,200         $377.00       ($747,576.00)
          Bancorp, Inc.,        Stock w/           $73,000,000.00      warrants not                                                                                                                                                      $4.62                        $5,769,027.78
3/27/2013 Aurora, IL            Warrants                                outstanding                $668,079.44                                             1,772         $377.00     ($1,103,920.56)
4/9/2013                                                                                                            ($258,053.73)
6/11/2013                                                                                                                                                                                                               $106,891.00
4/17/2009                                                                                                                                      $0.00
                           Preferred
7/19/2013 Omega Capital                                                 Sold, in full;           $1,239,000.00                                             1,239       $1,142.90                         $177,053.10
                           Stock w/
          Corp., Lakewood,                          $2,816,000.00      warrants not                                                                                                                                                                                      $50,310.50
7/22/2013 CO8,14           Exercised                                                             $1,577,000.00                                             1,577       $1,142.90                         $225,353.30    $159,886.25
                                                                        outstanding
                           Warrants
9/12/2013                                                                                                            ($25,000.00)
5/8/2009                        Preferred                                                                                                      $0.00
          One Georgia
                                Stock w/                              Currently not
          Bank, Atlanta,                            $5,500,000.00
7/15/2011 GA8,51,97             Exercised                               collectible                                                                                                  ($5,500,000.00)
                                Warrants
                                                                  Full investment
             OneUnited Bank,    Preferred                           outstanding;
12/19/2008                                         $12,063,000.00                                                                     $12,063,000.00                                                                                                                     $93,823.33
             Boston, MA8,9      Stock                               warrants not
                                                                      outstanding
                                 Subordinated                       Full investment
             OneFinancial
                                 Debentures                           outstanding;
6/5/2009     Corporation, Little                   $17,300,000.00                                                                     $17,300,000.00                                                                                                                  $3,782,991.00
                                 w/ Exercised                              warrants
             Rock, AR15,17
                                 Warrants                               outstanding
4/24/2009                   Preferred                                                                                                          $0.00
                                                                        Sold, in full;
           Oregon Bancorp, Stock w/
10/18/2013                                          $3,216,000.00      warrants not                $100,000.00                                               100       $1,000.00                                         $11,167.20      $11.21                         $787,355.00
           Inc., Salem, OR8 Exercised
                                                                        outstanding
10/21/2013                  Warrants                                                             $3,116,000.00                                             3,116       $1,000.00                                        $152,280.00
5/1/2009                        Subordinated                                                                                                   $0.00
          OSB Financial                                              Redeemed, in
                                Debentures
          Services, Inc.,                           $6,100,000.00     full; warrants                                                                                                                                                                                  $1,257,314.53
10/5/2011 Orange, TX11,14,15    w/ Exercised                                                     $6,100,000.00                                          6,100,000          $1.00                                        $305,000.00
                                                                    not outstanding
                                Warrants
                                                                                                                                                                                                                                                               Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                        Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
11/21/2008                                                                                                                                    $0.00
           Pacific Capital      Preferred                              Sold, in full;
2/23/2011 Bancorp, Santa        Stock w/         $180,634,000.00      warrants not                      $14.75                                                1          $29.50             ($10.28)                                      $45.98                       $2,107,397.00
           Barbara, CA11,35     Warrants                               outstanding
11/30/2012                                                                                    $165,983,272.00                                          3,608,332         $46.00    ($14,650,702.97)                      $393,120.78
12/19/2008 Pacific City         Preferred                                                                                                     $0.00
                                                                       Sold, in full;
           Financial            Stock w/
                                                  $16,200,000.00      warrants not                                                                                                                                                                                       $358,065.00
                                Exercised                                                      $16,200,000.00                                            16,200       $1,215.20                         $3,485,754.00   $1,168,319.70
11/19/2013 Corporation,8 Los                                           outstanding
           Angeles, CA          Warrants
12/23/2008 Pacific Coast                                                                                                                      $0.00
                                Preferred
           Bankers’                                                 Redeemed, in
                                Stock w/
           Bancshares,                            $11,600,000.00     full; warrants                                                                                                                                                                                    $1,641,963.89
7/28/2011 San Francisco,        Exercised                                                      $11,600,000.00                                            11,600       $1,000.00                                          $580,000.00
                                                                   not outstanding
                                Warrants
           CA8,14,45
1/16/2009 Pacific Coast         Preferred                                                                                                     $0.00
                                                                            Exited
          National Bancorp,     Stock w/
                                                   $4,120,000.00      bankruptcy/                                                                                                                                                         $0.00                           $18,087.94
                                Exercised                                                                                                                                           ($4,120,000.00)
2/11/2010 San8,26Clemente,                                            receivership
          CA                    Warrants
                            Preferred                              Full investment
           Pacific Commerce
                            Stock w/                                 outstanding;
12/23/2008 Bank, Los                               $4,060,000.00                                                                      $4,060,000.00                                                                                       $4.25                          $387,222.50
                            Exercised                                     warrants
           Angeles, CA8
                            Warrants                                   outstanding
12/12/2008 Pacific                                                                                                                            $0.00
                              Preferred                             Redeemed, in
           International
                              Stock w/             $6,500,000.00     full; warrants                                                                                                                                                       $0.00
2/15/2013 Bancorp,   Seattle,                                                                   $6,500,000.00                                             6,500       $1,000.00
               85             Warrants                                outstanding
           WA
3/6/2009                                                                                                                                      $0.00
8/7/2012  Park                  Preferred                                                       $1,676,654.00                                             2,296         $730.20       ($619,346.00)                       $88,059.01
                                                                       Sold, in full;
          Bancorporation,       Stock w/
8/9/2012                                          $23,200,000.00      warrants not              $4,048,506.00                                             5,544         $730.20     ($1,495,494.00)                      $482,779.69                                   $4,351,643.00
          Inc., Madison,        Exercised
             8,14                                                      outstanding
8/10/2012 WI                    Warrants                                                       $11,216,640.00                                            15,360         $730.20     ($4,143,360.00)                      $325,200.40
9/11/2012                                                                                                          ($169,418.00)
12/23/2008                                                                                                                                    $0.00
          Park National         Preferred                         Redeemed, in
4/25/2012 Corporation,          Stock w/         $100,000,000.00   full; warrants             $100,000,000.00                                           100,000       $1,000.00                                                           $85.07                      $16,694,444.00
          Newark, OH11          Warrants                         not outstanding
5/2/2012                                                                                                                                                                                                                $2,842,400.00
1/30/2009                                                                                                                                     $0.00
11/28/2012                                                                                        $394,072.28                                               548         $719.10       ($153,927.72)
                                Preferred                              Sold, in full;
             Parke Bancorp,
11/29/2012                      Stock w/          $16,288,000.00      warrants not             $11,318,791.40                                            15,740         $719.10     ($4,421,208.60)                                       $8.91          438,906       $3,119,532.00
             Inc., Sewell, NJ
                                Warrants                               outstanding
1/11/2013                                                                                                          ($117,128.64)
6/12/2013                                                                                                                                                                                                               $1,650,288.00
12/23/2008 Parkvale Financial                                                                                                                 $0.00
                              Preferred                             Redeemed, in
           Corpoation/F.N.B.
                              Stock w/            $31,762,000.00     full; warrants                                                                                                                                                                      342,564
1/3/2012 Corporation, 60 Warrants                                     outstanding              $31,762,000.00                                            31,762       $1,000.00
           Monroeville, PA
2/6/2009   Pascack Bancorp,                                                                                                                   $0.00
                                Preferred
           Inc. (Pascack                                            Redeemed, in
                                Stock w/
           Community                               $3,756,000.00     full; warrants                                                                                                                                                                                      $553,313.00
10/19/2011 Bank), Westwood,     Exercised                                                       $3,756,000.00                                             3,756       $1,000.00                                          $188,000.00
                                                                   not outstanding
                                Warrants
           NJ8,11,21
                                Preferred                          Full investment
           Patapsco
                                Stock w/                             outstanding;
12/19/2008 Bancorp, Inc.,                          $6,000,000.00                                                                      $6,000,000.00                                                                                       $2.25                          $377,866.67
                                Exercised                                 warrants
           Dundalk, MD8
                                Warrants                               outstanding
9/11/2009                                                                                                                                     $0.00
             Pathfinder         Preferred                           Redeemed, in
9/1/2011     Bancorp, Inc.,     Stock w/           $6,771,000.00     full; warrants             $6,771,000.00                                             6,771       $1,000.00                                                           $13.50                         $667,695.84
             Oswego, NY44       Warrants                           not outstanding
2/1/2012                                                                                                                                                                                                                 $537,633.00
3/27/2009                  Preferred                                                                                                          $0.00
                                                                       Sold, in full;
          Pathway Bancorp, Stock w/
6/24/2013                                          $3,727,000.00      warrants not              $3,727,000.00                                             3,727       $1,167.00                          $622,446.27     $226,565.00                                      $77,851.50
          Cairo, NE8,14    Exercised
                                                                       outstanding
7/26/2013                  Warrants                                                                                 ($25,000.00)
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                             Preferred                             Full investment
           Patriot
                             Stock w/                                outstanding;
12/19/2008 Bancshares, Inc.,                      $26,038,000.00                                                                     $26,038,000.00                                                                                                                    $2,704,135.78
                             Exercised                                    warrants
           Houston, TX8
                             Warrants                                  outstanding
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         387
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                      388
                                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
4/17/2009                                                                                                                                       $0.00
3/7/2012                                                                                            $250,000.00                                               250       $1,000.00
          Patterson               Preferred
8/22/2012 Bancshares,                                                 Redeemed, in                  $250,000.00                                               250       $1,000.00
                                  Stock w/
                                                     $3,690,000.00     full; warrants                                                                                                                                                                              $817,023.00
                 Patterson,       Exercised                                                         $250,000.00                                               250       $1,000.00
12/5/2012 Inc,8,11,14                                                not outstanding
          LA                      Warrants
5/8/2013                                                                                            $500,000.00                                               500       $1,000.00
6/5/2013                                                                                          $2,440,000.00                                             2,440       $1,000.00                                  $185,000.00
1/9/2009                                                                                                                                        $0.00
1/6/2010  Peapack-                                                                                $7,172,000.00                                             7,172       $1,000.00
          Gladstone               Preferred                           Redeemed, in
3/2/2011  Financial               Stock w/          $28,685,000.00     full; warrants             $7,172,000.00                                             7,172       $1,000.00                                                   $19.10                       $3,280,740.00
          Corporation,            Warrants                           not outstanding
1/11/2012 Gladstone, NJ11                                                                        $14,341,000.00                                            14,341       $1,000.00
4/4/2012                                                                                                                                                                                                           $110,000.00
4/17/2009                         Preferred                                                                                                     $0.00
             Penn Liberty                                           Redeemed, in
                                  Stock w/
             Financial Corp.,                        $9,960,000.00   full; warrants                                                                                                                                                                              $1,287,689.33
9/1/2011                          Exercised                                                       $9,960,000.00                                             9,960       $1,000.00                                  $498,000.00
             Wayne, PA8,14,44                                      not outstanding
                                  Warrants
1/30/2009                                                                                                                                       $0.00
2/2/2011   Peoples Bancorp        Preferred                         Redeemed, in                 $21,000,000.00                                            21,000       $1,000.00
           Inc., Marietta,        Stock w/          $39,000,000.00   full; warrants                                                                                                                                                 $22.51                       $4,725,833.33
12/28/2011 OH11                   Warrants                         not outstanding               $18,000,000.00                                            18,000       $1,000.00
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




2/15/2012                                                                                                                                                                                                         $1,200,724.15
2/13/2009                    Preferred                                                                                                          $0.00
             Peoples Bancorp                                        Redeemed, in
                             Stock w/
             (WA), Lynden,                          $18,000,000.00   full; warrants                                                                                                                                                                              $2,425,250.00
8/3/2011                     Exercised                                                           $18,000,000.00                                            18,000       $1,000.00                                  $900,000.00
             WA8,14,56                                             not outstanding
                             Warrants
12/23/2008                                                                                                                                      $0.00
             Peoples Bancorp Preferred                                   Sold, in full;
7/3/2012     of North Carolina, Stock w/            $25,054,000.00      warrants not             $23,384,401.44      ($350,766.02)                         25,054         $933.40     ($1,669,598.56)                               $14.18                       $4,419,331.00
             Inc., Newton, NC Warrants                                   outstanding
8/8/2012                                                                                                                                                                                                           $425,000.00
4/24/2009                      Preferred                                                                                                        $0.00
          Peoples                                                     Redeemed, in
                               Stock w/
          Bancorporation,                           $12,660,000.00     full; warrants                                                                                                                                                                            $2,069,910.00
4/24/2012 Inc., Easley, SC8,14 Exercised                             not outstanding             $12,660,000.00                                            12,660       $1,000.00                                  $633,000.00
                               Warrants
3/20/2009 Peoples                 Preferred                                                                                                     $0.00
                                                                         Sold, in full;
          Bancshares of TN,       Stock w/
10/31/2012                                           $3,900,000.00      warrants not              $2,944,500.00                                             3,900         $755.00       ($955,500.00)              $122,225.00                                     $768,149.00
          Inc, Madisonville,      Exercised
             8,14                                                        outstanding
1/11/2013 TN                      Warrants                                                                            ($25,000.00)
3/6/2009                    Preferred                                                                                                           $0.00
          PeoplesSouth                                                Redeemed, in
                            Stock w/
          Bancshares, Inc.,                         $12,325,000.00     full; warrants                                                                                                                                                                            $3,044,994.66
9/18/2013 Colquitt, GA8     Exercised                                                            $12,325,000.00                                            12,325       $1,000.00                                  $616,000.00
                                                                     not outstanding
                            Warrants
9/11/2009 PFSB                    Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancorporation,         Stock w/
                                                     $1,500,000.00     full; warrants                                                                                                                                                                              $159,162.66
8/25/2011 Inc., Pigeon Falls,     Exercised                                                       $1,500,000.00                                             1,500       $1,000.00                                   $71,000.00
                                                                     not outstanding
          WI8,17,45               Warrants
2/6/2009 PGB Holdings,                                                Redeemed, in                                                              $0.00
                                  Preferred
          Inc., Chicago,                             $3,000,000.00     full; warrants                                                                                                                                                                              $227,916.67
8/13/2010 IL9,11,36               Stock                                                           $3,000,000.00                                             3,000       $1,000.00
                                                                     not outstanding
1/23/2009                  Preferred                                                                                                            $0.00
          Pierce County
                           Stock w/                                    Currently not
          Bancorp, Tacoma,                           $6,800,000.00                                                                                                                                                                                                 $207,947.78
11/5/2010 WA8,46,97        Exercised                                     collectible                                                                                                  ($6,800,000.00)
                           Warrants
             Pinnacle Bank        Preferred                          Full investment
             Holding Company,     Stock w/                             outstanding;
3/6/2009                                             $4,389,000.00                                                                      $4,389,000.00                                                                                              267,455         $284,999.00
             Inc., Orange City,   Exercised                                 warrants
             FL8,69               Warrants                               outstanding
12/12/2008                                                                                                                                      $0.00
12/28/2011 Pinnacle Financial Preferred                             Redeemed, in                 $23,750,000.00                                            23,750       $1,000.00
           Partners, Inc.,    Stock w/              $95,000,000.00   full; warrants                                                                                                                                                 $32.53                      $16,163,194.00
6/20/2012 Nashville, TN11     Warrants                             not outstanding               $71,250,000.00                                            71,250       $1,000.00
7/18/2012                                                                                                                                                                                                          $755,000.00
12/19/2008                        Preferred                                                                                                     $0.00
          Plains Capital                                            Redeemed, in
                                  Stock w/
          Corporation,                              $87,631,000.00   full; warrants                                                                                                                                                                             $13,239,939.77
9/27/2011 Dallas, TX8,14,44       Exercised                                                      $87,631,000.00                                            87,631       $1,000.00                                 $4,382,000.00
                                                                   not outstanding
                                  Warrants
                                                                                                                                                                                                                                                          Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                         (CONTINUED)
                                                                                                                                                           Number     Average Price                                                        Stock Price       Current
Transaction                        Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution            Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
7/17/2009                                                                                                                                        $0.00
                                   Subordinated
4/26/2013 Plato Holdings                                                  Sold, in full;             $120,000.00                                           120,000           $1.00                              $180.00
                                   Debentures
          Inc., Saint Paul,                           $2,500,000.00      warrants not                                                                                                                                                                                       $534,286.00
4/29/2013 MN15,17                  w/ Exercised                                                    $2,380,000.00                                          2,380,000          $1.00                            $3,570.00      $90,582.47
                                                                          outstanding
                                   Warrants
5/31/2013                                                                                                              ($25,000.00)
1/30/2009                                                                                                                                        $0.00
4/29/2013 Plumas Bancorp, Preferred                                       Sold, in full;          $11,949,000.00                                            11,949       $1,091.10                         $1,088,673.39
                          Stock w/                   $11,949,000.00      warrants not                                                                                                                                                        $6.22                          $622,343.75
5/22/2013 Quincy, CA      Warrants                                        outstanding                                                                                                                                       $234,500.00
5/31/2013                                                                                                             ($130,376.73)
                                                                    Full investment
                             Preferred
          Popular, Inc., San                                          outstanding;
12/5/2008                    Stock w/               $935,000,000.00                                                                    $935,000,000.00                                                                                       $28.73       2,093,284    $218,296,528.00
          Juan, PR20                                                       warrants
                             Warrants
                                                                        outstanding
                                                                      Full investment
                                   Preferred
              Porter Bancorp                                            outstanding;
11/21/2008                         Stock w/          $35,000,000.00                                                                     $35,000,000.00                                                                                       $1.01          330,561       $4,783,333.33
              Inc., Louisville, KY                                           warrants
                                   Warrants
                                                                          outstanding
                                Preferred                             Full investment
              Prairie Star
                                Stock w/                                outstanding;
4/3/2009      Bancshares, Inc.,                       $2,800,000.00                                                                      $2,800,000.00                                                                                                                      $132,253.00
                         8      Exercised                                    warrants
              Olathe, KS
                                Warrants                                  outstanding
5/8/2009  Premier Bancorp,                                             Redeemed, in                                                              $0.00
                           Subordinated
          Inc., Wilmette,                             $6,784,000.00     full; warrants                                                                                                                                                                                      $660,215.12
8/13/2010 IL9,15,36        Debentures                                                              $6,784,000.00                                          6,784,000          $1.00
                                                                      not outstanding
3/20/2009 Premier Bank             Preferred                                                                                                     $0.00
          Holding Company,         Stock w/                             Currently not
                                                      $9,500,000.00                                                                                                                                                                                                         $467,412.50
8/14/2012 Tallahassee,             Exercised                              collectible                                                                                                  ($9,500,000.00)
          FL8,22,97                Warrants
10/2/2009                                                                                                                                        $0.00
8/8/2012                                                                                           $1,678,618.89                                             1,863         $901.00       ($184,381.11)
              Premier Financial Preferred                                 Sold, in full;
8/9/2012      Bancorp, Inc.,    Stock w/             $22,252,000.00          warrants              $8,575,102.51                                             9,517         $901.00       ($941,897.49)                                       $14.15         628,588       $3,203,018.00
              Huntington, WV    Warrants                                  outstanding
8/10/2012                                                                                          $9,795,998.16                                            10,872         $901.00     ($1,076,001.84)
9/11/2012                                                                                                             ($200,497.20)
5/22/2009                   Subordinated                                                                                                         $0.00
          Premier Financial                                               Sold, in full;
                            Debentures
7/22/2013 Corp, Dubuque,                              $6,349,000.00      warrants not              $6,349,000.00                                          6,349,000          $1.24                         $1,507,379.58    $478,590.75                                     $522,262.58
            14,15           w/ Exercised
          IA                                                              outstanding
9/12/2013                   Warrants                                                                                   ($78,563.80)
                                   Preferred                          Full investment
          Premier Service
                                   Stock w/                             outstanding;
2/20/2009 Bank, Riverside,                            $4,000,000.00                                                                      $4,000,000.00                                                                                       $6.15                           $54,500.00
                                   Exercised                                 warrants
          CA8
                                   Warrants                               outstanding
2/13/2009 PremierWest              Preferred                           Redeemed, in                                                              $0.00
          Bancorp,                 Stock w/          $41,400,000.00     full; warrants                                                                                                                                                       $1.99                        $1,046,500.00
4/9/2013 Medford, OR80             Warrants                           not outstanding             $41,400,000.00                                            41,400       $1,000.00

11/20/2009                                                                                                                                       $0.00
                                   Preferred
12/10/2012 Presidio Bank,                                                 Sold, in full;             $262,635.10                                               310         $847.20         ($47,364.90)                      $83,086.12
                                   Stock w/
           San Francisco,                            $10,800,000.00      warrants not                                                                                                                                                        $9.95                        $1,740,944.00
12/11/2012 CA8,17                  Exercised                                                       $8,887,232.90                                            10,490         $847.20     ($1,602,767.10)                      $195,295.20
                                                                          outstanding
                                   Warrants
1/11/2013                                                                                                              ($91,498.68)
1/23/2009 Princeton National Preferred               $25,083,000.00                                                                              $0.00
                                                                        Currently not
          Bancorp, Inc.,     Stock w/                                                                                                                                                                                                        $0.01          155,025       $2,271,405.00
11/2/2012 Princeton, IL75,97 Warrants                                     collectible                                                                                                 ($25,083,000.00)

2/27/2009 Private                  Preferred          $4,960,000.00 Full investment                                                      $8,222,000.00
           Bancorporation,         Stock w/                           outstanding;
                                                                                                                                                                                                                                                                            $498,859.56
12/29/2009 Inc.,8,18Minneapolis,   Exercised          $3,262,000.00        warrants
           MN                      Warrants                             outstanding
1/30/2009                                                                                                                                        $0.00
                                  Preferred                            Redeemed, in
              PrivateBancorp,
10/24/2012                        Stock w/          $243,815,000.00     full; warrants           $243,815,000.00                                           243,815       $1,000.00                                                           $28.93                      $45,512,133.00
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




              Inc., Chicago, IL12
                                  Warrants                            not outstanding
11/14/2012                                                                                                                                                                                                                 $1,225,000.00
10/2/2009                  Preferred                                                                                                             $0.00
          Providence Bank,                                             Redeemed, in
                           Stock w/
          Rocky Mount,                                $4,000,000.00     full; warrants                                                                                                                                                                                      $421,311.80
9/15/2011 NC8,17,44        Exercised                                                               $4,000,000.00                                             4,000       $1,000.00                                          $175,000.00
                                                                      not outstanding
                           Warrants
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            389
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                                390
                                                                                                                                                          Number     Average Price                                                          Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                         as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)            Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
11/14/2008                                                                                                                                      $0.00
           Provident
8/21/2012 Banshares               Preferred                              Sold, in full;         $151,500,000.00                                           151,500       $1,000.00
           Corp./M&T Bank         Stock w/         $151,500,000.00      warrants not
3/20/2013 Corporation,            Warrants                               outstanding                                                                                                                             $71.62
           Baltimore, MD88
3/25/2013                                                                                                                                                                                                 $19,047,005.12
             Provident                                               Full investment
                               Preferred
             Community                                                 outstanding;
3/13/2009                      Stock w/              $9,266,000.00                                                                      $9,266,000.00                                                                                         $0.33          178,880         $543,091.00
             Bancshares, Inc.,                                              warrants
                               Warrants
             Rock Hill, SC                                               outstanding
2/27/2009                         Preferred                                                                                                     $0.00
          PSB Financial                                               Redeemed, in
                                  Stock w/
          Corporation,                               $9,270,000.00     full; warrants                                                                                                                                                                                        $802,802.00
9/29/2010 Many, LA8,11,14         Exercised                                                       $9,270,000.00                                             9,270       $1,000.00                                            $464,000.00
                                                                     not outstanding
                                  Warrants
1/16/2009                         Preferred                                                                                                     $0.00
          Puget Sound                                                 Redeemed, in
                                  Stock w/
          Bank, Bellevue,                            $4,500,000.00     full; warrants                                                                                                                                                         $13.51                         $630,156.75
8/11/2011 WA8,14,44               Exercised                                                       $4,500,000.00                                             4,500       $1,000.00                                            $225,000.00
                                                                     not outstanding
                                  Warrants
1/16/2009                                                                                                                                       $0.00
             Pulaski Financial    Preferred                              Sold, in full;
7/3/2012     Corp, Creve          Stock w/          $32,538,000.00      warrants not             $28,893,744.00      ($433,406.16)                         32,538         $888.00     ($3,644,256.00)                                         $11.17                       $5,635,509.00
             Coeur, MO            Warrants                               outstanding
8/8/2012                                                                                                                                                                                                                    $1,100,000.00
2/13/2009                                                                                                                                       $0.00
                                  Preferred                           Redeemed, in
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




             QCR Holdings,
9/15/2011                         Stock w/          $38,237,000.00     full; warrants            $38,237,000.00                                            38,237       $1,000.00                                                             $17.03                       $4,949,567.33
             Inc., Moline, IL44
                                  Warrants                           not outstanding
11/16/2011                                                                                                                                                                                                                  $1,100,000.00
10/30/2009                 Preferred                                                                                                            $0.00
           Randolph Bank &                                            Redeemed, in
                           Stock w/
           Trust Company,                            $6,229,000.00     full; warrants                                                                                                                                                                                        $650,593.00
9/30/2013 Asheboro, NC8    Exercised                                                              $6,229,000.00                                             6,229       $1,000.00                                            $311,000.00
                                                                     not outstanding
                           Warrants
6/19/2009                         Preferred                                                                                                     $0.00
           RCB Financial                                                 Sold, in full;
                                  Stock w/
9/25/2013 Corporation,                               $8,900,000.00      warrants not              $8,073,279.00                                             8,900         $907.10       ($826,721.00)                        $253,383.25                                     $893,934.15
                                  Exercised
           Rome, GA8,17                                                  outstanding
10/29/2013                        Warrants                                                                            ($80,732.79)
1/16/2009                  Preferred                                                                                                            $0.00
          Redwood Capital                                             Redeemed, in
                           Stock w/
          Bancorp, Eureka,                           $3,800,000.00     full; warrants                                                                                                                                                         $8.81                          $520,626.39
7/21/2011 CA8,14,44        Exercised                                                              $3,800,000.00                                             3,800       $1,000.00                                            $190,000.00
                                                                     not outstanding
                           Warrants
1/9/2009  Redwood                  Preferred                                                                                                    $0.00
                                                                      Redeemed, in
          Financial Inc.,         Stock w/
                                                     $2,995,000.00     full; warrants                                                                                                                                                         $40.00                         $425,811.00
8/18/2011 Redwood Falls,          Exercised                                                       $2,995,000.00                                             2,995       $1,000.00                                            $150,000.00
                                                                     not outstanding
          MN8,14,44               Warrants
                                  Preferred                          Full investment
             Regent Bancorp,      Stock w/                             outstanding;
3/6/2009                                             $9,982,000.00                                                                      $9,982,000.00                                                                                                                        $784,281.50
             Inc., Davie, FL8     Exercised                                 warrants
                                  Warrants                               outstanding
2/27/2009                         Preferred                                                                                                     $0.00
          Regent Capital                                              Redeemed, in
                                  Stock w/
          Corporation,                               $2,655,000.00     full; warrants                                                                                                                                                                                        $347,328.00
7/21/2011 Nowata, OK8,14,44       Exercised                                                       $2,655,000.00                                             2,655       $1,000.00                                            $133,000.00
                                                                     not outstanding
                                  Warrants
10/23/2009 Regents                Preferred                                                                                                     $0.00
                                                                      Redeemed, in
           Bancshares,            Stock w/
                                                    $12,700,000.00     full; warrants                                                                                                                                                                                      $1,513,338.99
                  Vancouver,      Exercised                                                      $12,700,000.00                                            12,700       $1,000.00                                            $381,000.00
1/26/2012 Inc.,8,17,62                                               not outstanding
           WA                     Warrants
2/13/2009                                                                                                                                       $0.00
11/8/2012                    Preferred                                                              $246,975.00                                               267         $925.00         ($20,025.00)
          Regional                                                       Sold, in full;
                             Stock w/
11/9/2012 Bankshares, Inc.,                          $1,500,000.00      warrants not              $1,140,525.00                                             1,233         $925.00         ($92,475.00)                        $50,000.00                                     $305,660.00
                        8,14 Exercised
          Hartsville, SC                                                 outstanding
1/11/2013                    Warrants                                                                                 ($13,875.00)
3/26/2013                                                                                                             ($11,125.00)
11/14/2008                                                                                                                                      $0.00
             Regions Financial Preferred                            Redeemed, in
4/4/2012     Corporation,      Stock w/          $3,500,000,000.00   full; warrants           $3,500,000,000.00                                          3,500,000      $1,000.00                                                             $9.89                     $593,055,555.55
             Birmingham, AL11 Warrants                             not outstanding
5/2/2012                                                                                                                                                                                                                   $45,000,000.00
2/13/2009                   Preferred                                                                                                           $0.00
           Reliance                                                      Sold, in full;
                            Stock w/
9/25/2013 Bancshares, Inc.,                         $40,000,000.00      warrants not             $40,000,000.00                                            40,000       $1,004.90                           $196,000.00     $2,199,799.80     $2.40                        $3,827,111.00
                        8   Exercised
           Frontenac, MO                                                 outstanding
10/29/2013                  Warrants                                                                                 ($401,960.00)
                                                                                                                                                                                                                                                                    Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/27/2009 Ridgestone           Preferred                                                                                                     $0.00
                                                                      Sold, in full;
          Financial            Stock w/
2/20/2013                                        $10,900,000.00      warrants not              $8,966,340.00                                             10,900         $822.60     ($1,933,660.00)              $476,206.83                                     $277,223.50
          Services, Inc.,      Exercised
                        8,14                                          outstanding
3/26/2013 Brookfield, WI       Warrants                                                                            ($89,663.40)
                               Preferred                          Full investment
             Rising Sun
                               Stock w/                             outstanding;
1/9/2009     Bancorp, Rising                      $5,983,000.00                                                                      $5,983,000.00                                                                                                               $195,637.00
                               Exercised                                 warrants
             Sun, MD8
                               Warrants                               outstanding
6/12/2009 River Valley         Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancorporation,      Debentures
6/6/2012                                         $15,000,000.00     full; warrants            $10,500,000.00                                          10,500,000          $1.00                                                   $26.00                       $4,178,275.00
          Inc., Wausau,        w/ Exercised
             11,14,15                                             not outstanding
5/15/2013 WI                   Warrants                                                        $4,500,000.00                                           4,500,000          $1.00                                  $750,000.00
                            Subordinated                          Full investment
          Riverside
                            Debentures                              outstanding;
5/15/2009 Bancshares, Inc.,                       $1,100,000.00                                                                      $1,100,000.00                                                                                                               $369,160.00
                            w/ Exercised                                 warrants
          Little Rock, AR15
                            Warrants                                  outstanding
1/30/2009 Rogers               Preferred                                                                                                     $0.00
          Bancshares,          Stock w/                             Currently not
                                                 $25,000,000.00                                                                                                                                                                                                  $738,021.00
7/5/2013 Inc., Little Rock,    Exercised                              collectible                                                                                                  ($25,000,000.00)
          AR8,95,97            Warrants
                                                                  Full investment
          Royal Bancshares Preferred
                                                                    outstanding;
2/20/2009 of Pennsylvania, Stock w/              $30,407,000.00                                                                     $30,407,000.00                                                                                $1.38        1,104,370         $358,971.00
                                                                         warrants
          Inc., Narberth, PA Warrants
                                                                      outstanding
1/16/2009                                                                                                                                    $0.00
                               Preferred                           Redeemed, in
             S&T Bancorp,
12/7/2011                      Stock w/         $108,676,000.00     full; warrants           $108,676,000.00                                            108,676       $1,000.00                                                   $25.31                      $15,712,738.00
             Indiana, PA11
                               Warrants                           not outstanding
6/11/2013                                                                                                                                                                                                        $527,361.00
                            Preferred                             Full investment
           Saigon
                            Stock w/                                outstanding;
12/23/2008 National Bank,                         $1,549,000.00                                                                      $1,549,000.00                                                                                $0.16                                 $0.00
                            Exercised                                    warrants
           Westminster, CA8
                            Warrants                                  outstanding
3/13/2009                                                                                                                                    $0.00
          Salisbury            Preferred                           Redeemed, in
8/25/2011 Bancorp, Inc.,       Stock w/           $8,816,000.00     full; warrants             $8,816,000.00                                               8,816      $1,000.00                                                   $26.89                       $1,079,960.44
          Lakeville, CT44      Warrants                           not outstanding
11/2/2011                                                                                                                                                                                                        $205,000.00
12/5/2008                                                                                                                                    $0.00
7/21/2010 Sandy Spring         Preferred                         Redeemed, in                 $41,547,000.00                                             41,547       $1,000.00
           Bancorp, Inc.,      Stock w/          $83,094,000.00   full; warrants                                                                                                                                                  $28.19                       $7,593,868.00
12/15/2010 Olney, MD11,44      Warrants                         not outstanding               $41,547,000.00                                             41,547       $1,000.00
2/23/2011                                                                                                                                                                                                       $4,450,000.00
2/13/2009                       Preferred                                                                                                    $0.00
             Santa Clara Valley                                       Sold, in full;
                                Stock w/
3/8/2013     Bank, N.A., Santa                    $2,900,000.00      warrants not              $2,465,029.00                                              2,900         $850.00       ($434,971.00)               $98,251.45      $5.60                          $158,928.06
                      8,14      Exercised
             Paula, CA                                                outstanding
4/9/2013                        Warrants                                                                           ($25,000.00)
12/19/2008 Santa Lucia         Preferred                              Sold, in full;                                                         $0.00
           Bancorp,            Stock w/           $4,000,000.00      warrants not                                                                                                                                                 $6.56                          $331,111.11
10/21/2011 Atascadero, CA      Warrants                               outstanding              $2,800,000.00                                              4,000         $700.00     ($1,200,000.00)

3/27/2009                       Preferred                                                                                                    $0.00
          SBT Bancorp,                                             Redeemed, in
                               Stock w/
          Inc., Simsbury,                         $4,000,000.00     full; warrants                                                                                                                                                                               $517,144.78
8/11/2011 CT8,14,44            Exercised                                                       $4,000,000.00                                              4,000       $1,000.00                                  $200,000.00
                                                                  not outstanding
                               Warrants
1/16/2009                                                                                                                                    $0.00
          SCBT Financial       Preferred                           Redeemed, in
5/20/2009 Corporation,         Stock w/          $64,779,000.00     full; warrants            $64,779,000.00                                             64,779       $1,000.00                                                   $66.51                       $1,115,638.84
          Columbia, SC11       Warrants                           not outstanding
6/24/2009                                                                                                                                                                                                       $1,400,000.00
12/19/2008                                                                                                                                   $0.00
             Seacoast Banking Preferred                               Sold, in full;
4/3/2012     Corporation of      Stock w/        $50,000,000.00      warrants not             $41,020,000.00      ($615,300.00)                            2,000     $20,510.00     ($8,980,000.00)                               $12.20                       $8,585,770.00
             Florida, Stuart, FL Warrants                             outstanding
5/30/2012                                                                                                                                                                                                         $55,000.00
12/23/2008 Seacoast            Preferred                                                                                                     $0.00
                                                                   Redeemed, in
           Commerce Bank,      Stock w/
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                  $1,800,000.00     full; warrants                                                                                                                                                $8.00                          $263,780.00
9/1/2011   Chula Vista,        Exercised                                                       $1,800,000.00                                              1,800       $1,000.00                                   $90,000.00
                                                                  not outstanding
           CA8,14,44           Warrants
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 391
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)                                                                                                                                                                                392
                                                                                                                                                         Number     Average Price                                                         Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/13/2009                                                                                                                                     $0.00
12/10/2012 Security             Preferred                                                         $174,537.72                                                252         $692.60         ($77,462.28)
           Bancshares of                                               Sold, in full;
                                Stock w/
12/11/2012 Pulaski County,                         $2,152,000.00      warrants not              $1,315,959.00                                              1,900         $692.60        ($584,041.00)                       $69,186.80                                     $449,073.00
                                Exercised
           Inc., Waynesville,                                          outstanding
1/11/2013 MO8,14                Warrants                                                                            ($14,904.97)
3/26/2013                                                                                                           ($10,095.03)
1/9/2009                    Preferred                                                                                                         $0.00
          Security Business                                       Redeemed, in
                            Stock w/
          Bancorp, San                             $5,803,000.00   full; warrants                                                                                                                                                                                          $795,017.86
7/14/2011 Diego, CA8,14,44  Exercised                                                           $5,803,000.00                                              5,803       $1,000.00                                           $290,000.00
                                                                 not outstanding
                            Warrants
1/9/2009                       Preferred                                                                                                      $0.00
          Security California                                       Redeemed, in
                               Stock w/
          Bancorp,                                 $6,815,000.00     full; warrants                                                                                                                                                         $9.61                          $996,698.33
9/15/2011 Riverside, CA8,14,44 Exercised                           not outstanding              $6,815,000.00                                              6,815       $1,000.00                                           $341,000.00
                               Warrants
6/26/2009 Security Capital      Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Corporation,          Stock w/
                                                  $17,388,000.00     full; warrants                                                                                                                                                                                      $1,153,111.00
9/29/2010 Batesville,           Exercised                                                      $17,388,000.00                                             17,388       $1,000.00                                           $522,000.00
                                                                   not outstanding
          MS8,11,14,36          Warrants
12/19/2008                                                                                                                                    $0.00
          Security Federal      Preferred                           Redeemed, in
9/29/2010 Corporation,          Stock w/          $18,000,000.00     full; warrants            $18,000,000.00                                             18,000       $1,000.00                                                            $11.75                       $1,600,000.00
          Aiken, SC11,36        Warrants                           not outstanding
7/31/2013                                                                                                                                                                                                                   $50,000.00
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




2/20/2009 Security State        Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                  $12,500,000.00     full; warrants                                                                                                                                                                                      $1,763,679.86
                  Charleston,   Exercised                                                      $12,500,000.00                                             12,500       $1,000.00                                           $625,000.00
9/22/2011 Inc.,8,14,44                                             not outstanding
          MO                    Warrants
5/1/2009  Security State Bank   Subordinated                                                                                                  $0.00
                                                                       Sold, in full;
          Holding-Company,      Debentures
6/24/2013                                         $10,750,000.00      warrants not             $10,750,000.00                                          10,750,000          $1.17                         $1,784,607.50     $720,368.55                                   $1,414,005.16
          Jamestown,            w/ Exercised
             14,15                                                     outstanding
7/26/2013 ND                    Warrants                                                                           ($125,346.08)
11/21/2008                                                                                                                                    $0.00
           Severn Bancorp,      Preferred                              Sold, in full;
9/25/2013 Inc., Annapolis,      Stock w/          $23,393,000.00          warrants             $23,367,267.70                                             23,393         $998.90         ($25,732.30)                                       $4.74          556,976       $3,781,869.00
           MD                   Warrants                               outstanding
10/29/2013                                                                                                         ($233,672.68)
1/9/2009                                                                                                                                      $0.00
           Shore            Preferred                               Redeemed, in
4/15/2009 Bancshares, Inc., Stock w/              $25,000,000.00     full; warrants            $25,000,000.00                                             25,000       $1,000.00                                                            $9.22          172,970         $333,333.33
           Easton, MD11     Warrants                               not outstanding
11/16/2011                                                                                                                                                                                                                  $25,000.00
6/26/2009                     Subordinated                                                                                                    $0.00
           Signature                                                Redeemed, in
                              Debentures
           Bancshares, Inc.,                       $1,700,000.00     full; warrants                                                                                                                                                                                        $209,587.59
12/15/2010 Dallas, TX11,14,15 w/ Exercised                                                      $1,700,000.00                                           1,700,000          $1.00                                            $85,000.00
                                                                   not outstanding
                              Warrants
12/12/2008                                                                                                                                    $0.00
                                Preferred                           Redeemed, in
             Signature Bank,
3/31/2009                       Stock w/         $120,000,000.00     full; warrants           $120,000,000.00                                            120,000       $1,000.00                                                           $107.42                       $1,816,667.00
             New York, NY11
                                Warrants                           not outstanding
3/16/2010                                                                                                                                                                                                                $11,150,939.74
1/16/2009                                                                                                                                     $0.00
          Somerset            Preferred                             Redeemed, in
5/20/2009 Hills Bancorp,      Stock w/             $7,414,000.00     full; warrants             $7,414,000.00                                              7,414       $1,000.00                                                            $12.07                         $127,685.55
          Bernardsville, NJ11 Warrants                             not outstanding
6/24/2009                                                                                                                                                                                                                  $275,000.00

2/20/2009 Sonoma Valley      Preferred                                                                                                        $0.00
                             Stock w/                                Currently not
          Bancorp,                                 $8,653,000.00                                                                                                                                                                                                           $347,164.00
                     8,32,97 Exercised                                 collectible
8/20/2010 Sonoma, CA         Warrants                                                                                                                                                 ($8,653,000.00)

1/9/2009  Sound Banking          Preferred                                                                                                    $0.00
                                                                       Sold, in full;
          Company,              Stock w/
11/13/2012                                         $3,070,000.00      warrants not              $2,832,412.70                                              3,070         $922.60        ($237,587.30)                      $124,412.34      $6.50                          $643,399.00
          Morehead City,        Exercised
                                                                       outstanding
1/11/2013 NC8,14                Warrants                                                                            ($25,000.00)
12/5/2008 South Financial       Preferred                              Sold, in full;                                                         $0.00
          Group, Inc.,          Stock w/         $347,000,000.00      warrants not                                                                                                                                                                                      $16,386,111.00
9/30/2010 Greenville, SC        Warrants                               outstanding            $130,179,218.75                                            130,179       $1,000.00    ($216,820,781.25)                      $400,000.00

7/17/2009                                                                                                                                     $0.00
          SouthCrest            Preferred
3/8/2013                                                               Sold, in full;           $1,814,620.00                                              2,000         $907.30        ($185,380.00)
          Financial Group,      Stock w/
                                                  $12,900,000.00      warrants not                                                                                                                                                          $5.80                          $933,494.05
3/11/2013 Inc., Fayetteville,   Exercised                                                       $9,889,679.00                                             10,900         $907.30      ($1,010,321.00)                      $588,264.19
                                                                       outstanding
          GA8,14                Warrants
4/9/2013                                                                                                           ($117,042.99)
                                                                                                                                                                                                                                                                  Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                         Number     Average Price                                                         Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/16/2009 Southern                                                                                                                            $0.00
                                                                    Redeemed, in
          Bancorp, Inc.,        Preferred
                                                  $11,000,000.00     full; warrants                                                                                                                                                                                        $855,555.56
8/6/2010  Arkadelphia,          Stock                                                          $11,000,000.00                                             11,000       $1,000.00
                                                                   not outstanding
          AR9,11,36
12/5/2008 Southern                                                                                                                            $0.00
          Community             Preferred                           Redeemed, in
          Financial Corp.,      Stock w/          $42,750,000.00     full; warrants                                                                                                                                                         $3.33                        $8,338,046.00
10/1/2012 Winston-Salem,        Warrants                           not outstanding             $42,750,000.00                                             42,750       $1,000.00
          NC
2/27/2009                                                                                                                                     $0.00
             Southern First    Preferred                               Sold, in full;
7/3/2012     Bancshares, Inc., Stock w/           $17,299,000.00      warrants not             $15,638,296.00      ($234,574.44)                          17,299         $904.00     ($1,660,704.00)                                        $13.28                       $2,897,640.00
             Greenville, SC    Warrants                                outstanding
7/25/2012                                                                                                                                                                                                                 $1,100,000.00
5/15/2009 Southern Heritage     Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                   $4,862,000.00     full; warrants                                                                                                                                                                                        $613,111.14
9/8/2011 Inc., Cleveland,       Exercised                                                       $4,862,000.00                                               4,862      $1,000.00                                           $243,000.00
                                                                   not outstanding
          TN8,14,45             Warrants
1/23/2009                       Preferred                                                                                                     $0.00
          Southern Illinois                                         Redeemed, in
                                Stock w/
          Bancorp, Inc.,                           $5,000,000.00     full; warrants                                                                                                                                                                                        $705,472.22
8/25/2011 Carmi, IL8,14,44      Exercised                                                       $5,000,000.00                                               5,000      $1,000.00                                           $250,000.00
                                                                   not outstanding
                                Warrants
12/5/2008 Southern Missouri Preferred                               Redeemed, in                                                              $0.00
          Bancorp, Inc.,     Stock w/              $9,550,000.00     full; warrants                                                                                                                                                         $33.27         114,326       $1,254,763.89
7/21/2011 Poplar Bluff, MO44 Warrants                                 outstanding               $9,550,000.00                                               9,550      $1,000.00

                            Preferred                              Full investment
          SouthFirst
                            Stock w/                                 outstanding;
6/12/2009 Bancshares, Inc.,                        $2,760,000.00                                                                      $2,760,000.00                                                                                         $2.15                          $364,796.34
                        8   Exercised                                     warrants
          Sylacauga, AL
                            Warrants                                   outstanding
12/5/2008                                                                                                                                     $0.00
             Southwest          Preferred                           Redeemed, in
8/8/2012     Bancorp, Inc.,     Stock w/          $70,000,000.00     full; warrants            $70,000,000.00                                             70,000       $1,000.00                                                            $15.92                      $12,960,373.00
             Stillwater, OK11   Warrants                           not outstanding
5/29/2013                                                                                                                                                                                                                 $2,287,197.00

3/13/2009 Sovereign         Preferred                                                                                                         $0.00
                                                                    Redeemed, in
                            Stock w/
          Bancshares, Inc.,                       $18,215,000.00     full; warrants                                                                                                                                                                                      $2,506,668.61
                    8,14,44 Exercised
9/22/2011 Dallas, TX                                               not outstanding             $18,215,000.00                                             18,215       $1,000.00                                           $911,000.00
                            Warrants
3/27/2009                     Preferred                                                                                                       $0.00
                                                                       Sold, in full;
           Spirit BankCorp, Stock w/
                            8                     $30,000,000.00      warrants not                                                                                                                                                                                       $2,261,750.00
10/21/2013 Inc., Bristow, OK  Exercised                                                         $9,000,000.00                                             30,000         $300.00    ($21,000,000.00)                       $638,325.00
                                                                       outstanding
                              Warrants
                            Preferred                              Full investment
          St. Johns
                            Stock w/                                 outstanding;
3/13/2009 Bancshares, Inc.,                        $3,000,000.00                                                                      $3,000,000.00                                                                                                                        $763,908.00
                       8    Exercised                                     warrants
          St. Louis, MO
                            Warrants                                   outstanding
4/24/2009 Standard              Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares, Inc.,     Stock w/
                                                  $60,000,000.00     full; warrants                                                                                                                                                                                     $12,757,163.00
2/22/2013 Hickory   Hills,      Exercised                                                      $60,000,000.00                                          12,903,226      $1,432.56                         $3,000,000.00
                                                                   not outstanding
          IL8,14,74             Warrants
12/5/2008 State Bancorp,                                                                                                                      $0.00
                             Preferred                              Redeemed, in
           Inc./Valley
                             Stock w/             $36,842,000.00     full; warrants
12/14/2011 National Bancorp,
                       11,61 Warrants                                 outstanding              $36,842,000.00                                             36,842       $1,000.00
           Jericho, NY
9/4/2009                        Subordinated                                                                                                  $0.00
          State Bank of                                             Redeemed, in
                                Debentures
          Bartley,Bartley,                         $1,697,000.00     full; warrants                                                                                                                                                                                        $282,299.18
9/22/2011 NE15,17,44            w/ Exercised                                                    $1,697,000.00                                           1,697,000          $1.00                                            $51,000.00
                                                                   not outstanding
                                Warrants
1/16/2009                     Preferred                                                                                                       $0.00
                                                                    Redeemed, in
          State Bankshares, Stock w/
8/12/2009                                         $50,000,000.00     full; warrants            $12,500,000.00                                             12,500       $1,000.00                                                                                         $5,508,472.00
          Inc., Fargo, ND8,11 Exercised
                                                                   not outstanding
6/29/2011                     Warrants                                                         $37,500,000.00                                             37,500       $1,000.00                                          $2,500,000.00
2/13/2009 State Capital         Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Corporation,          Stock w/
                                                  $15,000,000.00     full; warrants                                                                                                                                                                                      $1,330,708.67
9/29/2010 Greenwood,            Exercised                                                      $15,000,000.00                                             15,000       $1,000.00                                           $750,000.00
                                                                   not outstanding
          MS8,11,36             Warrants
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




10/28/2008                                                                                                                                    $0.00
          State Street          Preferred                           Redeemed, in
6/17/2009 Corporation,          Stock w/       $2,000,000,000.00     full; warrants         $2,000,000,000.00                                             20,000     $100,000.00                                                            $73.39                      $63,611,111.00
          Boston, MA12,16       Warrants                           not outstanding
7/8/2009                                                                                                                                                                                                                 $60,000,000.00
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           393
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)                                                                                                                                                                          394
                                                                                                                                                            Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales   12/31/135       Warrants     Paid to Treasury
6/26/2009                     Subordinated                                                                                                       $0.00
          Stearns Financial                                          Redeemed, in
                              Debentures
          Services, Inc., St.                      $24,900,000.00     full; warrants                                                                                                                                                                                $5,350,442.29
1/18/2012 Cloud, MN11,14,15 w/ Exercised                            not outstanding             $24,900,000.00                                            24,900,000          $1.00                                  $1,245,000.00
                              Warrants
9/25/2009                       Subordinated                                                                                                     $0.00
             Steele Street                                           Redeemed, in
                                Debentures
             Bank Corporation,                     $11,019,000.00     full; warrants                                                                                                                                                                                $1,728,672.60
9/1/2011                        w/ Exercised                                                    $11,019,000.00                                            11,019,000          $1.00                                   $331,000.00
             Denver, CO15,17,45                                     not outstanding
                                Warrants
12/19/2008                                                                                                                                       $0.00
           StellarOne
4/13/2011 Corporation,           Preferred                         Redeemed, in                  $7,500,000.00                                                 7,500      $1,000.00
                                 Stock w/          $30,000,000.00   full; warrants                                                                                                                                                     $24.07                       $4,271,875.00
12/28/2011 Charlottesville,      Warrants                         not outstanding               $22,500,000.00                                               22,500       $1,000.00
           VA11
12/18/2013                                                                                                                                                                                                           $2,920,000.00
12/23/2008                                                                                                                                       $0.00
                            Preferred                              Redeemed, in
          Sterling Bancorp,
4/27/2011                   Stock w/               $42,000,000.00   full; warrants              $42,000,000.00                                               42,000       $1,000.00                                                    $13.37                       $4,923,333.00
          New York, NY11
                            Warrants                              not outstanding
5/18/2011                                                                                                                                                                                                             $945,775.00
12/12/2008                                                                                                                                       $0.00
             Sterling          Preferred                             Redeemed, in
5/5/2009     Bancshares, Inc., Stock w/           $125,198,000.00     full; warrants           $125,198,000.00                                              125,198       $1,000.00                                                                                 $2,486,571.39
             Houston, TX11     Warrants                             not outstanding
6/15/2010                                                                                                                                                                                                            $2,857,914.52
12/5/2008                                                                                                                                        $0.00
          Sterling Financial     Preferred                              Sold, in full;
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




8/20/2012 Corporation,           Stock w/         $303,000,000.00      warrants not            $114,772,740.00      ($1,434,659.25)                        5,738,637         $20.00    ($188,227,260.00)                               $34.08                       $7,594,129.00
          Spokane, WA31          Warrants                               outstanding
9/19/2012                                                                                                                                                                                                             $825,000.00
1/30/2009 Stewardship                                                                                                                            $0.00
                              Preferred                              Redeemed, in
           Financial
9/1/2011                      Stock w/             $10,000,000.00     full; warrants            $10,000,000.00                                               10,000       $1,000.00                                                    $4.85                        $1,293,055.22
           Corporation,
                           44 Warrants                              not outstanding
10/26/2011 Midland Park, NJ                                                                                                                                                                                           $107,398.00
2/6/2009  Stockmens              Preferred                                                                                                       $0.00
                                                                     Redeemed, in
          Financial              Stock w/
1/12/2011                                          $15,568,000.00     full; warrants             $4,000,000.00                                                 4,000      $1,000.00                                                                                 $1,755,554.00
          Corporation, Rapid     Exercised
                  8,11,14                                           not outstanding
3/16/2011 City, SD               Warrants                                                       $11,568,000.00                                               11,568       $1,000.00                                   $778,000.00
1/23/2009                                                                                                                                        $0.00
          Stonebridge            Preferred
3/26/2013 Financial Corp.,                                              Sold, in full;           $1,796,209.03                                               10,351         $173.50      ($8,554,790.97)              $130,704.17
                                 Stock w/
                                                   $10,973,000.00      warrants not                                                                                                                                                                                   $634,609.11
3/27/2013 West   Chester,        Exercised                                                         $107,935.66                                                  622         $173.50        ($514,064.34)                 $8,358.99
                                                                        outstanding
          PA8,14                 Warrants
4/9/2013                                                                                                               ($25,000.00)

                                                                  Full investment
          Suburban Illinois      Subordinated
                                                                    outstanding;
6/19/2009 Bancorp, Inc.,         Debentures        $15,000,000.00                                                                       $15,000,000.00                                                                                                              $2,083,520.25
                                                                         warrants
          Elmhurst, IL15         w/ Exercised
                                                                      outstanding
                                 Warrants
12/19/2008                                                                                                                                       $0.00
             Summit State      Preferred                             Redeemed, in
8/4/2011     Bank, Santa Rosa, Stock w/             $8,500,000.00     full; warrants             $8,500,000.00                                                 8,500      $1,000.00                                                    $10.50                       $1,115,625.00
             CA44              Warrants                             not outstanding
9/14/2011                                                                                                                                                                                                             $315,000.00
1/9/2009                                                                                                                                         $0.00
                                Preferred                            Redeemed, in
             Sun Bancorp, Inc.,
4/8/2009                        Stock w/           $89,310,000.00     full; warrants            $89,310,000.00                                               89,310       $1,000.00                                                    $3.52                        $1,103,970.83
             Vineland, NJ11
                                Warrants                            not outstanding
5/27/2009                                                                                                                                                                                                            $2,100,000.00
11/14/2008                                      $3,500,000,000.00                                                                                $0.00
12/31/2008 SunTrust Banks,       Preferred      $1,350,000,000.00    Redeemed, in
                            11   Stock w/                             full; warrants                                                                                                                                                   $36.81                    $567,986,111.00
3/30/2011 Inc., Atlanta, GA      Warrants                           not outstanding          $4,850,000,000.00                                               48,500     $100,000.00
9/28/2011                                                                                                                                                                                                           $30,066,661.40
12/5/2008 Superior Bancorp Preferred                                                                                                             $0.00
                                                                      Currently not
          Inc., Birmingham, Stock w/               $69,000,000.00                                                                                                                                                                                   1,923,792       $4,983,333.00
4/15/2011 AL24,49,97                                                    collectible                                                                                                     ($69,000,000.00)
                            Warrants
1/9/2009                         Preferred                                                                                                       $0.00
           Surrey Bancorp,                                           Redeemed, in
                                 Stock w/
           Mount Airy,                              $2,000,000.00     full; warrants                                                                                                                                                   $11.75                         $214,972.22
12/29/2010 NC11,8,14             Exercised                                                       $2,000,000.00                                                2,000       $1,000.00                                   $100,000.00
                                                                    not outstanding
                                 Warrants
                                                                                                                                                                                                                                                             Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                       (CONTINUED)
                                                                                                                                                            Number     Average Price                                                     Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividend/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/12/2008                                                                                                                                       $0.00
4/21/2010 Susquehanna            Preferred                         Redeemed, in                $200,000,000.00                                              200,000       $1,000.00
           Bancshares, Inc,      Stock w/         $300,000,000.00   full; warrants                                                                                                                                                         $12.84                      $23,722,222.00
12/22/2010 Lititz, PA11          Warrants                         not outstanding              $100,000,000.00                                              100,000       $1,000.00
1/19/2011                                                                                                                                                                                                                $5,269,179.36
4/10/2009                     Preferred                                                                                                          $0.00
                                                                   Redeemed, in
          SV Financial, Inc., Stock w/
                      8,11,14                       $4,000,000.00   full; warrants                                                                                                                                                                                        $521,382.89
8/31/2011 Sterling, IL        Exercised                                                          $4,000,000.00                                                4,000       $1,000.00                                       $200,000.00
                                                                  not outstanding
                              Warrants
12/12/2008                                                                                                                                       $0.00
           SVB Financial         Preferred                           Redeemed, in
12/23/2009 Group, Santa          Stock w/         $235,000,000.00     full; warrants           $235,000,000.00                                              235,000       $1,000.00                                                       $104.86                      $12,109,027.78
           Clara, CA12,16        Warrants                           not outstanding
6/16/2010                                                                                                                                                                                                                $6,820,000.00
5/8/2009                         Subordinated                                                                                                    $0.00
          Sword Financial                                            Redeemed, in
                                 Debentures
          Corporation,                             $13,644,000.00     full; warrants                                                                                                                                                                                    $2,693,234.00
9/15/2011 Horicon, WI14,15,4     w/ Exercised                                                   $13,644,000.00                                            13,644,000          $1.00                                       $682,000.00
                                                                    not outstanding
                                 Warrants
12/19/2008 Synovus Financial Preferred                               Redeemed, in                                                                $0.00
           Corp., Columbus, Stock w/              $967,870,000.00     full; warrants                                                                                                                                                       $3.60       15,510,737    $222,744,526.00
7/26/2013 GA11               Warrants                                  outstanding             $967,870,000.00                                              967,870       $1,000.00

                               Preferred                            Full investment
             Syringa Bancorp, Stock w/                                outstanding;
1/16/2009                                           $8,000,000.00                                                                        $8,000,000.00                                                                                     $0.03                          $253,122.22
             Boise, ID8       Exercised                                    warrants
                              Warrants                                  outstanding
11/21/2008                                                                                                                                       $0.00
           Taylor Capital  Preferred                                    Sold, in full;
6/19/2012 Group, Rosemont, Stock w/               $104,823,000.00      warrants not             $93,659,350.50      ($1,404,890.26)                         104,823         $893.50    ($11,163,649.50)                                    $26.58                      $18,751,437.56
           IL              Warrants                                     outstanding
7/18/2012                                                                                                                                                                                                                $9,839,273.00

8/28/2009 TCB Corporation,       Subordinated                                                                                                    $0.00
                                                                     Redeemed, in
                                 Debentures
          Greenwood,                                $9,720,000.00     full; warrants                                                                                                                                                                                    $1,599,381.34
            15,17,45             w/ Exercised
9/8/2011 SC                                                         not outstanding              $9,720,000.00                                             9,720,000          $1.00                                       $292,000.00
                                 Warrants
1/16/2009 TCB Holding                                                                                                                            $0.00
                                 Preferred
           Company, Texas
                                 Stock w/                             Currently not
           Community Bank,                         $11,730,000.00                                                                                                                                                                                                         $690,832.08
12/13/2013 The Woodlands,        Exercised                              collectible                                                                                                    ($11,730,000.00)
                                 Warrants
           TX8,97,100
11/14/2008                                                                                                                                       $0.00
           TCF Financial         Preferred                           Redeemed, in
4/22/2009 Corporation,           Stock w/         $361,172,000.00     full; warrants           $361,172,000.00                                              361,172       $1,000.00                                                        $16.25                       $7,925,719.00
           Wayzata, MN11         Warrants                           not outstanding
12/21/2009                                                                                                                                                                                                               $9,449,980.56
12/23/2008                       Preferred                                                                                                       $0.00
             TCNB Financial                                          Redeemed, in
                                 Stock w/
             Corp., Dayton,                         $2,000,000.00     full; warrants                                                                                                                                                                                      $284,611.11
8/3/2011                         Exercised                                                       $2,000,000.00                                                2,000       $1,000.00                                       $100,000.00
             OH8,11,14                                              not outstanding
                                 Warrants
12/19/2008 Tennessee                                                                                                                             $0.00
                                 Preferred
           Commerce                                                   Currently not
                                 Stock w/          $30,000,000.00                                                                                                                                                                                         461,538       $3,233,333.33
1/27/2012 Bancorp, Inc.,                                                collectible                                                                                                    ($30,000,000.00)
                                 Warrants
           Franklin, TN63,97
12/23/2008                                                                                                                                       $0.00
          Tennessee              Preferred
4/26/2013 Valley Financial                                              Sold, in full;             $298,000.00                                                  298       $1,022.10                          $6,588.78     $19,218.87
                                 Stock w/
                                                    $3,000,000.00      warrants not                                                                                                                                                                                       $146,241.67
                                 Exercised                                                       $2,702,000.00                                                2,702       $1,022.10                         $59,741.22    $124,922.63
4/29/2013 Holdings, Inc., 8,14                                          outstanding
          Oak Ridge, TN          Warrants
5/31/2013                                                                                                              ($25,000.00)
1/16/2009                                                                                                                                        $0.00
          Texas Capital     Preferred                              Redeemed, in
5/13/2009 Bancshares, Inc., Stock w/               $75,000,000.00   full; warrants              $75,000,000.00                                               75,000       $1,000.00                                                        $62.20                       $1,218,750.00
          Dallas, TX11      Warrants                              not outstanding
3/17/2010                                                                                                                                                                                                                $6,559,066.21
1/9/2009 Texas National          Preferred                                                                                                       $0.00
                                                                     Redeemed, in
          Bancorporation,        Stock w/
                                                    $3,981,000.00     full; warrants                                                                                                                                                                                      $295,308.00
5/19/2010 Jacksonville,          Exercised                                                       $3,981,000.00                                                3,981       $1,000.00                                       $199,000.00
                                                                    not outstanding
          TX8,11,14              Warrants
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




8/7/2009                         Preferred                                                                                                       $0.00
          The ANB                                                    Redeemed, in
                                 Stock w/
          Corporation,                             $20,000,000.00     full; warrants                                                                                                                                                                                    $2,234,499.98
8/25/2011 Terrell, TX8,14,44     Exercised                                                      $20,000,000.00                                               20,000       $1,000.00                                      $1,000,000.00
                                                                    not outstanding
                                 Warrants
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          395
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                        396
                                                                                                                                                          Number     Average Price                                                  Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
12/12/2008                                                                                                                                      $0.00
           The Bancorp,           Preferred                           Redeemed, in
3/10/2010 Inc., Wilmington,       Stock w/          $45,220,000.00     full; warrants            $45,220,000.00                                            45,220       $1,000.00                                                     $17.91                       $2,813,688.89
           DE12,16                Warrants                           not outstanding
9/8/2010                                                                                                                                                                                                            $4,753,984.55
2/6/2009                          Preferred                                                                                                     $0.00
          The Bank of                                                    Sold, in full;
                                  Stock w/
          Currituck,                                 $4,021,000.00      warrants not                                                                                                                                                                                 $169,834.00
12/3/2010 Moyock, NC8             Exercised                                                       $1,742,850.00                                             4,021         $433.40     ($2,278,150.00)
                                                                         outstanding
                                  Warrants
2/13/2009                                                                                                                                       $0.00
           The Bank of
12/22/2010 Kentucky Financial Preferred                               Redeemed, in               $17,000,000.00                                            17,000       $1,000.00
           Corporation,       Stock w/              $34,000,000.00     full; warrants                                                                                                                                                 $36.71         276,078       $3,940,694.00
11/23/2011 Crestview Hills,   Warrants                               not outstanding             $17,000,000.00                                            17,000       $1,000.00
           KY11
5/29/2013                                                                                                                                                                                                           $2,150,648.55
1/16/2009                                                                                                                                       $0.00
                                  Preferred
12/10/2012 The Baraboo                                                   Sold, in full;           $1,956,900.00                                             3,000         $652.30     ($1,043,100.00)                $403,161.92
                                  Stock w/
           Bancorporation,                          $20,749,000.00      warrants not                                                                                                                                                  $1.80                        $3,766,127.00
12/11/2012 Baraboo, WI8,14        Exercised                                                      $11,577,672.70                                            17,749         $652.30     ($6,171,327.30)                $455,316.35
                                                                         outstanding
                                  Warrants
1/11/2013                                                                                                            ($135,345.73)
12/19/2008 The Connecticut                                                                                                                      $0.00
                                  Preferred                         Redeemed, in
           Bank and Trust
                                  Stock w/           $5,448,000.00   full; warrants                                                                                                                                                   $0.00                          $662,083.00
4/19/2012 Company,                Warrants                         not outstanding                $5,448,000.00                                             5,448       $1,000.00                                    $792,783.00
           Hartford, CT
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




12/19/2008 The Elmira       Preferred                                 Redeemed, in                                                              $0.00
           Savings Bank,    Stock w/                 $9,090,000.00     full; warrants                                                                                                                                                 $25.20         116,538       $1,219,575.00
8/25/2011 FSB, Elmira, NY44 Warrants                                    outstanding               $9,090,000.00                                             9,090       $1,000.00

1/9/2009                                                                                                                                        $0.00
          The First
8/24/2011 Bancorp, Inc.,          Preferred                           Redeemed, in               $12,500,000.00                                            12,500       $1,000.00
                                  Stock w/          $25,000,000.00     full; warrants                                                                                                                                                 $17.22         225,904       $4,332,986.00
3/27/2013 Damariscotta,           Warrants                              outstanding               $2,500,000.00                                             2,500       $1,000.00
          ME11
5/8/2013                                                                                         $10,000,000.00                                            10,000       $1,000.00
2/6/2009 The First                                                                                                                              $0.00
                              Preferred                               Redeemed, in
          Bancshares,
                              Stock w/               $5,000,000.00     full; warrants                                                                                                                                                                 54,705         $411,805.56
                 Hattiesburg,                                                                     $5,000,000.00                                             5,000       $1,000.00
9/29/2010 Inc.,11,36          Warrants                                  outstanding
          MS
2/27/2009                     Preferred                                                                                                         $0.00
          The First State                                             Redeemed, in
                              Stock w/
          Bank of Mobeetie,                            $731,000.00     full; warrants                                                                                                                                                                                 $45,086.56
4/14/2010 Mobeetie, TX8,11,14 Exercised                              not outstanding                $731,000.00                                               731       $1,000.00                                      $37,000.00
                              Warrants
2/6/2009                          Preferred                                                                                                     $0.00
           The Freeport                                               Redeemed, in
                                  Stock w/
           State Bank,                                 $301,000.00     full; warrants                                                                                                                                                                                 $63,459.00
12/19/2012 Harper, KS8,11,14      Exercised                                                         $301,000.00                                               301       $1,000.00                                      $15,000.00
                                                                     not outstanding
                                  Warrants
6/26/2009 The Hartford                                                                                                                          $0.00
                             Preferred                                Redeemed, in
          Financial Services
3/31/2010                    Stock w/            $3,400,000,000.00     full; warrants         $3,400,000,000.00                                          3,400,000      $1,000.00                                                                               $129,861,111.11
          Group, Inc.
                      11     Warrants                                not outstanding
9/27/2010 Hartford  CT                                                                                                                                                                                            $706,264,559.89
5/22/2009                     Preferred                                                                                                         $0.00
          The Landrum                                                 Redeemed, in
                              Stock w/
          Company,                                  $15,000,000.00     full; warrants                                                                                                                                                                              $1,830,291.55
8/18/2011 Columbia, MO8,14,44 Exercised                                                          $15,000,000.00                                            15,000       $1,000.00                                    $750,000.00
                                                                     not outstanding
                              Warrants
12/23/2008                        Preferred                                                                                                     $0.00
           The Little Bank,                                              Sold, in full;
                                  Stock w/
10/31/2012 Incorporated,                             $7,500,000.00      warrants not              $7,359,000.00                                             7,500         $981.20       ($141,000.00)                $371,250.00                                   $1,575,992.00
                                  Exercised
           Kinston, NC8,14                                               outstanding
1/11/2013                         Warrants                                                                            ($73,590.00)
12/31/2008 The PNC Financial                                                                                                                    $0.00
                             Preferred                                Redeemed, in
           Services Group
2/10/2010                    Stock w/            $7,579,200,000.00     full; warrants         $7,579,200,000.00                                            75,792     $100,000.00                                                     $77.58                    $421,066,667.00
           Inc., Pittsburgh,
              11             Warrants                                not outstanding
5/5/2010 PA                                                                                                                                                                                                       $320,372,284.16
2/20/2009                         Preferred                                                                                                     $0.00
             The Private Bank                                         Redeemed, in
                                  Stock w/
             of California, Los                      $5,450,000.00     full; warrants                                                                                                                                                                                $751,752.14
9/1/2011                          Exercised                                                       $5,450,000.00                                             5,450       $1,000.00                                    $273,000.00
             Angeles, CA8,14,44                                      not outstanding
                                  Warrants
1/9/2009                                                                                                                                        $0.00
          The                     Preferred
3/8/2013                                                                 Sold, in full;             $244,225.00                                               250         $976.90          ($5,775.00)                  $4,806.45
          Queensborough           Stock w/
                                                    $12,000,000.00      warrants not                                                                                                                                                                                 $882,900.00
                                  Exercised                                                      $11,478,575.00                                            11,750         $976.90       ($271,425.00)                $571,967.55
3/11/2013 Company, 8,14                                                  outstanding
          Louisville, GA          Warrants
4/9/2013                                                                                                             ($117,228.00)
                                                                                                                                                                                                                                                            Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                          (CONTINUED)
                                                                                                                                                            Number     Average Price                                                Stock Price       Current
Transaction                         Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution             Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
2/27/2009                           Preferred            $541,000.00                                                                              $0.00
           The Victory                                                  Redeemed, in
                                    Stock w/
12/11/2009 Bancorp, Inc.,                              $1,505,000.00     full; warrants                                                                                                                                                                              $215,183.00
                                    Exercised
           Limerick, PA8,18,21,44                                      not outstanding
9/22/2011                           Warrants                                                        $2,046,000.00                                             2,046       $1,000.00                                   $61,000.00
1/23/2009 Three Shores                                                                                                                            $0.00
          Bancorporation,           Preferred
11/8/2012 Inc. (Seaside                                                    Sold, in full;           $1,165,528.32                                             1,312         $888.40       ($146,471.68)
                                    Stock w/
                                                       $5,677,000.00      warrants not                                                                                                                                                                             $1,174,058.00
11/9/2012 National Bank &           Exercised                                                       $3,877,691.40                                             4,365         $888.40       ($487,308.60)              $282,284.64
                                                                           outstanding
          Trust), Orlando,          Warrants
1/11/2013 FL8,21                                                                                                        ($50,432.20)

12/5/2008                           Preferred                              Sold, in full;                                                         $0.00
          TIB Financial
                                    Stock w/          $37,000,000.00      warrants not                                                                                                                                                $13.81                       $1,284,722.22
9/30/2010 Corp, Naples, FL          Warrants                               outstanding             $12,119,637.37                                            12,120       $1,000.00    ($24,880,362.63)               $40,000.00

              Tidelands                                                Full investment
                                    Preferred
              Bancshares, Inc,                                           outstanding;
12/19/2008                          Stock w/          $14,448,000.00                                                                     $14,448,000.00                                                                                              571,821       $1,195,973.00
              Mount Pleasant,                                                 warrants
                                    Warrants
              SC                                                           outstanding
4/17/2009                           Preferred                                                                                                     $0.00
           Tifton Banking
                                    Stock w/                             Currently not
           Company,                                    $3,800,000.00                                                                                                                                                                                                 $223,208.00
11/12/2010 Tifton, GA8,47,97        Exercised                              collectible                                                                                                  ($3,800,000.00)
                                    Warrants
12/23/2008                                                                                                                                        $0.00
11/8/2012                                                                                           $3,290,437.50                                             3,815         $862.50       ($524,562.50)
11/9/2012 Timberland                Preferred                              Sold, in full;           $1,580,962.50                                             1,833         $862.50       ($252,037.50)
           Bancorp, Inc.,           Stock w/          $16,641,000.00      warrants not                                                                                                                                                $9.62                        $3,346,629.00
11/13/2012 Hoquiam, WA              Warrants                               outstanding              $9,481,462.50                                            10,993         $862.50     ($1,511,537.50)
1/11/2013                                                                                                              ($143,528.63)
6/11/2013                                                                                                                                                                                                           $1,301,856.00
4/3/2009                            Preferred                                                                                                     $0.00
              Titonka                                                 Redeemed, in
                                    Stock w/
              Bancshares, Inc,                         $2,117,000.00   full; warrants                                                                                                                                                                                $346,490.36
4/4/2012                            Exercised                                                       $2,117,000.00                                             2,117       $1,000.00                                  $106,000.00
              Titonka, IA8,11,14                                     not outstanding
                                    Warrants
2/6/2009                      Preferred                                                                                                           $0.00
          Todd Bancshares,                                              Redeemed, in
                              Stock w/
          Inc., Hopkinsville,                          $4,000,000.00     full; warrants                                                                                                                                                                            $1,010,672.00
9/25/2013 KY 8                Exercised                                                             $4,000,000.00                                             4,000       $1,000.00                                  $200,000.00
                                                                       not outstanding
                              Warrants
12/12/2008                                                                                                                                        $0.00
                               Preferred                                Redeemed, in
              TowneBank,
9/22/2011                      Stock w/               $76,458,000.00     full; warrants            $76,458,000.00                                            76,458       $1,000.00                                                   $15.39                      $10,619,166.67
              Portsmouth, VA45
                               Warrants                                not outstanding
5/15/2013                                                                                                                                                                                                           $1,500,000.00
1/16/2009                                                                                                                                         $0.00
           Treaty Oak               Preferred                              Sold, in full;
2/15/2011 Bancorp, Inc.,            Stock w/           $3,268,000.00          warrants                $500,000.00                                             3,118         $155.47     ($2,618,000.00)                               $0.20        3,098,341         $192,415.03
           Austin, TX8              Warrants                               outstanding
12/21/2012                                                                                            $150,000.00                                           150,000           $1.00
3/27/2009                           Preferred                                                                                                     $0.00
          Triad Bancorp,                                                Redeemed, in
                                    Stock w/
          Inc., Frontenac,                             $3,700,000.00     full; warrants                                                                                                                                                                              $501,324.64
9/22/2011 MO8,14,44                 Exercised                                                       $3,700,000.00                                             3,700       $1,000.00                                  $185,000.00
                                                                       not outstanding
                                    Warrants
12/19/2008 Tri-County               Preferred                                                                                                     $0.00
                                                                        Redeemed, in
           Financial                Stock w/
                                                      $15,540,000.00     full; warrants                                                                                                                                                                            $2,336,115.75
                                    Exercised                                                      $15,540,000.00                                            15,540       $1,000.00                                  $777,000.00
9/22/2011 Corporation,8,14,44                                          not outstanding
           Waldorf, MD              Warrants
3/27/2009                                                                                                                                         $0.00
8/7/2012                   Preferred                                                                $2,639,379.50                                             3,518         $750.20       ($878,620.50)              $163,062.90
          Trinity Capital                                                  Sold, in full;
                           Stock w/
8/9/2012 Corporation , Los                            $35,539,000.00      warrants not              $7,038,845.50                                             9,382         $750.20     ($2,343,154.50)             $1,300,776.05                                  $6,592,186.00
                           Exercised
          Alamos, NM8,14                                                   outstanding
8/10/2012                  Warrants                                                                $16,984,909.75                                            22,639         $750.20     ($5,654,090.25)              $191,948.33
9/11/2012                                                                                                              ($266,631.35)
4/3/2009  Tri-State Bank                                              Redeemed, in                                                                $0.00
                            Preferred
          of Memphis,                                  $2,795,000.00   full; warrants                                                                                                                                                                                $190,215.11
8/13/2010 Memphis, TN8,9,11 Stock                                    not outstanding                $2,795,000.00                                             2,795       $1,000.00
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




2/27/2009                           Preferred                                                                                                     $0.00
          TriState Capital                                              Redeemed, in
                                    Stock w/
          Holdings, Inc.,                             $23,000,000.00     full; warrants                                                                                                                                                                            $4,492,402.00
9/26/2012 Pittsburgh, PA11,8        Exercised                                                      $23,000,000.00                                            23,000       $1,000.00                                 $1,150,000.00
                                                                       not outstanding
                                    Warrants
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     397
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                           (CONTINUED)                                                                                                                                                                           398
                                                                                                                                                                Number     Average Price                                                  Stock Price       Current
Transaction                          Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants     Paid to Treasury
4/3/2009                                                $2,765,000.00                                                                                $0.00
12/22/2009 TriSummit Bank,           Preferred          $4,237,000.00       Sold, in full;
                           8,14,18   Stock w/                              warrants not                                                                                                                                                                                  $1,172,766.00
11/29/2012 Kingsport, TN             Warrants                               outstanding              $5,251,500.00                                                 7,002        $750.00      ($1,750,500.00)               $124,665.75
1/11/2013                                                                                                                  ($52,515.00)
11/21/2008                                                                                                                                           $0.00
           Trustmark                 Preferred                         Redeemed, in
12/9/2009 Corporation,               Stock w/         $215,000,000.00   full; warrants             $215,000,000.00                                              215,000       $1,000.00                                                     $26.84                      $11,287,500.00
           Jackson, MS11             Warrants                         not outstanding
12/30/2009                                                                                                                                                                                                               $10,000,000.00
5/29/2009                          Preferred                                                                                                         $0.00
             Two Rivers                                                  Redeemed, in
                                   Stock w/
             Financial Group,                          $12,000,000.00     full; warrants                                                                                                                                                    $18.00                       $1,475,133.27
9/1/2011                           Exercised                                                        $12,000,000.00                                               12,000       $1,000.00                                    $600,000.00
             Burlington, IA8,14,44                                      not outstanding
                                   Warrants
11/14/2008                                                                                                                                           $0.00
                               Preferred                                 Redeemed, in
             U.S. Bancorp,
6/17/2009                      Stock w/             $6,599,000,000.00     full; warrants         $6,599,000,000.00                                             6,599,000      $1,000.00                                                     $40.40                    $195,220,416.67
             Minneapolis, MN11
                               Warrants                                 not outstanding
7/15/2009                                                                                                                                                                                                               $139,000,000.00
                                     Preferred                          Full investment
             U.S. Century            Stock w/                             outstanding;
8/7/2009                                               $50,236,000.00                                                                       $50,236,000.00                                                                                                                 $745,311.72
             Bank, Miami, FL8        Exercised                                 warrants
                                     Warrants                               outstanding
1/30/2009                   Preferred                                                                                                                $0.00
          UBT Bancshares,                                                Redeemed, in
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                            Stock w/
          Inc., Marysville,                             $8,950,000.00     full; warrants                                                                                                                                                                                 $1,234,911.78
8/11/2011 KS8,14,44         Exercised                                                                $8,950,000.00                                                 8,950      $1,000.00                                    $450,000.00
                                                                        not outstanding
                            Warrants
11/14/2008 UCBH Holdings, Preferred                                                                                                                  $0.00
                                                                          Currently not
           Inc., San         Stock w/                 $298,737,000.00                                                                                                                                                                                    7,847,732       $7,509,920.07
11/6/2009 Francisco, CA22,97 Warrants                                       collectible                                                                                                    ($298,737,000.00)

11/14/2008                                                                                                                                           $0.00
           Umpqua Holdings Preferred                                     Redeemed, in
2/17/2010 Corp., Portland, Stock w/                   $214,181,000.00     full; warrants           $214,181,000.00                                              214,181       $1,000.00                                                     $19.14                      $13,475,554.58
           OR12,16         Warrants                                     not outstanding
3/31/2010                                                                                                                                                                                                                 $4,500,000.00
5/1/2009  Union Bank &                                  $3,194,000.00                                                                                $0.00
                                     Preferred                           Redeemed, in
          Trust Company,
12/18/2009                           Stock w/           $2,997,000.00     full; warrants                                                                                                                                                                                   $680,291.65
          Oxford,
             8,14,18,44,45           Warrants                           not outstanding
9/22/2011 NC                                                                                         $6,191,000.00                                                6,191       $1,000.00                                    $160,000.00
12/29/2009 Union Financial           Preferred                                                                                                       $0.00
                                                                         Redeemed, in
           Corporation,              Stock w/
7/25/2012                                               $2,179,000.00     full; warrants               $600,000.00                                                  600       $1,000.00                                                                                    $395,873.00
           Albuquerque,              Exercised
              8,11,17                                                   not outstanding
10/2/2013 NM                         Warrants                                                        $1,579,000.00                                                1,579       $1,000.00                                     $65,000.00
12/19/2008 Union First Market                                                                                                                        $0.00
           Bankshares         Preferred                                  Redeemed, in
11/18/2009 Corporation,       Stock w/                 $59,000,000.00     full; warrants            $59,000,000.00                                               59,000       $1,000.00                                                     $24.81                       $5,239,859.00
           Bowling Green,     Warrants                                  not outstanding
12/23/2009 VA12,16,25                                                                                                                                                                                                      $450,000.00

                           Preferred                                    Full investment
          United American
                           Stock w/                                       outstanding;
2/20/2009 Bank, San Mateo,                              $8,700,000.00                                                                        $8,700,000.00                                                                                                                        $0.00
            8              Exercised                                           warrants
          CA
                           Warrants                                         outstanding
1/16/2009                                                                                                                                            $0.00
          United Bancorp,            Preferred                              Sold, in full;
6/19/2012 Inc., Tecumseh,            Stock w/          $20,600,000.00      warrants not             $17,005,300.00       ($255,079.50)                           20,600         $825.50      ($3,594,700.00)                                $8.03                        $3,527,704.00
          MI                         Warrants                               outstanding
7/18/2012                                                                                                                                                                                                                   $38,000.00
12/23/2008 United                                                                                                                                    $0.00
                                     Preferred                           Redeemed, in
           Bancorporation
                                     Stock w/          $10,300,000.00     full; warrants                                                                                                                                                                   108,264         $872,638.89
                      Inc.,                                                                         $10,300,000.00                                               10,300       $1,000.00
9/3/2010 of Alabama,11,36            Warrants                              outstanding
           Atmore, AL
5/22/2009 United Bank                Subordinated                                                                                                    $0.00
                                                                         Redeemed, in
          Corporation,               Debentures
                                                       $14,400,000.00     full; warrants                                                                                                                                                                                 $3,762,079.62
7/3/2012 Barnesville,                w/ Exercised                                                   $14,400,000.00                                            14,400,000          $1.00                                    $720,000.00
                                                                        not outstanding
          GA11,14,15                 Warrants
12/5/2008                                                                                                                                            $0.00
3/26/2013                                                                                            $1,516,900.00                                                1,576         $962.50         ($59,100.00)
3/27/2013 United Community Preferred                                        Sold, in full;          $12,587,575.00                                               13,078         $962.50        ($490,425.00)
          Banks, Inc.,     Stock w/                   $180,000,000.00      warrants not                                                                                                                                                     $17.75                      $38,843,350.00
3/28/2013 Blairsville, GA  Warrants                                         outstanding            $159,145,525.00                                              165,346         $962.50      ($6,200,475.00)
4/9/2013                                                                                                                ($1,732,500.00)
6/10/2013                                                                                                                                                                                                                     $6,677.00
                                                                                                                                                                                                                                                                  Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales   12/31/135       Warrants     Paid to Treasury
1/16/2009 United Financial      Preferred                                                                                                    $0.00
                                                                    Redeemed, in
          Banking               Stock w/
12/15/2010                                         $5,658,000.00     full; warrants             $3,000,000.00                                             3,000       $1,000.00                                                   $38.00                         $708,963.92
          Companies, Inc.,      Exercised
                     8,11,44                                       not outstanding
9/15/2011 Vienna, VA            Warrants                                                        $2,658,000.00                                             2,658       $1,000.00                                  $283,000.00
12/5/2008                                                                                                                                    $0.00
5/15/2013 Unity Bancorp,     Preferred                            Redeemed, in                 $10,324,000.00                                            10,324       $1,000.00
                          11 Stock w/             $20,649,000.00   full; warrants                                                                                                                                                 $7.66                        $4,657,501.00
7/3/2013 Inc., Clinton, NJ   Warrants                            not outstanding               $10,325,000.00                                            10,325       $1,000.00
8/28/2013                                                                                                                                                                                                       $2,707,314.00
5/22/2009                                                                                                                                    $0.00
                                Preferred
8/8/2013  Universal                                                    Sold, in full;             $237,527.50                                               250         $950.10         ($12,472.50)
                                Stock w/
          Bancorp,                                 $9,900,000.00      warrants not                                                                                                                                                                             $2,278,067.00
8/12/2013 Bloomfield, IN8       Exercised                                                       $9,168,561.50                                              9,650        $950.10       ($481,438.50)              $476,573.62
                                                                       outstanding
                                Warrants
9/12/2013                                                                                                          ($94,060.89)
6/19/2009 University                                                                                                                         $0.00
                                                                  Redeemed, in
          Financial Corp,       Subordinated
                                                  $11,926,000.00   full; warrants                                                                                                                                                                              $1,022,886.40
                  St. Paul,     Debentures                                                     $11,926,000.00                                         11,926,000          $1.00
7/30/2010 Inc.,9,11,15                                           not outstanding
          MN
                               Preferred                           Full investment
             US Metro Bank,    Stock w/                              outstanding;
2/6/2009                                           $2,861,000.00                                                                     $2,861,000.00                                                                                $1.08                          $432,678.00
             Garden Grove, CA8 Exercised                                  warrants
                               Warrants                                outstanding
12/23/2008                      Preferred                                                                                                    $0.00
             Uwharrie Capital                                       Redeemed, in
                                Stock w/
4/3/2013     Corp, Albemarle,                     $10,000,000.00     full; warrants             $7,742,000.00                                              7,742      $1,000.00                                                   $2.85                        $2,416,041.00
                                Exercised
             NC8,11                                                not outstanding
10/16/2013                      Warrants                                                        $2,258,000.00                                              2,258      $1,000.00                                  $500,000.00
1/30/2009                    Preferred                                                                                                       $0.00
          Valley Commerce                                           Redeemed, in
                             Stock w/
          Bancorp,                                 $7,700,000.00     full; warrants                                                                                                                                               $13.62                       $1,318,401.00
3/21/2012 Visalia, CA8,11,14 Exercised                                                          $7,700,000.00                                              7,700      $1,000.00                                  $385,000.00
                                                                   not outstanding
                             Warrants
1/9/2009                     Preferred                                                                                                       $0.00
           Valley Community                                            Sold, in full;
                             Stock w/
           Bank, Pleasanton,                       $5,500,000.00      warrants not                                                                                                                                                $2.25                          $629,475.50
10/21/2013 CA8               Exercised                                                          $2,296,800.00                                             5,500         $417.60     ($3,203,200.00)               $70,815.25
                                                                       outstanding
                             Warrants
12/12/2008                                                                                                                                   $0.00
11/14/2012                                                                                      $1,600,000.00                                              1,600      $1,000.00
2/20/2013                                                                                       $1,600,000.00                                              1,600      $1,000.00
          Valley Financial      Preferred                           Redeemed, in
5/15/2013 Corporation,          Stock w/          $16,019,000.00     full; warrants             $1,600,000.00                                              1,600      $1,000.00                                                                                $3,744,779.00
          Roanoke, VA11         Warrants                           not outstanding
8/14/2013                                                                                       $1,600,000.00                                              1,600      $1,000.00
10/16/2013                                                                                      $9,619,000.00                                              9,619      $1,000.00
11/13/2013                                                                                                                                                                                                      $1,547,891.58

12/18/2009 Valley Financial     Preferred                                                                                                    $0.00
                                                                  Redeemed, in
           Group, Ltd.,         Stock w/
                                                   $1,300,000.00   full; warrants                                                                                                                                                                488,847         $124,774.73
           1st State Bank,      Exercised
9/22/2011 Saginaw, MI8,14,44                                     not outstanding                $1,300,000.00                                             1,300       $1,000.00                                   $65,000.00
                                Warrants
11/14/2008                                                                                                                                   $0.00
6/3/2009                                                                                       $75,000,000.00                                            75,000       $1,000.00
           Valley National      Preferred                           Redeemed, in
9/23/2009 Bancorp, Wayne,       Stock w/         $300,000,000.00     full; warrants           $125,000,000.00                                           125,000       $1,000.00                                                   $10.12                      $18,551,519.00
           NJ11                 Warrants                           not outstanding
12/23/2009                                                                                    $100,000,000.00                                           100,000       $1,000.00
5/24/2010                                                                                                                                                                                                       $5,421,615.27
          Veritex Holdings,
6/26/2009 Inc.(Fidelity         Preferred                                                                                                    $0.00
                                                                    Redeemed, in
                                Stock w/
          Resources                                $3,000,000.00     full; warrants                                                                                                                                                                              $353,796.00
                                Exercised
          Company),                                                not outstanding
8/25/2011                       Warrants                                                        $3,000,000.00                                             3,000       $1,000.00                                  $150,000.00
          Dallas, TX8,41,44

5/1/2009   Village Bank and                                                                                                                  $0.00
                                Preferred                              Sold, in full;
           Trust Financial
                                Stock w/          $14,738,000.00          warrants                                                                                                                                                $1.41          499,029       $1,318,232.22
           Corp, Midlothian,
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




11/19/2013 VA                   Warrants                               outstanding              $5,672,361.44                                            14,738         $384.90     ($9,065,638.56)

12/12/2008 Virginia Commerce Preferred                              Redeemed, in                                                             $0.00
           Bancorp, Arlington, Stock w/           $71,000,000.00     full; warrants                                                                                                                                               $16.99       2,696,203      $14,190,139.00
12/11/2012 VA11                Warrants                               outstanding              $71,000,000.00                                            71,000       $1,000.00

                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 399
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                        (CONTINUED)                                                                                                                                                                       400
                                                                                                                                                         Number     Average Price                                                  Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding    Dividend/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales   12/31/135       Warrants      Paid to Treasury
6/12/2009                                                                                                                                      $0.00
                           Preferred
8/8/2013  Virginia Company                                               Sold, in full;             $325,353.86                                              533         $610.40       ($207,646.14)
                           Stock w/
          Bank, Newport                              $4,700,000.00      warrants not                                                                                                                                                                                $786,987.00
8/12/2013 News, VA8,17     Exercised                                                              $2,543,620.14                                            4,167         $610.40     ($1,623,379.86)                 $63,481.25
                                                                         outstanding
                           Warrants
9/12/2013                                                                                                            ($25,000.00)
4/24/2009 Vision Bank            Preferred                                                                                                     $0.00
                                                                    Redeemed, in
           - Texas,              Stock w/
12/28/2012                                           $1,500,000.00   full; warrants                 $787,500.00                                              788       $1,000.00                                                                                    $323,259.00
           Richardson,           Exercised
              8,11,14                                              not outstanding
7/10/2013 TX                     Warrants                                                           $712,500.00                                              713       $1,000.00                                     $75,000.00

12/19/2008 VIST Financial        Preferred                            Redeemed, in                                                             $0.00
           Corp.,                Stock w/          $25,000,000.00      full; warrants                                                                                                                                                $12.16                        $4,520,833.00
8/1/2012 Wyomissing, PA          Warrants                            not outstanding             $25,000,000.00                                           25,000       $1,000.00                                   $1,189,813.00

1/30/2009 W.T.B. Financial     Preferred                                                                                                       $0.00
                                                                      Redeemed, in
                               Stock w/
          Corporation,                            $110,000,000.00      full; warrants                                                                                                                                                                            $15,736,874.33
                       8,14,45 Exercised
9/15/2011 Spokane, WA                                                not outstanding            $110,000,000.00                                          110,000       $1,000.00                                   $5,500,000.00
                               Warrants
12/11/2009 Wachusett             Preferred                                                                                             $5,000,000.00
                                                                      Redeemed, in
           Financial             Stock w/
4/4/2012                                           $12,000,000.00     part; warrants              $3,000,000.00                                            3,000       $1,000.00                                                                                   $2,125,223.00
           Services, Inc.,       Exercised
                       8,11,17                                          outstanding
1/30/2013 Clinton, MA            Warrants                                                         $4,000,000.00                                            4,000       $1,000.00
12/19/2008                                                                                                                                     $0.00
           Wainwright Bank Preferred                                  Redeemed, in
11/24/2009 & Trust Company, Stock w/               $22,000,000.00      full; warrants            $22,000,000.00                                           22,000       $1,000.00                                                                                   $1,023,611.11
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




           Boston, MA11     Warrants                                 not outstanding
12/16/2009                                                                                                                                                                                                          $568,700.00
1/16/2009 Washington                                                                                                                           $0.00
                           Preferred                                  Redeemed, in
          Banking Company,
1/12/2011                  Stock w/                $26,380,000.00      full; warrants            $26,380,000.00                                           26,380       $1,000.00                                                     $17.73                        $2,623,344.45
          Oak Harbor,
             11,16         Warrants                                  not outstanding
3/2/2011 WA                                                                                                                                                                                                        $1,625,000.00
11/14/2008                                                                                                                                     $0.00
          Washington             Preferred                            Redeemed, in
5/27/2009 Federal, Inc.,         Stock w/         $200,000,000.00      full; warrants           $200,000,000.00                                          200,000       $1,000.00                                                     $23.29                        $5,361,111.11
          Seattle, WA11          Warrants                            not outstanding
3/15/2010                                                                                                                                                                                                         $15,388,874.07
1/30/2009                                            $6,633,000.00                                                                             $0.00
           WashingtonFirst Preferred                                  Redeemed, in
10/30/2009 Bankshares, Inc., Stock w/                $6,842,000.00     full; warrants                                                                                                                                                                              $1,510,318.00
           Reston, VA8,18,21,44 Warrants                             not outstanding
8/4/2011                                                                                         $13,475,000.00                                           13,475       $1,000.00                                    $332,000.00
6/26/2009                                                                                                                                      $0.00
2/6/2013                       Preferred                                                          $4,831,002.80                                            5,212         $926.90       ($380,997.20)                  $18,644.66
             Waukesha                                                    Sold, in full;
                               Stock w/
2/7/2013     Bankshares, Inc.,                       $5,625,000.00      warrants not                  $92,690.00                                             100         $926.90          ($7,310.00)               $147,194.69                                    $1,071,380.00
                          8,17 Exercised
             Waukesha, WI                                                outstanding
2/8/2013                       Warrants                                                             $290,119.70                                              313         $926.90         ($22,880.30)
3/26/2013                                                                                                            ($52,138.13)
11/21/2008                                                                                                                                     $0.00
3/3/2010                                                                                        $100,000,000.00                                          100,000       $1,000.00
           Webster Financial Preferred                             Redeemed, in
10/13/2010 Corporation,      Stock w/             $400,000,000.00   full; warrants              $100,000,000.00                                          100,000       $1,000.00                                                     $31.18                      $36,944,444.45
           Waterbury, CT11   Warrants                             not outstanding
12/29/2010                                                                                      $200,000,000.00                                          200,000       $1,000.00
6/8/2011                                                                                                                                                                                                          $20,388,842.06
10/28/2008                                                                                                                                     $0.00
                               Preferred                              Redeemed, in
             Wells Fargo & Co.
12/23/2009                     Stock w/         $25,000,000,000.00     full; warrants        $25,000,000,000.00                                           25,000    $1,000,000.00                                                    $45.40                    $1,440,972,222.22
             Minneapolis, MN11
                               Warrants                              not outstanding
5/26/2010                                                                                                                                                                                                        $840,374,891.73
12/5/2008                                                                                                                                      $0.00
                                 Preferred                            Redeemed, in
             WesBanco, Inc.,
9/9/2009                         Stock w/          $75,000,000.00      full; warrants            $75,000,000.00                                           75,000       $1,000.00                                                     $32.00         100,448        $4,242,500.00
             Wheeling, WV11
                                 Warrants                            not outstanding
12/23/2009                                                                                                                                                                                                          $950,000.00
12/31/2008 West                                                                                                                                $0.00
                                 Preferred                            Redeemed, in
           Bancorporation,
6/29/2011                        Stock w/          $36,000,000.00      full; warrants            $36,000,000.00                                           36,000       $1,000.00                                                     $15.82                        $4,495,000.00
           Inc., West Des
                      11         Warrants                            not outstanding
8/31/2011 Moines, IA                                                                                                                                                                                                $700,000.00
2/13/2009                                                                                                                                      $0.00
9/2/2009   Westamerica           Preferred                         Redeemed, in                  $41,863,000.00                                           41,863       $1,000.00
           Bancorporation,       Stock w/          $83,726,000.00   full; warrants                                                                                                                                                   $56.46         246,698        $2,755,980.61
11/18/2009 San Rafael, CA11      Warrants                         not outstanding                $41,863,000.00                                           41,863       $1,000.00
11/21/2011                                                                                                                                                                                                          $878,256.00
                                                                                                                                                                                                                                                           Continued on next page
 CPP TRANSACTIONS DETAIL, AS OF 12/31/2013                                                                (CONTINUED)
                                                                                                                                                                  Number     Average Price                                                              Stock Price       Current
Transaction                            Investment                               Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares      (Realized Loss) /                                          as of      Outstanding   Dividend/Interest
Date        Institution                Description1     Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed              (Write-off)           Gain4      Warrant Sales   12/31/135       Warrants     Paid to Treasury
11/21/2008                                                                                                                                              $0.00
           Western Alliance            Preferred                              Redeemed, in
9/27/2011 Bancorporation,              Stock w/            $140,000,000.00     full; warrants           $140,000,000.00                                           140,000       $1,000.00                                                                 $23.86                     $19,950,000.00
           Las Vegas, NV44             Warrants                              not outstanding
11/23/2011                                                                                                                                                                                                                               $415,000.00
               Western            Preferred                                  Full investment
               Community         Stock w/                                      outstanding;
12/23/2008                                                   $7,290,000.00                                                                      $7,290,000.00                                                                                                                           $554,083.00
               Bancshares, Inc., Exercised                                          warrants
               Palm Desert, CA8 Warrants                                         outstanding
12/23/2008                                                   $6,855,000.00                                                                              $0.00
12/29/2009                    Preferred                      $4,567,000.00
          Western Illinois                                                       Sold, in full;
                              Stock w/
11/8/2012 Bancshares Inc.,                                                      warrants not              $1,050,524.72                                             1,117         $940.38            ($66,475.28)                                                                      $2,102,189.00
                              Exercised
          Monmouth, IL8,14,18                                                    outstanding
11/9/2012                     Warrants                                                                    $9,673,015.37                                            10,305         $939.53          ($631,984.63)                         $335,417.06
1/11/2013                                                                                                                    ($107,235.41)
5/15/2009                              Preferred                                                                                                        $0.00
           Western Reserve                                                  Redeemed, in
                                       Stock w/
           Bancorp, Inc,                                     $4,700,000.00   full; warrants                                                                                                                                                               $7.46                         $907,198.00
11/30/2012 Medina, OH8,11,78           Exercised                                                          $4,700,000.00                                             4,700       $1,000.00                                                $235,000.00
                                                                           not outstanding
                                       Warrants
               White River             Preferred                             Full investment
               Bancshares              Stock w/                                outstanding;
2/20/2009                                                   $16,800,000.00                                                                     $16,800,000.00                                                                                                                          $1,589,583.00
               Company,                Exercised                                    warrants
               Fayetteville, AR8       Warrants                                  outstanding
12/19/2008 Whitney Holding Preferred                                          Redeemed, in                                                              $0.00
           Corporation, New Stock w/                       $300,000,000.00     full; warrants                                                                                                                                                                                        $36,833,333.33
6/3/2011   Orleans, LA      Warrants                                         not outstanding            $300,000,000.00                                           300,000       $1,000.00                                              $6,900,000.00

12/12/2008 Wilmington Trust            Preferred                              Redeemed, in                                                              $0.00
           Corporation,                Stock w/            $330,000,000.00     full; warrants                                                                                                                                                                             95,383
5/13/2011 Wilmington, DE11             Warrants                                 outstanding             $330,000,000.00                                           330,000       $1,000.00

12/12/2008                                                                                                                                              $0.00
               Wilshire Bancorp, Preferred                                       Sold, in full;
4/3/2012       Inc.,             Stock w/                   $62,158,000.00      warrants not             $58,646,694.58      ($879,700.42)                         62,158         $943.50         ($3,511,305.42)                                         $10.90                     $10,282,176.00
               Los Angeles, CA Warrants                                          outstanding
6/20/2012                                                                                                                                                                                                                                $760,000.00
12/19/2008                                                                                                                                              $0.00
           Wintrust Financial Preferred                                       Redeemed, in
12/22/2010 Corporation,       Stock w/                     $250,000,000.00     full; warrants           $250,000,000.00                                           250,000       $1,000.00                                                                 $46.12                     $25,104,166.66
           Lake Forest, IL11 Warrants                                        not outstanding
2/14/2011                                                                                                                                                                                                                             $25,600,564.15
5/15/2009 Worthington                  Preferred                                                                                                        $0.00
                                                                                 Sold, in full;
          Financial                    Stock w/
6/24/2013                                                    $2,720,000.00      warrants not              $2,343,851.20                                             2,720         $861.70          ($376,148.80)                          $90,940.00                                    $370,600.00
          Holdings, Inc.,              Exercised
                         8,14                                                    outstanding
7/26/2013 Huntsville, AL               Warrants                                                                               ($24,999.99)
1/23/2009                                                                                                                                               $0.00
                                       Preferred                                 Sold, in full;
               WSFS Financial
4/3/2012                               Stock w/             $52,625,000.00      warrants not             $48,157,663.75      ($722,364.96)                         52,625         $915.10         ($4,467,336.25)                                         $77.53                       $8,405,558.00
               Corporation
                                       Warrants                                  outstanding
9/12/2012                                                                                                                                                                                                                              $1,800,000.00
                                                                                                                                                                                                                                                                       128,663.33
1/16/2009                                                   $36,000,000.00                                                                              $0.00

7/24/2009 Yadkin Valley                Preferred            $13,312,000.00       Sold, in full;                                                                                                                                                                           91,178
          Financial
                                       Stock w/                                 warrants not                                                                                                                                                              $17.04                       $8,820,923.00
9/18/2012 Corporation,                                                                                   $44,149,056.00      ($662,235.84)                         49,312         $893.00         ($5,162,944.00)
                                       Warrants                                  outstanding
          Elkin, NC
6/10/2013                                                                                                                                                                                                                                 $55,677.00
6/11/2013                                                                                                                                                                                                                                 $20,000.00

4/24/2009                              Preferred                                                                                                        $0.00
                                                                            Redeemed, in
               York Traditions         Stock w/
                                                             $4,871,000.00   full; warrants                                                                                                                                                                                             $590,022.14
               Bank, York, PA8,14,45   Exercised
7/14/2011                                                                  not outstanding                $4,871,000.00                                             4,871       $1,000.00                                                $244,000.00
                                       Warrants
11/14/2008                                                                                                                                              $0.00
3/28/2012 Zions                Preferred                                      Redeemed, in              $700,000,000.00                                           700,000       $1,000.00
          Bancorporation,      Stock w/                  $1,400,000,000.00     full; warrants                                                                                                                                                             $29.96      253,361,111   $253,361,111.00
9/26/2012 Salt Lake City, UT11 Warrants                                      not outstanding            $700,000,000.00                                           700,000       $1,000.00
12/5/2012                                                                                                                                                                                                                              $7,666,418.51
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




      Totals                                          $204,894,726,320.00                         $198,086,099,920.28 ($34,476,930.50) $2,094,054,389.88                                     ($4,714,572,009.84) $6,892,181,661.26 $7,912,784,277.74
                                                                                                                                                                                                                                                                                                        401
                                                                                                                                                                                                                                                                                                                                       402
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numeric notes were taken verbatim from Treasury’s 1/1/2014 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 12/31/2013.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014.
*Investment Status Definition Key
Full investment outstanding: Treasury’s full investment is still outstanding
Redeemed – institution has repaid Treasury’s investment
Sold – by auction, an offering, or through a restructuring
Exited bankruptcy/receivership – Treasury has no outstanding investment
Currently not collectible – investment is currently not collectible; therefore there is no outstanding investment and a corresponding (Realized Loss) / (Write-off)
In full – all of Treasury’s investment amount
In part – part of the investment is no longer held by Treasury, but some remains
Warrants outstanding – Treasury’s warrant to purchase additional stock is still outstanding, including any exercised warrants
Warrants not outstanding – Treasury has disposed of its warrant to purchase additional stock through various means as described in the Warrant Report (such as sale back to company and auctions) or Treasury did not receive a warrant to purchase additional stock

1
 	 All pricing is at par.
2
 	 Total Cash Back includes net capital repayments, interest and dividends, warrant proceeds, and other income (less expenses).
3
 	 Capital Repayments includes gross capital repayments, gross auction proceeds, exchanges into CDCI, and SBLF fundings.
4
 	Includes: (i) placement fees in private auctions of a CPP issuer’s securities where Treasury pays placement fees to the placement agents in an amount equal to a minimum of $50,000 (per issuer) or 1.00% of gross aggregate proceeds for each security and (ii) unreimbursed underwriting fees in public offerings. Placement
    fees in private auctions are paid approximately one month after settlement.
5
 	 Net proceeds from sales and auctions can be calculated by adding the “Amount” and “(Fee)” columns under the “Capital Repayment / Disposition / Auction” plus any amount in the “Gain” column. Note that “(Fee)” is a negative number.
6
 	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
    transaction under the CPP was funded on 1/9/2009.
7
 	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and $122,365,216.
    Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
8
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
9
 	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
10
  	 Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
11
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
12
  	 Redemption pursuant to a qualified equity offering.
13
  	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
14
  	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
15
  	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
16
  	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
17
  	 This institution participated in the expansion of CPP for small banks.
                                                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




18
  	 This institution received an additional investment through the expansion of CPP for small banks.
19
  	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
    Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series
    M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
20
  	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
21
  	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
22
  	 As of the date of this report, this institution is in bankruptcy proceedings.
23
  	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
    holders of CVRs were not met.
24
  	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
25
  	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
    equivalent to those of Treasury’s original investment.
26
  	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
27
  	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
    Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
28
  	 On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
29
  	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
    dividends. On 7/26/13, Treasury entered into a securities purchase agreement with Independent pursuant to which Treasury agreed to sell to Independent the MCP and the warrant issued by Independent, subject to the conditions specified in such agreement. On 8/30/13, Treasury completed the sale of the MCP and
    warrant to Independent pursuant to the terms of such agreement.
30
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On
    April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion
    of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
    completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
    ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to
    1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public
    offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
31
  	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since
    Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
32
  	On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
33
  	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
34
  	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
    On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on the MCP at the time of the
    conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
35
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount
    of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital.
    Following a reverse stock split effective 12/28/10, Treasury held 3,608,332 shares of Pacific Capital common stock. Effective 11/30/12, Pacific Capital merged with and into UnionBanCal Corporation and each outstanding share of common stock of the Company was converted into the right to receive $46.00 per share
    in cash, and Treasury received $165,983,272 in respect of its common stock and $393,121 in respect of its warrant.
36
  	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
37
  	 At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
38
  	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
    Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
39
  	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing of the sale
    also occurred on 1/28/2011.
40
  	 On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
41
  	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement
    among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
42
  	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of preferred stock
    in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/30/2011. Exercised
    warrants were also exchanged at the time of the agreement.
43
  	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I
    Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.
44
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
45
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
46
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
47
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
48
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
49
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
50
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
51
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
53
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United entered into on
     08/12/2011.
54
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously unpaid
     dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
55
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
56
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
57
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement among
     Treasury, CFC and CFB entered into on 11/15/2011.
59
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among Treasury, Center
     Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
60
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury for a like
     F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 01/01/2012.
61
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the
     acquiror entered into on 1/1/2012.
62
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the exercise of
     warrants) that had been issued to Treasury by Regents.
63
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
64
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
65
  	 On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a capital plan.
66
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
67
  	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the acquiror,
     pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
68
  	 On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
69
  	 On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
70
  	 On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
71
  	 On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus accrued and
     unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
73
  	 On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
74
  	On 2/22/2013, Treasury completed the exchange of its Standard Bancshares, Inc. preferred stock for common stock, pursuant to an exchange agreement, dated as of 11/5/2012, with Standard Bancshares, Inc., and immediately sold the resulting Standard Bancshares, Inc. common stock, pursuant to securities
     purchase agreements, each dated as of 11/5/2012, with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC.
75
  	 On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
76
  	 On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
77
  	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 01/01/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the Fidelity warrant
     held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
78
  	On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid dividends
     thereon.
79
  	 On 2/20/2013, Treasury sold its CPP preferred stock and warrant issued by First Sound Bank (“First Sound”) back to First Sound for an aggregate purchase price of $3,700,000, pursuant to the terms of the agreement between Treasury and First Sound entered into on 11/30/2012.
80
  	 On 4/9/2013, Treasury sold its CPP preferred stock and warrant issued by PremierWest Bancorp (“PremierWest”) pursuant to an agreement with PremierWest and Starbuck Bancshares, Inc. (“Starbuck”) entered into on 12/11/2012.
81
  	In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/09/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial to Treasury for a purchase price of $12,643,000 plus accrued
     dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/09/13.
82
  	On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. Preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified Coastal
     Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
83
  	 On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 02/11/2013.
84
  	 On 8/14/2013, Treasury sold its CPP preferred stock issued by Florida Bank Group, Inc. (“FBG”) back to FBG for an aggregate purchase price of $8,000,000, pursuant to the terms of the agreement between Treasury and FBG entered into on 2/12/13.
85
  	On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had been issued to
     Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
86
  	On 4/12/2013, Treasury completed (i) the sale of its CPP preferred in Citizens Republic Bancorp, Inc. (Citizens Republic) to FirstMerit Corporation (FirstMerit) and (ii) the exchange of its warrant in Citizens Republic for a warrant issued by FirstMerit, pursuant to a securities purchase agreement, dated as of 2/19/13, among
     Treasury, FirstMerit and Citizens Republic.
87
  	On 4/11/2013, Treasury completed the exchange of its First Security Group, Inc. (FSGI) preferred stock for common stock, pursuant to an exchange agreement, dated as of 2/25/2013, between Treasury and FSGI, and sold the resulting FSGI common stock, pursuant to securities purchase agreements, each dated as of
     4/9/2013, between Treasury and the purchasers party thereto.
88
  	 On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
89
  	As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB Bancorp, Inc., and
     Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
90
  	 As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on 4/6/2013.
91
  	 On 04/05/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
92
  	 On 04/09/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
93
  	On 7/17/13, Treasury entered into a securities purchase agreement with Central Virginia Bankshares, Inc. (CVB) and C&F Financial Corporation (C&F) pursuant to which Treasury agreed to sell to C&F the CPP preferred stock and warrant issued by CVB, subject to the conditions specified in such agreement. The sale was
     completed on 10/01/2013.
94
  	On 8/12/2013, Anchor BanCorp Wisconsin Inc. ( “Anchor”) filed a voluntary petition for Chapter 11 protection in the U.S. Bankruptcy Court for the Western District of Wisconsin to implement a “pre-packaged” Plan of Reorganization in order to facilitate the restructuring of Anchor. On 9/27/ 2013, the Plan of Reorganization
     became effective in accordance with its terms, pursuant to which (i) Treasury’s preferred stock was exchanged for 60,000,000 shares of common stock (the “Common Stock”) and (ii) Treasury’s warrant was cancelled. On 9/27/2013, Treasury sold the Common Stock to purchasers pursuant to securities purchase
     agreements entered into on 9/19/2013.
95
  	 On 7/5/2013, Rogers Bancshares, Inc. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Eastern District of Arkansas.
96
  	On 8/22/2013, Treasury exchanged its preferred stock in Broadway Financial Corporation for 10,146 shares of common stock equivalent representing (i) 50% of the liquidation preference of the preferred stock, plus (ii) 100% of previously accrued and unpaid dividends on the preferred stock ($2,646,000). The common
     stock equivalent will be converted to common stock upon the receipt of certain shareholder approvals.
97
  	This institution has entered into bankruptcy or receivership. For a full list of institutions that have entered bankruptcy or receivership and Treasury’s remaining investments, reference appendices B and C in the section titled “Capital Purchase Program Institutions” in the most recent report to congress found on Treasury’s
     website: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx.
98
  	On 10/30/2013, Treasury entered into an agreement with Monarch Community Bancorp, Inc. (Monarch) to exchange Treasury’s CPP warrant and $6,785,000 of preferred stock for common stock. The exchange was subject to the fulfillment by Monarch of certain conditions, including the satisfactory completion of a
     capital plan. On 11/15/2013, the exchange of the CPP warrant and preferred stock for common stock was completed and Treasury sold such common stock to purchasers pursuant to securities purchase agreements dated as of 11/15/2013.
99
  	 On 12/5/2013, Treasury’s 10,146 shares of common stock equivalent in Broadway Financial converted to 10,146,000 shares of common stock.
100
   	 On 12/13/2013, Texas Community Bank, National Association, The Woodlands, Texas, the banking subsidiary of TCB Holding Company, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
101
   	As a result of a reincorporation merger of Community Bankers Trust Corporation, a Delaware corporation (CBTC Delaware) into Community Bankers Trust Corporation, a Virginia corporation (CBTC Virginia), the outstanding preferred stock and warrant issued by CBTC Delaware were exchanged for a like amount of securities
     issued by CBTC Virginia, pursuant to the terms of an agreement among Treasury, CBTC Delaware and CBTC Virginia entered into on 1/1/14.
                                                                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




Sources: Treasury, Transactions Report,1/1/2014; Dividends and Interest Report, 1/10/2014; Treasury, response SIGTARP data call, 1/8/2014; Bloomberg, LP, accessed 1/11/2014.
                                                                                                                                                                                                                                                                                                                                             403
TABLE D.2                                                                                                                                                                                                                                                                                   404
CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 12/31/2013

 Note      Date                                   Pricing Mechanism6                         Number of Shares                                 Proceeds7
     1     4/26/2010 - 5/26/2010                                     $4.12                       1,500,000,000                          $6,182,493,158
     2     5/26/2010 - 6/30/2010                                     $3.90                       1,108,971,857                          $4,322,726,825
     3     7/23/2010 - 9/30/2010                                     $3.91                       1,500,000,000                          $5,863,489,587
     4     10/19/2010 - 12/6/2010                                    $4.26                       1,165,928,228                          $4,967,921,811
     5     12/6/2010                                                 $4.35                       2,417,407,607                        $10,515,723,090
                                                                                                Total Proceeds:                      $31,852,354,471
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes taken verbatim from 1/1/2014 Transactions Report.

1	On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 5/26/2010.
2	On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 6/30/2010.
3	On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occured on 9/30/2010.
4	On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of
   the sale), which plan was terminated on 12/6/2010.
5	On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
   fulfillment of certain closing conditions.
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




6	The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
   period.
7	 Amount represents the gross proceeds to Treasury.

Source: Treasury, Transactions Report, 1/1/2014.




TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013
                                                        Seller                                                                                         Purchase Details                                                               Disposition Details
         Purchase                                                                                                                         Amount                                                       Pricing                                      Remaining     Dividend/Interest Paid
Note     Date          Name of Institution                                                      State   Investment Description          from CPP      Additional Investment     Investment Amount   Mechanism          Date      Amount     Investment Amount                to Treasury
         9/24/2010     Alternatives Federal Credit Union, Ithaca, NY                              NY    Subordinated Debentures                $­—                        $­—          $2,234,000          Par                                                                 $140,370
         9/17/2010     American Bancorp of Illinois, Inc., Oak Brook, IL                          IL    Subordinated Debentures                $­—                        $­—          $5,457,000          Par                                                                 $534,756
 6       9/24/2010     Atlantic City Federal Credit Union, Lander, WY                             WY    Subordinated Debentures                $­—                        $­—          $2,500,000          Par   9/26/20126   $2,500,000                    $­—                $100,278
         9/24/2010     Bainbridge Bancshares, Inc., Bainbridge, GA                                GA    Preferred Stock                        $­—                        $­—          $3,372,000          Par                                                                 $211,874
 8       9/29/2010     Bancorp of Okolona, Inc., Okolona, MS                                      MS    Subordinated Debentures                $­—                        $­—          $3,297,000          Par   3/13/20136   $3,297,000                    $­—                $250,975
1, 2     9/29/2010     BancPlus Corporation, Ridgeland, MS                                        MS    Preferred Stock              $50,400,000               $30,514,000            $80,914,000          Par                                                               $5,061,620
         9/29/2010     BankAsiana, Palisades Park, NJ                                             NJ    Preferred Stock                        $­—                        $­—          $5,250,000          Par   10/1/20136   $5,250,000                    $­—                $315,583
         9/29/2010     Bethex Federal Credit Union, Bronx, NY                                     NY    Subordinated Debentures                $­—                        $­—           $502,000           Par                                                                  $31,403
         9/29/2010     Border Federal Credit Union, Del Rio, TX                                   TX    Subordinated Debentures                $­—                        $­—          $3,260,000          Par                                                                 $203,931
 6       9/24/2010     Brewery Credit Union, Milwaukee, WI                                        WI    Subordinated Debentures                $­—                        $­—          $1,096,000          Par   10/3/20126   $1,096,000                    $­—                 $44,388
         9/30/2010     Brooklyn Cooperative Federal Credit Union, Brooklyn, NY                    NY    Subordinated Debentures                $­—                        $­—           $300,000           Par                                                                  $18,750
         9/24/2010     Buffalo Cooperative Federal Credit Union, Buffalo, NY                      NY    Subordinated Debentures                $­—                        $­—           $145,000           Par                                                                   $9,111
         9/24/2010     Butte Federal Credit Union, Biggs, CA                                      CA    Subordinated Debentures                $­—                        $­—          $1,000,000          Par                                                                  $62,833
 6       9/29/2010     Carter Federal Credit Union, Springhill, LA                                LA    Subordinated Debentures                $­—                        $­—          $6,300,000          Par    2/6/20136   $2,500,000            $3,800,000                 $355,350
1, 3     8/27/2010     Carver Bancorp, Inc, New York, NY                                          NY    Common Stock                 $18,980,000                          $­—         $18,980,000          Par                                                                 $446,507
         9/17/2010     CFBanc Corporation, Washington, DC                                         DC    Preferred Stock                        $­—                        $­—          $5,781,000          Par                                                                 $365,488
 1       8/13/2010                                                                                      Preferred Stock                $7,462,000                         $­—                 $­—          Par
                       Citizens Bancshares Corporation, Atlanta, GA                               GA                                                                                                                                                                           $762,709
 2a      9/17/2010                                                                                      Preferred Stock                        $­—              $4,379,000            $11,841,000          Par
 1       9/29/2010     Community Bancshares of Mississippi, Inc., Brandon, MS                     MS    Preferred Stock              $54,600,000                          $­—         $54,600,000          Par                                                               $3,415,533
1, 2     9/29/2010     Community Bank of the Bay, Oakland, CA                                     CA    Preferred Stock                $1,747,000               $2,313,000             $4,060,000          Par                                                                 $233,676
         9/24/2010     Community First Guam Federal Credit Union, Hagatna, GU                     GU    Subordinated Debentures                $­—                        $­—          $2,650,000          Par                                                                 $166,508
                                                                                                                                                                                                                                                                   Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013                                                           (CONTINUED)
                                                     Seller                                                                           Purchase Details                                                                 Disposition Details
       Purchase                                                                                                             Amount                                                    Pricing                                        Remaining     Dividend/Interest Paid
Note   Date        Name of Institution                                                State   Investment Description      from CPP    Additional Investment    Investment Amount   Mechanism           Date       Amount     Investment Amount                to Treasury
       9/29/2010   Community Plus Federal Credit Union, Rantoul, IL                    IL     Subordinated Debentures          $­—                       $­—           $450,000           Par                                                                    $28,150
       9/24/2010   Cooperative Center Federal Credit Union, Berkeley, CA               CA     Subordinated Debentures          $­—                       $­—          $2,799,000          Par                                                                   $175,871
       9/29/2010   D.C. Federal Credit Union, Washington, DC                           DC     Subordinated Debentures          $­—                       $­—          $1,522,000          Par                                                                    $95,210
       9/29/2010   East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT    CT     Subordinated Debentures          $­—                       $­—             $7,000           Par                                                                       $438
       9/29/2010   Episcopal Community Federal Credit Union, Los Angeles, CA           CA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $6,256
       9/24/2010   Fairfax County Federal Credit Union, Fairfax, VA                    VA     Subordinated Debentures          $­—                       $­—          $8,044,000          Par                                                                   $505,431
       9/29/2010   Faith Based Federal Credit Union, Oceanside, CA                     CA     Subordinated Debentures          $­—                       $­—            $30,000           Par                                                                     $1,877
       9/29/2010   Fidelis Federal Credit Union, New York, NY                          NY     Subordinated Debentures          $­—                       $­—            $14,000           Par                                                                       $876
 1     8/13/2010   First American International Corp., Brooklyn, NY                    NY     Preferred Stock           $17,000,000                      $­—         $17,000,000          Par                                                                 $1,122,976
1, 7   9/24/2010   First Choice Bank, Cerritos, CA                                     CA     Preferred Stock            $5,146,000                      $­—          $5,146,000          Par     5/1/20137    $5,146,000                    $­—                $267,878
 1     9/17/2010   First Eagle Bancshares, Inc., Hanover Park, IL                      IL     Subordinated Debentures    $7,875,000                      $­—          $7,875,000          Par                                                                   $771,706
       9/29/2010   First Legacy Community Credit Union, Charlotte, NC                  NC     Subordinated Debentures          $­—                       $­—          $1,000,000          Par                                                                    $62,556
 1     9/29/2010   First M&F Corporation, Kosciusko, MS                                MS     Preferred Stock           $30,000,000                      $­—         $30,000,000          Par    8/30/20137   $30,000,000                    $­—              $1,751,667
 1     9/29/2010   First Vernon Bancshares, Inc., Vernon, AL                           AL     Preferred Stock            $6,245,000                      $­—          $6,245,000          Par                                                                   $400,889
 6     9/29/2010   Freedom First Federal Credit Union, Roanoke, VA                     VA     Subordinated Debentures          $­—                       $­—          $9,278,000          Par    6/12/20136    $9,278,000                    $­—                $501,527
 6     9/24/2010   Gateway Community Federal Credit Union, Missoula, MT                MT     Subordinated Debentures          $­—                       $­—          $1,657,000          Par   10/17/20126    $1,657,000                    $­—                 $68,397
       9/17/2010   Genesee Co-op Federal Credit Union, Rochester, NY                   NY     Subordinated Debentures          $­—                       $­—           $300,000           Par                                                                    $18,967
 6     9/29/2010   Greater Kinston Credit Union, Kinston, NC                           NC     Subordinated Debentures          $­—                       $­—           $350,000           Par    4/10/20126     $350,000                     $­—                 $10,714
 1     7/30/2010   Guaranty Capital Corporation, Belzoni, MS                           MS     Subordinated Debentures   $14,000,000                      $­—         $14,000,000          Par                                                                 $1,428,583
       9/29/2010   Hill District Federal Credit Union, Pittsburgh, PA                  PA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $6,256
       9/17/2010   Hope Federal Credit Union, Jackson, MS                              MS     Subordinated Debentures          $­—                       $­—          $4,520,000          Par                                                                   $285,764
1, 2   9/10/2010   IBC Bancorp, Inc., Chicago, IL                                      IL     Subordinated Debentures    $4,205,000             $3,881,000            $8,086,000          Par                                                                   $797,257
 1     9/3/2010    IBW Financial Corporation, Washington, DC                           DC     Preferred Stock            $6,000,000                      $­—          $6,000,000          Par                                                                   $384,000
       9/29/2010   Independent Employers Group Federal Credit Union, Hilo, HI          HI     Subordinated Debentures          $­—                       $­—           $698,000           Par                                                                    $43,664
       9/3/2010    Kilmichael Bancorp, Inc., Kilmichael, MS                            MS     Subordinated Debentures          $­—                       $­—          $3,154,000          Par                                                                   $312,877
 1     9/29/2010   Lafayette Bancorp, Inc., Oxford, MS                                 MS     Preferred Stock            $4,551,000                      $­—          $4,551,000          Par                                                                   $284,690
       9/24/2010   Liberty County Teachers Federal Credit Union, Liberty, TX           TX     Subordinated Debentures          $­—                       $­—           $435,000           Par                                                                    $27,333
1, 2   9/24/2010   Liberty Financial Services, Inc., New Orleans, LA                   LA     Preferred Stock            $5,645,000             $5,689,000           $11,334,000          Par                                                                   $712,153
       9/24/2010   Lower East Side People’s Federal Credit Union, New York, NY         NY     Subordinated Debentures          $­—                       $­—           $898,000           Par                                                                    $56,424
 1     8/20/2010   M&F Bancorp, Inc., Durham, NC                                       NC     Preferred Stock           $11,735,000                      $­—         $11,735,000          Par                                                                   $759,515
 1     8/20/2010                                                                              Preferred Stock            $5,500,000                      $­—                $­—           Par
                   Mission Valley Bancorp, Sun Valley, CA                              CA                                                                                                                                                                       $659,834
 2a    9/24/2010                                                                              Preferred Stock                  $­—              $4,836,000           $10,336,000          Par
       9/24/2010   Neighborhood Trust Federal Credit Union, New York, NY               NY     Subordinated Debentures          $­—                       $­—           $283,000           Par                                                                    $17,783
       9/29/2010   North Side Community Federal Credit Union, Chicago, IL              IL     Subordinated Debentures          $­—                       $­—           $325,000           Par                                                                    $20,331
       9/24/2010   Northeast Community Federal Credit Union, San Francisco, CA         CA     Subordinated Debentures          $­—                       $­—           $350,000           Par                                                                    $21,992
       9/29/2010   Opportunities Credit Union, Burlington, VT                          VT     Subordinated Debentures          $­—                       $­—          $1,091,000          Par                                                                    $68,248
 1     8/13/2010   PGB Holdings, Inc., Chicago, IL                                     IL     Preferred Stock            $3,000,000                      $­—          $3,000,000          Par                                                                    $30,333
       9/24/2010   Phenix Pride Federal Credit Union, Phenix City, AL                  AL     Subordinated Debentures          $­—                       $­—           $153,000           Par                                                                     $9,614
1, 4   8/13/2010   Premier Bancorp, Inc., Wilmette, IL                                 IL     Subordinated Debentures    $6,784,000                      $­—          $6,784,000          Par    1/29/20134      $79,900                     $­—                      $­—
       9/24/2010   Prince Kuhio Federal Credit Union, Honolulu, HI                     HI     Subordinated Debentures          $­—                       $­—           $273,000           Par                                                                    $17,154
1, 7   9/29/2010   PSB Financial Corporation, Many, LA                                 LA     Preferred Stock            $9,734,000                      $­—          $9,734,000          Par   12/28/20127    $9,734,000                    $­—                $437,489
       9/24/2010   Pyramid Federal Credit Union, Tucson, AZ                            AZ     Subordinated Debentures          $­—                       $­—          $2,500,000          Par                                                                   $157,083
       9/29/2010   Renaissance Community Development Credit Union, Somerset, NJ        NJ     Subordinated Debentures          $­—                       $­—            $31,000           Par                                                                     $1,939
       9/24/2010   Santa Cruz Community Credit Union, Santa Cruz, CA                   CA     Subordinated Debentures          $­—                       $­—          $2,828,000          Par                                                                   $177,693
 1     9/29/2010   Security Capital Corporation, Batesville, MS                        MS     Preferred Stock           $17,910,000                      $­—         $17,910,000          Par                                                                 $1,120,370
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




1, 2   9/29/2010   Security Federal Corporation, Aiken, SC                             SC     Preferred Stock           $18,000,000             $4,000,000           $22,000,000          Par                                                                 $1,376,222
       9/29/2010   Shreveport Federal Credit Union, Shreveport, LA                     LA     Subordinated Debentures          $­—                       $­—          $2,646,000          Par                                                                   $165,522
1, 2   8/6/2010    Southern Bancorp, Inc., Arkadelphia, AR                             AR     Preferred Stock           $11,000,000           $22,800,000            $33,800,000          Par                                                                 $2,213,900
       9/29/2010   Southern Chautauqua Federal Credit Union, Lakewood, NY              NY     Subordinated Debentures          $­—                       $­—          $1,709,000          Par                                                                   $106,907
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             405
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013                                                                     (CONTINUED)                                                                                                                                                                                 406
                                                        Seller                                                                                     Purchase Details                                                                                      Disposition Details
         Purchase                                                                                                                      Amount                                                            Pricing                                                       Remaining        Dividend/Interest Paid
Note     Date         Name of Institution                                                     State     Investment Description       from CPP      Additional Investment      Investment Amount       Mechanism               Date                Amount       Investment Amount                   to Treasury
         9/29/2010    Southside Credit Union, San Antonio, TX                                   TX      Subordinated Debentures             $­—                       $­—              $1,100,000              Par   10/30/20136              $1,100,000                        $­—                    $67,894
     1   9/29/2010    State Capital Corporation, Greenwood, MS                                 MS       Preferred Stock           $15,750,000                         $­—             $15,750,000              Par                                                                                    $985,250
1, 2     9/29/2010    The First Bancshares, Inc., Hattiesburg, MS                              MS       Preferred Stock            $5,000,000               $12,123,000               $17,123,000              Par                                                                                  $1,071,139
         9/29/2010    The Magnolia State Corporation, Bay Springs, MS                          MS       Subordinated Debentures             $­—                       $­—              $7,922,000              Par                                                                                    $768,126
                      Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
         9/24/2010                                                                             WA       Subordinated Debentures             $­—                       $­—                 $75,000              Par                                                                                       $4,713
                      Olympia, WA
         9/24/2010    Tongass Federal Credit Union, Ketchikan, AK                               AK      Subordinated Debentures             $­—                       $­—              $1,600,000              Par                                                                                    $100,533
     1   8/13/2010    Tri-State Bank of Memphis, Memphis, TN                                   TN       Preferred Stock            $2,795,000                         $­—              $2,795,000              Par                                                                                    $181,986
         9/24/2010    Tulane-Loyola Federal Credit Union, New Orleans, LA                       LA      Subordinated Debentures             $­—                       $­—                $424,000              Par                                                                                     $26,641
         9/24/2010    Union Baptist Church Federal Credit Union, Fort Wayne, IN                 IN      Subordinated Debentures             $­—                       $­—                 $10,000              Par                                                                                        $628
         9/29/2010    Union Settlement Federal Credit Union, New York, NY                      NY       Subordinated Debentures             $­—                       $­—                $295,000              Par                                                                                     $18,454
     1   9/3/2010     United Bancorporation of Alabama, Inc., Atmore, AL                        AL      Preferred Stock           $10,300,000                         $­—             $10,300,000              Par                                                                                    $659,200
                      UNITEHERE Federal Credit Union, (Workers United Federal Credit
     6   9/29/2010                                                                             NY       Subordinated Debentures             $­—                       $­—                 $57,000              Par     3/20/20136                 $57,000                       $­—                      $2,822
                      Union), New York, NY
1, 2     7/30/2010    University Financial Corp, Inc., St. Paul, MN                            MN       Subordinated Debentures   $11,926,000               $10,189,000               $22,115,000              Par   11/28/20126             $22,115,000                        $­—                 $1,595,843
     6   9/24/2010    UNO Federal Credit Union, New Orleans, LA                                 LA      Subordinated Debentures             $­—                       $­—                $743,000              Par      9/4/20136               $743,000                        $­—                    $43,754
         9/29/2010    Vigo County Federal Credit Union, Terre Haute, IN                         IN      Subordinated Debentures             $­—                       $­—              $1,229,000              Par                                                                                     $76,881
                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




         9/24/2010    Virginia Community Capital, Inc., Christiansburg, VA                      VA      Subordinated Debentures             $­—                       $­—              $1,915,000              Par                                                                                    $120,326
                                                                                                                                                  Total Purchase Amount            $570,073,000                        Total Capital Repayment Amount                $94,902,900
                                                                                                                                                           TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                 $468,466,000
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes are taken verbatim from Treasury’s 1/1/2014 Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	 Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	 Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends
    were paid on the date of the exchange.
4
 	On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900
    representing the total amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5
 	 Repayment pursuant to Section 5 of the CDCI Certificate of Designation.
6
 	 Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7
 	 Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8
 	 Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9
 	 Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014.
TABLE D.4
AIFP TRANSACTION DETAIL, AS OF 12/31/2013
                                                                                                                                        Treasury Investment After Exchange/
                                           Initial Investment                                 Exchange/Transfer/Other Details           Transfer/Other                                                               Payment or Disposition1
                                                                                                                                                                                                                                                Remaining
                                                                                                                                                                                                                                Remaining      Investment      Dividend/
                          Transaction                                                                                                                                        Amount/                                  Amount/ Investment         Amount/ Interest Paid to
              Date        Type          Seller      Description          Amount Note Date          Type                  Amount Note Obligor          Note Description       Equity %        Date        Type         Proceeds Description       Equity %      Treasurya
                                                    Preferred                                    Exchange for
                                                    Stock w/                                     convertible                                                Convertible
              12/29/2008 Purchase       GMAC                      $5,000,000,000      12/30/2009                  $5,000,000,000                      21,
                                                    Exercised                                    preferred                              GMAC (Ally)          Preferred $5,937,500,000 11/20/2013 Disposition38   $5,925,000,000        N/A            $—
                                                    Warrants                                     stock                                                22
                                                                                                                                                                Stock
                                                                                                   Partial
                                                    Convertible
                                                                                                   conversion
                                                    Preferred
                                                                                                   of preferred
              5/21/2009   Purchase      GMAC        Stock w/      $7,500,000,000   22 12/30/2009                  $3,000,000,000
                                                                                                   stock for
                                                    Exercised
                                                                                                   common
                                                    Warrants
                                                                                                   stock                                              3,
GMAC                                                                                                                                                  26,     Common
(Ally),                                                                                         Partial                                 GMAC (Ally)                            63.5%                                                                       $3,679,893,757
                                                    Convertible                                                                                       32,       Stock
Detroit, MI                                                                                     conversion
                                                    Preferred                                                                                         38
                                                                                 22,            of preferred
              12/30/2009 Purchase       GMAC        Stock w/      $1,250,000,000     12/30/2010                   $5,500,000,000   26
                                                                                 26             stock for
                                                    Exercised
                                                                                                common
                                                    Warrants
                                                                                                stock
                                                    Trust                                          Exchange
                                                    Preferred                                      for amended
                                                                                                                                                                 Trust
                                                    Securities                                     and restated
              12/30/2009 Purchase       GMAC                      $2,540,000,000      3/1/2011                    $2,670,000,000   27   GMAC (Ally) 27       Preferred $2,670,000,000   3/2/2011 Disposition28   $2,667,000,000        N/A            $—
                                                    w/                                             Trust
                                                                                                                                                             Securities
                                                    Exercised                                      Preferred
                                                    Warrants                                       Securities
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                             407
AIFP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                    408
                                                                                                                                          Treasury Investment After Exchange/
                                           Initial Investment                                  Exchange/Transfer/Other Details            Transfer/Other                                                                                                     Payment or Disposition1
                                                                                                                                                                                                                                                          Remaining
                                                                                                                                                                                                                                      Remaining          Investment      Dividend/
                          Transaction                                                                                                                                           Amount/                                     Amount/ Investment             Amount/ Interest Paid to
              Date        Type          Seller      Description           Amount Note Date          Type                    Amount Note Obligor         Note Description        Equity %         Date         Type          Proceeds Description           Equity %      Treasurya
                                                                                                    Exchange
                                        General
                                                    Debt                                            for equity
              12/29/2008 Purchase       Motors                      $884,024,131    2   5/29/2009                     $884,024,131    3
                                                    Obligation                                      interest in
                                        Corporation
                                                                                                    GMAC
                                                    Debt                                            Exchange
                                        General     Obligation                                      for preferred
              12/31/2008 Purchase       Motors      w/            $13,400,000,000       7/10/2009   and common      $13,400,000,000   7
                                        Corporation Additional                                      stock in New
                                                    Note                                            GM
                                                    Debt                                            Exchange
                                        General     Obligation                                      for preferred                         General       10,
                                                                                                                                                                Preferred
              4/22/2009   Purchase      Motors      w/             $2,000,000,000   4   7/10/2009   and common       $2,000,000,000   7   Motors        11,               $2,100,000,000 12/15/2010      Repayment     $2,139,406,778         N/A               $—
                                                                                                                                                                   Stock
                                        Corporation Additional                                      stock in New                          Company       24
                                                    Note                                            GM
                                                                                                                                                                                                              Partial                   Common
                                                                                                                                                                                           11/18/2010                 $11,743,303,903                        36.9%
                                                                                                                                                                                                        Disposition25                     Stock
                                                                                                                                                                                                            Partial                     Common
                                                                                                                                                                                           11/26/2010                  $1,761,495,577                       32.04%
                                                                                                                                                                                                      Disposition25                       Stock
                                                                                                                                                                                                            Partial                     Common
                                                                                                                                                                                           12/21/2012                  $5,500,000,000                       21.97%
                                                                                                                                                                                                      Disposition33                       Stock
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                    Debt                                            Exchange                                                                                                Partial                     Common
                                        General     Obligation                                      for preferred                         General       10,                                 4/11/2013                  $1,637,839,844                       17.69%
                                                                                                                                                                Common                                Disposition34                       Stock
              5/20/2009   Purchase      Motors      w/             $4,000,000,000   5   7/10/2009   and common       $4,000,000,000   7   Motors        11,                       60.8%
                                                                                                                                                                  Stock                                     Partial                     Common
                                        Corporation Additional                                      stock in New                          Company       25                                  6/12/2013                  $1,031,700,000                       13.80%
                                                    Note                                            GM                                                                                                Disposition35                       Stock
                                                                                                                                                                                                            Partial                     Common
                                                                                                                                                                                            9/13/2013                  $3,822,724,832                        7.32%
                                                                                                                                                                                                      Disposition36                       Stock
                                                                                                                                                                                                            Partial                     Common
                                                                                                                                                                                           11/20/2013                  $2,563,441,956                        2.24%
                                                                                                                                                                                                      Disposition37                       Stock
                                                                                                                                                                                                            Partial                     Common
                                                                                                                                                                                            12/9/2013                  $1,208,249,982                           0%
                                                                                                                                                                                                      Disposition39                       Stock
General
Motorsb,c                                                                                                                                                                                                    Partial                         Debt                     $756,714,508
Detroit, MI                                                                                                                                                                                 7/10/2009                   $360,624,198                 $6,711,864,407
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                             Partial                         Debt
                                                    Debt                                            Exchange                                                                               12/18/2009                  $1,000,000,000                $5,711,864,407
                                                                                                                                          General                                                        Repayment                      Obligation
                                        General     Obligation                                      for preferred
                                                                                                                                          Motors        11,         Debt
              5/27/2009   Purchase      Motors      w/              $360,624,198    6   7/10/2009   and common        $360,624,198    7                                   $7,072,488,605                     Partial                         Debt
                                                                                                                                          Holdings      12     Obligation                   1/21/2010                    $35,084,421                 $5,676,779,986
                                        Corporation Additional                                      stock in New                                                                                         Repayment                      Obligation
                                                                                                                                          LLC
                                                    Note                                            GM
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                            3/31/2010                  $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                            4/20/2010    Repayment     $4,676,779,986         N/A               $—
                                                    Debt                                            Exchange
                                        General     Obligation                                      for preferred
              6/3/2009    Purchase      Motors      w/            $30,100,000,000   8   7/10/2009   and common      $22,041,706,310   9
                                        Corporation Additional                                      stock in New
                                                    Note                                            GM
                                                                                                    Transfer of
                                                                                        7/10/2009   debt to New      $7,072,488,605   9
                                                                                                    GM
                                                                                                                                          Motors
                                                                                                    Debt left at                                                    Debt                                     Partial                         Debt
                                                                                        7/10/2009                     $985,805,085    9   Liquidation   29                  $985,805,085    3/31/2011                    $50,000,000                  $935,805,085
                                                                                                    Old GM                                                     Obligation                                Repayment                      Obligation
                                                                                                                                          Company
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                             4/5/2011                    $45,000,000                  $890,805,085
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                             5/3/2011                    $15,887,795                  $874,917,290
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                           12/16/2011                       $144,444                  $874,772,846
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                           12/23/2011                    $18,890,294                  $855,882,552
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                             Partial                         Debt
                                                                                                                                                                                            1/11/2012                     $6,713,489                  $849,169,063
                                                                                                                                                                                                         Repayment                      Obligation
                                                                                                                                                                                                                                                              Continued on next page
AIFP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
                                                                                                                                  Treasury Investment After Exchange/
                                           Initial Investment                                Exchange/Transfer/Other Details      Transfer/Other                                                                                                   Payment or Disposition1
                                                                                                                                                                                                                                                Remaining
                                                                                                                                                                                                                         Remaining             Investment      Dividend/
                         Transaction                                                                                                                                Amount/                                    Amount/ Investment                Amount/ Interest Paid to
             Date        Type          Seller       Description          Amount Note Date       Type                  Amount Note Obligor    Note Description       Equity %         Date        Type          Proceeds Description              Equity %      Treasurya
                                                                                                                                                                                                Partial                            Debt
                                                                                                                                                                               10/23/2012                      $435,097                     $848,733,966
                                                                                                                                                                                            Repayment                         Obligation
                                                                                                                                                                                                Partial                            Debt
                                                                                                                                                                                5/22/2013                   $10,048,968                     $838,684,999
                                                                                                                                                                                            Repayment                         Obligation
                                                                                                                                                                                                Partial                            Debt
                                                                                                                                                                                9/20/2013                   $11,832,877                     $826,852,122
                                                                                                                                                                                            Repayment                         Obligation
                                                                                                                                                                                                Partial                            Debt
                                                                                                                                                                               12/27/2013                      $410,705                     $826,441,417
                                                                                                                                                                                            Repayment                         Obligation
                                                    Debt
                                                                                                                                                                                                                                   Debt
                                                    Obligation
                                       Chrysler                                                                                                                                                 Partial                       Obligation
             1/16/2009   Purchase                   w/            $1,500,000,000   13                                                                                           3/17/2009                    $3,499,055                    $1,496,500,945
                                       FinCo                                                                                                                                                Repayment                      w/ Additional
                                                    Additional
                                                                                                                                                                                                                                   Note
                                                    Note
                                                                                                                                                                                                                                   Debt
                                                                                                                                                                                                Partial                       Obligation
                                                                                                                                                                                4/17/2009                   $31,810,122                    $1,464,690,823
                                                                                                                                                                                            Repayment                      w/ Additional
                                                                                                                                                                                                                                   Note
Chrysler
FinCo,                                                                                                                                                                                                                             Debt
                                                                                                                                                                                                Partial                       Obligation                      $7,405,894
Farmington                                                                                                                                                                      5/18/2009                   $51,136,084                    $1,413,554,739
Hills, MI                                                                                                                                                                                   Repayment                      w/ Additional
                                                                                                                                                                                                                                   Note
                                                                                                                                                                                                                                   Debt
                                                                                                                                                                                                Partial                       Obligation
                                                                                                                                                                                6/17/2009                   $44,357,710                    $1,369,197,029
                                                                                                                                                                                            Repayment                      w/ Additional
                                                                                                                                                                                                                                   Note
                                                                                                                                                                                                                              Additional
                                                                                                                                                                                7/14/2009   Repayment     $1,369,197,029                              $—
                                                                                                                                                                                                                                   Note
                                                                                                                                                                                7/14/2009 Repayment*        $15,000,000             N/A               $—
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                             409
AIFP TRANSACTION DETAIL, AS OF 12/31/2013                                                    (CONTINUED)                                                                                                                                                                                            410
                                                                                                                                                    Treasury Investment After Exchange/
                                           Initial Investment                                         Exchange/Transfer/Other Details               Transfer/Other                                                                                                        Payment or Disposition1
                                                                                                                                                                                                                                                                       Remaining
                                                                                                                                                                                                                                                   Remaining          Investment      Dividend/
                        Transaction                                                                                                                                                       Amount/                                        Amount/ Investment             Amount/ Interest Paid to
            Date        Type           Seller       Description               Amount Note Date            Type                     Amount Note Obligor            Note Description        Equity %          Date           Type          Proceeds Description           Equity %      Treasurya
                                                    Debt                                                                                                                      Debt
                                                    Obligation                                            Transfer of                                                    obligation
                                       Chrysler                                                                                                     Chrysler
            1/2/2009    Purchase                    w/                $4,000,000,000         6/10/2009    debt to New        $500,000,000     19                  20             w/ $3,500,000,000     5/14/2010                    $1,900,000,000        N/A                $—
                                       Holding                                                                                                      Holding
                                                    Additional                                            Chrysler                                                       additional                                 Termination
                                                    Note                                                                                                                      note                                          and
                                                    Debt                                                                                                                                                             settlement
                                                    Obligation                                                                                                                                                       payment20
                                       Chrysler
            4/29/2009   Purchase                    w/                            $—    14
                                       Holding
                                                    Additional
                                                    Note
                                                    Debt
                                                    Obligation
                                       Chrysler
            4/29/2009   Purchase                    w/                 $280,130,642     15                                                                                                             7/10/2009    Repayment        $280,130,642         N/A                $—
                                       Holding
                                                    Additional
                                                    Note
                                                    Debt
                                                    Obligation                                            Completion                                Old Carco              Right to                                   Proceeds                        Right to
            5/1/2009    Purchase       Old Chrysler w/                $1,888,153,580    16 4/30/2010      of              ($1,888,153,580)    23    Liquidation   23        recover            N/A     5/10/2010   from sale of       $30,544,528      recover               N/A
                                                    Additional                                            bankruptcy                                Trust                 proceeds                                    collateral                     proceeds
                                                    Note                                                  proceeding;
                                                                                                          transfer of
                                                    Debt                                                  collateral
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                    Obligation                                            security to                                                                                                 Proceeds                        Right to
            5/20/2009   Purchase       Old Chrysler w/                            $—    17                liquidation                                                                                   9/9/2010   from sale of        $9,666,784      recover               N/A
                                                    Additional                                            trust                                                                                                       collateral                     proceeds
                                                    Note
Chrysler,
Auburn                                                                                                                                                                                                                Proceeds                        Right to                     $1,171,263,942
Hills, MI                                                                                                                                                                                             12/29/2010   from sale of        $7,844,409      recover               N/A
                                                                                                                                                                                                                      collateral                     proceeds
                                                                                                                                                                                                                      Proceeds                        Right to
                                                                                                                                                                                                       4/30/2012   from sale of        $9,302,185      recover               N/A
                                                                                                                                                                                                                      collateral                     proceeds
                                                    Debt
                                                                                                                                                                               Debt
                                                    Obligation
                                                                                                                                                                          obligation
                                                    w/                                                    Issuance
                                                                                                                                                    Chrysler                      w/
                                       New          Additional                                            of equity                                               19,                                              Repayment -
            5/27/2009   Purchase                                      $6,642,000,000    18 6/10/2009                                    $—          Group                 additional $7,142,000,000    5/24/2011                    $5,076,460,000
                                       Chrysler     Note, Zero                                            in New                                                  31                                                  Principal
                                                                                                                                                    LLC                 note & zero
                                                    Coupon                                                Chrysler
                                                                                                                                                                            coupon
                                                    Note,
                                                                                                                                                                               note
                                                    Equity
                                                                                                                                                                                                                    Termination                           N/A                $—
                                                                                                                                                                                                       5/24/2011    of undrawn      $2,065,540,000
                                                                                                                                                                                                                       facility31
                                                                                                                                                                                                                   Repayment*
                                                                                                                                                                                                       5/24/2011    - Additional     $288,000,000
                                                                                                                                                                                                                           Note
                                                                                                                                                                                                                 Repayment* -
                                                                                                                                                                                                       5/24/2011 Zero Coupon         $100,000,000
                                                                                                                                                                                                                        Note
                                                                                                                                                    Chrysler
                                                                                                                                                                          Common
                                                                                                                                                    Group         30                          6.6%     7/21/2011    Disposition      $560,000,000         N/A                $—
                                                                                                                                                                            equity
                                                                                                                                                    LLC
                                                                                                                                                                                                                              Additional Proceeds*                 $403,000,000
                                Total Initial Investment Amount    $81,344,932,551                                                                                                                                                  Total Payments               $50,680,963,693
                                                                                                                                                                                                               Total Treasury Investment Amount                  $25,110,275,278
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014, Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
   transactions marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of
   debt assumed by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds
   had been disbursed by Treasury.
9
 	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under
   the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General
   Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As
   of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan
   had terminated.
18
  	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up
   to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New
   Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a
   settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
  	On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
   transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
   stock. The repurchase was completed on 12/15/2010.
25
  	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On
   11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
   agreement total $13,504,799,480.
26
  	On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
  	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement,
   Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
   include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
   transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership
   automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully
   diluted basis). On 7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
  	On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33
  	On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
34
  	On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of
   the sale).Completion of the sale under this authority occurred on April 11, 2013.
35
  	On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $ 1,031,700,000.
36
  	Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during
   the period ending on September 13, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on September 13, 2013.
37
  	On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon
   completion of the sale). Completion of the sale under this authority occurred on November 20, 2013.
38
  	On November 20, 2013, Ally completed a private placement of an aggregate of 216,667 shares of its common stock for an aggregate price of approximately $1.3 billion and the repurchase of all outstanding shares of its Fixed Rate Cumulative Mandatorily Convertible Preferred Stock, Series F-2, held by
   Treasury, including payment for the elimination or relinquishment of any right to receive additional shares of common stock to be issued (the “Share Adjustment Right”). Ally paid to Treasury a total of approximately $5.93 billion for the repurchase of the Series F-2 Preferred Stock and the elimination of the Share
   Adjustment Right. As a result of the private placement, Treasury’s common stock ownership stake was diluted from 73.8 percent to 63.45 percent. Treasury continues to own 981,971 shares of common stock in Ally.
39
  	On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the
   sale under this authority occurred on December 9, 2013.

a
 	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
 	 According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
 	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014
                                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                                                 411
TABLE D.5                                                                                                                                                                                                                                                                                                            412
ASSP TRANSACTION DETAIL, AS OF 12/31/2013
                          Seller                                                                                                                                            Adjustment Details                                        Repayment4
                                                                                                                                                                                                                                               Remaining
                                                        Transaction Investment                       Investment        Pricing       Adjustment           Adjustment       Adjusted Investment                                                Investment                                 Dividend/Interest Paid
Note      Date            Institution Name              Type        Description                         Amount      Mechanism              Date              Amount                    Amount       Date                   Type               Description                    Amount                 to Treasury
                                                                                                                                                                                                                          Partial       Debt Obligation w/
                                                                                                                                                                                                    11/20/2009                                                         $140,000,000
                                                                                                                                                                                                                      repayment            Additional Note

                          GM Supplier Receivables LLC               Debt Obligation w/                                                7/8/20093      ($1,000,000,000)           $2,500,000,000                            Partial       Debt Obligation w/
      1   4/9/2009                                      Purchase                                $3,500,000,000               N/A                                                                    2/11/2010                                                          $100,000,000                  $9,087,808
                          Wilmington, DE                            Additional Note                                                                                                                                   repayment            Additional Note
                                                                                                                                                                                                    3/4/2010        Repayment5             Additional Note              $50,000,000
                                                                                                                                                                                  $290,000,000      4/5/2010           Payment6                      None               $56,541,893

                          Chrysler Receivables SPV LLC              Debt Obligation w/                                                7/8/20093        ($500,000,000)           $1,000,000,000      3/9/2010        Repayment5             Additional Note             $123,076,735
      2   4/9/2009                                     Purchase                                 $1,500,000,000               N/A                                                                                                                                                                     $5,787,176
                          Wilmington, DE                            Additional Note                                                                                               $123,076,735      4/7/2010           Payment7                      None               $44,533,054
          Initial Total              $5,000,000,000                                                                                Adjusted Total      $413,076,735                                                                    Total Repayments               $413,076,735
                                                                                                        Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014, Transactions Report.

1	
   
   The  loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
                                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




   All outstanding principal drawn under the credit agreement was repaid.
6	 
   
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7	
   Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014.




TABLE D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 12/31/2013
Date                                              Pricing Mechanism1                                        Number of Shares                                                          Proceeds2
1/18/2013 – 4/17/20133                            $28.049                                                           58,392,078                                                  $1,637,839,844
5/6/2013 – 9/13/20134                             $34.646                                                         110,336,510                                                   $3,822,724,832
9/26/2013 – 11/20/20135                           $36.509                                                           70,214,460                                                  $2,563,441,956
11/21/2013 – 12/9/20136                           $38.823                                                           31,122,206                                                  $1,208,249,982
                                                                                                               Total Proceeds:                                                 $9,232,256,614
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014, Transactions Report.

1	
  The price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2 	
  Amount represents the gross proceeds to Treasury.
3	
  On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
  58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on
  April 11, 2013.
4	
  Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its
  sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the period ending on September 13, 2013 (or upon completion of the
  sale). Completion of the sale under this authority occurred on September 13, 2013.
5	
  On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up
  to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon completion of the sale). Completion of the sale under this authority
  occurred on November 20, 2013.
6	
  On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common stock,
  from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale under this authority occurred on December 9, 2013.

Source: Treasury, Transactions Report, 1/1/2014.
TABLE D.7
TIP TRANSACTION DETAIL, AS OF 12/31/2013
                                                                                                                                                                               Treasury Investment
                        Seller                                                                                                         Capital Repayment Details               Remaining After Capital       Final Disposition                                         Market and Warrant Data
                                                                                                                                                                               Repayment
                                                                                                                                           Capital                  Capital    Remaining Remaining                 Final           Final                      Final                                   Dividends/
                        Institution            Transaction                                             Investment         Pricing       Repayment                Repayment       Capital Capital             Disposition           Disposition          Disposition     Stock        Outstanding Interest Paid to
Note     Date           Name                   Type           Investment Description                      Amount       Mechanism             Date2                  Amount       Amount Description               Date3            Description           Proceeds       Price     Warrant Shares        Treasury
                        Citigroup Inc.,                       Trust Preferred Securities w/
     1   12/31/2008                            Purchase                                         $20,000,000,000                 Par     12/23/2009        $20,000,000,000              $—    Warrants        1/25/2011       A     Warrants          $190,386,428      $52.11                       $1,568,888,889
                        New York, NY                          Warrants
                        Bank of America
         1/16/2009      Corporation,           Purchase       Preferred Stock w/ Warrants       $20,000,000,000                 Par      12/9/2009        $20,000,000,000              $—    Warrants          3/3/2010      A     Warrants         $1,236,804,513     $15.57                       $1,435,555,556
                        Charlotte, NC
                                                                           Total Investment   $40,000,000,000         TOTAL CAPITAL REPAYMENT            $40,000,000,000                                            Total Warrant Proceeds         $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014 Transactions Report.

1	
  
  Treasury    made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
  Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2	
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3	
  For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014; Bloomberg LP, accessed 1/7/2014.




TABLE D.8
AGP TRANSACTION DETAIL, AS OF 12/31/2013
                       Initial Investment                                                        Premium                                      Exchange/Transfer/Other Details                                                      Payment or Disposition                             Market and Warrant Data
                                                                                                                                                                                                                                       Remaining                      Remaining Outstanding                 Dividends/
                        Institution       Transaction                                                                                                                                                          Payment                  Premium                        Premium Warrant      Stock        Interest Paid
Note     Date           Name              Type        Description Guarantee Limit Description                 Amount            Date             Type Description                  Amount            Date         Type Payment Amount Description                       Amount Shares       Price          to Treasury
                                                                                                                                        Exchange                                                                   Partial
                                                                                                                                                             Trust                                                                                         Trust
                                                                                                                                         preferred                                                           cancellation
                                                                                                                                                       Preferred                                                                                     Preferred
                                                                                                                          6/9/20092 stock for trust                       $4,034,000,000 12/23/20093             for early   ($1,800,000,000)                    $2,234,000,000
                                                                                                                                                    Securities w/                                                                                 Securities w/
                                                                                                                                         preferred                                                            termination
                        Citigroup                                                    Preferred                                                         Warrants                                                                                      Warrants
                                                        Master                                                                          securities                                                          of guarantee
1        1/16/2009      Inc., New         Guarantee                   $5,000,000,000 Stock w/        $4,034,000,000                                                                                                                                                                            $52.11 $642,832,268
                                                        Agreement                                                                            Exchange                                         9/30/20105      Disposition        $2,246,000,000      Warrants               $­—
                        York, NY                                                     Warrants                                                                     Trust
                                                                                                                                        trust preferred
                                                                                                                                                            Preferred
                                                                                                                         9/29/20104       securities for                  $2,246,000,000                         Warrant
                                                                                                                                                         Securities w/                        1/25/2011                            $67,197,045           None               $­—
                                                                                                                                        trust preferred                                                          Auction
                                                                                                                                                            Warrants
                                                                                                                                             securities
                        Citigroup
                                                        Termination
3        12/23/2009     Inc., New         Termination                 ($5,000,000,000)
                                                        Agreement
                        York, NY
                                                                                                                                       Trust preferred
                                                                                                                                                                Trust
                                                                                                                                            securities
                                                                                                                        12/28/20126                         Preferred       $800,000,000
                                                                                                                                        received from
                                                                                                                                                            Securities
                                                                                                                                              the FDIC
                                                                                                                                            Exchange
                                                                                                                                       Trust preferred
                                                                                                                                                        Subordinated
                                                                                                                          2/4/20137      securities for                   $894,000,000         2/8/20138      Disposition    $894,000,000.00             None               $­—
                                                                                                                                                                Note
                                                                                                                                         subordinated
                                                                                                                                                  note
                                                                                                                                                                                                         Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014 Transactions Report.

1	
   In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3	
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
   of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
   FDIC’s Temporary Liquidity Guarantee Program.
4	
   On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
   exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5	
   On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6	
   12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to
                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




   $800 million and approximately $183 million in dividend and interest payments from those securities.
7	
   On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and the Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of
   the exchange.
8	
   On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014; Bloomberg LP, accessed 1/7/2014.
                                                                                                                                                                                                                                                                                                                         413
TABLE D.9                                                                                                                                                                                                                                                                                                               414
TALF TRANSACTION DETAIL, AS OF 12/31/2013
                       Seller                                                                                                  Adjusted Investment                                                 Repayment5
                                                     Transaction     Investment                  Investment    Pricing                                                       Final Investment                                                                                          Dividends/Interest
Note    Date           Institution                   Type            Description                    Amount     Mechanism       Date                             Amount                Amount       Date             Description                                        Amount            Paid to Treasury
                                                                                                                               7/19/20102               $4,300,000,000                             2/6/2013         Principal Repayment                          $100,000,000
                                                                                                                               6/28/20123               $1,400,000,000                             2/6/2013         Contingent Interest Proceeds                 $212,829,610
                                                                                                                                                                                                   3/6/2013         Contingent Interest Proceeds                  $97,594,053
                                                                                                                                                                                                   4/4/2013         Contingent Interest Proceeds                    $6,069,968
                                                                                                                                                                                                   5/6/2013         Contingent Interest Proceeds                    $4,419,259
                                                                     Debt Obligation                                                                                                               6/6/2013         Contingent Interest Proceeds                  $96,496,772
1       3/3/2009       TALF LLC, Wilmington, DE      Purchase        w/ Additional        $20,000,000,000      N/A                                                                $100,000,000                                                                                                $13,407,761
                                                                     Note                                                                                                                          7/5/2013         Contingent Interest Proceeds                  $11,799,670
                                                                                                                               1/15/20134                 $100,000,000
                                                                                                                                                                                                   8/6/2013         Contingent Interest Proceeds                  $66,072,965
                                                                                                                                                                                                   9/6/2013         Contingent Interest Proceeds                  $74,797,684
                                                                                                                                                                                                   10/4/2013        Contingent Interest Proceeds                    $1,114,074
                                                                                                                                                                                                   11/6/2013        Contingent Interest Proceeds                      $933,181
                                                                                                                                                                                                   12/5/2013        Contingent Interest Proceeds                    $1,102,424
                                                                                                                                              Total Investment Amount          $100,000,000        Total Repayment Amount5                                      $673,229,661
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014, Transactions Report, and Treasury’s 1/10/2014, Dividends and Interest Report.

1	
   The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




2	
   On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3	
   On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4	
   On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds to provide credit protection is no longer
   necessary.
5	
   Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends and Interest Report.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014.




TABLE D.10
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013
                      Seller              Purchase Details                                                        Exchange/Transfer Details
                                                                                                                                                                                                                                                                                                           Dividends/
                      Name of             Transaction     Investment                Investment    Pricing                                                                                                                                 Pricing                         Outstanding Warrant           Interest Paid
Note Date             Institution         Type            Description                  Amount     Mechanism          Date                                     Transaction Type        Investment Description                   Amount     Mechanism        Stock Price                 Shares             to Treasury
                                                          Preferred Stock
                                                                                                                                                                                      Preferred Stock w/ Warrants
1      11/25/2008     AIG, New York, NY   Purchase        w/ Warrants        $40,000,000,000      Par             4/17/2009                                   Exchange                                               $40,000,000,000      Par                   $51.05                        —                  $—
                                                                                                                                                                                      (Series E)1
                                                          (Series D)
                                                          Preferred Stock                                         See table below for exchange/
2, 3   4/17/2009      AIG, New York, NY   Purchase        w/ Warrants        $29,835,000,000      Par2            transfer details in connection with the                                                                                                       $51.05                        —       $641,275,676
                                                          (Series F)                                              recapitalization conducted on 1/14/2011.
                                                          Initial
                                                                            $69,835,000,000
                                                          Total
                                                                                                                                                              Final Disposition
                                                                                                                                                                                                     Transaction
                                                                                                                                                              Date                    Investment     Type                    Proceeds
                                                                                                                                                                                      Warrants
                                                                                                                                                              3/1/2013                               Repurchase           $25,150,923
                                                                                                                                                                                      (Series D)
                                                                                                                                                                                      Warrants
                                                                                                                                                              3/1/2013                               Repurchase                 $5,768
                                                                                                                                                                                      (Series F)
                                                                                                                                                                                          Total Warrant Proceeds         $25,156,691


                                                                                                                                                                                                                                                                                              Continued on next page
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013                                                                            (CONTINUED)
                                        Recapitalization                                                                  Treasury Holdings Post-Recapitalization                                                                                Final Disposition
                                                                                                                                                                                                                                                                                   Remaining Recap
                      Investment           Transaction               Pricing                                                                                                                             Transaction                                               Pricing       Investment Amount,
Note Date             Description          Type                      Mechanism                      Investment Description                                       Amount / Shares         Date            Type                                     Proceeds8     Mechanism        Shares, or Equity %
                                           Exchange                  Par                            Preferred Stock (Series G)                                   $2,000,000,000          5/27/2011       Cancellation                                    $—              N/A                     $­—10
                                                                                                                                                                                         2/14/2011       Payment                              $185,726,192                Par
                                                                                                                                                                                         3/8/2011        Payment                            $5,511,067,614                Par
                                                                                                                                                                                         3/15/2011       Payment                               $55,833,333                Par
                                                                                                                                                                                         8/17/2011       Payment                               $97,008,351                Par
                                                                                                                                                                                         8/18/2011       Payment                            $2,153,520,000                Par
                                                                                                    AIA Preferred Units                                          $16,916,603,5687                                                                                                                 $—8
                                                                                                                                                                                         9/2/2011        Payment                               $55,885,302                Par

                      Preferred Stock      Exchange                  N/A                                                                                                                 11/1/2011       Payment                              $971,506,765                Par
4      1/14/2011
                      (Series F)                                                                                                                                                         3/8/2012        Payment                            $5,576,121,382                Par
                                                                                                                                                                                         3/15/2012       Payment                            $1,521,632,096                Par
                                                                                                                                                                                         3/22/2012       Payment                            $1,493,250,339                Par
                                                                                                                                                                                         2/14/2011       Payment                            $2,009,932,072                Par
                                                                                                    ALICO Junior Preferred Interests                             $3,375,328,4327         3/8/2011        Payment                            $1,383,888,037                Par                     $—8
                                                                                                                                                                                         3/15/2012       Payment                               $44,941,843                Par

                                                                                                                                                                                                         Partial                                                                      1,455,037,9629
                                           Exchange                                                                                                              $167,623,733            5/24/2011                                          $5,800,000,000               N/A
                                                                                                                                                                                                         Disposition                                                                              77%

                                                                                                                                                                                                         Partial                                                                     1,248,141,41011
                                                                                                                                                                                         3/8/2012                                           $6,000,000,008               N/A
                                                                                                                                                                                                         Disposition                                                                              70%

                                                                                                                                                                                                         Partial                                                                     1,084,206,98412
                      Preferred Stock                                                                                                                                                    5/6/2012                                           $4,999,999,993               N/A
5      1/14/2011                           Exchange                                                                                                              $924,546,133                            Disposition                                                                              63%
                      (Series E)
                                                                                                                                                                                                         Partial                                                                     1,059,616,82112
                                                                                                                                                                                         5/7/2012                                             $749,999,972               N/A
                                                                                                                                                                                                         Disposition                                                                              61%

                                                                                                                                                                                                         Partial                                                                       895,682,39513
                                                                     N/A                            Common Stock                                                                         8/3/2012                                           $4,999,999,993               N/A
                                                                                                                                                                                                         Disposition                                                                              55%

                                                                                                                                                                                                         Partial                                                                       871,092,23113
                                                                                                                                                                                         8/6/2012                                             $750,000,002               N/A
                                                                                                                                                                                                         Disposition                                                                              53%

                                                                                                                                                                                                         Partial                                                                       317,246,07814
                      Common Stock                                                                                                                                                       9/10/2012                                        $17,999,999,973                N/A
6      1/14/2011                           Transfer                                                                                                              $562,868,096                            Disposition                                                                              22%
                      (non-TARP)
                                                                                                                                                                                                         Partial                                                                       234,169,15614
                                                                                                                                                                                         9/11/2012                                          $2,699,999,965               N/A
                                                                                                                                                                                                         Disposition                                                                              16%

                                                                                                                                                                                                         Final                                                                         234,169,15615
                                                                                                                                                                                         12/14/2012                                         $7,610,497,570               N/A
                                                                                                                                                                                                         Disposition                                                                               0%
                                                                                                                                                                                         Total                                           $72,670,810,802
Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from the Treasury’s 1/1/2014, Transactions Report, and Treasury’s 1/10/2014, Dividends and Interest Report.

1	
    On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2	
    The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3	
    This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4	
    On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred
    interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to
    $2,000,000,000.
5	
    On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6	
    On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7	
    The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8	
    Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9	
    On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10	
    On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11	
    On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12	
    On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13	
                                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




    On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14	
    On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15	
    On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014; Bloomberg LP, accessed 1/6/2014.
                                                                                                                                                                                                                                                                                                                           415
TABLE D.11                                                                                                                                                                                                                                                                                                                             416
UCSB TRANSACTION DETAIL, AS OF 12/31/2013
Purchase Details1                                                                                                                               Settlement Details                                                             Final Disposition
                                                                                                                                                                                                                    Senior                            Life-to-date
Purchase                                                                                          Purchase Face          Pricing      TBA or    Settlement            Investment                                   Security                              Principal     Current Face           Disposition          Interest Paid to
Date          Investment Description                         Institution Name     CUSIP                Amount3        Mechanism        PMF3     Date                    Amount2,3           TBA or PMF3          Proceeds4      Trade Date            Received1,8         Amount6,8            Amount5,6                  Treasury
3/19/2010     Floating Rate SBA 7a security due 2025         Coastal Securities   83164KYN7           $4,070,000           107.75       —       3/24/2010            $4,377,249                        —            $2,184      6/21/2011               $902,633         $3,151,186           $3,457,746                  $169,441
3/19/2010     Floating Rate SBA 7a security due 2022         Coastal Securities   83165ADC5           $7,617,617              109       —       3/24/2010            $8,279,156                        —            $4,130     10/19/2011             $1,685,710         $5,891,602           $6,462,972                  $449,518
3/19/2010     Floating Rate SBA 7a security due 2022         Coastal Securities   83165ADE1           $8,030,000          108.875       —       3/24/2010            $8,716,265                        —            $4,348      6/21/2011             $2,022,652         $5,964,013           $6,555,383                  $371,355
4/8/2010      Floating Rate SBA 7a security due 2034         Coastal Securities   83165AD84         $23,500,000           110.502       —       5/28/2010           $26,041,643                        —           $12,983        6/7/2011            $1,149,633       $22,350,367           $25,039,989                $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016         Coastal Securities   83164KZH9           $8,900,014            107.5       —       4/30/2010            $9,598,523                        —            $4,783        6/7/2011            $2,357,796         $6,542,218           $7,045,774                  $414,561
5/11/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AEE0         $10,751,382           106.806       —       6/30/2010           $11,511,052                        —            $5,741        6/7/2011              $932,112         $9,819,270          $10,550,917                  $348,599
5/11/2010     Floating Rate SBA 7a security due 2035         Coastal Securities   83164K2Q5         $12,898,996            109.42       —       6/30/2010           $14,151,229                        —            $7,057        6/7/2011              $328,604       $12,570,392           $13,886,504                  $479,508
5/11/2010     Floating Rate SBA 7a security due 2033         Coastal Securities   83165AED2           $8,744,333          110.798       —       6/30/2010            $9,717,173                        —            $4,844        6/7/2011              $261,145         $8,483,188           $9,482,247                  $368,608
5/25/2010     Floating Rate SBA 7a security due 2029         Coastal Securities   83164K3B7           $8,417,817          110.125       —       7/30/2010            $9,294,363                        —            $4,635        6/7/2011              $246,658         $8,171,159           $8,985,818                  $287,624
5/25/2010     Floating Rate SBA 7a security due 2033         Coastal Securities   83165AEK6         $17,119,972           109.553       —       7/30/2010           $18,801,712                        —            $9,377      9/20/2011             $2,089,260       $15,030,712           $16,658,561                  $657,863
6/17/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AEQ3         $34,441,059           110.785       —       8/30/2010           $38,273,995                        —           $19,077      6/21/2011             $1,784,934       $32,656,125           $36,072,056                $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034         Coastal Securities   83165AEP5         $28,209,085           112.028       —       8/30/2010           $31,693,810                        —           $15,801      9/20/2011             $2,278,652       $25,930,433           $29,142,474                $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83164K3Y7           $6,004,156          106.625       —       9/30/2010            $6,416,804                        —            $3,200      6/21/2011               $348,107         $5,656,049           $6,051,772                  $146,030
7/14/2010     Floating Rate SBA 7a security due 2025         Shay Financial       83164K4J9           $6,860,835          108.505       —       9/30/2010            $7,462,726                        —            $3,722     10/19/2011               $339,960         $6,520,875           $7,105,304                  $255,370
                                                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




7/14/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83165AE42         $13,183,361            111.86       —       9/30/2010           $14,789,302                        —            $7,373      6/21/2011               $478,520       $12,704,841           $14,182,379                  $423,725
7/29/2010     Floating Rate SBA 7a security due 2017         Coastal Securities   83164K4E0           $2,598,386          108.438       —       9/30/2010            $2,826,678                        —            $1,408      1/24/2012               $694,979         $1,903,407           $2,052,702                  $140,130
7/29/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83164K4M2           $9,719,455           106.75       —       10/29/2010          $10,394,984                        —            $5,187      6/21/2011               $188,009         $9,531,446          $10,223,264                  $181,124
8/17/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AEZ3           $8,279,048          110.198       —       9/30/2010            $9,150,989                        —            $4,561      9/20/2011             $1,853,831         $6,425,217           $7,078,089                  $335,082
8/17/2010     Floating Rate SBA 7a security due 2019         Coastal Securities   83165AFB5           $5,000,000          110.088       —       10/29/2010           $5,520,652                        —            $2,752     10/19/2011               $419,457         $4,580,543           $5,029,356                  $213,319
8/17/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AE91         $10,000,000           110.821       —       10/29/2010          $11,115,031                        —            $5,541     10/19/2011               $969,461         $9,030,539           $9,994,806                  $433,852
8/31/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AEW0           $9,272,482         110.515        —       9/29/2010           $10,277,319                        —            $5,123      9/20/2011               $868,636         $8,403,846           $9,230,008                  $386,326
8/31/2010     Floating Rate SBA 7a security due 2024         Shay Financial       83165AFA7         $10,350,000          112.476        —       10/29/2010          $11,672,766                        —            $5,820     10/19/2011               $250,445       $10,099,555           $11,314,651                  $425,545
8/31/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83164K5H2           $6,900,000          105.875       —       11/30/2010           $7,319,688                        —            $3,652      1/24/2012               $663,200         $6,236,800           $6,556,341                  $209,956
9/14/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AFC3           $8,902,230          111.584       —       10/29/2010           $9,962,039                        —            $4,966      1/24/2012             $1,398,549         $7,503,681           $8,269,277                  $447,356
9/14/2010     Floating Rate SBA 7a security due 2021         Shay Financial       83165AFK5           $8,050,000          110.759       —       11/30/2010           $8,940,780                        —            $4,458      1/24/2012               $996,133         $7,053,867           $7,703,610                  $354,302
9/14/2010     Floating Rate SBA 7a security due 2029         Coastal Securities   83164K5F6           $5,750,000            106.5       —       11/30/2010           $6,134,172                        —            $3,061      1/24/2012               $276,276         $5,473,724           $5,764,858                  $156,481
9/14/2010     Floating Rate SBA 7a security due 2026         Coastal Securities   83164K5L3           $5,741,753            110.5       —       11/30/2010           $6,361,173                        —            $3,172      1/24/2012             $1,433,872         $4,307,881           $4,693,918                  $239,527
9/28/2010     Floating Rate SBA 7a security due 2035         Coastal Securities   83164K5M1           $3,450,000          110.875       —       11/30/2010           $3,834,428                        —            $1,912     10/19/2011                $82,832         $3,367,168           $3,698,411                  $111,165
9/28/2010     Floating Rate SBA 7a security due 2034         Coastal Securities   83165AFT6         $11,482,421           113.838       —       12/30/2010          $13,109,070                        —            $6,535      1/24/2012               $889,646       $10,592,775           $11,818,944                  $512,131
9/28/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83165AFM1         $13,402,491             113.9       —       11/30/2010          $15,308,612                        —            $7,632     10/19/2011               $438,754       $12,963,737           $14,433,039                  $516,624
9/28/2010     Floating Rate SBA 7a security due 2035         Shay Financial       83165AFQ2         $14,950,000           114.006       -—      12/30/2010          $17,092,069                        —            $8,521      1/24/2012               $387,839       $14,562,161           $16,383,544                  $681,819
                                                                                                                                                                                           Total Senior
                                                               Total Purchase Face Amount         $332,596,893                   Total Investment Amount*        $368,145,452                                    $183,555                               Total Disposition Proceeds        $334,924,711               $13,347,352
                                                                                                                                                                                     Security Proceeds
Notes: Numbers affected by rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014 Transactions Report.

*Subject to adjustment
1
 	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2	
   Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3	
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
   PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor
   (on or about the 11th business day of each month).
4	
   In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
   of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
   Agreement.
5	
   Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6	
   If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
   business day of each month).
7	
   Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8	
   The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Sources: Treasury, Transactions Report, 1/1/2014, Treasury, Dividends and Interest Report, 1/10/2014.
 TABLE D.12
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013
                                                                                                                                                                         Final
                                                                                                             Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                     Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date          Institution      City          State Type        Description         Amount Mechanism        Date         Amount Date               Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                   UST/TCW                                         Debt
                                                                                                                                                                                                                           Debt Obligation
 2,4,              Senior Mortgage                                 Obligation w/
      9/30/2009                     Wilmington     DE Purchase                     $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
 5                 Securities Fund,                                Contingent
                                                                                                                                                                                                                           Proceeds
                   L.P.                                            Proceeds
                                                                                                                                                                                                                                             1/29/2010 Distribution5           $502,302
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                  1/12/2010    $166,000,000             $—                               Final
                                                                                                                                                                                                                             Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                         Distribution5                          $342,176
                   UST/TCW
 1,4               Senior Mortgage                                 Membership
       9/30/2009                    Wilmington     DE Purchase                     $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution5       $20,091,872
 5                 Securities Fund,                                Interest                                                                                                                                                  Membership
                   L.P.                                                                                                                                                           1/15/2010    $156,250,000             $—
                                                                                                                                                                                                                             Interest
                                                                                                                                                                                                                                                         Final
                                                                                                                                                                                                                                             2/24/2010                             $48,922
                                                                                                                                                                                                                                                         Distribution5
                   Invesco Legacy
                                                                   Membership                                                                                                                                                Membership
 1,6   9/30/2009   Securities Master Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010    $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010          $2,444,347   $578,515,653
                                                                   Interest                                                                                                                                                  Interest10
                   Fund, L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                            417
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                                    418
                                                                                                                                                                      Final
                                                                                                           Preliminary Adjusted                                 Investment                                  Investment After Capital
 Seller                                                                                                       Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                  Repayment           Repayment                                                                                    Paid to
Note Date         Institution      City          State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                          3/29/2012 Distribution5        $56,390,209
                                                                                                                                                                                                                                          8/9/2012    Distribution5       $1,056,751
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                          Membership      9/28/2012                             $18,772
                                                                                                                                                                               3/29/2012    $161,386,870             $—                               Distribution5
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                                      Adjusted
                                                                                                                                                                                                                                          6/4/2013                              $69,399
                                                                                                                                                                                                                                                      Distribution5,13
                                                                                                                                                                                                                                          7/8/2013    Distribution5,14          $64,444
                                                                  Debt
                  Invesco Legacy                                                                                                                                                                                        Debt Obligation
 2,6,                                                             Obligation w/
      9/30/2009   Securities Master Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010         $4,888,718 $1,157,031,282 w/ Contingent
 8                                                                Contingent
                  Fund, L.P.                                                                                                                                                                                            Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                          $99,764,742
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
                                                                                                                                                                     Final
                                                                                                          Preliminary Adjusted                                 Investment                                  Investment After Capital
 Seller                                                                                                      Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                    Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                  Repayment           Repayment                                                                                    Paid to
Note Date          Institution     City         State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                         3/29/2012 Distribution5          $3,434,460
                                                                                                                                                                                                                                         8/9/2012    Distribution5             $40,556
                                                                                                                                                                                                                                                     Final
                                                                                                                                                                                                                       Contingent        9/28/2012                                $469
                                                                                                                                                                              3/14/2012    $284,468,750             $—                               Distribution5
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                     Adjusted
                                                                                                                                                                                                                                         6/4/2013                               $1,735
                                                                                                                                                                                                                                                     Distribution5,13
                                                                                                                                                                                                                                         7/8/2013    Distribution5,14           $1,611
                   Wellington
                                                                 Debt
                   Management                                                                                                                                                                                          Debt Obligation
                                                                 Obligation w/
 2,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012       $125,000,000 $2,173,974,000 w/ Contingent
                                                                 Contingent
                   Securities PPIF                                                                                                                                                                                     Proceeds
                                                                 Proceeds
                   Master Fund, LP
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             12/21/2012    $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              1/15/2013     $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                                                         $229,105,784
                                                                                                                                                                                                                         Contingent      4/17/2013 Distribution5,11      $16,195,771
                                                                                                                                                                              1/24/2013    $341,479,690             $—
                                                                                                                                                                                                                         Proceeds        7/11/2013 Distribution5,11            $69,932
                   Wellington
                   Management
                                                                 Membership                                                                                                                                              Membership
 1,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012        $62,499,688 $1,086,987,313
                                                                 Interest                                                                                                                                                Interest10
                   Securities PPIF
                   Master Fund, LP
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              9/17/2012    $152,499,238   $934,488,075
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              1/15/2013    $254,581,112   $679,906,963
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              2/13/2013    $436,447,818   $243,459,145
                                                                                                                                                                                                                         Interest10

                                                                                                                                                                                                                         Membership      3/13/2013 Distribution5        $479,509,240
                                                                                                                                                                              3/13/2013    $243,459,145             $—
                                                                                                                                                                                                                         Interest10      7/11/2013 Distribution5,11       $2,802,754
                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                        419
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                 (CONTINUED)                                                                                                                                                                                                     420
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                 Investment After Capital
 Seller                                                                                                        Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                  Repayment          Repayment                                                                                     Paid to
Note Date          Institution      City          State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date             Amount          Amount Description       Date         Description           Proceeds     Treasury
                   AllianceBernstein                               Debt
                                                                                                                                                                                                                        Debt Obligation
 2,6,              Legacy                                          Obligation w/
      10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011       $30,244,575 $2,097,755,425 w/ Contingent
 12                Securities Master                               Contingent
                                                                                                                                                                                                                        Proceeds
                   Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/27/2012    $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/14/2012    $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                                                                                                                                            $252,376,156
                                                                                                                                                                                                                          Contingent      12/21/2012 Distribution5,11            $16,967
                                                                                                                                                                               8/22/2012    $583,467,339             $—
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                                ($460)
                                                                                                                                                                                                                                                       Refund
                   AllianceBernstein
                   Legacy                                          Membership                                                                                                                                             Membership
 1,6   10/2/2009                     Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010           $44,043 $1,064,097,694
                   Securities Master                               Interest                                                                                                                                               Interest10
                   Fund, L.P.
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2011      $6,716,327 $1,056,669,083
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/14/2011      $7,118,388 $1,049,550,694
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2012     $39,999,800 $1,009,550,894
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               6/14/2012    $287,098,565   $722,452,330
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               7/16/2012     $68,749,656   $653,702,674
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/14/2012    $361,248,194   $292,454,480
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                          9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                                          9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/30/2012    $292,454,480             $—                   10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                          ($18,405)
                                                                                                                                                                                                                                                       Refund
                                                                                                                                                                                                                                                                                 Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                  (CONTINUED)
                                                                                                                                                                         Final
                                                                                                             Preliminary Adjusted                                  Investment                                  Investment After Capital
 Seller                                                                                                         Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                         Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date           Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                    Debt
                                                                                                                                                                                                                           Debt Obligation
                    Blackrock PPIF,                                 Obligation w/
 2,6   10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                    L.P.                                            Contingent
                                                                                                                                                                                                                           Proceeds
                                                                    Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/14/2012      $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/31/2012     $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012      $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/28/2012     $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation                                                   $72,443,278
                                                                                                                                                                                 10/15/2012     $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11      $8,289,431
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                 10/18/2012    $794,459,374             $—                   12/5/2012 Distribution5,11      $1,433,088
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11        $141,894
                    Blackrock PPIF,                                 Membership                                                                                                                                               Membership
 1,6   10/2/2009                      Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012         $90,269,076   $437,915,724
                    L.P.                                            Interest                                                                                                                                                 Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  9/17/2012      $8,833,632   $429,082,092
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 10/15/2012     $10,055,653   $419,026,439
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11   $297,511,708
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  11/5/2012    $419,026,439             $—                   12/5/2012 Distribution5,11    $57,378,964
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11      $1,609,739
                                                                    Debt
                                                                                                                                                                                                                           Debt Obligation
                    AG GECC PPIF                                    Obligation w/
 2,6   10/30/2009                     Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                    Master Fund, L.P.                               Contingent
                                                                                                                                                                                                                           Proceeds
                                                                    Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  7/16/2012     $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 10/15/2012    $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 11/15/2012    $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 12/14/2012    $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            421
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                             (CONTINUED)                                                                                                                                                                                                    422
                                                                                                                                                                                   Final
                                                                                                                        Preliminary Adjusted                                 Investment                                  Investment After Capital
 Seller                                                                                                                    Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                  Distributions
                                                              Transaction Investment             Commitment   Pricing                                                                  Repayment           Repayment                                                                                    Paid to
Note Date              Institution         City         State Type        Description               Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                            1/15/2013    $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                                     Proceeds
                                                                                                                                                                                                                                                       4/19/2013 Distribution5,11    $17,118,005
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                            2/14/2013    $201,075,230             $—                   4/25/2013 Distribution5,11      $1,052,497
                                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                       5/29/2013 Distribution5,11      $1,230,643
                  AG GECC PPIF                                                    Membership                                                                                                                                         Membership
 1,6   10/30/2009                    Wilmington DE Purchase                                    $1,111,111,111     Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012        $87,099,565 $1,030,299,606
                  Master Fund, L.P.                                               Interest                                                                                                                                           Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            3/14/2012     $99,462,003   $930,837,603
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            5/14/2012     $74,999,625   $855,837,978
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            7/16/2012     $18,749,906   $837,088,072
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            8/14/2012     $68,399,658   $768,688,414
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                                            9/17/2012    $124,999,375   $643,689,039
                                                                                                                                                                                                                                       Interest10                                                     $283,096,130
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           10/15/2012    $240,673,797   $403,015,242
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           11/15/2012     $45,764,825   $357,250,417
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           12/14/2012     $24,588,926   $332,661,491
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            1/15/2013     $30,470,429   $302,191,061
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            2/14/2013    $295,328,636     $6,862,425
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                                       2/21/2013 Distribution5,11   $184,431,858
                                                                                                                                                                                                                                                       2/27/2013 Distribution5,11    $20,999,895

                                                                                                                                                                                                                                     Membership        3/14/2013 Distribution5,11   $156,174,219
                                                                                                                                                                                            2/21/2013      $6,862,425             $—
                                                                                                                                                                                                                                     Interest10        4/19/2013 Distribution5,11   $105,620,441
                                                                                                                                                                                                                                                       4/25/2013 Distribution5,11    $42,099,442
                                                                                                                                                                                                                                                       5/29/2013 Distribution5,11    $49,225,244
                                                                                                                                                                                                                                                                                             Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
 Seller                                                                                                       Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date          Institution      City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                   RLJ Western                                    Debt
                                                                                                                                                                                                                         Debt Obligation
                   Asset Public/                                  Obligation w/
 2,6   11/4/2009                    Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                   Private Master                                 Contingent
                                                                                                                                                                                                                         Proceeds
                   Fund, L.P.                                     Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                 8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11       $6,789,287

                                                                                                                                                                                                                                           11/2/2012 Distribution5,11        $3,718,769
                                                                                                                                                                                                                           Contingent                                                       $161,505,775
                                                                                                                                                                                9/21/2012    $161,866,170             $—                   12/21/2012 Distribution5,11            $13,750
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                              $1,884
                                                                                                                                                                                                                                                        Distribution5,11
                   RLJ Western
                   Asset Public/                                  Membership                                                                                                                                               Membership
 1,6   11/4/2009                    Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011          $1,202,957   $619,375,301
                   Private Master                                 Interest                                                                                                                                                 Interest10
                   Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                4/14/2011      $3,521,835   $615,853,465
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                8/14/2012    $104,959,251   $510,894,215
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/17/2012     $72,640,245   $438,253,970
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/28/2012    $180,999,095   $257,254,875
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/15/2012    $134,999,325   $122,255,550
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11     $147,464,888
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11      $148,749,256
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/19/2012    $122,255,550             $—                   12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                           12/11/2013                             $75,372
                                                                                                                                                                                                                                                      Distribution5,11
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                           423
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                                      424
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
 Seller                                                                                                       Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date           Institution     City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount         Amount Description        Date         Description           Proceeds     Treasury
                  Marathon Legacy
                                                                  Debt
                  Securities                                                                                                                                                                                             Debt Obligation
                                                                  Obligation w/
 2,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012        $149,000,000   $800,000,000 w/ Contingent
                                                                  Contingent
                  Investment                                                                                                                                                                                             Proceeds
                                                                  Proceeds
                  Partnership, L.P.
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/20/2012    $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               12/14/2012     $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                1/15/2013     $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11        $7,143,340
                                                                                                                                                                                                                                           5/16/2013 Distribution5,11         $963,411
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                1/24/2013    $375,212,503             $—                   7/11/2013 Distribution5,11         $750,004
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11      $100,001
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11        $142,168
                                                                                                                                                                                                                                                                                            $77,496,170
                  Marathon Legacy
                  Securities
                                                                  Membership                                                                                                                                             Membership
 1,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012         $74,499,628   $400,050,373
                                                                  Interest                                                                                                                                               Interest10
                  Investment
                  Partnership, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               11/15/2012     $59,787,459   $340,262,914
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               12/14/2012     $40,459,092   $299,803,821
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/15/2013     $10,409,317   $289,394,504
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/30/2013    $219,998,900    $69,395,604
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                2/25/2013     $39,026,406    $30,369,198
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/25/2013 Distribution5,11      $164,629,827
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11       $71,462,104

                                                                                                                                                                                                                           Membership      5/16/2013 Distribution5,11       $38,536,072
                                                                                                                                                                                3/25/2013     $30,369,198             $—
                                                                                                                                                                                                                           Interest10      7/11/2013 Distribution5,11       $29,999,850
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11     $3,999,980
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11       $5,707,723
                                                                                                                                                                                                                                                                                  Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
                                                                                                                                                                        Final
                                                                                                          Preliminary Adjusted                                    Investment                                  Investment After Capital
 Seller                                                                                                      Commitment3             Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                     Repayment           Repayment                                                                                    Paid to
Note Date           Institution    City         State Type        Description         Amount Mechanism      Date          Amount Date                 Amount         Amount      Date              Amount          Amount Description       Date         Description          Proceeds     Treasury
                                                                 Debt
                                                                                                                                                                                                                          Debt Obligation
                  Oaktree PPIP                                   Obligation w/
 2,6   12/18/2009                  Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011           $79,000,000 $1,032,000,000 w/ Contingent
                  Fund, L.P.                                     Contingent
                                                                                                                                                                                                                          Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 3/14/2012     $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 9/17/2012     $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                10/15/2012     $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                11/15/2012    $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                12/14/2012    $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 1/15/2013     $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 4/12/2013    $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                            5/28/2013 Distribution5,11        $444,393
                                                                                                                                                                                                                                            6/3/2013     Distribution5,11    $1,960,289
                                                                                                                                                                                                                                            6/14/2013 Distribution5,11       $1,375,007
                                                                                                                                                                                                                            Contingent      6/24/2013 Distribution5,11        $700,004
                                                                                                                                                                                 5/14/2013    $311,134,469             $—
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                            6/26/2013 Distribution5,11        $293,751
                                                                                                                                                                                                                                            7/9/2013     Distribution5,11    $1,024,380
                                                                                                                                                                                                                                                                                            $66,648,417
                                                                                                                                                                                                                                                         Final
                                                                                                                                                                                                                                            12/12/2013                            $13,475
                                                                                                                                                                                                                                                         Distribution5,11
                    Oaktree PPIP                                 Membership                                                                                                                                                 Membership
 1,6   12/18/2009                  Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100     $555,904,633 7/15/2011         $39,499,803   $516,404,830
                    Fund, L.P.                                   Interest                                                                                                                                                   Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2012     $39,387,753   $477,017,077
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 9/17/2012     $22,111,961   $454,905,116
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                10/15/2012     $32,496,972   $422,408,144
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                11/15/2012    $111,539,536   $310,868,608
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2012     $55,540,026   $255,328,581
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/15/2013     $14,849,910   $240,478,671
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/12/2013     $18,268,328   $222,210,343
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 5/14/2013     $70,605,973   $151,604,370
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 5/28/2013    $119,769,362    $31,835,008
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            6/3/2013     Distribution5,11   $46,575,750
                                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                                                                                            6/14/2013 Distribution5,11      $54,999,725
                                                                                                                                                                                                                                            6/24/2013 Distribution5,11      $27,999,860
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                  6/3/2013     $31,835,008             $—                   6/26/2013 Distribution5,11      $11,749,941
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            7/9/2013     Distribution5,11   $40,974,795
                                                                                                                                                                                                                                                         Final
                                                                                                                                                                                                                                            12/12/2013                        $539,009
                                                                                                                                                                                                                                                         Distribution5,11
                                                                                                                                                                                                                                                                                                          425




                                                     Initial Investment Amount $30,000,000,000             Final Investment Amount           $21,856,403,574    Total Capital Repayment $18,625,147,938                                              Total Proceeds5 $2,643,315,922
                                                                                                                                                                                                                                                                                                                                                    426
   Notes: Numbers may not total due to rounding. Data as of 12/31/2013. Numbered notes were taken verbatim from Treasury’s 1/1/2014, Transactions Report.

   1
    	 The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
   2
    	 The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
   3
    	 Adjusted to show Treasury’s maximum obligations to a fund.
   4
    	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
   5
    	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds
        (reported on the Dividends and Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
   6
    	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after
        adjustment for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
   7
    	 Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
   8
    	On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
   9
    	 Cumulative capital drawn at end of the Investment Period.
   10
      	 The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
   11
      	 Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
   12
      	 On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
   13
      	On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution was
        made 18 months after the Final Distribution on 9/28/2012.
   14
      	 On 7/8/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury arising from the Settlement Agreement between Jefferies LLC and Invesco Advisers, Inc. dated as of 3/20/2013.

   Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Dividends and Interest Report, 1/10/2014.




TABLE D.13
HAMP TRANSACTION DETAIL, AS OF 12/31/2013
               Servicer Modifying Borrowers’ Loans                                                                               Adjustment Details                                                                                                                                    TARP Incentive Payments
                                                                                  Cap of Incentive
                                                                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                                                                                       Lenders/                                      Total TARP
                                           Transaction     Investment        Servicers & Lenders/        Pricing                    Adjustment        Cap Adjustment                                                                                            Borrower’s              Investors              Servicers                Incentive
Date           Name of Institution         Type            Description            Investors (Cap)1       Mechanism       Note             Date               Amount          Adjusted Cap      Reason for Adjustment                                            Incentives             Incentives             Incentives               Payments
                                                                                                                                     6/12/2009          $284,590,000         $660,590,000      Updated portfolio data from servicer
                                                                                                                                     9/30/2009          $121,910,000         $782,500,000      Updated portfolio data from servicer & HPDP initial cap
                                                                                                                                   12/30/2009           $131,340,000         $913,840,000      Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                     3/26/2010         ($355,530,000)        $558,310,000      Updated portfolio data from servicer
                                                                                                                                     7/14/2010          $128,690,000         $687,000,000      Updated portfolio data from servicer
                                                                                                                                     9/30/2010             $4,000,000        $691,000,000      Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                                     9/30/2010            $59,807,784        $750,807,784      Updated portfolio data from servicer
                                                                                                                                   11/16/2010               ($700,000)       $750,107,784      Transfer of cap due to servicing transfer
                                                                                                                                   12/15/2010             $64,400,000        $814,507,784      Updated portfolio data from servicer
                                                                                                                                      1/6/2011                   ($639)      $814,507,145      Updated portfolio data from servicer
                                                                                                                                     1/13/2011            ($2,300,000)       $812,207,145      Transfer of cap due to servicing transfer
                                                                                                                                     2/16/2011               $100,000        $812,307,145      Transfer of cap due to servicing transfer
                                                                                                                                     3/16/2011             $3,600,000        $815,907,145      Transfer of cap due to servicing transfer
                                                           Financial
               Select Portfolio                                                                                                      3/30/2011                   ($735)      $815,906,410      Updated due to quarterly assessment and reallocation
                                                           Instrument for
4/13/2009      Servicing,                  Purchase                                   $376,000,000       N/A                                                                                                                                                  $76,181,706          $147,383,878           $102,958,141             $326,523,725
                                                           Home Loan                                                                 4/13/2011              ($100,000)       $815,806,410      Transfer of cap due to servicing transfer
               Salt Lake City, UT
                                                           Modifications
                                                                                                                                     5/13/2011               $400,000        $816,206,410      Transfer of cap due to servicing transfer
                                                                                                                                     6/16/2011              ($100,000)       $816,106,410      Transfer of cap due to servicing transfer
                                                                                                                                     6/29/2011                 ($6,805)      $816,099,605      Updated due to quarterly assessment and reallocation
                                                                                                                                     8/16/2011              ($100,000)       $815,999,605      Transfer of cap due to servicing transfer
                                                                                                                                     9/15/2011              ($200,000)       $815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                   10/14/2011               ($100,000)       $815,699,605      Transfer of cap due to servicing transfer
                                                                                                                                   11/16/2011               ($100,000)       $815,599,605      Transfer of cap due to servicing transfer
                                                                                                                                     1/13/2012               $200,000        $815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                     3/15/2012            $24,800,000        $840,599,605      Transfer of cap due to servicing transfer
                                                                                                                                     4/16/2012             $1,900,000        $842,499,605      Transfer of cap due to servicing transfer
                                                                                                                                     5/16/2012                 $80,000       $842,579,605      Transfer of cap due to servicing transfer
                                                                                                                                     6/14/2012             $8,710,000        $851,289,605      Transfer of cap due to servicing transfer
                                                                                                                                     6/28/2012                 ($5,176)      $851,284,429      Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                        TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments
                                                                                                         7/16/2012           $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                         8/16/2012           $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                         9/27/2012             ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                        10/16/2012         $126,940,000     $982,950,468    Transfer of cap due to servicing transfer
                                                                                                        11/15/2012           $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                        12/14/2012          $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                        12/27/2012              ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                         1/16/2013          $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                         2/14/2013          $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                         3/14/2013           $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                         3/25/2013             ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                         4/16/2013            $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                         5/16/2013           $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                         6/14/2013           $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                         6/27/2013              ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                         7/16/2013         $105,080,000    $1,147,704,125   Transfer of cap due to servicing transfer
                                                                                                         8/15/2013              $10,000    $1,147,714,125   Transfer of cap due to servicing transfer
                                                                                                         9/16/2013          $98,610,000    $1,246,324,125   Transfer of cap due to servicing transfer
                                                                                                         9/27/2013              ($1,541)   $1,246,322,584   Updated due to quarterly assessment and reallocation
                                                                                                        10/15/2013           $1,280,000    $1,247,602,584   Transfer of cap due to servicing transfer
                                                                                                        11/14/2013          $15,130,000    $1,262,732,584   Transfer of cap due to servicing transfer
                                                                                                        12/16/2013           $6,290,000    $1,269,022,584   Transfer of cap due to servicing transfer
                                                                                                        12/23/2013          ($2,481,777)   $1,266,540,807   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                    427
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                     428
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                 TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                           Lenders/                               Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors         Servicers              Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives        Incentives             Payments

                                                                                                                 6/12/2009         ($991,580,000)   $1,079,420,000   Updated portfolio data from servicer

                                                                                                                 9/30/2009         $1,010,180,000   $2,089,600,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009         ($105,410,000)   $1,984,190,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010         ($199,300,000)   $1,784,890,000   Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                                                     Transfer of cap to Service One, Inc. due to servicing
                                                                                                                 4/19/2010             ($230,000)   $1,784,660,000
                                                                                                                                                                     transfer
                                                                                                                                                                     Transfer of cap to Specialized Loan Servicing, LLC
                                                                                                                 5/14/2010           ($3,000,000)   $1,781,660,000
                                                                                                                                                                     due to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                 6/16/2010          ($12,280,000)   $1,769,380,000
                                                                                                                                                                     transfer

                                                                                                                 7/14/2010         ($757,680,000)   $1,011,700,000   Updated portfolio data from servicer

                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                 7/16/2010           ($7,110,000)   $1,004,590,000
                                                                                                                                                                     transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                 8/13/2010           ($6,300,000)    $998,290,000
                                                                                                                                                                     transfer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                 9/15/2010           ($8,300,000)    $989,990,000
                                                                                                                                                                     transfer

                                                                                                                 9/30/2010           $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                                 9/30/2010          $101,287,484    $1,123,677,484   Updated portfolio data from servicer

                                                                                                                10/15/2010           ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer

                                                                                                                11/16/2010           ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer

                                                                                                                  1/6/2011                 ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                  Financial
                                                                                                                 1/13/2011          ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
            CitiMortgage, Inc.,                   Instrument for
4/13/2009                          Purchase                             $2,071,000,000     N/A                                                                                                                                 $70,251,660    $220,868,232     $108,827,171          $399,947,064
            O’Fallon, MO                          Home Loan
                                                                                                                 2/16/2011           ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                 3/16/2011          ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011              $100,000    $1,073,575,472   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011           ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011             ($400,000)   $1,065,975,472   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011          ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2011           ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011              $700,000    $1,050,566,341   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011           $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011           ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer

                                                                                                                12/15/2011           ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012             ($900,000)   $1,056,966,341   Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012           ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012           ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012             ($600,000)   $1,053,566,341   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012             ($340,000)   $1,053,226,341   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                         TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                   Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                               Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         6/28/2012               ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation

                                                                                                         7/16/2012         ($298,960,000)    $751,380,843    Transfer of cap due to servicing transfer

                                                                                                         7/27/2012          $263,550,000    $1,014,930,843   Transfer of cap due to servicing transfer

                                                                                                         8/16/2012               $30,000    $1,014,960,843   Transfer of cap due to servicing transfer

                                                                                                         9/27/2012              ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation

                                                                                                        10/16/2012           ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer

                                                                                                        11/15/2012           ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer

                                                                                                        12/14/2012           ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer

                                                                                                        12/27/2012               ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation

                                                                                                         2/14/2013           ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer

                                                                                                         3/14/2013           ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer

                                                                                                         3/25/2013               ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation

                                                                                                         4/16/2013           ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer

                                                                                                         6/14/2013           ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer

                                                                                                         6/27/2013               ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation

                                                                                                         7/16/2013          ($26,880,000)    $959,117,438    Transfer of cap due to servicing transfer

                                                                                                         9/16/2013          ($12,160,000)    $946,957,438    Transfer of cap due to servicing transfer

                                                                                                         9/27/2013                 ($610)    $946,956,828    Updated due to quarterly assessment and reallocation

                                                                                                        11/14/2013          ($38,950,000)    $908,006,828    Transfer of cap due to servicing transfer

                                                                                                        12/16/2013           ($8,600,000)    $899,406,828    Transfer of cap due to servicing transfer

                                                                                                        12/23/2013             ($769,699)    $898,637,129    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                     429
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)

                                                                                                                                                                                                                                                                                                       430
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                 TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                           Lenders/                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors         Servicers              Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives        Incentives             Payments

                                                                                                                 6/17/2009         ($462,990,000)   $2,410,010,000   Updated portfolio data from servicer

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $65,070,000    $2,475,080,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009         $1,213,310,000   $3,688,390,000
                                                                                                                                                                     cap

                                                                                                                 2/17/2010         $2,050,236,344   $5,738,626,344   Transfer of cap (from Wachovia) due to merger

                                                                                                                 3/12/2010               $54,767    $5,738,681,110   Transfer of cap (from Wachovia) due to merger

                                                                                                                 3/19/2010          $668,108,890    $6,406,790,000   Initial 2MP cap

                                                                                                                 3/26/2010          $683,130,000    $7,089,920,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010     ($2,038,220,000)     $5,051,700,000   Updated portfolio data from servicer

                                                                                                                 9/30/2010         ($287,348,828)   $4,764,351,172   Updated portfolio data from servicer

                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010          $344,000,000    $5,108,351,172
                                                                                                                                                                     RD-HAMP

                                                                                                                 12/3/2010            $8,413,225    $5,116,764,397   Transfer of cap (from Wachovia) due to merger

                                                                                                                12/15/2010           $22,200,000    $5,138,964,397   Updated portfolio data from servicer

                                                                                                                  1/6/2011               ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 1/13/2011             ($100,000)   $5,138,858,085   Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011             ($100,000)   $5,138,758,085   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011           ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011              $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                  Financial
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                           Purchase                            $2,873,000,000     N/A                   6/16/2011             ($600,000)   $5,128,450,914   Transfer of cap due to servicing transfer                $227,305,360    $569,055,533     $333,579,245         $1,129,940,138
            Des Moines, IA                        Home Loan
                                                  Modifications
                                                                                                                 6/29/2011              ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011           ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2011           ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011            $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011              $200,000    $5,126,587,058   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011             ($200,000)   $5,126,387,058   Transfer of cap due to servicing transfer

                                                                                                                12/15/2011             ($200,000)   $5,126,187,058   Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012             ($300,000)   $5,125,887,058   Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012             ($200,000)   $5,125,687,058   Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012           ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012             ($800,000)   $5,123,887,058   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012             ($610,000)   $5,123,277,058   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012              ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2012             ($120,000)   $5,121,077,135   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012             ($104,111)   $5,120,973,024   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012           ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012           ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                        TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount         Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                        12/27/2012             ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation

                                                                                                         1/16/2013          ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer

                                                                                                         2/14/2013           ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer

                                                                                                         3/14/2013           ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer

                                                                                                         3/25/2013             ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation

                                                                                                         4/16/2013             ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer

                                                                                                         5/16/2013          ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer

                                                                                                         6/14/2013          ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer

                                                                                                         6/27/2013             ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation

                                                                                                         7/16/2013          ($1,200,000)   $5,102,967,327   Transfer of cap due to servicing transfer

                                                                                                         8/15/2013             ($30,000)   $5,102,937,327   Transfer of cap due to servicing transfer

                                                                                                         9/16/2013         ($10,760,000)   $5,092,177,327   Transfer of cap due to servicing transfer

                                                                                                         9/27/2013              ($6,701)   $5,092,170,626   Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013           ($780,000)    $5,091,390,626   Transfer of cap due to servicing transfer

                                                                                                        11/14/2013             ($60,000)   $5,091,330,626   Transfer of cap due to servicing transfer

                                                                                                        12/16/2013           ($860,000)    $5,090,470,626   Transfer of cap due to servicing transfer

                                                                                                        12/23/2013         ($10,569,304)   $5,079,901,322   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                    431
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                     432
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                          Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives        Incentives              Payments

                                                                                                                 6/12/2009          $384,650,000    $1,017,650,000   Updated portfolio data from servicer

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009         $2,537,240,000   $3,554,890,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009     ($1,679,520,000)     $1,875,370,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010          $190,180,000    $2,065,550,000   Updated portfolio data from servicer

                                                                                                                                                                     Transfer of cap from Wilshire Credit Corporation due
                                                                                                                 5/14/2010            $1,880,000    $2,067,430,000
                                                                                                                                                                     to servicing transfer

                                                                                                                 7/14/2010         ($881,530,000)   $1,185,900,000   Updated portfolio data from servicer

                                                                                                                 8/13/2010           ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer

                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010          $119,200,000    $1,301,400,000
                                                                                                                                                                     2MP cap

                                                                                                                 9/30/2010          $216,998,139    $1,518,398,139   Updated portfolio data from servicer

                                                                                                                12/15/2010             ($500,000)   $1,517,898,139   Updated portfolio data from servicer

                                                                                                                  1/6/2011               ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 3/16/2011             ($100,000)   $1,517,796,405   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011             ($800,000)   $1,516,994,381   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011          ($17,900,000)   $1,499,094,381   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011              ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation

                                                  Financial                                                      7/14/2011             ($200,000)   $1,498,875,924   Transfer of cap due to servicing transfer
            GMAC Mortgage, Inc.,                  Instrument for
4/13/2009                          Purchase                               $633,000,000     N/A                   8/16/2011            $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer                $59,103,084    $145,420,350       $92,965,012          $297,488,446
            Ft. Washington, PA                    Home Loan
                                                  Modifications
                                                                                                                 9/15/2011              $200,000    $1,502,475,924   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011             ($800,000)   $1,501,675,924   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011             ($200,000)   $1,501,475,924   Transfer of cap due to servicing transfer

                                                                                                                12/15/2011            $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012           ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012             ($400,000)   $1,502,075,924   Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012             ($100,000)   $1,501,975,924   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012             ($800,000)   $1,501,175,924   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012             ($990,000)   $1,500,185,924   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012              ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2012               $10,000    $1,500,183,461   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation

                                                                                                                11/15/2012           ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012               $40,000    $1,498,990,251   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012               ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013               $60,000    $1,499,044,819   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013              ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013              ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                         TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                   Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                               Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         3/25/2013              ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation

                                                                                                         6/14/2013               $30,000    $1,498,944,981   Transfer of cap due to servicing transfer

                                                                                                         6/27/2013               ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation

                                                                                                         9/16/2013          ($66,500,000)   $1,432,437,876   Transfer of cap due to servicing transfer

                                                                                                         9/27/2013               ($2,430)   $1,432,435,446   Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013         ($197,220,000)   $1,235,215,446   Transfer of cap due to servicing transfer

                                                                                                        11/14/2013              ($30,000)   $1,235,185,446   Transfer of cap due to servicing transfer

                                                                                                        12/16/2013           ($2,230,000)   $1,232,955,446   Transfer of cap due to servicing transfer

                                                                                                        12/23/2013           ($3,902,818)   $1,229,052,628   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                     433
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                  434
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                       Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                 6/17/2009          $225,040,000     $632,040,000    Updated portfolio data from servicer

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $254,380,000     $886,420,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $355,710,000    $1,242,130,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010          ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer

                                                                                                                                                                     Transfer of cap to Ocwen Financial Corporation, Inc.
                                                                                                                 6/16/2010         ($156,050,000)   $1,028,360,000
                                                                                                                                                                     due to servicing transfer

                                                                                                                 7/14/2010         ($513,660,000)    $514,700,000    Updated portfolio data from servicer

                                                                                                                 7/16/2010          ($22,980,000)    $491,720,000    Transfer of cap due to multiple servicing transfers

                                                                                                                 9/15/2010            $1,800,000     $493,520,000    Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010            $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                                 9/30/2010          $116,222,668     $619,542,668    Updated portfolio data from servicer

                                                                                                                10/15/2010              $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                12/15/2010            $8,900,000     $628,542,668    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($556)    $628,542,112    Updated portfolio data from servicer

                                                                                                                 1/13/2011            $2,300,000     $630,842,112    Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011              $700,000     $631,542,112    Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($654)    $631,541,458    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011            $2,100,000     $633,641,458    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
                                                  Financial
            Saxon Mortgage
                                                  Instrument for
4/13/2009   Services, Inc.,        Purchase                               $407,000,000     N/A         16        7/14/2011              $200,000     $633,835,314    Transfer of cap due to servicing transfer              $19,655,075    $41,738,413       $39,413,598          $100,807,086
                                                  Home Loan
            Irving, TX
                                                  Modifications
                                                                                                                 8/16/2011             ($100,000)    $633,735,314    Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011             ($700,000)    $633,035,314    Transfer of cap due to servicing transfer

                                                                                                                12/15/2011           $17,500,000     $650,535,314    Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012             ($100,000)    $650,435,314    Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012              $100,000     $650,535,314    Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012          ($17,500,000)    $633,035,314    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012             ($760,000)    $632,275,314    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012         ($354,290,000)    $277,985,314    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012          ($10,120,000)    $267,863,483    Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012              ($10,000)    $267,853,483    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012               ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer

                                                                                                                11/15/2012              ($30,000)    $258,598,782    Transfer of cap due to servicing transfer

                                                                                                                12/14/2012               $60,000     $258,658,782    Transfer of cap due to servicing transfer

                                                                                                                12/27/2012                 ($788)    $258,657,994    Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013             ($610,000)    $258,047,994    Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013               ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation

                                                                                                                  4/9/2013         ($157,237,929)    $100,807,086    Termination of SPA

                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                         Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                  Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                     Incentives      Incentives        Incentives               Payments

                                                  Financial
            Chase Home Finance,                   Instrument for
4/13/2009                          Purchase                             $3,552,000,000     N/A          2        7/31/2009     ($3,552,000,000)                $0    Termination of SPA                                               $0              $0                 $0                      $0
            LLC, Iselin, NJ                       Home Loan
                                                  Modifications

                                                                                                                 6/12/2009         ($105,620,000)    $553,380,000    Updated portfolio data from servicer

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $102,580,000     $655,960,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $277,640,000     $933,600,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010           $46,860,000     $980,460,000    Updated portfolio data from servicer

                                                                                                                                                                     Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                                 6/16/2010          $156,050,000    $1,136,510,000
                                                                                                                                                                     due to servicing transfer

                                                                                                                 7/14/2010         ($191,610,000)    $944,900,000    Updated portfolio data from servicer

                                                                                                                                                                     Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                                 7/16/2010           $23,710,000     $968,610,000
                                                                                                                                                                     due to servicing transfer

                                                                                                                 9/15/2010              $100,000     $968,710,000    Initial FHA-HAMP cap

                                                                                                                 9/30/2010            $3,742,740     $972,452,740    Updated portfolio data from servicer

                                                                                                                10/15/2010          $170,800,000    $1,143,252,740   Transfer of cap due to servicing transfer

                                                                                                                  1/6/2011               ($1,020)   $1,143,251,720   Updated portfolio data from servicer

                                                                                                                 2/16/2011              $900,000    $1,144,151,720   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011              ($10,044)   $1,144,140,562   Updated due to quarterly assessment and reallocation

                                                                                                                10/14/2011             ($100,000)   $1,144,040,562   Transfer of cap due to servicing transfer
                                                  Financial
            Ocwen Loan Servicing                                                                                 1/13/2012          $194,800,000    $1,338,840,562   Transfer of cap due to servicing transfer
                                                  Instrument for
4/16/2009   LLC, West Palm         Purchase                               $659,000,000     N/A                                                                                                                              $144,761,047    $440,283,327     $213,761,599            $798,805,972
                                                  Home Loan
            Beach, FL                                                                                            2/16/2012              $400,000    $1,339,240,562   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                 3/15/2012              $100,000    $1,339,340,562   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012          $123,530,000    $1,462,870,562   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012          $354,290,000    $1,817,160,562   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012            $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($10,733)   $1,835,613,521   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012           $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012            $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012               ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013              $410,000    $1,865,902,506   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013              $960,000    $1,866,862,506   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013           $83,880,000    $1,950,742,506   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013               ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                     Transfer of cap (from Saxon Mortgage Services, Inc )
                                                                                                                  4/9/2013          $157,237,929    $2,107,978,558
                                                                                                                                                                     due to servicing transfer

                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       435
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                                  436
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                             TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                       Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors         Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                   4/16/2013          $620,860,000    $2,728,838,558   Transfer of cap due to servicing transfer

                                                                                                                   5/16/2013           $18,970,000    $2,747,808,558   Transfer of cap due to servicing transfer

                                                                                                                   6/14/2013             ($190,000)   $2,747,618,558   Transfer of cap due to servicing transfer

                                                                                                                   6/27/2013               ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2013           $14,710,000    $2,762,325,741   Transfer of cap due to servicing transfer

                                                                                                                   9/16/2013           $66,170,000    $2,828,495,741   Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013                 ($276)   $2,828,495,465   Updated due to quarterly assessment and reallocation

                                                                                                                  10/15/2013          $267,580,000    $3,096,075,465   Transfer of cap due to servicing transfer

                                                                                                                  11/14/2013            $4,290,000    $3,100,365,465   Transfer of cap due to servicing transfer

                                                                                                                  12/16/2013          $280,370,000    $3,380,735,465   Transfer of cap due to servicing transfer

                                                                                                                  12/23/2013           $49,286,732    $3,430,022,197   Updated due to quarterly assessment and reallocation

                                                                                                                   6/12/2009            $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009          $162,680,000     $967,120,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009          $665,510,000    $1,632,630,000
                                                                                                                                                                       cap

                                                                                                                   1/26/2010          $800,390,000    $2,433,020,000   Initial 2MP cap

                                                                                                                   3/26/2010         ($829,370,000)   $1,603,650,000   Updated portfolio data from servicer

                                                                                                                   7/14/2010         ($366,750,000)   $1,236,900,000   Updated portfolio data from servicer

                                                                                                                                                                       Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                   9/30/2010           $95,300,000    $1,332,200,000
                                                                                                                                                                       RD-HAMP

                                                                                                                   9/30/2010          $222,941,084    $1,555,141,084   Updated portfolio data from servicer
4/17/2009                                           Financial
as amended   Bank of America, N.A.,                 Instrument for                                                  1/6/2011               ($2,199)   $1,555,138,885   Updated portfolio data from servicer
                                      Purchase                              $798,900,000     N/A         13                                                                                                                     $4,099,062   $17,843,110        $9,075,439            $31,017,611
on           Simi Valley, CA                        Home Loan
1/26/2010                                           Modifications                                                  3/30/2011               ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011              ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation

                                                                                                                   8/16/2011             ($300,000)   $1,554,813,000   Transfer of cap due to servicing transfer

                                                                                                                  10/14/2011         ($120,700,000)   $1,434,113,000   Transfer of cap due to servicing transfer

                                                                                                                  11/16/2011             ($900,000)   $1,433,213,000   Transfer of cap due to servicing transfer

                                                                                                                   5/16/2012             ($200,000)   $1,433,013,000   Transfer of cap due to servicing transfer

                                                                                                                   6/28/2012              ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation

                                                                                                                                                                       Update of cap due to termination of SPA and merger
                                                                                                                   8/10/2012     ($1,401,716,594)       $31,278,513
                                                                                                                                                                       with BAC Home Loans, LP
                                                                                                                                                                       Update of cap due to termination of SPA and merger
                                                                                                                  10/16/2013             ($260,902)     $31,017,611
                                                                                                                                                                       with BAC Home Loans, LP

                                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                 TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                           Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors         Servicers              Incentive
Date         Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives        Incentives             Payments

                                                                                                                  6/12/2009         $3,318,840,000   $5,182,840,000   Updated portfolio data from servicer

                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009         ($717,420,000)   $4,465,420,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009         $2,290,780,000   $6,756,200,000
                                                                                                                                                                      cap

                                                                                                                  1/26/2010          $450,100,000    $7,206,300,000   Initial 2MP cap

                                                                                                                  3/26/2010          $905,010,000    $8,111,310,000   Updated portfolio data from servicer

                                                                                                                                                                      Transfer of cap from Wilshire Credit Corporation due
                                                                                                                  4/19/2010           $10,280,000    $8,121,590,000
                                                                                                                                                                      to servicing transfer
                                                                                                                                                                      Transfer of cap from Wilshire Credit Corporation due
                                                                                                                  6/16/2010          $286,510,000    $8,408,100,000
                                                                                                                                                                      to servicing transfer

                                                                                                                  7/14/2010     ($1,787,300,000)     $6,620,800,000   Updated portfolio data from servicer

                                                                                                                                                                      Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                  9/30/2010          $105,500,000    $6,726,300,000
                                                                                                                                                                      RD-HAMP

                                                                                                                  9/30/2010         ($614,527,362)   $6,111,772,638   Updated portfolio data from servicer

                                                                                                                 12/15/2010          $236,000,000    $6,347,772,638   Updated portfolio data from servicer

                                                                                                                   1/6/2011               ($8,012)   $6,347,764,626   Updated portfolio data from servicer

                                                                                                                  2/16/2011            $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer

                                                                                                                  3/16/2011              $100,000    $6,349,664,626   Transfer of cap due to servicing transfer

                                                                                                                  3/30/2011               ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011              $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
4/17/2009    Bank of America, N.A.                 Financial
                                                                                                                  5/13/2011              $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
as amended   (BAC Home Loans                       Instrument for
                                     Purchase                            $1,864,000,000     N/A                                                                                                                                $296,979,490    $606,680,961     $364,412,460         $1,268,072,910
on           Servicing, LP),                       Home Loan
                                                                                                                  6/16/2011           ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
1/26/2010    Simi Valley, CA                       Modifications
                                                                                                                  6/29/2011              ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation

                                                                                                                  7/14/2011             ($200,000)   $6,348,873,089   Transfer of cap due to servicing transfer

                                                                                                                  8/16/2011           ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer

                                                                                                                  9/15/2011           ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer

                                                                                                                 10/14/2011          $120,600,000    $6,464,673,089   Transfer of cap due to servicing transfer

                                                                                                                                                                      Transfer of cap from Home Loan Services, Inc. and
                                                                                                                 10/19/2011          $317,956,289    $6,782,629,378
                                                                                                                                                                      Wilshire Credit Corporation due to merger.

                                                                                                                 11/16/2011              $800,000    $6,783,429,378   Transfer of cap due to servicing transfer

                                                                                                                 12/15/2011          ($17,600,000)   $6,765,829,378   Transfer of cap due to servicing transfer

                                                                                                                  2/16/2012           ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer

                                                                                                                  3/15/2012          ($23,900,000)   $6,739,829,378   Transfer of cap due to servicing transfer

                                                                                                                  4/16/2012          ($63,800,000)   $6,676,029,378   Transfer of cap due to servicing transfer

                                                                                                                  5/16/2012               $20,000    $6,676,049,378   Transfer of cap due to servicing transfer

                                                                                                                  6/14/2012           ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012              ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2012           ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer

                                                                                                                                                                      Transfer of cap (from Bank of America, N.A.) due
                                                                                                                  8/10/2012         $1,401,716,594   $8,062,007,423
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                      to merger

                                                                                                                  8/16/2012           ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                        437
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)                                                                                                                                                                                           438
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                         TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                   Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                               Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         9/27/2012             ($205,946)   $8,057,021,476   Updated due to quarterly assessment and reallocation

                                                                                                        10/16/2012         ($153,220,000)   $7,903,801,476   Transfer of cap due to servicing transfer

                                                                                                        11/15/2012          ($27,300,000)   $7,876,501,476   Transfer of cap due to servicing transfer

                                                                                                        12/14/2012          ($50,350,000)   $7,826,151,476   Transfer of cap due to servicing transfer

                                                                                                        12/27/2012              ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation

                                                                                                         1/16/2013          ($27,000,000)   $7,799,117,961   Transfer of cap due to servicing transfer

                                                                                                         2/14/2013          ($41,830,000)   $7,757,287,961   Transfer of cap due to servicing transfer

                                                                                                         3/14/2013           ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer

                                                                                                         3/25/2013             ($122,604)   $7,751,265,357   Updated due to quarterly assessment and reallocation

                                                                                                         4/16/2013           ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer

                                                                                                         5/16/2013             ($940,000)   $7,748,915,357   Transfer of cap due to servicing transfer

                                                                                                         6/14/2013          ($16,950,000)   $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                         6/27/2013              ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation

                                                                                                         7/16/2013          ($25,580,000)   $7,706,340,254   Transfer of cap due to servicing transfer

                                                                                                         8/15/2013           ($6,730,000)   $7,699,610,254   Transfer of cap due to servicing transfer

                                                                                                         9/16/2013         ($290,640,000)   $7,408,970,254   Transfer of cap due to servicing transfer

                                                                                                         9/27/2013              ($15,411)   $7,408,954,843   Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013          ($79,200,000)   $7,329,754,843   Transfer of cap due to servicing transfer

                                                                                                                                                             Transfer of cap (from Bank of America, N.A.) due
                                                                                                        10/16/2013              $260,902    $7,330,015,745
                                                                                                                                                             to merger

                                                                                                        11/14/2013          ($14,600,000)   $7,315,415,745   Transfer of cap due to servicing transfer

                                                                                                        12/16/2013          ($23,220,000)   $7,292,195,745   Transfer of cap due to servicing transfer

                                                                                                        12/23/2013          ($25,226,860)   $7,266,968,885   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                             Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives              Payments

                                                                                                                 6/12/2009          $128,300,000    $447,300,000   Updated portfolio data from servicer

                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $46,730,000    $494,030,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $145,820,000    $639,850,000
                                                                                                                                                                   cap

                                                                                                                 3/26/2010          ($17,440,000)   $622,410,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($73,010,000)   $549,400,000   Updated portfolio data from servicer

                                                                                                                 9/30/2010            $6,700,000    $556,100,000   Initial FHA-2LP cap

                                                  Financial                                                      9/30/2010          ($77,126,410)   $478,973,590   Updated portfolio data from servicer
            Home Loan Services,                   Instrument for
4/20/2009                          Purchase                               $319,000,000     N/A         13                                                                                                                 $169,858     $2,440,768        $3,698,607             $6,309,233
            Inc., Pittsburgh, PA                  Home Loan                                                     12/15/2010         ($314,900,000)   $164,073,590   Updated portfolio data from servicer
                                                  Modifications
                                                                                                                  1/6/2011                 ($233)   $164,073,357   Updated portfolio data from servicer

                                                                                                                 2/16/2011           ($1,900,000)   $162,173,357   Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011             ($400,000)   $161,773,357   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($278)   $161,773,079   Updated due to quarterly assessment and reallocation

                                                                                                                 5/13/2011             ($400,000)   $161,373,079   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($2,625)   $161,370,454   Updated due to quarterly assessment and reallocation

                                                                                                                10/19/2011         ($155,061,221)     $6,309,233   Termination of SPA

                                                                                                                 6/12/2009           $87,130,000    $453,130,000   Updated portfolio data from servicer

                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009         ($249,670,000)   $203,460,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $119,700,000    $323,160,000
                                                                                                                                                                   cap

                                                                                                                 3/26/2010           $52,270,000    $375,430,000   Updated portfolio data from servicer

                                                                                                                                                                   Transfer of cap to Countrywide Home Loans due to
                                                                                                                 4/19/2010          ($10,280,000)   $365,150,000
                                                                                                                                                                   servicing transfer
                                                                                                                                                                   Transfer of cap to GMAC Mortgage, Inc. due to
                                                                                                                 5/14/2010           ($1,880,000)   $363,270,000
                                                                                                                                                                   servicing transfer
                                                  Financial                                                                                                        Transfer of cap to Countrywide Home Loans due to
            Wilshire Credit                                                                                      6/16/2010         ($286,510,000)    $76,760,000
                                                  Instrument for                                                                                                   servicing transfer
4/20/2009   Corporation,           Purchase                               $366,000,000     N/A         13                                                                                                                        $0     $490,394         $1,167,000             $1,657,394
                                                  Home Loan
            Beaverton, OR                                                                                        7/14/2010           $19,540,000     $96,300,000   Updated portfolio data from servicer
                                                  Modifications
                                                                                                                                                                   Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                 7/16/2010             ($210,000)    $96,090,000
                                                                                                                                                                   servicing transfer

                                                                                                                 8/13/2010             ($100,000)    $95,990,000   Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010           $68,565,782    $164,555,782   Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($247)   $164,555,535   Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($294)   $164,555,241   Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($2,779)   $164,552,462   Updated due to quarterly assessment and reallocation

                                                                                                                10/19/2011         ($162,895,068)     $1,657,394   Termination of SPA

                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                               439
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                              440
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                             Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives              Payments

                                                                                                                 6/17/2009          ($64,990,000)    $91,010,000   Updated portfolio data from servicer

                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $130,780,000    $221,790,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009         ($116,750,000)   $105,040,000
                                                                                                                                                                   cap

                                                                                                                 3/26/2010           $13,080,000    $118,120,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($24,220,000)    $93,900,000   Updated portfolio data from servicer

                                                                                                                                                                   Transfer of cap from Wilshire Credit Corporation due
                                                                                                                 7/16/2010              $210,000     $94,110,000
                                                                                                                                                                   to servicing transfer

                                                                                                                 8/13/2010            $2,200,000     $96,310,000   Transfer of cap due to servicing transfer

                                                                                                                 9/10/2010           $34,600,000    $130,910,000   Initial 2MP cap

                                                                                                                 9/30/2010            $5,600,000    $136,510,000   Initial FHA-2LP cap and FHA-HAMP

                                                                                                                 9/30/2010           $10,185,090    $146,695,090   Updated portfolio data from servicer

                                                                                                                10/15/2010              $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  1/6/2011                 ($213)   $147,094,877   Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($250)   $147,094,627   Updated due to quarterly assessment and reallocation

                                                                                                                 5/13/2011            $1,200,000    $148,294,627   Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011              $100,000    $148,394,627   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011            $1,900,000    $150,292,325   Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                                 9/15/2011              $200,000    $150,492,325   Transfer of cap due to servicing transfer
            Green Tree Servicing                  Instrument for
4/24/2009                          Purchase                               $156,000,000     N/A                                                                                                                            $3,177,092   $16,473,948        $7,060,678            $26,711,718
            LLC, Saint Paul, MN                   Home Loan
                                                                                                                10/14/2011              $200,000    $150,692,325   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                11/16/2011              $400,000    $151,092,325   Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012              $900,000    $151,992,325   Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012              $100,000    $152,092,325   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012            $3,260,000    $155,352,325   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012              $920,000    $156,272,325   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012              $110,000    $156,380,703   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012            $5,120,000    $161,500,703   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012               ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012            $8,810,000    $170,306,194   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012            $2,910,000    $173,216,194   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012                 ($802)   $173,215,392   Updated due to quarterly assessment and reallocation

                                                                                                                 2/14/2013           $10,210,000    $183,425,392   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013               ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation

                                                                                                                 5/16/2013              $140,000    $183,562,369   Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013               ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013            $7,210,000    $190,771,292   Transfer of cap due to servicing transfer

                                                                                                                 8/15/2013            $6,730,000    $197,501,292   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                    TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                              Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         9/27/2013              ($388)   $197,500,904   Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013          $3,610,000   $201,110,904   Transfer of cap due to servicing transfer

                                                                                                        11/14/2013          ($320,000)   $200,790,904   Transfer of cap due to servicing transfer

                                                                                                        12/16/2013         $21,280,000   $222,070,904   Transfer of cap due to servicing transfer

                                                                                                        12/23/2013          ($710,351)   $221,360,553   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                441
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                               442
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                    Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                 6/17/2009         ($63,980,000)   $131,020,000   Updated portfolio data from servicer

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $90,990,000    $222,010,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $57,980,000    $279,990,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          $74,520,000    $354,510,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($75,610,000)   $278,900,000   Updated portfolio data from servicer

                                                                                                                 8/13/2010           $1,100,000    $280,000,000   Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010           $3,763,685    $283,763,685   Updated portfolio data from servicer

                                                                                                                12/15/2010             $300,000    $284,063,685   Updated portfolio data from servicer

                                                                                                                  1/6/2011                ($325)   $284,063,360   Updated portfolio data from servicer

                                                                                                                 1/13/2011           $2,400,000    $286,463,360   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 6/29/2011              ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2011           $1,800,000    $288,259,384   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011             $100,000    $288,359,384   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011           $1,000,000    $289,359,384   Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012           $1,100,000    $290,459,384   Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012             $100,000    $290,559,384   Transfer of cap due to servicing transfer

                                                  Financial                                                      5/16/2012             $850,000    $291,409,384   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                  Instrument for
4/27/2009   Services, LLC,         Purchase                               $195,000,000     N/A                                                                                                                           $10,053,536    $26,293,676       $18,109,958            $54,457,170
                                                  Home Loan                                                      6/14/2012           $2,240,000    $293,649,384   Transfer of cap due to servicing transfer
            Santa Ana, CA
                                                  Modifications
                                                                                                                 6/28/2012              ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           $1,690,000    $295,336,864   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012             ($30,000)   $295,306,864   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           $2,880,000    $298,180,232   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012           $1,500,000    $299,680,232   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012           $2,040,000    $301,720,232   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012              ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013             ($10,000)   $301,709,129   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013           $4,960,000    $306,669,129   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013             ($30,000)   $306,639,129   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013              ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013             ($70,000)   $306,564,950   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013           $1,570,000    $308,134,950   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013          ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013              ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013             $270,000    $306,523,428   Transfer of cap due to servicing transfer

                                                                                                                 9/16/2013           $5,370,000    $311,893,428   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                             (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                           TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                     Lenders/                                Total TARP
                                   Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                               Borrower’s      Investors         Servicers               Incentive
Date       Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                9/27/2013                 ($525)   $311,892,903   Updated due to quarterly assessment and reallocation

                                                                                                               10/15/2013             ($240,000)   $311,652,903   Transfer of cap due to servicing transfer

                                                                                                               11/14/2013            $2,000,000    $313,652,903   Transfer of cap due to servicing transfer

                                                                                                               12/16/2013            $1,370,000    $315,022,903   Transfer of cap due to servicing transfer

                                                                                                               12/23/2013             ($873,891)   $314,149,012   Updated due to quarterly assessment and reallocation

                                                                                                                6/17/2009         ($338,450,000)   $459,550,000   Updated portfolio data from servicer

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009          ($11,860,000)   $447,690,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009           $21,330,000    $469,020,000
                                                                                                                                                                  cap

                                                                                                                3/26/2010            $9,150,000    $478,170,000   Updated portfolio data from servicer

                                                                                                                7/14/2010          ($76,870,000)   $401,300,000   Updated portfolio data from servicer

                                                                                                                 9/1/2010              $400,000    $401,700,000   Initial FHA-HAMP cap

                                                                                                                9/30/2010           ($8,454,269)   $393,245,731   Updated portfolio data from servicer

                                                                                                                 1/6/2011                 ($342)   $393,245,389   Updated portfolio data from servicer

                                                                                                                3/30/2011                 ($374)   $393,245,015   Updated due to quarterly assessment and reallocation

                                                                                                                5/13/2011           $18,000,000    $411,245,015   Transfer of cap due to servicing transfer

                                                                                                                6/29/2011               ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation

                                                 Financial                                                     10/14/2011             ($200,000)   $411,041,742   Transfer of cap due to servicing transfer
           Aurora Loan Services,                 Instrument for
5/1/2009                           Purchase                              $798,000,000     N/A         17                                                                                                                 $15,997,418    $41,236,850       $28,629,251            $85,863,519
           LLC, Littleton, CO                    Home Loan                                                      3/15/2012              $100,000    $411,141,742   Transfer of cap due to servicing transfer
                                                 Modifications
                                                                                                                4/16/2012             ($500,000)   $410,641,742   Transfer of cap due to servicing transfer

                                                                                                                6/28/2012               ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation

                                                                                                                7/16/2012              ($90,000)   $410,549,974   Transfer of cap due to servicing transfer

                                                                                                                8/16/2012         ($134,230,000)   $276,319,974   Transfer of cap due to servicing transfer

                                                                                                                8/23/2012         ($166,976,849)   $109,343,125   Transfer of cap due to servicing transfer

                                                                                                                9/27/2012                    $1    $109,343,126   Updated due to quarterly assessment and reallocation

                                                                                                               11/15/2012             ($230,000)   $109,113,126   Transfer of cap due to servicing transfer

                                                                                                                3/25/2013                   ($1)   $109,113,125   Updated due to quarterly assessment and reallocation

                                                                                                                5/16/2013              ($20,000)   $109,093,125   Transfer of cap due to servicing transfer

                                                                                                                6/14/2013              ($50,000)   $109,043,125   Transfer of cap due to servicing transfer

                                                                                                                6/27/2013                  ($15)   $109,043,110   Updated due to quarterly assessment and reallocation

                                                                                                                 7/9/2013          ($23,179,591)    $85,863,519   Termination of SPA

                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                 443
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                  444
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                       Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                Borrower’s       Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives        Incentives              Payments

                                                                                                                 6/12/2009          $16,140,000    $117,140,000   Updated portfolio data from servicer

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009         $134,560,000    $251,700,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $80,250,000    $331,950,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          $67,250,000    $399,200,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($85,900,000)   $313,300,000   Updated portfolio data from servicer

                                                                                                                 8/13/2010             $100,000    $313,400,000   Transfer of cap due to servicing transfer

                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-
                                                                                                                 9/30/2010           $2,900,000    $316,300,000
                                                                                                                                                                  HAMP, and initial 2MP cap

                                                                                                                 9/30/2010          $33,801,486    $350,101,486   Updated portfolio data from servicer

                                                                                                                11/16/2010             $700,000    $350,801,486   Transfer of cap due to servicing transfer

                                                                                                                12/15/2010           $1,700,000    $352,501,486   Updated portfolio data from servicer

                                                                                                                  1/6/2011                ($363)   $352,501,123   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 2/16/2011             $900,000    $353,401,123   Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011          $29,800,000    $383,201,123   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                ($428)   $383,200,695   Updated due to quarterly assessment and reallocation

                                                                                                                 5/26/2011          $20,077,503    $403,278,198   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011              ($4,248)   $403,273,950   Updated due to quarterly assessment and reallocation

                                                                                                                11/16/2011             $100,000    $403,373,950   Transfer of cap due to servicing transfer
                                                  Financial
            Nationstar Mortgage                   Instrument for                                                 3/15/2012           ($100,000)    $403,273,950   Transfer of cap due to servicing transfer
5/28/2009                          Purchase                               $101,000,000     N/A                                                                                                                             $44,723,070    $102,103,348       $58,881,706          $205,708,124
            LLC, Lewisville, TX                   Home Loan
                                                  Modifications                                                  5/16/2012              $90,000    $403,363,950   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012          ($2,380,000)   $400,983,950   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012              ($2,957)   $400,980,993   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012          ($2,580,000)   $398,400,993   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012         $131,450,000    $529,850,993   Transfer of cap due to servicing transfer

                                                                                                                 8/23/2012         $166,976,849    $696,827,842   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012             ($12,806)   $696,815,036   Updated due to quarterly assessment and reallocation

                                                                                                                11/15/2012             $160,000    $696,975,036   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012              $50,000    $697,025,036   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012              ($1,882)   $697,023,154   Updated due to quarterly assessment and reallocation

                                                                                                                 2/14/2013             ($10,000)   $697,013,154   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013           ($280,000)    $696,733,154   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013              ($6,437)   $696,726,717   Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013              $30,000    $696,756,717   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013          ($1,510,000)   $695,246,717   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013          ($1,070,000)   $694,176,717   Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013              ($2,099)   $694,174,618   Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Transfer of cap (from Aurora Loan Services LLC ) due
                                                                                                                  7/9/2013          $23,179,591    $717,354,209
                                                                                                                                                                  to servicing transfer

                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                        TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount         Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         7/16/2013            $490,000      $717,844,209    Transfer of cap due to servicing transfer

                                                                                                         9/16/2013         $289,070,000    $1,006,914,209   Transfer of cap due to servicing transfer

                                                                                                         9/27/2013              ($1,118)   $1,006,913,091   Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013          $63,440,000    $1,070,353,091   Transfer of cap due to servicing transfer

                                                                                                        11/14/2013           $5,060,000    $1,075,413,091   Transfer of cap due to servicing transfer

                                                                                                        12/16/2013           $3,210,000    $1,078,623,091   Transfer of cap due to servicing transfer

                                                                                                        12/23/2013          ($1,697,251)   $1,076,925,840   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                    445
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                              446
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                    Incentives    Incentives        Incentives              Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($1,860,000)   $17,540,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $27,920,000    $45,460,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          ($1,390,000)   $44,070,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($13,870,000)   $30,200,000    Updated portfolio data from servicer

                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010             $400,000    $30,600,000
                                                                                                                                                                  2MP cap

                                                                                                                 9/30/2010             $586,954    $31,186,954    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($34)   $31,186,920    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($37)   $31,186,883    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011             $100,000    $31,286,883    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011                ($329)   $31,286,554    Updated due to quarterly assessment and reallocation

                                                                                                                 9/15/2011          ($1,900,000)   $29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                11/16/2011           $2,800,000    $32,186,554    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012             $420,000    $32,606,554    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           $8,060,000    $40,666,554    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012                ($313)   $40,666,241    Updated due to quarterly assessment and reallocation
                                                  Financial
            Residential Credit                                                                                   7/16/2012           $2,160,000    $42,826,241    Transfer of cap due to servicing transfer
                                                  Instrument for
6/12/2009   Solutions,             Purchase                                $19,400,000     N/A                                                                                                                             $1,823,951   $5,030,007        $2,703,513             $9,557,470
                                                  Home Loan
            Fort Worth, TX                                                                                       9/27/2012                ($911)   $42,825,330    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                10/16/2012           $5,690,000    $48,515,330    Transfer of cap due to servicing transfer

                                                                                                                11/15/2012              $20,000    $48,535,330    Transfer of cap due to servicing transfer

                                                                                                                12/27/2012                ($178)   $48,535,152    Updated due to quarterly assessment and reallocation

                                                                                                                 2/14/2013           $3,190,000    $51,725,152    Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013           ($260,000)    $51,465,152    Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013                ($713)   $51,464,439    Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013           $1,330,000    $52,794,439    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013             $100,000    $52,894,439    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013              $20,000    $52,914,439    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013                ($264)   $52,914,175    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013           $6,080,000    $58,994,175    Transfer of cap due to servicing transfer

                                                                                                                 9/16/2013          ($2,130,000)   $56,864,175    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013                ($101)   $56,864,074    Updated due to quarterly assessment and reallocation

                                                                                                                10/15/2013           $6,910,000    $63,774,074    Transfer of cap due to servicing transfer

                                                                                                                12/16/2013          ($1,050,000)   $62,724,074    Transfer of cap due to servicing transfer

                                                                                                                12/23/2013           ($173,584)    $62,550,490    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                             Borrower’s     Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $13,070,000     $29,590,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $145,510,000    $175,100,000
                                                                                                                                                                   cap

                                                                                                                 3/26/2010         ($116,950,000)    $58,150,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($23,350,000)    $34,800,000   Updated portfolio data from servicer

                                                                                                                 9/30/2010            $7,846,346     $42,646,346   Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($46)    $42,646,300   Updated portfolio data from servicer

            CCO Mortgage,                         Financial                                                      3/30/2011                  ($55)    $42,646,245   Updated due to quarterly assessment and reallocation
            a division of RBS                     Instrument for
6/17/2009                           Purchase                               $16,520,000     N/A                                                                                                                            $2,148,656   $5,030,208        $3,534,039             $10,712,903
            Citizens NA,                          Home Loan                                                      6/29/2011                 ($452)    $42,645,793   Updated due to quarterly assessment and reallocation
            Glen Allen, VA                        Modifications
                                                                                                                 6/28/2012                 ($309)    $42,645,484   Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                 ($807)    $42,644,677   Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($131)    $42,644,546   Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                 ($475)    $42,644,071   Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($175)    $42,643,896   Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                  ($62)    $42,643,834   Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013              ($97,446)    $42,546,388   Updated due to quarterly assessment and reallocation

                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($11,300,000)    $45,700,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          ($42,210,000)     $3,490,000
                                                                                                                                                                   cap

                                                                                                                 3/26/2010           $65,640,000     $69,130,000   Updated portfolio data from servicer

                                                                                                                  4/9/2010          ($14,470,000)    $54,660,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010           ($8,860,000)    $45,800,000   Updated portfolio data from servicer

                                                                                                                 9/30/2010           ($4,459,154)    $41,340,846   Updated portfolio data from servicer

                                                                                                                12/15/2010           ($4,300,000)    $37,040,846   Updated portfolio data from servicer

                                                  Financial                                                       1/6/2011                  ($51)    $37,040,795   Updated portfolio data from servicer
            RG Mortgage
                                                  Instrument for
6/17/2009   Corporation,            Purchase                               $57,000,000     N/A                                                                                                                             $164,853     $227,582          $401,334                 $793,769
                                                  Home Loan                                                      3/30/2011                  ($65)    $37,040,730   Updated due to quarterly assessment and reallocation
            San Juan, PR
                                                  Modifications
                                                                                                                 6/29/2011                 ($616)    $37,040,114   Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                 ($462)    $37,039,652   Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012               ($1,270)    $37,038,382   Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($214)    $37,038,168   Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                 ($812)    $37,037,356   Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($306)    $37,037,050   Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($110)    $37,036,940   Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($185,423)    $36,851,517   Updated due to quarterly assessment and reallocation

                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009            $2,020,000      $2,790,000
                                                  Financial                                                                                                        cap
            First Federal Savings
                                                  Instrument for
6/19/2009   and Loan,               Purchase                                  $770,000     N/A                   3/26/2010           $11,370,000     $14,160,000   Updated portfolio data from servicer                          $0            $0                 $0                      $0
                                                  Home Loan
            Port Angeles, WA
                                                  Modifications
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                 5/26/2010          ($14,160,000)            $0    Termination of SPA

                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                447
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                            448
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             $330,000       $870,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $16,490,000    $17,360,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010         ($14,260,000)    $3,100,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($1,800,000)    $1,300,000    Updated portfolio data from servicer

                                                                                                                 7/30/2010           $1,500,000     $2,800,000    Updated portfolio data from servicer

                                                  Financial                                                      9/30/2010           $1,551,668     $4,351,668    Updated portfolio data from servicer
            Wescom Central Credit                 Instrument for
6/19/2009                           Purchase                                  $540,000     N/A         9,12                                                                                                              $244,033     $699,578          $312,225               $1,255,836
            Union, Anaheim, CA                    Home Loan                                                       1/6/2011                  ($2)    $4,351,666    Updated portfolio data from servicer
                                                  Modifications
                                                                                                                 3/30/2011                  ($2)    $4,351,664    Updated due to quarterly assessment and reallocation

                                                                                                                 5/13/2011          ($1,800,000)    $2,551,664    Transfer of cap due to servicing transfer

                                                                                                                  6/3/2011          ($1,872,787)      $678,877    Termination of SPA

                                                                                                                 6/14/2012             $990,000     $1,668,877    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 9/27/2012             $372,177     $2,041,054    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013                ($192)    $2,040,862    Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             ($10,000)       $20,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $590,000       $610,000
                                                                                                                                                                  cap
            Citizens First                        Financial
            Wholesale Mortgage                    Instrument for                                                 3/26/2010           ($580,000)        $30,000    Updated portfolio data from servicer
6/26/2009                           Purchase                                   $30,000     N/A                                                                                                                                  $0           $0                 $0                      $0
            Company,                              Home Loan
            The Villages, FL                      Modifications                                                  7/14/2010              $70,000       $100,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010              $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                 2/17/2011           ($145,056)             $0    Termination of SPA

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $2,180,000     $2,250,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010           ($720,000)     $1,530,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010           ($430,000)     $1,100,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010              $60,445     $1,160,445    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($1)    $1,160,444    Updated portfolio data from servicer

                                                                                                                 3/30/2011                  ($1)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                  Financial
            Technology Credit                     Instrument for                                                 6/29/2011                 ($12)    $1,160,431    Updated due to quarterly assessment and reallocation
6/26/2009                           Purchase                                   $70,000     N/A                                                                                                                            $47,000     $180,715           $70,817                 $298,531
            Union, San Jose, CA                   Home Loan
                                                  Modifications                                                  6/28/2012                  ($9)    $1,160,422    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                 ($23)    $1,160,399    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                  ($4)    $1,160,395    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                 ($13)    $1,160,382    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                  ($5)    $1,160,377    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                  ($2)    $1,160,375    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013              ($2,729)    $1,157,646    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                            TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                      Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives    Incentives        Incentives              Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $315,170,000     $610,150,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $90,280,000     $700,430,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010          ($18,690,000)    $681,740,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($272,640,000)    $409,100,000    Updated portfolio data from servicer

                                                                                                                                                                     Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010           $80,600,000     $489,700,000
                                                                                                                                                                     2MP cap

                                                                                                                 9/30/2010           $71,230,004     $560,930,004    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($828)    $560,929,176    Updated portfolio data from servicer

                                                                                                                 2/16/2011              $200,000     $561,129,176    Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011             ($100,000)    $561,029,176    Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($981)    $561,028,195    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011           ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011             ($200,000)    $558,528,195    Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                                 6/16/2011             ($200,000)    $558,328,195    Transfer of cap due to servicing transfer
            National City Bank,                   Instrument for
6/26/2009                          Purchase                               $294,980,000     N/A                                                                                                                                $3,298,139   $9,573,458        $5,551,645            $18,423,242
            Miamisburg, OH                        Home Loan
                                                                                                                 6/29/2011               ($9,197)    $558,318,998    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                10/14/2011              $300,000     $558,618,998    Transfer of cap due to servicing transfer

                                                                                                                11/16/2011             ($300,000)    $558,318,998    Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012              $200,000     $558,518,998    Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012             ($100,000)    $558,418,998    Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012              $200,000     $558,618,998    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012              ($10,000)    $558,608,998    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($6,771)    $558,602,227    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012              ($18,467)    $558,583,760    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012               ($3,105)    $558,580,655    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013              ($11,713)    $558,568,942    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013               ($4,393)    $558,564,549    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013               ($1,565)    $558,562,984    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013           ($2,622,925)    $555,940,059    Updated due to quarterly assessment and reallocation

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $723,880,000    $1,357,890,000
                                                                                                                                                                     cap
                                                  Financial                                                                                                          Updated portfolio data from servicer & HAFA initial
            Wachovia Mortgage,                    Instrument for                                                12/30/2009          $692,640,000    $2,050,530,000
7/1/2009                           Purchase                               $634,010,000     N/A          3                                                            cap                                                             $0      $76,890          $162,000                $238,890
            FSB, Des Moines, IA                   Home Loan
                                                  Modifications                                                  2/17/2010     ($2,050,236,344)          $293,656    Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                 3/12/2010              ($54,767)        $238,890    Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                   449
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                             (CONTINUED)                                                                                                                                                                                               450
           Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                          TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                    Lenders/                                Total TARP
                                   Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s      Investors         Servicers               Incentive
Date       Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments
                                                                                                                                                                 Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009          $23,850,000     $68,110,000
                                                                                                                                                                 cap
                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009          $43,590,000    $111,700,000
                                                                                                                                                                 cap

                                                                                                                3/26/2010          $34,540,000    $146,240,000   Updated portfolio data from servicer

                                                                                                                 5/7/2010           $1,010,000    $147,250,000   Initial 2MP cap

                                                                                                                7/14/2010         ($34,250,000)   $113,000,000   Updated portfolio data from servicer

                                                                                                                9/30/2010             $600,000    $113,600,000   Initial FHA-2LP cap

                                                                                                                9/30/2010         ($15,252,303)    $98,347,697   Updated portfolio data from servicer

                                                                                                                 1/6/2011                 ($70)    $98,347,627   Updated portfolio data from servicer

                                                                                                                3/30/2011                 ($86)    $98,347,541   Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011             $400,000     $98,747,541   Transfer of cap due to servicing transfer

                                                                                                                5/13/2011             $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                6/29/2011                ($771)    $98,846,770   Updated due to quarterly assessment and reallocation

                                                                                                                9/15/2011             $600,000     $99,446,770   Transfer of cap due to servicing transfer

                                                                                                               10/14/2011         ($18,900,000)    $80,546,770   Transfer of cap due to servicing transfer

                                                                                                                1/13/2012             $900,000     $81,446,770   Transfer of cap due to servicing transfer

                                                                                                                2/16/2012           $2,400,000     $83,846,770   Transfer of cap due to servicing transfer

                                                                                                                3/15/2012           ($100,000)     $83,746,770   Transfer of cap due to servicing transfer

                                                 Financial                                                      4/16/2012             $200,000     $83,946,770   Transfer of cap due to servicing transfer
           Bayview Loan
                                                 Instrument for
7/1/2009   Servicing, LLC, Coral   Purchase                               $44,260,000     N/A                                                                                                                           $10,993,776    $20,045,395       $13,897,682            $44,936,854
                                                 Home Loan                                                      5/16/2012              $30,000     $83,976,770   Transfer of cap due to servicing transfer
           Gables, FL
                                                 Modifications
                                                                                                                6/14/2012           $1,810,000     $85,786,770   Transfer of cap due to servicing transfer

                                                                                                                6/28/2012                ($508)    $85,786,262   Updated due to quarterly assessment and reallocation

                                                                                                                7/16/2012           $2,660,000     $88,446,262   Transfer of cap due to servicing transfer

                                                                                                                9/27/2012              ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation

                                                                                                               10/16/2012             $160,000     $88,605,013   Transfer of cap due to servicing transfer

                                                                                                               11/15/2012           $6,970,000     $95,575,013   Transfer of cap due to servicing transfer

                                                                                                               12/14/2012          $13,590,000    $109,165,013   Transfer of cap due to servicing transfer

                                                                                                               12/27/2012                ($298)   $109,164,715   Updated due to quarterly assessment and reallocation

                                                                                                                1/16/2013              $90,000    $109,254,715   Transfer of cap due to servicing transfer

                                                                                                                2/14/2013           $3,250,000    $112,504,715   Transfer of cap due to servicing transfer

                                                                                                                3/14/2013             $830,000    $113,334,715   Transfer of cap due to servicing transfer

                                                                                                                3/25/2013              ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation

                                                                                                                4/16/2013           $1,490,000    $114,823,692   Transfer of cap due to servicing transfer

                                                                                                                5/16/2013             $660,000    $115,483,692   Transfer of cap due to servicing transfer

                                                                                                                6/14/2013           $7,470,000    $122,953,692   Transfer of cap due to servicing transfer

                                                                                                                6/27/2013                ($308)   $122,953,384   Updated due to quarterly assessment and reallocation

                                                                                                                7/16/2013          $21,430,000    $144,383,384   Transfer of cap due to servicing transfer

                                                                                                                9/16/2013          $11,730,000    $156,113,384   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                       TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives              Payments

                                                                                                                 9/27/2013                 ($91)   $156,113,293   Updated due to quarterly assessment and reallocation

                                                                                                                10/15/2013           $5,430,000    $161,543,293   Transfer of cap due to servicing transfer

                                                                                                                11/14/2013          $20,900,000    $182,443,293   Transfer of cap due to servicing transfer

                                                                                                                12/16/2013             $260,000    $182,703,293   Transfer of cap due to servicing transfer

                                                                                                                12/23/2013           ($131,553)    $182,571,740   Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             $150,000       $250,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $130,000       $380,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010              $50,000       $430,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010             ($30,000)      $400,000    Updated portfolio data from servicer
                                                  Financial
            Lake National Bank,                   Instrument for                                                 9/30/2010              $35,167       $435,167    Updated portfolio data from servicer
7/10/2009                          Purchase                                   $100,000     N/A         12                                                                                                                   $3,000       $3,651             $4,000                $10,651
            Mentor, OH                            Home Loan
                                                  Modifications                                                   1/6/2011                  ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                 3/30/2011                  ($1)      $435,165    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                  ($6)      $435,159    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                  ($4)      $435,155    Updated due to quarterly assessment and reallocation

                                                                                                                 8/23/2012           ($424,504)        $10,651    Termination of SPA

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             ($10,000)      $860,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $250,000      $1,110,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010             ($10,000)     $1,100,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010           ($400,000)       $700,000    Updated portfolio data from servicer
            IBM Southeast                         Financial
            Employees’ Federal                    Instrument for                                                 9/30/2010             $170,334       $870,334    Updated portfolio data from servicer
7/10/2009                          Purchase                                   $870,000     N/A         12                                                                                                                   $9,000      $23,589           $16,000                 $48,589
            Credit Union,                         Home Loan
            Delray Beach, FL                      Modifications                                                   1/6/2011                  ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                 3/30/2011                  ($1)      $870,332    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                 ($12)      $870,320    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                  ($9)      $870,311    Updated due to quarterly assessment and reallocation

                                                                                                                 9/14/2012           ($821,722)        $48,589    Termination of SPA

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $18,530,000     $42,010,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $24,510,000     $66,520,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          $18,360,000     $84,880,000   Updated portfolio data from servicer

                                                  Financial                                                      7/14/2010         ($22,580,000)    $62,300,000   Updated portfolio data from servicer
            MorEquity, Inc.,                      Instrument for
7/17/2009                          Purchase                                $23,480,000     N/A         11        9/30/2010          ($8,194,261)    $54,105,739   Updated portfolio data from servicer                   $345,841     $2,305,003        $1,977,321             $4,628,165
            Evansville, IN                        Home Loan
                                                  Modifications
                                                                                                                  1/6/2011                 ($37)    $54,105,702   Updated portfolio data from servicer

                                                                                                                 3/16/2011         ($29,400,000)    $24,705,702   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($34)    $24,705,668   Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Termination of SPA
                                                                                                                 5/26/2011         ($20,077,503)     $4,628,165
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                  (remaining cap equals distribution amount)

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              451
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                            452
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009         ($36,240,000)   $18,230,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $19,280,000    $37,510,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010           $2,470,000    $39,980,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($17,180,000)   $22,800,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010          $35,500,000    $58,300,000    Initial FHA-2LP cap and initial 2MP cap

                                                                                                                 9/30/2010          $23,076,191    $81,376,191    Updated portfolio data from servicer

                                                                                                                  1/6/2011                ($123)   $81,376,068    Updated portfolio data from servicer

                                                                                                                 3/30/2011                ($147)   $81,375,921    Updated due to quarterly assessment and reallocation

                                                  Financial                                                      5/13/2011           ($100,000)    $81,275,921    Transfer of cap due to servicing transfer
            PNC Bank, National
                                                  Instrument for
7/17/2009   Association,           Purchase                                $54,470,000     N/A                                                                                                                           $144,479     $861,816          $464,000               $1,470,295
                                                  Home Loan                                                      6/29/2011              ($1,382)   $81,274,539    Updated due to quarterly assessment and reallocation
            Pittsburgh, PA
                                                  Modifications
                                                                                                                10/14/2011           ($300,000)    $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 6/28/2012              ($1,003)   $80,973,536    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012              ($2,745)   $80,970,791    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                ($460)   $80,970,331    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013              ($1,740)   $80,968,591    Updated due to quarterly assessment and reallocation

                                                                                                                  4/9/2013              $60,000    $81,028,591    Transfer of cap (from RBC bank (USA) ) due to merger

                                                                                                                 6/27/2013                ($656)   $81,027,935    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                ($234)   $81,027,701    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013           ($394,926)    $80,632,775    Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             ($90,000)       $80,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009              $50,000       $130,000
                                                                                                                                                                  cap
                                                  Financial
            Farmers State Bank,                   Instrument for                                                 3/26/2010             $100,000       $230,000    Updated portfolio data from servicer
7/17/2009                          Purchase                                   $170,000     N/A                                                                                                                                  $0           $0                 $0                      $0
            West Salem, OH                        Home Loan
                                                  Modifications                                                  7/14/2010           ($130,000)       $100,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010              $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                 5/20/2011           ($145,056)             $0    Termination of SPA

                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments
                                                                                                                                                                 Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $890,000      $2,300,000
                                                                                                                                                                 cap
                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $1,260,000     $3,560,000
                                                                                                                                                                 cap

                                                                                                                 3/26/2010            ($20,000)    $3,540,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($240,000)     $3,300,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $471,446      $3,771,446    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($3)    $3,771,443    Updated portfolio data from servicer
                                                  Financial
            ShoreBank,                            Instrument for                                                 3/30/2011                 ($4)    $3,771,439    Updated due to quarterly assessment and reallocation
7/17/2009                          Purchase                                 $1,410,000     N/A         12                                                                                                                $49,915     $153,906          $143,165               $346,986
            Chicago, IL                           Home Loan
                                                  Modifications                                                  4/13/2011         ($1,100,000)    $2,671,439    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011                ($38)    $2,671,401    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                ($29)    $2,671,372    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                ($79)    $2,671,293    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                ($13)    $2,671,280    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($50)    $2,671,230    Updated due to quarterly assessment and reallocation

                                                                                                                  4/9/2013         ($2,324,244)      $346,986    Termination of SPA

                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                           453
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                   454
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                        Lenders/                                Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s       Investors         Servicers               Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives      Incentives        Incentives              Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($53,670,000)   $1,218,820,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $250,450,000    $1,469,270,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010          $124,820,000    $1,594,090,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($289,990,000)   $1,304,100,000   Updated portfolio data from servicer

                                                                                                                 9/30/2010            $1,690,508    $1,305,790,508   Updated portfolio data from servicer

                                                                                                                10/15/2010              $300,000    $1,306,090,508   Transfer of cap due to servicing transfer

                                                                                                                11/16/2010             ($100,000)   $1,305,990,508   Transfer of cap due to servicing transfer

                                                                                                                  1/6/2011               ($1,173)   $1,305,989,335   Updated portfolio data from servicer

                                                                                                                 2/16/2011             ($500,000)   $1,305,489,335   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011            $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 6/29/2011              ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation

                                                                                                                 9/15/2011           ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011             ($100,000)   $1,307,475,052   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011           ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012              ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer

            Homeward Residential,                 Financial                                                      6/28/2012               ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
            Inc. (American Home                   Instrument for
7/22/2009                           Purchase                            $1,272,490,000     N/A                                                                                                                              $51,757,482    $133,880,573       $94,835,607          $280,473,662
            Mortgage Servicing,                   Home Loan                                                      7/16/2012             ($470,000)   $1,305,886,674   Transfer of cap due to servicing transfer
            Inc), Coppell, TX                     Modifications
                                                                                                                 8/16/2012              ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012             ($260,000)   $1,305,524,180   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012              ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012              ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012               ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013              ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013               $20,000    $1,305,380,504   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013          ($84,160,000)   $1,221,220,504   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013              ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013         ($621,110,000)    $600,097,683    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013          ($19,120,000)    $580,977,683    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013               ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013          ($14,870,000)    $566,105,736    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013                 ($655)    $566,105,081    Updated due to quarterly assessment and reallocation

                                                                                                                12/16/2013               $20,000     $566,125,081    Transfer of cap due to servicing transfer

                                                                                                                12/23/2013           ($1,110,189)    $565,014,892    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009          $1,780,000     $5,990,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $2,840,000     $8,830,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010          $2,800,000    $11,630,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($5,730,000)    $5,900,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010          $2,658,280     $8,558,280    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($12)    $8,558,268    Updated portfolio data from servicer

                                                   Financial                                                      3/30/2011                ($14)    $8,558,254    Updated due to quarterly assessment and reallocation
            Mortgage Center, LLC,                  Instrument for
7/22/2009                            Purchase                                $4,210,000     N/A                                                                                                                          $151,552     $260,822          $288,088               $700,462
            Southfield, MI                         Home Loan                                                      6/29/2011               ($129)    $8,558,125    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  6/28/2012                ($94)    $8,558,031    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012               ($256)    $8,557,775    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                ($43)    $8,557,732    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($162)    $8,557,570    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($60)    $8,557,510    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($21)    $8,557,489    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($35,751)    $8,521,738    Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009          ($490,000)       $370,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $6,750,000     $7,120,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010         ($6,340,000)      $780,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010          ($180,000)       $600,000    Updated portfolio data from servicer

                                                   Financial                                                      9/30/2010           $125,278        $725,278    Updated portfolio data from servicer
            Mission Federal Credit                 Instrument for
7/22/2009                            Purchase                                  $860,000     N/A                                                                                                                           $67,093     $176,759          $107,026               $350,879
            Union, San Diego, CA                   Home Loan                                                      3/30/2011                 ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  6/29/2011                 ($4)      $725,273    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012                 ($1)      $725,272    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012                 ($1)      $725,271    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013             $47,663       $772,934    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($149)      $772,785    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                            455
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                             456
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                       TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s     Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($1,530,000)    $4,930,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $680,000     $5,610,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010           $2,460,000     $8,070,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($2,470,000)    $5,600,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $2,523,114     $8,123,114    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($2)    $8,123,112    Updated portfolio data from servicer
                                                  Financial
            FIRST BANK,                           Instrument for                                                 3/30/2011                  ($2)    $8,123,110    Updated due to quarterly assessment and reallocation
7/29/2009                           Purchase                                $6,460,000     N/A                                                                                                                           $920,636     $1,945,999        $1,474,486              $4,341,120
            St. Louis, MO                         Home Loan
                                                  Modifications                                                  6/29/2011                 ($15)    $8,123,095    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                  ($3)    $8,123,092    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                  ($5)    $8,123,087    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                  ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 3/25/2013                  ($5)    $8,123,081    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                  ($1)    $8,123,080    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013                ($474)    $8,122,606    Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009             ($60,000)    $1,030,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $1,260,000     $2,290,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010           $2,070,000     $4,360,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($3,960,000)      $400,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010             $180,222       $580,222    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($1)      $580,221    Updated portfolio data from servicer

                                                  Financial                                                      3/30/2011                  ($1)      $580,220    Updated due to quarterly assessment and reallocation
            Purdue Employees
                                                  Instrument for
7/29/2009   Federal Credit Union,   Purchase                                $1,090,000     N/A                                                                                                                              $2,000       $1,988             $3,000                  $6,988
                                                  Home Loan                                                      6/29/2011                  ($8)      $580,212    Updated due to quarterly assessment and reallocation
            West Lafayette, IN
                                                  Modifications
                                                                                                                 6/28/2012                  ($6)      $580,206    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                 ($17)      $580,189    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                  ($3)      $580,186    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                 ($11)      $580,175    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                  ($4)      $580,171    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                  ($1)      $580,170    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013              ($2,474)      $577,696    Updated due to quarterly assessment and reallocation

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009         ($37,700,000)   $47,320,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $26,160,000    $73,480,000
                                                                                                                                                                  cap
                                                  Financial
            Wachovia Bank, N.A.,                  Instrument for                                                 3/26/2010           $9,820,000    $83,300,000    Updated portfolio data from servicer
7/29/2009                           Purchase                               $85,020,000     N/A                                                                                                                                  $0            $0                 $0                      $0
            Charlotte, NC                         Home Loan
                                                  Modifications                                                  7/14/2010         ($46,200,000)   $37,100,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010         ($28,686,775)    $8,413,225    Updated portfolio data from servicer

                                                                                                                 12/3/2010          ($8,413,225)            $0    Termination of SPA

                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                 TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                           Lenders/                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors         Servicers              Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives        Incentives             Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($14,850,000)   $2,684,870,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009         $1,178,180,000   $3,863,050,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010         $1,006,580,000   $4,869,630,000   Updated portfolio data from servicer & 2MP initial cap

                                                                                                                 7/14/2010     ($1,934,230,000)     $2,935,400,000   Updated portfolio data from servicer

                                                                                                                                                                     Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010           $72,400,000    $3,007,800,000
                                                                                                                                                                     RD-HAMP

                                                                                                                 9/30/2010          $215,625,536    $3,223,425,536   Updated portfolio data from servicer

                                                                                                                  1/6/2011               ($3,636)   $3,223,421,900   Updated portfolio data from servicer

                                                                                                                 3/16/2011             ($100,000)   $3,223,321,900   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011               ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011             ($200,000)   $3,223,117,901   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011          $122,700,000    $3,345,817,901   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011              ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011              $600,000    $3,346,383,295   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2011             ($400,000)   $3,345,983,295   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011             ($100,000)   $3,345,883,295   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011              $200,000    $3,346,083,295   Transfer of cap due to servicing transfer

                                                                                                                10/19/2011          $519,211,309    $3,865,294,604   Transfer of cap due to servicing transfer
                                                  Financial
            J.P. Morgan Chase                                                                                   11/16/2011           ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                  Instrument for
7/31/2009   Bank, NA, Lewisville,   Purchase                            $2,699,720,000     N/A                                                                                                                                $282,643,507    $720,848,490     $380,700,464         $1,384,192,460
                                                  Home Loan
            TX                                                                                                   1/13/2012             ($100,000)   $3,862,394,604   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                 2/16/2012             ($100,000)   $3,862,294,604   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012         ($126,080,000)   $3,736,214,604   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012              ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012              ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012           ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012             ($180,000)   $3,727,141,071   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012               ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013              ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013             ($520,000)   $3,726,556,536   Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013              ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013              ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013             ($110,000)   $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                 5/16/2013             ($120,000)   $3,726,222,226   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013              ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       457
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                  458
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                       Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                 6/27/2013               ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013         ($103,240,000)   $3,622,928,448   Transfer of cap due to servicing transfer

                                                                                                                 8/15/2013              ($20,000)   $3,622,908,448   Transfer of cap due to servicing transfer

                                                                                                                 9/16/2013          ($99,960,000)   $3,522,948,448   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013                 ($724)   $3,522,947,724   Updated due to quarterly assessment and reallocation

                                                                                                                10/15/2013          ($77,990,000)   $3,444,957,724   Transfer of cap due to servicing transfer

                                                                                                                11/14/2013          ($15,610,000)   $3,429,347,724   Transfer of cap due to servicing transfer

                                                                                                                12/16/2013              ($50,000)   $3,429,297,724   Transfer of cap due to servicing transfer

                                                                                                                12/23/2013             ($840,396)   $3,428,457,328   Updated due to quarterly assessment and reallocation

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009              ($10,000)    $707,370,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $502,430,000    $1,209,800,000
                                                                                                                                                                     cap
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 3/26/2010         ($134,560,000)   $1,075,240,000   Updated portfolio data from servicer & 2MP initial cap

                                                                                                                 7/14/2010         ($392,140,000)    $683,100,000    Updated portfolio data from servicer

                                                                                                                 7/16/2010             ($630,000)    $682,470,000    Transfer of cap to Saxon Mortgage Services, Inc.

                                                                                                                 9/30/2010           $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                                 9/30/2010           ($8,006,457)    $687,563,543    Updated portfolio data from servicer

                                                  Financial                                                     10/15/2010             ($100,000)    $687,463,543    Transfer of cap due to servicing transfer
            EMC Mortgage
                                                  Instrument for
7/31/2009   Corporation,           Purchase                               $707,380,000     N/A         14                                                                                                                     $7,569,459   $11,592,937       $16,279,383            $35,441,779
                                                  Home Loan                                                     12/15/2010           ($4,400,000)    $683,063,543    Updated portfolio data from servicer
            Lewisville, TX
                                                  Modifications
                                                                                                                  1/6/2011                 ($802)    $683,062,741    Updated portfolio data from servicer

                                                                                                                 2/16/2011             ($900,000)    $682,162,741    Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011           ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($925)    $678,161,816    Updated due to quarterly assessment and reallocation

                                                                                                                 5/13/2011         ($122,900,000)    $555,261,816    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011             ($600,000)    $554,653,088    Transfer of cap due to servicing transfer

                                                                                                                10/19/2011         ($519,211,309)     $35,441,779    Termination of SPA

                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009              $180,000         $600,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             ($350,000)        $250,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010               $20,000         $270,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010              ($70,000)        $200,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010               $90,111         $290,111    Updated portfolio data from servicer

                                                  Financial                                                      6/29/2011                   ($3)        $290,108    Updated due to quarterly assessment and reallocation
            Lake City Bank,                       Instrument for
8/5/2009                           Purchase                                   $420,000     N/A                                                                                                                                   $6,879        $8,114           $19,196                 $34,189
            Warsaw, IN                            Home Loan                                                      6/28/2012                   ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 9/27/2012                   ($7)        $290,099    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                   ($1)        $290,098    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                   ($4)        $290,094    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                   ($2)        $290,092    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                   ($1)        $290,091    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013                 ($979)        $289,112    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                             (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                  Lenders/                                Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                             Borrower’s     Investors         Servicers               Incentive
Date       Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives              Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009              $290,000       $430,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009              $210,000       $640,000
                                                                                                                                                                  cap

                                                                                                                3/26/2010              $170,000       $810,000    Updated portfolio data from servicer

                                                                                                                7/14/2010              ($10,000)      $800,000    Updated portfolio data from servicer
                                                 Financial
           Oakland Municipal
                                                 Instrument for                                                 9/30/2010              ($74,722)      $725,278    Updated portfolio data from servicer
8/5/2009   Credit Union,          Purchase                                   $140,000     N/A         12                                                                                                                        $0       $3,568             $6,500                $10,068
                                                 Home Loan
           Oakland, CA
                                                 Modifications                                                   1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                3/30/2011                   ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011             ($200,000)      $525,276    Transfer of cap due to servicing transfer

                                                                                                                6/29/2011                   ($7)      $525,269    Updated due to quarterly assessment and reallocation

                                                                                                                7/22/2011             ($515,201)       $10,068    Termination of SPA

                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009         ($121,190,000)   $552,810,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009          ($36,290,000)   $516,520,000
                                                                                                                                                                  cap

                                                                                                                3/26/2010          $199,320,000    $715,840,000   Updated portfolio data from servicer

                                                                                                                7/14/2010         ($189,040,000)   $526,800,000   Updated portfolio data from servicer

                                                                                                                9/30/2010           $38,626,728    $565,426,728   Updated portfolio data from servicer

                                                                                                               10/15/2010         ($170,800,000)   $394,626,728   Transfer of cap due to servicing transfer

                                                                                                               12/15/2010          ($22,200,000)   $372,426,728   Updated portfolio data from servicer

                                                                                                                 1/6/2011                 ($549)   $372,426,179   Updated portfolio data from servicer

                                                                                                                2/16/2011             ($900,000)   $371,526,179   Transfer of cap due to servicing transfer

                                                 Financial                                                      3/30/2011                 ($653)   $371,525,526   Updated due to quarterly assessment and reallocation
           HomEq Servicing,                      Instrument for
8/5/2009                          Purchase                               $674,000,000     N/A                                                                                                                                   $0    $3,036,319        $5,272,500             $8,308,819
           North Highlands, CA                   Home Loan                                                      6/29/2011               ($6,168)   $371,519,358   Updated due to quarterly assessment and reallocation
                                                 Modifications
                                                                                                                6/28/2012               ($4,634)   $371,514,724   Updated due to quarterly assessment and reallocation

                                                                                                                8/16/2012             ($430,000)   $371,084,724   Transfer of cap due to servicing transfer

                                                                                                                9/27/2012              ($12,728)   $371,071,996   Updated due to quarterly assessment and reallocation

                                                                                                               12/14/2012              ($20,000)   $371,051,996   Transfer of cap due to servicing transfer

                                                                                                               12/27/2012               ($2,148)   $371,049,848   Updated due to quarterly assessment and reallocation

                                                                                                                3/25/2013               ($8,137)   $371,041,711   Updated due to quarterly assessment and reallocation

                                                                                                                6/27/2013               ($3,071)   $371,038,640   Updated due to quarterly assessment and reallocation

                                                                                                                9/27/2013               ($1,101)   $371,037,539   Updated due to quarterly assessment and reallocation

                                                                                                               11/14/2013              ($10,000)   $371,027,539   Transfer of cap due to servicing transfer

                                                                                                               12/23/2013           ($1,858,220)   $369,169,319   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                              459
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                                  460
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                       Lenders/                                Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          $313,050,000    $1,087,950,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $275,370,000    $1,363,320,000
                                                                                                                                                                     cap

                                                                                                                 3/26/2010          $278,910,000    $1,642,230,000   Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($474,730,000)   $1,167,500,000   Updated portfolio data from servicer

                                                                                                                 8/13/2010             ($700,000)   $1,166,800,000   Transfer of cap to due to servicing transfer

                                                                                                                 9/15/2010           ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer

                                                                                                                 9/30/2010         ($115,017,236)   $1,050,782,764   Updated portfolio data from servicer

                                                                                                                10/15/2010             ($800,000)   $1,049,982,764   Transfer of cap due to servicing transfer

                                                                                                                12/15/2010              $800,000    $1,050,782,764   Updated portfolio data from servicer

                                                                                                                  1/6/2011               ($1,286)   $1,050,781,478   Updated portfolio data from servicer

                                                                                                                 3/16/2011            $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 3/30/2011               ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011           ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011             ($300,000)   $1,055,980,008   Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011             ($700,000)   $1,055,280,008   Transfer of cap due to servicing transfer
                                                  Financial
            Litton Loan Servicing                 Instrument for                                                 6/29/2011              ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
8/12/2009                           Purchase                              $774,900,000     N/A                                                                                                                              $13,441,220    $35,353,126       $27,530,414            $76,324,760
            LP, Houston, TX                       Home Loan
                                                  Modifications                                                  7/14/2011             ($200,000)   $1,055,066,911   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011           ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer

                                                                                                                10/14/2011             ($300,000)   $1,051,866,911   Transfer of cap due to servicing transfer

                                                                                                                11/16/2011             ($500,000)   $1,051,366,911   Transfer of cap due to servicing transfer

                                                                                                                12/15/2011           ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012         ($194,800,000)    $853,966,911    Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012             ($400,000)    $853,566,911    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2012           ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012               ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013              ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013               ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013               ($2,289)    $845,510,653    Updated due to quarterly assessment and reallocation

                                                                                                                12/16/2013              ($60,000)    $845,450,653    Transfer of cap due to servicing transfer

                                                                                                                12/23/2013           ($3,864,503)    $841,586,150    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives              Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009          ($1,200,000)    $5,010,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $30,800,000    $35,810,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          $23,200,000    $59,010,000    Updated portfolio data from servicer

                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 6/16/2010           $2,710,000    $61,720,000
                                                                                                                                                                  servicing transfer

                                                                                                                 7/14/2010         ($18,020,000)   $43,700,000    Updated portfolio data from servicer

                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 7/16/2010           $6,680,000    $50,380,000
                                                                                                                                                                  servicing transfer

                                                                                                                 8/13/2010           $2,600,000    $52,980,000    Transfer of cap to due to servicing transfer

                                                                                                                 9/15/2010           ($100,000)    $52,880,000    Transfer of cap to due to servicing transfer

                                                                                                                 9/30/2010             $200,000    $53,080,000    Initial FHA-HAMP cap and 2MP initial cap

                                                                                                                 9/30/2010          ($1,423,197)   $51,656,803    Updated portfolio data from servicer

                                                                                                                11/16/2010           $1,400,000    $53,056,803    Transfer of cap due to servicing transfer

                                                                                                                12/15/2010           ($100,000)    $52,956,803    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($72)   $52,956,731    Updated portfolio data from servicer

                                                                                                                 1/13/2011           $4,100,000    $57,056,731    Transfer of cap due to servicing transfer

                                                                                                                 2/16/2011           ($100,000)    $56,956,731    Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011           $4,000,000    $60,956,731    Transfer of cap due to servicing transfer

                                                  Financial                                                      3/30/2011                 ($94)   $60,956,637    Updated due to quarterly assessment and reallocation
            PennyMac Loan
                                                  Instrument for
8/12/2009   Services, LLC,         Purchase                                 $6,210,000     N/A                   4/13/2011           ($100,000)    $60,856,637    Transfer of cap due to servicing transfer              $6,197,592   $15,289,031        $7,850,956            $29,337,580
                                                  Home Loan
            Calasbasa, CA
                                                  Modifications
                                                                                                                 5/13/2011           $5,800,000    $66,656,637    Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011             $600,000    $67,256,637    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011                ($812)   $67,255,825    Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011           $2,500,000    $69,755,825    Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011           $2,800,000    $72,555,825    Transfer of cap due to servicing transfer

                                                                                                                10/14/2011             $300,000    $72,855,825    Transfer of cap due to servicing transfer

                                                                                                                11/16/2011             $900,000    $73,755,825    Transfer of cap due to servicing transfer

                                                                                                                12/15/2011             $800,000    $74,555,825    Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012             $200,000    $74,755,825    Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012           $1,900,000    $76,655,825    Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012             $200,000    $76,855,825    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           $1,340,000    $78,195,825    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012                ($340)   $78,195,485    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           $2,930,000    $81,125,485    Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012             $890,000    $82,015,485    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012                ($974)   $82,014,511    Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           $1,800,000    $83,814,511    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                12/14/2012           $3,860,000    $87,674,511    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               461
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                            462
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                       TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives              Payments

                                                                                                                  12/27/2012                ($154)    $87,674,357   Updated due to quarterly assessment and reallocation

                                                                                                                   2/14/2013           $2,980,000     $90,654,357   Transfer of cap due to servicing transfer

                                                                                                                   3/25/2013                ($506)    $90,653,851   Updated due to quarterly assessment and reallocation

                                                                                                                   4/16/2013           $2,160,000     $92,813,851   Transfer of cap due to servicing transfer

                                                                                                                   6/14/2013           $2,440,000     $95,253,851   Transfer of cap due to servicing transfer

                                                                                                                   6/27/2013                ($128)    $95,253,723   Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                  ($7)    $95,253,716   Updated due to quarterly assessment and reallocation

                                                                                                                  10/15/2013           $4,450,000     $99,703,716   Transfer of cap due to servicing transfer

                                                                                                                  12/23/2013          $15,826,215    $115,529,931   Updated due to quarterly assessment and reallocation

                                                                                                                                                                    Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009         ($25,510,000)     $4,220,000
                                                                                                                                                                    cap
                                                                                                                                                                    Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009             $520,000      $4,740,000
                                                                                                                                                                    cap
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                   3/26/2010           $4,330,000      $9,070,000   Updated portfolio data from servicer

                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                   4/19/2010             $230,000      $9,300,000
                                                                                                                                                                    servicing transfer

                                                                                                                   5/19/2010             $850,000     $10,150,000   Initial 2MP cap

                                                                                                                   7/14/2010           ($850,000)      $9,300,000   Updated portfolio data from servicer

                                                                                                                   9/15/2010             $100,000      $9,400,000   Transfer of cap to due to servicing transfer

                                                                                                                   9/30/2010             $100,000      $9,500,000   Initial FHA-HAMP cap

                                                                                                                   9/30/2010          $16,755,064     $26,255,064   Updated portfolio data from servicer

                                                                                                                  10/15/2010             $100,000     $26,355,064   Transfer of cap due to servicing transfer

                                                                                                                  12/15/2010             $100,000     $26,455,064   Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($40)    $26,455,024   Updated portfolio data from servicer

                                                                                                                   1/13/2011             $300,000     $26,755,024   Transfer of cap due to servicing transfer
            Servis One, Inc., dba                   Financial
            BSI Financial Services,                 Instrument for
8/12/2009                             Purchase                               $29,730,000     N/A                   2/16/2011             $100,000     $26,855,024   Transfer of cap due to servicing transfer              $1,009,132   $1,470,960        $1,059,070             $3,539,162
            Inc.,                                   Home Loan
            Titusville, PA                          Modifications
                                                                                                                   3/16/2011           $2,200,000     $29,055,024   Transfer of cap due to servicing transfer

                                                                                                                   3/30/2011                 ($52)    $29,054,972   Updated due to quarterly assessment and reallocation

                                                                                                                   4/13/2011           $1,500,000     $30,554,972   Transfer of cap due to servicing transfer

                                                                                                                   5/13/2011           $1,000,000     $31,554,972   Transfer of cap due to servicing transfer

                                                                                                                   6/16/2011             $100,000     $31,654,972   Transfer of cap due to servicing transfer

                                                                                                                   6/29/2011                ($534)    $31,654,438   Updated due to quarterly assessment and reallocation

                                                                                                                   8/16/2011             $700,000     $32,354,438   Transfer of cap due to servicing transfer

                                                                                                                   9/15/2011           ($600,000)     $31,754,438   Transfer of cap due to servicing transfer

                                                                                                                  10/14/2011           $4,000,000     $35,754,438   Transfer of cap due to servicing transfer

                                                                                                                  11/16/2011             $600,000     $36,354,438   Transfer of cap due to servicing transfer

                                                                                                                  12/15/2011             $200,000     $36,554,438   Transfer of cap due to servicing transfer

                                                                                                                   1/13/2012             $100,000     $36,654,438   Transfer of cap due to servicing transfer

                                                                                                                   2/16/2012           $1,300,000     $37,954,438   Transfer of cap due to servicing transfer

                                                                                                                   3/15/2012           $1,100,000     $39,054,438   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                      (CONTINUED)
       Servicer Modifying Borrowers’ Loans                                                            Adjustment Details                                                                                                     TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                               Lenders/                             Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers            Incentive
Date   Name of Institution    Type           Description        Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives           Payments

                                                                                                         4/16/2012           $800,000     $39,854,438    Transfer of cap due to servicing transfer

                                                                                                         5/16/2012         ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer

                                                                                                         6/14/2012          $1,560,000    $40,334,438    Transfer of cap due to servicing transfer

                                                                                                         6/28/2012               ($465)   $40,333,973    Updated due to quarterly assessment and reallocation

                                                                                                         8/16/2012             $70,000    $40,403,973    Transfer of cap due to servicing transfer

                                                                                                         9/27/2012             ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation

                                                                                                        10/16/2012          $2,100,000    $42,502,701    Transfer of cap due to servicing transfer

                                                                                                        11/15/2012          $1,340,000    $43,842,701    Transfer of cap due to servicing transfer

                                                                                                        12/14/2012          $1,160,000    $45,002,701    Transfer of cap due to servicing transfer

                                                                                                        12/27/2012               ($239)   $45,002,462    Updated due to quarterly assessment and reallocation

                                                                                                         1/16/2013           $210,000     $45,212,462    Transfer of cap due to servicing transfer

                                                                                                         2/14/2013          $1,790,000    $47,002,462    Transfer of cap due to servicing transfer

                                                                                                         3/14/2013          $1,920,000    $48,922,462    Transfer of cap due to servicing transfer

                                                                                                         3/25/2013               ($960)   $48,921,502    Updated due to quarterly assessment and reallocation

                                                                                                         4/16/2013           $410,000     $49,331,502    Transfer of cap due to servicing transfer

                                                                                                         5/16/2013            ($60,000)   $49,271,502    Transfer of cap due to servicing transfer

                                                                                                         6/14/2013          $1,620,000    $50,891,502    Transfer of cap due to servicing transfer

                                                                                                         6/27/2013               ($359)   $50,891,143    Updated due to quarterly assessment and reallocation

                                                                                                         7/16/2013          $2,030,000    $52,921,143    Transfer of cap due to servicing transfer

                                                                                                         8/15/2013             $10,000    $52,931,143    Transfer of cap due to servicing transfer

                                                                                                         9/16/2013          $2,600,000    $55,531,143    Transfer of cap due to servicing transfer

                                                                                                         9/27/2013               ($135)   $55,531,008    Updated due to quarterly assessment and reallocation

                                                                                                        10/15/2013           $270,000     $55,801,008    Transfer of cap due to servicing transfer

                                                                                                        11/14/2013             $30,000    $55,831,008    Transfer of cap due to servicing transfer

                                                                                                        12/16/2013          $9,960,000    $65,791,008    Transfer of cap due to servicing transfer

                                                                                                        12/23/2013          ($239,727)    $65,551,281    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                 463
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                                    464
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                              TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                        Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                                 Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount          Adjusted Cap   Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments

                                                                                                                   10/2/2009          $145,800,000     $814,240,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009         $1,355,930,000   $2,170,170,000
                                                                                                                                                                       cap

                                                                                                                   3/26/2010          $121,180,000    $2,291,350,000   Updated portfolio data from servicer

                                                                                                                   7/14/2010         ($408,850,000)   $1,882,500,000   Updated portfolio data from servicer

                                                                                                                   9/30/2010            $5,500,000    $1,888,000,000   2MP initial cap

                                                                                                                   9/30/2010          ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer

                                                                                                                    1/6/2011               ($2,282)   $1,836,256,555   Updated portfolio data from servicer

                                                                                                                   3/30/2011               ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation

                                                    Financial                                                      6/29/2011              ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
            OneWest Bank,                           Instrument for
8/28/2009                             Purchase                              $668,440,000     N/A                   6/28/2012              ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation   $59,915,158    $200,507,017       $84,625,677           $345,047,853
            Pasadena, CA                            Home Loan
                                                    Modifications
                                                                                                                   9/27/2012              ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation

                                                                                                                  12/27/2012               ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                   3/25/2013              ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013               ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013               ($3,154)   $1,836,129,467   Updated due to quarterly assessment and reallocation

                                                                                                                  10/15/2013             ($500,000)   $1,835,629,467   Transfer of cap due to servicing transfer

                                                                                                                  11/14/2013           ($4,440,000)   $1,831,189,467   Transfer of cap due to servicing transfer

                                                                                                                  12/16/2013         ($277,680,000)   $1,553,509,467   Transfer of cap due to servicing transfer

                                                                                                                  12/23/2013           ($5,188,787)   $1,548,320,680   Updated due to quarterly assessment and reallocation

                                                                                                                   10/2/2009               $70,000         $370,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009            $2,680,000       $3,050,000
                                                                                                                                                                       cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                                 3/26/2010              $350,000       $3,400,000    Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                                       $0              $0                 $0                      $0
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                                  7/14/2010           ($1,900,000)      $1,500,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010           ($1,209,889)        $290,111    Updated portfolio data from servicer

                                                                                                                   3/23/2010             ($290,111)              $0    Termination of SPA

                                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                  10/2/2009           $130,000        $700,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          ($310,000)       $390,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010          $2,110,000     $2,500,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010          $8,300,000    $10,800,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010          $5,301,172    $16,101,172    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($22)   $16,101,150    Updated portfolio data from servicer

                                                                                                                  3/16/2011          ($400,000)    $15,701,150    Transfer of cap due to servicing transfer

                                                                                                                  3/30/2011                ($25)   $15,701,125    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011               ($232)   $15,700,893    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012               ($174)   $15,700,719    Updated due to quarterly assessment and reallocation
                                                   Financial
            RoundPoint Mortgage                                                                                   9/27/2012               ($479)   $15,700,240    Updated due to quarterly assessment and reallocation
                                                   Instrument for
8/28/2009   Servicing Corporation,   Purchase                                  $570,000     N/A                                                                                                                          $248,853     $595,887          $466,520             $1,311,260
                                                   Home Loan
            Charlotte, NC                                                                                        11/15/2012          ($350,000)    $15,350,240    Transfer of cap due to servicing transfer
                                                   Modifications

                                                                                                                 12/27/2012                ($82)   $15,350,158    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($308)   $15,349,850    Updated due to quarterly assessment and reallocation

                                                                                                                  4/16/2013             $80,000    $15,429,850    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013             $20,000    $15,449,850    Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013               ($108)   $15,449,742    Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013             $30,000    $15,479,742    Transfer of cap due to servicing transfer

                                                                                                                  9/16/2013           $640,000     $16,119,742    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                ($40)   $16,119,702    Updated due to quarterly assessment and reallocation

                                                                                                                 12/16/2013           $190,000     $16,309,702    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013            ($67,286)   $16,242,416    Updated due to quarterly assessment and reallocation

                                                                                                                  10/2/2009           $130,000        $690,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $1,040,000     $1,730,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010         ($1,680,000)       $50,000    Updated portfolio data from servicer

                                                                                                                  5/12/2010          $1,260,000     $1,310,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($1,110,000)      $200,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $100,000        $300,000    Initial RD-HAMP

                                                   Financial                                                      9/30/2010             ($9,889)      $290,111    Updated portfolio data from servicer
            Horicon Bank,                          Instrument for
9/2/2009                             Purchase                                  $560,000     N/A                   6/29/2011                 ($3)      $290,108    Updated due to quarterly assessment and reallocation      $7,265     $18,174           $12,170                $37,609
            Horicon, WI                            Home Loan
                                                   Modifications
                                                                                                                  6/28/2012                 ($2)      $290,106    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012                 ($7)      $290,099    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($1)      $290,098    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                 ($4)      $290,094    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                  9/27/2013                 ($1)      $290,091    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($979)      $289,112    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            465
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                         466
              Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                   10/2/2009          $1,310,000     $7,310,000    HPDP initial cap

                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009         ($3,390,000)    $3,920,000
                                                                                                                                                                   cap

                                                                                                                   3/26/2010           $410,000      $4,330,000    Updated portfolio data from servicer

                                                                                                                   7/14/2010          ($730,000)     $3,600,000    Updated portfolio data from servicer

                                                                                                                   9/15/2010          $4,700,000     $8,300,000    Transfer of cap due to servicing transfer

                                                                                                                   9/30/2010           $117,764      $8,417,764    Updated portfolio data from servicer

                                                                                                                  11/16/2010           $800,000      $9,217,764    Transfer of cap due to servicing transfer

                                                                                                                  12/15/2010          $2,700,000    $11,917,764    Updated portfolio data from servicer

                                                                                                                    1/6/2011                ($17)   $11,917,747    Updated portfolio data from servicer

                                                                                                                   1/13/2011           $700,000     $12,617,747    Transfer of cap due to servicing transfer

                                                                                                                   2/16/2011          $1,800,000    $14,417,747    Transfer of cap due to servicing transfer

                                                                                                                   3/30/2011                ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                   4/13/2011           $300,000     $14,717,728    Transfer of cap due to servicing transfer

                                                                                                                   6/29/2011               ($189)   $14,717,539    Updated due to quarterly assessment and reallocation

                                                                                                                   8/16/2011           $300,000     $15,017,539    Transfer of cap due to servicing transfer

              Vantium Capital, Inc.                 Financial                                                      9/15/2011           $100,000     $15,117,539    Transfer of cap due to servicing transfer
9/2/2009 as
              dba Acqura Loan                       Instrument for
amended on                            Purchase                                $6,000,000     N/A         10       10/14/2011           $100,000     $15,217,539    Transfer of cap due to servicing transfer              $240,972     $489,046          $392,136             $1,122,153
              Services,                             Home Loan
8/27/2010
              Plano, TX                             Modifications
                                                                                                                   6/28/2012               ($147)   $15,217,392    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2012            ($10,000)   $15,207,392    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2012               ($413)   $15,206,979    Updated due to quarterly assessment and reallocation

                                                                                                                  11/15/2012            ($40,000)   $15,166,979    Transfer of cap due to servicing transfer

                                                                                                                  12/27/2012                ($71)   $15,166,908    Updated due to quarterly assessment and reallocation

                                                                                                                   2/14/2013          ($770,000)    $14,396,908    Transfer of cap due to servicing transfer

                                                                                                                   3/14/2013            ($20,000)   $14,376,908    Transfer of cap due to servicing transfer

                                                                                                                   3/25/2013               ($256)   $14,376,652    Updated due to quarterly assessment and reallocation

                                                                                                                   4/16/2013          ($620,000)    $13,756,652    Transfer of cap due to servicing transfer

                                                                                                                   5/16/2013             $40,000    $13,796,652    Transfer of cap due to servicing transfer

                                                                                                                   6/14/2013             $10,000    $13,806,652    Transfer of cap due to servicing transfer

                                                                                                                   6/27/2013                ($95)   $13,806,557    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2013          ($290,000)    $13,516,557    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013                ($34)   $13,516,523    Updated due to quarterly assessment and reallocation

                                                                                                                  12/16/2013             $40,000    $13,556,523    Transfer of cap due to servicing transfer

                                                                                                                  12/23/2013            ($57,271)   $13,499,252    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                             (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                          TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                    Lenders/                                Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                              Borrower’s      Investors         Servicers               Incentive
Date       Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                    Incentives     Incentives        Incentives              Payments

                                                                                                                10/2/2009             $280,000      $1,530,000   HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009           ($750,000)       $780,000
                                                                                                                                                                 cap

                                                                                                                3/26/2010             $120,000       $900,000    Updated portfolio data from servicer

                                                                                                                7/14/2010           ($300,000)       $600,000    Updated portfolio data from servicer

                                                                                                                9/30/2010             $270,334       $870,334    Updated portfolio data from servicer

                                                                                                                 1/6/2011                  ($1)      $870,333    Updated portfolio data from servicer

           Central Florida                       Financial                                                      3/30/2011                  ($1)      $870,332    Updated due to quarterly assessment and reallocation
           Educators Federal                     Instrument for
9/9/2009                          Purchase                                 $1,250,000     N/A                   6/29/2011                  ($5)      $870,327    Updated due to quarterly assessment and reallocation     $110,210       $186,561          $226,129                $522,900
           Credit Union,                         Home Loan
           Lake May, FL                          Modifications
                                                                                                                6/28/2012              $21,717       $892,044    Updated due to quarterly assessment and reallocation

                                                                                                                9/27/2012             $190,077      $1,082,121   Updated due to quarterly assessment and reallocation

                                                                                                               12/27/2012              $35,966      $1,118,087   Updated due to quarterly assessment and reallocation

                                                                                                                3/25/2013              $59,464      $1,177,551   Updated due to quarterly assessment and reallocation

                                                                                                                6/27/2013              $35,438      $1,212,989   Updated due to quarterly assessment and reallocation

                                                                                                                9/27/2013              $26,926      $1,239,915   Updated due to quarterly assessment and reallocation

                                                                                                               12/23/2013              $87,045      $1,326,960   Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009          $24,920,000    $139,140,000   HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009          $49,410,000    $188,550,000
                                                                                                                                                                 cap

                                                                                                                3/26/2010          $41,830,000    $230,380,000   Updated portfolio data from servicer

                                                                                                                7/14/2010         ($85,780,000)   $144,600,000   Updated portfolio data from servicer

                                                                                                                9/30/2010          $36,574,444    $181,174,444   Updated portfolio data from servicer

                                                                                                                 1/6/2011                ($160)   $181,174,284   Updated portfolio data from servicer

                                                 Financial                                                      3/30/2011                ($172)   $181,174,112   Updated due to quarterly assessment and reallocation
           U.S. Bank National
                                                 Instrument for
9/9/2009   Association,           Purchase                               $114,220,000     N/A                   6/29/2011              ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation   $12,618,498    $29,986,407       $21,416,045            $64,020,951
                                                 Home Loan
           Owensboro, KY
                                                 Modifications
                                                                                                                6/28/2012                ($746)   $181,171,935   Updated due to quarterly assessment and reallocation

                                                                                                                9/27/2012              ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation

                                                                                                               12/27/2012                ($308)   $181,169,701   Updated due to quarterly assessment and reallocation

                                                                                                                3/25/2013              ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation

                                                                                                                6/27/2013                ($418)   $181,168,148   Updated due to quarterly assessment and reallocation

                                                                                                                9/27/2013                ($139)   $181,168,009   Updated due to quarterly assessment and reallocation

                                                                                                               12/23/2013           ($212,077)    $180,955,932   Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                467
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                          468
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                               Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                 10/2/2009             $950,000     $5,300,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $5,700,000    $11,000,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010             $740,000    $11,740,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($1,440,000)   $10,300,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010          ($6,673,610)    $3,626,390    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($5)    $3,626,385    Updated portfolio data from servicer

                                                  Financial                                                      3/30/2011                  ($6)    $3,626,379    Updated due to quarterly assessment and reallocation
            CUC Mortgage
                                                  Instrument for
9/9/2009    Corporation,           Purchase                                 $4,350,000     N/A                   6/29/2011                 ($52)    $3,626,327    Updated due to quarterly assessment and reallocation    $55,334     $145,782           $97,505               $298,622
                                                  Home Loan
            Albany, NY
                                                  Modifications
                                                                                                                 6/28/2012                 ($38)    $3,626,289    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                ($107)    $3,626,182    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($18)    $3,626,164    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                 ($69)    $3,626,095    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 6/27/2013                 ($26)    $3,626,069    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                  ($9)    $3,626,060    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($15,739)    $3,610,321    Updated due to quarterly assessment and reallocation

                                                                                                                 10/2/2009             $460,000     $2,530,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $2,730,000     $5,260,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          $13,280,000    $18,540,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($13,540,000)    $5,000,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $1,817,613     $6,817,613    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($10)    $6,817,603    Updated portfolio data from servicer

                                                  Financial                                                      3/30/2011                 ($12)    $6,817,591    Updated due to quarterly assessment and reallocation
            ORNL Federal Credit                   Instrument for
9/11/2009                          Purchase                                 $2,070,000     N/A                   6/29/2011                ($115)    $6,817,476    Updated due to quarterly assessment and reallocation    $14,064      $29,764           $39,196                $83,024
            Union, Oak Ridge, TN                  Home Loan
                                                  Modifications
                                                                                                                 6/28/2012                 ($86)    $6,817,390    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                ($236)    $6,817,154    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($40)    $6,817,114    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($149)    $6,816,965    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($56)    $6,816,909    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($20)    $6,816,889    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($33,979)    $6,782,910    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 10/2/2009              $60,000       $310,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             ($80,000)      $230,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010             $280,000       $510,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010           ($410,000)       $100,000    Updated portfolio data from servicer
                                                  Financial
            Allstate Mortgage                                                                                    9/30/2010              $45,056       $145,056    Updated portfolio data from servicer
                                                  Instrument for
9/11/2009   Loans & Investments,    Purchase                                  $250,000     N/A                                                                                                                              $6,742     $10,224             $8,036                 $25,002
                                                  Home Loan
            Inc., Ocala, FL                                                                                      6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                  Modifications

                                                                                                                 6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                  ($2)      $145,052    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                  ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013                ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                 10/2/2009              $70,000       $350,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $620,000       $970,000
                                                                                                                                                                  cap

                                                  Financial                                                      3/26/2010             $100,000     $1,070,000    Updated portfolio data from servicer
            Metropolitan National                 Instrument for
9/11/2009                           Purchase                                  $280,000     N/A                   7/14/2010           ($670,000)       $400,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Bank, Little Rock, AR                 Home Loan
                                                  Modifications
                                                                                                                 9/30/2010              $35,167       $435,167    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                 1/26/2011           ($435,166)             $0    Termination of SPA

                                                                                                                 10/2/2009           $6,010,000    $33,520,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009         ($19,750,000)   $13,770,000
                                                                                                                                                                  cap

                                                                                                                 3/26/2010          ($4,780,000)    $8,990,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($2,390,000)    $6,600,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $2,973,670     $9,573,670    Updated portfolio data from servicer

                                                                                                                  1/6/2011                  ($3)    $9,573,667    Updated portfolio data from servicer

                                                                                                                 2/16/2011          ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer

            Franklin Credit                       Financial                                                      3/30/2011                  ($6)    $7,773,661    Updated due to quarterly assessment and reallocation
            Management                            Instrument for
9/11/2009                           Purchase                               $27,510,000     N/A                   6/29/2011                 ($61)    $7,773,600    Updated due to quarterly assessment and reallocation   $337,638     $646,810          $743,024               $1,727,472
            Corporation,                          Home Loan
            Jersey City, NJ                       Modifications
                                                                                                                10/14/2011           ($100,000)     $7,673,600    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012                 ($58)    $7,673,542    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                ($164)    $7,673,378    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($29)    $7,673,349    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($110)    $7,673,239    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($42)    $7,673,197    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($15)    $7,673,182    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($25,724)    $7,647,458    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                              469
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                           470
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 10/2/2009             $90,000       $500,000    HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009          $1,460,000     $1,960,000
                                                                                                                                                                 cap

                                                                                                                 3/26/2010           $160,000      $2,120,000    Updated portfolio data from servicer

                                                  Financial                                                      7/14/2010          ($120,000)     $2,000,000    Updated portfolio data from servicer
            Bay Federal Credit                    Instrument for
9/16/2009                          Purchase                                   $410,000     N/A                   9/30/2010         ($1,419,778)      $580,222    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Union, Capitola, CA                   Home Loan
                                                  Modifications
                                                                                                                  1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($1)      $580,220    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                 ($8)      $580,212    Updated due to quarterly assessment and reallocation

                                                                                                                 1/25/2012          ($580,212)             $0    Termination of SPA

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                 10/2/2009           $960,000      $5,350,000    HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009         ($3,090,000)    $2,260,000
                                                                                                                                                                 cap

                                                                                                                 3/26/2010           $230,000      $2,490,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          $5,310,000     $7,800,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $323,114      $8,123,114    Updated portfolio data from servicer

                                                                                                                  1/6/2011                ($12)    $8,123,102    Updated portfolio data from servicer

                                                                                                                 3/16/2011           $600,000      $8,723,102    Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                ($16)    $8,723,086    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011           $200,000      $8,923,086    Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011           $100,000      $9,023,086    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($153)    $9,022,933    Updated due to quarterly assessment and reallocation

                                                                                                                 9/15/2011           $100,000      $9,122,933    Transfer of cap due to servicing transfer

                                                                                                                11/16/2011           $100,000      $9,222,933    Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012          $1,100,000    $10,322,933    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           $650,000     $10,972,933    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($136)   $10,972,797    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012               ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                  Financial
            AMS Servicing, LLC,                   Instrument for                                                10/16/2012           $250,000     $11,222,450    Transfer of cap due to servicing transfer
9/23/2009                          Purchase                                 $4,390,000     N/A                                                                                                                           $35,866     $162,145          $100,375               $298,386
            Buffalo, NY                           Home Loan
                                                  Modifications                                                 11/15/2012             $30,000    $11,252,450    Transfer of cap due to servicing transfer

                                                                                                                12/14/2012            ($10,000)   $11,242,450    Transfer of cap due to servicing transfer

                                                                                                                12/27/2012                ($59)   $11,242,391    Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013             $20,000    $11,262,391    Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013           $290,000     $11,552,391    Transfer of cap due to servicing transfer

                                                                                                                 3/14/2013             $10,000    $11,562,391    Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013               ($220)   $11,562,171    Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013            ($60,000)   $11,502,171    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013             $50,000    $11,552,171    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013             $10,000    $11,562,171    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013                ($79)   $11,562,092    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013            ($90,000)   $11,472,092    Transfer of cap due to servicing transfer

                                                                                                                 9/16/2013           $310,000     $11,782,092    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013                ($28)   $11,782,064    Updated due to quarterly assessment and reallocation

                                                                                                                10/15/2013           $230,000     $12,012,064    Transfer of cap due to servicing transfer

                                                                                                                11/14/2013           $120,000     $12,132,064    Transfer of cap due to servicing transfer

                                                                                                                12/16/2013           $460,000     $12,592,064    Transfer of cap due to servicing transfer

                                                                                                                12/23/2013            ($49,413)   $12,542,651    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           471
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                          472
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  10/2/2009           $90,000        $480,000    HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $940,000      $1,420,000
                                                                                                                                                                 cap

                                                                                                                  3/26/2010         ($980,000)       $440,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($140,000)       $300,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010         $1,150,556     $1,450,556    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($2)    $1,450,554    Updated portfolio data from servicer

                                                   Financial                                                      3/30/2011                ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
            Schools Financial
                                                   Instrument for
9/23/2009   Credit Union,            Purchase                                  $390,000     N/A                   6/29/2011               ($22)    $1,450,530    Updated due to quarterly assessment and reallocation    $21,667      $57,009           $35,500                 $114,175
                                                   Home Loan
            Sacramento, CA
                                                   Modifications
                                                                                                                  6/28/2012               ($16)    $1,450,514    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012               ($44)    $1,450,470    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                ($7)    $1,450,463    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($28)    $1,450,435    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  6/27/2013               ($11)    $1,450,424    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($4)    $1,450,420    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($6,411)    $1,444,009    Updated due to quarterly assessment and reallocation

                                                                                                                  10/2/2009           $60,000        $290,000    HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          ($10,000)       $280,000
                                                                                                                                                                 cap

                                                                                                                  3/26/2010          $130,000        $410,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($110,000)       $300,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010            ($9,889)      $290,111    Updated portfolio data from servicer

                                                   Financial                                                      6/29/2011                ($3)      $290,108    Updated due to quarterly assessment and reallocation
            Glass City Federal
                                                   Instrument for
9/23/2009   Credit Union,            Purchase                                  $230,000     N/A                   6/28/2012                ($2)      $290,106    Updated due to quarterly assessment and reallocation      $4,000      $2,474             $6,000                 $12,474
                                                   Home Loan
            Maumee, OH
                                                   Modifications
                                                                                                                  9/27/2012                ($7)      $290,099    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                ($1)      $290,098    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                ($4)      $290,094    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($2)      $290,092    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($1)      $290,091    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($979)       $289,112    Updated due to quarterly assessment and reallocation

                                                                                                                  10/2/2009           $10,000         $40,000    HPDP initial cap

                                                                                                                                                                 Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $120,000        $160,000
                                                                                                                                                                 cap
                                                   Financial
            Central Jersey Federal                                                                                3/26/2010           $10,000        $170,000    Updated portfolio data from servicer
                                                   Instrument for
9/23/2009   Credit Union,            Purchase                                    30,000     N/A                                                                                                                                $0           $0                 $0                      $0
                                                   Home Loan
            Woodbridge, NJ                                                                                        7/14/2010          ($70,000)       $100,000    Updated portfolio data from servicer
                                                   Modifications

                                                                                                                  9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                 10/29/2010         ($145,056)             $0    Termination of SPA

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  10/2/2009             $60,000       $300,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009           $350,000        $650,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010          $1,360,000     $2,010,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($1,810,000)      $200,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $235,167        $435,167    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($1)      $435,166    Updated portfolio data from servicer
                                                   Financial
             Yadkin Valley Bank,                   Instrument for                                                 6/29/2011                 ($4)      $435,162    Updated due to quarterly assessment and reallocation
9/23/2009                           Purchase                                   $240,000     N/A                                                                                                                           $27,607      $29,551           $46,374                 $103,533
             Elkin, NC                             Home Loan
                                                   Modifications                                                  6/28/2012                 ($3)      $435,159    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012                 ($7)      $435,152    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($1)      $435,151    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                 ($5)      $435,146    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($2)      $435,144    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                 ($1)      $435,143    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($1,174)      $433,969    Updated due to quarterly assessment and reallocation

                                                                                                                  10/2/2009           $100,000        $540,000    HPDP initial cap

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009             $20,000       $560,000
                                                                                                                                                                  cap

                                                   Financial                                                      3/26/2010          ($290,000)       $270,000    Updated portfolio data from servicer
                                                   Instrument for
9/25/2009    SEFCU, Albany, NY      Purchase                                   $440,000     N/A                   7/14/2010            ($70,000)      $200,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                   Home Loan
                                                   Modifications
                                                                                                                  9/30/2010            ($54,944)      $145,056    Updated portfolio data from servicer

                                                                                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                                                                                  4/11/2012          ($145,055)             $0    Termination of SPA

                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009          $1,030,000     $1,600,000
                                                                                                                                                                  cap

                                                                                                                  3/26/2010          ($880,000)       $720,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010          ($320,000)       $400,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $180,222        $580,222    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                  3/30/2011                 ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Financial
             Great Lakes Credit                                                                                   6/29/2011                 ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                   Instrument for
10/14/2009   Union, North           Purchase                                   $570,000     N/A                                                                                                                             $9,833     $17,443           $13,100                  $40,376
                                                   Home Loan
             Chicago, IL                                                                                          6/28/2012                 ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                   Modifications

                                                                                                                  9/27/2012                ($17)      $580,189    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($3)      $580,186    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                ($11)      $580,175    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($4)      $580,171    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                 ($1)      $580,170    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($2,438)      $577,732    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              473
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                           474
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009         ($2,900,000)    $1,960,000
                                                                                                                                                                   cap

                                                    Financial                                                      3/26/2010         ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                      Instrument for
10/14/2009                            Purchase                                $4,860,000     N/A                   7/14/2010          ($260,000)       $100,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Corporation, Tulsa, OK                 Home Loan
                                                    Modifications
                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                    3/9/2011          ($145,056)             $0    Termination of SPA

                                                                                                                   1/22/2010             $20,000       $430,000    Updated HPDP cap & HAFA initial cap

                                                                                                                   3/26/2010           $400,000        $830,000    Updated portfolio data from servicer

                                                                                                                   7/14/2010          ($430,000)       $400,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010           $180,222        $580,222    Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                    Financial
             United Bank Mortgage                                                                                  6/29/2011                 ($5)      $580,215    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                    Instrument for
10/21/2009   Corporation,             Purchase                                  $410,000     N/A                                                                                                                           $38,636      $73,810           $58,835                 $171,280
                                                    Home Loan
             Grand Rapids, MI                                                                                      6/28/2012                 ($4)      $580,211    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   9/27/2012                ($11)      $580,200    Updated due to quarterly assessment and reallocation

                                                                                                                  12/27/2012                 ($2)      $580,198    Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013                 ($7)      $580,191    Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                 ($2)      $580,189    Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                 ($1)      $580,188    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($1,471)      $578,717    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments

                                                                                                                  1/22/2010           $4,370,000     $98,030,000   Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010          $23,880,000    $121,910,000   Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($16,610,000)   $105,300,000   Updated portfolio data from servicer

                                                                                                                  9/30/2010           $1,751,033    $107,051,033   Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($77)   $107,050,956   Updated portfolio data from servicer

                                                                                                                  3/16/2011          ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer

                                                                                                                  3/30/2011                 ($88)    $97,150,868   Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011                ($773)    $97,150,095   Updated due to quarterly assessment and reallocation

                                                                                                                  3/15/2012          ($1,400,000)    $95,750,095   Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012                ($277)    $95,749,818   Updated due to quarterly assessment and reallocation
                                                   Financial
             Bank United,                          Instrument for
10/23/2009                           Purchase                               $93,660,000     N/A                   9/27/2012                ($549)    $95,749,269   Updated due to quarterly assessment and reallocation   $7,798,421   $22,594,713       $11,713,614             $42,106,748
             Miami Lakes, FL                       Home Loan
                                                   Modifications
                                                                                                                 12/27/2012                 ($65)    $95,749,204   Updated due to quarterly assessment and reallocation

                                                                                                                  2/14/2013          ($2,670,000)    $93,079,204   Transfer of cap due to servicing transfer

                                                                                                                  3/25/2013                ($142)    $93,079,062   Updated due to quarterly assessment and reallocation

                                                                                                                  5/16/2013           ($610,000)     $92,469,062   Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013                 ($48)    $92,469,014   Updated due to quarterly assessment and reallocation

                                                                                                                  9/16/2013             ($40,000)    $92,429,014   Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                 ($14)    $92,429,000   Updated due to quarterly assessment and reallocation

                                                                                                                 11/14/2013             ($30,000)    $92,399,000   Transfer of cap due to servicing transfer

                                                                                                                 12/16/2013          ($1,190,000)    $91,209,000   Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013             ($14,953)    $91,194,047   Updated due to quarterly assessment and reallocation

                                                                                                                  1/22/2010              $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           ($760,000)        $40,000    Updated portfolio data from servicer

                                                                                                                  5/12/2010           $2,630,000      $2,670,000   Updated portfolio data from servicer

                                                                                                                  7/14/2010           ($770,000)      $1,900,000   Updated portfolio data from servicer

                                                                                                                  9/30/2010             $565,945      $2,465,945   Updated portfolio data from servicer

                                                                                                                   1/6/2011                  ($4)     $2,465,941   Updated portfolio data from servicer

                                                                                                                  3/30/2011                  ($4)     $2,465,937   Updated due to quarterly assessment and reallocation
                                                   Financial
             IC Federal Credit
                                                   Instrument for
10/23/2009   Union,                  Purchase                                  $760,000     N/A                   6/29/2011                 ($40)     $2,465,897   Updated due to quarterly assessment and reallocation     $19,333       $42,241           $34,200                  $95,775
                                                   Home Loan
             Fitchburg, MA
                                                   Modifications
                                                                                                                  6/28/2012                 ($29)     $2,465,868   Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012                 ($80)     $2,465,788   Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($14)     $2,465,774   Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                 ($52)     $2,465,722   Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($19)     $2,465,703   Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                  ($7)     $2,465,696   Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($11,558)     $2,454,138   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                   Financial
             Harleysville National
                                                   Instrument for
10/28/2009   Bank & Trust Company,   Purchase                                $1,070,000     N/A                   4/21/2010          ($1,070,000)            $0    Termination of SPA                                            $0             $0                 $0                      $0
                                                   Home Loan
             Harleysville, PA
                                                   Modifications

                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 475
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                          476
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                   Financial
             Members Mortgage
                                                   Instrument for
10/28/2009   Company, Inc,          Purchase                                   $510,000     N/A                   4/21/2010         ($510,000)             $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                   Home Loan
             Woburn, MA
                                                   Modifications

                                                                                                                  1/22/2010           $10,000         $80,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           $10,000         $90,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010           $10,000        $100,000    Updated portfolio data from servicer
                                                   Financial
                                                                                                                  9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
             DuPage Credit Union,                  Instrument for
10/30/2009                          Purchase                                    $70,000     N/A                                                                                                                            $7,028     $28,981           $12,328                  $48,338
             Naperville, IL                        Home Loan
                                                                                                                  6/29/2011                ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  9/27/2012                ($1)      $145,054    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                ($1)      $145,053    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($145)       $144,908    Updated due to quarterly assessment and reallocation

                                                                                                                  1/22/2010           $40,000        $740,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           $50,000        $790,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  7/14/2010         $1,310,000     $2,100,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $75,834      $2,175,834    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($3)    $2,175,831    Updated portfolio data from servicer

                                                                                                                  3/30/2011                ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  6/29/2011               ($35)    $2,175,792    Updated due to quarterly assessment and reallocation
             Los Alamos National                   Instrument for
11/6/2009                           Purchase                                   $700,000     N/A                                                                                                                          $32,864      $37,233           $51,078                 $121,175
             Bank, Los Alamos, NM                  Home Loan
                                                                                                                  6/28/2012               ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  9/27/2012               ($70)    $2,175,696    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012               ($12)    $2,175,684    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($45)    $2,175,639    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013               ($17)    $2,175,622    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($6)    $2,175,616    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($9,932)    $2,165,684    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers              Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                  1/22/2010           $890,000     $19,850,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010          $3,840,000    $23,690,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($2,890,000)   $20,800,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010          $9,661,676    $30,461,676    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($46)   $30,461,630    Updated portfolio data from servicer

                                                                                                                  1/13/2011          $1,600,000    $32,061,630    Transfer of cap due to servicing transfer

                                                                                                                  2/16/2011          $1,400,000    $33,461,630    Transfer of cap due to servicing transfer

                                                                                                                  3/30/2011                ($58)   $33,461,572    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011           $100,000     $33,561,572    Transfer of cap due to servicing transfer

                                                                                                                  5/13/2011           $100,000     $33,661,572    Transfer of cap due to servicing transfer

                                                                                                                  6/16/2011           $800,000     $34,461,572    Transfer of cap due to servicing transfer

                                                                                                                  6/29/2011               ($559)   $34,461,013    Updated due to quarterly assessment and reallocation

                                                                                                                  7/14/2011           $300,000     $34,761,013    Transfer of cap due to servicing transfer

                                                                                                                  8/16/2011           $200,000     $34,961,013    Transfer of cap due to servicing transfer
                                                   Financial
             Quantum Servicing
                                                   Instrument for
11/18/2009   Corporation, Tampa,    Purchase                                $18,960,000     N/A                   9/15/2011           $100,000     $35,061,013    Transfer of cap due to servicing transfer              $133,393     $332,061          $179,984               $645,439
                                                   Home Loan
             FL
                                                   Modifications
                                                                                                                  1/13/2012           $100,000     $35,161,013    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2012           $330,000     $35,491,013    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012               ($428)   $35,490,585    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012             ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation

                                                                                                                 10/16/2012         ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer

                                                                                                                 11/15/2012          ($980,000)    $32,599,401    Transfer of cap due to servicing transfer

                                                                                                                 12/27/2012               ($187)   $32,599,214    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($707)   $32,598,507    Updated due to quarterly assessment and reallocation

                                                                                                                  4/16/2013          ($240,000)    $32,358,507    Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013               ($268)   $32,358,239    Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013             $10,000    $32,368,239    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                ($96)   $32,368,143    Updated due to quarterly assessment and reallocation

                                                                                                                 11/14/2013            ($20,000)   $32,348,143    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013          ($162,518)    $32,185,625    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                            477
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                           478
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  1/22/2010             $80,000     $1,750,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           $330,000      $2,080,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($1,080,000)    $1,000,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $160,445      $1,160,445    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($1)    $1,160,444    Updated portfolio data from servicer

                                                                                                                  3/30/2011                 ($2)    $1,160,442    Updated due to quarterly assessment and reallocation
                                                   Financial
             Hillsdale County                                                                                     6/29/2011                ($16)    $1,160,426    Updated due to quarterly assessment and reallocation
                                                   Instrument for
11/18/2009   National Bank,         Purchase                                 $1,670,000     N/A                                                                                                                           $29,420      $40,156           $54,400                 $123,976
                                                   Home Loan
             Hillsdale, MI                                                                                        6/28/2012                ($12)    $1,160,414    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  9/27/2012                ($33)    $1,160,381    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($6)    $1,160,375    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                ($21)    $1,160,354    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($8)    $1,160,346    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  9/27/2013                 ($3)    $1,160,343    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($4,797)    $1,155,546    Updated due to quarterly assessment and reallocation

                                                                                                                  3/26/2010            ($10,000)       $10,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010             $90,000       $100,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
                                                   Financial
                                                                                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
             QLending, Inc.,                       Instrument for
11/18/2009                          Purchase                                    $20,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             Coral Gables, FL                      Home Loan
                                                                                                                  6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  1/22/2010             $950,000    $21,310,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010         ($17,880,000)    $3,430,000    Updated portfolio data from servicer

                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                  6/16/2010           $1,030,000     $4,460,000
                                                                                                                                                                   servicing transfer

                                                                                                                  7/14/2010          ($1,160,000)    $3,300,000    Updated portfolio data from servicer

                                                                                                                  8/13/2010             $800,000     $4,100,000    Transfer of cap due to servicing transfer

                                                                                                                  9/30/2010             $200,000     $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP

                                                                                                                  9/30/2010           $1,357,168     $5,657,168    Updated portfolio data from servicer

                                                                                                                   1/6/2011                  ($1)    $5,657,167    Updated portfolio data from servicer

                                                                                                                  3/16/2011           $5,700,000    $11,357,167    Transfer of cap due to servicing transfer

                                                                                                                  3/30/2011                  ($6)   $11,357,161    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011           $7,300,000    $18,657,161    Transfer of cap due to servicing transfer

                                                                                                                  5/13/2011             $300,000    $18,957,161    Transfer of cap due to servicing transfer

                                                                                                                  6/16/2011             $900,000    $19,857,161    Transfer of cap due to servicing transfer

                                                                                                                  6/29/2011                ($154)   $19,857,007    Updated due to quarterly assessment and reallocation

                                                                                                                  7/14/2011             $100,000    $19,957,007    Transfer of cap due to servicing transfer

                                                                                                                  8/16/2011             $300,000    $20,257,007    Transfer of cap due to servicing transfer

                                                                                                                  1/13/2012          ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
                                                   Financial
             Marix Servicing, LLC,                 Instrument for                                                 2/16/2012          ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
11/25/2009                           Purchase                               $20,360,000     N/A                                                                                                                           $352,196     $970,197          $839,633               $2,162,025
             Phoenix, AZ                           Home Loan
                                                   Modifications                                                  4/16/2012          ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2012          ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012                 ($38)    $7,006,969    Updated due to quarterly assessment and reallocation

                                                                                                                  8/16/2012             ($90,000)    $6,916,969    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2012                ($103)    $6,916,866    Updated due to quarterly assessment and reallocation

                                                                                                                 10/16/2012          ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer

                                                                                                                 11/15/2012             $170,000     $6,066,866    Transfer of cap due to servicing transfer

                                                                                                                 12/27/2012                 ($15)    $6,066,851    Updated due to quarterly assessment and reallocation

                                                                                                                  2/14/2013           ($100,000)     $5,966,851    Transfer of cap due to servicing transfer

                                                                                                                  3/14/2013           ($490,000)     $5,476,851    Transfer of cap due to servicing transfer

                                                                                                                  3/25/2013                 ($61)    $5,476,790    Updated due to quarterly assessment and reallocation

                                                                                                                  4/16/2013             ($10,000)    $5,466,790    Transfer of cap due to servicing transfer

                                                                                                                  5/16/2013             ($30,000)    $5,436,790    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013             ($10,000)    $5,426,790    Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013                 ($23)    $5,426,767    Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013             ($20,000)    $5,406,767    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                  ($8)    $5,406,759    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($13,934)    $5,392,825    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                   Financial
             Home Financing
                                                   Instrument for
11/25/2009   Center, Inc, Coral      Purchase                                  $230,000     N/A                   4/21/2010           ($230,000)             $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                   Home Loan
             Gables, FL
                                                   Modifications

                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               479
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                  (CONTINUED)                                                                                                                                                                                            480
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                     1/22/2010              $50,000     $1,330,000    Updated HPDP cap & HAFA initial cap

                                                                                                                     3/26/2010           $1,020,000     $2,350,000    Updated portfolio data from servicer

                                                                                                                     7/14/2010           ($950,000)     $1,400,000    Updated portfolio data from servicer

                                                                                                                     9/30/2010              $50,556     $1,450,556    Updated portfolio data from servicer
                                                      Financial
             First Keystone Bank,                     Instrument for
11/25/2009                              Purchase                                $1,280,000     N/A         12         1/6/2011                  ($2)    $1,450,554    Updated portfolio data from servicer                      $2,776      $3,423             $8,718                 $14,917
             Media, PA                                Home Loan
                                                      Modifications
                                                                                                                     3/30/2011                  ($2)    $1,450,552    Updated due to quarterly assessment and reallocation

                                                                                                                     6/16/2011           ($100,000)     $1,350,552    Transfer of cap due to servicing transfer

                                                                                                                     6/29/2011                 ($21)    $1,350,531    Updated due to quarterly assessment and reallocation

                                                                                                                     7/22/2011          ($1,335,614)       $14,917    Termination of SPA

                                                                                                                     1/22/2010              $10,000       $390,000    Updated HPDP cap & HAFA initial cap

                                                                                                                     3/26/2010             $520,000       $910,000    Updated portfolio data from servicer

                                                                                                                     7/14/2010           ($810,000)       $100,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                     9/30/2010              $45,056       $145,056    Updated portfolio data from servicer
                                                      Financial
             Community Bank &
                                                      Instrument for
12/4/2009    Trust Company,             Purchase                                  $380,000     N/A                   6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                      Home Loan
             Clarks Summit, PA
                                                      Modifications
                                                                                                                     6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2012                  ($2)      $145,052    Updated due to quarterly assessment and reallocation

                                                                                                                     3/25/2013                  ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                    12/23/2013                ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                     1/22/2010             $440,000     $9,870,000    Updated HPDP cap & HAFA initial cap

                                                                                                                     3/26/2010          $14,480,000    $24,350,000    Updated portfolio data from servicer

                                                                                                                     5/26/2010         ($24,200,000)      $150,000    Updated portfolio data from servicer

                                                                                                                     7/14/2010             $150,000       $300,000    Updated portfolio data from servicer

                                                                                                                     9/30/2010              ($9,889)      $290,111    Updated portfolio data from servicer
                                                      Financial
             Idaho Housing and                                                                                       6/29/2011                  ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                      Instrument for
12/4/2009    Finance Association,       Purchase                                $9,430,000     N/A                                                                                                                            $22,495      $24,681           $30,025                  $77,201
                                                      Home Loan
             Boise, ID                                                                                               6/28/2012                  ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                     9/27/2012                  ($6)      $290,100    Updated due to quarterly assessment and reallocation

                                                                                                                    12/27/2012                  ($1)      $290,099    Updated due to quarterly assessment and reallocation

                                                                                                                     3/25/2013                  ($3)      $290,096    Updated due to quarterly assessment and reallocation

                                                                                                                     6/27/2013                  ($1)      $290,095    Updated due to quarterly assessment and reallocation

                                                                                                                    12/23/2013                ($747)      $289,348    Updated due to quarterly assessment and reallocation

                                                                                                                     1/22/2010              $10,000       $370,000    Updated HPDP cap & HAFA initial cap

                                                                                                                     3/26/2010             $850,000     $1,220,000    Updated portfolio data from servicer

                                                                                                                     7/14/2010           ($120,000)     $1,100,000    Updated portfolio data from servicer
                                                      Financial
             Spirit of Alaska Federal
                                                      Instrument for
12/9/2009    Credit Union,              Purchase                                  $360,000     N/A                   9/30/2010             $100,000     $1,200,000    Initial FHA-HAMP cap                                          $0           $0                 $0                      $0
                                                      Home Loan
             Fairbanks, AK
                                                      Modifications
                                                                                                                     9/30/2010             $105,500     $1,305,500    Updated portfolio data from servicer

                                                                                                                      1/6/2011                  ($2)    $1,305,498    Updated portfolio data from servicer

                                                                                                                     2/17/2011          ($1,305,498)            $0    Termination of SPA

                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 1/22/2010             $70,000     $1,660,000    Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010          ($290,000)     $1,370,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010          ($570,000)       $800,000    Updated portfolio data from servicer
                                                  Financial
            American Eagle                                                                                       9/30/2010             $70,334       $870,334    Updated portfolio data from servicer
                                                  Instrument for
12/9/2009   Federal Credit Union,   Purchase                                $1,590,000     N/A                                                                                                                                 $0           $0                 $0                      $0
                                                  Home Loan
            East Hartford, CT                                                                                     1/6/2011                 ($1)      $870,333    Updated portfolio data from servicer
                                                  Modifications
                                                                                                                 3/30/2011                 ($1)      $870,332    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                ($13)      $870,319    Updated due to quarterly assessment and reallocation

                                                                                                                 1/25/2012          ($870,319)             $0    Termination of SPA

                                                                                                                 1/22/2010             $90,000     $1,970,000    Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010          $1,110,000     $3,080,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($1,180,000)    $1,900,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010           $275,834      $2,175,834    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($2)    $2,175,832    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($3)    $2,175,829    Updated due to quarterly assessment and reallocation
                                                  Financial
            Silver State Schools
                                                  Instrument for
12/9/2009   Credit Union,           Purchase                                $1,880,000     N/A         12        6/29/2011                ($26)    $2,175,803    Updated due to quarterly assessment and reallocation    $40,356     $176,299           $69,189                 $285,844
                                                  Home Loan
            Las Vegas, NV
                                                  Modifications
                                                                                                                 6/28/2012                ($21)    $2,175,782    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012                ($57)    $2,175,725    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                ($10)    $2,175,715    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($37)    $2,175,678    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                ($15)    $2,175,663    Updated due to quarterly assessment and reallocation

                                                                                                                  7/9/2013         ($1,889,819)      $285,844    Termination of SPA

                                                                                                                 1/22/2010           $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010          $6,300,000     $9,380,000    Updated portfolio data from servicer

                                                                                                                 7/14/2010         ($1,980,000)    $7,400,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010         ($6,384,611)    $1,015,389    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($1)    $1,015,388    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
                                                  Financial
            Fidelity Homestead                                                                                   6/29/2011                ($16)    $1,015,370    Updated due to quarterly assessment and reallocation
                                                  Instrument for
12/9/2009   Savings Bank,           Purchase                                $2,940,000     N/A                                                                                                                                 $0           $0            $5,600                  $5,600
                                                  Home Loan
            New Orleans, LA                                                                                      6/28/2012                ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 9/27/2012                ($32)    $1,015,326    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($5)    $1,015,321    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($21)    $1,015,300    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($8)    $1,015,292    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($3)    $1,015,289    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($4,716)    $1,010,573    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                             481
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                           482
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  1/22/2010             $10,000       $240,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           $440,000        $680,000    Updated portfolio data from servicer
                                                   Financial
            Bay Gulf Credit Union,                 Instrument for
12/9/2009                            Purchase                                  $230,000     N/A                   7/14/2010            ($80,000)      $600,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Tampa, FL                              Home Loan
                                                   Modifications
                                                                                                                  9/30/2010            ($19,778)      $580,222    Updated portfolio data from servicer

                                                                                                                 10/15/2010          ($580,222)             $0    Termination of SPA

                                                                                                                  1/22/2010           $290,000      $6,450,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010             $40,000     $6,490,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($2,890,000)    $3,600,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $606,612      $4,206,612    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($4)    $4,206,608    Updated portfolio data from servicer

                                                                                                                  3/30/2011                 ($4)    $4,206,604    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  6/29/2011                ($35)    $4,206,569    Updated due to quarterly assessment and reallocation
            The Golden 1 Credit                    Instrument for
12/9/2009                            Purchase                                $6,160,000     N/A                                                                                                                          $298,789     $941,517          $538,015               $1,778,321
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




            Union, Sacramento, CA                  Home Loan
                                                                                                                  6/28/2012                 ($9)    $4,206,560    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  9/27/2012                ($14)    $4,206,546    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                 ($2)    $4,206,544    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                 ($8)    $4,206,536    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                 ($4)    $4,206,532    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                 ($1)    $4,206,531    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013             ($2,412)    $4,204,119    Updated due to quarterly assessment and reallocation

                                                                                                                  1/22/2010           $100,000      $2,350,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010          ($740,000)     $1,610,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010          ($710,000)       $900,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010           $550,556      $1,450,556    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($1)    $1,450,555    Updated portfolio data from servicer

                                                                                                                  3/30/2011                 ($1)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                   Financial
            Sterling Savings Bank,                 Instrument for
12/9/2009                            Purchase                                $2,250,000     N/A                   6/29/2011                ($11)    $1,450,543    Updated due to quarterly assessment and reallocation   $169,528     $374,605          $286,928                 $831,061
            Spokane, WA                            Home Loan
                                                   Modifications
                                                                                                                  9/27/2012             $30,907     $1,481,450    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012             $58,688     $1,540,138    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013           $235,175      $1,775,313    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013             $84,191     $1,859,504    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013             $13,786     $1,873,290    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013                ($35)    $1,873,255    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                   1/22/2010             $20,000       $330,000    Updated HPDP cap & HAFA initial cap

                                                                                                                   3/26/2010           $820,000      $1,150,000    Updated portfolio data from servicer

                                                                                                                   7/14/2010          ($350,000)       $800,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010             $70,334       $870,334    Updated portfolio data from servicer
                                                    Financial
             HomeStar Bank &
                                                    Instrument for
12/11/2009   Financial Services,      Purchase                                  $310,000     N/A         12         1/6/2011                 ($1)      $870,333    Updated portfolio data from servicer                      $1,917      $5,573             $5,833                 $13,323
                                                    Home Loan
             Manteno, IL
                                                    Modifications
                                                                                                                   3/30/2011                 ($1)      $870,332    Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011                ($13)      $870,319    Updated due to quarterly assessment and reallocation

                                                                                                                   6/28/2012                ($10)      $870,309    Updated due to quarterly assessment and reallocation

                                                                                                                    7/6/2012          ($856,986)        $13,323    Termination of SPA

                                                                                                                   1/22/2010             $20,000       $390,000    Updated HPDP cap & HAFA initial cap
                                                    Financial
             Glenview State Bank,                   Instrument for
12/11/2009                            Purchase                                  $370,000     N/A                   3/26/2010          $1,250,000     $1,640,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Glenview, IL                           Home Loan
                                                    Modifications
                                                                                                                   5/26/2010         ($1,640,000)            $0    Termination of SPA

                                                                                                                   1/22/2010             $30,000       $630,000    Updated HPDP cap & HAFA initial cap

                                                                                                                   3/26/2010           $400,000      $1,030,000    Updated portfolio data from servicer
                                                    Financial
                                                                                                                   7/14/2010          ($330,000)       $700,000    Updated portfolio data from servicer
             Verity Credit Union,                   Instrument for
12/11/2009                            Purchase                                  $600,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             Seattle, WA                            Home Loan
                                                                                                                   9/30/2010             $25,278       $725,278    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                    1/6/2011                 ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                   2/17/2011          ($725,277)             $0    Termination of SPA

                                                                                                                   1/22/2010             $30,000       $660,000    Updated HPDP cap & HAFA initial cap

                                                                                                                   3/26/2010           $800,000      $1,460,000    Updated portfolio data from servicer

                                                                                                                   7/14/2010          ($360,000)     $1,100,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010             $60,445     $1,160,445    Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($2)    $1,160,443    Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                    Financial
                                                                                                                   6/29/2011                ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
             Hartford Savings Bank,                 Instrument for
12/11/2009                            Purchase                                  $630,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             Hartford, WI                           Home Loan
                                                                                                                   6/28/2012                ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   9/27/2012                ($37)    $1,160,372    Updated due to quarterly assessment and reallocation

                                                                                                                  12/27/2012                 ($6)    $1,160,366    Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013                ($24)    $1,160,342    Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                 ($9)    $1,160,333    Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                 ($3)    $1,160,330    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation

                                                    Financial                                                      4/21/2010          ($150,000)             $0    Termination of SPA
             The Bryn Mawr Trust
                                                    Instrument for
12/11/2009   Co., Bryn Mawr, PA       Purchase                                  $150,000     N/A          9                                                                                                                $10,197      $13,683             $8,436                 $32,316
                                                    Home Loan
                                                                                                                   6/16/2011           $100,000        $100,000    Transfer of cap due to servicing transfer
                                                    Modifications

                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                               483
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                 (CONTINUED)                                                                                                                                                                                           484
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                    1/22/2010             $30,000       $650,000    Updated HPDP cap & HAFA initial cap

                                                                                                                    3/26/2010          ($580,000)        $70,000    Updated portfolio data from servicer

                                                                                                                    7/14/2010          $1,430,000     $1,500,000    Updated portfolio data from servicer

                                                                                                                    9/30/2010             $95,612     $1,595,612    Updated portfolio data from servicer

                                                                                                                     1/6/2011                 ($2)    $1,595,610    Updated portfolio data from servicer

                                                                                                                    3/30/2011                 ($3)    $1,595,607    Updated due to quarterly assessment and reallocation
                                                     Financial
                                                                                                                    6/29/2011                ($24)    $1,595,583    Updated due to quarterly assessment and reallocation
             Citizens First National                 Instrument for
12/16/2009                             Purchase                                  $620,000     N/A                                                                                                                           $23,063      $61,043           $42,730                 $126,836
             Bank, Spring Valley, IL                 Home Loan
                                                                                                                    6/28/2012                ($16)    $1,595,567    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                    9/27/2012                ($45)    $1,595,522    Updated due to quarterly assessment and reallocation

                                                                                                                   12/27/2012                 ($8)    $1,595,514    Updated due to quarterly assessment and reallocation

                                                                                                                    3/25/2013                ($30)    $1,595,484    Updated due to quarterly assessment and reallocation

                                                                                                                    6/27/2013                ($11)    $1,595,473    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                    9/27/2013                 ($4)    $1,595,469    Updated due to quarterly assessment and reallocation

                                                                                                                   12/23/2013             ($6,733)    $1,588,736    Updated due to quarterly assessment and reallocation

                                                                                                                    1/22/2010             $10,000       $180,000    Updated HPDP cap & HAFA initial cap

                                                                                                                    3/26/2010             $30,000       $210,000    Updated portfolio data from servicer
                                                     Financial
             Golden Plains Credit                    Instrument for
12/16/2009                             Purchase                                  $170,000     N/A                   7/14/2010            ($10,000)      $200,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Union, Garden City, KS                  Home Loan
                                                     Modifications
                                                                                                                    9/30/2010             $90,111       $290,111    Updated portfolio data from servicer

                                                                                                                    2/17/2011          ($290,111)             $0    Termination of SPA

             First Federal Savings                   Financial                                                      1/22/2010           $160,000      $3,620,000    Updated HPDP cap & HAFA initial cap
             and Loan Association                    Instrument for
12/16/2009                             Purchase                                $3,460,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             of Lakewood,                            Home Loan
                                                                                                                    4/21/2010         ($3,620,000)            $0    Termination of SPA
             Lakewood, OH                            Modifications

                                                                                                                    1/22/2010             $20,000       $460,000    Updated HPDP cap & HAFA initial cap
                                                     Financial
                                                                                                                    3/26/2010          $1,430,000     $1,890,000    Updated portfolio data from servicer
             Sound Community                         Instrument for
12/16/2009                             Purchase                                  $440,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             Bank, Seattle, WA                       Home Loan
                                                                                                                    7/14/2010          ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                     9/8/2010         ($1,500,000)            $0    Termination of SPA

                                                                                                                    1/22/2010             $30,000       $730,000    Updated HPDP cap & HAFA initial cap

                                                                                                                    3/26/2010          $1,740,000     $2,470,000    Updated portfolio data from servicer

                                                                                                                    7/14/2010         ($1,870,000)      $600,000    Updated portfolio data from servicer

                                                                                                                    9/30/2010           $850,556      $1,450,556    Updated portfolio data from servicer
                                                     Financial
             Horizon Bank, NA,                       Instrument for
12/16/2009                             Purchase                                  $700,000     N/A                    1/6/2011                 ($2)    $1,450,554    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Michigan City, IN                       Home Loan
                                                     Modifications
                                                                                                                    3/30/2011                 ($2)    $1,450,552    Updated due to quarterly assessment and reallocation

                                                                                                                    6/29/2011                ($23)    $1,450,529    Updated due to quarterly assessment and reallocation

                                                                                                                    6/28/2012                ($17)    $1,450,512    Updated due to quarterly assessment and reallocation

                                                                                                                    9/21/2012         ($1,450,512)            $0    Termination of SPA

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  1/22/2010             $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010           $140,000        $940,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010          ($140,000)       $800,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010             $70,334       $870,334    Updated portfolio data from servicer
                                                   Financial
             Park View Federal
                                                   Instrument for
12/16/2009   Savings Bank,           Purchase                                  $760,000     N/A         12         1/6/2011                 ($1)      $870,333    Updated portfolio data from servicer                    $11,000      $23,937           $19,000                  $53,937
                                                   Home Loan
             Solon, OH
                                                   Modifications
                                                                                                                  3/30/2011                 ($1)      $870,332    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011                ($12)      $870,320    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012                ($10)      $870,310    Updated due to quarterly assessment and reallocation

                                                                                                                  9/14/2012          ($816,373)        $53,937    Termination of SPA

                                                                                                                  1/22/2010           $200,000      $4,430,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010         ($1,470,000)    $2,960,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                   Financial
                                                                                                                  9/30/2010          $5,852,780     $7,252,780    Updated portfolio data from servicer
             Iberiabank,                           Instrument for
12/23/2009                           Purchase                                $4,230,000     N/A         12                                                                                                                      $0     $10,502           $15,000                  $25,502
             Sarasota, FL                          Home Loan
                                                                                                                   1/6/2011                ($11)    $7,252,769    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                  3/30/2011                ($13)    $7,252,756    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011          ($300,000)     $6,952,756    Transfer of cap due to servicing transfer

                                                                                                                   6/3/2011         ($6,927,254)       $25,502    Termination of SPA

                                                                                                                  1/22/2010             $20,000       $360,000    Updated HPDP cap & HAFA initial cap

                                                                                                                  3/26/2010          ($320,000)        $40,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010           $760,000        $800,000    Updated portfolio data from servicer
                                                   Financial
             Grafton Suburban                                                                                     9/30/2010            ($74,722)      $725,278    Updated portfolio data from servicer
                                                   Instrument for
12/23/2009   Credit Union,           Purchase                                  $340,000     N/A                                                                                                                                 $0           $0                 $0                      $0
                                                   Home Loan
             North Grafton, MA                                                                                     1/6/2011                 ($1)      $725,277    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                  3/30/2011                 ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011                ($11)      $725,265    Updated due to quarterly assessment and reallocation

                                                                                                                  1/25/2012          ($725,265)             $0    Termination of SPA

                                                                                                                  3/26/2010             $90,000       $150,000    Updated portfolio data from servicer
                                                   Financial
             Eaton National Bank &                                                                                7/14/2010             $50,000       $200,000    Updated portfolio data from servicer
                                                   Instrument for
12/23/2009   Trust Company,          Purchase                                   $60,000     N/A                                                                                                                                 $0           $0                 $0                      $0
                                                   Home Loan
             Eaton, OH                                                                                            9/30/2010            ($54,944)      $145,056    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                  5/20/2011          ($145,056)             $0    Termination of SPA

                                                                                                                  3/26/2010            ($20,000)       $90,000    Updated portfolio data from servicer
                                                   Financial
                                                                                                                  7/14/2010             $10,000       $100,000    Updated portfolio data from servicer
             Tempe Schools Credit                  Instrument for
12/23/2009                           Purchase                                  $110,000     N/A                                                                                                                                 $0           $0                 $0                      $0
             Union, Tempe, AZ                      Home Loan
                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                  12/8/2010          ($145,056)             $0    Termination of SPA

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                              485
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                          486
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  3/26/2010          $480,000        $740,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010         ($140,000)       $600,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer
                                                   Financial
            Fresno County Federal                                                                                  1/6/2011                ($1)      $580,221    Updated portfolio data from servicer
                                                   Instrument for
1/13/2010   Credit Union,            Purchase                                  $260,000     N/A         12                                                                                                                 $3,833     $13,204             $7,917                 $24,954
                                                   Home Loan
            Fresno, CA                                                                                            3/30/2011                ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  6/29/2011                ($8)      $580,212    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012                ($6)      $580,206    Updated due to quarterly assessment and reallocation

                                                                                                                   7/6/2012         ($555,252)        $24,954    Termination of SPA

                                                                                                                  3/26/2010          $610,000        $850,000    Updated portfolio data from servicer

                                                                                                                  7/14/2010           $50,000        $900,000    Updated portfolio data from servicer
                                                   Financial
            Roebling Bank,                         Instrument for
1/13/2010                            Purchase                                  $240,000     N/A                   9/30/2010          ($29,666)       $870,334    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Roebling, NJ                           Home Loan
                                                   Modifications
                                                                                                                   1/6/2011                ($1)      $870,333    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  3/23/2011         ($870,333)             $0    Termination of SPA

                                                                                                                  3/26/2010          $150,000        $290,000    Updated portfolio data from servicer
                                                   Financial
            First National Bank of                                                                                7/14/2010           $10,000        $300,000    Updated portfolio data from servicer
                                                   Instrument for
1/13/2010   Grant Park,              Purchase                                  $140,000     N/A                                                                                                                                $0           $0                 $0                      $0
                                                   Home Loan
            Grant Park, IL                                                                                        9/30/2010            ($9,889)      $290,111    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                  1/26/2011         ($290,111)             $0    Termination of SPA

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s      Investors         Servicers               Incentive
Date        Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives              Payments

                                                                                                                 3/26/2010         ($51,240,000)    $12,910,000   Updated portfolio data from servicer

                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 5/14/2010           $3,000,000     $15,910,000
                                                                                                                                                                  servicing transfer
                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 6/16/2010           $4,860,000     $20,770,000
                                                                                                                                                                  servicing transfer

                                                                                                                 7/14/2010           $3,630,000     $24,400,000   Updated portfolio data from servicer

                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 7/16/2010             $330,000     $24,730,000
                                                                                                                                                                  servicing transfer

                                                                                                                 8/13/2010             $700,000     $25,430,000   Transfer of cap due to servicing transfer

                                                                                                                 9/15/2010             $200,000     $25,630,000   Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010          ($1,695,826)    $23,934,174   Updated portfolio data from servicer

                                                                                                                11/16/2010             $200,000     $24,134,174   Transfer of cap due to servicing transfer

                                                                                                                  1/6/2011                 ($32)    $24,134,142   Updated portfolio data from servicer

                                                                                                                 1/13/2011           $1,500,000     $25,634,142   Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011           $7,100,000     $32,734,142   Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011                 ($36)    $32,734,106   Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011           $1,000,000     $33,734,106   Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011             $100,000     $33,834,106   Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011             $300,000     $34,134,106   Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011                ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                  Financial
            Specialized Loan                                                                                     8/16/2011             $100,000     $34,233,774   Transfer of cap due to servicing transfer
                                                  Instrument for
1/13/2010   Servicing, LLC,        Purchase                                $64,150,000     N/A                                                                                                                           $6,440,053   $10,289,253        $9,660,005            $26,389,311
                                                  Home Loan
            Highlands Ranch, CO                                                                                  9/15/2011             $300,000     $34,533,774   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                10/14/2011             $300,000     $34,833,774   Transfer of cap due to servicing transfer

                                                                                                                12/15/2011          ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012           $1,600,000     $34,733,774   Transfer of cap due to servicing transfer

                                                                                                                 2/16/2012             $100,000     $34,833,774   Transfer of cap due to servicing transfer

                                                                                                                 3/15/2012             $100,000     $34,933,774   Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012          $77,600,000    $112,533,774   Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012              $40,000    $112,573,774   Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012           ($350,000)    $112,223,774   Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012              ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           $4,430,000    $116,652,716   Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012          ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012              ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           $5,600,000    $120,969,655   Transfer of cap due to servicing transfer

                                                                                                                11/15/2012             $880,000    $121,849,655   Transfer of cap due to servicing transfer

                                                                                                                12/14/2012          $24,180,000    $146,029,655   Transfer of cap due to servicing transfer

                                                                                                                12/27/2012                ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                 1/16/2013           $2,410,000    $148,438,992   Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013           $6,650,000    $155,088,992   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               487
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                            488
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  3/14/2013          ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer

                                                                                                                  3/25/2013              ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation

                                                                                                                  4/16/2013           ($750,000)    $152,886,408   Transfer of cap due to servicing transfer

                                                                                                                  5/16/2013          ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013           $3,670,000    $155,306,408   Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013                ($985)   $155,305,423   Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013          ($3,720,000)   $151,585,423   Transfer of cap due to servicing transfer

                                                                                                                  9/16/2013           ($180,000)    $151,405,423   Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                ($346)   $151,405,077   Updated due to quarterly assessment and reallocation

                                                                                                                 10/15/2013             $860,000    $152,265,077   Transfer of cap due to servicing transfer

                                                                                                                 11/14/2013           ($410,000)    $151,855,077   Transfer of cap due to servicing transfer

                                                                                                                 12/16/2013         ($10,160,000)   $141,695,077   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 12/23/2013           ($381,129)    $141,313,948   Updated due to quarterly assessment and reallocation

                                                                                                                  3/26/2010           $8,680,000      $9,450,000   Updated portfolio data from servicer

                                                                                                                  7/14/2010          ($8,750,000)      $700,000    Updated portfolio data from servicer

                                                                                                                  9/30/2010             $170,334       $870,334    Updated portfolio data from servicer

                                                                                                                   1/6/2011                  ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                  3/30/2011                  ($1)      $870,332    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011                  ($8)      $870,324    Updated due to quarterly assessment and reallocation
                                                   Financial
            Greater Nevada
                                                   Instrument for
1/13/2010   Mortgage Services,       Purchase                                  $770,000     N/A                   6/28/2012                  ($4)      $870,320    Updated due to quarterly assessment and reallocation    $63,684     $149,831           $96,824                 $310,339
                                                   Home Loan
            Carson City, NV
                                                   Modifications
                                                                                                                  9/27/2012                 ($10)      $870,310    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                  ($2)      $870,308    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                  ($7)      $870,301    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                  ($2)      $870,299    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                  ($1)      $870,298    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013              ($1,504)      $868,794    Updated due to quarterly assessment and reallocation

                                                   Financial                                                      3/26/2010          $12,190,000     $15,240,000   Updated portfolio data from servicer
            Digital Federal Credit                 Instrument for
1/15/2010                            Purchase                                $3,050,000     N/A                                                                                                                                  $0           $0                 $0                      $0
            Union, Marlborough, MA                 Home Loan
                                                                                                                  5/14/2010         ($15,240,000)            $0    Termination of SPA
                                                   Modifications

                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                    3/26/2010          ($730,000)       $230,000    Updated portfolio data from servicer

                                                                                                                    7/14/2010           $370,000        $600,000    Updated portfolio data from servicer

                                                                                                                    9/30/2010           $200,000        $800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                                                                                    9/30/2010          ($364,833)       $435,167    Updated portfolio data from servicer

                                                                                                                   11/16/2010           $100,000        $535,167    Transfer of cap due to servicing transfer

                                                                                                                     1/6/2011                 ($1)      $535,166    Updated portfolio data from servicer

                                                                                                                    3/30/2011                 ($1)      $535,165    Updated due to quarterly assessment and reallocation
                                                     Financial
            iServe Residential
                                                     Instrument for
1/29/2010   Lending, LLC,              Purchase                                  $960,000     N/A                   6/29/2011                 ($7)      $535,158    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                     Home Loan
            San Diego, CA
                                                     Modifications
                                                                                                                    6/28/2012                 ($6)      $535,152    Updated due to quarterly assessment and reallocation

                                                                                                                    9/27/2012                ($15)      $535,137    Updated due to quarterly assessment and reallocation

                                                                                                                   12/27/2012                 ($3)      $535,134    Updated due to quarterly assessment and reallocation

                                                                                                                    3/25/2013                ($10)      $535,124    Updated due to quarterly assessment and reallocation

                                                                                                                    6/27/2013                 ($4)      $535,120    Updated due to quarterly assessment and reallocation

                                                                                                                    9/27/2013                 ($1)      $535,119    Updated due to quarterly assessment and reallocation

                                                                                                                   12/23/2013             ($2,242)      $532,877    Updated due to quarterly assessment and reallocation

                                                                                                                    3/26/2010           $160,000        $700,000    Updated portfolio data from servicer

                                                                                                                    9/30/2010             $25,278       $725,278    Updated portfolio data from servicer

                                                                                                                     1/6/2011                 ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                    3/30/2011                 ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                                                                                    6/29/2011                ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                     Financial
                                                                                                                    6/28/2012                 ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                     Instrument for
1/29/2010   United Bank, Griffin, GA   Purchase                                  $540,000     N/A                                                                                                                             $2,917      $2,652             $6,600                 $12,169
                                                     Home Loan
                                                                                                                    9/27/2012                ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                   12/27/2012                 ($4)      $725,231    Updated due to quarterly assessment and reallocation

                                                                                                                    3/25/2013                ($14)      $725,217    Updated due to quarterly assessment and reallocation

                                                                                                                    6/27/2013                 ($5)      $725,212    Updated due to quarterly assessment and reallocation

                                                                                                                    9/27/2013                 ($2)      $725,210    Updated due to quarterly assessment and reallocation

                                                                                                                   12/23/2013             ($3,221)      $721,989    Updated due to quarterly assessment and reallocation

                                                                                                                    7/14/2010          $4,440,000     $5,500,000    Updated portfolio data from servicer
                                                     Financial
            Urban Trust Bank,                        Instrument for
3/3/2010                               Purchase                                $1,060,000     N/A          9        9/24/2010         ($5,500,000)            $0    Termination of SPA                                            $0           $0                 $0                      $0
            Lake Mary, FL                            Home Loan
                                                     Modifications
                                                                                                                   12/16/2013             $40,000        $40,000    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                489
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                             490
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                       TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                            Borrower’s     Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments

                                                                                                                   5/26/2010             $120,000    $28,160,000    Initial 2MP cap

                                                                                                                   7/14/2010         ($12,660,000)   $15,500,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010             $100,000    $15,600,000    Initial FHA-HAMP cap

                                                                                                                   9/30/2010          ($3,125,218)   $12,474,782    Updated portfolio data from servicer

                                                                                                                  11/16/2010             $800,000    $13,274,782    Transfer of cap due to servicing transfer

                                                                                                                    1/6/2011                 ($20)   $13,274,762    Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($24)   $13,274,738    Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011                ($221)   $13,274,517    Updated due to quarterly assessment and reallocation
                                                    Financial
            iServe Servicing, Inc.,                 Instrument for
3/5/2010                              Purchase                               $28,040,000     N/A                   6/28/2012                ($169)   $13,274,348    Updated due to quarterly assessment and reallocation          $0            $0                 $0                      $0
            Irving, TX                              Home Loan
                                                    Modifications
                                                                                                                   9/27/2012                ($465)   $13,273,883    Updated due to quarterly assessment and reallocation

                                                                                                                  12/27/2012                 ($78)   $13,273,805    Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013                ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                   6/27/2013                ($112)   $13,273,396    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2013             ($10,000)   $13,263,396    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013                 ($40)   $13,263,356    Updated due to quarterly assessment and reallocation

                                                                                                                  11/14/2013             ($60,000)   $13,203,356    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($67,516)   $13,135,840    Updated due to quarterly assessment and reallocation

                                                                                                                   7/14/2010         ($44,880,000)   $15,900,000    Updated portfolio data from servicer

                                                                                                                   9/30/2010           $1,071,505    $16,971,505    Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($23)   $16,971,482    Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($26)   $16,971,456    Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011                ($238)   $16,971,218    Updated due to quarterly assessment and reallocation
                                                    Financial
                                                                                                                   6/28/2012                ($145)   $16,971,073    Updated due to quarterly assessment and reallocation
            Navy Federal Credit                     Instrument for
3/10/2010                             Purchase                               $60,780,000     N/A                                                                                                                           $595,733     $1,447,421        $1,134,324              $3,177,478
            Union, Vienna, VA                       Home Loan
                                                                                                                   9/27/2012                ($374)   $16,970,699    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  12/27/2012                 ($58)   $16,970,641    Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013                ($199)   $16,970,442    Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                 ($68)   $16,970,374    Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                 ($22)   $16,970,352    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($36,317)   $16,934,035    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 7/14/2010           $400,000        $700,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010             $25,278       $725,278    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                  Financial
                                                                                                                 6/28/2012                 ($8)      $725,257    Updated due to quarterly assessment and reallocation
            VIST Financial Corp,                  Instrument for
3/10/2010                           Purchase                                  $300,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Wyomissing, PA                        Home Loan
                                                                                                                 9/27/2012                ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                12/27/2012                 ($4)      $725,231    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($14)      $725,217    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($5)      $725,212    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($2)      $725,210    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($3,221)      $721,989    Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2010           $300,000        $600,000    Updated portfolio data from servicer

                                                                                                                 9/30/2010            ($19,778)      $580,222    Updated portfolio data from servicer
                                                  Financial
            Midwest Bank and                                                                                      1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer
                                                  Instrument for
4/14/2010   Trust Co., Elmwood      Purchase                                  $300,000     N/A                                                                                                                                 $0           $0                 $0                      $0
                                                  Home Loan
            Park, IL                                                                                             3/30/2011                 ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 6/29/2011                 ($8)      $580,212    Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011          ($580,212)             $0    Termination of SPA

                                                                                                                 7/14/2010          ($150,000)     $6,400,000    Updated portfolio data from servicer

                                                                                                                 9/15/2010          $1,600,000     $8,000,000    Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010         ($4,352,173)    $3,647,827    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($5)    $3,647,822    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($6)    $3,647,816    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011         ($3,000,000)      $647,816    Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                                 6/29/2011                 ($9)      $647,807    Updated due to quarterly assessment and reallocation
            Wealthbridge Mortgage                 Instrument for
4/14/2010                           Purchase                                $6,550,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Corp, Beaverton, OR                   Home Loan
                                                                                                                 6/28/2012                 ($7)      $647,800    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 9/27/2012                ($19)      $647,781    Updated due to quarterly assessment and reallocation

                                                                                                                12/27/2012                 ($3)      $647,778    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($12)      $647,766    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($5)      $647,761    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($2)      $647,759    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($2,822)      $644,937    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                             491
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                       492
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                   TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                         Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount    Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                   5/26/2010           $30,000        $40,000    Updated FHA-HAMP cap

                                                                                                                   9/30/2010          $250,111       $290,111    Updated portfolio data from servicer

                                                                                                                   6/29/2011           $59,889       $350,000    Updated due to quarterly assessment and reallocation

                                                                                                                   6/28/2012               ($2)      $349,998    Updated due to quarterly assessment and reallocation
                                                    Financial
            Aurora Financial Group,                 Instrument for
5/21/2010                             Purchase                                   $10,000     N/A         4, 8      9/27/2012               ($5)      $349,993    Updated due to quarterly assessment and reallocation    $24,689            $0          $27,844                $52,533
            Inc., Marlton, NJ                       Home Loan
                                                    Modifications
                                                                                                                  12/27/2012               ($1)      $349,992    Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013               ($3)      $349,989    Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013               ($1)      $349,988    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($759)      $349,229    Updated due to quarterly assessment and reallocation

                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                   6/16/2010         $3,680,000    $3,680,000
                                                                                                                                                                 servicing transfer

                                                                                                                   8/13/2010         $3,300,000    $6,980,000    Transfer of cap due to servicing transfer

                                                                                                                   9/30/2010         $3,043,831   $10,023,831    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  10/15/2010         $1,400,000   $11,423,831    Transfer of cap due to servicing transfer

                                                                                                                    1/6/2011              ($17)   $11,423,814    Updated portfolio data from servicer

                                                                                                                   3/16/2011         $2,100,000   $13,523,814    Transfer of cap due to servicing transfer

                                                                                                                   3/30/2011              ($24)   $13,523,790    Updated due to quarterly assessment and reallocation

                                                                                                                   4/13/2011         $2,900,000   $16,423,790    Transfer of cap due to servicing transfer

                                                                                                                   6/16/2011         ($200,000)   $16,223,790    Transfer of cap due to servicing transfer

                                                                                                                   6/29/2011             ($273)   $16,223,517    Updated due to quarterly assessment and reallocation

                                                                                                                  10/14/2011          $100,000    $16,323,517    Transfer of cap due to servicing transfer

                                                                                                                  11/16/2011         $1,100,000   $17,423,517    Transfer of cap due to servicing transfer

                                                                                                                   4/16/2012          $200,000    $17,623,517    Transfer of cap due to servicing transfer
                                                    Financial
            Selene Finance LP,                      Instrument for                                                 5/16/2012           $10,000    $17,633,517    Transfer of cap due to servicing transfer
6/16/2010                             Purchase                                         $0    N/A          9                                                                                                              $72,105     $201,612           $90,284               $364,000
            Houston, TX                             Home Loan
                                                    Modifications                                                  6/14/2012         ($300,000)   $17,333,517    Transfer of cap due to servicing transfer

                                                                                                                   6/28/2012             ($218)   $17,333,299    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2012           $40,000    $17,373,299    Transfer of cap due to servicing transfer

                                                                                                                   8/16/2012          $480,000    $17,853,299    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2012             ($600)   $17,852,699    Updated due to quarterly assessment and reallocation

                                                                                                                  11/15/2012           $70,000    $17,922,699    Transfer of cap due to servicing transfer

                                                                                                                  12/27/2012             ($102)   $17,922,597    Updated due to quarterly assessment and reallocation

                                                                                                                   3/14/2013           $90,000    $18,012,597    Transfer of cap due to servicing transfer

                                                                                                                   3/25/2013             ($384)   $18,012,213    Updated due to quarterly assessment and reallocation

                                                                                                                   5/16/2013          ($30,000)   $17,982,213    Transfer of cap due to servicing transfer

                                                                                                                   6/27/2013             ($146)   $17,982,067    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2013          $170,000    $18,152,067    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013              ($52)   $18,152,015    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013          ($88,613)   $18,063,402    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 9/30/2010          $1,585,945     $2,465,945    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($4)    $2,465,941    Updated portfolio data from servicer
            Suburban Mortgage                     Financial
                                                                                                                 3/30/2011                 ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
            Company of New                        Instrument for
8/4/2010                            Purchase                                  $880,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Mexico,                               Home Loan
                                                                                                                 6/29/2011                ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
            Albuquerque, NM                       Modifications
                                                                                                                 6/28/2012                ($30)    $2,465,867    Updated due to quarterly assessment and reallocation

                                                                                                                 8/10/2012         ($2,465,867)            $0    Termination of SPA

                                                                                                                 9/30/2010          $1,040,667     $1,740,667    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($2)    $1,740,665    Updated portfolio data from servicer
                                                  Financial
            Bramble Savings Bank,                 Instrument for
8/20/2010                           Purchase                                  $700,000     N/A                   3/30/2011                 ($3)    $1,740,662    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Cincinnati, OH                        Home Loan
                                                  Modifications
                                                                                                                 6/29/2011                ($28)    $1,740,634    Updated due to quarterly assessment and reallocation

                                                                                                                 8/10/2011         ($1,740,634)            $0    Termination of SPA

                                                                                                                 9/30/2010          $2,181,334     $3,481,334    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($5)    $3,481,329    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($6)    $3,481,323    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                ($58)    $3,481,265    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                ($43)    $3,481,222    Updated due to quarterly assessment and reallocation
                                                  Financial
            Pathfinder Bank,                      Instrument for
8/25/2010                           Purchase                                $1,300,000     N/A                   9/27/2012               ($119)    $3,481,103    Updated due to quarterly assessment and reallocation      $4,884      $7,754           $11,206                  $23,843
            Oswego, NY                            Home Loan
                                                  Modifications
                                                                                                                12/27/2012                ($20)    $3,481,083    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($76)    $3,481,007    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                ($29)    $3,480,978    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                ($10)    $3,480,968    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013            ($17,421)    $3,463,547    Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2010          $7,014,337    $11,314,337    Updated portfolio data from servicer

                                                                                                                  1/6/2011                ($17)   $11,314,320    Updated portfolio data from servicer

                                                                                                                 3/30/2011                ($20)   $11,314,300    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($192)   $11,314,108    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012               ($144)   $11,313,964    Updated due to quarterly assessment and reallocation
                                                  Financial
            First Financial Bank,                 Instrument for
8/27/2010                           Purchase                                $4,300,000     N/A                   9/27/2012               ($396)   $11,313,568    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            N.A., Terre Haute, ID                 Home Loan
                                                  Modifications
                                                                                                                12/27/2012                ($67)   $11,313,501    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013               ($253)   $11,313,248    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                ($95)   $11,313,153    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                ($34)   $11,313,119    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013            ($57,776)   $11,255,343    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                             493
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                             (CONTINUED)                                                                                                                                                                                           494
           Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                    TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing               Adjustment     Cap Adjustment                                                                         Borrower’s     Investors         Servicers                Incentive
Date       Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note            Date            Amount    Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments

                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                  1/6/2011           $34,944       $180,000    Updated portfolio data from servicer

                                                                                                                 3/30/2011           $40,000       $220,000    Updated due to quarterly assessment and reallocation
                                                 Financial
           RBC Bank (USA),                       Instrument for                                       4, 8,
9/1/2010                          Purchase                                   $100,000     N/A                    6/29/2011           $50,000       $270,000    Updated due to quarterly assessment and reallocation          $0            $0                 $0                      $0
           Raleigh, NC                           Home Loan                                             15
                                                 Modifications
                                                                                                                 3/15/2012         ($200,000)       $70,000    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012          ($10,000)       $60,000    Transfer of cap due to servicing transfer

                                                                                                                  4/9/2013          ($60,000)             $-   Termination of SPA

                                                                                                                 9/30/2010         $5,168,169    $8,268,169    Updated portfolio data from servicer

                                                                                                                  1/6/2011              ($12)    $8,268,157    Updated portfolio data from servicer

                                                                                                                 3/30/2011              ($15)    $8,268,142    Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011          $400,000     $8,668,142    Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($143)    $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 9/15/2011          $700,000     $9,367,999    Transfer of cap due to servicing transfer

                                                                                                                10/14/2011          $100,000     $9,467,999    Transfer of cap due to servicing transfer

                                                                                                                11/16/2011          $200,000     $9,667,999    Transfer of cap due to servicing transfer

                                                                                                                12/15/2011         $1,700,000   $11,367,999    Transfer of cap due to servicing transfer

                                                                                                                 4/16/2012         $1,600,000   $12,967,999    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2012           $40,000    $13,007,999    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2012         ($210,000)   $12,797,999    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012             ($105)   $12,797,894    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2012           $50,000    $12,847,894    Transfer of cap due to servicing transfer

                                                                                                                 8/16/2012           $90,000    $12,937,894    Transfer of cap due to servicing transfer
                                                 Financial
           Fay Servicing, LLC,                   Instrument for
9/3/2010                          Purchase                                 $3,100,000     N/A                    9/27/2012             ($294)   $12,937,600    Updated due to quarterly assessment and reallocation   $969,563     $1,924,524        $1,091,310              $3,985,396
           Chicago, IL                           Home Loan
                                                 Modifications
                                                                                                                10/16/2012         $1,810,000   $14,747,600    Transfer of cap due to servicing transfer

                                                                                                                12/27/2012              ($61)   $14,747,539    Updated due to quarterly assessment and reallocation

                                                                                                                 1/16/2013           $30,000    $14,777,539    Transfer of cap due to servicing transfer

                                                                                                                 2/14/2013         ($590,000)   $14,187,539    Updated due to quarterly assessment and reallocation

                                                                                                                 3/14/2013          ($80,000)   $14,107,539    Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013             ($214)   $14,107,325    Updated due to quarterly assessment and reallocation

                                                                                                                 4/16/2013          $200,000    $14,307,325    Transfer of cap due to servicing transfer

                                                                                                                 5/16/2013         $3,710,000   $18,017,325    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013         $1,760,000   $19,777,325    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013              ($86)   $19,777,239    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013         $6,650,000   $26,427,239    Transfer of cap due to servicing transfer

                                                                                                                 8/15/2013           $20,000    $26,447,239    Transfer of cap due to servicing transfer

                                                                                                                 9/16/2013         $4,840,000   $31,287,239    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013              ($54)   $31,287,185    Updated due to quarterly assessment and reallocation

                                                                                                                10/15/2013          $720,000    $32,007,185    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s     Investors         Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives              Payments

                                                                                                                    11/14/2013          $1,040,000   $33,047,185    Transfer of cap due to servicing transfer

                                                                                                                    12/16/2013           $140,000    $33,187,185    Transfer of cap due to servicing transfer

                                                                                                                    12/23/2013           ($84,376)   $33,102,809    Updated due to quarterly assessment and reallocation

                                                                                                                     9/15/2010          $1,000,000    $1,000,000    Transfer of cap due to servicing transfer

                                                                                                                     9/30/2010           $450,556     $1,450,556    Updated portfolio data from servicer

                                                                                                                      1/6/2011                ($2)    $1,450,554    Updated portfolio data from servicer

                                                                                                                     2/16/2011          $3,000,000    $4,450,554    Transfer of cap due to servicing transfer

                                                                                                                     3/16/2011         $10,200,000   $14,650,554    Transfer of cap due to servicing transfer

                                                                                                                     3/30/2011               ($24)   $14,650,530    Updated due to quarterly assessment and reallocation

                                                                                                                     6/29/2011              ($227)   $14,650,303    Updated due to quarterly assessment and reallocation

                                                                                                                     7/14/2011         $12,000,000   $26,650,303    Transfer of cap due to servicing transfer

                                                                                                                    12/15/2011          $4,100,000   $30,750,303    Transfer of cap due to servicing transfer

                                                                                                                     1/13/2012           $900,000    $31,650,303    Transfer of cap due to servicing transfer
            Caliber Home Loans,                       Financial
            Inc (Vericrest Financial,                 Instrument for
9/15/2010                               Purchase                                         $0    N/A          9        4/16/2012           $300,000    $31,950,303    Transfer of cap due to servicing transfer              $863,272     $2,315,019        $1,835,542             $5,013,833
            Inc.), Oklahoma                           Home Loan
            City, OK                                  Modifications
                                                                                                                     6/28/2012              ($266)   $31,950,037    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2012              ($689)   $31,949,348    Updated due to quarterly assessment and reallocation

                                                                                                                    11/15/2012           $720,000    $32,669,348    Transfer of cap due to servicing transfer

                                                                                                                    12/27/2012              ($114)   $32,669,234    Updated due to quarterly assessment and reallocation

                                                                                                                     1/16/2013          $8,020,000   $40,689,234    Transfer of cap due to servicing transfer

                                                                                                                     3/25/2013              ($591)   $40,688,643    Updated due to quarterly assessment and reallocation

                                                                                                                     5/16/2013           ($40,000)   $40,648,643    Transfer of cap due to servicing transfer

                                                                                                                     6/27/2013              ($223)   $40,648,420    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2013               ($80)   $40,648,340    Updated due to quarterly assessment and reallocation

                                                                                                                    12/23/2013          ($135,776)   $40,512,564    Updated due to quarterly assessment and reallocation

                                                                                                                     9/30/2010           $180,222       $580,222    Updated portfolio data from servicer

                                                                                                                      1/6/2011                ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                     3/30/2011                ($1)      $580,220    Updated due to quarterly assessment and reallocation

                                                                                                                     6/29/2011                ($8)      $580,212    Updated due to quarterly assessment and reallocation

                                                                                                                     6/28/2012                ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                      Financial
            Midwest Community                         Instrument for
9/15/2010                               Purchase                                  $400,000     N/A                   9/27/2012               ($17)      $580,189    Updated due to quarterly assessment and reallocation      $1,000       $1,818             $2,000                 $4,818
            Bank, Freeport, IL                        Home Loan
                                                      Modifications
                                                                                                                    12/27/2012                ($3)      $580,186    Updated due to quarterly assessment and reallocation

                                                                                                                     3/25/2013               ($11)      $580,175    Updated due to quarterly assessment and reallocation

                                                                                                                     6/27/2013                ($4)      $580,171    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2013                ($1)      $580,170    Updated due to quarterly assessment and reallocation

                                                                                                                    12/23/2013            ($2,474)      $577,696    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                495
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                           496
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                     TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

            American Finance                        Financial                                                      9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
            House LARIBA,                           Instrument for
9/24/2010                             Purchase                                  $100,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Pasadena, CA                            Home Loan
                                                                                                                    2/2/2011          ($145,056)             $0    Termination of SPA
            1000704                                 Modifications

                                                                                                                   9/30/2010           $856,056      $2,756,056    Updated portfolio data from servicer
                                                    Financial
            Centrue Bank,                           Instrument for
9/24/2010                             Purchase                                $1,900,000     N/A                    1/6/2011                 ($4)    $2,756,052    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Ottawa, CA                              Home Loan
                                                    Modifications
                                                                                                                    3/9/2011         ($2,756,052)            $0    Termination of SPA

                                                    Financial                                                      9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit                     Instrument for
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Bank, Columbia, SC                      Home Loan
                                                                                                                   3/23/2011          ($145,056)             $0    Termination of SPA
                                                    Modifications

                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                   6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                    Financial
                                                                                                                   6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Amarillo National Bank,                 Instrument for
9/30/2010                             Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
            Amarillo, TX                            Home Loan
                                                                                                                   9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                   3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                   6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                    Financial
            American Financial                                                                                     6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010   Resources Inc.,           Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
                                                    Home Loan
            Parsippany, NJ                                                                                         9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                   9/30/2010           $765,945      $2,465,945    Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($3)    $2,465,942    Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($4)    $2,465,938    Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011                ($36)    $2,465,902    Updated due to quarterly assessment and reallocation

                                                                                                                   6/28/2012                ($30)    $2,465,872    Updated due to quarterly assessment and reallocation
                                                    Financial
            Banco Popular de                                                                                       9/27/2012                ($83)    $2,465,789    Updated due to quarterly assessment and reallocation
                                                    Instrument for                                        4,
9/30/2010   Puerto Rico,              Purchase                                $1,700,000     N/A                                                                                                                                 $0           $0                 $0                      $0
                                                    Home Loan                                            5, 8
            San Juan, PR                                                                                          12/27/2012                ($14)    $2,465,775    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   3/25/2013                ($53)    $2,465,722    Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                ($20)    $2,465,702    Updated due to quarterly assessment and reallocation

                                                                                                                   9/16/2013           $460,000      $2,925,702    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013                 ($7)    $2,925,695    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013            ($12,339)    $2,913,356    Updated due to quarterly assessment and reallocation

                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                   6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                    Financial
            Capital International                                                                                  6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010   Financial, Inc.,          Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
                                                    Home Loan
            Coral Gables, FL                                                                                       9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  9/30/2010           $360,445      $1,160,445    Updated portfolio data from servicer
                                                   Financial
            Citizens Community                     Instrument for
9/24/2010                            Purchase                                  $800,000     N/A                    1/6/2011                 ($2)    $1,160,443    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Bank, Freeburg, IL                     Home Loan
                                                   Modifications
                                                                                                                  3/23/2011         ($1,160,443)            $0    Termination of SPA

                                                                                                                  9/30/2010           $901,112      $2,901,112    Updated portfolio data from servicer

                                                                                                                   1/6/2011                 ($4)    $2,901,108    Updated portfolio data from servicer
                                                   Financial
            Community Credit                                                                                      3/30/2011                 ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                   Instrument for                                       6,
9/30/2010   Union of Florida,        Purchase                                $2,000,000     N/A                                                                                                                             $3,000      $4,632             $5,000                 $12,632
                                                   Home Loan                                            12
            Rockledge, FL                                                                                         6/29/2011                ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  6/28/2012                ($36)    $2,901,019    Updated due to quarterly assessment and reallocation

                                                                                                                  9/14/2012         ($2,888,387)       $12,632    Termination of SPA

                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
            CU Mortgage Services,                  Instrument for
9/30/2010                            Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
            Inc., New Brighton, MN                 Home Loan
                                                                                                                  9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
            First Federal Bank of                  Instrument for
9/30/2010                            Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
            Florida, Lake City, FL                 Home Loan
                                                                                                                  9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Financial
            First Mortgage                                                                                        6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/30/2010   Corporation,             Purchase                                  $100,000     N/A         4, 8                                                                                                                $2,000           $0            $2,000                  $4,000
                                                   Home Loan
            Diamond Bar, CA                                                                                       9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010           $180,222        $580,222    Updated portfolio data from servicer
                                                   Financial
            First Safety Bank,                     Instrument for
9/30/2010                            Purchase                                  $400,000     N/A                    1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Cincinnati, OH                         Home Loan
                                                   Modifications
                                                                                                                  3/23/2011          ($580,221)             $0    Termination of SPA

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                              497
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                           498
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 9/30/2010           $360,445      $1,160,445    Updated portfolio data from servicer

                                                                                                                  1/6/2011                 ($2)    $1,160,443    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($2)    $1,160,441    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                ($18)    $1,160,423    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                  Financial
            Flagstar Capital
                                                  Instrument for
9/30/2010   Markets Corporation,    Purchase                                  $800,000     N/A         7, 8      9/27/2012                ($37)    $1,160,372    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                  Home Loan
            Troy, MI
                                                  Modifications
                                                                                                                12/27/2012                 ($6)    $1,160,366    Updated due to quarterly assessment and reallocation

                                                                                                                 3/25/2013                ($24)    $1,160,342    Updated due to quarterly assessment and reallocation

                                                                                                                 6/27/2013                 ($9)    $1,160,333    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($3)    $1,160,330    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013             ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2010           $765,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  1/6/2011                 ($4)    $2,465,941    Updated portfolio data from servicer

                                                                                                                 3/30/2011                 ($4)    $2,465,937    Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011                ($40)    $2,465,897    Updated due to quarterly assessment and reallocation

                                                                                                                 6/28/2012                ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                  Financial
                                                                                                                 9/27/2012                ($83)    $2,465,784    Updated due to quarterly assessment and reallocation
            Franklin Savings,                     Instrument for
9/30/2010                           Purchase                                $1,700,000     N/A         4,12                                                                                                                $1,750      $3,865             $4,000                  $9,615
            Cincinnati, OH                        Home Loan
                                                                                                                12/27/2012                ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 3/25/2013                ($53)    $2,465,717    Updated due to quarterly assessment and reallocation

                                                                                                                 6/14/2013            ($10,000)    $2,455,717    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013                ($20)    $2,455,697    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                 ($7)    $2,455,690    Updated due to quarterly assessment and reallocation

                                                                                                                10/24/2013         ($2,446,075)        $9,615    Termination of SPA

                                                                                                                 9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                 6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                  Financial
                                                                                                                 6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Gateway Mortgage                      Instrument for
9/30/2010                           Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
            Group, LLC, Tulsa, OK                 Home Loan
                                                                                                                 9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                  Financial                                                      9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit                    Instrument for
9/30/2010                           Purchase                                  $100,000     N/A                                                                                                                                 $0           $0                 $0                      $0
            Union, Gardner, MA                    Home Loan
                                                                                                                 3/23/2011          ($145,056)             $0    Termination of SPA
                                                  Modifications

                                                                                                                 9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                 6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                  Financial
                                                                                                                 6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Guaranty Bank,                        Instrument for
9/30/2010                           Purchase                                  $100,000     N/A         4, 8                                                                                                                 $917            $0            $1,000                  $1,917
            Saint Paul, MN                        Home Loan
                                                                                                                 9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  9/30/2010          $135,167        $435,167    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                  3/30/2011                ($1)      $435,165    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011                ($6)      $435,159    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012                ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                   Financial
            James B. Nutter &
                                                   Instrument for
9/24/2010   Company,                 Purchase                                  $300,000     N/A         4, 8      9/27/2012               ($12)      $435,143    Updated due to quarterly assessment and reallocation      $9,171           $0            $9,615                 $18,786
                                                   Home Loan
            Kansas City, MO
                                                   Modifications
                                                                                                                 12/27/2012                ($2)      $435,141    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013                ($8)      $435,133    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($3)      $435,130    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($1)      $435,129    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($1,727)      $433,402    Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010          $450,556      $1,450,556    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($2)    $1,450,554    Updated portfolio data from servicer

                                                                                                                  3/30/2011                ($2)    $1,450,552    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011               ($23)    $1,450,529    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012               ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                   Financial
            Liberty Bank and Trust                 Instrument for
9/30/2010                            Purchase                                $1,000,000     N/A                   9/27/2012               ($48)    $1,450,464    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Co, New Orleans, LA                    Home Loan
                                                   Modifications
                                                                                                                 12/27/2012                ($8)    $1,450,456    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($30)    $1,450,426    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013               ($11)    $1,450,415    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($4)    $1,450,411    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($6,958)    $1,443,453    Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010          $315,389      $1,015,389    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($1)    $1,015,388    Updated portfolio data from servicer

                                                                                                                  3/30/2011                ($1)    $1,015,387    Updated due to quarterly assessment and reallocation

                                                                                                                  6/29/2011               ($11)    $1,015,376    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012               ($11)    $1,015,365    Updated due to quarterly assessment and reallocation
                                                   Financial
            M&T Bank,                              Instrument for
9/30/2010                            Purchase                                  $700,000     N/A         4, 8      9/27/2012               ($30)    $1,015,335    Updated due to quarterly assessment and reallocation    $43,230            $0          $47,461                  $90,691
            Buffalo, NY                            Home Loan
                                                   Modifications
                                                                                                                 12/27/2012                ($5)    $1,015,330    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($20)    $1,015,310    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($7)    $1,015,303    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($3)    $1,015,300    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($4,381)    $1,010,919    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                             499
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)                                                                                                                                                                                              500
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                             Borrower’s     Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments

                                                                                                                   9/30/2010              $630,778      $2,030,778   Updated portfolio data from servicer

                                                                                                                    1/6/2011                   ($3)     $2,030,775   Updated portfolio data from servicer

                                                                                                                   3/30/2011                   ($3)     $2,030,772   Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011                  ($33)     $2,030,739   Updated due to quarterly assessment and reallocation

                                                                                                                   6/28/2012                  ($25)     $2,030,714   Updated due to quarterly assessment and reallocation
                                                    Financial
            Magna Bank,                             Instrument for
9/30/2010                             Purchase                                $1,400,000     N/A          5        9/27/2012                  ($68)     $2,030,646   Updated due to quarterly assessment and reallocation          $0            $0                 $0                      $0
            Germantown, TN                          Home Loan
                                                    Modifications
                                                                                                                  12/27/2012                  ($11)     $2,030,635   Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013                  ($44)     $2,030,591   Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                  ($16)     $2,030,575   Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                   ($6)     $2,030,569   Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013               ($9,947)     $2,020,622   Updated due to quarterly assessment and reallocation

                                                                                                                   9/30/2010              $225,278       $725,278    Updated portfolio data from servicer
                                                    Financial
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




            Mainstreet Credit                       Instrument for
9/30/2010                             Purchase                                  $500,000     N/A                    1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer                          $0            $0                 $0                      $0
            Union, Lexena, KS                       Home Loan
                                                    Modifications
                                                                                                                    3/9/2011             ($725,277)            $0    Termination of SPA

                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                   6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                    Financial
                                                                                                                   6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Marsh Associates, Inc.,                 Instrument for
9/30/2010                             Purchase                                  $100,000     N/A         4, 8                                                                                                                  $9,688            $0          $10,649                  $20,337
            Charlotte, NC                           Home Loan
                                                                                                                   9/27/2012                   ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                   3/25/2013                   ($1)      $145,052    Updated due to quarterly assessment and reallocation

                                                                                                                  10/15/2013              ($60,000)       $85,052    Transfer of cap due to servicing transfer

                                                                                                                   9/30/2010           $49,915,806     $93,415,806   Updated portfolio data from servicer

                                                                                                                    1/6/2011                 ($125)    $93,415,681   Updated portfolio data from servicer

                                                                                                                   3/30/2011                 ($139)    $93,415,542   Updated due to quarterly assessment and reallocation

                                                                                                                   6/29/2011               ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation

                                                                                                                   6/28/2012                 ($797)    $93,413,522   Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2012          $294,540,000    $387,953,522   Transfer of cap due to servicing transfer
                                                    Financial
            Midland Mortgage
                                                    Instrument for
9/30/2010   Company,                  Purchase                               $43,500,000     N/A         4, 5      7/27/2012         ($263,550,000)   $124,403,522   Transfer of cap due to servicing transfer              $5,186,854   $1,300,883        $6,210,386             $12,698,124
                                                    Home Loan
            Oklahoma City, OK
                                                    Modifications
                                                                                                                   9/27/2012               ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation

                                                                                                                  12/27/2012                 ($507)   $124,399,845   Updated due to quarterly assessment and reallocation

                                                                                                                   3/25/2013               ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation

                                                                                                                   6/27/2013                 ($593)   $124,397,523   Updated due to quarterly assessment and reallocation

                                                                                                                   9/27/2013                 ($199)   $124,397,324   Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($280,061)   $124,117,263   Updated due to quarterly assessment and reallocation

                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                   6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Mid America Mortgage,                   Financial
                                                                                                                   6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Inc. (Schmidt Mortgage                  Instrument for
9/30/2010                             Purchase                                  $100,000     N/A         4, 8                                                                                                                      $0            $0                 $0                      $0
            Company),                               Home Loan
                                                                                                                   9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
            Rocky River, OH                         Modifications
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013                 ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                     9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                     6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                      Financial
             Stockman Bank                                                                                           6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/30/2010    of Montana, Miles          Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
                                                      Home Loan
             City, MT                                                                                                9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                     3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                                                                                    12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                     9/30/2010           $270,334        $870,334    Updated portfolio data from servicer
                                                      Financial
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union,              Purchase                                  $600,000     N/A                    1/6/2011                 ($1)      $870,333    Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                      Home Loan
             Salt Lake City, UT
                                                      Modifications
                                                                                                                     2/17/2011          ($870,333)             $0    Termination of SPA

                                                                                                                     9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                     6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                      Financial
                                                                                                                     6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation
             Weststar Mortgage,                       Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                                                                                    $0           $0                 $0                      $0
             Inc., Woodbridge, VA                     Home Loan
                                                                                                                     9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                     3/25/2013                 ($1)      $145,051    Termination of SPA

                                                                                                                    12/23/2013               ($232)      $144,819    Updated due to quarterly assessment and reallocation

                                                                                                                    12/15/2010          $5,000,000     $5,000,000    Updated portfolio data from servicer

                                                                                                                      1/6/2011                 ($7)    $4,999,993    Updated portfolio data from servicer

                                                                                                                     2/16/2011           $500,000      $5,499,993    Transfer of cap due to servicing transfer

                                                                                                                     3/16/2011           $100,000      $5,599,993    Transfer of cap due to servicing transfer

                                                                                                                     3/30/2011                 ($9)    $5,599,984    Updated due to quarterly assessment and reallocation

                                                                                                                     6/29/2011                ($85)    $5,599,899    Updated due to quarterly assessment and reallocation

                                                                                                                    11/16/2011         ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer

                                                                                                                     3/15/2012           $200,000      $3,299,899    Transfer of cap due to servicing transfer

                                                                                                                     6/28/2012                ($40)    $3,299,859    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2012               ($100)    $3,299,759    Updated due to quarterly assessment and reallocation

                                                                                                                    10/16/2012           $170,000      $3,469,759    Transfer of cap due to servicing transfer
                                                      Financial
             Statebridge Company,                     Instrument for
12/15/2010                              Purchase                                         $0    N/A          9       11/15/2012            ($30,000)    $3,439,759    Transfer of cap due to servicing transfer               $20,251      $77,894           $22,101                 $120,246
             LLC, Denver, CO                          Home Loan
                                                      Modifications
                                                                                                                    12/14/2012            ($80,000)    $3,359,759    Transfer of cap due to servicing transfer

                                                                                                                    12/27/2012                ($17)    $3,359,742    Updated due to quarterly assessment and reallocation

                                                                                                                     1/16/2013             $50,000     $3,409,742    Transfer of cap due to servicing transfer

                                                                                                                     2/14/2013          $1,240,000     $4,649,742    Transfer of cap due to servicing transfer

                                                                                                                     3/14/2013             $90,000     $4,739,742    Transfer of cap due to servicing transfer

                                                                                                                     3/25/2013                ($90)    $4,739,652    Updated due to quarterly assessment and reallocation

                                                                                                                     4/16/2013            ($10,000)    $4,729,652    Transfer of cap due to servicing transfer

                                                                                                                     6/27/2013                ($34)    $4,729,618    Updated due to quarterly assessment and reallocation

                                                                                                                     9/27/2013                ($13)    $4,729,605    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




                                                                                                                    11/14/2013             $60,000     $4,789,605    Transfer of cap due to servicing transfer

                                                                                                                    12/23/2013            ($21,773)    $4,767,832    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 501
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                         502
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers               Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives              Payments

                                                                                                                 12/15/2010         $4,300,000     $4,300,000    Updated portfolio data from servicer

                                                                                                                   1/6/2011                ($4)    $4,299,996    Updated portfolio data from servicer

                                                                                                                  6/29/2011                ($5)    $4,299,991    Updated due to quarterly assessment and reallocation

                                                                                                                  6/28/2012               ($23)    $4,299,968    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  9/27/2012               ($63)    $4,299,905    Updated due to quarterly assessment and reallocation
             Scotiabank de Puerto                  Instrument for
12/15/2010                          Purchase                                          $0    N/A          9                                                                                                              $491,962     $630,227          $418,009              $1,540,197
             Rico, San Juan, PR                    Home Loan
                                                                                                                 12/27/2012               ($11)    $4,299,894    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  3/25/2013               ($41)    $4,299,853    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013               ($16)    $4,299,837    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($6)    $4,299,831    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($9,679)    $4,290,152    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011          $200,000        $200,000    Transfer of cap due to servicing transfer

                                                                                                                  5/13/2011          $100,000        $300,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  6/16/2011          $300,000        $600,000    Transfer of cap due to servicing transfer

                                                                                                                  6/29/2011                ($9)      $599,991    Updated due to quarterly assessment and reallocation

                                                                                                                  8/16/2011          $200,000        $799,991    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012                ($7)      $799,984    Updated due to quarterly assessment and reallocation
                                                   Financial
             New York Community
                                                   Instrument for
4/13/2011    Bank (AmTrust Bank),   Purchase                                          $0    N/A          9        9/27/2012               ($19)      $799,965    Updated due to quarterly assessment and reallocation    $13,344      $34,310           $22,004                 $69,658
                                                   Home Loan
             Cleveland, OH
                                                   Modifications
                                                                                                                 12/27/2012                ($3)      $799,962    Updated due to quarterly assessment and reallocation

                                                                                                                  3/25/2013               ($12)      $799,950    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($5)      $799,945    Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013          $150,000        $949,945    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                ($2)      $949,943    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($3,454)      $946,489    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011          $100,000        $100,000    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013          $120,000        $220,000    Transfer of cap due to servicing transfer
                                                   Financial
             SunTrust Mortgage,                    Instrument for
4/13/2011                           Purchase                                          $0    N/A          9        6/27/2013                ($1)      $219,999    Updated due to quarterly assessment and reallocation          $0      -$1,519           -$2,400                 -$3,919
             Inc., Richmond, VA                    Home Loan
                                                   Modifications
                                                                                                                  7/16/2013           $10,000        $229,999    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013             ($670)       $229,329    Updated due to quarterly assessment and reallocation

                                                                                                                  4/13/2011         $1,000,000     $1,000,000    Transfer of cap due to servicing transfer

                                                                                                                  6/29/2011          $233,268      $1,233,268    Updated due to quarterly assessment and reallocation

                                                                                                                 11/16/2011          $100,000      $1,333,268    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012                ($3)    $1,333,265    Updated due to quarterly assessment and reallocation
                                                   Financial
                                                                                                                  9/27/2012               ($10)    $1,333,255    Updated due to quarterly assessment and reallocation
             Urban Partnership                     Instrument for
4/13/2011                           Purchase                                          $0    N/A          9                                                                                                              $144,581     $295,770          $135,919                $576,270
             Bank, Chicago, IL                     Home Loan
                                                                                                                 12/27/2012                ($2)    $1,333,253    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  3/25/2013                ($7)    $1,333,246    Updated due to quarterly assessment and reallocation

                                                                                                                  6/27/2013                ($3)    $1,333,243    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2013                ($1)    $1,333,242    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($1,744)    $1,331,498    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                   TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                         Borrower’s    Investors         Servicers              Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount    Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives             Payments

                                                                                                                   4/13/2011          $200,000       $200,000    Transfer of cap due to servicing transfer

                                                                                                                   6/29/2011           $17,687       $217,687    Updated due to quarterly assessment and reallocation
                                                    Financial
            Western Federal Credit                  Instrument for
4/13/2011                             Purchase                                         $0    N/A          9        9/27/2012               ($1)      $217,686    Updated due to quarterly assessment and reallocation    $17,417      $46,174           $20,917                $84,507
            Union, Hawthorne, CA                    Home Loan
                                                    Modifications
                                                                                                                   3/25/2013               ($1)      $217,685    Updated due to quarterly assessment and reallocation

                                                                                                                  12/23/2013             ($290)      $217,395    Updated due to quarterly assessment and reallocation

                                                                                                                   5/13/2011          $500,000       $500,000    Transfer of cap due to servicing transfer

                                                                                                                   6/16/2011          $100,000       $600,000    Transfer of cap due to servicing transfer

                                                                                                                   6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation

                                                                                                                   7/14/2011          $200,000       $799,991    Transfer of cap due to servicing transfer

                                                                                                                   9/15/2011          $100,000       $899,991    Transfer of cap due to servicing transfer

                                                                                                                  11/16/2011         $2,500,000    $3,399,991    Transfer of cap due to servicing transfer

                                                                                                                   5/16/2012         $1,510,000    $4,909,991    Transfer of cap due to servicing transfer

                                                                                                                   6/14/2012          $450,000     $5,359,991    Transfer of cap due to servicing transfer

                                                                                                                   6/28/2012              ($66)    $5,359,925    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2012          $250,000     $5,609,925    Transfer of cap due to servicing transfer

                                                                                                                   8/16/2012           $90,000     $5,699,925    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2012             ($191)    $5,699,734    Updated due to quarterly assessment and reallocation

                                                                                                                  10/16/2012          $140,000     $5,839,734    Transfer of cap due to servicing transfer

                                                                                                                  11/15/2012           $70,000     $5,909,734    Transfer of cap due to servicing transfer
                                                    Financial
            FCI Lender Services,                    Instrument for
5/13/2011                             Purchase                                         $0    N/A          9       12/14/2012           $40,000     $5,949,734    Transfer of cap due to servicing transfer               $24,908      $45,162           $28,612                $98,682
            Inc., Anaheim Hills, CA                 Home Loan
                                                    Modifications
                                                                                                                  12/27/2012              ($34)    $5,949,700    Updated due to quarterly assessment and reallocation

                                                                                                                   1/16/2013           $40,000     $5,989,700    Transfer of cap due to servicing transfer

                                                                                                                   2/14/2013           $50,000     $6,039,700    Transfer of cap due to servicing transfer

                                                                                                                   3/14/2013          $360,000     $6,399,700    Transfer of cap due to servicing transfer

                                                                                                                   3/25/2013             ($135)    $6,399,565    Updated due to quarterly assessment and reallocation

                                                                                                                   4/16/2013          ($10,000)    $6,389,565    Transfer of cap due to servicing transfer

                                                                                                                   5/16/2013           $40,000     $6,429,565    Transfer of cap due to servicing transfer

                                                                                                                   6/14/2013          $200,000     $6,629,565    Transfer of cap due to servicing transfer

                                                                                                                   6/27/2013              ($53)    $6,629,512    Updated due to quarterly assessment and reallocation

                                                                                                                   7/16/2013           $20,000     $6,649,512    Transfer of cap due to servicing transfer

                                                                                                                   9/27/2013              ($19)    $6,649,493    Updated due to quarterly assessment and reallocation

                                                                                                                  10/15/2013          $260,000     $6,909,493    Transfer of cap due to servicing transfer

                                                                                                                  11/14/2013           $30,000     $6,939,493    Transfer of cap due to servicing transfer

                                                                                                                  12/23/2013          ($33,755)    $6,905,738    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                           503
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                              (CONTINUED)                                                                                                                                                                                          504
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                    TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                 7/14/2011          $200,000        $200,000    Transfer of cap due to servicing transfer

                                                                                                                11/16/2011          $900,000      $1,100,000    Transfer of cap due to servicing transfer

                                                                                                                 1/13/2012          $100,000      $1,200,000    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012                ($9)    $1,199,991    Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2012           $20,000      $1,219,991    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2012               ($26)    $1,219,965    Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012           $50,000      $1,269,965    Transfer of cap due to servicing transfer

                                                                                                                12/14/2012           $10,000      $1,279,965    Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                                12/27/2012                ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
            Gregory Funding, LLC,                 Instrument for
7/14/2011                           Purchase                                         $0    N/A          9                                                                                                               $75,560     $164,825           $81,552                 $321,937
            Beaverton, OR                         Home Loan
                                                                                                                 1/16/2013          $130,000      $1,409,960    Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                 2/14/2013          $120,000      $1,529,960    Transfer of cap due to servicing transfer

                                                                                                                 3/25/2013               ($20)    $1,529,940    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                 5/16/2013           $80,000      $1,609,940    Transfer of cap due to servicing transfer

                                                                                                                 6/14/2013          $420,000      $2,029,940    Transfer of cap due to servicing transfer

                                                                                                                 6/27/2013               ($10)    $2,029,930    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2013                ($4)    $2,029,926    Updated due to quarterly assessment and reallocation

                                                                                                                11/14/2013          $120,000      $2,149,926    Transfer of cap due to servicing transfer

                                                                                                                12/23/2013            ($7,685)    $2,142,241    Updated due to quarterly assessment and reallocation

                                                  Financial
            Bangor Savings Bank,                  Instrument for
9/15/2011                           Purchase                                         $0    N/A          9        9/15/2011          $100,000        $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
            Bangor, ME                            Home Loan
                                                  Modifications

                                                                                                                 9/15/2011         $1,300,000     $1,300,000    Transfer of cap due to servicing transfer

                                                                                                                 6/28/2012               ($15)    $1,299,985    Updated due to quarterly assessment and reallocation

                                                                                                                 9/27/2012               ($42)    $1,299,943    Updated due to quarterly assessment and reallocation

                                                                                                                10/16/2012          $140,000      $1,439,943    Transfer of cap due to servicing transfer
                                                  Financial
            PHH Mortgage                                                                                        12/27/2012                ($8)    $1,439,935    Updated due to quarterly assessment and reallocation
                                                  Instrument for
9/15/2011   Corporation,            Purchase                                         $0    N/A          9                                                                                                               $24,598      $41,112           $30,056                  $95,767
                                                  Home Loan
            Mt. Laurel, NJ                                                                                       3/25/2013               ($30)    $1,439,905    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                 6/27/2013               ($11)    $1,439,894    Updated due to quarterly assessment and reallocation

                                                                                                                 7/16/2013         $5,850,000     $7,289,894    Transfer of cap due to servicing transfer

                                                                                                                 9/27/2013               ($20)    $7,289,874    Updated due to quarterly assessment and reallocation

                                                                                                                12/23/2013          ($34,545)     $7,255,329    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s     Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives    Incentives        Incentives               Payments

                                                                                                                 12/15/2011           $200,000       $200,000    Transfer of cap due to servicing transfer

                                                                                                                  4/16/2012           $600,000       $800,000    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012                ($3)      $799,997    Updated due to quarterly assessment and reallocation

                                                                                                                  8/16/2012           $110,000       $909,997    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2012               ($13)      $909,984    Updated due to quarterly assessment and reallocation

                                                                                                                 10/16/2012          $1,270,000    $2,179,984    Transfer of cap due to servicing transfer

                                                                                                                 11/15/2012           $230,000     $2,409,984    Transfer of cap due to servicing transfer

                                                                                                                 12/27/2012                ($5)    $2,409,979    Updated due to quarterly assessment and reallocation

                                                                                                                  1/16/2013           $990,000     $3,399,979    Transfer of cap due to servicing transfer

                                                                                                                  2/14/2013           $600,000     $3,999,979    Transfer of cap due to servicing transfer
                                                   Financial
             Rushmore Loan                                                                                        3/14/2013          $1,980,000    $5,979,979    Transfer of cap due to servicing transfer
                                                   Instrument for
12/15/2011   Management Services    Purchase                                          $0    N/A          9                                                                                                              $741,554     $1,401,275         $375,372               $2,518,201
                                                   Home Loan
             LLC, Irvine, CA                                                                                      3/25/2013               ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  4/16/2013           $340,000     $6,319,902    Transfer of cap due to servicing transfer

                                                                                                                  5/16/2013          $1,520,000    $7,839,902    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013          $2,740,000   $10,579,902    Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013               ($53)   $10,579,849    Updated due to quarterly assessment and reallocation

                                                                                                                  9/16/2013          $2,570,000   $13,149,849    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013               ($26)   $13,149,823    Updated due to quarterly assessment and reallocation

                                                                                                                 10/15/2013            $10,000    $13,159,823    Transfer of cap due to servicing transfer

                                                                                                                 11/14/2013         $19,140,000   $32,299,823    Transfer of cap due to servicing transfer

                                                                                                                 12/16/2013          $1,330,000   $33,629,823    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013           ($60,644)   $33,569,179    Updated due to quarterly assessment and reallocation

                                                   Financial
             Sun West Mortgage
                                                   Instrument for
1/13/2012    Company, Inc,          Purchase                                          $0    N/A          9        1/13/2012           $100,000       $100,000    Transfer of cap due to servicing transfer                     $0            $0                 $0                      $0
                                                   Home Loan
             Cerritos, CA
                                                   Modifications

                                                   Financial
             PrimeWest Mortgage
                                                   Instrument for
3/15/2012    Corporation,           Purchase                                          $0    N/A          9        3/15/2012           $100,000       $100,000    Transfer of cap due to servicing transfer                     $0            $0                 $0                      $0
                                                   Home Loan
             Lubbock, TX
                                                   Modifications

                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                              505
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                               (CONTINUED)                                                                                                                                                                                          506
             Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing              Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)1   Mechanism   Note           Date            Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments

                                                                                                                  6/14/2012          $940,000        $940,000    Transfer of cap due to servicing transfer

                                                                                                                  6/28/2012          $205,242      $1,145,242    Updated due to quarterly assessment and reallocation

                                                                                                                  9/27/2012                ($3)    $1,145,239    Updated due to quarterly assessment and reallocation

                                                                                                                 12/27/2012                ($1)    $1,145,238    Updated due to quarterly assessment and reallocation

                                                                                                                  1/16/2013           $10,000      $1,155,238    Transfer of cap due to servicing transfer

                                                                                                                  2/14/2013         $8,690,000     $9,845,238    Transfer of cap due to servicing transfer

                                                                                                                  3/14/2013         $1,390,000    $11,235,238    Transfer of cap due to servicing transfer

                                                                                                                  3/25/2013             ($219)    $11,235,019    Updated due to quarterly assessment and reallocation
                                                   Financial
             Resurgent Capital
                                                   Instrument for
6/14/2012    Solutions, LP,         Purchase                                          $0    N/A          9        5/16/2013          $620,000     $11,855,019    Transfer of cap due to servicing transfer              $114,609     $341,105          $190,357                 $646,070
                                                   Home Loan
             Greenville, SC
                                                   Modifications
                                                                                                                  6/14/2013          $990,000     $12,845,019    Transfer of cap due to servicing transfer

                                                                                                                  6/27/2013               ($96)   $12,844,923    Updated due to quarterly assessment and reallocation

                                                                                                                  7/16/2013         $5,780,000    $18,624,923    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                                  9/27/2013               ($50)   $18,624,873    Updated due to quarterly assessment and reallocation

                                                                                                                 10/15/2013          $880,000     $19,504,873    Transfer of cap due to servicing transfer

                                                                                                                 11/14/2013         $6,610,000    $26,114,873    Transfer of cap due to servicing transfer

                                                                                                                 12/16/2013           $20,000     $26,134,873    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013         ($118,329)    $26,016,544    Updated due to quarterly assessment and reallocation

                                                                                                                 11/15/2012           $30,000         $30,000    Transfer of cap due to servicing transfer

                                                                                                                 12/14/2012           $70,000        $100,000    Transfer of cap due to servicing transfer

                                                                                                                  1/16/2013          ($10,000)        $90,000    Transfer of cap due to servicing transfer

                                                                                                                  2/14/2013          ($10,000)        $80,000    Transfer of cap due to servicing transfer
                                                   Financial
             Kondaur Capital
                                                   Instrument for
11/15/2012   Corporation,           Purchase                                          $0    N/A          9        4/16/2013          ($10,000)        $70,000    Transfer of cap due to servicing transfer                     $0           $0             $400                     $400
                                                   Home Loan
             Orange, CA
                                                   Modifications
                                                                                                                  5/16/2013          $130,000        $200,000    Transfer of cap due to servicing transfer

                                                                                                                  6/14/2013          ($50,000)       $150,000    Transfer of cap due to servicing transfer

                                                                                                                  7/16/2013          ($20,000)       $130,000    Transfer of cap due to servicing transfer

                                                                                                                 12/23/2013             ($155)       $129,845    Updated due to quarterly assessment and reallocation

                                                   Financial                                                     12/14/2012           $10,000         $10,000    Transfer of cap due to servicing transfer
             Quicken Loans Inc,                    Instrument for
12/14/2012                          Purchase                                          $0    N/A          9                                                                                                                     $0           $0                 $0                      $0
             Detroit, MI                           Home Loan
                                                                                                                  8/15/2013           $10,000         $20,000    Transfer of cap due to servicing transfer
                                                   Modifications

                                                                                                                  2/14/2013          $510,000        $510,000    Transfer of cap due to servicing transfer

                                                                                                                  3/25/2013                ($9)      $509,991    Updated due to quarterly assessment and reallocation

                                                                                                                  4/16/2013          $200,000        $709,991    Transfer of cap due to servicing transfer
                                                   Financial
                                                                                                                  5/16/2013           $40,000        $749,991    Transfer of cap due to servicing transfer
             Home Servicing, LLC,                  Instrument for
2/14/2013                           Purchase                                          $0    N/A          9                                                                                                                 $7,867     $15,780             $8,784                 $32,430
             Baton Rouge, LA                       Home Loan
                                                                                                                  6/27/2013                ($4)      $749,987    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                  7/16/2013         ($120,000)       $629,987    Transfer of cap due to servicing transfer

                                                                                                                  9/27/2013                ($2)      $629,985    Updated due to quarterly assessment and reallocation

                                                                                                                 12/23/2013            ($2,620)      $627,365    Updated due to quarterly assessment and reallocation

                                                                                                                  3/14/2013          $130,000        $130,000    Transfer of cap due to servicing transfer
                                                   Financial
             21st Mortgage                                                                                        3/25/2013                ($1)      $129,999    Updated due to quarterly assessment and reallocation
                                                   Instrument for
3/14/2013    Corporation,           Purchase                                          $0    N/A          9                                                                                                                 $1,417     $18,797           $12,750                  $32,963
                                                   Home Loan
             Knoxville, TN                                                                                       12/16/2013           $30,000        $159,999    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                 12/23/2013               ($96)      $159,903    Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2013                                                            (CONTINUED)
                Servicer Modifying Borrowers’ Loans                                                                             Adjustment Details                                                                                                                                   TARP Incentive Payments
                                                                                   Cap of Incentive
                                                                               Payments on Behalf
                                                                               of Borrowers and to                                                                                                                                                                                   Lenders/                                      Total TARP
                                           Transaction      Investment        Servicers & Lenders/      Pricing                     Adjustment       Cap Adjustment                                                                                           Borrower’s             Investors               Servicers               Incentive
Date            Name of Institution        Type             Description            Investors (Cap)1     Mechanism        Note             Date              Amount          Adjusted Cap      Reason for Adjustment                                           Incentives            Incentives              Incentives              Payments

                                                            Financial                                                               5/16/2013                 $50,000            $50,000      Transfer of cap due to servicing transfer
                 ViewPoint Bank,                            Instrument for
5/16/2013                                   Purchase                                              $0     N/A               9                                                                                                                                           $0                $668                      $0                    $668
                 Plano, TX                                  Home Loan
                                                                                                                                   12/16/2013                 $10,000            $60,000      Transfer of cap due to servicing transfer
                                                            Modifications

                                                            Financial                                                               6/14/2013                 $10,000            $10,000      Transfer of cap due to servicing transfer
                 Cheviot Savings Bank,                      Instrument for
6/14/2013                                   Purchase                                              $0     N/A               9                                                                                                                                      $1,000                 $956                  $1,000                  $2,956
                 Cheviot, OH                                Home Loan
                                                                                                                                    6/27/2013                  $1,344            $11,344      Updated due to quarterly assessment and reallocation
                                                            Modifications

                                                            Financial
                 Everbank, Jacksonville,                    Instrument for
7/16/2013                                   Purchase                                              $0     N/A               9        7/16/2013                 $60,000            $60,000      Transfer of cap due to servicing transfer                                $0                   $0                     $0                          $0
                 FL                                         Home Loan
                                                            Modifications

                                                            Financial                                                               7/16/2013                 $10,000            $10,000      Transfer of cap due to servicing transfer
                 Bridgelock Capital dba
                                                            Instrument for
7/16/2013        Peak Loan Servicing,       Purchase                                              $0     N/A               9                                                                                                                                           $0                   $0                     $0                          $0
                                                            Home Loan
                 Woodland Hills, CA                                                                                                12/16/2013                 $30,000            $40,000      Transfer of cap due to servicing transfer
                                                            Modifications

                                                            Financial                                                              10/15/2013                 $60,000            $60,000      Transfer of cap due to servicing transfer
                 SN Servicing
                                                            Instrument for
10/15/2013       Corporation, Baton         Purchase                                              $0     N/A               9                                                                                                                                        $565                    $0                   $565                  $1,130
                                                            Home Loan
                 Rouge, LA                                                                                                         12/16/2013                 $10,000            $70,000      Transfer of cap due to servicing transfer
                                                            Modifications

                                                            Financial
                 Plaza Home Mortgage,                       Instrument for
11/14/2013                                  Purchase                                              $0     N/A               9       11/14/2013                 $10,000            $10,000      Transfer of cap due to servicing transfer                                $0                   $0                     $0                          $0
                 Inc, San Diego, CA                         Home Loan
                                                            Modifications

                                                            Financial
                 Desjardins Bank N.A.,                      Instrument for
12/16/2013                                  Purchase                                              $0     N/A               9       12/16/2013                 $30,000            $30,000      Transfer of cap due to servicing transfer                                $0                   $0                     $0                          $0
                 Hallandale Beach, FL                       Home Loan
                                                            Modifications

                                                            Financial
                 Nationwide Advantage
                                                            Instrument for
12/16/2013       Mortgage Company,          Purchase                                              $0     N/A               9       12/16/2013                 $10,000            $10,000      Transfer of cap due to servicing transfer                                $0                   $0                     $0                          $0
                                                            Home Loan
                 Des Moines, IA
                                                            Modifications

                                                            Total Initial                                                           Total Cap
                                                                                 $23,831,570,000                                                    $6,032,793,866                            Totals                                                   $1,454,119,745        $3,625,807,220         $2,091,005,592          $7,170,932,556
                                                            Cap                                                                   Adjustments

                                                                                                                                      Total Cap    $29,864,363,866

Notes: Numbers may be affected by rounding. Data as of 12/31/2013. Numbered notes are taken verbatim from Treasury’s 12/27/2013 Transactions Report-Housing Programs.

1
  The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
  The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
   On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
   Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
4
   Initial cap amount includes FHA-HAMP.
5
   Initial cap amount includes RD-HAMP.
6
   Initial cap amount includes 2MP.
7
   Initial cap amount includes FHA-2LP.
8
   Initial cap does not include HAMP.
9
   This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
    The amendment reflects a change in the legal name of the institution.
11
    MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.
12
    The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.
13
    Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14
    In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
15
    RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.
16
    On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing servicing
     operations.
17
     As of July,3 2012, Aurora Loan Services LLC has discontinued its servicing function and sold all remaining servicing rights to Nationstar Mortgage. The remaining Adjusted Cap stated above represents the amount previously paid to Aurora Loan Services LLC, prior to ceasing servicing operations.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
                                                                                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014




“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 12/27/2013.
                                                                                                                                                                                                                                                                                                                                                    507
TABLE D.14
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2013
                                                                                                                                                                                                                                                                  508
                       Seller
                                                                                                      Transaction
Note   Date            Name of Institution                                                            Type             Investment Description                 Initial Investment Amount   Additional Investment Amount   Investment Amount1   Pricing Mechanism
       6/23/2010                                                                                                       Financial Instrument for HHF Program              $102,800,000                              —-                         N/A
2      9/23/2010       Nevada Affordable Housing Assistance Corporation, Reno, NV                     Purchase         Financial Instrument for HHF Program                         —-                    $34,056,581         $194,026,240    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $57,169,659                         N/A
       6/23/2010                                                                                                       Financial Instrument for HHF Program              $699,600,000                              —-                         N/A
2      9/23/2010       CalHFA Mortgage Assistance Corporation, Sacramento, CA                         Purchase         Financial Instrument for HHF Program                         —-                   $476,257,070        $1,975,334,096   N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $799,477,026                         N/A
       6/23/2010                                                                                                       Financial Instrument for HHF Program              $418,000,000                              —-                         N/A
2      9/23/2010       Florida Housing Finance Corporation, Tallahassee, FL                           Purchase         Financial Instrument for HHF Program                         —-                   $238,864,755        $1,057,839,136   N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $400,974,381                         N/A
       6/23/2010                                                                                                       Financial Instrument for HHF Program              $125,100,000                              —-                         N/A
                       Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ         Purchase                                                                                                                $267,766,006
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $142,666,006                         N/A
       6/23/2010                                                                                                       Financial Instrument for HHF Program              $154,500,000                              —-                         N/A
2      9/23/2010       Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI       Purchase         Financial Instrument for HHF Program                         —-                   $128,461,559         $498,605,738    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $215,644,179                         N/A
       8/3/2010                                                                                                        Financial Instrument for HHF Program              $159,000,000                              —-                         N/A
2      9/23/2010       North Carolina Housing Finance Agency, Raleigh, NC                             Purchase         Financial Instrument for HHF Program                         —-                   $120,874,221         $482,781,786    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $202,907,565                         N/A
       8/3/2010                                                                                                        Financial Instrument for HHF Program              $172,000,000                              —-                         N/A
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 29, 2014




                                                                                                      Purchase
2      9/23/2010       Ohio Homeowner Assistance LLC, Columbus, OH                                                     Financial Instrument for HHF Program                         —-                   $148,728,864         $570,395,099    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $249,666,235                         N/A
       8/3/2010                                                                                                        Financial Instrument for HHF Program               $88,000,000                              —-                         N/A
2      9/23/2010       Oregon Affordable Housing Assistance Corporation, Salem, OR                    Purchase         Financial Instrument for HHF Program                         —-                    $49,294,215         $220,042,786    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $82,748,571                         N/A
       8/3/2010                                                                                                        Financial Instrument for HHF Program               $43,000,000                              —-                         N/A
2      9/23/2010       Rhode Island Housing and Mortgage Finance Corporation, Providence, RI          Purchase         Financial Instrument for HHF Program                         —-                    $13,570,770          $79,351,573    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $22,780,803                         N/A
       8/3/2010                                                                                                        Financial Instrument for HHF Program              $138,000,000                              —-                         N/A
2      9/23/2010       SC Housing Corp, Columbia, SC                                                  Purchase         Financial Instrument for HHF Program                         —-                    $58,772,347         $295,431,547    N/A
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $98,659,200                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program               $60,672,471                              —-                         N/A
                       Alabama Housing Finance Authority, Montgomery, AL                              Purchase                                                                                                                $162,521,345
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $101,848,874                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program               $55,588,050                              —-                         N/A
                       Kentucky Housing Corporation, Frankfort, KY                                    Purchase                                                                                                                $148,901,875
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $93,313,825                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program               $38,036,950                              —-                         N/A
                       Mississippi Home Corporation, Jackson, MS                                      Purchase                                                                                                                $101,888,323
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $63,851,373                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program              $126,650,987                              —-                         N/A
                       GHFA Affordable Housing, Inc., Atlanta, GA                                     Purchase                                                                                                                $339,255,819
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $212,604,832                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program               $82,762,859                              —-                         N/A
                       Indiana Housing and Community Development Authority, Indianapolis, IN          Purchase                                                                                                                $221,694,139
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $138,931,280                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program              $166,352,726                              —-                         N/A
                       Illinois Housing Development Authority, Chicago, IL                            Purchase                                                                                                                $445,603,557
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $279,250,831                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program              $112,200,637                              —-                         N/A
                       New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                    Purchase                                                                                                                $300,548,144
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $188,347,507                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program                $7,726,678                              —-                         N/A
                       District of Columbia Housing Finance Agency, Washington, DC                    Purchase                                                                                                                 $20,697,198
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                    $12,970,520                         N/A
       9/23/2010                                                                                                       Financial Instrument for HHF Program               $81,128,260                              —-                         N/A
                       Tennessee Housing Development Agency, Nashville, TN                            Purchase                                                                                                                $217,315,593
3      9/29/2010                                                                                                       Financial Instrument for HHF Program                         —-                   $136,187,333                         N/A
                                                                                                                                                                                              Total Investment Amount      $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 12/31/2013. Numbered notes are taken verbatim from Treasury’s 12/27/2013 Transactions Report-Housing Programs.

1
	 The purchase will be incrementally funded up to the investment amount.
2
	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 12/27/2013.
TABLE D.15
FHA SHORT REFINANCE PROGRAM, AS OF 12/31/2013
                                                                                                                                                             Initial Investment                 Investment
Note     Date           Seller Name                         Transaction Type            Investment Description                                                          Amount                 Adjustments         Investment Amount       Pricing Mechanism
1        9/3/2010                                                                                                                                             $8,117,000,000                              —            $1,025,000,000      N/A
2                       Citigroup, Inc., New York, NY       Purchase                    Facility Purchase Agreement
         3/4/2013                                                                                                                                                            —            ($7,092,000,000)                                 N/A

                                                                                                                                                                                  Total Investment Amount             $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 12/31/2013. Numbered notes are taken verbatim from Treasury’s 12/27/2013 Transactions Report-Housing Programs.

1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year
   letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C will be
   capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the period
   of time Treasury has to increase the L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees incurred for the
   availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 12/27/2013.
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 29, 2014
                                                                                                                                                                                                                                                                 509
510               APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JANUARY 29, 2014




      DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
      DIVIDEND/INTEREST PAYMENTS
      TABLE E.1
       DEBT AGREEMENTS, AS OF 12/31/2013
       TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
       Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                              Each QFI may issue senior
                                                                                   Senior                     securities with an aggregate                  7.7% for first 5
                                                                                   Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                                   Securities                 risk-weighted assets, but not to              thereafter
       CPP –          Originally                                                                              exceed $25 billion.
                                         1/14/2009a            $0.5 billion
       S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                                   Subordinated               to purchase an amount equal
                                                                                   Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                                   that are exercised         purchased on the date of
                                                                                   immediately                investment.
                                                                                                              Each QCU may issue CDCI
                                                                                                              Senior Securities with an
       CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                                 2% for first 8 years,                    CDCI – Credit
       Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                                 9% thereafter                            Unions
       Unions                                                                      Unions                     assets and not more than 50%
                                                                                                              of the capital and surplus of the
                                                                                                              QCU.
                                                                                                              Each QFI may issue CDCI Senior
                                                                                                              Securities with an aggregate
                                                                                                              principal amount equal to not
                                                                                                              more than 5% of (i), if the QFI is a
                                                                                                              Certified Entity the risk-weighted
                                                                                                              assets of the QFI, or (ii), if the            3.1% for first 8
       CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                              QFI is not a Certified Entity, the            years, 13.8%
       S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                              sum of the RWAs of each of the                thereafter
                                                                                                              Certified Entities, in each case
                                                                                                              less the aggregate capital or,
                                                                                                              as the case may be, principal
                                                                                                              amount of any outstanding TARP
                                                                                                              assistance of the QFI.
                                                                                                                                                                                          The debt
                                                                                                                                                                                          obligation for
                                                                                                                                                                                          each fund
                                                                                   Debt Obligation
                                                                                                              Each of the loans will be funded                                            matures at
                                         9/30/2009                                 with Contingent
       PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                         and later                                 Interest
                                                                                                              the fund manager.                                                           of the
                                                                                   Promissory Note
                                                                                                                                                                                          dissolution of
                                                                                                                                                                                          the fund or
                                                                                                                                                                                          10 years.
       Notes: Numbers may be affected due to rounding.
       a
         Announcement date of CPP S-Corporation Term Sheet.

       Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
       12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
       Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
       Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
       Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
                                         DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JANUARY 29, 2014                511




TABLE E.2
 EQUITY AGREEMENTS, AS OF 12/31/2013
 TARP                        Date of           Cost           Description                                                              Term of
 Program    Company          Agreement         Assigned       of Investment      Investment Information            Dividends           Agreement
                                                              Senior             1–3% of risk-weighted assets,     5% for first
                                                              Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity             each QFI                          thereafter
 CPP –      Originally       10/14/2008a       $200.1
 Public     286 QFIs         and later         billion        Common
                                                              Stock              15% of senior preferred
                                                                                                                   —                   Up to 10 years
                                                              Purchase           amount
                                                              Warrants
                                                                                 1–3% of risk-weighted assets,     5% for first
                                                              Preferred
                                                                                 not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity
                                                                                 each QFI                          thereafter

 CPP –      Originally       11/17/2008b                      Preferred
                                               $4 billion     Stock
 Private    369 QFIs         and later
                                                              Purchase
                                                                                 5% of preferred amount            9%                  Perpetual
                                                              Warrants that
                                                              are exercised
                                                              immediately
                                                              Preferred
                                                                                 5% of risk-weighted assets        2% for first
                                               $780.2         Equity for
 CDCI       All                                                                  for banks and bank holding        eight years, 9%     Perpetual
                                               million        banks & thrift
                                                                                 companies.                        thereafter
                                                              institutions
                                                                                                                                       8 years with the
                                                              Membership         Each membership interest will
                             9/30/2009                                                                                                 possibility of
 PPIP       All                                $10 billion    interest in a      be funded upon demand from        —
                             and later                                                                                                 extension for 2
                                                              partnership        the fund manager.
                                                                                                                                       additional years
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $5 billion                        9%
                                                              Preferred                                                                interest after 7
                                                              Stock                                                                    years
            Ally Financial
 AIFP       Inc. (formerly   12/29/2008        $5 billion     Preferred
            GMAC)                                             Stock                                                                    Converts to
                                                              Purchase                                                                 common equity
                                                                                 5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $4.5 billion                      9%
                                                              Preferred                                                                interest after 7
                                                              Stockc                                                                   years
                                                              Preferred
            Ally Financial
                                                              Stock                                                                    Converts to
 AIFP       Inc. (formerly   5/21/2009         $7.5 billion
                                                              Purchase                                                                 common equity
            GMAC)                                                                5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Common
                                                                                 $3 billion                        —                   Perpetual
                                                              Equity Interestd
                                                                                                                                  Continued on next page
512              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JANUARY 29, 2014




      EQUITY AGREEMENTS, AS OF 12/31/2013                                     (CONTINUED)

      TARP                                    Date of                  Cost                Description                                                                                   Term of
      Program           Company               Agreement                Assigned            of Investment          Investment Information                       Dividends                 Agreement
                                                                                                                  This equity interest was
                                                                                                                  obtained by exchanging a
                        Ally Financial
                                                                                           Common                 prior debt obligation with
      AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                            —                         Perpetual
                                                                                           Equity Interest        General Motors. See “Debt
                        GMAC)
                                                                                                                  Agreements” table for more
                                                                                                                  information.
                                                                                           Trust Preferred
                                                                                                                  $2.5 billion                                 8%
                                                                                           Securities
                        Ally Financial                                                     Trust Preferred                                                                               Redeemable upon
      AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                      the repayment of
                        GMAC)                                                              warrants that          5% of trust preferred amount                 —                         the debenture
                                                                                           are exercised
                                                                                           immediately
                                                                                           Mandatorily
                                                                                           Convertible
                                                                                                                  $1.3 billion                                 9%
                                                                                           Preferred
                                                                                           Stock                                                                                         Converts to
                        Ally Financial
                                                                                           Preferred                                                                                     common equity
      AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                           Stock                                                                                         interest after 7
                        GMAC)
                                                                                           Purchase                                                                                      years
                                                                                                                  5% of preferred amount                       —
                                                                                           Warrants that
                                                                                           are exercised
                                                                                           immediately

                        Ally Financial
                                                                                           Common
      AIFP              Inc. (formerly        12/30/2009               $5.5 billion                               $5.5 billion                                 —                         Perpetual
                                                                                           Equity Interestd
                        GMAC)

      Notes: Numbers may be affected due to rounding.
      a
        Announcement date of CPP Public Term Sheet.
      b
         Announcement date of CPP Private Term Sheet.
      c
        On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
      d
        On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
         from 56% to 74% due to this conversion.

      Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
      Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
      15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
      Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
      Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
      3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
      CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
      Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
      Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
      for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
      Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 1/1/2014.
                                                         DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JANUARY 29, 2014                                                    513




TABLE E.3
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 12/31/2013
                                                 Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
CPP   c
                                       $11,922,397,492                        $118,259,201                                      $—              $14,762,784,278                    $26,803,440,971
CDCI                                           25,232,482                         10,715,665                                      —                                  —                     35,948,147
SSFI   d
                                             641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
AGP                                          642,429,968                              402,300                                     —                 3,483,197,045                      4,126,029,313
TALF                                                        —                     13,407,761                                      —                   573,229,661                        586,637,422
PPIP                                                        —                   319,904,451                        922,874,176                      2,643,315,922                      3,886,094,550
UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
AIFP  e
                                          3,949,941,426                      1,665,336,675                                        —                   927,000,000                      6,542,278,101
ASSP                                                        —                     14,874,984                                      —                   101,074,947                        115,949,931
Total                                $20,185,721,488                      $2,156,248,390                        $922,874,176                  $24,556,362,636                    $47,821,206,691

Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
    Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 1/1/2014; Treasury, Section 105(a) Report, 1/10/2014; Treasury, Dividends and Interest Report, 1/10/2014.
HAMP MODIFICATION STATISTICS                                                                                                                                                                                                          514


TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 12/31/2013
                                                                                             Trials           Trials Converted to               Permanents
                        Trials Started                        Trials Cancelled                                                                                          Permanents Paid Off              Permanents Active
                                                                                             Active               Permanent                     Redefaulted
                           Annual      Cumulative            Annual      Cumulative           Annual            Annual      Cumulative        Annual   Cumulative       Annual       Cumulative         Annual       Cumulative
 TARP      2009          392,129            392,129          23,720            23,720       344,776             23,633              23,633       129           129               2                2      23,502            23,502
           2010          275,989            668,118        302,610            326,330         74,893          243,262              266,895    29,015       29,144            233               235      214,014           237,516
           2011          170,075            838,193          16,798           343,128         42,916          185,254              452,149    59,080       88,224            659               894      125,515           363,031
           2012          114,227            952,420           6,062           349,190         36,336          114,745              566,894    58,860     147,084           1,498             2,392       54,388           417,419
           2013            90,938        1,043,358            2,209           351,399         26,642            98,423             665,317    49,413     196,497           3,521             5,913       45,488           462,907
            Total     1,043,358                            351,399                                            665,317                        196,497                       5,913                        462,907
 GSE       2009          510,491            510,491          24,731            24,731       442,455             43,305              43,305       339           339               3                3      42,963            42,963
           2010          287,839            798,330        383,448            408,179         77,396          269,450              312,755    27,730       28,069            569               572      241,151           284,114
           2011          138,072            936,402          10,654           418,833         36,391          168,423              481,178    51,287       79,356          1,442             2,014      115,694           399,808
                                                                                                                                                                                                                                      APPENDIX F I HAMP MODIFICATION STATISTICS I JANUARY 29, 2014




           2012            81,478        1,017,880            4,814           423,647         25,775            87,280             568,458    49,229     128,585           5,271             7,285       32,780           432,588
           2013            35,719        1,053,599            4,446           428,093         13,551            43,497             611,955    33,990     162,575         10,592            17,877        (1,085)a         431,503
            Total     1,053,599                            428,093                                            611,955                        162,575                     17,877                         431,503
 Total     2009          902,620            902,620          48,451            48,451       787,231             66,938              66,938       468           468               5                5      66,465            66,465
           2010          563,828         1,466,448         686,058            734,509       152,289           512,712              579,650    56,745       57,213            802               807      455,165           521,630
           2011          308,147         1,774,595           27,452           761,961         79,307          353,677              933,327   110,367     167,580           2,101             2,908      241,209           762,839
           2012          195,705         1,970,300           10,876           772,837         62,111          202,025         1,135,352      108,089     275,669           6,769             9,677       87,168           850,007
           2013          126,657         2,096,957            6,655           779,492         40,193          141,920         1,277,272       83,403     359,072         14,113            23,790        44,403           894,410
           Total     2,096,957                            779,492                                         1,277,272                          359,072                     23,790                        894,410
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; and December 31, 2013.
 a
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013, 10/23/2013, and 1/23/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013, 1/23/2014, and 1/24/2014;
 SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
APPENDIX TABLE F.2
HAMP PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES, CUMULATIVE TOTALS, AS OF 11/30/2013
                      HAMP Permanent Modifications Started in 2009                      HAMP Permanent Modifications Started in 2010                        HAMP Permanent Modifications Started in 2011                        HAMP Permanent Modifications Started in 2012                        HAMP Permanent Modifications Started in 2013

                              Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta
                             Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications
                                      with                                                       with                                                       with                                                       with                                                       with
                Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled
                 Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median
               Modifications    Increases Median Increase Median Increase Modifications    Increases Median Increase Median Increase Modifications    Increases Median Increase Median Increase Modifications    Increases Median Increase Median Increase Modifications    Increases Median Increase Median Increase

Before
                    35,303       32,867      6.5%          — $1,431           $—      319,388      295,510      6.5%          — $1,442            $—      245,508      216,779      6.4%          — $1,430            $—      164,964      132,216      6.3%          — $1,417            $—      129,139      105,376      6.1%          — $1,346         $—
Modification

After
                    35,303       32,867      2.0%          —     $765         $—      319,388      295,510      2.0%          —      $785         $—      245,508      216,779      2.0%          —      $805         $—      164,964      132,216      2.0%          —      $746         $—      129,139      105,376      2.0%          —   $714         $—
Modification

After All
Modification        35,303       32,867     4.9%      2.8% $1,026         $242       319,388      295,510      5.0%      2.6% $1,037          $235       245,508      216,779      4.6%      2.3% $1,038          $216       164,964      132,216      3.7%      1.6%       $897      $139       129,139      105,376      3.8%      1.6%     $875     $146
Increases

Notes:
a
  Analysis of HAMP permanent modifications with scheduled payment increases excludes 77,699 HAMP permanent modifications with incomplete records.

Source: SIGTARP analysis of Treasury HAMP data.




APPENDIX TABLE F.3
HAMP PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES, ANNUAL, AS OF 11/30/2013
                  HAMP Permanent Modifications Started in 2009                       HAMP Permanent Modifications Started in 2010                        HAMP Permanent Modifications Started in 2011                        HAMP Permanent Modifications Started in 2012                       HAMP Permanent Modifications Started in 2013

                        Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta
                       Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications
                                with                                                       with                                                       with                                                       with                                                       with
          Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled
  Year of  Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median
Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase

   2014          35,303       30,126      3.0%      1.0%       $862     $93                           0                  0           0        0                           0                  0           0        0                           0        0                     0        0                          0         0                  0        0

   2015          35,300       27,676      4.0%      1.0%       $948     $93        319,363      256,537      3.0%      1.0%       $882      $94                           0                  0           0        0                           0        0                     0        0                          0         0                  0        0

   2016          35,293       23,879      4.9%      0.8%   $1,005       $83        319,310      233,853      4.0%      1.0%       $964      $94        245,398      187,602      3.0%      1.0%       $903      $95                           0        0                     0        0                          0         0                  0        0

   2017          35,283        7,079      4.9%   0.03%         $992     $4         319,214      201,881      4.9%      0.8% $1,015          $69        245,310      167,995      4.0%      1.0%       $988      $96        164,824      125,410      3.0%      1.0%       $838      $88                          0         0                  0        0

   2018                                                                            319,069       74,028      4.9%      0.0%       $987      $7         245,156      134,297      4.6%      0.8% $1,024          $51        164,715      110,622      3.7%      1.0%       $880      $58        128,988      105,374      3.0%      1.0%    $801      $83

   2019                                                                                                                                                244,885           15      4.6%      0.1% $1,060          $24        164,530           56      3.7%      0.6%       $897      $45        128,837       94,585      3.8%      0.7%    $847      $59

   2020                                                                                                                                                                                                                    164,208            1      3.7%      0.2%       $802      $31        128,635       39,847      3.8%      0.5%    $874      $30

   2021                                                                                                                                                                                                                                                                                        128,345          13       3.8%      0.5%    $765      $35

   2022

Notes:
a
  Analysis of HAMP permanent modifications with scheduled payment increases excludes 77,699 HAMP permanent modifications with incomplete records.

Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                                                                                                                                                                                                                                                HAMP MODIFICATION STATISTICS I APPENDIX F I JANUARY 29, 2014
                                                                                                                                                                                                                                                                                                                                                                515
516              APPENDIX G I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | JANUARY 29, 2014




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports
      5(a)(5)      where information requested was refused or              GAO, and SIGTARP.                           and Testimony”
                   not provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of         Provide statistical tables showing          Section 1: “The Office of the SIGTARP”
      Section
                   audit reports and the total dollar value of             dollar value of questioned costs from
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   questioned costs...”                                    SIGTARP audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                   PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX H I JANUARY 29, 2014   517




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and               GAO3
ongoing public audits by the agencies listed below, as of       Ongoing Audits
December 31, 2013. See Appendix I: “Key Oversight Reports       •	 	We will be issuing another report on MHA in February. After
and Testimony” for a listing of published reports. Italic           that a CPP report in April and we expect to issue a report on
style indicates narrative taken verbatim from the agencies’         CDCI in June.
responses to SIGTARP’s data call.
•	 	U.S. Department of Treasury Office of Inspector General     FDIC OIG4
    (“Treasury OIG”)                                            Ongoing Audits
•	 	Federal Reserve Board Office of Inspector General           •	 None
    (“Federal Reserve OIG”)
•	 	Government Accountability Office (“GAO”)                    Endnotes
                                                                1
                                                                  Treasury OIG, response to SIGTARP data call, 12/24/2013.
•	 	Federal Deposit Insurance Corporation Office of Inspector   2
                                                                  Federal Reserve OIG, response to SIGTARP data call, 12/23/2013.
    General (“FDIC OIG”)                                        3
                                                                  GAO, response to SIGTARP data call, 1/6/2014.
                                                                4
                                                                  FDIC OIG, response to SIGTARP data call 12/20/2013.

Treasury OIG1
Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
518          APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I JANUARY 29, 2014




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended December 31, 2013.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances
      effectively; promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial
      systems. Treasury advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved
      governance in financial institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 9/30/2013 – 1/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-14%20
      Transactions%20Report%20as%20of%201-1-14_INVESTMENT.pdf, accessed 1/2/2014. (released weekly)

      Treasury, Daily TARP Update, 10/1/2013 – 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
      -%201.2.2014.pdf, accessed 1/3/2014.

      Treasury, TARP Monthly 105(a) Report, 10/10/2013 – 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      December%202013%20Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2014.

      Treasury, Dividends and Interest Report, 10/10/2013 – 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Dec%20
      2013%20Dividends%20Interest%20Report.pdf, accessed 1/10/2014. (released monthly)

      Treasury, Making Home Affordable Program Performance Report, 10/11/2013 – 1/10/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 1/13/2014. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 10/11/2013 – 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      HAMP-Report.aspx, accessed 1/13/2014. (released monthly)


      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION

      GAO is tasked with performing ongoing oversight of TARP’s performance, including:

      •	   evaluating the characteristics of asset purchases and the disposition of assets acquired
      •	   assessing TARP’s efficiency in using the funds
      •	   evaluating compliance with applicable laws and regulations
      •	   assessing the efficiency of contracting procedures
      •	   auditing TARP’s annual financial statements and internal controls
      •	   submitting reports to Congress at least every 60 days.


      OVERSIGHT REPORTS

      GAO, “Office of Financial Stability (Troubled Asset Relief Program) Fiscal Years 2013 and 2012 Financial Statements,” GAO-14-172R, December 11,
      2013, www.gao.gov/assets/660/659616.pdf, accessed 1/2/2014.
      GAO, “Status of Treasury’s Investments in General Motors and Ally Financial,” GAO-14-6, October 29, 2013, www.gao.gov/assets/660/658636.pdf,
      accessed 1/2/2014.
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I JANUARY 29, 2014                           519




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Treasury Approved Large Decreases in the Estimated Number of Homeowners to be Helped by States Through TARP’s HHF Program,”
10/29/2013, www.sigtarp.gov/Audit%20Reports/HHF_Status_Report.pdf, accessed 1/2/2014.

SIGTARP, “Quarterly Report to Congress,” 10/29/2013, www.sigtarp.gov/Quarterly%20Reports/October_29_2013_Report_to_Congress.pdf, accessed
1/2/2014.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 1/2/2014; GAO, www.gao.gov, accessed 1/2/2014; SIGTARP, www.sigtarp.gov, accessed 1/2/2014; GAO, response to SIGTARP data call, 1/6/2014.
520           APPENDIX J I CORRESPONDENCE I JANUARY 29, 2014




      CORRESPONDENCE
      This appendix provides a copy of the following correspondence:

      CORRESPONDENCE
      Date            From                To                   Regarding
      9/30/2013       SIGTARP             Treasury             Recommendations regarding the appointing of directors to CPP banks
      10/28/2013      Treasury            SIGTARP              Re: Response to SIGTARP CPP, CDCI Recommendations
CORRESPONDENCE I APPENDIX J I JANUARY 29, 2014   521
522   APPENDIX J I CORRESPONDENCE I JANUARY 29, 2014
CORRESPONDENCE I APPENDIX J I JANUARY 29, 2014   523
524   APPENDIX J I CORRESPONDENCE I JANUARY 29, 2014
CORRESPONDENCE I APPENDIX J I JANUARY 29, 2014   525
526           APPENDIX K I PEER REVIEW RESULTS I JANUARY 29, 2014




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
      In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
      its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
      possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
      Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
      that perform audits or attestations in accordance with           General guidelines.
      generally accepted government auditing standards to have an          The Department of Education Office of Inspector
      appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
      peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
      Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
      first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
          The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
      General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
      review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
      control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
      and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
      General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
      September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
      Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations
      report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
      in effect for the year ended March 31, 2012, has been            www.SIGTARP.gov, under “Audit and Other Reports.”
      suitably designed and complied with to provide SIGTARP
      with reasonable assurance of performing and reporting in
      conformity with applicable professional standards in all
      material respects.”
          The report is available on SIGTARP’s website at
      www.SIGTARP.gov, under “Audit and Other Reports.”
    ORGANIZATIONAL CHART

                                                                                                                                 Special Inspector General
                                                                                                                                     Christy Romero

                                                                                                                                                                                                EEO Program
                                                                                                                                                                                                  Manager
                                                                                                                                                                                               Raymond Campbell
                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                        Peggy Ellen
                                                                         Senior Policy Advisor                                                                              Chief of Staff
                                                                              Brian Sano                                                                                         Vacant


                          Deputy SIG –                 Deputy SIG –                          Deputy SIG –                              Deputy SIG –                            Deputy                     Deputy SIG –
                         Investigations                 Reporting                             Legal and                                 Audit and                           Chief of Staff                 Operations
                         Scott Rebein                    Mia Levine                         External Affairs                           Evaluations
                                                                                                                                                                            Charles Jones                   Cathy Alix
                                                                                           Roderick Fillinger                           Bruce Gimbel



 Chief Investigative       Assistant                   Managing Editor                         Assistant                                  Assistant            Director of Policy     ADSIG − Support       ADSIG − HR     ADSIG − CIO      ADSIG − CFO
      Counsel              Deputy SIG                                                                                                    Deputy SIG
                                                                                              Deputy SIG                                                      and Administration         Services
                                                      Maryann Haggerty                                                                                                                                       Sally Ruble   Sangeeta Saraf   Deborah Mathis
    Kevin Gerrity       Charles Gregorski                                                                                                  Vacant                 Judith Grady         Lynn Perkoski
                                                                                              Lori Wagner


   Assistant Chief        Investigative
Investigative Counsel      Operations
     Rae Oliver                                                               Director of                 Director of
                                                                            Communications             Legislative Affairs
                                                                              Troy Gravitt             Joseph Cwiklinski
Investigative Counsel       HQ Operations



                                Hotline
                                                                                                                   Director               Director              Director
                                                                                                                Leslye Burgess          Craig Meklir             Vacant
                         Computer Forensics


                                                                                                            Auditors & Analysts      Auditors & Analysts   Auditors & Analysts
                                                                                                                                                                                                                                                             ORGANIZATIONAL CHART I APPENDIX L I JANUARY 29, 2014




       Note: SIGTARP Organizational chart as of 1/29/2014.
                                                                                                                                                                                                                                                             527
SIGTARP
SIG-QR-14-01

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
